<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 1999</title>
<body><pre>[Senate Hearing 105-821]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-821
 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 1999

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                   on

                           H.R. 4112/S. 2137

AN ACT MAKING APPROPRIATIONS FOR THE LEGISLATIVE BRANCH FOR THE FISCAL 
         YEAR ENDING SEPTEMBER 30, 1999, AND FOR OTHER PURPOSES

                               __________

             Architect of the Capitol (except House items)
                      Congressional Budget Office
                       General Accounting Office
                       Government Printing Office
                      Joint Committee on Printing
                      Joint Committee on Taxation
                        Joint Economic Committee
                          Library of Congress
                          Office of Compliance
                       U.S. Capitol Police Board
                              U.S. Senate

                               __________

        Printed for the use of the Committee on Appropriations



       Available via the World Wide Web: http://www.access.gpo.gov/
                            congress/senate

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
46-108 cc                    WASHINGTON : 1999

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402
                           ISBN 0-16-058028-5





                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             DALE BUMPERS, Arkansas
MITCH McCONNELL, Kentucky            FRANK R. LAUTENBERG, New Jersey
CONRAD BURNS, Montana                TOM HARKIN, Iowa
RICHARD C. SHELBY, Alabama           BARBARA A. MIKULSKI, Maryland
JUDD GREGG, New Hampshire            HARRY REID, Nevada
ROBERT F. BENNETT, Utah              HERB KOHL, Wisconsin
BEN NIGHTHORSE CAMPBELL, Colorado    PATTY MURRAY, Washington
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
LAUCH FAIRCLOTH, North Carolina      BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

                 Subcommittee on the Legislative Branch

                   ROBERT F. BENNETT, Utah, Chairman
TED STEVENS, Alaska                  BYRON DORGAN, North Dakota
LARRY CRAIG, Idaho                   BARBARA BOXER, California
                                     ROBERT C. BYRD, West Virginia
                                       (ex officio)
                           Professional Staff
                           Christine Ciccone
                      James H. English (Minority)
  


                            C O N T E N T S

                              ----------                              

                      Thursday, February 26, 1998

                                                                   Page
U.S. Capitol Police Board........................................     1
U.S. Senate: Office of the Secretary of the Senate...............    27
Congressional Budget Office......................................    67

                        Thursday, March 12, 1998

Joint Economic Committee.........................................    79
Joint Committee on Printing......................................    85
U.S. Senate: Office of the Sergeant at Arms and Doorkeeper.......    89
Joint Committee on Taxation......................................    91
U.S. Senate: Office of the Sergeant at Arms and Doorkeeper.......   111
Library of Congress..............................................   131
Office of Compliance.............................................   193

                        Thursday, March 19, 1998

Architect of the Capitol.........................................   217
General Accounting Office........................................   247
Government Printing Office.......................................   257
  


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 1999

                              ----------                              


                      THURSDAY, FEBRUARY 26, 1998

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Robert F. Bennett (chairman) 
presiding.
    Present: Senators Bennett, Stevens, and Dorgan.

                       U.S. CAPITOL POLICE BOARD

STATEMENTS OF:
        WILSON LIVINGOOD, HOUSE SERGEANT AT ARMS AND CHAIRMAN, U.S. 
            CAPITOL POLICE BOARD
        GREGORY S. CASEY, SERGEANT AT ARMS, U.S. SENATE AND MEMBER, 
            CAPITOL POLICE BOARD
        ALAN M. HANTMAN, AIA, ARCHITECT OF THE CAPITOL
        GARY L. ABRECHT, CHIEF, U.S. CAPITOL POLICE


              opening statement of hon. robert f. bennett


    Senator Bennett. This hearing will come to order.
    Welcome. This is the Appropriations Subcommittee on the 
Legislative Branch.
    This is the first of three hearings which will be held on 
the budget request for fiscal year 1999. The two other hearings 
are scheduled for March 12, at 9:30 a.m., and March 19, at 9 
a.m., in this room, SD-116.
    Last year the total appropriation for the legislative 
branch was approximately $2.25 billion in budget authority. 
That was an increase of approximately 2 percent over the fiscal 
year 1997 level. The budget requests for fiscal year 1999 total 
over $2.4 billion. That is approximately a 9.6-percent 
increase.
    As the Congress continues to work toward a balanced 
budget--which is within our grasp this year--it is going to be 
difficult to provide for all of the requests made.
    One issue which is of particular importance to me is the 
year 2000 technology conversion. I have been actively working 
to ensure that the agencies are prepared and that we do not 
have a total computer failure in our banking systems.
    As the chairman of the Banking Subcommittee on Financial 
Services and Technology, we have held five hearings about the 
preparedness of the banking industry's systems. Last year I 
introduced Senate bill 1518, the Computer Remediation and 
Shareholder Protection Act [CRASH], to require publicly traded 
corporations to disclose their computer systems' ability to 
operate after January 1, 2000.
    We must sweep in front of our own stoop first.
    The Federal Government has responsibilities both internally 
and externally to provide for the health, welfare, and safety 
of American citizens. We must be responsible and be prepared.
    As chairman of this subcommittee, I plan to be as 
aggressive with our own agencies as I have been with the 
executive branch and the private sector.
    That is why I have asked the General Accounting Office 
[GAO] to review the conversion plans of legislative branch 
agencies. We must deal with the conversions now to ensure that 
the legislative branch will be able to perform its 
responsibilities when the time comes.
    Before we begin, I would like to make some general 
observations about the testimony we are about to hear.
    First, the police are to be commended for presenting the 
committee with a budget that more accurately reflects the 
actual historical spending patterns of the U.S. Capitol Police.
    In addition, the work that has been done by the Board and 
Bob Greely to upgrade the security infrastructure of the 
Capitol campus has been first rate.
    After the Police Board testifies, we will hear from the 
Secretary of the Senate, the Honorable Gary Sisco.
    This is the second year in a row that the Secretary has 
requested flat funding except for the COLA adjustment.
    Not only has the Secretary been able to keep his budget 
level, but the office has been aggressively pursuing a number 
of projects crucial to the future of the Senate--namely, the 
legislative information system [LIS], and the financial 
management information system [FMIS].
    More importantly, the Secretary's office has been exemplary 
in responding to requests for information from this committee 
as well as modifying and simplifying his budget to meet the 
needs of this committee.
    The Congressional Budget Office [CBO] has been equally as 
responsive in assisting this committee in juggling the 
financial needs of the legislative branch.
    Last year CBO requested a 1.9-percent increase in their 
budget from the fiscal year 1997 level. When the House and 
Senate were in conference and trying to find money necessary to 
stabilize the GAO, CBO selflessly offered to further reduce 
their almost modest budget.
    The result was that CBO received only a 1.1-percent 
increase over its fiscal year 1997 level. This year CBO has 
requested an overall budget increase of 4.6 percent.
    I would like to thank Senator Dorgan for his work on this 
subcommittee. Your assistance last year, and in particular with 
the GAO, was very, very helpful. I have come to depend on your 
solid understanding of the issues facing this subcommittee. And 
I look forward to the benefit of your counsel again this year.
    I also understand that you have a new member of your staff 
helping with your appropriations work. I would like to welcome 
Shelly Feist to her first legislative branch appropriations 
hearing.
    Senator Dorgan, would you like to make an opening 
statement?


                   statement of hon. byron l. dorgan


    Senator Dorgan. Thank you, Senator Bennett. As you noted, 
the request for the Legislative Branch Subcommittee for fiscal 
year 1999 totals $2,466,030,600, an increase of 9.6 percent 
over the discretionary amount enacted in last year's bill. For 
the Senate items only, the amount requested for fiscal year 
1999 totals $527,292,000, an increase of $23,855.000, or 4.74 
percent, from last year's enacted level.
    I am glad to see that the Senate is doing its part to hold 
tight onto its budgetary reins. I expect that because the 
budgetary constraints on the domestic discretionary budget will 
be tight--together with the efforts to balance the budget in 
the next few years--the 302(b) allocation to this particular 
subcommittee will also be tight.
    Mr. Chairman, I have seen several articles stating that the 
House is interested in cutting President Clinton's budget 
request for the legislative branch. I wanted to take a minute 
at the start of our first hearing to remind everyone that, 
unlike executive branch agencies, the Office of Management and 
Budget [OMB] and the President do not have their own views and 
ideas about levels of expenditure for the budget of the 
legislative branch.
    Therefore, because the House seems to be making a big to-do 
about cutting President Clinton's budget request, I want to 
make sure that everyone here is aware that none of the items in 
the subcommittee's request are the President's request. This 
budget has been submitted by the legislative branch for 
inclusion in the President's budget and then resubmitted back 
to us in full. The President and OMB do not question the 
amounts in the budget, through these hearings, if we find that 
certain requests are inflated, or cannot be justified, the 
responsibility cannot be laid at the President's doorstep. The 
budget for the legislative branch is Congress' own, not 
President Clinton's.
    Mr. Chairman, I look forward to continuing what I view to 
be an excellent working relationship with you on this bill, and 
I look forward to the testimony of each of our witnesses here 
today.
    Senator Bennett. Thank you Senator Dorgan.
    Would you like to make a statement, Senator Stevens?


                     statement of hon. ted stevens


    Senator Stevens. I would like to thank Senator Bennett for 
his stewardship as chairman of the Legislative Branch 
Subcommittee.
    Senator Bennett as well as Senator Dorgan did a good job 
last year of brokering a compromise with the House to keep the 
legislative branch spending to a minimum while also providing 
for some important maintenance projects.
    With the substantial majority of spending in the 
legislative branch dedicated to salaries, spending for 
projects, particularly in the budget of the Architect, has been 
the natural place to find savings.
    We have made some of those savings in the past, but we will 
have to be careful this year that we do not save money now at 
the risk of spending more later to take care of maintenance 
projects that were once small but became large because we 
neglected them.
    I would also like to commend Senator Bennett for his work 
on the year 2000 computer conversion. I want to assure that 
every subcommittee addresses this problem this year.
    This is one area which has potentially devastating results 
for all Americans if the Federal Government does not properly 
solve the problem.
    Mr. Chairman, I look forward to assisting you with your 
work on this subcommittee.
    Senator Bennett. Thank you, Senator Stevens.
    Our first witnesses are the U.S. Capitol Police Board. The 
Honorable Bill Livingood, the House Sergeant at Arms is the 
Chairman of the Board this year. He is accompanied by the 
Honorable Gregory Casey, the Senate Sergeant at Arms; the 
Honorable Alan Hantman, the Architect of the Capitol; and Chief 
Abrecht, the Chief of the U.S. Capitol Police.
    I want to thank the Board for taking the time to recess 
from their training seminar to appear today.
    Last year, the police received a 2.7-percent increase over 
their fiscal year 1997 level. They are requesting a 14.1-
percent increase in fiscal year 1999.
    We look forward to your testimony.
    Mr. Livingood.


                   summary statement of mr. livingood


    Mr. Livingood. Mr. Chairman and members of the committee, I 
am pleased to appear before you to present the fiscal year 1999 
budget request for the U.S. Capitol Police.
    As this budget request shows, we have reached an 
interesting point in the professional development of the U.S. 
Capitol Police. More than at any time in the past, the U.S. 
Capitol Police is undergoing a period of change in order to 
meet the increasing demands of its mission. Not only must we 
guard against new threats to the safety and security of the 
Capitol complex, but the manner in which we meet these threats 
is evolving.
    In the past, the considered proper response to new security 
threats was to add more police officers to the Department. That 
was the case following the 1954 shooting in the House gallery 
and the 1971 and 1983 bombings of the Senate wing of the 
Capitol. Today, as we prepare to enter the next century, the 
U.S. Capitol Police Board feels that the more effective and 
efficient method of better securing the Capitol complex rests 
with the increased use of technology. While the safety and 
security of the congressional community and visiting public 
will always primarily rely on highly qualified and highly 
trained police officers, the application of state-of-the-art 
security technology can certainly be used to augment the 
officer in the field.
    To this end, we have included five new components in the 
general expenses appropriation that are key to setting this 
initiative in motion: the hazardous materials program, 
information security systems, life-cycle replacement of 
physical security systems, physical security annual 
maintenance, and new physical security systems installations. 
Each is considered to be integral to the overall risk 
management efforts of the U.S. Capitol Police because they are 
needed to detect, deter, or mitigate the effects of security 
threats.
    Increased operational and administrative demands placed on 
the Department translate into increased demands on our 
personnel. Therefore, it is essential that we provide our 
officers and support staff with the level of training they need 
to keep pace with the changing nature of their jobs. The 
requested level of funding for tuition expenses will be used to 
provide outside professional instruction to our personnel on 
topics ranging from labor/management relations to chemical and 
biological attack response.
    With regard to personnel issues, it has been a longstanding 
goal of the U.S. Capitol Police Board to ensure that the men 
and women of the U.S. Capitol Police maintain a pay parity with 
their counterparts in other law enforcement agencies. 
Therefore, the USCP fiscal year 1999 budget submission once 
again includes a request to fund pay initiatives which provide 
holiday pay, Sunday premium pay, and shift differential. 
Because police departments need to be staffed 24 hours a day, 7 
days a week, this type of differential pay is considered 
standard and customary in law enforcement agencies. Therefore, 
in order to fairly compensate our personnel who are required to 
work throughout the night, on Sundays and holidays, the U.S. 
Capitol Police Board feels it is imperative that this 
initiative be fully funded.
    Finally, Mr. Chairman, I would like to state the support of 
the U.S. Capitol Police Board for a funding request which is 
included in the Architect's budget submission. Several 
facilities currently used by the U.S. Capitol Police can no 
longer adequately support the mission of the Department. The 
current condition of some of these facilities creates life 
safety and working condition concerns for our personnel. 
Others, such as the offsite delivery center and the vehicle 
maintenance facility, have simply outlived their usefulness and 
are in need of significant repair and expansion or relocation 
to another site.
    This is especially true of the offsite delivery center due 
to the increased level of use which is anticipated when we 
begin screening House deliveries. In addition, our training 
facilities are woefully inadequate. The entire primary training 
facility of the U.S. Capitol Police consists of three converted 
offices in the Ford House Office Building. It is simply 
impossible to support the training needs of a 1,300-member 
department with a mission as diverse and important as that of 
the U.S. Capitol Police in three classrooms in an office 
building.
    In response to these concerns, the Architect has requested 
an appropriation to commission a comprehensive study of the 
facility requirements of the department. Known as the Capitol 
Complex Integrated Security Facilities Program, this study will 
serve as the blueprint on how to best address these facilities 
concerns. In the interim, the Architect is requesting funding 
to address the more immediate repair and Occupational Safety 
and Health Administration regulations concerns. In view of 
these pressing issues, the Board is requesting full funding for 
all of the Architect's budget requests affecting the U.S. 
Capitol Police facilities.
    Over the course of the last year, we have met with and 
heard the concerns of the committees of jurisdiction regarding 
how to best protect against the varied threats and security 
concerns we face today. This budget submission reflects a 
reasonable, measured, and prudent approach to ensuring the 
safety and security of the Congress, the Capitol complex and 
the visiting public and the viability of the U.S. Capitol 
Police. We will continue to work with you and the authorizing 
committees as we address issues concerning risk management, 
security, and law enforcement.
    In closing, I would like to commend the men and women of 
the U.S. Capitol Police. Regardless of the challenge, they 
continually perform their duty in a diligent and professional 
manner. The responsibilities which rest on the shoulders of our 
personnel are daunting. Each day, they must ensure the safety 
and security of the congressional community and thousands of 
constituents by protecting them from crime and acts of 
violence. In doing so, they allow the national legislative 
process to proceed unhindered. However, in order to remain 
viable, the level of support the U.S. Capitol Police receives 
must be commensurate with the level and quality of service 
expected by the Congress and the public. This budget request is 
intended to meet that goal.
    A detailed budget for the U.S. Capitol Police has been 
submitted to the committee. I will be pleased to answer any 
questions that you may have.
    Senator Bennett. Thank you, Mr. Livingood.
    Mr. Casey.


                    summary statement of greg casey


    Mr. Casey. Mr. Chairman and members of the committee, I am 
pleased to appear before you to discuss the fiscal year 1999 
budget request for the U.S. Capitol Police.
    Due to the leadership and support of this committee, and 
the dedication of our personnel, the U.S. Capitol Police has 
achieved notable success in undertaking new responsibilities 
which address the evolving threats to the safety and security 
of the U.S. Congress and those who work and visit within the 
Capitol complex.
    The U.S. Capitol Police currently faces a number of 
management information system issues that require a 
comprehensive study. The Board is continuing to seek an avenue 
to address these issues in consultation with the committees of 
jurisdiction. Our overall goal in seeking this study is to 
provide the Police Board and the police command staff with the 
data necessary to manage the department and its personnel in a 
cost-effective and efficient manner. While the conversion of 
House and Senate payrolls to the National Finance Center will 
address a number of issues, such as providing comprehensive 
payroll data reporting, several other systems, such as the time 
and attendance and inventory control system, are antiquated and 
not year 2000 compliant.
    Included in this budget submission are funds to cover the 
department's computer and telecommunications system expenses 
which were previously included in the budget of the Office of 
the Senate Sergeant at Arms. The Senate has provided the U.S. 
Capitol Police with extensive equipment and technical support 
over the past several years. However, I feel it makes good 
business sense that the Police Board and the police command 
staff have more direct control of the funds required to 
purchase and operate these systems.
    I join Mr. Livingood in stating my support for the 
department's pay initiatives. We ask a lot from the men and 
women of the U.S. Capitol Police, and I think it is important 
that they be compensated at a level which is fair and 
comparable to their counterparts in other law enforcement 
agencies. The requested night differential, holiday pay, and 
Sunday premium pay will ensure that we can maintain pay parity 
with comparable agencies. The approval of this funding will 
serve to provide the U.S. Capitol Police officers equality with 
the employees of other legislative branch agencies who already 
receive this type of compensation.
    I also share concerns about the condition and functionality 
of several facilities we provide to the Department to perform 
its mission. I am pleased that the Architect has pledged to 
study this issue, and I look forward to working with him to 
complete this project and provide our recommendations to the 
committees of jurisdiction. In the interim, your favorable 
consideration of several repair and improvement requests for 
current police facilities will ensure our personnel can be 
provided with clean, safe, and functional working environments. 
Also, the first phase of the K-9 training facility renovation 
is underway. However, the Architect has requested funding for 
fiscal year 1999 which is essential to completing the project 
and making the facility fully operational.
    During his testimony, Mr. Hantman will make a presentation 
on the perimeter security plan. This plan provides a 
comprehensive, integrated plan for making improvements which 
are critical to protecting the Capitol complex from acts of 
violence and terrorism. This plan has been reviewed and 
approved by the U.S. Capitol Police Board, and we have provided 
briefings to the Senate Committee on Rules and Administration 
and the chairman of the House Oversight Committee. It should be 
noted that several options were considered. However, we feel 
that this plan if implemented in its entirety, will provide the 
better risk management solution to longstanding perimeter 
security concerns.
    I am proud of the recent accomplishments of the U.S. 
Capitol Police. This department is now involved in national 
security-related activities that were once considered beyond 
its ability. While the officer at the door will always be our 
first line of security, there is a depth and diversity to the 
U.S. Capitol Police that does not readily meet the eye. The 
fact that the men and women of the department can quietly and 
effectively handle such sensitive and important 
responsibilities and operate as co-equals among members of 
other Federal law enforcement agencies attests to the level of 
professionalism they have attained.
    I look forward to working with the members of the committee 
as we continue to address the funding, support, and 
administrative requirements of the U.S. Capitol Police. I will 
be pleased to answer any questions you may have.
    Senator Bennett. Thank you, Mr. Casey.
    Mr. Hantman.


                        comments by mr. hantman


    Mr. Hantman. Mr. Chairman, I am pleased to join my 
colleagues on the Capitol Police Board and Chief Abrecht today 
in presenting a comprehensive, integrated program for improved 
security within the Capitol complex. Before I begin this 
portion of the presentation, I would like to thank Bill 
Livingood for his enthusiasm, energy, and expertise in enabling 
us to move forward with the development of this proposed 
program, as well as Greg Casey for his outstanding leadership 
this past year as Chairman of the Board.
    I have been Architect for just a little over 1 year, and am 
fully aware of our security needs, due primarily to the 
openness and cooperative approach my fellow Board members have 
displayed in the planning and decisionmaking process. For this 
I would formally like to thank them and their staffs for their 
support and inclusive spirit. We have developed a high level of 
mutual respect and confidence, and this has enabled us to build 
a productive working team.
    In a few weeks, I will be presenting to this committee my 
proposed budget for fiscal year 1999, and its 5-year master 
plan dealing with the programmatic needs of the Office of the 
Architect of the Capitol, in support of the Congress and its 
legislative branch agencies. The comprehensive plan that we 
present to you today takes this philosophy of creating an 
inclusive, multiyear approach to planning and problem-solving 
and extends it to the critical area of security.
    Other proposed short- and long-term projects, including the 
Capitol visitor center, would be built to serve as important 
parts of the systemic modernization and strengthening of the 
integrated security infrastructure program which we present to 
you today. Mr. Chairman, let me assure you and the other 
members of this committee that improvements to our security 
systems and structures is one of the main focuses of this 
office, in support of the Capitol Police Board, and will remain 
so.


 memorandum of understanding between architect of the capitol and u.s. 
                             capitol police


    It may be helpful to briefly review the division of 
responsibilities that have been established between the Capitol 
Police's Physical Security Division and my office for the 
development and implementation of the physical security 
improvements within the buildings and their associated grounds. 
A memorandum of understanding [MOU] has been developed with the 
Capitol Police that established the division of 
responsibilities, and the processes and procedures to be 
followed when developing and implementing security projects. 
This memorandum has proven to be an excellent matrix that has 
fostered the development of a close working relationship 
between the two organizations. For the benefit of the committee 
and to place this agreement on the record, I have included a 
copy with my testimony.
    In summary, the MOU assigns the responsibility for design, 
procurement, installation, and maintenance of physical security 
barriers and other structures to the Architect of the Capitol 
while the Capitol Police's Physical Security Division is in 
charge of design, procurement, installation of other security 
systems, including intrusion and duress alarms, x ray, 
scanning, and other security systems for facilities. My office 
continues to provide infrastructure support for the 
implementation of these systems. This has resulted in a strong 
working relationship between the two organizations.


                        perimeter security plan


    Last year, the Senate Committee on Rules and Administration 
directed the Capitol Police Board to develop a specific plan 
for Capitol square as well as the streets surrounding the 
Senate office buildings. The challenge was to sensitively 
integrate a sophisticated security program into the historic 
landscape of the Capitol Grounds and the fabric of the 
incomparable complex of buildings that grace Capitol Hill. The 
solution has been strongly influenced by the fact that the 
Capitol is the peoples' building, and visitors must perceive it 
as such with reasonable access being provided. Perimeter 
fencing and other overly intrusive security measures have, 
therefore, been avoided.
    To meet this challenge, the Board organized a task force 
made up of key staff from the Architect's office, the Senate 
and House Sergeants at Arms, the Capitol Police, and nationally 
recognized architectural and security consultants. The task 
force reviewed the previous work done by various groups, 
including the schematic design developed in the late 1980's 
that became known as the whip's plan, and the 1995 security 
evaluation requested by the Board and performed by the U.S. 
Secret Service and Capitol Police.
    The primary elements of the proposed plan include improved 
security at all entrances to Capitol square through the use of 
a combination of high impact vehicle barriers that are police 
activated at the most critical locations, or card activated 
egress from parking-related areas. These are used in 
conjunction with a continuous string of security bollards 
similar to those designed for, and installed at, the White 
House. These bollards would replace the concrete planters and 
sewer pipes that had been temporarily put in place in the 
1980's. Together with new high-impact stone planters, 
consistent with the Frederick Law Olmsted walls, and the 
integration of electronic and other security systems at each 
entrance, a continuously secure perimeter would be created 
largely internal to the original Olmsted walls which, in most 
areas, are too low to meet security height requirements and are 
not of reinforced construction.
    At each of the Capitol square access points, the 
incorporation of modern electronic and other security systems 
would be integrated with new barrier structures in the form of 
planters designed to be consistent with the Frederick Law 
Olmsted walls, and the replacement of the existing concrete 
sewer pipes and planters with security bollards of a design 
consistent with that being deployed at other Government 
properties. The end result of the proposed changes would be 
significant improvements of both the security needs and 
appearance of Capitol square.
    The Senate Rules Committee also directed the Board to 
develop a plan specifically to address the Senate grounds and 
office buildings. Although this matter relates solely to the 
Senate, I have requested funding under our perimeter security 
project in the Capitol Grounds appropriation for this purpose. 
I bring this to your attention to clarify the extent of that 
request. To resolve the security concerns, the Board recommends 
that landscape elements and bollards similar to those 
recommended for Capitol square replace the existing jersey 
barriers, concrete planters, and pipe sections. This proposed 
solution would maintain necessary levels of security while 
softening the visual impact of these measures.
    The proposed architectural vocabulary that has been 
developed through this design effort will be consistently 
applied to other Federal facilities within the Capitol complex, 
such as the Library of Congress and the Supreme Court, as 
appropriate, as their perimeter security programs are further 
evaluated and separately funded.
    The costs associated with the various components of the 
perimeter security program total $20 million, and are included 
in the Architect of the Capitol's Capitol Grounds appropriation 
request for fiscal year 1999. Although the costs represent a 
significant funding level for the legislative branch budget to 
absorb during this time of diminishing resources, it should be 
noted that it is not out of line with the magnitude of 
expenditures programmed for other Federal facilities which have 
in their aggregate been allocated over $1 billion for security 
improvements in the Consolidated Appropriations Act of 1997 for 
upgrading security.
    If these recommendations are approved by Congress, the 
funding will be required in fiscal year 1999, with the goal 
that the complete program would be fully implemented no later 
than the end of fiscal year 2001. Approximately $1.5 million 
will be required initially to develop detailed design and 
constructions documents to begin this process. A preliminary 
construction schedule and cost estimate of the Capitol square 
and Senate grounds security improvement program can be provided 
for the record.


       security projects in the architect of the capitol's budget


    There are several additional projects included in the 
Architect of the Capitol request for fiscal year 1999 that are 
necessary to support the security efforts of the U.S. Capitol 
Police. Two of these relate to providing needed life safety 
improvements to police facilities, the offsite delivery center, 
$50,000; as well as at the firing range in the basement of the 
Rayburn Building, $50,000.
    Specific needs to address security measures, other than the 
perimeter security project, include funding for infrastructure 
support for the electronic security measures being carried out 
by the Physical Security Division, $1 million; improvements to 
the police communications center, $1 million; work related to 
the command center, $350,000; improvements to the chemical and 
explosives storage facility at D.C. Village, $250,000; 
modifications to the offsite delivery center that are needed to 
improve the building and working conditions there, $150,000; 
design funding for emergency systems in the Capitol, $100,000; 
and, finally, funding to develop an integrated security program 
for the Capitol complex, $475,000. This last project is very 
important as it will provide funding to assist us and the 
police in determining specific programmatic needs for a wide 
variety of police activities, and then developing options for 
providing the necessary facilities to support them.


            architect of the capitol police-related projects


    We have also requested funds in the Senate portion of the 
bill for several building maintenance projects totaling 
$1,058,000. These include several projects related to 
maintaining the Capitol Police headquarters building: 
replacement of worn out carpet, $380,000; roofing work and 
installing fall protection, $350,000; and installation of storm 
windows, $168,000. We are also requesting that the entrance to 
the Russell Building at Delaware Avenue be modified for 
increased security and improved control of ambient air, and 
that is estimated to cost $160,000.
    Last, two additional items requested are an additional 
increment for the canine facility at D.C. Village, $200,000, 
and funds to construct a kiosk at Delaware Avenue and C Street, 
SW, to support the inspection of goods delivered to the House 
loading docks, $52,000.
    All of these requests were coordinated carefully between 
the police and my agency, and they have been reviewed and 
approved by the Capitol Police Board.
    Mr. Chairman, that concludes my testimony, and I would be 
happy to respond to any questions you and the members of the 
committee may have.
    Senator Bennett. Thank you, Mr. Hantman.
    Mr. Abrecht.


                   summary statement of gary abrecht


    Mr. Abrecht. Mr. Chairman and members of the committee, I 
am honored to appear before you today to discuss the 1999 
budget request for the U.S. Capitol Police.
    Over the past few years, the U.S. Capitol Police has been a 
department in transition. As the agency with the sole statutory 
responsibility for providing protective and law enforcement 
services for the U.S. Congress, we must constantly strive to 
meet varied and ever-present security threats while providing 
the highest possible level of service.
    During the past year, the U.S. Capitol Police has made 
significant progress in our critical incident management 
initiatives. Most notably, we are continuing to enhance our 
ability to respond to and mitigate the effects of a chemical or 
biological attack. We have conducted detection and response 
training for our personnel and have acquired specialized 
emergency equipment. In addition, we are coordinating our 
efforts with our agencies who have technical knowledge in this 
emerging field. While there is still much work to be done, I am 
confident that the U.S. Capitol Police is taking a proactive 
role in addressing this form of terrorism.
    We have also made great strides in addressing more general 
life safety issues. We have developed the Capitol Buildings 
Emergency Preparedness Program and distributed emergency 
evacuation brochures to every office within the Capitol 
complex. These brochures, which comply with OSHA requirements, 
will ensure that every staff member will know how to safely 
evacuate in case of an emergency within their building.
    An important part of our preparedness effort is the 
formation of the critical incident command group. This group 
brings together the U.S. Capitol Police, the House and Senate 
Sergeants at Arms, the Architect of the Capitol, and the Office 
of the Attending Physician to coordinate the response to an 
emergency situation. This entire process was tested in 
December, when we conducted the first-ever evacuation drill of 
the U.S. Capitol Building in conjunction with the D.C. Fire 
Department and Emergency Medical Service. Such drills are 
beneficial to the staff, who can familiarize themselves with 
evacuation routes and assembly areas, and also serve as a test 
of our response and command capabilities.
    I am pleased to report that the repair and upgrade of the 
physical security systems within the Capitol complex is 
proceeding smoothly. This effort is part of a three-phase, 5-
year plan to modernize the alarms, cameras, and security 
equipment we utilize to protect the Capitol Building and 
congressional community. Once this plan is fully implemented, 
all of our security systems will be state of the art and they 
will be fully integrated, thus allowing for improved police 
operations and alarm response.
    Clearly, the mission and responsibilities of the U.S. 
Capitol Police Department are expanding and evolving. 
Therefore, this year's general expenses budget request contains 
several items which reflect the increasing level of U.S. 
Capitol Police responsibilities. The first such item is the 
Hazardous Materials Program, which incorporates our chemical 
and biological response initiative. This initiative requires 
very specialized equipment which is needed to detect and 
mitigate the effects of such an attack. As this program 
develops, the equipment, which will be purchased with the 
appropriation, will be integral to our risk management efforts.
    The second item concerns the information security systems. 
In order to provide for the protection of national security 
information possessed up here on the Capitol, the U.S. Capitol 
Police conducts operations to ensure that Congress operates 
free from the threat of surreptitious and clandestine listening 
devices and monitoring systems. The equipment we currently 
utilize is obsolete and in need of replacement. Therefore, the 
funds requested for information security systems will allow us 
to purchase the technological equipment needed to perform this 
critical function at the highest levels.
    Finally, we have requested funding for the physical 
security systems program. As a result of the support and 
leadership of this committee, funding was provided to implement 
the three-phase plan I previously discussed. However, as this 
equipment is installed, it is important that it be maintained 
and placed on a planned life cycle replacement program. In 
doing so, we can ensure that our physical security systems are 
always fully operational and that we can methodically purchase 
equipment which keeps pace with advancements in security 
technology.
    This has been a problem in the Congress for some time, I 
think it is fair to say. We have been reactive. After each of 
the bombings, for instance, in 1971 and 1983, security 
improvements were made, and then no follow-on was done to that. 
And the systems started to get older and older and older. And, 
all of a sudden, they all die at the same time when you buy 
them all at the same time. What we are looking for here is to 
put this whole system on a life cycle replacement basis, so 
that every year we buy a small number of x-ray machines, rather 
than waiting for them all to drop off the cliff and replacing 
them all at one time.
    You can get a lot of advantages from doing that. You get 
the latest technology each time when you buy something. Rather 
than having all of one technology, you have new technology 
every year. The same with all of our cameras. The same with all 
of our alarm systems. All of this equipment needs to be on a 
life cycle basis, so that every year some of it is replaced so 
it is constantly all working.
    This year we have also requested an increase in the funding 
level for our fleet vehicles. In the past few years we have had 
to divert money from this account to fund protective 
operations. In doing so, we repeatedly had to extend the useful 
life of several of our vehicles. In order to ensure that our 
fleet is safe, modern, and able to meet the demands of police 
work, these vehicles need to be replaced. This requested 
increase will allow us to make a number of vehicle purchases 
that have been repeatedly delayed.
    And part of the cause of that is something that you 
mentioned in your opening remarks--that we have not properly 
funded the protective operations in the past, and I guess I 
always hoped that the cost of that would go back down and we 
would not need as much money as we had. And I think it is on 
our ticket, if you will, that we did not fund those 
sufficiently. We had to use our vehicle money to fund that. And 
now we have really got ourselves into a bind. The point was 
very well taken that we need to base it on historical fact and 
then fund our protective operations at a level that they are 
apparently going to cost.
    I join the members of the U.S. Capitol Police Board in 
requesting your favorable consideration of the Architect's 
request to fund the proposed Capitol Complex Integrated 
Security Facilities Program. This study will provide a means to 
prepare a comprehensive plan to address several very serious 
facilities problems. I think they have been discussed and you 
have had an opportunity to see a couple of them.
    However, I have an immediate concern about the current 
condition of the K-9 training facility, the Rayburn firing 
range, and the offsite delivery center. Each of these 
facilities needs considerable repairs to address several 
pressing life safety, OSHA, and general-use concerns. The funds 
requested by the Architect will ensure that our personnel can 
perform their duties in safe, functional facilities until these 
larger issues of where these facilities ultimately ought to be 
located are resolved.
    And, finally, this year's budget request once again 
includes a proposal to provide our personnel with shift 
differential, holiday pay, and Sunday premium pay. Since police 
departments must be adequately staffed 24 hours a day, 7 days a 
week, this type of compensation is routinely provided to law 
enforcement officers, including those of comparable executive 
branch agencies. Interestingly, it is also provided to the 
legislative branch service organizations which have 24-hour 
operations, such as the Library of Congress, the General 
Accounting Office, and the Architect of the Capitol. This 
funding will rectify this inequity and ensure that our 
personnel are fairly compensated.
    I do not think there is any place in the country that I 
know of where police officers are asked to work on Christmas 
Day and not be paid some additional compensation for doing 
that. But that is the situation here. My officers, when they 
work on Christmas Day, while we are all at home unwrapping our 
packages, they are just getting compensatory time. They are not 
getting paid an additional nickel for working on Christmas Day. 
And that just is not right, and I would hope that you would act 
favorably on our request in that regard.
    We have also included in our budget, as Mr. Casey has 
mentioned, amounts for reimbursing the Senate Sergeant at Arms 
for computer and telecommunications services. I would like to 
point out that should these amounts not be approved as a result 
of the disagreements with the House, they will need to be 
restored to the Sergeant at Arms fiscal year 1999 budget.
    And one of the things that scares me to death, as the 
Police Chief, is that I am going to end up some day with 
computers being switched off, with no radio systems. They have 
to be in some budget. If not in mine, it needs to be in Mr. 
Casey's. And this is obviously a matter of disagreement between 
the two bodies and it is way above my pay grade. But I just 
need the radios and the computers, and I am sure you will 
understand that.
    As you are aware, the achievement of a unified U.S. Capitol 
Police payroll has been a longstanding goal of this committee 
and of the department. I am pleased to report that we made a 
significant step toward achieving that goal when we completed 
the conversion of all House appropriated positions to the 
National Finance Center for payroll purposes several months 
ago. And this Sunday, March 1, we will convert the positions on 
the Senate roll, thereby giving us a de facto unified payroll. 
This accomplishment represents one of the most important and 
beneficial administrative changes to affect the department. I 
would like to thank the members of the committee and your staff 
for providing the guidance and assistance required to 
successfully complete this project. It will be a major 
improvement in the administration of the department.
    I am proud of the level and quality of service the men and 
women of the U.S. Capitol Police provide on a daily basis. 
Securing the Capitol complex is a daunting task. With the 
support of Congress, we have faced and overcome many challenges 
in the past. Many of the items included in this budget request 
provide a glimpse of future risk management challenges and 
concerns and give insight into how we are preparing to address 
them. As this budget submission shows, we intend to build upon 
past operational and administrative accomplishments and 
undertake new initiatives in the most cost-efficient and 
effective manner possible.
    Thank you, Mr. Chairman.
    Senator Bennett. Thank you very much, Mr. Abrecht.
    Senator Stevens. Mr. Chairman.
    Senator Bennett. Yes.
    Senator Stevens. I have to leave to go to another meeting. 
Could I just do one thing before I leave? I want to apologize 
to you, Chief, for having grabbed you right after that joint 
session, when we were so disturbed about the press blocking our 
exit from the joint session. Later I had a discussion with 
other Members and with some of the wives and guests who were in 
the gallery. And I want to submit to you a potential problem.
    This is probably the largest gathering of officials of all 
three branches of our National Government, executive, judicial, 
congressional, and many other guests, including the leaders of 
the military. It probably is, I would say, the most attractive 
target to any terrorist group in the world. And yet if you look 
at the possibility of getting out of that room, the exits are 
all going the wrong way, people are going crossways. I really 
do not know how we would get people out of that room, with the 
President and the Vice President and all of the Cabinet, the 
leaders of both parties in the Congress and the Joint Chiefs. 
It is just a nightmare.
    And the more we thought about the problem, of how all the 
exits are now blocked by the press, we want to ask you to study 
how would we get out of there, how would we get the Justices, 
the Joint Chiefs, the President, the Vice President, the 
Speaker, the majority leader, and all of the people who are in 
there and their guests, how would we get out of there if there 
was some calamity in that area?
    That highlights the basic problem of just living and trying 
to get through the rotunda on a daily basis. It is loaded with 
tourists. We try to find ways around it. I end up sometimes 
going over and going through the Speaker's passageway in order 
to get through to the other side.
    I think we are getting to the point where we are planning 
all this access by the tourists outside, but we are forgetting 
who lives inside and the dangers that are inside these 
buildings. So I would urge you to study that, and tell us, one, 
how are we going to deal with an emergency, and, two, how are 
we going to deal with just the routine activities that come 
from a joint session, when it is not the State of the Union 
Message, and we are trying to exit over there and all of the 
exits are blocked by the press. It just does not seem right.
    And I think, somehow, my solution would be to put the press 
down on the first floor. But I do not know how we are going to 
do it. Somehow we are going to have to get out of there. And it 
is extremely frustrating to try to do that.
    We waited for 35-45 minutes for people who were in the 
gallery to get back to my office. And my office is right off of 
that rotunda, over there next to the Speaker's office. Now, 
that is a long time.
    I think that the system is broken down as far as just the 
ability to empty that Chamber when we have a joint session. And 
it is not your problem, I know, but I think it is our total 
problem.
    Mr. Abrecht. It is our problem, absolutely. I absolutely 
agree with you, Senator.
    In fact, interestingly enough, we were concerned about this 
problem for several years. And that day, we had placed a video 
camera up in the gallery around Statuary Hall in order to film 
what a mess it was so that we could, frankly, use that as some 
impetus to get some change.
    We have the videotape and we have prepared some 
correspondence to the Board, to say that this problem needs to 
be addressed. It is a life safety problem. And you are 
absolutely correct, there is no proper exit through that very 
important corridor during this event. You are 100 percent 
correct.
    I actually took no offense at all. You were completely 
correct when you approached me about it. And I wish I could 
have told you I could do something right then, but it is a 
systemic problem that needs some planning, rather than 
addressing the way it is now. It will not work; you are 
correct.
    Senator Stevens. There was a novel written about 15 years 
ago about an attack that went on during a joint session. You 
ought to read it sometime. It is a nightmare. It is 
increasingly a nightmare now, because of the increase in the 
number of people who are coming in while we are trying to go 
out. So I think we really need a plan to deal with that.
    Mr. Abrecht. There will be a plan for the next joint 
session.
    Mr. Livingood. We have taken some action, too, already to 
alleviate the problem you ran into specifically. And there were 
some other plans that had been in place you did not see which, 
of course, we did not have to use.
    Senator Stevens. Yes.
    Mr. Livingood. We had emergency plans to move the Congress 
and guests. We had police officers positioned at various 
locations. We had practiced this three times in the early 
morning hours.
    Mr. Casey. At 3 o'clock in the morning.
    Mr. Livingood. Three o'clock in the morning. Just for this 
purpose, sir, prior to this, because we realized this also.
    The press were a problem, because we had an unprecedented 
number.
    Senator Stevens. Yes, indeed, there were.
    Mr. Livingood. We have since, as the Chief said, discussed 
this. I have discussed this on the House side with the Speaker, 
and we have a contingency plan already that we probably like to 
place at the next one. And it will require action of both the 
House and the Senate.
    Senator Stevens. Well, I think the participants over there 
are contributing to it to a certain extent, because we used to 
have order in terms of who went out and the right exit, more or 
less. The President went first, then the Justices, then the 
Cabinet, then the Joint Chiefs, and then Members of the House 
and Senate would go out different ways. It is everybody for 
himself now. There is no order there at all in terms of exiting 
a joint session. And I think that must be restored.
    But that is not your problem. That is internal, inside, 
before they come out. But once they come out, the ability to 
exit that joint session depends upon the access that is 
provided by the police.
    Thank you very much.
    Senator Bennett. Thank you, Mr. Chairman.
    Thank you very much, Mr. Casey.


                     additional committee questions


    We do have a vote. So the subcommittee will stand in recess 
until I can get over there and get back. I apologize to our 
second witness, who is Gary Sisco, Secretary of the Senate. But 
we have to delay until the Senate business concludes.
    [A brief recess was taken.]
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                     Additional Committee Questions
    Question. How does base pay and benefits of the Capitol Police 
compare with other legislative branch police and other local police?
    Answer.
Legislative Branch Police Agencies
    There are only two other Legislative Branch police forces: The 
Library of Congress Police and the Government Printing Office Police. 
Members of the Library Police are currently compensated using the 
Capitol Police salary scale. They do, however, receive Holiday Pay when 
required to work on a federal holiday. U.S. Capitol Police members 
receive only compensatory time.
    The base salary scale for the members of the Government Printing 
Office Police is lower than the Capitol Police scale. They do however 
receive Holiday Pay, a 15 percent shift differential, and Sunday 
premium pay.
Other Local Agencies
    There are seven other police agencies of reasonably similar size 
and scope in the Washington Metropolitan area: Two executive branch 
agencies (The United States Secret Service Uniformed Division and the 
United States Park Police), two city departments (The Metropolitan 
Police Department of the District of Columbia and the Alexandria Police 
Department) and three county departments (Montgomery, Prince George's 
and Fairfax).
    While each has a different base salary scheme, the United States 
Capitol Police salary is generally in the middle of the range when 
officers of similar levels of experience are compared (e.g. starting 
salary, five years of service, ten years of service).
    Two notable discrepancies are found when base salaries are 
compared: Capitol Police Officers with many years of service are the 
lowest paid officers in the group, and ranking officials (Captains, 
Inspectors and Deputy Chiefs) are paid substantially less than their 
counterparts in the other agencies.
    Comparing benefits is considerably more complicated than comparing 
base pay, particularly since two states, the federal executive branch 
and the District of Columbia are involved. For the purposes of the 
issues before the Committee the following specific information is 
provided:
    Holiday Pay.--All seven Departments pay Holiday Pay when a member 
is required to work on a holiday.
    Shift Differential.--All seven Departments provide some type of 
additional compensation for work outside normal business hours. The 
amounts and hours of coverage vary. The scheme we have proposed is that 
included in Title V of the U.S. Code covering most executive branch 
employees, including the United States Secret Service Uniformed 
Division and the United States Park Police.
    Sunday Premium Pay.--The two executive branch agencies, the United 
States Secret Service Uniformed Division and the United States Park 
Police, provide this differential to their personnel. We have modeled 
our proposal on theirs, which is found in Title V of the United States 
Code.
    Question. The Board should be commended for supporting the Police 
budget officer, Bruce Holmberg in modernizing the accounting and budget 
functions of the police. Please update us on your efforts to cross 
service your accounting function. When will that be completed? Will 
there be any reimbursement cost associated with cross servicing?
    Answer. Our Office of Financial Management has had several meetings 
with representatives of the GAO. Based on these meetings, indications 
are that this arrangement would meet our requirements while not 
imposing any burden on GAO. We are still in the process of providing 
information on our requirements and will be entering into a Memorandum 
of Understanding in the near future.
    A preliminary decision was made to focus on the basic accounting 
system for implementation by October 1 of this year. Later we will add 
other modules including inventory systems and procurement.
    There will be start-up costs and reimbursement associated with the 
cross-servicing. We have the amount of $100,000 in our current budget 
and have included this amount again in fiscal year 1999. At this time, 
GAO believes that this initiative can be accomplished within these 
amounts.
    Question. The Police's financial, human resources and information 
resources management systems and processes are currently being 
reviewed. The Police need significant modernization of their systems. 
Currently there are only 3 individuals in the budget office. Will these 
3 individuals be able to implement the new systems? If not, are the 
police prepared to devote the necessary resources to help implement 
these new systems?
    Answer. To date, we are still in the preliminary stages of 
providing information. As the review progresses I am certain that we 
will receive recommendations regarding the numbers and levels of staff. 
GAO has expressed some concerns along these lines for the Office of 
Financial Management. They have suggested a full-time detailee for the 
duration of the accounting project. We are looking at options including 
having GAO provide a detailee on a reimbursable basis.
    Once the review is completed, we will take action consistent with 
the recommendations.
    Question. Please update the Committee on the unionization of the 
force.
    Answer. The following is a chronology of activities undertaken to 
date:
    October 1996.--Petition For Certification as exclusive bargaining 
representative by International Brotherhood of Teamsters, Fraternal 
Order of Police, International Union of Police Associations.
    January 31, 1997.--Board of Directors, Office of Compliance 
Decision Order Excluding certain divisions of the USCP.
    February 24, 1997.--Decision and Direction of Election issued by 
Board of Directors, Office of Compliance.
    April 1-2, 1997.--Election held at USCP Headquarters (Challenges 
sufficient to affect results). International Union of Police 
Associations eliminated.
    May 12, 1997.--Decision and Direction on Challenged Ballots.
    June 17-18, 1997.--Second Election Runoff between International 
Brotherhood of Teamsters and Fraternal Order of Police.
    June 23, 1997.--Union demand for negotiation of Collective 
Bargaining Agreement received, with notice that proposed Ground Rules 
will be submitted within 30 days.
    June 27, 1997.--Certification of Representative certifies the 
Fraternal Order of Police as exclusive representative of all employees 
in the bargaining unit.
    November 21, 1997.--Union's Ground Rules Proposal submitted to the 
Department.
    December 15, 1997.--Department Counter Proposal submitted to Union.
    January 1998.--Negotiation of Ground Rules Agreement begins.
    February 9, 1998.--Ground Rules Agreement signed.
    March 1998.--Contract Proposals to be exchanged.
    April 1998.--Counter-proposals, modifications, to be exchanged.
    April 23, 1998.--Actual negotiation of Collective Bargaining 
Agreement to begin.
    In general, relations between the FOP and the Department management 
have been business-like and cordial. The FOP has represented members of 
the bargaining have been filed, all of which have either been settled 
or resolved in the Department's favor. The volume of labor relations 
work generated has been heavy, and the additional FTE for a Director of 
Labor Relations is urgently needed.
    Question. The Board has requested $362,000 for replacement 
vehicles. Does the Board plan to retire the vehicles they are 
replacing? If so, could you provide the Committee with an estimate of 
the trade-in value of those vehicles and the total balance necessary to 
meet the request.
    Answer. The total amount requested for vehicle replacements is 
$498,000. The trade-in value of the replaced vehicles is not factored 
in to our estimate. Traditionally, we receive very little for the 
vehicles that are traded because of their overall condition and high 
mileage. The 16 vehicles that we plan to replace all have in excess of 
75,000 miles ranging up to 110,000 miles. Of the eight motorcycles, 2 
have been declared ``totaled''.
    For the twenty-five vehicles planned for replacement, we have 
received estimates ranging from $64,000 to $80,000. The net cost of the 
new vehicles will range from $418,000 to $434,000 if the trade-in value 
is received.
    Question. Last year the Police Board requested and the AOC included 
in its budget request $350,000 for fiscal year 1998 and $350,000 for 
fiscal year 1999 for funds to renovate the K-9 facility. The 
Appropriations Committees provided $200,000 in fiscal year 1998. Since 
last year, the police officers have done a substantial amount of the 
work at the K-9 themselves. Has the AOC's office done any work with the 
$200,000 provided? Have they reevaluated the cost of that project in 
light of the work that has been done?
    Answer. Although the U.S. Capitol Police have performed a 
creditable job in cleaning out the existing facility, none of the 
mechanical, electrical, plumbing or other repairs have been undertaken. 
These are presently under design. The plan for fiscal year 1998 is to 
renovate the portion of the building that accommodates the canines by 
replacing the heating, ventilating and air conditioning system, upgrade 
the electrical system, install adequate kennel drainage and plumbing, 
resurfacing the floor, and replacing doors, door frames, windows, etc. 
as required to permit housing of canines in the building. During fiscal 
year 1999, the administrative portion of the building will be renovated 
with the $200,000 funding increment programmed for that year. The 
fiscal year 2000 increment will focus on exterior site problem, 
especially drainage around the building and the training field. The 
final programmed increment of $100,000 in fiscal year 2001 will 
complete the site work by addressing the parking, relocation of the 
trailers, and any final work required.
    Question. Last year the Committee gave the Office of the Architect 
$100,000 of the $150,000 requested for OSHA repairs to the off-site 
delivery facility. The Board is requesting the additional $50,000 this 
year. Of the original $100,000, what work has been completed to date? 
Is the total $50,000 still required to complete the project?
    Answer. A preliminary survey of the off-site delivery facility (P 
St. Warehouse) has been completed, and a scope of services has been 
developed. An architect/engineer will be retained to complete a phased 
plan for implementation of the OSHA repairs and related improvements. 
Phased implementations of the repairs will begin in late spring or 
early summer. The additional $50,000 requested in fiscal year 1999 will 
be required to complete the project.
    Question. In fiscal year 1998 the Police budget included a request 
for $2,140,000 for telecommunications and computer upgrades. For fiscal 
year 1999, the Police are requesting $1,477,000 for computers. Last 
year the question was raised whether that substantial of an increase 
for computers was a one-time increase or should we expect continuing 
high budgets in this area. Can we expect the normal non-recurring 
budget to be in the area of $600,000 per year?
    Answer. There are several issues surrounding the fiscal year 1999 
request for computer services. The first issue is that the USCP has 
received support for computer services in the past from the Office of 
the Senate Sergeant at Arms. At the direction of the Senate Committee 
on Appropriations, the USCP has included this cost in its own budget 
for fiscal year 1999, while the Office of the Senate Sergeant at Arms 
has omitted this item from their own budget request.
    The fiscal year 1999 request for USCP computer services totals 
$1,007,000. Of this amount, $207,000 is for maintenance and service 
contracts currently in effect through the Office of the Senate Sergeant 
at Arms and some miscellaneous hardware and software. The remaining 
$800,000 is for systems replacement in the USCP.
    The systems referred to include the Inventory Control System, Time 
and Attendance, Personnel Administration, Injury System, Congressional 
Employee Locator System, Report Writing System and the Expense Control 
System (accounting). The migration of the House and Senate payrolls to 
the NFC will be completed in March, 1998. In addition, meetings are 
currently on-going for a planned cross-servicing arrangement with the 
General Accounting Office for the accounting system. Timelines are 
being developed consistent with a planned effective date of October 1, 
1998.
    The remaining systems currently reside on an antiquated platform on 
the Senate Computer Center's mainframe computer which is no longer 
supported by the vendor. Further, these systems are not Year 2000 
compliant, and due to their antiquated state, there are no plans to 
make them compliant. Even today, we are beginning to experience some 
problems in our applications which track leave categories and longevity 
dates. In summary, these systems are inadequate, are no longer 
supported by the vendor, are not Year 2000 compliant, and will not be 
supported by the Office of the Senate Sergeant at Arms in the future.
    The funds requested for the above systems replacement are to cover 
costs of developing specifications, vendor analyses, systems and 
applications development, testing, training, licensing fees, reporting 
systems, maintenance and systems integration. Finally, an interface 
will need to be developed to integrate data from the legacy systems to 
the new systems.
    The fiscal year 1999 request for telecommunications and computer 
services is broken down as follows:

Monthly Service and Maintenance Costs:
    Telecommunications........................................  $470,000
    Computer Services.........................................   107,000
Purchases:
    Computer Systems..........................................   800,000
    Hardware/Software.........................................   100,000

    Question. What is your estimated total cost to address the year 
2000 problem? What has been spent to date? What is being requested in 
your fiscal year 1999 budget? What is your cost estimate beyond the 
year 2000?
    Answer. Approximately $700,000 was spent in fiscal year 1997 by the 
Office of the Sergeant at Arms to replace all computer hardware and 
office automation software. Although this was not directly related to 
the year 2000 problem, by replacing all the hardware, it is now year 
2000 compliant and allowed PC based applications to become year 2000 
compliant.
    The amount of $800,000 is requested in fiscal year 1999 to replace 
systems that are operating on an antiquated platform in the Senate 
Sergeant at Arms's computer center which are no longer supported by the 
vendor. There are no plans to invest in making these systems and 
applications year 2000 compliant.
    If the requested funding is received and all systems applications 
are re-engineered and placed into production, there should be no 
additional cost for the year 2000.
    Question. Have the Capitol Police developed any contingency plans 
in the event the systems fail on January 1, 2000.
    Answer. Yes. There are two options dependent on actions and 
approval of the Senate Sergeant at Arms. The first option would require 
the Sergeant at Arms to retain the current development application UFO 
on the mainframe computer where dates would be expanded and code 
written to deal with failures. Secondly, code is currently being 
written to move the data files off the mainframe to existing PC based 
servers. Should funding in fiscal year 1999 not be approved, one of 
these options will have to be implemented until funding to re-engineer 
the applications is obtained.
    Question. How many data interfaces does the Police have with 
external organizations? Describe how the Police is working with those 
organizations to develop mutually agreed-to data formats for exchanging 
information.
    Answer. The USCP has two data interfaces with external 
organizations. Discussions between the Capitol Police Systems 
Administrator and Metropolitan Police have determined that the 
interface to the Metropolitan Police Department's WALES/NCIC system 
does not include date processing and is not in danger of failing. The 
system has already been upgraded to provide license expiration dates 
into the year 2000. The Capitol Police is replacing all dumb terminals 
with PC's running Emulation software which are Year 2000 compliant.
    The National Finance Center interface has the same PC based 
Emulation software used for the Metropolitan Police connection. The 
USCP relies on two applications from the Architect of the Capitol used 
for communication with the National Finance Center which are planned by 
the AOC for replacement to make them year 2000 compatible. The National 
Finance Center provides data files on tape each pay period. A request 
is being prepared to have those data files include a 4 digit year.
                                 ______
                                 
              Questions Submitted by Senator Byron Dorgan
                           personnel increase
    Question. Last year's bill included funding for 1,255 FTE's. This 
year, you are requesting two additional FTE's--one for public relations 
and one for the labor-management office. Please explain why these two 
new positions are needed, and how these functions are currently handled 
and staffed.
    Answer. We have requested one FTE to serve in the Public 
Information Office. Currently, this office is staffed by one Sergeant 
who is responsible for managing the entire public information and 
public relations effort for the Department.
    At the direction of the Capitol Police Board, the Department is 
undertaking a comprehensive crime prevention effort which will address 
the safety and security needs of the House and Senate offices within 
the Capitol Complex as well as state and district offices around the 
country. There is a significant need for this program, however, it will 
greatly increase the workload of the Public Information Office beyond 
the capability of the one person assigned there. The civilian who will 
fill this position will assist in preparing informational items and 
scheduling seminars and presentations for members and staff.
    As a result of the Congressional Accountability Act, a collective 
bargaining unit has been established within the Department and we are 
in the early stages of negotiating a contract with the union. We are 
currently using an outside expert on a contract basis to assist us, but 
we need to establish a Labor Relations Office to handle the ongoing 
contract administration, grievance process, etc.
                          unionization status
    Question. What is the current status of unionization efforts in the 
Capitol Police under the Congressional Accountability Act?
    Answer.  The following is a chronology of activities undertaken to 
date:
    October 1996.--Petition For Certification as exclusive bargaining 
representative by International Brotherhood of Teamsters, Fraternal 
Order of Police, International Union of Police Associations.
    January 31, 1997.--Board of Directors, Office of Compliance 
Decision Order Excluding certain divisions of the USCP.
    February 24, 1997.--Decision and Direction of Election issued by 
Board of Directors, Office of Compliance.
    April 1-2, 1997.--Election held at USCP Headquarters (Challenges 
sufficient to affect results). International Union of Police 
Associations eliminated.
    May 12, 1997.--Decision and Direction on Challenged Ballots.
    June 17-18, 1997.--Second Election Runoff between International 
Brotherhood of Teamsters and Fraternal Order of Police.
    June 23, 1997.--Union demand for negotiation of Collective 
Bargaining Agreement received, with notice that proposed Ground Rules 
will be submitted within 30 days.
    June 27, 1997.--Certification of Representative certifies the 
Fraternal Order of Police as exclusive representative of all employees 
in the bargaining unit.
    November 21, 1997.--Union's Ground Rules Proposal submitted to the 
Department.
    December 15, 1997.--Department Counter Proposal submitted to Union.
    January 1998.--Negotiation of Ground Rules Agreement begins.
    February 9, 1998.--Ground Rules Agreement signed.
    March 1998.--Contract Proposals to be exchanged.
    April 1998.--Counter-proposals, modifications, to be exchanged.
    April 23, 1998.--Actual negotiation of Collective Bargaining 
Agreement to begin.
    In general, relations between the FOP and the Department management 
have been business-like and cordial. The FOP has represented members of 
the bargaining unit in several grievances which have been resolved. A 
number of Unfair Labor Practice charges have been filed, all of which 
have either been settled or resolved in the Department's favor. The 
volume of labor relations work generated has been heavy, and the 
additional FTE for a Director of Labor Relations is urgently needed.
                                  pay
1998 COLA Increase
    Question. The Capitol Police is requesting $2.3 million for 
mandatory pay and related costs. Last year, you requested $1.4 million 
for the COLA. Was the COLA approved?
    Answer. Yes it was. The President signed Executive Order 13071 on 
December 29, 1997 effecting a 2.3 percent across-the-board cost of 
living increase for federal executive branch employees. Locality based 
comparability pay for the Washington DC area was increased by a net 
amount of 0.15 percent.
Sunday/Holiday Pay and Night Differential
    Question. The Capitol Police is requesting $2.44 million for Sunday 
and Holiday pay and Night Differential. Is additional authorizing 
legislation required if funding were provided?
    Answer. In the administrative provisions of last year's 
appropriation bill, the USCP was directed to establish and maintain 
unified schedules of rates of basic pay for members and civilian 
employees whose appointing authority is an officer of the House as well 
as the Senate. This schedule will take effect upon approval of the 
Committee on House Oversight and the Committee on Rules and 
Administration. A proposed schedule has been developed and is currently 
pending before these committees.
    If the requested funding for Sunday and Holiday and Night 
Differentials is approved, the Board will amend the unified schedule to 
include these rates and re-submit to the committees for approval.
    Question. How does the current pay and benefit package of the 
Capitol Police compare to local area law enforcement agencies, and 
would an appropriation of your full request of $2.44 million bring 
parity with the Capitol Police and other local law enforcement 
agencies?
    Answer. Legislative Branch Police Agencies.--There are only two 
other Legislative Branch police forces: The Library of Congress Police 
and the Government Printing Office Police. Members of the Library 
Police are currently compensated using the Capitol Police salary scale. 
They do, however, receive Holiday Pay when required to work on a 
federal holiday. U.S. Capitol Police members receive only compensatory 
time.
    The base salary scale for the members of the Government Printing 
Office Police is lower than the Capitol Police scale. They do however 
receive Holiday Pay, a 15 percent shift differential, and Sunday 
premium pay.
    Other Local Agencies.--There are seven other police agencies of 
reasonably similar size and scope in the Washington Metropolitan area: 
Two executive branch agencies (The United States Secret Service 
Uniformed Division and the United States Park Police), two city 
departments (The Metropolitan Police Department of the District of 
Columbia and the Alexandria Police Department) and three county 
departments (Montgomery, Prince George's and Fairfax).
    While each has a different base salary scheme, the United States 
Capitol Police salary is generally in the middle of the range when 
officers of similar levels of experience are compared (e.g. starting 
salary, five years of service, ten years of service).
    Two notable discrepancies are found when base salaries are 
compared: Capitol Police Officers with many years of service are the 
lowest paid officers in the group, and ranking officials (Captains, 
Inspectors and Deputy Chiefs) are paid substantially less than their 
counterparts in the other agencies.
    Comparing benefits is considerably more complicated than comparing 
base pay, particularly since two states, the federal executive branch 
and the District of Columbia are involved. For the purposes of the 
issues before the Committee the following specific information is 
provided:
    Holiday Pay.--All seven Departments pay Holiday Pay when a member 
is required to work on a holiday.
    Shift Differential.--All seven Departments provide some type of 
additional compensation for work outside normal business hours. The 
amounts and hours of coverage vary. The scheme we have proposed is that 
included in Title V of the U.S. Code covering most executive branch 
employees, including the United States Secret Service Uniformed 
Division and the United States Park Police.
    Sunday Premium Pay.--The two executive branch agencies, the United 
States Secret Service Uniformed Division and the United States Park 
Police, provide this differential to their personnel. We have modeled 
our proposal on theirs, which is found in Title V of the United States 
Code.
                    civilian merit increase program
    Question. You are requesting $75,000 for a civilian merit increase 
program. What is the purpose of this program? How is it different from 
other legislative branch entities?
    Answer. Merit pay is a performance recognition program whereby 
employees receive compensation in recognition of extraordinary 
performance or contributions. Merit increases are distinguished from 
longevity increases, also referred to as ``within-grade'' increases, in 
that the focus is to reward employees for extraordinary performance and 
not time in grade.
    Merit pay authority has been and is utilized by the other employing 
authorities under the House Employees Position Classification Act, i.e. 
House Officers, (Clerk, CAO, etc.) pursuant to the ``Classification 
Guidelines.
                     national finance center update
    Question. What is the status of the integration of the House and 
Senate Capitol Police payroll systems at the National Finance Center?
    Answer. When I appeared before this Committee last year, I 
indicated that the personnel and payroll systems for House-funded 
positions were scheduled for conversion to NFC on March 30, 1997. I am 
pleased to report that this transfer took place on that date and that 
100 percent of eligible employees were paid, with a continuing record 
since of 100 percent payment processing through the NFC automated 
system.
    Further, on March 1, 1998, the Department will complete the 
conversion of all Senate-funded USCP positions to the NFC system. For 
the first time in the history of the USCP, the conversion of House and 
Senate-funded positions to NFC will achieve the long pursued goal of a 
unified payroll, the results of which will confer major impact on the 
Department's ability to more effectively manage many of its 
administrative functions.
    I would be remiss if I did not acknowledge the long-standing 
support of this Committee in making a unified payroll for the USCP a 
reality. I can tell you from making my rounds periodically at roll 
call, that this change has had a profound impact on the morale of the 
troops as complaints about payroll have virtually stopped.
                         general expense budget
    Question. The request for the General Expense budget is $8.4 
million, an increase of $5.3 million from last year's enacted level. It 
is my understanding that several new components have been requested in 
this budget, which make up a significant amount of the requested 
increase, and are necessary due to the increased level of Capitol 
Police responsibilities and their expanding and evolving mission.
    Please give a brief description of the new components requested in 
your General Expense budget and the need for these new programs.
    Answer.

Object Class

                                                                Increase

Travel............................................................ $345 
    Anticipated increase in official travel of the department due 
      to expanded role related to the mission. This object class 
      has been under estimated in recent years, forcing the 
      department to reprogram money from other object classes and 
      accounts.
Rent, Communications and Utilities................................   54 
    This increase is attributed to increased costs of copier 
      leases, cell phone costs and other equipment leases.
Other Services:
    Hazardous Materials Program...................................  260 
    Tuition for officers and civilians............................  133 
    Medical and Physical Standards Development....................  100 
    Information Security Systems..................................  500 
    Net decreases in other estimates..............................  (55)
    Telecommunications............................................  470 
    Computer Services.............................................2,415 
                        -----------------------------------------------------------------
                        ________________________________________________
      Subtotal....................................................1,007 
Supplies and Materials............................................  158 
    The requested increase is to cover increased costs of fuel, 
      oil, uniforms and operational supplies.
Capitol Assets:
    Life-cycle Replacement of Physical Security equipment and 
      systems.....................................................1,662 
    Vehicle Replacements..........................................  362 
    Specialty Equipment...........................................  202 
    Electronic Equipment..........................................   25 
    Net increases in other estimates..............................   39 
                        -----------------------------------------------------------------
                        ________________________________________________
      Subtotal....................................................2,290 

    Question. The largest increases are $1,007,000 for computer 
services and $2.3 million for capital assets. What computer services 
are needed? Since there is a study of police management and financial 
systems being conducted, shouldn't we wait for that study before 
funding additional computer expenditures?
    Answer. There are several issues surrounding the fiscal year 1999 
request for computer services. The first issue is that the USCP has 
been supported for computer services in the past by the Office of the 
Senate Sergeant at Arms. At the direction of the Senate Committee on 
Appropriations, the USCP has included this cost in its own budget for 
fiscal year 1999, while the Office of the Senate Sergeant at Arms has 
omitted this item from their own budget request.
    The fiscal year 1999 request for USCP computer services totals 
$1,007,000. Of this amount, $207,000 is for maintenance and service 
contracts currently in effect through the Office of the Senate Sergeant 
at Arms. The remaining $800,000 is for systems replacement in the USCP.
    The systems referred to include the Inventory Control System, Time 
and Attendance, Personnel Administration, Injury System, Congressional 
Employee Locator System, Report Writing System and the Expense Control 
System (accounting). The migration of the House and Senate payrolls to 
the NFC will be completed in March, 1998. In addition, meetings are 
currently on-going for a planned cross-servicing arrangement with the 
General Accounting Office for the accounting system. Timelines are 
being developed consistent with a planned effective date of October 1, 
1998.
    The remaining systems currently reside on an antiquated platform on 
the Senate Computer Center's mainframe computer which is no longer 
supported by the vendor. Further, these systems are not Year 2000 
compliant, and due to their antiquated state, there are no plans to 
make them compliant. Even today, we are beginning to experience some 
problems in our applications which track leave categories and longevity 
dates. In summary, these systems are inadequate, are no longer 
supported by the vendor, are not Year 2000 compliant, and will not be 
supported by the Office of the Senate Sergeant at Arms in the future.
    The funds requested for the above systems replacement are to cover 
costs of developing specifications, vendor analyses, systems and 
applications development, testing, training, licensing fees, reporting 
systems, maintenance and systems integration. Finally, an interface 
will need to be developed to integrate data from the legacy systems to 
the new systems.
    This management review is currently in the planning stages. Given 
the current state of our systems and the timing of the Year 2000 issue, 
there is a universal consensus that new systems will be required. 
Regardless of the specific recommendations of the management review, 
funding will be needed as soon as possible to resolve the current 
situation.
     Question. Please provide me with more detail regarding the $2.3 
million for capital assets. Specifically, what physical security 
equipment and systems need to be replaced?
    Answer. Of the $2.3 million increase for capital assets, $1,663,000 
is for a life-cycle replacement schedule for physical security 
equipment and systems. The no-year funding provided to date is 
dedicated to replacing existing systems that are failing and obsolete. 
The funding does not allow for the wholesale replacement of all 
security systems. Additionally, there is no funding identified for new 
security systems and equipment requests, or the upgrade of security 
systems on a periodic basis on projected equipment life-cycles.
    The request for fiscal year 1999 puts into place a process and 
annual budget to allow for the continued replacement of older 
equipment, to procure new systems for new requirements, and establish 
an orderly security equipment upgrade. It prevents the need for 
wholesale replacement of security systems through no-year funding by 
establishing a fully funded physical security program.
    Of the remaining $637,000, an increase in vehicle replacements is 
requested in the amount of $362,000. This amount will allow for the 
USCP to ``catch up'' with its original schedule of replacements. In the 
past two fiscal years, funds for this object class were necessarily 
diverted to cover the costs of protective services.
    Finally, $266,000 is requested to purchase weapons, training 
equipment, thermal imagers, night sights and miscellaneous equipment.

        Item                                                            

Replacement CCTV Monitors.....................................   $35,000
Replacement CCTV Cameras......................................    50,000
Purchase SCIF Alarm Systems...................................    60,000
Duress Alarms for Committee...................................    63,000
Replacement Metal Detectors...................................   100,000
Upgrade Members Duress Alarms.................................   125,000
Preventative Maintenance Contract.............................   130,000
Card Access Systems Installations.............................   150,000
Intrusion Alarm Systems.......................................   250,000
Replacement X-ray Machines....................................   700,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total, Physical Security Equipment and Services......... 1,663,000
                  crimes against persons and property
    Question. In looking at a summary of offenses involving property on 
the Capitol grounds for the period fiscal years 1996-1997, I note that 
the total number of crimes involving burglaries, stolen automobiles, 
office thefts, has increased over 30 percent.
    To what do you attribute this escalation in crimes against 
property, and what steps are you taking to increase security on the 
Capitol grounds in an effort to bring these statistics down?
    Answer. You are correct that property crime bounced back up last 
year after a large decline the previous year. To put it in perspective, 
it's still 5 percent below the previous year, fiscal year 1995, and 30 
percent below fiscal year 1993.
    As we saw the property crime numbers going back up, we took a 
number of steps to get them back to the lower level of fiscal year 
1996. We seem to be back on track. So far this fiscal year, with almost 
five months gone, we're showing a decrease of 30 percent over the same 
period last year. Swings on the order of 30 percent in property crime 
is more than one would expect from year to year. One possible 
explanation is the two-year Congressional cycle. The biennial office 
moves, particularly on the House side, create an opportunity for theft 
as equipment is left in the hallways and large numbers of contract 
employees are brought in to do the work. Also, the new staff may not be 
as security-conscious as those who have been around for a while. We are 
taking steps which include a ``Dear Colleague'' letter to staff, 
distribution of literature and having building patrols visit offices. 
We are having our divisions coordinate with CID more intensely and 
increasing plainclothes surveillance. We have had discussions with the 
Architect of the Capitol regarding control of contractors.
    We take crime in the complex very seriously and move aggressively 
when we see patterns of crime which need to be addressed.
         capitol complex integrated security facilities program
    Question. Mr. Hantman, could you explain the Capitol Complex 
Integrated Security Facilities Program, and the amount of funding 
included in your budget request for this program?
    Answer. The U.S. Capitol Police have identified a need to provide 
an integrated security facilities program for their physical facility 
needs. Several facility related issues have arisen that are very 
critical to the operations of the Capitol Police and the safety of 
Members, staff and visitors. These items require careful scoping and 
planning to be addressed before large sums are invested in facility 
improvements. These facility problems need to be addressed as soon as 
possible. Rather than addressing these piecemeal, funds are requested 
to hire a contractor to provide a conceptual master design plan to 
determine how best to address these critical problems. The U.S. Capitol 
Police Board views these needs as a critical element of the overall 
security plan for the Capitol Complex.
    The Police facilities have remained essentially unchanged for the 
past twenty years. During this period, the Department has grown both in 
size of personnel and statutory responsibility. The Police have 
compensated by utilizing other resources which are no longer available. 
For example, FBI training facilities at Quantico, Virginia made 
available to the Police in the past by the FBI for Entry Level Training 
of new Recruits, Officer Survival and Dignitary Protection training are 
no longer available due to the FBI's own training requirements.
    The first major concern is the Off-Site Delivery Inspection Center 
located at Half and ``P'' St. S.E. (South Capitol Street Warehouse). 
The Off-Site Delivery Center will soon be required to screen vehicles 
delivering items to the House Office Buildings. This additional 
responsibility will compound existing safety concerns, and exceed the 
capabilities of the existing facility. Required increased staffing will 
create an additional work space problem.
    This facility is also causing significant employee health and 
safety concerns. It is housed in a fairly dilapidated leased warehouse. 
Further, it lacks adequate ventilation for the exhaust fumes from the 
vehicles being inspected. Funds were requested by the Architect's 
office in fiscal year 1998 to address these concerns. The bathrooms, 
locker areas and office space are unacceptable, and funds also have 
been requested by the Architect's office in fiscal year 1999 to improve 
these conditions. Both of these temporary improvement projects were 
requested in fiscal year 1998. Partial funding was provided for the 
compliance issues but the locker and associated modifications were 
deferred.
    The second issue to be studied is the lack of adequate training 
facilities. At this time, the Training Division has access to a total 
of only three training classrooms. None of these areas is large enough 
to accommodate essential programs such as Physical Conditioning and 
Defensive Tactics.
    All three current classrooms are located in the Ford House Office 
Building. Two of the three existing classroom spaces are immediately 
adjacent to occupied congressional staff offices. Their close proximity 
to occupied staff offices severely inhibits the Police's ability to 
conduct essential practical exercises and scenario training in police 
legal labs and officer survival training. The existing space has no 
provisions for locker rooms, or shower facilities following physical 
conditioning training. Police officers are forced to change clothes in 
the buildings public restrooms.
    Finally, there currently exists a critical need to acquire exterior 
training areas to conduct Vehicle Pursuit and Evasive Tactics, 
Motorbike, Bicycle Patrol, Civil Disturbance Unit, Ceremonial Unit, 
Officer Safety and Survival, Dignitary Protection, Motorcade Movement 
and Security, Physical Conditioning, and Defensive Tactics training. 
Storage facilities for training aids will also be required.
    Lastly is the proposed relocation of the Vehicle Maintenance 
Facility. This facility is far too small to allow for safety zones to 
be established around grinders, welding equipment, eye wash stations, 
lift and fire extinguishers. In general, this facility has continual 
problems with the roof leaking and the inability of the air-
conditioning system to properly cool a building with metal sides and 
roof. Additionally, while the need for a larger facility is critical, 
safety and environmental considerations pose the greatest concerns. The 
building is infested with mice and other insects, and all efforts by 
the AOC to exterminate them have proven to be unsuccessful. This 
facility is located within the perimeter of the coal yard. Coal dust 
from the coal yard creates poor air quality and results in a coal dust 
coating on everything contained within this facility. The lack of a 
vehicle exhaust ventilation system further contributes to these health 
concerns.
    The above concerns are separate from anticipated repairs and 
expenditures required to bring these facilities into compliance with 
the existing standards established by the Occupational Safety and Heath 
Administration (OSHA).
    Once the Master Plan is completed, it will address how the Capitol 
Police can best address resolving these facility issues. These plans 
would then form the basis for requesting design funds for new or 
renovated facilities. These funds are requested on a ``No Year'' basis.
                              U.S. SENATE

                 Office of the Secretary of the Senate

STATEMENT OF GARY SISCO, SECRETARY OF THE SENATE
ACCOMPANIED BY:
        SHARON ZELASKA, ASSISTANT SECRETARY OF THE SENATE
        STUART F. BALDERSON, FINANCIAL CLERK OF THE SENATE

                           summary statement

    Senator Bennett. The subcommittee will reconvene. Our 
second witness is the Honorable Gary Sisco, Secretary of the 
Senate. We welcome you, sir. This is your second year 
testifying.
    You heard my opening statement where I said the appropriate 
nice things about what you have been doing. We will be happy to 
hear your testimony.
    Mr. Sisco. Thank you, Mr. Chairman. I appreciate those 
remarks. That is on target for what we have been trying to do 
in running the office for the time that I have been here.
    With me today is Sharon Zelaska, Assistant Secretary, and 
Stuart Balderson, who is the Financial Clerk for the Senate. 
Unless we get into questions and details which stump me, I will 
be the only one speaking today. But Sharon and Stu represent 
more than 200 people who work in the Office of the Secretary, 
who are responsible for delivering day-to-day services to the 
full Senate. And we appreciate all the work that they have 
done.
    My full statement has been filed with the committee, and it 
is almost identical to the one that we presented to the Rules 
Committee, modified by a little more emphasis, obviously, on 
the finances and the dollars, with a little more detail there. 
And the statement represents reality in terms of how we are 
trying to operate the office.

                    fiscal year 1999 Budget request

    So what I would like to do this morning is just to present 
the budget request for fiscal year 1999. I want to discuss the 
funding of our two mandated systems, the legislative 
information system [LIS] and the financial management 
information system [FMIS], and where we stand there and what we 
have done with the money. I want to touch on issues of staffing 
key positions in the legislative departments and in the 
Disbursing Office, and then respond to any questions that you 
all might have.
    I have proposed an operational budget of $15.205 million 
total for fiscal year 1999. And as you indicated, it reflects 
only a 2.9-percent increase over the fiscal year 1998 budget, 
which is totally attributable to our projected COLA. The $1.511 
million for expenses is level funding from last year. We will 
continue to try to hold the line on that.
    Through careful management we have consolidated some jobs; 
we have consolidated a couple of departments--and, I think, 
through just good, old-fashioned hard work on the part of the 
people who work in the Office of the Secretary, we have 
maintained the services and tried to improve them, without 
asking for any additional money or any additional positions up 
to this point.
    However, looking down the road, with the work that we have 
got to do on these mandated systems, while continuing to do the 
day-to-day job, I am asking for up to 15 positions to be 
created, but no additional funding for those. We will attempt 
to--and I think that we can--absorb those into this funding 
request that is before you and that's the reason I have not 
asked for any extra money.
    Additionally, we are not asking for any additional funding 
for the nonpersonnel costs related to the LIS or the FMIS for 
fiscal year 1999. We believe that we have on hand allocated 
funds for things that we need to do and to respond to things 
that we need to do to implement those two systems and to 
operate them.

                           Strategic planning

    Strategic planning is of great interest to the Senate. We 
are basically there, looking at trying to take advantage of new 
technologies. But also we are trying to keep improving methods 
of conducting Senate business. I told someone that this was a 
pretty good place before I arrived here, in terms of the way it 
works and the checks and balances. So if something is not 
broken, we are not going to try to fix it. But we are going to 
try to adapt new technology where it makes sense, and bring the 
Senate forward there.

                     Legislative information system

    And that leads me to systems. For the legislative 
information system, we have estimated the total cost through 
the year 2000 to be $8.909 million. Now, I have tried to arrive 
at a total cost for the system--not only in my budget, but in 
the Sergeant at Arms' budget and then the implementation of 
it--to where we could have a feel, before we ask for the 
authorization of a project, what the total cost to the Senate 
would be.
    Of that, the estimated allocation of $4.104 million would 
be from my budget, for the project office and the systems 
design requirements. And $4.805 million was our estimate for 
what the Sergeant at Arms would spend for hardware, software 
procurement, and then to get the system implemented.
    The committee has previously, as you know, provided $5 
million in funding for this system, that was in the emergency 
supplemental appropriation for last year. As I said, we will 
not ask for any new money for that. The money that we have 
spent to date was derived from transfers and the 
reappropriation of money that was previously appropriated for 
the Senate. So this will not impact us. It will take about $8.9 
million, $4.1 million from my budget and about $4.5 million 
from the Sergeant at Arms budget, to get the LIS implemented, 
the way we see things currently and looking down the road.
    We have spent $1,052,917 for LIS in fiscal year 1997. This 
was done with the committee's approval from existing 
appropriations for our office. It reflected an effort to use 
available funds, to minimize any possibility that we would even 
have to request any more in the future.
    The amount of $518,886 has been expended in the first 
quarter of fiscal year 1998. And that, of course, will come out 
of the $5 million.
    When LIS is complete, it will provide an online electronic 
access to all the legislative information from one source and 
in one format. And it will serve as a repository of all of the 
information in the legislative process in the Senate.
    We are on schedule with that project, I am pleased to say. 
It has the benefits of establishing data standards for exchange 
of information between the House and the Library of Congress, 
the Government Printing Office, and eventually, the National 
Archives, to facilitate the smooth flow and tracking of 
information from point A, at which something is introduced into 
the system, to point Z, when it is filed with the National 
Archives.

                       Amendment tracking system

    We are beginning to see some benefits from the work that we 
have done and the work the staff has done. We have an amendment 
tracking system that is available now to Members and staff.
    In the past, when an amendment was introduced on the floor, 
it would be assigned a number, as you know, and then copies 
would be made of it. And it would then be hand carried, or 
picked up, from each of the offices for anyone who was 
interested in seeing what the amendment really said, and to be 
able to analyze the impact it would have on the bill and to 
make a judgment call in terms of what a Senator's position 
would be on it. And that would take some time.
    Now, with the amendment tracking system, and with an 
optical scanner, when the amendment is assigned a number, up to 
approximately 12 pages can be scanned and, within 20 minutes, 
on every PC connected within the Senate, the amendment will be 
before the legislative assistant, for the Senator to see. That 
is available now.

                        automated Rollcall votes

    Also, we have automated the rollcall votes. They are 
automated in the same format that they are printed in the 
Congressional Record. But instead of having to wait for the 
next day to see how a vote turns out or to analyze it or have 
it available for whatever purposes, it is available within 1 
hour on the system, on the LIS, right now.

                          Committee scheduling

    Another innovation this year is the complete committee and 
subcommittee schedule. We discussed that some last year. We 
were prepared to give a demonstration then, and we are prepared 
to give a demonstration now, but there is no hookup in this 
particular room to do it. So I invite the committee, anyone 
individually or collectively from the staff, that at any time 
you want to have a detailed demonstration of that, you go in, 
search by the Senator and get a complete committee schedule for 
the committees or subcommittees that Senator is a member of.
    You can go in by committee name, and you can get the 
schedule of that committee, as far as they have been reported 
to the daily digest, which is within our office and is 
responsible for tracking all of the hearings. You can also go 
in and ask for conflicts, and it will pull together and print 
out each of the committees by, say, Senator Bennett. If you 
went in under your name and asked for conflicts, it would print 
the ones that were all scheduled at the same time.
    And we think it is particularly helpful as a planning tool 
for a chairman to call a meeting or to see when the members of 
his committee might be most readily available to have hearings 
and to facilitate the whole process. So that is available.
    I have left with the staff, in lieu of a live 
demonstration, this little booklet that I will not attempt to 
go through today in this hearing, but it shows the reports that 
are in there. And, again, this was announced in January and it 
is available for your staff. And we stand available and ready 
to do a live demonstration any time anyone would want one.

                             User response

    We are regularly surveying legislative directors, 
secretaries, chiefs of staff, and obviously Senators, to ask 
what do you most need in the legislative system, what would 
help you do your job most effectively, what sources are you 
using now. And we are incorporating all those responses into 
the design of the legislative information system.
    Our primary question on everything that we are doing is how 
does this help an individual Senator do his or her job on a 
day-to-day basis, positively, negative or neutral, and then we 
make a decision on whether or not to try to do it. Because that 
is why we are here.
    Senator Bennett. Do you have any sense of usage?
    Mr. Sisco. We do. On the last survey, 52 offices responded. 
And 87 percent of the respondents used the legislative 
information system, in its current stage of development, as 
their first and primary source of inquiry into the whole 
process. And at this point, obviously, it is not fully 
implemented and not fully known, but when that happens, I think 
we will see regular usage.
    We have got to educate people that the tool is out there to 
be used.
    Senator Bennett. Yes; that is my concern, how many offices 
know that it is there and pay attention to it and use it in any 
sense. I guess you cannot monitor the number of hits you get, 
because you get a lot of hits from outside the Senate?
    Mr. Sisco. On the home page in the web site, we can monitor 
the hits though we do not know the source. But on LIS, the only 
way I know to do it is just to continue to announce it, and 
reannounce it. We are thinking of putting it on the internal 
Senate TV from time to time, and just basically market it as a 
tool that is available. And, over time, I think, when people 
see the benefits from using it instead of doing things 
manually, by the old way or the existing system, then I think 
it will catch on.
    Senator Bennett. Good.

                Financial management information system

    Mr. Sisco. In the financial area, FMIS, I have not put the 
estimated budget together yet, because we are still in the 
process of developing the project plan. However, the 
requirements for the system will be completed next month and 
signed off on by everybody in the Senate whom it impacts. And 
that is everybody in our office, under the leadership of 
Stuart, the Financial Clerk, the Sergeant at Arms people in the 
computer center, and the Rules Committee. And, again, we have 
got a project office that involves Senate input.
    But we have $7 million that was first appropriated in 
fiscal year 1995. And when I arrived about 17 months ago, we 
had spent $194,000. We have spent another $10,000 since then. 
So we have about $6.8 million of that left. We have spent about 
$200,000. And, again, most of the activity has been in terms of 
coming up with correct systems design requirements from the 
people who have been doing the job in the Disbursing Office, 
and making sure we have got the requirements right before we go 
out and spend the money.
    And so your recognition, Mr. Chairman, of the fact that--
especially in the financial area and in every area, where we 
have got an impact on these new systems, people have to do the 
job, but also they have had this extra burden of designing and 
making sure these requirements are what fit the Senate--it is 
appreciated that that is recognized. Because it requires a lot 
of extra work on everyone's part.
    The financial management information system will take us 
from a cash basis to an obligation and accrual basis. It will 
produce an auditable financial statement, and it will make a 
consolidated financial statement available for the whole 
Senate. It will also, being a replacement system with 
commercial, off-the-shelf software where at all possible, solve 
the year 2000 problems for the financial system and will take 
that out of the loop. That is primarily the Sergeant at Arms' 
responsibility, in terms of making sure that the hardware and 
software is year 2000 compliant.
    But I will digress from what I want to say here and tell 
you that we have looked at the captioners' equipment, the 
Official Reporters of Debates, the library, the Historian's 
Office, some of the offices within our own operations, and have 
addressed the year 2000 problems that are not computer based. 
And we are in good shape there. They are either already year 
2000 compliant, or it is not a problem, or we have one 
situation that we will address in the near term.
    Before September 30, 1999, as part of FMIS, Stuart and his 
people will replace the general ledger and consolidate the 
purchasing system into that system, under the Disbursing 
Office. And also by then, we will have the payroll system 
upgraded, and it will be year 2000 compliant, as I said.
    We will then be in a position--after converting everything 
over, as much as possible with commercial off-the-shelf 
software instead of customized software--to take the Senate 
operations into post-year 2000, into the next millennium, and 
then begin to take advantage of some of the client/server-based 
software and operations that we are not able to now with so 
many of our things that are on the mainframe. So it will 
position us to get even greater benefits that we have not yet 
identified but that we know are out there.
    So that is the status of the financial management 
information system.

                          Succession planning

    One other thing that I think is key is succession planning. 
We have people within the Chamber and within the Disbursing 
Office, within all of our offices, who are eligible now to 
retire or will be eligible very soon. For some of these jobs, 
to get to the first position, which is very visible in the 
Chamber, it takes 4 to 8 years, based on historical facts, for 
someone to come in, train on the job, and work themselves up to 
occupy those chairs. And there is similar experience that is 
required in other offices.
    So we are looking at that. And what we are trying to do is 
look at the average age and the average length of service for 
the first person in each of the department head positions, and 
then the second, and on down the line, to where we have 
succession planning and we have experienced people in here, so 
that death or disability or retirement does not grind the 
Senate to a halt. Not this budget, but our future budget will 
have to take that into account, even though we will allocate 4 
or 5, at this point, of the new 15 positions that we are 
requesting, to supplementing those positions. The rest of them 
will be in the Disbursing Office.

                         Capitol visitor center

    Finally, just a word about the Capitol visitor center. It 
was addressed by the Capitol Police Board. It was addressed 
yesterday in the Rules Committee by the Sergeant at Arms and 
the Architect of the Capitol in their testimonies. It is very 
important. Senate bill 1508 was introduced last fall by 
Senators Lott, Daschle, and Warner, with a lot of work done 
prior to that being introduced. A lot of work was done by the 
Architect, and myself, and the Sergeant at Arms, and all of our 
staffs. So it would authorize the Architect to construct the 
Capitol visitor center.
    There is a House bill that was introduced last year also. I 
see the benefits in security--there are great benefits there--
but also in terms of the Capitol, the visitors' experience to 
the Capitol, and how it can be improved to make it a better 
experience for visitors who come here from within the country, 
and also our foreign visitors, just to facilitate the flow of 
people, with places to eat and to change diapers of their 
children, and the restroom facilities, and all those kind of 
things.
    So I would encourage that the bill be passed. And, in my 
opinion, it is long overdue.
    On the funding of that, presently the Capitol Preservation 
Commission has $25.3 million. That was all raised from private 
funding. It is invested, and it is growing at about $1 to $1.2 
million a year, depending on the yield they get. That is about 
one-fifth of the $125 million, the present estimated cost.
    It can be done, in my opinion, and if you look at other 
projects around the country, it can be done with private 
funding. But it does need to be authorized and dealt with, from 
an appropriated funds standpoint, enough to make sure the 
project is authorized and gets out of the chute, and then all 
of the other things can then kick into place. And I believe it 
can be funded by private funding.
    There is a bipartisan effort on that within the Senate. And 
if we can pass it here, I think it would help to bring the 
House along to do their part, and we could go ahead and get on 
with that project.
    Those are the highlights. I have tried to take out of the 
full testimony things that I feel relate more to dollars, more 
to money, and give just a quick, hard assessment of where we 
are. I will answer any questions about the full testimony or 
anything else.

         prepared statements and additional committee questions

    Senator Bennett. Thank you. I appreciate your testimony. I 
appreciate your diligence. I think you have covered it very 
well, unless anyone on your staff has something to add.
    [No response.]
    Senator Bennett. Thank you very much.
    Mr. Sisco. Thank you, Mr. Chairman.
    Senator Bennett. Thank you very much, Mr. Sisco.
    [The information follows:]
                    Prepared Statement of Gary Sisco
                             budget summary

                  OFFICE OF THE SECRETARY OF THE SENATE
------------------------------------------------------------------------
                                                    Amount       Percent
------------------------------------------------------------------------
Fiscal year 1998:
    Payroll Budget............................     $13,431,000      89.9
    Operating Expense Budget..................       1,511,000      10.1
                                               -------------------------
      Total...................................      14,942,000     100.0
                                               =========================
Suggested fiscal year 1999 budget request:
    Payroll Budget............................      13,694,000      90.1
    Operating Expense Budget..................       1,511,000       9.9
                                               -------------------------
      Total...................................      15,205,000     100.0
------------------------------------------------------------------------


                         APPORTIONMENT SCHEDULE
------------------------------------------------------------------------
                                      Amount
                                    available      Budget
                                   fiscal year    estimate
               Item                    1998     fiscal year   Difference
                                   (Public Law      1999
                                     105-55)
------------------------------------------------------------------------
Historical office:
    Books and documents..........       $2,500  ...........      -$2,500
    Photographic supplies........        7,000  ...........       -7,000
Library:
    Online information services..       47,000  ...........      -47,000
    Microform publications.......       35,000  ...........      -35,000
    Books........................       12,000  ...........      -12,000
    Subscriptions................       20,000  ...........      -20,000
    Standing orders..............       20,000  ...........      -20,000
    CD-ROM.......................        4,000  ...........       -4,000
    Audio/visual materials.......          500  ...........         -500
Office of Conservation and               5,000  ...........       -5,000
 Preservation....................
    Book preservation............        5,000  ...........       -5,000
    Office of Public Records            10,000  ...........      -10,000
     (Public Law 92-342).........
Travel and registration fees            60,000  ...........      -60,000
 (Public Law 94-59)..............
Consultants (not more than two)         75,000  ...........      -75,000
 (Public Law 95-26)..............
Legal reference volumes and             90,000  ...........      -90,000
 dictionaries (Senators' offices)
 (Public Law 92-51)..............
Contractual legal and                  270,000  ...........     -270,000
 administrative services and
 miscellaneous expenses..........
Disbursing office: Payroll forms,       15,000  ...........      -15,000
 notary fees, supplies, and
 insurance.......................
Orientation and training (Public        10,000  ...........      -10,000
 Law 95-94)......................
Newspapers.......................       25,000  ...........      -25,000
Senate service awards (S. Res.          23,000  ...........      -23,000
 21, Sept. 10, 1965).............
Postage..........................        1,000  ...........       -1,000
Education of Senate pages (Public       58,000  ...........      -58,000
 Law 98-51 and Public Law 98-125)
 (S. Res. 184, July 29, 1983)....
Stationery.......................       50,000  ...........      -50,000
Senate Commission on Art (Public        33,000  ...........      -33,000
 Law 100-696, Nov. 18, 1988).....
Representation expenses (Public         50,000  ...........      -50,000
 Law 100-71, July 11, 1987)......
Office of Captioning Services          163,000  ...........     -163,000
 (Public Law 101-163, Nov. 21,
 1989)...........................
Senate Chief Counsel for               420,000  ...........     -420,000
 Employment......................
Executive office.................  ...........     $718,100     +718,100
Administrative services..........  ...........      463,800     +463,800
Legislative services.............  ...........      329,100     +329,100
                                  --------------------------------------
      Totals.....................    1,511,000    1,511,000  ...........
------------------------------------------------------------------------

                        Legislative Departments
                               bill clerk
    The Bill Clerk records official actions of the Senate, keeps an 
authoritative historical record of Senate business, enters daily 
legislative activities and votes into the automated legislative status 
system, and prints all introduced, submitted and reported legislation. 
In addition, this office assigns numbers to all bills and resolutions.
Legislative Activity
    The legislative materials processed by the Bill Clerk during the 
first sessions of the 105th and 104th Congresses is included in Table 
1--Legislative summary.
Relations with GPO
    The Government Printing Office has responded in a timely manner to 
the Bill Clerk's request for the printing of bills and reports, 
including the printing of priority matters for the floor. The record on 
specific GPO printings for the first session is summarized below:
  --Star Prints: The number of Star Prints (reprints) authorized was 
        21.
  --``Bates List'': Overnight rush printing was ordered on 51 pieces of 
        legislation.
Legislative Information System (LIS)
    LEGIS.--The office continued working with the KPMG Program Office 
reviewing the legislative information that is processed by this office, 
including the redesign of the status input screens.
    Amendment Scanning.--This office began scanning pending proposed 
amendments less than 10 pages which can be viewed and printed by all 
Senate staff via the Senate home page on the World Wide Web. During the 
Second Session, phase two of the project will include the following 
improvements:
  --The ability to scan all amendments proposed on the Senate floor. 
        This will provide the Senate public with near real-time access 
        to proposed amendments.
  --Data entered into LEGIS will automatically be retrieved into the 
        amendment scanning system, so duplicate data entry will be 
        eliminated.
                              daily digest
    The Daily Digest section of the Congressional Record provides a 
concise accounting of all official actions taken by the Senate on a 
particular day. All Senate hearings and business meetings (including 
joint meetings and conferences) are scheduled through the Daily Digest, 
reported on daily, and are published in the Congressional Record.
Chamber Activity
    The Senate was in session a total of 153 days, for a total of 1,093 
hours and 07 minutes. There were 6 quorum calls and 298 record votes.
Committee Activity
    Senate committees held 824 hearings and 247 business meetings 
(total 1,071), contrasted with 892 hearings and 278 business meetings 
(total 1,170) during the 1st Session of the 104th Congress.
    All hearings and business meetings (including joint meetings and 
conferences) are scheduled through the Office of the Senate Daily 
Digest and are published in the Congressional Record and entered in the 
LEGIS hearings file. Meeting outcomes are also published by the Daily 
Digest in the Congressional Record each day.
Government Printing Office
    Continuing a practice in preceding Congresses, the Daily Digest 
office discusses with the Government Printing Office problems 
encountered with the printing of the Daily Digest section. Corrections 
or transcript errors have become very infrequent.
                            enrolling clerk
    The Enrolling Clerk prepares, proofreads, corrects, and prints all 
Senate-passed legislation prior to its transmittal to the House of 
Representatives, the National Archives, the Secretary of State, the 
United States Claims Court, and the White House.
    During 1997, 50 enrolled bills (transmitted to the President) and 
13 concurrent resolutions (transmitted to Archives) were prepared, 
printed, proofread, corrected, and printed on parchment.
    A total of 323 additional pieces of legislation in one form or 
another, was enacted or agreed to by the Senate, requiring processing 
and printing from this office.
                            executive clerk
    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties) which is published as the Executive Journal at the end of 
each session of Congress. The Executive Clerk also prepares daily the 
Executive Calendar as well as all nomination and treaty resolutions for 
transmittal to the President.
Nominations
    During the first session of the 105th Congress, there were 825 
nomination messages sent to the Senate by the President, transmitting 
25,828 nominations to positions requiring Senate confirmation and 13 
messages withdrawing nominations previously sent to the Senate during 
the session. Of the total nominations transmitted, 500 were for 
civilian positions other than lists in the Foreign Service, Coast Guard 
and Public Health Service. In addition, there were 3,105 nominees in 
the ``civilian list'' categories named above. Military nominations 
received this session totaled 22,223 (8,141 in the Air Force, 6,246 in 
the Army, 6,157 in the Navy and 1,679 in the Marine Corps). The Senate 
confirmed 25,576 nominations this session and 2 nominations were 
returned to the President pursuant to the provisions of paragraph 6 of 
Senate Rule XXXI at the sine die adjournment of the 105th Congress.
Treaties
    There were 32 treaties transmitted to the Senate by the President 
during the first session of the 105th Congress for its advice and 
consent to ratification, which were ordered printed as treaty documents 
for the use of the Senate (Treaty Doc. 105-1 through 105-32).
    The Senate gave its advice and consent to 15 treaties with various 
conditions, declarations, understandings and provisos to the 
resolutions of advice and consent to ratification.
Executive Reports and Roll Call Votes
    There were 13 executive reports relating to treaties ordered 
printed for the use of the Senate during the first session of the 105th 
Congress (Executive Reports 105-1 through 105-13).
    The Senate conducted 30 roll call votes in executive session, 22 on 
or in relation to nominations and seven on amendments to and final 
passage of the Chemical Weapons Treaty.
                             journal clerk
    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Senate Journal that is the legal record 
of the Senate. The Senate Journal is published each calendar year.
    In March of 1997 the Journal unexpectedly lost its Assistant 
Journal Clerk, Mark Lacovara, along with his 28 years of knowledge and 
experience, due to ill health and an early retirement. The Journal 
operated with a two-person staff for the next four months and still has 
a two-person floor rotation.
    Scott Sanborn replaced Mark Lacovara in mid-July and will soon 
become a part of the floor rotation. This will bring the office to a 
three-person rotation, enabling the Clerks to spend one hour on the 
floor and two in the office. The three-person rotation restores early-
1997 production capability, and allows work on an extra project taken 
on in January 1994 (the typesetting and formatting element).
    The 1997 volume will go to the Government Printing Office for 
distribution no later than the end of March of this year. The 
legislative days are finished in their initial form and the data is 
entered into our database. This allowed keeping 1998 current. The 
completion of 1997 will not interfere with progress during 1998.
                           legislative clerk
    The Legislative Clerk sits at the Secretary's desk in the Senate 
Chamber and reads aloud bills, amendments, the Senate Journal, 
Presidential messages, and other such materials when so directed by the 
Presiding Officer of the Senate. The Legislative Clerk calls the roll 
of members to establish the presence of a quorum and records all yea 
and nay votes. This office prepares the Senate Calendar of Business, 
published each day that the Senate is in session, and prepares 
additional publications relating to Senate class membership and 
committee and subcommittee assignments. The Legislative Clerk maintains 
the official copy of all measures pending before the Senate and 
incorporates into those measures any amendments that may be agreed to. 
This office retains custody of official messages received from the 
House of Representatives and conference reports awaiting action by the 
Senate. The office is also responsible for verifying the accuracy of 
the information entered into the LEGIS system by the various offices of 
the Secretary. In addition, this office is very involved in the 
Secretary's multi-year, comprehensive program to redesign and rebuild 
the Senate's system for the collection and management of its 
legislative information (LIS).
Summary of Activity
    The first session of the 105th Congress completed its legislative 
business and adjourned on November 13, 1997. During 1997, the Senate 
was in session 153 days, for a total of 1,093 hours, and conducted 298 
roll call votes. There were 248 measures reported from committees, 385 
total measures passed, and were 111 items remaining on the Calendar at 
the time of adjournment. In addition, there were 1,639 amendments 
submitted. These and other statistics important to this office are 
reflected in Table 1--Legislative summary.
Legislative Information System (LIS)
    The LEGIS Re-engineering or LEGIS 2000 Project has now been 
absorbed into the new LIS initiative and the legislative staff has been 
involved in the development of the system requirement documents over 
the past year. When implemented, it will require training and 
retraining to convert from the current mainframe to a document 
management system (DMS). Some offices under the Secretary, especially 
the Journal Clerks and the Enrolling Clerk, should derive much benefit 
from the ability to capture and manipulate data that is currently 
inaccessible or very difficult to attain. This new system will allow 
the legislative staff to provide even more information to Senate 
offices and the public in a more timely manner.
Amendment Scanning
    In 1997, the Secretary's office began scanning amendments, as they 
are offered, in the Amendment Tracking System.
Committee Scheduling
    Efforts have been under way this year to improve access to the 
Daily Digest's committee scheduling information. During the recess, 
prior to reconvening, Daily Digest staff and others from the 
Secretary's offices attended a demonstration arranged by the Sergeant 
at Arms. Vendor representatives demonstrated a product that could be 
modified for the Digest.
                office of official reporters of debates
    The Official Reporters of Debates prepare and edit for publication 
in the Congressional Record a substantially verbatim report of the 
proceedings of the Senate, and serve as liaison for all Senate 
personnel on matters relating to the content of the Record. The 
transcript of proceedings, submitted statements and legislation are 
transmitted daily to the Government Printing Office. The Chief Reporter 
functions as editor in chief and the Coordinator functions as technical 
production manager of the Senate portion of the Record.
Accomplishments
    The Official Reporters continue to use the computer-aided 
transcription system. During 1997, all verbal proceedings occurring on 
the floor of the United States Senate were transcribed and transmitted 
to the GPO via transcript of proceedings (paper) and electronically 
through the fiber-optic system. As mentioned in previous reports, the 
workload of this office has not decreased but, by providing GPO 
electronic as well as paper copy, the overall workload at GPO is 
reduced and, thus, the overall cost of production of the Record should 
be reduced.
    In addition to submitting all verbal proceedings to GPO via 
electronic means, we are continuing to encourage all Senate offices to 
provide, in addition to paper copy, either by e-mail or disk, an 
electronic version of all submitted statements. Currently, 
approximately 60 to 80 percent of written statements are submitted 
electronically. Although the submissions are not at the optimal 90 to 
100 percent range, more Senate offices are cooperating as we continue 
an ongoing effort to communicate our needs and educate staff on the 
process and methods for e-mailing electronic statements.
Personnel Changes
    In September of 1997, we lost the services of Coordinator of the 
Record Scott Sanborn, who was selected to become a member of the Office 
of the Journal Clerk. Scott was a valuable asset to this office and our 
loss is definitely the Journal Clerks' gain. However, Eileen Milton, 
one of our transcribers and an equally able member of our staff, was 
appointed to replace Scott as Coordinator of the Record.
    Eileen is a quick study and is performing her tasks exceptionally 
well. Eileen Milton's elevation to Coordinator of the Record left a 
vacancy in the transcribers' section of this office. In addition, 
transcriber Don Corrigan announced that he would be retiring at the end 
of February, 1998. This will translate to the loss of two of the three 
transcribers, with Eileen Connor, the Supervisory Transcriber, the 
remaining transcriber to instruct and guide new transcribers.
Morning Business
    The Morning Business Unit has dealt effectively with a marked 
increase of items being processed through their office. The number of 
communications has surged exponentially since the passage of Public Law 
104-121 (the Contract with America Advancement Act of 1996), and the 
office processed approximately 800 executive communication items during 
the recess period alone. In addition, President's Messages are expected 
to grow in volume due to the passage of Public Law 104-130 (the line-
item veto law), which requires the President to inform the Senate each 
time he strikes items from legislation. Recent court decisions 
concerning the line item veto may affect the workload.
Goals
    The goals for the coming year include continuing to transmit 
electronic files to GPO of all verbal proceedings on the floor of the 
Senate, increasing the volume of submitted (not spoken on the floor) 
statements by informing and educating staff of the e-mail process and 
the proper format for submitting statements, training replacement 
transcribers in the process of rapidly and accurately producing the 
Record, as well as learning other tasks performed by the Coordinator, 
and looking into the possibility of creating a Web page to inform staff 
of Record format, our e-mail address, and procedures involved in 
submitting statements for inclusion in the Record.
Cost Savings
    Amendments.--The text of all amendments are printed under the 
``Amendments Submitted'' portion of the Record. During 1997, we 
continued the practice of not printing amendments over 10 pages in 
length in the body of the proceedings of the Senate but only in the 
``Amendments Submitted'' portion. When an amendment over 10 pages is 
proposed on the floor, it is referenced to the ``Amendments Submitted'' 
portion, saving the costs of duplicate printing. Two-thousand and 
twenty-nine (2,029) pages of duplicate amendments were not printed, 
equating to a cost savings of approximately $123,580. The cost of a 
Record page, as estimated by the GPO, is approximately $466 per page 
for the first two pages and $270 per page for each additional page.
    Application of provision of paragraph 13 of Laws and Rules for 
Publication of the Record.--The effort has continued to enforce the 
provisions of this paragraph of the Rules, the so-called two-page rule, 
which says, in effect, no extraneous matter in excess of two Record 
pages shall be printed in the Record without the cost of printing of 
the material being announced on the Record at the time of submission. 
Submission of material exceeding the two-page rule has declined since 
the education process has started. When Senators are informed of the 
cost involved, their staff will either withdraw the material or 
substantially reduce the size to conform to the two-page rule.
                            parliamentarian
    The Parliamentarian advises the Chair, Senators and their staff, 
committee staff, House members and their staffs, and administration 
officials on all matters requiring an interpretation of the Standing 
Rules of the Senate, the precedents of the Senate, and provisions of 
public law affecting the proceedings of the Senate.
    During the last year the Parliamentarian's Office continued to 
perform its normal legislative duties. These include advising the 
Chair, Senators and their staff as well as committee staff, House 
members and their staffs, administration officials, the media and 
members of the general public on all matters requiring interpretation 
of the Standing Rules of the Senate, the precedents of the Senate, 
unanimous consent agreements, and provisions of public law affecting 
the proceedings of the Senate. The Office of the Parliamentarian is 
responsible for the referral of all legislation introduced in the 
Senate, all legislation received from the House, and all communications 
received from the executive branch. The office worked extensively with 
Senators and their staffs to advise them of the jurisdictional 
consequences of particular drafts of legislation, and evaluated the 
jurisdictional effect of proposed modifications in drafting.
    The office continues to analyze and advise Senators on a great 
number of issues arising under the Congressional Budget Act of 1974, 
requiring meetings with competing groups of staff. At every stage of 
the budget cycle, this office was called upon to arbitrate large 
numbers of budget-related questions. The Parliamentarian's Office was 
constantly asked to answer questions during consideration on the Senate 
floor of the budget resolution and the reconciliation bill it produced. 
1997 has seen the continued development of Kevin Kayes as the First 
Assistant Parliamentarian into an equal partner in the triumvirate of 
Parliamentarians.
    As always, Sally Goffinet, the Parliamentary Assistant, continues 
to provide invaluable service in all administrative and clerical 
matters. She also performs with a high degree of professional 
competency the substantive work of referring to committee most 
executive communications received by the Senate, and answering a 
significant number of questions about procedure. These responsibilities 
often entail legislative or legal research.
                     printing and document services
    Printing and Document Services documents Senate printing expenses 
and functions as GPO liaison to schedule and/or distribute Senate bills 
and reports to the Chamber, Senate staff, and the public, provides page 
counts of Senate hearings to commercial reporting companies, orders and 
tracks all paper and envelopes provided to Senate offices, provides 
general printing services for Senate offices, and assures that Senate 
printing is in compliance with Title 44, U.S. Code, as it relates to 
Senate documents, hearings, committee prints, and other official 
publications.
Background
    Printing and Document Services has the responsibility for 
coordinating the printing and/or distribution of most of the Senate's 
official Title 44 (U.S.C.) printing. The coordination of all Senate 
documents, hearings, committee prints, and miscellaneous publications 
between the Senate and GPO is our responsibility, as is the 
distribution of Senate and House legislation. Virtually all blank 
paper, letterhead, and envelopes throughout the Senate are ordered 
through this office. Additionally, commercial reporting companies are 
remunerated for transcribing all Senate hearings through our billing 
verification service.
    Efforts are underway to consolidate, restructure, and cross-train 
personnel. During this past year, two positions have been eliminated 
through attrition, thereby saving approximately $40,000 per year.
Total Publications
    During the first session of the 105th Congress, 369 publications 
(hearings, committee prints, Senate documents, Senate publications) 
were printed. This compares with 354 publications printed during the 
first session of the 104th Congress, or an increase of about 4 percent.
Hearings Transcripts and Billing Verifications
    Billing verifications are the vehicle by which reporting companies 
request payment from a committee for their transcription services. 
During 1997, we provided commercial reporting companies and the 
corresponding Senate committees a total of 1,105 billing verifications 
of Senate hearings and business meetings (including hearings which were 
canceled or postponed, but still requiring payment to the reporting 
company). This averages 53 hearings or meetings per committee. Compared 
with 782 billing verifications in 1996, there was an increase of about 
41 percent in the number of hearings processed.
    Commercial reporting companies charged the Senate approximately 
$585,956 to prepare 89,020 transcript pages of the spoken portions of 
Senate hearings (compared to 1996 figures of $440,875 to prepare 66,188 
transcribed pages) for an average annual cost of about $29,903 per 
committee, and an average of 4,239 spoken transcript pages per 
committee during 1997. In 1996, the average annual cost per committee 
was $16,957, and an average of 2,545 spoken transcript pages.

------------------------------------------------------------------------
                                                              Increase/
                                       1996         1997       decrease
                                                              (percent)
------------------------------------------------------------------------
Billing Verifications............          782        1,105          +41
Transcribed Pages................       66,188       89,020          +34
Average Pages/Committee..........        2,545        4,239          +67
Transcribed Pages Cost...........     $440,875     $585,956          +33
Average Cost/Committee...........      $16,957      $29,903          +76
------------------------------------------------------------------------

Requisitions
    Printing and Document Services prepared 5,916 printing requisitions 
during fiscal year 1997, authorizing GPO to print the Senate's work, 
exclusive of legislation and the Record. This is an increase of about 
14 percent over fiscal year 1996.
Paper, Letterhead and Envelopes
    Printing and Document Services provides and maintains an accounting 
of blank paper, letterheads, and envelopes for all Senate offices. The 
total blank sheets and letterheads ordered in 1997 were about 102.5 
million sheets, an increase of 30 million sheets compared to 1996. In 
1997, the Senate used about 7.9 million envelopes, compared to 7.6 
million in 1996.
Mini Document Room
    Printing and Document Services serves the combined leadership by 
coordinating the distribution of all Senate-introduced and Calendar 
bills, reports, resolutions, and conference reports, including all 
legislation which has passed the House. Distribution is made to the 
Chamber, the Secretary's Office and leadership offices. Data entry into 
the legislative database and DocuTech databases is the responsibility 
of this section.
Cost Accounting Projects and Duties
    In addition to the ability to advise offices about turnaround and 
the method of reproduction, while assuring compliance with Title 44 
U.S.C., this office provides accounting information needed by offices. 
Ultimately, this data enables the Secretary to provide oversight 
information to the Rules Committee and the Joint Committee on Printing.
The Service Center
    In September 1995, at the direction of the Rules Committee and the 
Joint Committee on Printing, the Secretary's Office undertook 
responsibility for management of the GPO/JCP Service Center. The 
Service Center (now located in SH-B07) is staffed by experienced GPO 
printing specialists who provide Senate committees and the Secretary's 
Office with complete publishing services for hearings, committee 
prints, and preparation of the Congressional Record. Services include 
keyboarding, proofreading, scanning and composition.
    As a result of these services, committees have been able to 
decrease or eliminate overtime costs associated with the preparation of 
hearings, and can now publish in a more timely manner. Committees may 
also realize additional savings because the work done in the Service 
Center is chargeable to the committee as performed (as opposed to 
having a full-time staff member or detailee assigned to printing 
functions). Finally, by providing the ability to process what would 
otherwise be backlogged work, use of the Service Center may preclude 
the need to assign additional staff or GPO detailees to publishing 
duties.
    During 1997, the Service Center assisted 19 committees with the 
preparation of 263 hearings, committee prints, and Senate documents, 
including the Tributes to Senator Thurmond and the Tributes to Senator 
Tsongas. This represents three-quarters of all Senate committees which 
have printing responsibilities. From another perspective, the Service 
Center has assisted with 71 percent of the publications printed in 
1997.
Congressional Record
    In 1997, 13,089 pages were printed for the Senate and 14,203 pages 
were printed for the House (including Digest, Extension of Remarks, 
Proceedings, and Miscellaneous pages) for a total of 27,292 pages. This 
is a total of 867 fewer pages than in 1996. There were a total of 1.4 
million copies printed and distributed in 1997, including 462,060 to 
the Senate, 319,115 to the House, and 662,825 to Executive Branch 
agencies and the public.
    The total approximate cost to produce the Record was $12.8 million. 
Based upon the percent of content and distribution quantities, the 
proportional Senate cost was $5.9 million, the House was $6.4 million, 
and all other recipients $532,000. Per copy cost was about $8.86 
(Record costs are based upon GPO estimated appropriation costs, not 
including costs to produce the Record Index or microfiche copies).
    During 1996, GPO developed separate costs for Record pages which 
were telecommunicated to GPO and for those pages keyboarded at GPO. The 
cost of telecommunicated pages is $408. Keyboarded pages are $448. 
These costs apply to all categories of pages (Proceedings, Digest, 
etc.) for the House and Senate portions of the Record. The number of 
telecommunicated pages is currently available to us, and we are working 
with the Joint Committee on Printing to also obtain keyboarded page 
information. Once available, the combined figures will enable the 
Senate, House, and GPO to pinpoint Record expenses and areas in need of 
further automation and expense reduction.
Legislation
    The office captures data regarding all printed versions of all 
measures considered in the Senate. Beginning this Congress, all 
versions and distribution of House measures are included. For the sake 
of brevity, the following information is summarized by major category 
of legislation, such as Senate bills. Each category includes the 
successive versions in which all measures were printed during their 
legislative cycle (such as a Senate bill which is introduced, reported, 
and printed as passed), including star prints. Information relating to 
specific versions of all legislation is available, as is the additional 
number of copies ordered printed for the Document Room (see Docutech 
Project) and committees.
    The following table is for the first session of the 105th Congress. 
The ``Number of Pages'' column refers to the number of original pages, 
including blanks, within the categories listed. The total number of 
printed pages is not shown, but is available. Costs are rounded to the 
nearest hundred, and are based upon estimated GPO appropriation rates.

----------------------------------------------------------------------------------------------------------------
                                                                         Number
                           Measure                              Count   of Pages    Senate Cost     Total Cost
----------------------------------------------------------------------------------------------------------------
Senate Bills................................................     1,796    35,986      $2,300,000      $3,400,000
Senate Reports..............................................       163     8,541         632,000         875,000
Senate Resolutions..........................................       210       806          61,500          84,400
S.J. Res....................................................        45       185          12,800          19,400
S. Con. Res.................................................        98       535          37,700          54,200
House Bills.................................................     3,578    56,072       1,500,000       5,300,000
H. J. Res...................................................       137       602          15,400          60,000
H. Con. Res.................................................       247     1,095          24,600         111,700
H. Conf. Rept...............................................        20     4,572         418,600         473,800
Treaties/Exec...............................................        49     2,635         229,400         234,400
Public Laws.................................................        72     1,461         208,400         235,700
                                                             ---------------------------------------------------
      Totals................................................     6,415   112,490       5,400,000      10,800,000
----------------------------------------------------------------------------------------------------------------

Document Services
    The Document Services section coordinates requests for printed 
legislation and miscellaneous publications with other departments 
within the Secretary's Office, Senate committees, and the Government 
Printing Office, to ensure that the most current version of all 
material is available, and that sufficient quantities are in storage to 
meet projected demand.
    The primary responsibility of this section is to provide services 
to the Senate. However, the section also serves the general public, the 
press, and government agencies. Requests for material are received at 
the walk-in counter, through the mail, by fax, and via recorded 
messages. Recorded and fax messages operate twenty-four hours a day, 
and are filled the same day they are received, as are mail requests.
Summary of Annual Statistics
    The following chart is a summary of activities and trends in 
Document Services from 1987 through 1997.

----------------------------------------------------------------------------------------------------------------
                                                                 Calls     Public mail/ Staff phone/
               Calendar year/Congress/session                   received       fax          fax      Fax request
                                                              (inquiries)    requests     requests    breakdown
----------------------------------------------------------------------------------------------------------------
1988: 100th/2nd.............................................      107,871       20,579       79,163           NA
1989: 101st/1st.............................................      114,580       24,415       85,488           NA
1990: 101st/2nd.............................................      154,497       23,322       96,330           NA
1991: 102nd/1st.............................................      158,714       29,301       94,503           NA
1992: 102nd/2nd.............................................      144,478       21,634       64,543           NA
1993: 103rd/1st.............................................      135,035       23,679       64,752           NA
1994: 103rd/2nd.............................................      128,463       20,460       54,919        4,934
1995: 104th/1st.............................................      134,062       22,704       45,466       10,182
1996: 104th/2nd.............................................      110,742       15,140       35,479        8,043
1997: 105th/1st.............................................       60,296       12,739       23,672        7,261
----------------------------------------------------------------------------------------------------------------

    It is noted that the decreases for 1997 result from the 
availability of legislation on the Internet.
Docutech Project
    The following tables summarize quantities and costs associated with 
on-demand (supplemental) printing of bills and reports during the 
second session of the 104th Congress, and the first session of the 
105th Congress. The first table compares work printed at the request of 
Document Services during the last two years. The second and third 
tables indicate work printed for other government agencies by GPO in 
order to more fully employ the machine. Costs are based upon a charge 
of two cents per page.

                      TABLE 1.--LEGISLATIVE SUMMARY
------------------------------------------------------------------------
                                               105th           104th
                                             Congress,       Congress,
                                           First Session   First Session
------------------------------------------------------------------------
Days in Session.........................             153             211
Hours in Session........................           1,093           1,839
Measures Passed.........................             385             346
Measures Reported.......................             248             249
Roll Call Votes.........................             298             613
Quorum Calls............................               6               3
Senate Bills Introduced.................           1,568           1,514
Senate Joint Resolutions................              39              45
Senate Concurrent Resolutions...........              70              37
Senate Resolutions......................             163             206
Amendments Submitted....................           1,639           3,113
House Bills.............................             224             204
House Joint Resolutions.................              19              16
House Concurrent Resolutions............              44              26
Written Reports.........................             158             200
------------------------------------------------------------------------


                                                  DOCUTECH DATA
----------------------------------------------------------------------------------------------------------------
                                                             Run    Original                    Cost      Total
                                                  Count    Length     Pages    Printed Pages    Each      Cost
----------------------------------------------------------------------------------------------------------------
1996:
    Totals....................................       762    43,710    43,478       3,200,000     $1.46   $63,727
    Daily Averages............................       4.6       342     225.4          12,784        NA   $255.86
1997:
    Totals....................................       946    31,593    45,832       2,100,000      1.33    41,995
    Daily Averages............................       4.4       146     212.2           9,712        NA    194.43
----------------------------------------------------------------------------------------------------------------


                                                AGENCIES PRINTING
----------------------------------------------------------------------------------------------------------------
                                                             Run    Original                    Cost      Total
                                                  Count    Length     Pages    Printed Pages    Each      Cost
----------------------------------------------------------------------------------------------------------------
1997:
    Totals....................................       277   234,764    32,349       3,300,000     $0.28   $65,379
    Daily Averages............................       2.1     1,792     246.9          24,950        NA    499.08
1996:
    Totals....................................       284   302,625    84,852       5,100,000       .34   101,834
    Daily Averages............................       1.8      1,80       527          31,622        NA    632.51
----------------------------------------------------------------------------------------------------------------


                                    COMMITTEE HEARINGS AND BUSINESS MEETINGS
----------------------------------------------------------------------------------------------------------------
                                                       1997--105th Congress, first   1995--104th Congress, first
                                                                 session                       session
                                                     -----------------------------------------------------------
                                                                Business                      Business
                                                      Hearings  Meetings   Totals   Hearings  Meetings   Totals
----------------------------------------------------------------------------------------------------------------
January.............................................        22        24        46        58        31        89
February............................................        57        11        68        82        16        98
March...............................................       127        18       145       167        26       193
April...............................................       123         8       131        60        10        70
May.................................................        99        15       114       137        22       159
June................................................        65        49       114        85        25       110
July................................................       100        48       148        79        20        99
August..............................................         2  ........         2        42        15        57
September...........................................        90        31       121        57        48       105
October.............................................       110        25       135        40        24        64
November............................................        29        18        47        43        22        65
December............................................  ........  ........  ........        42        19        61
                                                     -----------------------------------------------------------
      Totals........................................       824       247     1,071       892       278     1,170
----------------------------------------------------------------------------------------------------------------

                     office of captioning services
    The Office of Captioning Services provides real-time captioning of 
Senate floor proceedings for deaf and hard-of-hearing persons. The 
office also provides the unofficial transcripts of Senate floor 
proceedings to offices via the Senate Intranet.
Overview of Activity
    Requests from Senate offices to provide additional services 
increased during 1997. We did not provide any additional services when 
compared to 1996.
    We continue to depend on the Senate Library and increasingly on the 
Internet to verify information. We added to our reference collection 
and updated some existing reference materials in 1997.
    Caption quality continues to be our number one priority. We conduct 
peer reviews on a weekly basis. The office average for accuracy was up 
slightly for 1997.
Technology Update
    The Senate Recording Studio continues to refine a system that 
captures Office of Captioning Services captions and marks them with 
day/date/time and speaker information prior to storage in a database. 
This database can be searched by Senators and staff using key words. 
Once the text is located, a Senator's speech can be listened to on 
computers configured to handle audio events from a web page. Other 
enhancements to this service are anticipated during 1998.
    Captioning Services' role in this project has been to identify 
phrases that trigger key events in the marking of the captions and 
reviewing the text for indexing errors.
    The technology used for real-time captioning is not 
Windows<SUP>TM</SUP> compatible and needs to be updated or replaced. In 
addition, our current software is believed to not be year 2000 
compliant.
                         Administrative Offices
                           disbursing office
Front Counter--Administrative and Financial Services
    The Front Counter is the main service area of all general Senate 
business and financial activity. It is the receiving point for most 
incoming expense vouchers, payroll actions, and employee benefits-
related forms, and is the initial verification point to insure that 
paperwork received in the Disbursing Office conforms to all applicable 
Senate rules, regulations, and statutes. The Front Counter is the first 
line of service provided to Senate Members, officers, and employees. 
All new Senate employees (permanent and temporary) who will be working 
in the Capitol Hill Senate offices are administered the required oath 
of office and personnel affidavit and provided with verbal and written 
information regarding their pay and benefits. Authorization is 
certified to new employees for issuance of their Senate identification 
card. Cash advances are issued to Senate staff authorized for official 
Senate travel and travelers' checks are available for sale to assist 
the traveler. Numerous inquiries are handled daily, on subjects ranging 
from pay, benefits, taxes, Senate laws and regulations, in our 
commitment to provide the highest degree of customer service. Senate 
entities, in the course of their official duties, receive cash and 
checks as part of their daily business. The Front Counter maintains the 
Senate's internal accountability of funds used in daily operations. 
Reconciliation of such funds is executed on a daily basis. These funds 
are submitted through the front counter and become part of the Senate's 
accountability of federally appropriated funds and are then processed 
through the Senate's general ledger system.
            Activities
    The Front Counter administered oath and personnel affidavits to 
more than 3,200 new Senate staff, maintained brochures for 26 federal 
health insurance carriers and distributed approximately 3,000 brochures 
to staff during the annual FEHB open season, issued approximately 1,500 
cash advances for official Senate travel and received more than 20,000 
checks from Senate entities.
Payroll Section
    The Payroll Section maintains the Human Resources Management System 
and is responsible for: processing, verifying and warehousing all 
payroll information submitted to the Disbursing Office by Senators for 
their personal staff, by Chairmen for their committee staff, and by 
other elected officials for their staff, issuing salary payments to the 
above employees, maintaining the Automated Clearing House (ACH) FEDLINE 
facilities for the normal transmittal of payroll deposits to the 
Federal Reserve, distributing the appropriate payroll expenditure and 
allowance reports to the individual offices, issuing the proper 
withholding and agency contributions reports to the Accounting Section 
and transmitting the proper Thrift Savings Plan (TSP) information to 
the National Finance Center (NFC) while maintaining earnings records 
for distribution to the Social Security Administration, and maintaining 
employees' taxable earnings records for their W-2 statements, which are 
also prepared by this section. The Payroll Section is also responsible 
for the payroll portion of the Report of the Secretary of the Senate.
            Activities
    January 1997 started with the processing of more than 2,200 open 
season changes. The Payroll Section processed all the forms in 
conjunction with the open seasons for Federal Employees' Health 
Benefits (FEHB), Combined Federal Campaign (CFC), and the Thrift 
Savings Program (TSP). The year's second TSP open season produced an 
additional 1,200 forms for processing during July and August 1997. 
During January 1997, 4,500 salary increases in conjunction with the 2.3 
percent cost of living increase were also processed.
    The U.S. Senate started participating in the National Directory of 
New Hires for the Federal Parent Locator Service, a project sponsored 
by the U.S. Department of Health and Human Services.
    Planning for the transfer of the U.S. Capitol Police payrolls from 
the U.S. Senate Human Resources Management system to the National 
Finance Center began in September.
    The Payroll Supervisor attended the Southern Users' Integral 
Conference that was held in New Orleans, Louisiana. The basic function 
of the Users Conference was to prepare Integral users for the final 
move to year 2000 technology. Although this was a regional conference, 
18 states and the District of Columbia attended.
            Upgrade For Year 2000 Compliance
    One effective method of handling year 2000 compliance would be to 
upgrade to Integral version 9.5.3. The length of the segments has 
doubled in size. This means an increase in processing speed and an 
increase in data being held within each segment. The programmers will 
have a definite game plan to follow. Version 9.5.2 has been Beta tested 
by a medical research center in Baton Rouge, Louisiana. When Version 
9.5.3 comes up, most of the problems found from the first two updates 
of 9.5 and the Beta testing will have been resolved. Our programmers 
will have the opportunity to review the problems of the Beta tests and 
the solutions used to correct the problems.
            Future Activities
    Payroll will continue with the upgrade to the 9.5 and year 2000 
compliance. Payroll will also continue to work with the group of 
consultants to verify that we are continuing to move in the right 
direction for a Human Resources Management system. Once Payroll is year 
2000 compliant and the FMIS is operational and can be upgraded to 
include the entire allowance system, then Payroll will be in the 
position to move to client server system and a biweekly payroll if 
applicable.
Employee Benefits Section
    The Employee Benefits Section's (EBS) primary responsibilities are 
administration of Senate employees' health and life insurance and 
retirement programs. The section's work includes research and 
verification of prior Senate or other federal service for new 
appointees. EBS prepares these forms for payroll input after they are 
returned and verifies the accuracy of the information when the Official 
Personnel Folder is received. Employment verifications for loans, the 
Bar, the Federal Bureau of Investigation, the Department of Defense, 
and for outside insurance are completed in EBS. Unemployment claim 
forms are completed, and employees are counseled. Department of Labor 
billing for unemployment paid to Senate employees are checked in EBS 
and submitted by voucher to the Accounting Section to be paid. 
Designations of beneficiaries for FEGLI, CSRS, FERS, and for unpaid 
compensation are filed and checked by EBS.
            Activities
    The annual Federal Employees' Health Benefits (FEHB) Open Season 
resulted in more than 600 employees changing plans.
    The FEHB Open Season Health Fair was attended by approximately 900 
employees. Because the office has received so many requests for this 
information, the Fair was open to all employees on the Hill, including 
House and Architect employees.
    During the two Thrift Savings Plan (TSP) Open Seasons, the employee 
changes remained about the same as normal, one change for every seven 
employees.
    Mortgage rates, still dropping, kept employment verifications 
coming in at a rapid pace, averaging 140 per month.
    Unemployment verifications, termination packages, transcripts of 
service for employees going to other federal agencies, and other tasks 
associated with employees changing jobs were all heavy this year, as 
approximately 700 staffers terminated as of January 2, 1997. Another 
700 entered on duty on the new staffs, and this required prior 
employment research and verification, new health and life insurance, 
retirement, and TSP enrollments, and the associated requests for 
verification. In addition, 34 offices requested a Senate transcript of 
service for all of their active employees, resulting in approximately 
1,500 transcripts.
    Seminars were held for outgoing and incoming Members' staffs, as 
well as committees facing reorganization. Information about retirement, 
health and life insurance, unemployment, and Ramspeck privileges was 
available at the seminars.
    Requests for counseling, retirement planning and processing were 
very heavy in 1997. Since most of the Members leaving were long term 
Members who were retiring, our retirement caseload set a new record, 
with the caseload for January (30 FERS and 50 CSRS) totaling over half 
of a normal year's load. Total retirement cases processed equaled 213 
(78 FERS and 135 CSRS), a 63 percent increase over the previous year 
and a new record.
    The annual Integral Conference was held in San Francisco, 
California in August. We used the Conference to review the 9.5 upgrade 
for our Human Resources Management System, and to begin planning and 
strategies to implement it. This related to the recently completed 
Booz-Allen and Hamilton, Inc. (BAH) review of the Senate's Human 
Resources (HR) needs and the combined BAH and KPMG reviews of future 
directions for our payroll system, as well as system requirements 
reviews.
    The 9.3 release of the Integral Human Resources Management System 
was finished, which achieved some of the year 2000 compliance 
requirements, and upgraded many aspects of the payroll system 
processing. The next step, moving to the full Year 2000 compliant 
version (9.5) was delayed. During this time, BAH consultants reviewed 
the Senate's Year 2000 plans, which was expanded to include a review of 
the HR needs. The Benefits Section worked with BAH to ensure that the 
full implications of the requested changes were included and that the 
full capacity of the current system was appreciated. It was finally 
agreed that the best approach was to continue with the work on the year 
2000 update, which is well on its way.
    Next, KPMG was assigned the task of reviewing what system changes 
could be added to the 9.5 upgrade without risking the deadline. A 
payroll cycle change was reviewed, and the final decision was that time 
and current resources could not adequately ensure the deadline would be 
met if the changes were implemented in conjunction with the year 2000 
update. The section has worked as closely as possible with KPMG to 
review the changes required to meet these requirements, and work will 
progress in 1998. It is anticipated that after the year 2000 update is 
completed (by October 1, 1999), work on a new version of the payroll 
system will begin. A study is under way to decide whether to keep the 
system on a mainframe computer or switch to a client/server 
environment. In either case, a distributed HR system will be 
implemented and a pay cycle change to biweekly can move forward.
    With the U.S. Capitol Police transferring from the Senate to the 
NFC payroll system on March 1, 1998, this section has participated in 
the planning of the transfer. All aspects of the movement of about 650 
staff off the Senate payroll have been addressed, including all payroll 
and benefits records and computer data. One major part of the project 
completed in 1997 was the generation and correction of retirement 
records for each of the 650 police personnel. Records required 
correction due to the many changes in computer systems and tracking 
over the years.
            Future Activities
    In light of the new Retirement Open Season, which is scheduled for 
July through December 1998, the Benefits Section has been evaluating 
computer modeling programs to help with the anticipated load of 1,000 
employees and Members seeking information to decide whether to remain 
in the old Civil Service Retirement System or to switch to the Federal 
Employees Retirement System. The section will prepare and give 
seminars, set up and staff a PC room so employees can use the computer 
models, and counsel these employees and Members to ensure that they 
have all the pertinent information required to make an informed choice.
    The TSP is scheduled to add two new investment funds in October 
1998. The Benefits Section will work with the Computer Center to alter 
current HRMS screens and ensure that withholdings and electronic tapes 
are correct, as well as hold seminars and distribute printed 
information to all employees and Members to inform them of the new 
investment opportunities.
Audit Section
    The Audit Section is responsible for auditing vouchers and 
answering questions regarding voucher preparation, identifying 
duplicate payments vouchered by offices, monitoring payments related to 
contracts, training new office managers and chief clerks about Senate 
financial practices, training office managers in the use of the Senate 
Office Accounting System (SOAS), and producing the Report of the 
Secretary of the Senate. The Section also maintains the Senate's 
central vendor file (Member, Office Direct Access or MODA) and monitors 
the Fund Advance Tracking System (FATS) by ensuring that advances are 
charged correctly, vouchers repaying such advances are entered, and 
balances adjusted for reuse of the advance funds. An ``aging'' process 
is also done to ensure that the advance is repaid in the time specified 
by the advance regulations.
            Activities
    This section performed training sessions for individual offices: 37 
new office managers/chief clerks and 31 new SOAS users.
    The section assisted the audit staff of the Committee on Rules and 
Administration with the drafting of the regulations for advance 
payments for the Senate as authorized by the Legislative Branch 
Appropriations Bill for fiscal year 1998.
    The section participated with the team chosen to evaluate the 
Senate's business practices with an eye toward the Senate moving toward 
ever more efficient business practices. This involved many meetings 
with the Sergeant at Arms, Committee on Rules and Administration, and 
the consultants from Booz-Allen. Decisions made by these groups then 
had to be discussed with the Senate user community for their input.
    With the addition of two staff to the Audit Section, restoring the 
staffing to normal levels, the time needed for the payment of expense 
claims was significantly reduced.
    A system was established through using cc:Mail and voice mail for 
the research of vouchers. Office managers and chief clerks were 
provided a cc:Mail address and a phone number to use to make inquiries 
concerning payment status for an expense. This procedure allows 
designated staff, to monitor the inquiry line rather than having 
multiple staff being interrupted as each call was received. This change 
has increased efficiency in the overall operations of the section.
    Another new procedure was established to send messages regarding 
voucher corrections via cc:Mail to Senate offices. Beginning in May, 
the Audit Section designed a standard cc:Mail message with check boxes 
and fill-in-the-blank areas to inform Senate offices when corrections 
were needed on expense vouchers. The message provided information on 
the corrections made and on problems with the vouchers that required 
action by the office managers. This procedure reduced the amount of 
time spent in trying to contact Senate offices and waiting for a 
response, thereby enabling expense vouchers to be processed more 
expeditiously. The number of outgoing messages regarding voucher 
corrections, from May through December, 1997, was 5,565.
    The Audit Section passed a milestone during the April-May time 
period when 19,000 vouchers were processed, with 11,500 being processed 
in May alone. The 11,500 represents the highest number of vouchers 
processed since records have been kept. The section received 89,685 
vouchers for calendar year 1997, which represents an 8.3 percent 
increase over figures for the prior year. The totals by office are as 
follows: Senators--57,090 (63.5 percent); Sergeant at Arms--14,171 
(15.8 percent); Stationery Room and Gift Shop--8,816 (9.8 percent); all 
others 9,608 (10.7 percent). The following figures were also obtained 
for the period of January-December:

Average number of vouchers received in a week..................... 1,736
Lowest number of vouchers received in a week......................   959
Highest number of vouchers received in a week..................... 2,542
Average number of vouchers received in a day......................   361
Lowest number of vouchers received in a day.......................    97
Highest number of vouchers received in a day......................   789

            Automation Report
    Nearly all Senate offices are now utilizing the SOAS application 
for electronic voucher generation, record keeping, and budgeting for 
the Senators' official personnel and office expense account.
    The section made changes to the database system for the generation 
of the Report of the Secretary of the Senate to accommodate the changes 
in the Fiscal Year 1998 Legislative Branch Appropriations Act that now 
calls for the expenses of franked mail to be debited against Member and 
committee funds, not to the official mail account.
Accounting Section
    The Accounting Section compiles the annual operating budget of the 
Senate for presentation to the Committee on Appropriations and ensures 
adherence to appropriation limitations established by the Legislative 
Branch Appropriations Act, and Title 2 of the U.S. Code. The Accounting 
Section accomplishes its control of appropriation limitations through 
the maintenance of the general ledger of the Senate.
            Activities
    During fiscal year 1997, the Accounting Section processed 90,442 
expense reimbursement vouchers for payment on 61,152 United States 
Treasury checks issued. The section also processed 1,548 deposits for 
items ranging from receipts received by the Senate operations to 
canceled subscription refunds from Member offices. General ledger 
maintenance also prompted the entry of 8,072 adjustment entries that 
include all appropriation and allowance funding limitation 
transactions, all accounting cycle closing entries, and all non-voucher 
reimbursement transactions such as payroll adjustments, stop payment 
requests, travel advances and repayments, and limited payability 
reimbursements.
    Working closely with the Audit Section and with the support of the 
Secretary of the Senate, the Accounting Section has worked diligently 
over the past year to improve service to our customer base: Member 
offices, committees, leadership and support offices. Staff attrition in 
recent years had impacted the timeliness of voucher payments to staff 
and vendors. With the support of the Secretary of the Senate, 
additional resources have been acquired and processing time has been 
improved by nearly ten business days. Workflow reorganization planned 
for this year should maximize our existing resources and this should 
reflect in customer service. A voucher payment status line has been 
implemented in the past year to assist office managers manage their 
vendor and staff reimbursement requests. The payment status line is a 
voice mail system that office managers can call to check the status of 
payments, which helps the Accounting and Audit Sections manage the flow 
of calls and assign specific staff to monitor the line.
            Financial Systems
    Currently, more than 9,000 active ledger accounts are tracked daily 
through the Disbursing Office Voucher Entry System (DOVES). All voucher 
reimbursement payments, checks written, deposits and adjustment entries 
are processed using this system. The DOVES system was designed in the 
late 1980's to be a short term (2-3 years) general ledger system for 
the Senate. The system has been modified substantially throughout the 
years and is functional, but is quickly outliving its usefulness. 
Routine system maintenance and modification are performed in 
conjunction with staff of the Senate Computer Center and require 
significant Accounting Section resources. The system currently resides 
on an outdated 3Com local area network. The 3Com servers used in this 
LAN are no longer manufactured, necessitating a transfer to a new 
operating environment.
            Future Financial Systems
    While routine maintenance and enhancements to the DOVES system 
continue, the primary focus is to prepare for the replacement of the 
Senate general ledger system. The Senate currently operates on a cash 
basis accounting system. With the implementation of the new general 
ledger system there will be a conversion to an accrual and obligation 
basis accounting system. Consequently, current staff must be trained in 
use of this system, and new staff must have experience with this 
system. The Accounting Section worked closely with Management Concepts, 
Incorporated to develop a specialized, week-long course on the 
government standard general ledger and standard government financial 
reporting. The course included staff from the Accounting, Audit, 
Payroll and Administrative and Financial Services Sections. This is the 
first step in what will become ongoing human resources development and 
training of existing and new financial management staff.
    Planning for the conversion to the KPMG Federal FAMIS 4.0 general 
ledger product will continue to be the top priority for the Accounting 
Section management and staff in the coming fiscal year. Conversion, 
which is projected to occur during fiscal year 1999, requires extensive 
planning and coordination between the FMIS project office, the Senate 
Sergeant at Arms staff and the Accounting Section. As part of the 
conversion, the Senate's data classification structure will be 
significantly altered to enable the creation of standard financial 
reports and enhanced expense category tracking using the Office of 
Management and Budget's object classification code structure. The new 
general ledger system will also enable the Senate to begin making 
vendor and staff reimbursement payments electronically, which should 
greatly enhance customer service. The Accounting Section looks forward 
to the implementation of the new general ledger system and planning all 
aspects of FMIS and continuing to improve our service capabilities to 
best meet the financial management needs of the Senate.
Financial Management System Development Section
    The Financial Management System Development project team focused on 
five activities this year: Continued support of the Senate Office 
Accounting System (SOAS); deployment of the Senate Time and Attendance 
Reporting System (STAR); development and implementation of new 
procedures; development of new processes and requirements for FMIS; and 
support of the Disbursing Office LAN.
            Activities--Senate Office Accounting System (SOAS)
    SOAS, a Paradox-for-DOS-based standalone system, is used by 106 
Senate offices to prepare vouchers and track office accounts. In 
January 1997, it was installed in the offices of the 15 newly elected 
Senators. In the fall, SOAS access to fiscal year 1998 was installed in 
all offices. For the Secretary, SOAS version 4.0 was installed in the 
Historical Office, the Chief Counsel for Employment and the Office of 
Public Records.
            Senate Time and Attendance Reporting System (STAR)
    STAR, a Paradox-for-DOS-based standalone system, is installed in 91 
Senate offices to track time and attendance records, and to produce 
overtime reports submitted to the Disbursing Office to authorize 
payment for overtime. A number of enhancements suggested by offices 
were implemented this year, assisted by a programmer from the Senate 
Computer Center who supports the leave tracking function of the system. 
Training sessions for all offices where STAR is used were offered.
            Development and Implementation of New Procedures
    The Disbursing Office implemented three new procedures that have 
been very popular with offices this year. The project team wrote 
procedures and provided the technology to make these ``quick hits'' 
possible. These were:
  --Sending messages regarding voucher corrections via cc:Mail. In May, 
        we designed a standard cc:Mail message with check boxes and 
        fill-in-the-blank areas that the Audit Section uses to inform 
        offices of corrections on vouchers. The message provides 
        information on corrections made and on problems for which the 
        office must respond. This replaced the previous system of 
        ``telephone tag'' and is very popular among the office managers 
        because they can deal with voucher problems at their 
        convenience.
  --Sending voucher payment data electronically to office managers for 
        use in reconciling SOAS records to DOVES records. This saves 
        office managers a significant amount of time because payment 
        data used in their monthly reconciliation process is posted 
        automatically and therefore, there is no need to re-key the 
        Disbursing Office payment data.
  --Creating two avenues for offices to inquire about voucher status: 
        cc:Mail and Voice Mail. The Audit and Accounting Sections share 
        responsibility for responding to these inquiries in a timely 
        manner. This system is popular with office managers because 
        they can make inquiries outside of the normal Disbursing Office 
        hours.
            Development of New Processes and Requirements for FMIS
    During the summer and early fall we worked with Booz-Allen and 
Hamilton (BAH) to plan and conduct a series of Business Process Re-
engineering sessions attended by staff from the Disbursing Office, 
Sergeant at Arms (Finance, Purchasing, and Operations), and the Rules 
Committee. These daily meetings, during most of September and October, 
resulted in a series of process flows diagrams showing the steps 
between purchasing, receiving of goods and services, invoice receipt, 
voucher preparation, auditing, sanctioning by the Rules Committee, and 
payment. The office supervised the production of minutes and process 
flow diagrams from these meetings, which were distributed to the 
participants on paper and through a FMIS home page on Webster. The 
process flow diagrams were presented to the FMIS user group, a small 
group of office managers and chief clerks who met with staff weekly 
during October and November. The processes and discussion at both sets 
of meetings are forming the basis of a new set of FMIS system 
requirements.
                       office of human resources
    The Office of Human Resources implements and coordinates human 
resources policies, procedures, and programs for the Office of the 
Secretary of the Senate including hiring, training, performance 
management, job analysis, compensation planning, design, and 
administration, leave administration, records management, job 
advertisements and postings, employee handbooks and manuals, employee 
relations, and organizational planning and development.
Merit Review Program
    The Office of the Secretary designed and implemented a new pay 
delivery system in 1997, a merit review (or performance-based) program. 
As the name implies, this is an incentive compensation system designed 
to motivate employees to perform well and to reward them in relation to 
their performance. The Office's merit review program will now be 
conducted annually in the last quarter of each fiscal year. While some 
organizations choose to review performance on the anniversary of each 
employee's employment, we have decided to review all employees at the 
same time every year to improve the budget planning and utilization 
processes, to provide more flexibility for developing compensation 
strategy from one year to the next, and to ensure that each employee 
receives the same opportunity for a salary increase.
Performance Evaluation
    The point of reference for performance-based compensation is, of 
course, a performance appraisal. Formal evaluations of employee 
performance were sporadic and infrequent in years past. Therefore, a 
new evaluation instrument, ``The Employee Feedback and Development 
Plan,'' was developed. The plan is somewhat different than traditional 
performance appraisals in that it elicits continuous feedback and 
communication. It is used by the supervisor throughout the performance 
period and is finalized at year-end. Feedback to employees is timely 
and nonthreatening, management has the opportunity to provide adequate 
direction as employees are performing their jobs, desired performance 
is identified and reinforced, undesirable performance and results are 
identified at a time when change can more easily be made, and the focus 
of the more formal discussion (at year-end) is the present and the 
future, not the past. The plan also features performance objectives 
that focus on the employee's current work requirements, a non-
traditional rating scale that encourages supervisors to ``call it like 
it is,'' and rating factors that stress organizational values.
Intern Program
    The Office hosted 30 interns during the summer of 1997. Serving in 
13 different departments, these interns made many worthwhile 
contributions to the goals and objectives of our organization and 
received a unique educational and work experience.
                             senate library
    The Senate Library provides legislative, legal and general 
reference services to the United States Senate. The core collection 
consists of a comprehensive collection of congressional publications 
dating from the Continental Congress. In addition, the Library 
maintains executive and judicial branch materials with an extensive 
collection of books on politics, history and biography. These sources 
plus a wide array of in-house and commercial online systems, assist 
Library staff in providing timely and accurate information services.
Administration
    The Library's major administrative achievement was the 
implementation of the merit review program with the development of 
performance objectives, annual staff evaluations and an incentive 
compensation program based on merit. The second significant 
accomplishment was the reduction in Library operating costs by 
$11,314.21. These reductions, the most substantial in Library history, 
were accomplished through a strictly focused acquisitions policy which 
will not compromise service but will allow for the continued purchase 
of core materials as the costs increase.
Library Relocation
    The Library staff and the Architect of Capitol completed 
preliminary design plans in September 1997 for the new Russell building 
facility and the Capitol suites. The design firm of Meyer, Sherer and 
Rockcastle of Minneapolis will assist in the planning of both the 
Russell building and the restoration of the Library's third floor 
Capitol rooms. The Russell building work began in late December 1997 
and completion of the project is scheduled for February 1999. The 
facility will use compact shelving, provide work areas for 20 Library 
employees and reading sites for 14 Senate staff. Upon completion, the 
entire Library staff and collection will move to the Russell building 
and the renovation will begin on the Library's Capitol rooms. That work 
will include upgrades to air handling and electrical systems, extensive 
plaster work and new shelving. The proposed completion date for the 
Capitol project is August 1999. With the two facilities, the Library 
will continue to provide high quality information services to both the 
Capitol and the Senate office buildings.
Information Services
    Activity for 1997 remained at a high level with over 46,000 
requests answered, over 7,000 items delivered and 5,200 faxes sent. In 
addition, nearly 9,000 patrons used Library materials in the Reading 
Room and staff provided over 41,000 legal, news and business database 
searches. Increased use of improved online systems, particularly LIS, 
by Senate staff provided quality information resources to the Library 
and to the entire Senate. Library service was greatly enhanced through 
the use of electronic mail, faxing by personal computer and the 
installation of a patron terminal.
Technical Services
    In mid-September, DataTrek, the integrated library system, 
collapsed from a power supply failure to the server. The reason for the 
power interruptions was not determined, though several system and plug-
in boards were corrupted. After 11 weeks of attempted solutions, INET 
and the Senate Computer Center finally decided to replace the server, 
which brought the system back online. During that time, work backlogs 
affected every aspect of operations including cataloging, loan records, 
overdue notices, acquisitions, and subscriptions check in. Once 
operational, the backlog was completely erased through very dedicated 
efforts of the Technical Services staff.
    The Library has also instituted several new and efficient 
acquisitions procedures. The Internet is now a purchasing tool for 
missing and out of print books and also a primary source for government 
documents. When these government documents are downloaded for the 
collection, the website is included in the catalog record. Thirdly, the 
direct delivery of newspapers to the Library has streamlined the 
claiming of missing issues.
    Acquisitions is being impacted by the continued reduction in 
government printing, the increased use of microfiche and the increase 
in desktop publishing in Congressional offices. These developments have 
placed additional burdens on libraries hoping to maintain their 
collections. The issues include limited numbers of paper copies being 
printed, unpredictable distribution and unreliable Internet sources. 
The Library makes a concerted effort to secure copies of essential 
documents, but we are discovering that many escape our best efforts, 
potentially affecting the quality of the collection. The Library's 
comprehensive legislative collections have always served as the 
Senate's internal archives, and as offices, particularly committees, 
cope with limited space, the quality and continuity of that collection 
becomes increasingly more important.
    The 6,700 bibliographic records which were produced and added to 
the catalog in 1997 was an increase of 16 percent over last year. 
Technical Services production was especially impressive when 
considering the technical problems encountered during the fourth 
quarter. Major cataloging efforts were directed towards older materials 
with the long range goal of having the entire collection accessible 
online. Currently, patron access to the Library's online catalog is 
limited to terminals in the Library and a near term goal is to provide 
access to all Senate staff through Webster.
           office of the senate chief counsel for employment
    The Office of the Senate Chief Counsel for Employment (SCCE) is a 
non-partisan office established at the direction of the Joint 
Leadership in 1993 after enactment of the Government Employee Rights 
Act (GERA), which allowed Senate employees to file claims of employment 
discrimination against Senate offices. The Congressional Accountability 
Act of 1995 (CAA) applies the requirements, responsibilities and 
obligations of 11 employment laws to Senate offices. The SCCE provides 
legal advice and representation of Senate offices in CAA matters.
Background
    Each of the SCCE attorneys came to the office after having 
practiced as employment law litigators in major national law firms 
representing Fortune 100 corporations. The services the office provides 
are the same legal services the attorneys provided their clients while 
in private practice. The activities of the SCCE during 1997 can be 
divided into the following categories: Litigation (Defending Against 
Lawsuits), Legal Negotiations of Settlements of Threatened or Extant 
Lawsuits, Preventive Legal Advice, Union Drives and Negotiations, OSHA/
ADA, Layoffs and Office Closings, Management Training and 
Administrative/Miscellaneous Matters.
Litigation (Defending Against Lawsuits)
    During 1997, the SCCE represented employing offices of the Senate 
in hearings, proceedings, investigations, and negotiations relating to 
labor and employment laws.
Legal Negotiations of Settlements and Preventive Meetings
    At times, a Senate office will become aware that an employee is 
contemplating suing, and the office will request the SCCE's legal 
advice or that the SCCE negotiate with the employee's attorney to 
obviate the need for litigation.
    On a daily basis, the SCCE advises and meets with Members, chiefs 
of staff, and office managers at their request. The purposes of the 
advice and meetings are to prevent litigation and to minimize liability 
in the event of litigation. Since January 1997, the SCCE has had more 
than 1,671 conferences and over 386 meetings.
Union Drives and Negotiations
    During 1997, the SCCE represented Senate offices in connection with 
union drives. One drive is ongoing.
OSHA/ADA
    In January 1997, OSHA and titles II and III of the ADA became 
applicable to the Senate. The SCCE provides advice and assistance to 
Senate offices by assisting them with complying with the applicable 
OSHA and ADA regulations, representing them during Office of Compliance 
inspections, advising State offices on the preparation of the Office of 
Compliance's Home State OSHA/ADA Inspection Questionnaires, and 
assisting offices in the preparation of Emergency Action Plans. Senate 
offices request the SCCE to provide legal representation during such 
inspections to ensure that they comply with the law and that the Office 
of Compliance does not exceed its jurisdiction.
Layoffs and Office Closings
    The SCCE has provided legal advice and strategy to individual 
Senate offices and Committees regarding how to minimize legal liability 
in compliance with the law when offices reduce their forces.
    In addition, pursuant to the Worker Adjustment and Retraining 
Notification Act (WARN), offices that are closing must follow certain 
procedures for notifying their employees of the closing and for 
transitioning them out of the office. The SCCE tracks office closings 
and notifies those offices of their legal obligations under the WARN.
Management Training
    The SCCE gives legal advice seminars to Chiefs of Staff and Office 
Managers on a group basis to inform them of their legal duties and 
responsibilities under the CAA. During 1997, the office averaged two 
seminars per month. The topics addressed in the seminars were: 
preventing and addressing sexual harassment; complying with the Family 
and Medical Leave Act; complying with the Fair Labor Standards Act; 
rights and obligations under union laws; complying with the Americans 
with Disabilities Act; advertising, interviewing and hiring without 
violating the law. The office also writes and distributes reference 
manuals to educate managers about their obligations under employment 
laws.
    In an attempt to find a more efficient and cost-effective way of 
providing Members' state offices with this necessary training, the SCCE 
has begun broadcasting its seminars to the state offices live via the 
Internet. The broadcast is both audio and visual, and it allows two-way 
communications.
Administrative/Miscellaneous Matters
    The SCCE provides assistance to Senate offices by preparing 
employee handbooks, office policies, supervisors' manuals, sample job 
descriptions, interviewing guidelines, and job evaluation forms to 
assist Senate offices in complying with employment laws and thereby 
minimizing the potential for litigation.
    The SCCE also reviews all regulations issued by the Office of 
Compliance and advises the Senate as to whether the regulations should 
be approved, modified, or not approved.
                office of conservation and preservation
    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials for which the Secretary of 
the Senate has statutory authority. Initiatives include mass 
deacidification, conservation of books and documents, collection 
surveys, and contingency planning for disaster response and recovery.
Work prepared for Senate Leadership
    For more than twenty years the office has bound a copy 
``Washington's Farewell Address'' for the annual Washington's Farewell 
Address ceremony. In 1997, the volume was bound for and read by Senator 
Bill Frist.
    At the direction of the Secretary of the Senate, and through the 
Office of Interparliamentary Services, marbled paper slipcases were 
fabricated for the book, ``The United States Capitol: Photographs'' by 
Fred J. Maroon, and these were presented to 19 dignitaries during 
Senate trips.
    At the request of the Senate Democratic Leadership, 125 folders 
were embossed with the name of each Senator. At the request of the 
Secretary of the Senate, 100 ID cases were embossed with each Senator's 
name and home state. Four hundred ninety-four items were matted and 
framed, including resolutions, photographs, letters, and photographic 
compilations for five different Senators.
Inaugural Ceremonies
    The office assisted the Inaugural Committee by matting and 
embossing 305 photos, and embossing 15 photo albums for the Joint 
Committee on Inaugurations.
Senate Library
    In 1997, conservation treatments were completed for 225 volumes of 
a 7,000 volume collection. The office also prepared and sent 609 books 
from the Senate Library to the Government Printing Office (GPO) for 
binding.
    In consultation with the Senate Librarian, monies from the Book 
Preservation Fund helped the Senate Library purchase replacement copies 
for the Statutes at Large.
Office of the Senate Curator
    The office assisted the Office of the Senate Curator in the 
preparation and installation of two exhibits on Isaac Bassert, former 
doorkeeper, and Arthur Scott, Senate photographer.
    The office also assisted the Office of the Senate Curator and 
Senator Hutchison's Office with matting and framing of 15 historical 
engravings, 7 oversize Audubon prints, and 19 architectural drawings, 
for display in the Senate Courtyard conference rooms, located on the 
west front of the U.S. Capitol.
Historical Office
    This year the office undertook the posterity binding of two oral 
history interviews: Brian Hallen, former Senate Enrolling Clerk and 
William A. Ridgely, former Senate Financial Clerk and Assistant 
Secretary of the Senate.
Miscellaneous Projects
    The office continues to utilize our spray deacidification system, 
encapsulator, and dry mounting press. This year the office deacidified 
49 items, encapsulated 51 items, and dry mounted 156 items.
    For the Senate Photographic Studio, the office embossed 22 photo 
albums illustrating a congressional trip to Europe. For Senator Kerrey 
of Nebraska, our office fabricated a blue leather retirement book to be 
presented to Senator Exon of Nebraska. For Senator Abraham of Michigan, 
our office embossed a condolence book for the Princess of Wales. For 
Senator Cleland of Georgia, our office matted and framed a needlepoint 
and a photograph to be presented to the White House.
    The office continues conservation treatment of appropriation bills 
from 1877-1943. This year the office completed 49 books. There are 
approximately 300 books remaining for treatment. These books are a part 
of the Appropriations Committee collection.
                       office of senate security
    The Office of Senate Security (OSS) is responsible for the 
administration of classified information, personnel security, 
counterintelligence and classified computer security programs in Senate 
offices and committees. OSS also serves as the Senate's liaison to the 
Executive Branch in matters relating to the security of classified 
information in the Senate.
Classified Meetings
    OSS secure conference facilities were used on 947 occasions during 
1997. This is a 34.5 percent increase in the use of OSS facilities over 
1996 levels.
Document Control
    Classified document transactions continue to increase. OSS 
completed 7,875 document transactions for calendar year 1997, which is 
an increase of 13.8 percent over 1996 levels.
Personnel Security
    OSS workload in the personnel security area remained steady during 
1997. Personnel security investigations were initiated on 158 Senate 
employees. Of those investigations, 47 were ``periodic 
reinvestigations'' to update security clearances granted five or more 
years ago. 109 investigations were completed, and the remainder of the 
investigations (49) are pending completion by the Department of Defense 
or the Federal Bureau of Investigation.
Security Education
    OSS conducted or hosted 67 security briefings for Senate staff. 
Topics covered included: security managers' responsibilities, office 
security management, and introductory security briefings.
                         senate stationery room
    The Senate Stationery Room's principal functions are to provide for 
sale stationery items for the use of Senate offices and others 
authorized to use the service, to maintain an inventory and select a 
variety of stationery items adequate to meet the needs of the Senate 
personnel and purchase supplies either through competitive bids, GSA or 
special orders for these same items, to maintain individual stationery 
accounts for Senators, Committees, Officers, etc., and to issue bills 
and statements and receive reimbursement for all purchases, to deliver 
merchandise to Senatorial offices, and to advertise for bids and award 
contracts for Senate stationery supplies.

Fiscal year 1997 statistical operations

Gross sales...................................................$3,243,549
Sales transactions............................................    89,567
Generated purchase orders.....................................     6,626
Vouchers processed............................................     7,372
Metro fare media sold.........................................     5,624

    The statistical operations of the Stationery Room for fiscal year 
1997 saw increases in all categories from the last fiscal year. Gross 
sales were up by $281,914. Sales transactions were up by 1,200. 
Purchase orders generated were up by 1,042. Vouchers processed for 
vendor payments were up by 587. Metro Fare Media sold were up by 77.
    For fiscal year 1997, staffing level for the Stationery Room 
remained at fifteen, which is down by four staff positions since fiscal 
year 1994. The Stationery Room personnel continue to take on multiple 
job assignments when staff shortages exist due to illness or vacation.
    The Stationery Room customer base consists of approximately 242 
offices and other legislative organizations which are located in nine 
buildings, many of which have multiple locations. In addition to 
offices with official requirements, the Stationery Room also 
accommodates personal purchases from employees within the legislative 
community.
    The Stationery Room carries nearly 1,290 items, supplied by 
approximately 200 vendors.
    Fiscal year 1997 was a very busy and productive year for the 
Stationery Room staff. First and foremost was the production of a 
welcome package which was presented to each new Senator at the 
orientation program. This package consisted of information about the 
Stationery Room and its polices and procedures.
    During the second quarter of fiscal year 1997, the Stationery Room 
was the recipient of the 1996 Outstanding Sales and Service Award 
presented by the Washington Metropolitan Transit Authority for its 
participation in the Federal Metropool Program.
    Considerable time was spent during fiscal year 1997 to develop a 
plan of action for the implementation of new technology transitions 
that will occur by the end of fiscal year 1998. This plan has been 
devised to provide the least disruption to the Stationery Room 
customers, while providing for the office's transition into the 21st 
century.
                      interparliamentary services
    The Office of Interparliamentary Services has completed its 16th 
year of operation as a department of the Secretary of the Senate. IPS 
is responsible for administrative, financial, and protocol functions 
for all interparliamentary conferences in which the Senate participates 
by statute, or on an ad hoc basis, and for special delegations 
authorized by the Majority and/or Minority Leaders. The office also 
provides appropriate assistance as requested to other Senate 
delegations.
    The statutory interparliamentary conferences are: North Atlantic 
Assembly; Mexico-United States Interparliamentary Group; Canada-United 
States Interparliamentary Group; Interparliamentary Union; and British-
American Parliamentary Group.
    In May, the 36th Annual Meeting of the Mexico-U.S. 
Interparliamentary Group was held in Santa Fe, New Mexico. Arrangements 
for this successful event were handled by the IPS staff.
    As in previous years, all foreign travel authorized by the 
Leadership was arranged by the IPS staff. In addition to official 
delegations, IPS provided assistance for 17 individual foreign trips by 
Members. Several other trips were scheduled, but were canceled or 
postponed after most of the advance work had been completed. Also, 
Senators and staff authorized by Committees for foreign travel 
continued to call upon this office for assistance with passports, 
visas, travel arrangements and reporting requirements.
    IPS receives and prepares for printing the quarterly financial 
reports for foreign travel from all committees in the Senate. In 
addition to preparing the quarterly reports for the Majority Leader, 
the Minority Leader, and the President Pro Tempore, IPS staff also 
assist Senate staff and committees in filling out the required reports.
    Known to many in the Senate as the ``protocol office,'' 
Interparliamentary Services maintains regular contact with the Office 
of the Chief of Protocol, the Department of State, and with foreign 
Embassy officials. Official foreign visitors are frequently received in 
this office and assistance is provided to them by the IPS staff. The 
staff continues to work closely with other offices of the Secretary of 
the Senate and the Sergeant at Arms in arranging programs for foreign 
visitors. In addition, IPS is frequently consulted by individual 
Senators' offices on a broad range of protocol questions. Occasional 
questions come from state officials or the general public regarding 
Congressional protocol.
    On behalf of the Leadership, the staff arranges receptions in the 
Senate for heads of state, foreign dignitaries and parliamentary 
delegations. Required records of expenditures on behalf of foreign 
visitors pursuant to section 2 of Public Law 100-71 are maintained in 
the Office of Interparliamentary Services.
    Planning is underway for the 39th Annual Meeting of the Canada-U.S. 
Interparliamentary Group which will be held in 1998. Also, in 1998, 
advance work, including site inspection, will be undertaken for the 
38th Annual Mexico-U.S. Interparliamentary Group Meeting and the 1999 
British-American Parliamentary Group Meeting, both to be held in the 
United States.
                            senate gift shop
    The Senate Gift Shop, established in October of 1992, provides a 
variety of gift items and products, many of which contain educational 
and historical information pertinent to the U.S. Senate and the U.S. 
Congress. Gift Shop services are available to Congressional members, 
staff, constituents and visiting tourists.
    Two of the most successful new items offered in 1997 were the 105th 
Congressional Plate and the Capitol Box. These items were created and 
marketed to benefit the Capitol Preservation Commission and assist in 
raising the awareness of the Capitol Visitor Center Project.
    This year marked the completion of the four-year series of the 
Congressional Holiday Ornaments (1994-1997). The 1997 ornament proved 
to be one of the most popular ornaments of the series. The Gift Shop is 
now planning a new four year series which will begin in 1998 and will 
highlight the early years of the republic. The ornaments will display 
images of historical structures that have served the Senate and House 
of Representatives and will include Federal Hall (1789-1790) in New 
York, Congress Hall (1790-1800) in Philadelphia, and the Capitol 
Building as it appeared in 1800. The fourth and final ornament of the 
series will be of the present day Capitol. All of the various ornaments 
will be packaged with educational and historical information.
    The Gift Shop in the Capitol has become a distribution point for 
many educational and historical brochures. These documents created by 
the offices of the Senate Curator and the Senate Historian have proved 
to be a most popular item with visitors. The Gift Shop plans to 
continue expanding this service as more brochures become available and 
in the near future expects to have publications in foreign languages.
                        office of public records
    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate involving the Federal Election Campaign Act, as amended, the 
Lobbying Disclosure Act of 1995, the Senate Code of Official Conduct 
including Rule 34, Public Financial Disclosure, Rule 35, Senate Gift 
Rule filings, Rule 40, Registration of Mass Mailing, Rule 41, Political 
Fund Designees, and Rule 41(6), Supervisor's Reports on Individuals 
Performing Senate Services, and Foreign Travel Reports.
    The office provides for the inspection, review, and reproduction of 
documents in accordance with the above statutes and Rules. From 
October, 1996, through September, 1997, the Public Records office staff 
assisted more than 3,000 individuals seeking information from reports 
filed with the office. This figure does not include assistance provided 
by telephone, nor help given to lobbyists attempting to comply with the 
provisions of the new Lobbying Disclosure Act of 1995. A total of 
140,590 photocopies were sold during fiscal year 1997. The office works 
closely with the Federal Election Commission, the Senate Select 
Committee on Ethics, and the Clerk of the House concerning the filing 
requirements of the aforementioned Acts and Senate rules.
Automation Activities
    During fiscal year 1997, public financial disclosure reports were 
scanned using optical imaging technology. With respect to both lobbying 
and campaign financing filing areas, the office has worked to develop 
an automated database that is able to accept non-paper transmissions 
(electronic filing) as well as imaged paper filings.
Federal Election Campaign Act, as Amended
    The Act requires Senate candidates to file semi-annual reports in a 
non-election year. Filings totaled 6,791 documents containing 95,584 
pages for fiscal year 1997.
Lobbying Disclosure Act of 1995
    The Lobbying Disclosure Act of 1995 replaced the Federal Regulation 
of Lobbying Act, substituting organizational registrations instead of 
individual ones, semi-annual reports for quarterly ones, and inclusion 
of executive branch lobbying activity. As of September 30, 1996, 4,051 
registrants represented 8,897 clients and employed 14,946 individuals 
who met the statutory definition of lobbyist. The lobbying 
registrations and reports were microfilmed and indexed into a temporary 
database pending completion of an automated database system to include 
imaging (for paper copies received) and electronic components 
(discussed above).
Public Financial Disclosure
    The filing date for Public Financial Disclosure Reports was May 15, 
1997. The reports were available to the public and press by Friday, 
June 13th. Copies were provided to the Select Committee on Ethics and 
the appropriate state officials. A total of 2,402 reports and 
amendments were filed containing 12,427 pages. There were 421 requests 
to review or receive copies of the documents.
Senate Rule 35 (Gift Rule)
    On January 1, 1996, the revised Senate Rule 35 took effect as a 
result of passage of S. Res. 158 on July 28, 1995. The Senate Office of 
Public Records received over 2,900 reports totaling 3,100 pages during 
fiscal year 1997.
Registration of Mass Mailing
    Senators are required to file mass mailings on a quarterly basis, 
and the number of pages for fiscal year 1997 was 605.
                           historical office
    Serving as the Senate's institutional memory, the Historical Office 
collects and provides information on important events, precedents, 
dates, statistics, and historical comparisons of current and past 
Senate activities for use by members and staff, the media, scholars, 
and the general public. The Office advises Senators, officers, and 
committees on cost-effective disposition of their non-current office 
files and assists researchers in identifying Senate-related source 
materials. The Office keeps extensive biographical, bibliographical, 
photographic, and archival information on the more than 1,700 former 
Senators. It edits for publication historically significant transcripts 
and minutes of selected Senate committees and party organizations, and 
conducts oral history interviews with retired senior Senate staff. The 
Office maintains a collection of approximately 30,000 still pictures, 
slides, and negatives that includes photographs and illustrations of 
most former Senators, as well as news photographs, editorial cartoons, 
photographs of committees in session, and other images documenting 
Senate history.
Editorial Projects
    Vice Presidents of the United States, 1789-1993.--Working with 
former Senator Mark Hatfield, the Historical Office prepared a series 
of forty-four chapter-length essays tracing the role of each of the 
nation's former vice presidents operating within the institutional 
context of the United States Senate. Each chapter includes biographical 
information on the individual, how he came to run for vice president, 
and his impact on that office. The Office completed publication 
arrangements with the Government Printing Office early in 1997 and the 
book appeared in April as Senate Document 104-26.
    A History of the Senate Republican Policy Committee, 1947-1997.--To 
commemorate the fiftieth anniversaries of the Senate Republican and 
Democratic Policy Committees, the Historical Office has prepared 
narrative histories of the committees, their members, their staffs, and 
their impact on legislation in the U.S. Senate. In June the Government 
Printing Office published the first of these two volumes. Work is 
nearing completion on the companion volume on the Democratic Policy 
Committee.
    Minutes of the Republican and Democratic Party Conferences, 1903-
1964.--In 1992 the Senate's party leaders agreed to a recommendation of 
the Advisory Committee on the Records of Congress that the Historical 
Office preserve, edit, and publish the official minutes of each party 
conference, dating from the start of the twentieth century to a period 
thirty years before the present. The Office completed work during 1994 
on the minutes of the Senate Democratic Conference covering the years 
1903-1964. In 1997, the Office concluded work on a companion volume for 
the minutes of the Republican Conference for the years 1911-1964. Both 
volumes are now ready for publication, subject to final approval by the 
respective conferences.
Oral History Program
    The Historical Office opened for scholarly research the transcripts 
of oral history interviews with Kelly D. Johnston, former Secretary of 
the Senate and staff director of the Senate Republican Policy 
Committee. A series of interviews with Charles Ferris, former staff 
director of the Senate Democratic Policy Committee, were also completed 
and are being processed. Interviews were also conducted with C. Abbott 
Saffold, former Senate Democratic Secretary. The Office continues to 
work with other oral history projects, at universities and state 
historical societies, that are focused on individual Senators' careers.
Member Services
    ``Senate Historical Minutes''.--At the request of the Senate 
Democratic Leader, the historian prepared and delivered a ``Senate 
Historical Minute'' at each of thirty Senate Democratic Conference 
weekly meetings. These 300-word ``minutes'' are designed to enlighten 
members about significant events and personalities associated with the 
Senate's institutional development. Each ``Minute'' was subsequently 
published the day after its delivery in The Hill newspaper and then 
collected in a booklet, ``Thirty Minutes of Senate History,'' that will 
be distributed to all Senate offices early in 1998.
    ``Records Management Handbook for United States Senators and Their 
Archival Repositories'' was updated and extensively revised, 
particularly those sections dealing with electronic records. The Senate 
Archivist worked with the National Archives and the Senate Computer 
Center to revise this work's electronic records sections. This 
publication will be reissued in 1998.
Educational Outreach
    Since September 1996, the Office has produced a Senate home page 
feature entitled ``This Month in Senate History.'' The entries for each 
month highlight approximately twenty institutionally significant events 
that occurred during that month in Senate history. Starting in May 
1997, the Office also produced a brochure containing the same 
information, which are provided to Senate offices for distribution to 
constituents and other visitors.
    Work continued on a series of eight-page brochures (one per state) 
presenting brief accounts of how each state has been represented in the 
Senate and Capitol since its admission to the Union. Each brochure 
includes names and service dates of the state's former members, 
significant events and personalities in the joint histories of the 
state and the Senate, references to state-related works of art in the 
Capitol, and suggestions for further reading. Text for thirty-three of 
these brochures has been completed and edited, and preliminary text has 
been drafted for the rest. Several members' offices have adapted their 
states' text for presentation on their World Wide Web home pages. 
During 1998 the Office will complete the remaining brochures and will 
work with other Senate offices interested in providing the information 
on the Internet.
    As part of the staff seminars conducted under the auspices of the 
Secretary of the Senate, Historical Office staff have continued to 
deliver periodic addresses on various aspects of the Senate's history. 
The Historian discussed ``Housing of the Senate, 1789-1983,'' and the 
history of the current Senate chamber. The Associate Historian spoke on 
``The Senate and the Press,'' and ``Senate Investigations,'' and 
offered a tour of historic Congressional Cemetery. The Assistant 
Historian addressed ``The Senate and Treatymaking.'' The Senate 
Archivist continued regular seminars for committee and personal staffs 
on records management and disposition.
Inaugural Proceedings
    The Historical Office once again assisted the Joint Congressional 
Committee on Inaugural Ceremonies, providing and reviewing historical 
information for the Inauguration Ceremonies Program. Office staff also 
participated in a ``chat room'' conducted by C-SPAN on the Internet, 
answering questions from the public on the history of inaugural 
procedures at the Capitol, and explained the historical role of 
Congress in the inauguration in a C-SPAN broadcast.
Declassified Records
    Presidential Executive Order 12958, ``Classified National Security 
Information,'' provides for the automatic declassification, in April 
2000, of executive branch-created classified national security 
information that is over twenty-five years old, unless it has been 
reviewed and exempted under one of the several categories provided for 
in the order. In 1995, the Senate Archivist located all affected 
materials among committee records housed at the Center for Legislative 
Archives. The project continued in 1996 as each committee was contacted 
to obtain approval for declassification review by specialists who will 
be working in the National Archives. All committees with such holdings 
granted approval during 1997, and work has begun at the Center with an 
initial survey by declassification staff of the records of the Joint 
Atomic Energy Committee.
Photographic Collections
    In 1997, the Office sought to expand its collection by actively 
seeking photographs of former Senators, and by creating a photographic 
record of historically significant contemporary Senate events. The 
photo historian worked closely with the Senate Curator's Office to 
develop a photographic exhibit of the work of Arthur Scott, a former 
news photographer, Senate official photographer, and the Senate's first 
photo historian. The exhibit, located in the Capitol building, is seen 
daily by hundreds of visitors. An on-line exhibit of select Scott 
photographs was made available on the Senate's World Wide Web home 
page.
                        office of senate curator
    The Office of Senate Curator, under the direction of the Senate 
Commission on Art, administers the museum programs of the Senate for 
the Capitol and Senate office buildings. The Curator and staff suggest 
acquisitions, provide appropriate exhibits, engage in research, and 
write and edit publications. In addition, the office studies, 
identifies, arranges, protects, preserves, and records the historical 
collections of the Senate, including paintings, sculpture, and 
furnishings, and exercises supervisory responsibility for those 
chambers in the Capitol that fall under the jurisdiction of the Senate 
Commission on Art.
Exhibitions and Publications
    The office continued to maintain a series of popular exhibitions on 
Senate art and history, as well as assisting the Senate Historical 
Office with a new exhibit. An explanatory panel was installed for the 
painting The First Reading of the Emancipation Proclamation as part of 
a continuing effort to provide educational information to visitors.
    The office coordinated efforts to redesign and standardize the many 
educational publications issued by the Secretary of the Senate to the 
public. Brochures prepared included The Vice President's Room, The U.S. 
Senate Foreign Relations Committee, Senate Art in Stamps, and The Vice 
Presidential Bust Collection. The staff worked on a new publication, 
The United States Congress and Capitol: A Handbook For Conducting 
Walking Tours, specifically developed and designed to aid Senate staff 
in interpreting the Capitol to their visitors.
Historic Chambers
    The Curator's staff continued to maintain the Old Senate and Old 
Supreme Court Chambers, coordinating periodic use of both rooms for 
special occasions.
Collections: Acquisitions and Management
    Several significant works were donated to the Senate collection, 
including an 1897 sterling silver desk set, a bronze bust of Senator 
Strom Thurmond by artist Frederick Hart, and 12 boxes of historic 
Inaugural material. Eighteen sketches detailing the filming of the 
movie ``Advise and Consent'' were acquired, as well as 17 historical 
engravings and photographs.
    The staff processed 29 loans for the Senate leadership, and 
continued to loan and monitor the 455 reproduction prints in the Senate 
collection. The reorganization of the vice presidential bust collection 
in chronological order was completed.
Conservation and Restoration
    Several significant paintings and frames received conservation 
treatment, including The Electoral Commission of 1877, Leiv Eiriksson 
Discovers America, Daniel Webster, and four historical paintings of 
Revolutionary War scenes by American artist John Blake White. Five 
marble busts in the Old Supreme Court Chamber received conservation, 
and an historic sideboard in the collection was restored. New exhibit 
cases were installed to protect the two Native American sculptures on 
the third floor of the Capitol from further damage.
    A ``Furniture Conservation Survey Report'' was completed by an 
independent consultant for the Senate's collection of historic 
furnishings and decorative arts; it documents the current condition of 
these works and provides long-term recommendations for the care of the 
objects.
Collaborations, Educational Programs, Events
    The staff supported the Senate's seminar program by presenting four 
new lectures and assisting with others. At the direction of the Senate 
Committee on Rules and Administration the office worked on refurbishing 
three Senate courtyard rooms. The staff assisted the Joint 
Congressional Committee on Inaugural Ceremonies in a variety of 
capacities.
Automation
    The Curator's home page on the Internet was substantially expanded 
and as a result, the site saw an eightfold increase in hits. The office 
assisted in designing and posting a virtual tour of the Senate using 
Quick Time Virtual Reality (QTVR) technology, and work began on a new 
interactive exhibition.
Objectives For 1998
    Conservation concerns continue to be a priority, with plans to 
conserve various marble sculptures. Two new exhibitions are scheduled, 
along with identification labels for all works of art, and small 
explanatory pylons for several historic rooms. Progress will continue 
on the long-planned Guide to Senate Fine Arts. Work will proceed on a 
comprehensive disaster preparedness, management, and response plan for 
the Senate collection. A collections management and care policy will be 
established, and a training manual produced. Plans and projects will be 
developed for the year 2000 to celebrate the 200th anniversary of the 
first meeting of Congress in the Capitol.
                           senate page school
    The Senate Page School serves all appointed Senate pages. It exists 
to provide a smooth transition from and to the students' home school, 
providing students with a sound program, both academically and 
experientially during their stay in the nation's capital, within the 
limits of the constraints imposed by their work situation.
Schedule
    The Senate recess provided the Page School with the opportunity to 
offer additional instructional time during the months of October 
through January. Normally, school is conducted between the hours of 
6:15-9:45 A.M. unless the Senate convenes early. When the Senate 
convenes early, the school day is then shortened. For the three months 
of recess, school was conducted from 7:15-11:30 A.M. Additionally, 
school was in session on two Saturdays for educational field trips to 
extend the learning experience.
Field Trips/Speakers
    Field trips were taken to Mount Vernon, the White House, the 
National Aquarium and the Museum of Art in Baltimore, the Museum of 
Art, the National Zoo, Independence Hall and the Liberty Bell in 
Philadelphia, Longwood Gardens and the Hagley Museum, the Folger 
Shakespeare Library, the Manassas Battlefield, Williamsburg, and the 
National Archives. Students attended performances of ``The Crucible'' 
at the Theatre on the Hill in Christ Church, ``Paper Moon'' at Ford's 
Theatre, and ``The Nutcracker'' at the Warner Theater.
    Speakers included ROTC recruiters who provided for interested 
students information about educational opportunities available through 
the military, and an admissions officer at the College of William and 
Mary discussed the college admissions process.
Multi-media/Textbooks
    CD's of ``The Crucible'' and ``The Scarlet Letter,'' which are 
studied as a part of the American Literature curriculum, were 
purchased. The color printer was also installed. A larger CD tower 
which will allow for greater networking has been ordered. Additionally, 
all school computers were upgraded to Windows 95.
    Copies of ``Robert's Rules of Order'' were ordered to prepare 
students to more effectively utilize the Student Council. All other 
texts were reviewed and deemed appropriate for continued use.
Testing/Courses/Instructors
    A PSAT preparation course was presented to all students this fall 
by staff and the PSAT was administered on the national testing date. 
Foreign language tutors worked with students in the areas of French, 
Spanish, German, Russian, and Japanese. The Page School staff remained 
the same as in the previous year. The four teachers, Lynne Sacks 
(English), Michael Bowers (social studies), Stephen Perencevich 
(mathematics), and Duncan Forbes (science) taught a combination of 
eleven courses this year, and all continue to be effective teachers. 
Janice Yocco, the secretary, provides excellent support and service to 
the principal, the staff, and students. Ms. Sacks and Mr. Forbes are 
pursuing advanced degrees and are enrolled in graduate courses. Also, 
Ms. Sacks was the recipient of a National Endowment for the Humanities 
(NEH) grant last summer and did an independent study as a result. All 
staff participated in extensive computer training offered by the Senate 
Computer Center.
Facility
    The facility continues to be in fine shape. Built-in office 
furniture and cabinets for the school office were installed in 
November. These new furnishings provide storage, are more professional 
in appearance, and create a safer work environment because there are no 
exposed cords.
Summary of Plans
            Schedule
    Students completed their semester curriculum and the closing 
ceremony was conducted on January 23, 1998, the last day of school for 
the semester. Orientation and course scheduling for the second semester 
pages was conducted on Monday, January 26, 1998.
    Needs of the incoming students will determine the second semester 
schedule. Supervised study exists for pages attending Page School less 
than a semester. Extended day schedules, tutoring by teachers on an as-
needed basis, and individualized small group instruction will continue. 
These various strategies will provide for the delivery of the 
curriculum.
Field Trips/Speakers
    Field trips to the Newseum and Harpers Ferry are planned for the 
second semester. The focus is on historic and political significance. 
College visits are incorporated where possible as a critical component 
of the junior year curriculum. Other field trips will be added as time 
permits.
Multi-Media/Textbooks
    Each year a review is conducted in all subjects to determine which, 
if any, textbooks need to be replaced. Software will be reviewed and 
new requests will be investigated. Bulletin boards and new sturdy 
computer workstations have been requested. Twelve new Compaq Deskpro 
4000 computers and six HP printers will be installed in mid February.
Testing/Courses/Instructors
    Staff development opportunities have been explored and Duncan 
Forbes will be attending an Advanced Placement Seminar on Chemistry 
next summer. Kathryn Weeden, the principal, is planning to attend a 
leadership academy presented by the National Association of Secondary 
School Principals in July. Foreign language tutors will accommodate the 
needs of the incoming pages. It is predicted that we will maintain the 
services of the French, Spanish, Russian, and German tutors and will 
add a Latin tutor as we become aware of foreign language needs in the 
next page class.
Evaluation
    The Middle States Association of Colleges and Schools sent a team 
of evaluators to visit the Page School December 3-5, 1997. An extensive 
self study was conducted by the Page School staff prior to the visit. 
The report from the association will be received by the end of 
February. Upon receipt, the report will be read and assessed, and plans 
will be made to facilitate any recommendations deemed critical to the 
improvement of the school.
                     information systems department
    The Department of Information Systems provides technical and user 
support for the Office of the Secretary of the Senate. Information 
Systems staff also work closely with the Senate Sergeant at Arms and 
the Government Printing Office on technical issues and joint projects. 
In late 1997 the Information Systems Department was abolished and the 
computer support staff were transferred to the Assistant Secretary's 
office.
Mission Evaluation and Staffing Changes
    The authorized staff level for computer support is four--one 
supervisor and 3 PC/LAN specialists. The staff level dropped from five 
to four when the PC/LAN specialist assigned full-time to the Office of 
Public Records was assigned to that department permanently. In 1997 the 
Secretary's Office continued to replace nonstandard systems with 
Senate-standard technologies, the objective being to rely more on the 
technology support contracts of the Sergeant at Arms.
Upgrades and Installations
    The Secretary's Office is moving from the unsupported Novell 
platform to Senate-standard Windows NT. In 1997 a new server was 
purchased for the Secretary's LAN and it was installed with the Windows 
NT Server 4.0 operating system. New Pentium computers and HP printers 
were purchased for staff in all departments. The new PC's with Windows 
95 and the Corel WordPerfect 8 Office Suite were installed for all 
legislative and Floor staff and configured to connect to the NT server. 
New PC's have been installed in the Offices of the Secretary and 
Assistant Secretary, the Office of Human Resources, the Office of the 
Chief Counsel for Employment, the Page School, and the Office of Public 
Records. A schedule has been established to complete the PC 
installations and the migration of the rest of the departments on the 
Secretary's Novell LAN to the NT server by the end of June. The 
installation of the new PC's in the Disbursing Office and the upgrade 
of the Stationery Room and Gift Shop computer systems are proceeding in 
coordination with the FMIS office.
    In addition, several items were purchased to assist departments 
with their individual missions. Two scanners were purchased, one for 
the Historian, who needs to scan images, and one for the Executive 
Clerk, who needs to scan the text of nominations; two color laser 
printers, one for the LIS project and one for the Curator; and a 
variety of high-end graphics items were purchased for the Curator to 
produce kiosk exhibits, including a new Macintosh system.
Office Automation Improvements
    The installation of new workstations for the legislative staff 
presented an opportunity to review and improve some of the existing 
workflow processes. This is particularly true of the Enrolling Clerk's 
office, where the Clerks previously had to log off the network to work 
on bills in XyWrite and where backups were stored on 90 megabyte 
Bernoulli disks. The new workstation configuration allows them to 
access XyWrite from Windows 95 and the Bernoulli drives were replaced 
by 1 gigabyte Jaz Drives. In addition, the Enrolling Clerk used to 
retrieve the electronic file of a Bill from GPO via a gateway PC 
running DOS scripts. An FTP solution was installed which is faster and 
more reliable. This FTP solution has proved to be very successful and 
will soon replace the GPO gateway used by other legislative staff to 
send Congressional Record material to GPO.
    The Journal Clerk's operation has been reviewed and will be 
reworked to provide more functionality while retaining control over the 
Journal document. Currently information is pulled from the 
Congressional Record and a series of WordPerfect 5.2 macros translate 
GPO's microcomp bell codes to WordPerfect formatting codes. The 
formatting process will be reworked to use the features of WordPerfect 
8 to replace the outdated macros.
Year 2000 Compliance
    A complete inventory of all software and hardware in use in the 
Secretary's Office is being compiled as new PC's are installed in each 
department. An initial assessment of the inventory as it relates to 
Year 2000 compliance has been completed.
    Most of the computer hardware in the Secretary's Office is Year 
2000 compliant. The possible exceptions are some Compaq 386 machines 
which are being used as gateways. The low-end Pentiums being swapped-
out during the migration this Spring will replace the 386's.
    The major projects underway in the Senate (LIS, FMIS, and HRIS) 
will replace many of the currently non-compliant software systems in 
the Secretary's Office. There remain some commercial off-the-shelf 
packages and internally-developed applications are being evaluated for 
Year 2000 compliance. In many cases vendors have verbally assured us 
that their software is compliant, but the Secretary's Office is 
obtaining written assurance from these companies.
                                 ______
                                 
               Interparliamentary Services--Trips in 1997
    May 16-18--Mexico-U.S. Interparliamentary Group; Santa Fe, New 
Mexico; Chairman: Senator Hutchison; Vice Chairman: Senator Dodd. 
(Senators Hutchison, Hatch, Shelby, and McCain).
    May 27-June 1--North Atlantic Assembly--Spring Meeting; Luxembourg, 
Luxembourg; Chairman: Senator Roth; Vice Chairman: Senator Biden. 
(Senators Roth and Hatch).
    June 27-July 2--Codel Murkowski; Hong Kong--Handover Ceremonies. 
(Senators Murkowski, Glenn, McConnell, Robb, Feinstein, and Thomas).
    June 28-July 5--Codel Lott; Scotland, England, Belgium, Hungary, 
Bosnia-Herzegovina. (Senators Lott, Hollings, Coats, Lieberman, DeWine, 
Frist, and Hagel).
    July 5-9--Senate NATO Observer Group; Czech Republic and Spain; 
Chairman: Senator Roth; Co-Chairman: Senator Biden. (Senators Roth, 
Biden, Mikulski, and Smith).
    August 24-31--British-American Parliamentary Group; London and 
York, United Kingdom; Chairman: Senator Stevens; Vice Chairman: Senator 
Byrd. (Senators Stevens, Byrd, Sarbanes, Cochran, Gorton, Bryan, 
Hutchison, and Roberts).
    September 11-15--Canada-U.S. Interparliamentary Group; Nova Scotia 
and Prince Edward Island, Canada; Chairman: Senator Murkowski; Vice 
Chairman: Senator Murray. (Senators Murkowski, Murray, Sarbanes, 
Grassley, Coats, Akaka, DeWine, and Enzi).
    October 9-17--North Atlantic Assembly--Fall Meeting; Bucharest, 
Romania--Stops also in Estonia and Germany; Chairman: Senator Roth; 
Vice Chairman: Senator Biden. (Senators Roth and Bennett).
    Nov. 30-Dec. 11--Global Climate Change Conference; Kyoto, Japan; 
Chairman: Senator Hagel. (Senators Hagel, Chafee, Baucus, Kerry, 
Lieberman, and Enzi).
                                 ______
                                 
     Interparliamentary Services: Official Foreign Visitors in 1997
    January 14--Mr. Chee Heung Chor, Member of Parliament of Malaysia 
(1)
    February 4--Delegation of Russian Legislators (4)
    February 10--Mr. Vukasin Obradovic, Editor-in-Chief of newspaper in 
Serbia (1)
    March 11--Secretary General of Mongolian Parliament and Delegation 
(6)
    March 11--His Excellency Mohammed Hosni Mubarak, President of the 
Arab Republic of Egypt (7)
    April 3--Members of Parliament of South Africa (8)
    April 3--Members of Parliament of Tajikistan (6)
    April 8--The Right Honorable Jean Chretien, Prime Minister of 
Canada (6)
    April 8--Canadian Chairmen of Canada-U.S. Interparliamentary Group 
(2)
    April 11--Ms. Wan-chen Chen, Member of Parliament of Taiwan (1)
    April 15--Mr. Jose Luis Torres-Ortega, Member of Parliament of 
Mexico (1)
    April 25--His Excellency Ryutaro Hashimoto, Prime Minister of Japan 
(8)
    April 28--Members of Parliament participating in USIA Multi-
Regional Project (12)
    April 29--Delegation of Hong Kong Legislative Council Members (8)
    April 29--Her Excellency Qian Qichen, Foreign Minister of China 
(12)
    May 1--His Excellency Jose M. Aznar, President of Spain (5)
    May 13--His Excellency Vaclav Havel, President of the Czech 
Republic (7)
    May 14--Members of Parliament, Senate of Italy (7)
    June 3--Members of Parliament, Near Eastern Arabic-Speaking 
Countries (5)
    June 18--His Excellency Armando Calderon Sol, President of El 
Salvador (5)
    June 19--Speaker and Clerk of Malawi National Assembly (2)
    June 24--Defense and security analysts from Former Soviet Union and 
China (19)
    June 26--His Excellency John Howard, MP, Prime Minister of 
Australia (7)
    July 14--Deputy Principal Clerk, Senate of Canada (1)
    July 16--Deputy Clerk of Legislative Assembly of Victoria, 
Australia (1)
    July 17--His Excellency Eduard Shevardnadze, President of Georgia 
(10)
    July 24--His Excellency Prof. Dr. Roman Herzog, Federal President 
of the Federal Republic of Germany (9)
    July 28--Delegation of National Assembly Members of the Republic of 
Korea (5)
    August 8--Members of Parliament, Taiwan Senate (11)
    September 9--Members of Parliament, French Senate (8)
    September 10--Delegation of Hong Kong Officials (6)
    September 18--His Excellency Yaakov Neeman, Minister of Finance of 
Israel (6)
    September 19--General Secretary of the Scottish Labor Party (1)
    September 23--Delegation of European Parliament Members (11)
    September 30--His Excellency Laszlo Kovacs, Minister of Foreign 
Affairs of Hungary; His Excellency Dariusz Rosati, Minister of Foreign 
Affairs of Poland; Mr. Karel Kovanda, Deputy Foreign Minister of the 
Czech Republic (14)
    October 6--Delegation of Japanese Diet Members (8)
    October 6--Chief of Staff of Parliament, Republic of Georgia (3)
    October 8--His Excellency Ezer Weizman, President of the State of 
Israel (9)
    October 9--Delegation from Santa Domingo (51)
    October 30--His Excellency Jiang Zemin, President of the People's 
Republic of China (23)
    November 10--Delegation of Japanese Diet Officials (21)
    November 12--Members of Parliament of Turkey (3)
    December 4--President of National Council of Slovenia (1)
    December 4--Delegation of Kuwaiti Junior Diplomats (15)
                                 ______
                                 
               Prepared Statement of Stuart F. Balderson
    Mr. Chairman, I appreciate the opportunity to present to your 
Committee, the Budget of the United States Senate for fiscal year 1999.
    Mr. Chairman, the fiscal year 1999 budget estimates for the Senate 
have been included in the Budget of the United States Government for 
fiscal year 1999. This Budget has been developed in accordance with 
requests and proposals submitted by the various offices and functions 
of the Senate. The total budget estimates for the Senate are 
$527,292,000, which reflect an increase of $23,855,000, or 4.74 percent 
over the amount appropriated for fiscal year 1998 and does not reflect 
any adjustments to these estimates which may be presented to your 
Committee during these hearings. The total appropriations for the 
Senate for fiscal year 1998 are $503,437,000. An individual analysis of 
the budget estimates for all functions and offices has been included in 
the Senate Budget Book, previously provided to your Committee.
    The budget estimates for fiscal year 1999 are divided into three 
major categories as follows:

Senate Items............................................     $84,582,000
Contingent Expense Items................................     397,410,000
Joint Items of the Senate...............................      45,300,000

    Specifically, Mr. Chairman, the increase for fiscal year 1999 over 
the fiscal year 1998 enacted levels is a result of: (1) $13,068,624 
increase in the budget estimate for Senators' Official Personnel and 
Office Expense Account to fully fund the allowances which are under-
funded as a result of the consolidation of population categories, 
increases in the populations of various states, and the increase in the 
Legislative Assistance Allowance authorized in the Legislative Branch 
Appropriations Act, 1993, and increases in the Official Office Expense 
Allowance to incorporate the allowance for franked mail expenses 
authorized by the Legislative Branch Appropriations Act, 1998; (2) 
$5,680,500 for the anticipated 3.1 percent cost of living increase for 
fiscal year 1999, and the annualization costs of the fiscal year 1998 
cost of living adjustment; (3) $1,755,376 for personnel adjustments 
other than the cost of living, attributable primarily to the budget 
request of the Sergeant at Arms (which was offset by a reduction in 
administrative expenses), the budget request of the Capitol Police, 
including $1,270,000 for pay differentials and $104,000 for Capitol 
Police comparability increases, and the reduction in the budget request 
for Expenses of Inquiries and Investigations; (4) $3,697,500 increase 
in agency contributions applicable to the cost of living adjustments 
and other personnel increase requests; (5) $347,000 decrease in non-
payroll expense requests, attributable primarily to a decrease in the 
budget request for the Sergeant at Arms.
    Mr. Chairman, I submit for the consideration of your Committee, the 
Budget of the United States Senate for fiscal year 1999.
                                 ______
                                 
                     Additional Committee Questions
    Question. When will the Senate be able to produce auditable 
financial statements?
    Answer. The first auditable financial statements will be for fiscal 
year 2000. During fiscal year 1999, the Disbursing Office will install 
the new Senate general ledger and procurement systems, convert to 
obligation- and accrual-basis accounting, and conform back office 
policies and procedures as the first phase of FMIS. The next phase will 
incorporate other modules of an integrated system necessary to produce 
financial statements, such as a fixed asset module which will enable 
determination of the cost basis and depreciation schedule of assets to 
be capitalized on the balance sheet of the Senate.
    Question. Please update the Committee on the status of the 
appointment of a new Comptroller General of the United States.
    Answer. The Comptroller General is appointed to a 15-year term by 
the President, with the advice and consent of the Senate. Because the 
General Accounting Office, which the Comptroller General heads, exists 
primarily to provide research, review, and analysis for Congress, the 
applicable statute, 31 U.S.C. 703, establishes a bicameral commission 
to recommend three or more individuals to the President for 
appointment. I am assisting the Majority Leader in his capacity as 
chairman of the commission. The commission has carefully reviewed the 
qualifications of a large field of candidates, and, on January 22, 
1998, recommended three individuals to the President. All three are 
highly-qualified and are supported by a majority of the commission. To 
date, the President has not acted on the commission's recommendation.
    Question. The Secretary's testimony indicates that some statutory 
changes may be required to modify the way in which expense categories 
for Senators are prepared in order to convert to an OMB object 
classification. Are there any other changes of this type which may be 
required in order to implement FMIS? When do you expect to submit 
recommendations?
    Answer. At this point, the system design and requirements and the 
project plan for FMIS are not ready. When a draft project plan is 
ready, we will prepare a list of statutes and practices of the Senate 
that could be reviewed in connection with the FMIS implementation, 
whether to meet current federal financial accounting standards or to 
facilitate use of commercial off-the-shelf (COTS) software. That list 
will be transmitted to your Committee and to the Committee on Rules and 
Administration. Close consultation with both Committees will lead to 
recommendations as to whether the Senate should consider changing 
existing statutes or practices, or should modify the project plan.
    Question. In your testimony you mention that succession planning 
will be important for your office to fulfill its constitutional 
responsibilities in the future. Do you have a plan? Does your fiscal 
year 1999 budget request include any funds for your succession 
planning? If so, how much? What will this cost in future years?
    Answer. The fiscal year 1999 budget request for the Office of the 
Secretary does not include any funds specifically for succession 
planning. We have, however, requested authorization for up to fifteen 
new positions, primarily in the Disbursing Office to implement FMIS, 
but partly to plan for succession in selected departments. To the 
extent possible, the costs of these new positions will be absorbed 
within the requested budget. The basic plan is to ensure that each 
department, and particularly the thirteen in which the department head 
is already eligible to retire, is staffed with one and preferably two 
individuals who have the institutional knowledge, skills, and abilities 
required to assume the responsibilities of the department head; in many 
cases, to acquire such knowledge, skills and abilities takes several 
years of on-the-job training and experience. To that end, we are 
promoting from within as much as possible, and we are selecting highly-
qualified new hires who are committed to the Senate as a career. We are 
also studying other employee development and progression alternatives 
with a view toward developing generalists in the legislative 
departments who could be capable of succeeding more than one department 
head. Succession planning will impact future years' budgets in that 
staffing requirements in some departments will be determined by both 
the immediate workload and the need to ensure that one or two 
individuals are trained to assume the department head position.
    Question. What is the status of S. 1508, the Visitor Center 
legislation? What is the House's position?
    Answer. The Capitol Visitor Center Authorization Act has been 
introduced as H.R. 20 by Representative John Mica, and as S. 1508 by 
Majority Leader Trent Lott, Democratic Leader Thomas Daschle, and 
Chairman John Warner of the Committee on Rules and Administration. S. 
1508 is now before the Rules Committee. H.R. 20 was the subject of a 
hearing before the House Transportation and Infrastructure Subcommittee 
on Public Buildings and Economic Development on May 22, 1997, at which 
witnesses from inside and outside Congress all agreed on the need for 
the visitor center.
    While both the House and Senate bills contemplate that the capital 
construction costs (including the initial furnishing and equipping) 
will be provided by the existing Capitol Preservation Fund, and by 
additional private fund-raising overseen by the appropriate House and 
Senate committees, questions continue to be raised concerning the 
Capitol Visitor Center's follow-on costs, including care, maintenance, 
staffing, and educational programs. In the successful effort to 
eliminate the federal budget deficit, Congress has set the example by 
holding the line on Legislative Branch appropriations. Accordingly, 
there may be some reluctance to proceed with the project if to do so 
would incur substantial operating expenses with long-term impact on the 
Legislative Branch budget. Both H.R. 20 and S. 1508 take this concern 
into account by providing that the Capitol Visitor Center will not 
become a new item in the Legislative Branch appropriations. Rather, a 
new account for visitor center revenues and expenses is to be 
established, separate from the existing House, Senate, and joint item 
accounts. The visitor center will produce substantial revenue from 
retail operations serving the public, specifically restaurants and a 
sales shop, and a preliminary assessment by the Architect of the 
Capitol indicates that those revenues, estimated conservatively, will 
more than offset operating expenses. Moreover, the visitor center is a 
vital part of the Capitol Police Board's long-term plans for the 
security of the Capitol Building and Grounds. If it is not constructed, 
post-2000 expenditures for security, which must be funded from 
Legislative Branch appropriations, will be significantly higher than 
amounts reflected in the fiscal year 1999 appropriations bills.
    To resolve these questions, last October, Chairman Walsh of the 
Legislative Branch subcommittee of the House Committee on 
Appropriations, recommended the hiring of an independent consultant to 
prepare a detailed evaluation of the full costs of the Capitol Visitor 
Center project, considering all relevant matters including the costs of 
operating the center as intended, the projected revenues from retail 
operations, and the costs and benefits of integrating the security 
plans. I am advised that the Senate Rules Committee, concurring with 
Chairman Walsh and in order to expedite the overall project, intends to 
contract for the study from the Senate contingent fund, possibly before 
the end of March 1998.
    Question. Congratulations on your progress with LIS. It is a system 
which will be very useful for the Senate far into the future. Given 
that it is relatively new and you are continually making significant 
improvements, what efforts are being taken to keep staff informed about 
developments with this new resource?
    Answer. Thank you for your complimentary remarks. LIS is one the 
very most important technological innovations in the history of the 
Senate. When the system is fully implemented and its capabilities are 
fully known on the part of Senate staff, LIS will be an extremely 
valuable tool to virtually every individual staff member who has 
legislative responsibilities. The Office of the Secretary is, 
therefore, building upon and expanding its efforts to fully inform the 
entire Senate community of the LIS features and capabilities. We are 
also making special efforts to publicize new developments in the 
system.
    One such effort is to conduct surveys, which serve the dual 
purposes of informing Senate staff of available features and assessing 
user needs. About half of all Senate offices participated in the most 
recent survey, with detailed responses coming from legislative 
directors, legislative assistants, legislative correspondents, research 
assistants, and others. The responses clearly confirm that the ability 
to retrieve information on-line is a significant requirement for Senate 
staff to carry out their duties, as two-thirds of respondents use the 
existing services multiple times each day and virtually all do so at 
least several times a week. The survey asked detailed questions about 
the types of legislative information that offices need on-line. Nearly 
all respondents say that they ``always need'' or ``often need'' 
summaries and analyses of legislation, votes taken, and legislative 
status and calendar information. Most indicate that they ``always'' or 
``often'' need full texts of legislation, full texts of reports, full 
texts of the Record, member statements in the Record, and news 
articles.
    The survey further found that the existing LIS, even with its 
limited capabilities at this stage of development, is used by 87 
percent of respondents--a far higher usage rate than for any commercial 
source. Asked for one preferred source of on-line legislative 
information, more respondents indicated LIS than the combined responses 
favoring the three commercial sources in use in the Senate (Lexis-
Nexis, CQ/Westlaw, Legi-Slate). The reasons given for preferring LIS 
included ``easy use,'' ``quick response time,'' ``has the information I 
require,'' and ``the search system does what I need.''
    In another effort to promote LIS, the Project Office has prepared 
an LIS brochure, describing the system services that are currently 
available. The brochures have been distributed to all Senator and 
Committee offices, the cloakrooms, and the Democratic and Republican 
Policy Committees, and are also available at convenient sites such as 
the Copy Center. The Project Office has also circulated ``Quick Cards'' 
that briefly and conveniently instruct how to access the Amendment 
Tracking System, Committee Scheduling Information, and Vote 
Information. An innovation still in progress is an electronic mailing 
list, to be used to inform staff of new developments and upgrades to 
LIS, and also inform staff of scheduled training classes.
    Training classes, a function of the Project Office and the Senate 
Computer Center, provide instruction geared to Senate staff at all 
levels. Attendees receive LIS training materials and reference manuals 
that they may retain as information sources for use by the entire staff 
in their offices.
    Because of the critical importance of LIS, the Office of the 
Secretary is adding two staff positions to focus on LIS communications, 
education and training.
    Finally, and in addition to all of the organized efforts, I will 
continue to brief Senators personally concerning the progress of LIS, 
and will be pleased to arrange LIS demonstrations for Senators.
    Question. $5 million of fiscal year 1997 funds were provided for 
LIS to remain available until September 30, 2000. How much of those 
funds have been obligated to date?
    Answer. $3,051,903. The total obligations for LIS to date are 
$4,104,000. In fiscal year 1997, however, $1,052,917 was obligated and 
expended for LIS from other appropriations to the Office of the 
Secretary, with the Committee's approval. The use of other available 
funds in fiscal year 1997 reflected an effort to minimize any 
possibility that we may have to request additional appropriations 
earmarked for LIS before the system is implemented.
    Question. $7 million of fiscal year 1992 funds were provided for 
FMIS to remain available until September 30, 2000. How much of those 
funds have been obligated to date?
    Answer. $204,574; however, new contract terms awaiting finalization 
will immediately obligate an additional $536,000.
    Question. Last year this Committee questioned whether the Office of 
Reporters of Debate and Captioning Services would be consolidated. Have 
you taken any action in that regard?
    Answer. Consolidation of the Official Reporters and the Captioners 
was considered by my predecessor, but no action was taken. It is my 
feeling that any possible consolidation of these two departments should 
be considered in conjunction with the new technologies that are 
appearing on the fairly short-term horizon. Technological change that 
allows for continuous speech recognition holds out the prospect of 
revolutionizing the way in which the Record is produced. For the 
present, it seems that the most appropriate course is to defer any 
permanent restructuring of the reporting function while we monitor 
progress in the technologies.
                      CONGRESSIONAL BUDGET OFFICE

STATEMENT OF JUNE E. O'NEILL, PH.D., DIRECTOR
ACCOMPANIED BY JAMES BLUM, DEPUTY DIRECTOR

    Senator Bennett. Our third witness is Dr. June O'Neill, 
Director of the Congressional Budget Office.
    Dr. O'Neill, we welcome you here today. We appreciate your 
patience, and apologize for the interruption in the hearing 
because of the vote. But we are delighted you are here and look 
forward to your testimony.
    Dr. O'Neill. I am certainly very pleased to be here today, 
Mr. Chairman. And James Blum, who is our Deputy Director, is 
appearing with me.
    I will move straight to a summary of our budget request for 
fiscal year 1999 and submit my formal statement for the record, 
if that is all right.
    Senator Bennett. Absolutely.
    Dr. O'Neill. We have also brought today copies of our 
annual report on the economic and budget outlook and our annual 
report on our activities for 1997. I brought those for the 
committee members.
    Senator Bennett. Do you agree we are going to have a 
balanced, unified budget this year?
    Dr. O'Neill. Well, it certainly looks like that.
    Senator Bennett. OK. The President is busy spending it.
    Dr. O'Neill. It is always a problem, I guess, when you see 
that success is at hand.
    Senator Bennett. This is the nice way to be a politician, 
when you have a little money to spend.

         Congressional Budget Office's fiscal year 1999 request

    Dr. O'Neill. Our budget request for fiscal year 1999 is 
$25.9 million. And that allows for a net increase of 4.6 
percent, or $1.1 million, over our fiscal year 1998 
appropriation. Personnel costs account for 85 percent of the 
total CBO budget, and they are driving our requests. Nearly 96 
percent of the approximate $1.5 million in gross cost increases 
facing CBO in fiscal year 1999 are increases associated with 
pay and benefits.
    In order to offset the pay and benefit increase that we 
anticipate, CBO has reduced other parts of its budget. We have 
been able to absorb more than 20 percent of the personnel cost 
increases, primarily by cutting spending for automated data 
processing [ADP] equipment. And we have cut that spending by 
$305,000, which is close to a 13-percent reduction in ADP. Our 
request funds our staff ceiling of 232 full-time equivalent 
positions. And we are not asking for any additional positions.
    Although CBO should be able to maintain its current 
workload with the funds requested here, the agency does 
confront several uncertainties in fiscal year 1999. And I will 
briefly point those out.

 areas of concern surrounding the Congressional Budget Office's budget 
                                request

    A principal concern is our ability to offer the salaries 
and benefits needed to remain competitive in today's tight 
labor market. The current job market compels CBO and other 
employers to worry about both the recruitment of new workers 
and the retention of current employees. The problem is 
particularly acute at CBO, because our work requires a staff of 
economists and other quantitatively skilled professionals, all 
of whom are in particularly high demand right now. Newly minted 
economists now command surprisingly high salaries. Recruitment 
has become time consuming and often very frustrating as more 
and more often we lose qualified people to employers who can 
sometimes pay as much as 50 percent more in compensation.
    The difficulty of attracting new staff has added to 
pressure to retain our experienced employees. Retention, 
however, has also become more difficult as our experienced 
analysts have become the focus of other employers' recruiting 
efforts. In the past few months, for example, CBO has lost 
three of its managers to more senior and higher-paying 
positions.
    We are not suggesting that because of our turnover rates we 
deserve extraordinary consideration. Nevertheless, we operate 
under something of a disadvantage compared with other Federal 
employers who are able to provide locality pay increases and 
give lump-sum bonuses to attract and retain exceptional 
workers. Given those circumstances, I believe CBO's merit pay 
request for fiscal year 1999 is critical to our remaining 
competitive in the employment market.
    A further concern for CBO is the uncertain costs associated 
with relocating important ADP systems. At present, CBO relies 
on the mainframe computer of House Information Resources [HIR] 
to run its budget data base applications. However, the HIR 
mainframe is slated to be retired, and CBO, along with other 
users, will have to make other arrangements. HIR and its 
mainframe computer have provided excellent service. Our 
challenge is to duplicate, as closely as possible with a new 
vendor, the service we currently receive from HIR.
    We do not yet have a firm estimate of how much it will cost 
to evaluate our options for moving CBO's systems or to prepare 
for the transition; both types of costs are likely to occur in 
fiscal year 1999. Our request includes $100,000 for those 
purposes, although that could prove to be a conservative 
estimate.

                               conclusion

    CBO is keenly aware of the Congress' intention to restrain 
Federal spending, including that in the legislative branch. In 
response, CBO's recent budget requests have been quite modest, 
with requested increases usually less than the projected rate 
of inflation. Our present request is our best estimate of the 
amount we need to provide our current level of services. We try 
to be prudent, and we plan to absorb over 20 percent of our 
mandatory pay and benefit increases through reductions in other 
parts of our budget. We believe, however, that our requested 
increase of 4.6 percent is necessary if we are to continue to 
serve the Congress in the manner it has come to expect.

         prepared statement and additional committee questions

    Thank you, Mr. Chairman, and I will be happy to answer any 
questions you may have.
    [The information follows:]
                 Prepared Statement of June E. O'Neill
    Mr. Chairman and Members of the Subcommittee, I am pleased to 
present the fiscal year 1999 budget request for the Congressional 
Budget Office (CBO). The mission of CBO is to provide the Congress with 
the objective, timely, nonpartisan analysis it needs for economic and 
budget decisions, and the information and estimates required for the 
Congressional budget process. CBO does not make policy recommendations; 
instead, it presents the Congress with options and alternatives in a 
wide range of subject areas, all of which have economic and budgetary 
impacts.
    Our fiscal year 1999 request is for $25,938,000, an increase of 4.6 
percent, or $1.1 million, over our fiscal year 1998 appropriation of 
$24,797,000. The level of funding we are requesting would support 232 
full-time-equivalent positions (FTE's), our current staff ceiling. No 
additional staff are requested. The 1999 request includes a 7 percent 
increase in spending for personnel, which comprises 85 percent of CBO's 
budget. That increase is partially offset by a 13 percent drop in 
spending for automated data processing (ADP), updates to computer 
systems, and data purchases. Administrative spending increases by 3 
percent in our budget, about the same rate as inflation.
    Although the amount we are requesting is our best estimate of the 
resources needed to maintain CBO's current level of services, we are 
aware of some uncertainties that could affect our resource needs. CBO's 
experience with hiring during the past year has heightened our concern 
about being able to offer the salaries and benefits necessary for us to 
remain competitive in the job market. CBO is also facing the relocation 
of important data processing systems, at an unknown cost, as the House 
moves to eliminate its mainframe computer by 2000. In addition, the 
Congress continues to consider expanding the private-sector mandate 
provisions of the Unfunded Mandates Reform Act of 1995, which could 
increase CBO's duties under the act.
    Before discussing our fiscal year 1999 request--and the 
uncertainties surrounding it--in more detail, I would like to talk a 
moment about the state of the federal budget and CBO's budget 
estimates, which may have caused some Congressional concerns last year. 
I would also like to tell you about CBO's Web site, launched last 
September, which should help us meet the demand on Capitol Hill for 
more immediate access to our information.
            budget deficit outlook and recent cbo estimates
    The federal budget deficit narrowed significantly in fiscal year 
1997, and the budget outlook for the baseline projection period through 
2008 now appears quite bright. Unfortunately, those favorable 
developments were not foreseen early in 1997 either by CBO's estimators 
or by other forecasters in the government or the private sector.
The Economic and Budget Outlook
    On January 28, at a hearing before the Senate Budget Committee, the 
Congressional Budget Office released the first volume in its series of 
annual reports to the Congress, ``The Economic and Budget Outlook: 
Fiscal Years 1999-2008.'' CBO projects single-digit deficits for fiscal 
years 1998, 1999, and 2000, followed by a small surplus in 2001 and 
growing surpluses through 2008. Continued good news about the economy 
and other factors that affect revenues and spending are responsible for 
the further improvement in the budget outlook since CBO's last baseline 
report in September 1997.
    However, as CBO pointed out in its September report, there are 
three reasons to be cautious about the current bright outlook for the 
next 10 years. First, the economic and other assumptions underlying 
CBO's baseline could prove to be too optimistic. For several years, the 
economy has performed better and budget outcomes have been more 
favorable than CBO and other forecasters anticipated. But the next few 
years could mirror the early 1990's, a period in which the economic and 
budget outlook sharply deteriorated. For example, a significant 
worsening of the Asian crisis could slow economic growth in the United 
States to a greater degree than CBO now expects.
    Second, CBO's baseline projections assume that the Congress and the 
President will comply with the provisions of the Balanced Budget Act of 
1997. The caps on discretionary spending called for by the act require 
that appropriations in 2002 be held to a level about 10 percent below 
the level needed to keep pace with anticipated inflation between now 
and 2002. Between 1990 and 1997, total discretionary spending dropped 
by 12 percent in real terms, with real increases in nondefense 
appropriations offset by substantial cuts in defense spending. Cuts of 
that kind are unlikely to be repeated in the coming years. Indeed, over 
the next five years, it seems inevitable that pressures for additional 
discretionary spending will arise, making it difficult to adhere to the 
budget agreement.
    A third reason for caution is that a problem still looms beyond the 
10-year horizon because of the retirement of the baby-boom population 
and the continued growth expected in the costs per beneficiary of 
federal health programs for the elderly. Legislation to constrain 
Social Security and Medicare spending to sustainable levels is required 
to prevent spiraling deficits in the next century.
    Compounding the problem for policymakers, who must rely on specific 
budget projections, is the volatility of federal spending and revenues. 
As recent experience has vividly demonstrated, projecting federal 
revenues and spending accurately is a difficult job, even in the 
current fiscal year.
Recent CBO Estimates
    Last year at this time, CBO estimated that the 1997 deficit would 
be $124 billion. The actual deficit was only $22 billion. Although that 
outcome was good news for the budget, budget estimators, including 
those at CBO, were surprised by the turn of events.
    Three major factors contributed to the lower-than-estimated deficit 
in 1997. First, the economy performed much better than expected, 
raising the level of taxable income as measured by the government's 
national income and product accounts. Second, a soaring stock market 
also expanded the tax base through increased realizations of capital 
gains; moreover, a growing share of income was earned by people at the 
top of the income ladder who are taxed at higher rates. Those two 
factors led to revenues that were $72 billion higher than CBO had 
estimated a year ago in January. Third, outlays were $30 billion less 
than expected, primarily as a result of lower costs for a variety of 
entitlement programs.
    Estimating errors as large as $100 billion are unusual. But with 
total revenues and outlays each approaching $1.7 trillion, small 
percentage deviations from the amounts projected at the beginning of 
the year can easily swing budgetary outcomes by tens of billions of 
dollars. An examination of the historical track record for both CBO and 
the Office of Management and Budget shows that a 2 percent error for 
both revenues and outlays is not uncommon.
    We have made every effort to learn from last year's estimating 
mistakes, yet it seems inevitable, given the perils of projecting, that 
large errors will occur from time to time. However, we are taking steps 
to provide an early-warning mechanism that will signal when actual 
receipts and outlays are deviating from our estimates for the current 
fiscal year. In that regard, we are making public our analysis of the 
Daily and Monthly Treasury Statements, which appears in our Monthly 
Budget Review report.
                       cbo on the world wide web
    In response to requests for additional access to its information, 
CBO is now making its documents available on the World Wide Web (at 
http://www.cbo.gov/). Our Web site was launched in September following 
a year-long development effort. (The Web site replaces a gopher server 
that CBO has used since 1995 to distribute electronic versions of its 
published studies and reports.) CBO now offers four electronic file 
formats at its Web site and has expanded the types of documents it can 
make available.
    In addition to published reports and studies, CBO is making all of 
its general work products available on the Web, including papers and 
memorandums, testimonies, unfunded mandates statements, and federal 
bill cost estimates, as well as special analyses such as the Monthly 
Budget Review and reports on the current status of discretionary 
appropriations. In the future, we hope to increase the usefulness of 
the site by offering appropriate data in spreadsheet format.
    Our first priority for posting at our site is currently produced 
material. However, as time and resources permit, we are also including 
certain CBO publications issued before last September.
    Work on the CBO Web site has been closely coordinated with the 
developers of the Legislative Information System (LIS) to ensure 
technical compatibility of Congressional systems and responsiveness to 
the needs of the Congress. The recent redesign of the cost estimates 
section of the site uses as its model the search interface of the LIS 
and Thomas Web sites. Additionally, we incorporated suggestions from 
the staffs of the budget committees that will allow them to design 
their searches to retrieve the cost estimate information they want 
most. Further, the site is equipped with a notification feature that 
alerts subscribers by E-mail when a document in their area of interest 
has been added to the site. At this time, more than 300 CBO documents 
are available on-line.
    The response to the Web site has been quite positive, both from 
technicians, such as those developing the LIS, and from visitors, who 
find it easy to use. In terms of demand, we have received nearly 
100,000 requests for information since September. Many of those 
requests come from civilian or military employees of the federal 
government, although most visitors to the site are from the private 
sector and educational institutions. We have also had numerous requests 
for information from users in countries around the world, including 
Japan, Canada, France, Germany, the United Kingdom, Sweden, Australia, 
the Netherlands, Belgium, and Italy.
                        fiscal year 1999 request
    As I indicated previously, Mr. Chairman, CBO's fiscal year 1999 
request is for $25,938,000, an increase of 4.6 percent, or $1.1 
million, over our fiscal year 1998 appropriation. That request funds 
our staff ceiling of 232 full-time-equivalent positions. We are not 
asking for any additional positions. Specifically, our request includes 
the following:
  --$1,404,000 in pay and benefit increases, the major components of 
        which are (a) $606,000 for the annualization of fiscal year 
        1998 pay raises; (b) $471,000 for a projected 3.1 percent 
        employment cost index adjustment in January 1999; and (c) 
        $267,000 for merit increases (the increases are budgeted at 3.4 
        percent of base salaries, with 27 percent of the increases 
        assumed to be offset by turnover savings, resulting in net 
        costs of 2.4 percent of CBO's total pay base);
  --$62,000 in various price increases ranging from printing to ADP 
        time-sharing; and
  --a reduction of $305,000 (13 percent) in spending for equipment, 
        primarily ADP hardware and software, which would return such 
        spending to its historical level after an increase of 14 
        percent in fiscal year 1998. The increase in 1998 resulted from 
        the two ADP projects that triggered the reprogramming request 
        recently approved by the Committee. The projects involve 
        replacing the collection management system in the CBO library 
        and completing the upgrade to our network wiring that was 
        started by House Information Resources (HIR).
    Personnel costs account for 85 percent of the total CBO budget. 
Nearly 96 percent of the $1,466,000 in cost increases facing CBO in 
fiscal year 1999 are increases associated with pay and benefits. CBO 
has reduced other parts of its budget to absorb more than 20 percent of 
the increases, primarily by cutting spending for ADP equipment by one-
third. At 8.1 percent of CBO's budget, ADP spending is at a historical 
low. Moreover, administrative expenses--6.5 percent of the total 
budget--are below their historical average.
Areas of Concern Surrounding CBO's Budget Request
    Although CBO should be able to maintain its current workload with 
the funds requested here, the agency, as I noted earlier, confronts 
several uncertainties in fiscal year 1999. Principal among our concerns 
is our ability to offer the salaries and benefits needed to remain 
competitive in today's tight labor market.
    The current job market compels CBO and other employers to worry 
about both the recruitment of new workers and the retention of current 
employees. CBO's staff includes economists and other quantitatively 
skilled professionals, all of whom are in particularly high demand. 
Newly minted economists now command surprisingly high salaries. 
Recruitment has become a time-consuming and frequently frustrating 
process as more and more often we lose qualified people to employers 
who can sometimes pay as much as 50 percent more in compensation.
    Paralleling our recruitment activities is our need to retain 
current employees. CBO's reputation for high-quality analysis and 
budget work has made our experienced analysts the focus of other 
employers' recruiting efforts. As an example, in the past few months 
CBO has lost three of its managers to more senior and higher-paying 
positions. We are not suggesting that because of our turnover rates we 
deserve extraordinary consideration. Nevertheless, we operate under 
something of a disadvantage compared with other federal employers that 
can provide locality pay raises and lump-sum bonuses to attract and 
retain exceptional workers. Given those circumstances, we believe CBO's 
merit pay request for fiscal year 1999 is a critical element in our 
remaining competitive in the employment market.
    A further concern for CBO is the uncertain costs associated with 
relocating important ADP systems. Currently, CBO relies on the 
mainframe computer of House Information Resources (HIR) to run its 
budget database applications. However, the HIR mainframe is slated to 
be retired, and CBO, along with other users, will have to make other 
arrangements. CBO uses the HIR mainframe for a variety of analytical 
work, but the applications related to our budget database are 
particularly critical for providing timely support to the House and 
Senate Budget and Appropriations Committees. We use such applications 
to track and analyze Presidential spending proposals and subsequent 
Congressional action. The HIR mainframe is the repository of the 
President's annual budget, CBO's baseline budget projections, numerous 
data sets used by the House and Senate Budget Committees in developing 
annual budget resolutions, and data sets that track appropriation and 
other spending bills along with associated CBO estimates of outlays.
    HIR and its mainframe computer have provided excellent service, 
with the following attributes being of particular importance:
  --Computer response time, for both interactive and batch turnaround, 
        is very good.
  --The computer is extremely reliable; it almost never goes down.
  --HIR and CBO are in the same building, making it much easier to 
        retrieve large reports quickly for delivery to the budget and 
        appropriations committees as well as other Congressional 
        clients.
  --HIR has been helpful in expediting printing and in extending 
        service hours during periods of heightened Congressional 
        activity.
  --HIR technical support staff are excellent and very responsive.
    With the scheduled retirement of the HIR mainframe, CBO's challenge 
is to duplicate, as closely as possible with a new vendor, the service 
it currently receives from HIR. We believe we can accomplish that by 
moving our budget analysis applications to the same provider of 
mainframe services that the HIR Legislative Information Management 
System (LIMS) intends to use, and we are currently discussing the 
feasibility of that option with the House. In general, CBO believes 
that a mainframe computer provider serving both the House and CBO will 
be better able to ensure that we can continue to meet the special needs 
of the Congress. However, if for some reason CBO's computer 
applications cannot follow the remaining HIR mainframe work, we will 
seek the assistance of the HIR systems programming and communication 
staff to move our operations to another vendor.
    We do not yet have a firm estimate of how much it will cost to 
evaluate our options for moving CBO's systems or to prepare for the 
transition; both types of costs are likely to occur in fiscal year 
1999. Our request includes $100,000 for those purposes, although that 
could prove to be a conservative estimate.
    Finally, some Members of Congress have voiced the intent to expand 
the scope of the information that CBO provides under the Unfunded 
Mandates Reform Act of 1995 regarding the costs of private-sector 
mandates. We do not anticipate at this time that those increased duties 
will necessarily require additional resources or a further diversion of 
resources from our regular budget work. We would continue to do our 
best to provide the Congress with good mandates cost data, although in 
certain cases, some information may be slow in coming or less specific 
than might be desired.
Costs Associated with CBO's Web Site
    Designing, developing, implementing, and maintaining a World Wide 
Web site requires a commitment of significant resources. CBO devotes 
two full-time employees to the operation, maintenance, and further 
development of the site, with other employees around the agency also 
contributing their time. In addition to those direct costs, CBO may 
soon face some indirect costs associated with the Web site.
    It is unclear, for instance, how the increased availability of CBO 
documents in an electronic format will affect demand for paper copies 
of our products. It could cut demand, in the same way that more 
widespread availability of fax machines reduced the need for couriers. 
Or it could stimulate demand: by raising the visibility of the many 
different types of products available from CBO--which the Web site is 
likely to do--the demand for paper copies of those products could rise. 
That last effect has been the experience of the National Academy of 
Sciences. As we assess the impact of the Web site on demand for paper 
documents, we will continue to manage our printing and mailing costs 
very closely. Last year, we culled our mailing list significantly, 
which should reduce both printing and mailing costs on a per-
publication basis this year. Also, during this start-up period for the 
Web site, we can respond to any increase in demand for paper copies of 
our published reports and studies by asking the Government Printing 
Office to make more of them available for sale in its bookstores.
    Operating a public Web site has made us more aware of the 
opportunities that Internet technologies afford for sharing information 
among different kinds of computers and systems. That capability can be 
particularly useful in an organization such as ours, in which the basic 
currency is information but the means used to produce it comprise a 
wide variety of computers and applications. Another attractive feature 
of the Internet technologies is the ability to standardize and share 
administrative information and functions electronically. We plan to 
begin assessing the value of a CBO Intranet this year.
Year 2000 Update
    CBO, like other computer users, must make sure that its systems can 
accurately recognize and accommodate dates beyond 1999--the so-called 
Year 2000 problem. To that end, we have established a committee 
composed of representatives from all of CBO's divisions. Given the 
nature of CBO's work and its reliance on other agencies for its 
administrative support in such areas as personnel, payroll, and 
contracting, CBO's Year 2000 problem is small relative to that of other 
agencies. Nevertheless, 11 of our 39 computer systems are critical to 
our budgetary and analytical mission, and we are working to make the 
changeover as smooth and as trouble-free as possible. To date, four of 
the 11 mission-critical systems have been reprogrammed, six are 
awaiting assessment, and one is being repaired.
    The Budget Analysis Data System, which runs on the HIR computer, is 
the largest of the four systems that have been reprogrammed. However, 
that work is still to be tested because the operating system of the HIR 
computer is not yet Year 2000 compliant. Once the HIR computer has been 
reprogrammed, we will begin testing to ensure that our systems are 
ready for operation under the new requirements. In the unlikely event 
that the systems fail those tests, we have contingency plans ready to 
prevent any interruption in the services we provide to the Congress.
    In addition to the activities just noted, CBO has taken other steps 
to prepare for the coming transition. Beginning in fiscal year 1998, 
all of our purchase orders and contracts relating to hardware, 
software, and data have called for Year 2000 compliance. Our computer 
personnel have also tested all of our microcomputers to ensure their 
readiness, and those that were found not to be compliant have been 
repaired. We will also test any new computers that we receive and 
return any that fail such testing to the manufacturer. During fiscal 
year 1998, we plan to establish a Year 2000 testing facility for 
network-related hardware and software. Finally, CBO subscribes to the 
Gartner Group's Year 2000 service and will use that consulting resource 
during the Year 2000 transition period.
CBO's Response to the Committee's Directive on Financial Management
    The Committee included language in last year's report encouraging 
all legislative branch entities to adopt the goals and objectives of 
the Legislative Branch Financial Managers Council, which was formed to 
promote effective financial management practices across the legislative 
branch. CBO has participated in the Council's activities since its 
inception, and we have recently adopted its statement of vision and 
goals. Accordingly, our budget request includes funds for preparing and 
issuing audited financial statements for fiscal year 1999.
                               conclusion
    Mr. Chairman, CBO is keenly aware of the Congress's intention to 
balance the budget and downsize the federal government, including the 
legislative branch. In response, CBO's recent budget requests have been 
quite modest, with requested increases usually being less than the 
projected rate of inflation. Our present proposal represents our best 
estimate of the amount necessary to maintain our budget at the current-
services level. It is a prudent budget in which we absorb over 20 
percent of our mandatory pay and benefit increases through reductions 
elsewhere. We believe, however, that our requested increase of 4.6 
percent is necessary if we are to continue to serve the Congress in the 
manner it has come to expect.
                                 ______
                                 
                     Additional Committee Questions
    Question. In testimony you mentioned that CBO has experienced some 
problems in retaining and hiring qualified economists due to the tight 
labor market and CBO's inability to remain competitive with salaries 
and benefits. However, there is no request for funds or legislative 
language to alleviate that problem. Is this a problem Congress needs to 
consider and if so, what are some of the possible options?
    Answer. We believe that our having the authority to provide lump-
sum bonuses for recruitment and retention would make CBO more 
competitive with other federal employers. But the House does not appear 
to agree.
    In terms of pay and benefit privileges, according to our enabling 
legislation, CBO employees are treated as if they work for the House of 
Representatives. The House does not provide moving expenses for new 
employees, nor does it give lump-sum bonuses to its workers. We have 
requested lump-sum bonus authority in the past, but the House has not 
been disposed to make that change or to make an exception for CBO.
    Salary compression is another problem. The annual salaries for 
CBO's Director and Deputy Director are tied to Executive Levels III and 
IV, respectively. As a result, our division directors are now paid more 
than the Deputy Director. The recent 2.3 percent pay raise awarded to 
Executive Schedule staff provided a small cushion, but federal salaries 
for senior managers and executives lag well behind private-sector pay 
for comparable positions.
    Starting salaries for economists, especially in the fields of 
health and macro-economic analysis, are a further problem. The salaries 
offered to new Ph.D. economists in 1998, especially by consulting 
firms, are much higher than the salaries paid to comparably trained CBO 
staff with two or three years of experience. For example, Charles River 
Associates and the National Economic Research Association offer 
starting salaries of over $90,000. Starting salaries at the Federal 
Reserve Board are in the $70,000 to $72,000 range. The top salary 
offered by the executive branch (GS-12, step 10) is $61,190. We are 
offering salaries in the $60,000 to $65,000 range.
    As our statement notes, the current job market compels CBO to worry 
about the recruitment of new workers as well as the retention of 
current employees. We would rather not propose a quick fix that might 
result in unintended, longer-term consequences. Pay inequities such as 
those described above can exacerbate turnover rates.
    Question. How much do you estimate to be the cost of preparing and 
issuing audited financial statements for fiscal year 1999? Is this 
amount included in your budget request?
    Answer. We have included $30,000 for the audit of our fiscal year 
1999 financial statements. That preliminary estimate is as low as it is 
because we assume that the audit will be done by the same accounting 
firm that audits the financial statements of the Library of Congress 
and that its testing of the financial management system we share with 
the Library will reduce the final cost.
    Question. The House has decided to eliminate its mainframe computer 
by the year 2000. CBO relies on the House mainframe computer for its 
data processing systems and has included $100,000 in its budget 
proposal to evaluate options and prepare for the transition. Has a 
decision been made as to when the HIR systems will be replaced and 
whether CBO will continue to run these critical applications on the 
replacement system? If this decision has not been made, why not?
    Answer. The House has given us a response that makes the answer to 
your question subject to interpretation. At this time, we are uncertain 
about exactly what Chief Administrative Officer (CAO) Jay Eagen means 
by the following:
          CBO'S use of the HIR mainframe computer for budget 
        analysis.--HIR can provide technical assistance to CBO in 
        following a systems development life cycle policy and 
        procedures to ensure the most effective solution for your 
        needs. HIR can also work with your staff to identify vendors 
        who can assist in the relocation of your system and then 
        provide technical information concerning your existing system 
        to your vendor.
    That same response (word for word) was given in answer to our 
request to use the House Information Resources (HIR) mainframe computer 
for statistical analysis.
    The CAO may be saying that HIR will help CBO move its applications 
to the same location used by the Legislative Information Management 
System (LIMS). Our objective is to follow the LIMS, but currently we 
have no commitment for support from the CAO. If that commitment is not 
obtained, we may have to move our applications to a location different 
from where LIMS will ultimately reside.
    Question. When do you expect to have a plan in place?
    Answer. At this point we are dependent on HIR, which is apparently 
waiting for the House Inspector General to issue the report of a study 
performed by Price Waterhouse on the future of the HIR mainframe 
computer. Before devising a plan, we would need to clarify the CAO's 
response; then, assuming that we are permitted to follow LIMS, we would 
need to review the Inspector General's report. However, we believe it 
is necessary to decide soon about whether we should count on following 
LIMS or develop a plan to strike out on our own.
    Question. Is it realistic to think that $100,000 will be adequate 
to resolve this problem in fiscal year 1999--waiting until the fiscal 
year 2000 budget to request the funds necessary to implement the change 
would leave only 3 months for installation of a new system before Jan. 
1, 2000.
    Answer. If CBO's applications can follow LIMS and we receive 
support from HIR staff, then $100,000 should be enough. However, if we 
must hire a vendor to assist us in moving our systems, then no matter 
where they are moved, $100,000 will be too small a sum. If we cannot 
follow the LIMS migration and are left to obtain our own service 
outside of a House contract, we expect to see an adverse impact on our 
future budget requests.
    As you note, waiting until fiscal year 2000 to implement another 
plan would not leave us enough time. This decision must be made in the 
very near future--certainly during this fiscal year.
    Question. CBO has expanded the use of its Web site to include 
testimony, cost estimates, and reports. Obviously there is an increased 
cost associated with this function. Does CBO publish everything it 
produces on its Web site? If not, what is the criteria for whether an 
item will be posted?
    Answer. Our first priority for posting on our site is all general 
work products as they are released. As time and resources permit, we 
are also including certain CBO publications issued before the Web site 
was activated, as well as expanding the available file formats in order 
to post spreadsheets, where appropriate. Although the response to our 
Web site has been quite positive thus far and we have received nearly 
100,000 requests for information since September, it is not yet clear 
whether the demand for printed copies of our publications will drop.
    The growing use of the Internet as both a source of and 
distribution tool for information has affected our budget primarily 
through the purchase of the hardware, telecommunications services, 
software, and Web development expertise needed to establish and 
maintain our link to the network.
    Question. Your testimony notes that you plan to assess the value of 
a CBO Intranet this year. What type of functions do you envision the 
Intranet serving?
    Answer. CBO plans to move existing systems--some of which are 
automated, some manual, but all of which are antiquated--to the Web-
based Intranet technology. For example, CBO currently tracks its 
incoming correspondence using an old microcomputer database program; 
that correspondence-monitoring system would eventually be moved to the 
CBO Intranet. In the process, the system would be enhanced to meet new 
requirements that have emerged since the original system was developed 
and to exploit features offered by the newer technology. Another 
example is the way CBO currently satisfies internal requests for 
administrative support. Under the present system, requests for support 
are made via phone or E-mail to the unit within CBO that is responsible 
for providing the requested goods or services. With an agencywide 
Intranet application, CBO users could use their computers and a 
standard interface (an Internet browser) to request service. The system 
would determine who should receive the work order and would 
automatically provide internal management controls such as notifying 
the responsible manager when a request was made and tracking its 
fulfillment (including who does it and how long it takes). The system 
would also provide a real-time summary of requests; in addition, aging 
reports would be available to identify any outstanding requests that 
had not been completed. All of that information could be requested by 
authorized CBO personnel through the CBO Intranet. Yet another planned 
application is the redesign and relocation of the CBO project 
information control system, which is currently a mainframe-based 
system. There are other applications, internal to individual divisions, 
that are also envisioned for the CBO Intranet.
    CBO has established an internal World Wide Web steering committee 
with representatives from all divisions within the organization. All 
requests for Internet or Intranet applications must be presented to and 
approved by the committee before any development activity begins.
    Question. Does CBO have a plan to make its systems year 2000 
compliant?
    Answer. CBO does have a plan to make those of our systems that are 
under our direct control Year 2000 compliant. Some portions of that 
plan have been presented verbally to the General Accounting Office 
(GAO), and some have been provided in writing. The plan is currently in 
a format that is more informal than the one prescribed by GAO in its 
Year 2000 Computing Crisis: An Assessment Guide. Moreover, we have not 
carried out all of the recommended Year 2000 activities outlined in the 
guide. Because of the nature of CBO's information systems and the 
agency's small size, we do not currently have the resources nor do we 
feel it necessary to produce the same response expected of a larger 
agency.
    Many of our important systems operate by means of interagency and 
commercial computing resources. For example, our Budget Analysis Data 
System runs on the House Information Resources computer, our payroll 
and personnel systems are handled by the National Finance Center, and 
our financial management system runs on a Library of Congress computer. 
We have other systems that rely on proprietary data models provided by 
commercial vendors. To the extent that we can influence the Year 2000 
compliance issue through contracting language, we have done so. We also 
plan to send letters of inquiry to all interagency and commercial 
vendors concerning their Year 2000 status and plans, which we will 
monitor. On the one hand, we have little control in the final analysis 
over whether those systems will or will not be Year 2000 compliant. On 
the other hand, we have contingency plans for some of those systems 
that will be activated if necessary. For the other systems, such as 
payroll, personnel, and financial management, we are forced to rely on 
the service agency. For the systems that are within our control, we 
have developed compliance plans, some of which were addressed in our 
hearing statement.
    Question. What is the strategy for testing renovated systems for 
compliance?
    Answer. We plan to simulate the year 2000 by advancing the system 
clock; we will then run the software on a program-by-program basis. 
However, until HIR supports an operating system platform that is Year 
2000 compliant, we are unable to test those of our renovated programs 
that require that computing resource.
    Question. How many data interfaces does CBO have with external 
organizations? Describe how CBO is working with those organizations to 
develop mutually agreed-to data formats for exchanging information 
after Jan. 1, 2000.
    Answer. Current CBO systems exchange data with the following 
interagency organizations: HIR, the House Appropriations Committee, the 
National Finance Center, the Library of Congress, the Treasury, the 
Office of Management and Budget (OMB), and the Census Bureau. Of those 
systems, only the OMB and HIR systems are critical to CBO's mission. 
The OMB interface currently allows for a four-digit year, and the HIR 
interface has been renovated and awaits testing.
    Although CBO has many data interfaces with commercial vendors, only 
three are mission critical: Haver Analytics, General Electric Data 
Services, and Data Resources Incorporated. We believe those systems are 
Year 2000 compliant already because they provide economic forecasting 
data beyond 2000.
    CBO is also a member of the Legislative Year 2000 Committee 
sponsored by the House and Senate. The committee identifies and 
monitors Congressional systems that interact and share information for 
the purpose of determining whether they need Year 2000 renovation.
    We are satisfied that no changes are needed in the data format. We 
have included Year 2000 language in our contract renewals that make 
compliance a condition of the contract.
    Question. What is your estimated total cost to address the year 
2000 problem?
    Answer. We have no accurate estimate at this time, given the 
uncertainty of the HIR mainframe relocation and whether we will follow 
LIMS with HIR assistance.
    Question. What has been spent to date?
    Answer. To date, we have spent funds only for personnel. But we 
have budgeted $180,000 to replace our library collection management 
system during fiscal year 1998.
    Question. What is requested in your fiscal year 1999 budget?
    Answer. We are not requesting separate funds for Year 2000 
activities at this time. However, we have asked for $100,000 for the 
mainframe conversion, and some of that effort will include Year 2000 
activities.
    Question. What is your cost estimate beyond fiscal year 1999?
    Answer. Given the uncertainty surrounding the move of our key 
mission-critical system, which currently runs on the HIR mainframe 
computer, we have no estimate beyond fiscal year 1999 at this time. The 
decision regarding our request to follow the House Legislative 
Information Management System will strongly influence that matter. If 
CBO must obtain vendor support to move its mainframe systems and cannot 
benefit from HIR's work in the Year 2000 area, additional funds will 
certainly be necessary.
    Question. When will CBO publish the reestimate of the President's 
budget?
    Answer. The projected release date for CBO's analysis of the 
President's budget is March 31, 1998. A preliminary report of our 
analysis was released on March 4.
                                 ______
                                 
              Questions Submitted by Senator Byron Dorgan
    Question. Dr. O'Neill, would you explain to the subcommittee what 
is meant by dynamic scoring and to what extent CBO does it now?
    Answer. The term ``dynamic scoring'' has several interpretations. 
Many people mistakenly believe that estimates prepared for the Congress 
of the budgetary effects of spending or tax proposals do not take into 
account the changes in behavior that could result from passage of those 
proposals. In fact, all Congressionally mandated budget estimates--
whether the spending estimates required of CBO or the estimates of 
receipts prepared by the Joint Committee on Taxation--employ the same 
basic estimating conventions. Such conventions incorporate assumptions 
about how changes in taxation or government spending might change 
individual behavior in response to new economic incentives.
    Those behavioral and other estimating assumptions cover a wide 
variety of microeconomic effects and reflect the best available 
research and estimating methods. For example, the estimate for a 
proposal to subsidize health insurance for early retirees would include 
the additional costs that would result from the likely increase in the 
number of early retirees. Similarly, the estimate for a proposal to 
increase the excise tax on tobacco products would take into account the 
resulting decrease in cigarette consumption.
    In most instances, the estimating conventions used in producing 
cost estimates of bills are not controversial. However, questions may 
arise in two types of situations. First, estimators sometimes disagree 
about the magnitude of microeconomic responses, such as the extent to 
which an increase in excise taxes would reduce consumption. Second, 
some proposed legislation could give rise to macroeconomic effects, 
which are not included in routine cost estimates. That is, a major tax 
or spending measure might affect saving, investment, or work effort and 
thus affect the potential growth rate of the economy. In that sense, 
critics sometimes argue that the assumptions used for budget estimates 
are not dynamic enough.
    Although estimating the effect of proposed legislation on the 
macroeconomy may appear desirable, it is impractical, particularly for 
routine bill cost estimates, for a number of reasons. In some cases, 
little or no research may be available on which to base an estimate. In 
other instances, even when research bearing on a topic is available, 
economists disagree so much about the magnitude of macroeconomic 
effects that no single estimate can be meaningfully treated as a 
consensus. In addition, CBO often lacks sufficient time and resources 
to produce the complex estimates required. And finally, long-run 
changes in macroeconomic variables could be invisibly small in the 
five- or 10-year period used for budget estimates, even if they were 
likely to be significant in later years. In consequence, routinely 
incorporating macroeconomic effects into budget estimates would create 
considerable uncertainty and possibly endless controversy.
    CBO has, however, provided information about the possible 
macroeconomic effects of major legislation in a number of its 
analytical studies. Those studies were feasible because an extensive 
economics literature was available for reference and because CBO had 
sufficient time and resources for proper analysis. Moreover, unlike 
bill cost estimates, studies allow for a range of results. For example, 
CBO included an analysis of the macroeconomic effects of the 1997 
budget reconciliation package in the updated economic and budget 
outlook published last September. Last year, CBO also published a study 
of the possible economic effects of comprehensive tax reform. In 
addition, the budget resolution for fiscal year 1998 incorporated 
assumptions made by CBO on the macroeconomic effects of balancing the 
budget. That produced a so-called fiscal dividend that reduced the 
magnitude of the policy changes needed to reach budgetary balance.
    Question. You mentioned in your prepared statement that some 
Members of Congress have proposed expanding certain provisions of the 
Unfunded Mandates Reform Act. Would you describe some of these 
proposals and tell us which ones might have an impact on your budget.
    Answer. The proposal that has garnered the most attention is S. 
389, the Mandates Information Act of 1997 (sponsored by Senator Abraham 
and others). S. 389 would set new procedural constraints for private-
sector mandates and direct CBO to provide additional types of cost 
information about those mandates. Specifically, for any private-sector 
mandate with estimated costs above the threshold of $100 million a year 
(in 1996 dollars, adjusted annually for inflation), CBO would be 
required to analyze the impact on consumers, workers, and small 
businesses, including any disproportionate impact on particular regions 
and industries. The analysis would cover the effects on consumer 
prices, workers' wages and benefits, employment opportunities, and the 
profitability of small businesses.
    In previous testimony, we have indicated that we do not expect 
those increased duties from S. 389 to necessarily require additional 
resources or a further diversion of resources from our budget work. 
Some other bills, however, could pose a more significant burden.
    H.R. 2591, the Regulatory Accountability Act of 1997 (proposed by 
Congressman Lamar Smith and others), would impose significant new 
duties on CBO to prepare regulatory cost analyses. That bill would 
expand the Unfunded Mandates Reform Act in three important ways: by 
broadening the definition of costs to include ``social, environmental 
and economic'' costs; by including indirect effects of private-sector 
mandates; and by requiring cost analyses of existing rules and 
regulations when legislation is reauthorized. CBO could not fulfill 
those requirements without sustaining substantial damage to its primary 
functions. In fact, it is not an exaggeration to say that meeting those 
requirements might be an impossible task, particularly considering the 
short time frame that characterizes most legislation.
    In addition, the following bills could have relatively minor 
effects on CBO:
    H.R. 1704, to establish a Congressional Office of Regulatory 
Analysis, would allow the director of the proposed office to obtain 
information from CBO and to utilize CBO's ``services, facilities, and 
personnel with or without reimbursement.''
    H.R. 62, the Unfunded Federal Mandates Relief Act of 1997 
(introduced by Congressman Herger), would require CBO to prepare an 
annual report estimating the total amount of additional costs that 
state and local governments would incur as a result of regulations 
promulgated during the previous year.
    H.R. 2708, to provide a framework in which the legislative and 
executive branches could consider unilateral economic sanctions 
(introduced by Congressman Hamilton and others), would identify a bill 
that imposed such sanctions on a foreign country as a private-sector 
mandate and require CBO to analyze the likely short-term and long-term 
costs to the U.S. economy from those sanctions.

                          subcommittee recess

    Senator Bennett. Thank you very much, Dr. O'Neill, for your 
testimony.
    At this time, if there is no further business to come 
before the subcommittee, the hearing is recessed.
    [Whereupon, at 12:33 p.m., Thursday, February 26, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 1999

                              ----------                              


                        THURSDAY, MARCH 12, 1998

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:39 a.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Robert F. Bennett (chairman) 
presiding.
    Present: Senators Bennett and Dorgan.

                        JOINT ECONOMIC COMMITTEE

STATEMENT OF HON. JIM SAXTON, CHAIRMAN
ACCOMPANIED BY CHRIS FRENZE, EXECUTIVE DIRECTOR

              OPENING STATEMENT OF HON. ROBERT F. BENNETT

    Senator Bennett. The subcommittee will come to order. I 
apologize for being tardy. You are not interested in my 
explanations but you should get my apologies.
    This morning we are going to hear from the joint 
committees, the Sergeant at Arms of the U.S. Senate, the 
Library of Congress, the Congressional Research Service, and 
the Office of Compliance, so we have a fairly full schedule 
ahead of us.
    I want to highlight for the agencies testifying today my 
particular interest in the year 2000 problem. Those who follow 
my activities are discovering that this is something of a 
broken record with me, but I am convinced that this is a very 
serious challenge not only for the Government but for the 
economy as a whole.
    The majority leader has asked me to take the lead in seeing 
to it that both the legislative and executive branch agencies 
are prepared for this challenge and I will use this forum and 
any other that I can appropriately get to respond to that task 
from Senator Lott.
    Now, our first witness this morning is Hon. Jim Saxton, 
chairman of the Joint Economic Committee, and he will be 
followed by Hon. John Warner, chairman of the Joint Committee 
on Printing, and I appreciate the attendance of both of our 
colleagues here.
    Senator Dorgan, do you have any opening comments?
    Senator Dorgan. Mr. Chairman, I do not have an opening 
comment. Let us hear from the witnesses. I am pleased that we 
are holding the hearing today, and we have some interesting 
statements, so let us get on with it.
    Senator Bennett. Thank you.
    Congressman Saxton, we welcome you, and appreciate you 
coming across the Capitol to testify. I should say that when he 
arrives our third witness will be Senator Bill Roth, who is 
chairman of the Joint Committee on Taxation.
    Congressman Saxton, we appreciate you being here and look 
forward to your comments.

                     Mr. Saxton's opening statement

    Mr. Saxton. Thank you, Mr. Chairman, and Senator Dorgan. I 
am pleased to be here today to bring you up to date on our 
activities, and to talk for just a minute about our budget 
request for the next fiscal year.
    In light of the fact that Senator Warner is here and it 
sounds like you have a busy schedule, I will ask unanimous 
consent that my entire statement be placed in the record and 
just say a couple of things.
    Senator Bennett. Without objection, it will be inserted.
    Mr. Saxton. The budget request this year will enable the 
Joint Economic Committee to continue its mission of providing 
quality research and policy analysis for the Congress as well 
as for the public. The committee has been very, very 
productive, and we are naturally pleased that the Joint 
Economic Committee research projects and hearings have been 
well-received.
    The Joint Economic Committee's research and activities have 
been cited in the New York Times, the Financial Times, the Wall 
Street Journal, the Washington Post and Time magazine, among 
other publications. Over the last 12 months the Joint Economic 
Committee has been busy. We have released more than 25 studies 
and reports, and we have held 17 hearings. The JEC studies 
covered a variety of topics, including taxation, the budget, 
monetary policy and other issues such as the IMF, with which we 
are currently very much engaged.
    The research program of the committee was designed to 
ensure that these studies provide useful information related to 
the policy issues before Congress.
    Mr. Chairman, I will just leave the rest of my statement 
for the record, and just say that the recent history of the 
funding of the JEC has been interesting and, perhaps, in some 
respects unique.
    In fiscal year 1995 we had a total budget of just over $4 
million. By 1996, the total budget that we had to operate with 
was about $3 million. We took an additional $250,000 reduction 
in fiscal year 1997, and have been steady through fiscal year 
1998.

                           prepared statement

    This year, we are asking for a small increase of $46,000 to 
keep pace with inflation, that is about 1.6 percent.
    [The statement follows:]

               Prepared Statement of Chairman Jim Saxton

    Mr. Chairman and Members of the Subcommittee, it is a 
pleasure to present my strong support for the fiscal year 1999 
budget request of the Joint Economic Committee (JEC).
    This budget request will enable the JEC to continue its 
mission of providing quality research and policy analysis for 
the Congress and the public. The goals of maximum efficiency, 
quality, and productivity have guided the Committee in meeting 
resource constraints and managing Committee functions and 
procedures.
    As a result, the Committee has been very productive, and we 
are naturally pleased that JEC research products and hearings 
have been well received. JEC research and activities have been 
cited in The New York Times, The Financial Times, The Wall 
Street Journal, The Washington Post, Time and many other 
publications.
    Over the last 12 months, the JEC released more than 25 
studies and reports and held 17 hearings. These JEC studies 
covered a variety of topics including taxation, budget, 
monetary policy, and other issues. The research program of the 
Committee was designed to ensure that these studies provided 
useful information related to the policy issues before 
Congress.
    A number of JEC studies have analyzed various tax issues 
from an economic perspective. This series of tax papers has 
examined the economic criteria that should guide tax policy, 
and applied them to specific tax issues before Congress. For 
example, several studies examined the taxation of personal 
saving and capital gains, and how this might be affected by 
proposed changes in tax law. The JEC also recreated a Treasury 
Department data base to show in a more complete way its 
measurement of distributional effects under the 1997 tax law. 
Another JEC study analyzed the economic effects of broad versus 
narrowly targeted tax incentive policies.
    A special research program in monetary policy generated six 
studies on various issues related to maintaining low inflation 
and low interest rates. In brief, this research found that the 
thrust of Federal Reserve monetary policy in recent years has 
been to bring inflation and interest rates down, improving the 
operation of the price system, and sustaining the economic 
expansion and its associated employment gains. This research 
also suggested consideration of inflation targeting, a 
procedure used formally by several central banks in other 
nations. In testimony before the JEC last fall, Chairman 
Greenspan indicated that he agreed that this was essentially 
the approach used by the Federal Reserve in recent years, and 
that he was sympathetic with legislation that provides for 
inflation targeting.
    In recent months, the JEC has examined the complicated 
issues associated with the financial problems in Asia and the 
efforts of the International Monetary Fund (IMF) to contain 
them. In recent weeks, the JEC held a hearing on IMF financing, 
and also issued a study on this subject. Our research concludes 
that the IMF should become more open and should discontinue its 
practice of subsidizing its loans with below market interest 
rates.
    We have planned an aggressive research agenda for 1998 that 
builds on our 1997 research program. Several new studies on 
various tax issues are under preparation, as are new studies on 
monetary policy, regulation, and the impact of government on 
the economy. The need for quality information and policy 
analysis in the years ahead will continue to require adequate 
funding of the Joint Economic Committee.
    Thank you.

                            Year 2000 issue

    Senator Bennett. Thank you.
    I talked about the year 2000 issue. Have you looked into 
your computers and have a feel for how compliant your committee 
may be with respect to year 2000 issues?
    Mr. Saxton. Let me say, Mr. Chairman, that Mr. Chris Frenze 
is with me. He is the executive director of the committee, and 
let me just ask, if it is all right with you----
    Senator Bennett. Surely.
    Mr. Saxton [continuing]. If he might respond to that 
question.
    Mr. Frenze. We have been contacted by some of the same 
people who likely have contacted you about this. Our own 
internal computer system has some of the same problems that 
other congressional entities have.
    I would suggest that the committee, in the next Congress, 
would be an ideal forum for looking into the larger economic 
impacts of this problem as we lead up to the year 2000.
    Senator Bennett. That was going to be my next comment. 
Experts that have appeared before my subcommittee on banking, 
where we are focusing primarily on financial systems, have told 
us that there is approaching a 50-50 chance that the year 2000 
problem will trigger a worldwide recession.
    It would seem to me that the Joint Economic Committee is 
concerned with economic trends in the business cycle should be 
paying some attention to this, so I will use this opportunity 
to put in a plug for that kind of a hearing and assure you that 
if it takes place I will be there.
    I appreciate serving on that committee. It has been one of 
the more interesting challenges I have had since I have come to 
the Senate.
    Senator Dorgan, do you have any questions?

                             Staffing level

    Senator Dorgan. Just a quick question. What is the current 
staffing level on the Joint Economic Committee?
    Mr. Frenze. The amount of slots that we have informally 
allocated from the House Appropriations Committee is about 38. 
My understanding is the accounting system is a little different 
in terms of the way the Senate views the staffing issue, but 38 
staff slots reflect a significant reduction from about 50 just 
a few years ago. As with all committees, the staff goes up and 
down, and right now it is around 30, committeewide.
    Senator Dorgan. All right. Thank you
    Senator Bennett. I understand you have an aggressive 
research agenda for this year, Mr. Chairman. Studies on tax 
issues, monetary policy, regulation, impact of the Government 
on the economy. As I say, I would hope you would add to that a 
hearing on the year 2000 situation.
    Mr. Saxton. We will be happy to do that. It is obviously a 
very important issue which, as you suggest, has all kinds of 
implications for the economy. It is something that we are 
certainly willing to look at, in which we would like to be a 
partner. We will be happy both to take the lead on the House 
side if you think that is appropriate, and to work through this 
with you beginning this year.
    Senator Bennett. Very good.
    Senator Dorgan. Let me just ask one additional question, if 
I might. I, too, served on the committee some years ago, and I 
got the feeling--I do not know what it is now, but I got the 
feeling at one point in time that the committee staff kind of 
divided into two camps and were putting out competing different 
studies and results to serve partisan ends on both sides.
    Has that abated some? Because the committee in years past 
used to be a very respected committee that was very bipartisan, 
and I think it changed some some years ago. What is the 
situation there now?
    Mr. Saxton. I think the fact that you asked that question, 
suggests that you have probably noticed that we have tried to 
make it a more bipartisan effort. There is no question that 
there are differences of opinion on economic issues, and those 
differences of opinion manifest themselves from time to time, 
but by and large the tone of the committee has been much more 
bipartisan.
    I cannot think of a time this year when we had rancor in 
the ranks of the committee, in either public hearings or in 
private. We work well together with Members of both parties 
and, as I said, have from time to time expressed different 
opinions on economic matters, but we do it in as good-natured 
and as bipartisan a way as is possible.
    Senator Dorgan. Well, I think that is helpful. I think it 
is an important committee and an important forum in which to 
evaluate some very difficult economic issues, and I think the 
tradition over many years has been that Congress in a 
bipartisan way sinks their teeth into these things and tries to 
get the best analysis possible, and I kind of regretted there 
was a period of time, probably rather short period, in which it 
kind of became a ping pong ball back and forth for partisan 
purposes.
    But I appreciate your answer, and you are right, the reason 
I asked the question is I have not heard much in that respect 
recently, and I think that is good news.
    Thank you very much.
    Mr. Frenze. I would like to add that our research agenda is 
very carefully designed to avoid any conflicts of that kind. If 
you look at our reports you will see--you may not agree with 
what we are saying, but it is presented in a nonpartisan way.
    We are focusing on economics, not on politics at the 
committee. Just yesterday a JEC report was released that was 
co-released by two Democratic and two Republican Senators, and 
one House Member, the majority leader of the House, Mr. Armey, 
with Congressman Moran also participating. That is the kind of 
thing that we are trying to do.
    Senator Dorgan. Well, the Asian financial crisis and the 
uncertainty that it provides for our economy and a range of 
things like that represent the reasons I think we ought to have 
a committee of this type, so I am glad to hear your response 
and wish you well.
    Senator Bennett. I can comment that when I went on the 
committee as a freshman Senator 5 years ago I was a little bit 
stunned and appalled at the shouting matches that went on both 
publicly and privately when we met as members of the committee 
to discuss committee administration.
    I will say that it was all confined to the House side. 
[Laughter.]
    I did not notice any Senators yelling at each other, but 
there were calls for abolition of the committee if the chairman 
did not change his position and responses in kind, and since 
some of the leadership has moved on to other challenges at 
least in the period that Congressman Saxton and before him 
Senator Mack have presided over the committee there has been a 
serious diminution in that kind of activity, and I for one 
welcome it tremendously. I appreciate your raising it.
    Senator Dorgan. Thank you.
    Senator Bennett. Mr. Chairman, thank you very much for 
coming. We appreciate your request. We appreciate your 
responsibility in holding the line on the budget. You set a 
good example for the other committees with which we deal.
    Mr. Saxton. Thank you very much.
    Senator Bennett. Thank you.
                      JOINT COMMITTEE ON PRINTING

STATEMENT OF HON. JOHN WARNER, CHAIRMAN
ACCOMPANIED BY ERIC PETERSON, STAFF DIRECTOR

    Senator Bennett. Chairman Warner.
    Senator Warner. Thank you, Mr. Chairman. Your wonderful 
staff instructed me to submit my testimony and answer one 
question. The answer to the question is, I hope in a few weeks 
we will be able to.
    Senator Bennett. We would not instruct you to do anything, 
Mr. Chairman. We would respectfully request.
    Senator Warner. You see that picture on the wall behind 
you? I have had to deal with him for 19 years, a little longer 
than you. Why is it your witnesses sit down on the floor so 
that they can barely look over the table? Did we not give you 
some good chairs for this room? [Laughter.]
    Senator Dorgan. Mr. Chairman, it was a fast shutter that 
caught him smiling. [Laughter.]
    He is a good guy, but that is an unusual pose. [Laughter.]
    Senator Bennett. I will not comment on any of this.
    Senator Warner. You should have been with us last night to 
finish up the highway bill. Oh, boy. That is about it.
    This is Mr. Peterson, our wonderful staff director, and we 
are moving to disestablish the committee. It has been in 
existence a long time. How long has it been in existence?
    Mr. Peterson. Over 150 years.

                           prepared statement

    Senator Warner. Oh, really, over 150 years, so a little 
progress is being made. Title 44, I hope we will be able to 
move that. My distinguished ranking member, Senator Ford, 
indicates that he is working through some problems on his side. 
We do not have any problems on our side, so there she be.
    [The statement follows:]
               Prepared Statement of Senator John Warner
    Mr. Chairman and members of the Subcommittee on Legislative Branch 
Appropriations, thank you for the opportunity to present testimony on 
behalf of the Joint Committee on Printing.
    Last year, when I came before this committee, I outlined four key 
initiatives the Joint Committee would undertake. Those initiatives 
included:
  --Improved compliance by Executive Branch agencies with Title 44 of 
        the U.S. Code;
  --The development and implementation of a standard generalized markup 
        language to facilitate electronic creation and retrieval of 
        legislative information and documents;
  --An accommodation on a privatization study requested by this 
        subcommittee from the Government Printing Office; and,
  --The writing of legislation to reform Title 44.
    Today, I am pleased to inform you that real progress has been made 
on each of these initiatives. By the end of my tenure as chairman of 
the Joint Committee on Printing, I am confident that all these 
initiatives will be complete.
    As part of the effort to reform Title 44, the Committee has devoted 
much attention to preparing the Government Printing Office (GPO) for 
the day when there will be no Joint Committee on Printing to oversee 
GPO operations, or to run interference for the agency with its 
customers and potential customers.
    The management review, which was ordered in GPO's fiscal year 1998 
appropriation, is an important part of this transition. On behalf of 
the members of the Joint Committee, thank you for your support of that 
important undertaking.
    I believe that when the General Accounting Office and its 
contractor complete their work, the GPO will have a sound plan which 
will enable it to successfully operate in a business-like fashion, 
providing for the printing needs of Congress, procuring publishing 
services for Executive and Judiciary branch agencies, and assuring 
permanent public access to the Government's publications.
    Over the past year, the staff of the Committee, working closely 
with the staff of the Senate Committee on Rules and Administration, has 
labored to craft a proposal reforming Title 44. As advertised from the 
outset, this effort has been a consensus building process in which all 
interested parties have been invited to participate.
    With much patience and determination, the staff has listened 
carefully to the suggestions, comments and concerns of all who sought 
input. As a result, a solid, workable proposal which offers something 
for everyone concerned has been developed.
    The measure will solve the Constitutional issue of separation of 
powers raised by the Justice Department.
    It will provide a transition to enable the government to take full 
advantage of the rapid evolution in electronic publishing and 
dissemination technology.
    It will ensure that the Government's publications are produced and 
disseminated in the most cost effective manner possible, placing heavy 
emphasis on giving the private sector full and fair opportunity to 
compete for the government's printing and publishing needs.
    And it will ensure that the Government's publications continue to 
be permanently accessible to the American public.
    It is my hope that in the next few weeks this proposal will be 
unveiled. Following a hearing, markup, and Senate passage, and 
consideration and passage in the House of Representatives, I have 
confidence the President will sign this reform measure into law.
    The Congress has a unique opportunity to complete the work of 
hundreds--if not thousands--of people who, for at least three decades, 
have labored to reform Title 44. With good will and honest intentions, 
I believe the job will be done this year.

    Senator Bennett. We appreciate your desire. Do you have any 
questions, Senator Dorgan?
    Senator Dorgan. No; whatever works for the Senator works 
for me. He is one of the more distinguished Members of our 
body, and we are pleased by the numbers we see in the request. 
It is a very responsible budget request. We are very pleased 
with it.
    Senator Warner. Hopefully, we can return it all back.

                                Title 44

    Senator Bennett. It is my understand that you plan to 
introduce your bill to revise title 44 in a couple of weeks?
    Senator Warner. Yes, that is correct, Mr. Chairman.
    Senator Bennett. That is the one question we were focusing 
on. Thank you very much.
    Senator Warner. Thank you, and I thank your staff for 
working with us in preparation for this hearing.
    Senator Bennett. Your full statement will be included in 
the record.
    Senator Warner. Thank you. We will all stand, salute, and 
depart. [Laughter.]
    Senator Bennett. With Senator Warner's unsenatorial 
dispatch we have not eaten up the time that would normally keep 
us occupied until Senator Roth appears.
    Senator Dorgan. Let us skip ahead. What do you think?
    Senator Bennett. Shall we move ahead to the Sergeant at 
Arms, with the understanding that when Senator Roth appears you 
would give way to the distinguished chairman of the Joint 
Committee on Taxation, not to mention the chairman of the 
Senate Finance Committee.
                              U.S. SENATE

             Office of the Sergeant at Arms and Doorkeeper

STATEMENT OF GREGORY S. CASEY, SERGEANT AT ARMS AND 
            DOORKEEPER
ACCOMPANIED BY LARRY HARRIS, ADMINISTRATIVE ASSISTANT

                           summary statement

    Senator Bennett. Our next witness is Hon. Greg Casey, 
Sergeant at Arms of the U.S. Senate.
    Mr. Casey has been very busy this year reorganizing his 
operation, like everything else it needs to be reorganized from 
time to time and brought up to date. This is not a criticism of 
past Sergeants at Arms, but Mr. Casey has been very vigorous in 
accepting the responsibility that comes with this position, and 
we are grateful to him.
    Mr. Casey, I understand you found some additional savings 
in your budget. This is always good news, and we look forward 
to hearing from any witness who thinks he can help save the 
Senate some money.
    Senator Dorgan, do you have any comment, or should we go 
directly to Mr. Casey's statement?
    Senator Dorgan. Why don't we proceed to the testimony.
    Mr. Casey. Thank you, Mr. Chairman. I have a very brief 
statement that I will make even briefer. You are correct that 
we have been working over the last year to basically enact what 
we told you we were going to do last year. As I said last year, 
we had about 20 years' worth of consultant reports saying we 
had to change things. We appeared here last year and told you 
what we intended to do to make that change. I am very pleased 
to be able to come before you today and tell you that the 
reorganization of the Sergeant at Arms office is complete. We 
think what we have structured now is going to be able to 
provide excellent customer service, the kind of support that we 
need for our mission-critical systems we will talk about in a 
moment, and to assure you that these systems are secure from 
threat, available on demand, and year 2000 compliant.
    Senator Bennett. Very good.
    Mr. Casey. It is worth remembering, though, that we are 
building this reorganization on three basic management 
principles. One is, understand our customer needs and keep in 
touch with those expectations, two, develop and maintain a 
motivated and skilled work force, and three, use best 
management practices and rigorously evaluate what we do against 
those beset management practices.
    To do the first, which is dealing with our customers, we 
have developed a customer relations department which is now in 
place, which provides a single point of contact for all 
services and products that the Sergeant at Arms provides.
    We have an ongoing quality assurance council comprised of 
representatives from Member offices, committees, and other 
support units here in the Senate. Their job is to make sure we 
continually improve. We have a reinvigorated human resource 
operation to provide management training. We have pay, 
performance, retention, and recruitment programs for our 
employees, while we are still meeting the rather rigorous 
standards of the Accountability Act.
    To do the third, which is the management part, evaluation 
part, we are migrating some of our financial operations, as you 
know, to the Secretary of the Senate in his role as the chief 
financial officer, and we are converting our financial 
operations office into a management review office.
    This is a project tracking activity report that we are 
trying to get out quarterly. Obviously, one of the major 
functions of our management office is to make sure that you get 
the kind of information on tracking our projects and the 
expenditures of our dollars on a quarterly basis. That is 
helpful to you. It is also helpful to us in managing this 
operation.
    During the course of last year, we have actually 
consolidated our operations division and eliminated a lot of 
duplication of services. That is where some of that $3 million 
in our reduced budget comes from. We have added two new 
departments, however. We have added the office of project 
management, which adds a new discipline to the way in which we 
actually manage projects up here in the Senate, and the office 
of the systems architect.
    It is that systems architect's job to make sure that the 
technology infrastructure of the Senate remains visionary, not 
only with an eye to what we have to accomplish today, but to 
try to get us on the cutting edge for what we have to do in the 
decade to come.
    We are also pursuing and trying to finish the joint office 
of education and training.
    As we discussed here last year, one of our primary 
objectives is to try to invest in our human resource, something 
we have not done as good a job as we should have. That is what 
part of this education and training program is all about.
    We have also been tasked as part of the ongoing strategic 
plan with the accomplishment of four goals.
    Mr. Casey. As part of that strategic plan--I will not go 
into those in great detail--we did have----
    Senator Bennett. Can we interrupt here and come back to you 
Mr. Casey? This is an appropriate time. Senator Roth has just 
come in and we want to accommodate his schedule, so we will 
suspend the Sergeant at Arms presentation and go to the Joint 
Committee on Taxation.
                      JOINT COMMITTEE ON TAXATION

STATEMENT OF HON. WILLIAM V. ROTH, JR., CHAIRMAN
ACCOMPANIED BY:
        LINDY PAULL, CHIEF OF STAFF
        MARY SCHMITT, DEPUTY CHIEF OF STAFF, LAW
        BERNIE SCHMITT, DEPUTY CHIEF OF STAFF, REVENUE ANALYSIS
        MICHAEL BOREN, ADMINISTRATIVE ASSISTANT

    Senator Bennett. We welcome the distinguished chairman of 
that committee, the chairman of the Senate Finance Committee, 
Senator Roth from Delaware.
    Senator Roth. Thank you very much, Mr. Chairman and Senator 
Dorgan. I appreciate the opportunity to appear today before 
this Subcommittee on the Legislative Branch on behalf of the 
fiscal year 1999 appropriation request for the Joint Committee 
on Taxation.
    Congressman Bill Archer and I submitted a written 
statement, and I ask that this statement be made a part of the 
record.
    Senator Bennett. Without objection, it will be part of the 
record.
    Senator Roth. Mr. Chairman, the operations of the Joint 
Committee on Taxation are vital to the tax legislative process. 
For example, the Joint Committee staff played a critical role 
last year to help the Congress enact the Taxpayer Relief Act of 
1997, which began the process of returning to the American 
people some of their hard-earned dollars.
    This tax bill, which provided the biggest tax cut Americans 
received in 16 years, included such major tax benefits as the 
child tax credit, the opportunity to save for retirement in 
tax-deferred IRA's, significant education tax incentives, 
relief from confiscatory estate and gift taxes for small 
businesses and family farms, as well as substantial reductions 
on capital gains.
    During 1997, the Joint Committee staff prepared more than 
2,000 revenue estimates in response to Member requests and in 
connection with committee markups drafted 14 committee and 
conference reports, drafted 8 tax treaty executive reports, 
published 92 documents made available to the Congress and the 
general public, as well as reviewed the work of the IRS on more 
than 600 large income tax refund and 64 large deficiency cases.
    During 1998, the Joint Committee staff will be front and 
center on our efforts to reform and restructure the IRS.
    The Joint Committee staff has also been devoting 
significant resources to analyzing the various proposals to 
restructure the Federal tax system and will take a lead role in 
providing assistance to the Congress as we consider fundamental 
tax reform, hopefully, in the not-too-distant future. These tax 
reform proposals will require the Joint Committee staff to 
provide comprehensive economic and legal analysis of a wide 
range of issues, including complex transition issues.

                           Revenue estimates

    Mr. Chairman, I would like to speak just a minute on the 
important role of the Joint Committee on Taxation in the 
preparation of revenue estimates for pending revenue 
legislation.
    As you know, under the Congressional Budget Act, the Joint 
Committee on Taxation has the sole responsibility for preparing 
revenue estimates for all tax legislation considered by the 
Congress. As I mentioned, during 1997, the staff responded to 
over 2,000 requests for revenue estimates from Members of 
Congress, including estimates prepared in connection with 
committee markups.
    Current staffing levels permitted the Joint Committee staff 
to respond to approximately 66 percent of the requests received 
from Members. During 1998, the Joint Committee staff expects to 
receive at least 1,500 requests for revenue estimates.
    In addition, during 1998, the Joint Committee staff will 
continue to proceed with the work necessary to develop the 
capability to incorporate macroeconomic effects into the 
revenue estimates of major tax legislation. I think this is a 
very important initiative, and as part of this effort, the 
Joint Committee has contracted with two major macroeconomic 
forecasting firms to help in the development of a prototype 
macroeconomic model.
    In addition, the Joint Committee staff consults regularly 
with the economists who serve on the Joint Committee's revenue 
estimating advisory board with respect to this important 
effort.
    As I said, I want to emphasize the importance that I place 
on developing macroestimating capabilities. I think it is 
crucial to our efforts to restructure the Federal tax system 
that we have the ability to understand how the economy will 
perform when we replace the current income tax system.
    Mr. Chairman, I would like to address specifically a 
concern raised by this subcommittee during last year's 
appropriation process: that the Joint Committee on Taxation 
staff did not respond adequately to requests from Members of 
Congress who do not sit on the tax-writing committees. Included 
in my written testimony is a table that provides information on 
the Joint Committee staff responses to revenue estimate 
requests during the 104th Congress, and for the first session 
of the 105th.
    The Joint Committee on Taxation staff receives a large 
number of requests each year, and responds to approximately, as 
I said, two-thirds of them. As attachment D to my testimony 
shows, the response to nontax-writing committee members during 
the last Congress was pretty close to that of tax-writing 
committee members. However, I am concerned that the data for 
the first session of this Congress is showing some disparities 
in the response to nonwriting committee members.
    I believe it is imperative that the revenue-estimating 
process of the Joint Committee be above criticism. Therefore, 
when I recently named Lindy Paull, who is our new chief of 
staff, to take over as chief of staff of the Joint Committee on 
Taxation, I directed her to undertake a review of the revenue-
estimating function of the Joint Committee and closely monitor 
requests so that all Members are treated fairly.

                        Fiscal year 1999 request

    Mr. Chairman, Senator Dorgan, the fiscal year 1999 
appropriation request for the Joint Committee is $6,018,000. 
This amount is a net increase of $202,500 over the fiscal year 
1998 appropriation, and $1,000 less than the fiscal year 1995 
appropriation for the Joint Committee. This increase is 
attributed solely to projected cost-of-living adjustments as 
provided to the Joint Committee by the House Finance Office, 
and a 1-percent merit increase for personnel expenses for the 
Joint Committee staff.
    The funding we have requested for the Joint Committee on 
Taxation represents, we believe, the minimum amount necessary 
to finance the operations of the committee for fiscal year 
1999. The Joint Committee provides essential services to the 
Congress that are not duplicated by any other congressional or 
executive branch office.

                           prepared statement

    In closing, I want to thank the subcommittee for its 
continued recognition of the important role that this committee 
plays. Thank you.
    [The statement follows:]
  Prepared Statement of Senator Bill Roth and Congressman Bill Archer
                              introduction
    Mr. Chairman, we appreciate the opportunity to submit this written 
testimony to the Subcommittee on Legislative of the Senate Committee on 
Appropriations on behalf of the fiscal year 1999 appropriation request 
for the Joint Committee on Taxation (the ``Joint Committee'').
    The funding we are requesting for the Joint Committee on Taxation 
represents the minimum amount necessary to finance the operations of 
the Joint Committee for fiscal year 1999. The Joint Committee provides 
essential services to the Congress that are not duplicated by any other 
Congressional or Executive Branch office. Failure to provide the 
requested funding will jeopardize the ability of the Joint Committee to 
provide these necessary services.
    We want to thank the Subcommittee for its continued recognition of 
the important role that the Joint Committee plays in the development of 
revenue legislation. We are pleased that the Subcommittee has 
repeatedly acknowledged the needs of the Joint Committee, and we hope 
that the Subcommittee will understand the critical need for funds for 
the Joint Committee for fiscal year 1999.
    Key points relating to the appropriation request are as follows:
    We are requesting a fiscal year 1999 appropriation for the Joint 
Committee of $6,018,000. This amount is a net increase of $202,500 over 
the fiscal year 1998 appropriation and $1,000 less than the fiscal year 
1995 appropriation for the Joint Committee. This increase is 
attributable solely to cost-of-living adjustments and a 1-percent merit 
increase for personnel expenses for the Joint Committee staff.
    In the last Congress, we asked the Joint Committee staff to assume 
additional responsibilities. In addition to the traditional role of the 
Joint Committee staff in the development, drafting, and estimating of 
proposed revenue legislation and the review of large income tax refund 
cases, the Joint Committee staff is now responsible for determining the 
possible unfunded mandates contained in revenue legislation and 
identifying, beginning in 1997, the limited tax benefits subject to the 
Line Item Veto Act. As you know, the Joint Committee staff identified 
over 70 provisions in the Taxpayer Relief Act of 1997 that were limited 
tax benefits and the President exercised his authority under the Line 
Item Veto Act to cancel two of these provisions.
    The Joint Committee staff provides unique and essential services to 
both the House of Representatives and the Senate at every stage of the 
tax legislative process. The Joint Committee staff, comprised of highly 
qualified lawyers, accountants, and economists, is involved in the 
development, marking up, and drafting of tax bills and in writing all 
tax Committee Reports and Conference Reports. In addition, the Joint 
Committee staff devotes substantial resources to the preparation of 
revenue estimates, distributional analyses, and other economic analyses 
relating to proposed legislation. The refund office of the Joint 
Committee reviews large proposed tax refunds as part of the 
Congressional oversight of the executive branch. The Joint Committee is 
charged by statute with oversight of the administration of the Federal 
tax system. The services of the Joint Committee are central to the tax 
legislative process.
    Additional details relating to this appropriation request are 
provided below.
               summary of fiscal year 1999 budget request
    The following summarizes the Joint Committee's budget request for 
fiscal year 1999:

Personnel Funding.......................................      $5,433,000
Non-Personnel Funding:
    Travel..............................................          12,000
    Rent, Communications, Utilities.....................          88,000
    Other Services......................................          95,000
    Supplies and Materials..............................         130,000
    Equipment...........................................         260,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total fiscal year 1999 Request....................       6,018,000

    The fiscal year 1995 appropriation for the Joint Committee on 
Taxation was $6,019,000. The House-passed legislative branch funding 
bill for fiscal year 1996 froze the Joint Committee appropriation at 
the fiscal year 1995 level ($6,019,000). The final version of this 
legislation reduced the Joint Committee's appropriation for fiscal year 
1996 by 15 percent to $5,116,000. This reduction was the result of a 
provision in the Senate bill, adopted in conference, which generally 
reduced appropriations of all Senate committees. This appropriation was 
lower than the Joint Committee's budget in each of the last 5 fiscal 
years. The fiscal year 1997 appropriation for the Joint Committee was 
$5,470,000. The fiscal year 1998 appropriation for the Joint Committee 
is $5,815,500, which is still below the fiscal year 1995 funding level.
           details of fiscal year 1999 appropriation request
Personnel Expenses
    We are requesting an appropriation for fiscal year 1999 for the 
Joint Committee that is $202,500 more than the fiscal year 1998 
appropriation, but only $1,000 more than the fiscal year 1995 
appropriation. This increase is attributable solely to cost-of-living 
adjustments to current personnel expenses plus a 1-percent increase for 
merit pay increases. As instructed by the House Finance Office, we are 
requesting $52,606 (attributable to a 1-percent merit increase) and 
$149,622 (which represents annualization of the fiscal year 1998 and 
fiscal year 1999 cost-of-living adjustments). These amounts are 
determined for the Joint Committee by the House Finance Office because 
they provide to us both the compensation base and the percentage 
adjustments.
    This request does not include any specific requested amount for 
possible overtime pay. During calendar year 1997, the Joint Committee 
on Taxation paid over $13,000 in overtime pay. The Joint Committee has 
a policy of minimizing the amount of overtime pay that support staff 
employees earn by utilizing compensatory leave to the extent permitted 
under the law.
Nonpersonnel expenses
    We are requesting no increase in nonpersonnel expenses for fiscal 
year 1999.
    The amount requested for travel expenses ($12,000) will be used to 
reimburse the economists who comprise the Joint Committee on Taxation 
revenue estimating advisory board for their expenses to travel to 
Washington, DC for advisory board meetings. In addition, this amount 
will be used to send Joint Committee attorneys and economists to 
educational conferences to improve their understanding of the Federal 
tax laws and to reimburse Joint Committee employees and prospective job 
applicants for travel expenses incurred in connection with the 
recruitment of new employees.
    The amount budgeted for other services is primarily for consulting 
services. The needs of the Members for immediate responses to requests 
for revenue estimates and the substantial volume of requests for 
revenue estimates that the Joint Committee staff receives places 
tremendous burdens on the estimating staff. To perform efficiently, the 
staff of the Joint Committee has found it necessary to contract from 
time to time with certain private sector organizations to do work that 
the Joint Committee staff does not have the time or the resources to do 
otherwise. In addition, the Joint Committee has contracted with a 
number of firms to help investigate issues involved in incorporating 
macroeconomic effects in the revenue estimates of certain major 
proposed tax law changes.
    The purchase of equipment represents the single largest item of 
nonpersonnel expenses. The large volume of documents that the Joint 
Committee is required to produce during the legislative process 
requires that the Joint Committee staff have computer equipment 
necessary to produce documents quickly. In addition, the Joint 
Committee devotes significant resources to the preparation of revenue 
estimates, distribution analyses, and other economic analyses relating 
to proposed legislation. The nature of this work and the speed with 
which the staff is normally asked to complete its analyses requires 
that the Joint Committee staff utilize the most sophisticated and 
technologically advanced equipment. Thus, the staff finds it necessary 
to upgrade computer software and hardware frequently to enable the 
staff to provide the service required and expected by the Members of 
Congress.
 review of joint committee on taxation operations during calendar year 
                                  1997
    Attachments A through D provide a summary of the activity of the 
Joint Committee for calendar year 1997. During 1997, the Joint 
Committee staff drafted fourteen Committee and Conference Reports 
(Statements of Managers) for the House Ways and Means Committee and the 
Senate Finance Committee. In addition, the staff drafted eight tax 
treaty Executive Reports for the Senate Foreign Relations Committee. A 
list of these committee reports and treaty Executive Reports is 
contained in Attachment A.
    In 1997, the Joint Committee staff was actively involved in 
preparing materials for numerous tax committee hearing and markup 
documents, as well as committee and conference report explanations on 
tax-related legislation and tax treaties.
    Tax legislative reports worked on by the Joint Committee staff 
relating to legislation enacted in 1997 included:
  --Temporary extension of Airport and Airway Trust Fund excise taxes 
        (H.R. 668).
  --Taxpayer Browsing Protection Act (H.R. 1226).
  --Taxpayer Relief Act of 1997 (H.R. 2014), which included tax credits 
        for children and college education expenses, other education 
        tax incentives, expansion of IRA's, capital gains and 
        alternative minimum tax provisions, estate and gift tax 
        revisions, extensions of certain expiring tax provisions, D.C. 
        tax incentives, a welfare-to-work tax credit, expansion of 
        empowerment zones, extension and modifications to the Airport 
        and Airway Trust Fund excise taxes, certain corporate and other 
        tax reforms, numerous tax simplification provisions, pension 
        and employee benefit changes, extensive Line Item Veto Act 
        analysis, and technical corrections for 1996 tax legislation.
  --Balanced Budget Act of 1997 (H.R. 2015), which included revenue 
        provisions relating to Medicare Medical Savings Accounts, tax 
        treatment of certain hospitals, unemployment tax provisions, 
        and increased tobacco excise tax rates.
  --Temporary extension of Highway Trust Fund (sec. 9 of S. 1519).
    In addition, the Joint Committee staff worked on several other tax 
committee reports on legislation that were considered by the tax-
writing committees in 1997 but not enacted as of the end of the First 
Session of the 105th Congress. These included the following areas of 
tax legislation (also listed in Attachment A):
  --H.R. 2513 (restore and modify two revenue provisions canceled under 
        the Line Item Veto Act in H.R. 2014), which was passed by the 
        House.
  --H.R. 2621 (revenue offset provision to the Reciprocal Trade 
        Agreement Authorities Act of 1997).
  --H.R. 2644 (revenue offset provision to the United States-Caribbean 
        Trade Partnership Act).
  --H.R. 2645 (Tax Technical Corrections Act of 1997), which was 
        included as an amendment to H.R. 2676 as passed by the House.
  --H.R. 2646 (Savings Act for Public and Private Schools Education), 
        which was passed by the House.
  --H.R. 2676 (Internal Revenue Service Restructuring and Reform Act of 
        1997), which was passed by the House.
  --S. 1173 (Intermodal Surface Transportation Revenue Act of 1997), 
        which was approved by the Senate Finance Committee.
    Further, the Joint Committee staff prepared hearing pamphlets and 
executive reports on 8 tax treaties for the Senate Foreign Relations 
Committee. On a less formal basis, the Joint Committee staff assisted 
various nontax-writing Committees of the House and Senate during 1997. 
Specifically, the Joint Committee staff prepared certain written 
materials for the House Subcommittee on Housing and Community 
Opportunity of the House Committee on Banking and Financial Services 
with respect to certain HUD programs (and Joint Committee Chief of 
Staff Kenneth J. Kies testified before that Subcommittee). In addition, 
the Joint Committee staff prepared a study on utility restructuring for 
the Senate Committee on Energy and Natural Resources, and provided 
extensive support to the House and Senate Committees with jurisdiction 
over the District of Columbia in connection with the work of the 
Congress relating to the District, in addition to testifying before the 
House Subcommittee on the District of Columbia.
    In addition to its work on committee and conference reports, the 
Joint Committee staff published 92 documents during 1997, including 
pamphlets and other documents prepared for committee hearings and 
markups and conference action (see Attachment B). Included in these 
documents was the General Explanation of Tax Legislation Enacted in 
1997, a 549-page comprehensive explanation of all tax legislation 
enacted in 1997.
    The 1997 publications included the Joint Committee staff's annual 
report on estimates of Federal tax expenditures for fiscal years 1998-
2002. Other publications included an analysis of the provision of the 
Line Item Veto Act relating to limited tax benefits, a staff study of 
entity classification and partnership tax issues, and a staff review of 
Federal income tax issues arising in connection with proposals to 
restructure the electric power industry. Also included in 1997 
publications was a document regarding the Joint Committee staff's Tax 
Modeling Project and Tax Symposium Papers, which discussed the 
feasibility of incorporating macroeconomic effects into Joint Committee 
staff revenue estimates.
    During 1997, Joint Committee staff members spent extensive time 
conducting an investigation of whether the Internal Revenue Service's 
(``IRS'') selection of tax-exempt organizations described in Internal 
Revenue Code sections 501(c)(3) and 501(c)(4) (and individuals 
associated with such organization) for audit has been politically 
motivated, including an analysis of the selection of such tax-exempt 
organizations for audit for reasons related to their alleged political 
or lobbying activities. We, along with Senator Moynihan and Congressman 
Rangel, directed the Joint Committee to conduct this investigation in 
March 1997; this investigation represents an important exercise of the 
Joint Committee on Taxation's statutorily prescribed duty of oversight 
of the administration of the Federal tax system. The Joint Committee 
staff spent extensive time during the spring and fall of 1997 on this 
investigation. The investigation involves the review and inspection of 
several hundred boxes of IRS case files, as well as the interview of 
IRS personnel, taxpayers, and taxpayer representatives. While much of 
the work can be performed in Washington, D.C., travel to other parts of 
the country to interview witnesses and review files is also required.
    The Unfunded Mandates Reform Act of 1995 imposed certain procedural 
requirements in the House and Senate with respect to mandates imposed 
on either the private sector or on State and local governments. Under 
procedures developed in coordination with CBO, the Joint Committee 
staff is required to provide an estimate to the CBO of the direct costs 
of complying with any such mandates contained in revenue legislation 
considered by the Congress.
    During 1997, the Joint Committee received over 2,000 requests for 
revenue estimates (see Attachment C). Many of the requests received in 
1997 involved complex proposals relating to alternative tax structures 
and proposals under consideration as part of the Taxpayer Relief Act, 
the Balanced Budget Act, and restructuring of the IRS, all of which 
required significant time on the part of the Joint Committee's legal 
and economics staff. In the course of considering the Joint Committee's 
fiscal year 1998 appropriation request, questions were raised as to 
whether the Joint Committee staff was providing adequate assistance to 
all Members of Congress requesting it. We are attaching (Attachment D) 
to this letter a summary of Joint Committee responses to revenue 
estimate requests broken down by Ways and Means Committee, Senate 
Finance Committee, Non Ways and Means Committee, and Non Senate Finance 
Committee and subdivided further into Democrats and Republicans. 
Current staffing and funding levels for the Joint Committee on Taxation 
enable the Joint Committee staff to respond to approximately 66 percent 
of revenue estimate requests; Attachment D demonstrates that the Joint 
Committee staff responds to requests received from all Members of 
Congress. Although the Joint Committee staff response rate is slightly 
higher for tax-writing committee members, we believe this is 
principally attributable to the large number of amendments that are 
considered when either of the tax-writing committees marks up revenue 
legislation.
    One of the statutorily mandated functions of the staff of the Joint 
Committee is the review of IRS refunds or credits of income tax, estate 
and gift tax, or any tax on public charities, foundations, pension 
plans, or real estate investment trusts in excess of $1,000,000. The 
Joint Committee staff reports on each such refund case and makes 
comments or recommendations with respect to the proposed refund case to 
the IRS. During 1997, the Joint Committee refund staff reviewed 602 
cases involving $6.1 billion in proposed refunds. The Joint Committee 
staff raised concerns in 88 cases (or approximately 15 percent of the 
cases). Errors identified by the Joint Committee staff produced a net 
reduction in refunds of $14.3 million in 1997; the average annual 
reduction in refunds for the last 7 years is $9.8 million. One IRS 
region reported to the Joint Committee refund review staff that savings 
in excess of $20 million had been achieved from corrections made before 
cases were submitted to the Joint Committee as a result of memoranda 
that had been written in earlier cases. A copy of the Joint Committee 
staff's 1996 Refund Review Operations Report (other than sections 
containing confidential taxpayer information) is included as Attachment 
E.
summary of anticipated workload of the joint committee on taxation for 
                           calendar year 1998
    During 1998, it is expected that the Congress will return to 
consideration of various alternatives to the present income tax laws 
(such as flat taxes and different types of consumption taxes) that have 
been or will be introduced. Some background work on such tax 
restructuring proposals has been done in recent years, but we expect 
that this work will be intensified in 1998, as new proposals are 
introduced and existing proposals are refined and modified. Because 
these proposals involve a complete restructuring or replacement of the 
current Federal tax system, the economic and legal analysis of such 
proposals can be extraordinarily complex, requiring substantial staff 
time. We expect that Congressional consideration of these initiatives 
will place critical and unique demands on the staff of the Joint 
Committee to provide revenue estimates and legal and economic analyses.
    It is also expected that legislation to reform and restructure the 
IRS, which was passed by the House in 1997, will be considered by the 
Senate and enacted in 1998. This is a major piece of legislation, 
involving the complete restructuring of the way in which the IRS is 
managed by the Executive Branch and Congress, and contains, as well, an 
array of taxpayer rights and protections and the modification of 
present-law IRS procedures relating to collection and enforcement of 
taxes. Not only will the Joint Committee staff be responsible for the 
development of this legislation, but, if enacted with provisions 
similar to those in the House bill, the legislation will place new 
burdens on the Joint Committee staff. The Joint Committee has estimated 
that the version of the legislation passed by the House will initially 
require the resources of a minimum of 3.5 FTE's. Over the long term, we 
estimate that this legislation would require on an ongoing basis a 
minimum of 2.5 FTE's. The new burdens that would be placed on the Joint 
Committee staff include the requirement to prepare new studies and 
reports, oversee joint hearings of Congressional committees with 
jurisdiction over IRS matters, and prepare a tax complexity analysis 
with respect to every piece of tax legislation.
    As mentioned above, along with Senator Moynihan and Congressman 
Rangel, we have directed the staff of the Joint Committee to 
investigate whether the IRS's selection of tax-exempt organizations 
described in Internal Revenue Code sections 501(c)(3) and 501(c)(4) 
(and individuals associated with such organization) for audit has been 
politically motivated, including an analysis of the selection of such 
tax-exempt organizations for audit for reasons related to their alleged 
political or lobbying activities. This investigation was initially 
begun in 1997, and it was initially expected that the investigation, as 
well as the written findings, would be completed during 1997. However, 
work on the investigation had to be suspended during the summer of 1997 
because of the work of the Congress on the Taxpayer Relief Act of 1997. 
Work on the investigation is again continuing, and will be completed in 
1998. The investigation involves the review and inspection of several 
hundred boxes of IRS case files, as well as the interview of IRS 
personnel, taxpayers, and taxpayer representatives. While much of the 
work can be performed in Washington, D.C., travel to other parts of the 
country to interview witnesses and review files is also required. The 
investigation and preparation of the written report involves the work 
of approximately 5.0 FTE's.
    The Joint Committee devotes substantial resources to the 
preparation of revenue estimates, distribution analyses, and other 
economic analyses relating to proposed revenue legislation. During 
1997, Members of Congress were increasingly interested in the revenue 
estimation process, particularly the possibility of incorporating 
macroeconomic effects in revenue estimates, and we expect that this 
interest will continue in 1998. Determining whether this can be done 
and, if so, how to do it, will require substantial resources. Currently 
accepted estimation processes do not account for macroeconomic effects, 
and there is no consensus in the economic community about how, and 
whether to, account for such effects. The Joint Committee staff has 
already taken steps to improve the estimating process and determine the 
feasibility of incorporating macroeconomic effects. These steps include 
providing more disclosure regarding the estimation process to Members 
of Congress, determining whether proposals are likely to have 
significant macroeconomic effects, consultation with the Joint 
Committee on Taxation revenue estimating advisory board as to the 
feasibility of incorporating macroeconomic effects in revenue 
estimates, and contracting with macroeconomic forecasting firms for the 
purpose of developing estimating models that might be used to estimate 
the macroeconomic effects of certain proposed major changes in the 
Federal tax laws. The Joint Committee staff held a conference of 
economic advisors in 1997 to review the results of the macroeconomic 
forecasting firms. It is anticipated that this review will help 
determine the feasibility of using such forecasting models and aid in 
the development of models that may be used by the Joint Committee 
staff. The ability of the Joint Committee staff to continue these 
efforts in 1998 will be impaired if funding at the requested level is 
not provided.
    The Line Item Veto Act of 1996 imposed a new statutory 
responsibility on the Joint Committee staff to identify limited tax 
benefits contained in any Conference Report considered by the House or 
Senate and to prepare a statement for inclusion in every Statement of 
Managers to identify any limited tax benefit. The Joint Committee was 
required to exercise this statutory responsibility for the first time 
in 1997. While the amount of time the Joint Committee is required to 
devote to complying with the requirements of the Line Item Veto Act 
will vary depending on the nature of tax legislation considered and 
adopted by the Congress, the experience of the Joint Committee staff in 
1997 demonstrates that the Act imposes substantial burdens on the Joint 
Committee. Identifying the list of limited tax benefits for inclusion 
in the Statement of Managers involves complicated analyses by almost 
every member of both the legal and economics staff of a nature not 
generally otherwise required in the consideration of revenue 
legislation. In addition to preparation of the this statement, Members 
of Congress have begun to request determinations of whether proposals 
under consideration would be identified as limited tax benefits. 
Providing this information to Members involves the same analysis 
required in preparation of the formal list of limited tax benefits. 
Finally, in the event items identified as limited tax benefits are 
vetoed by the President, the Joint Committee staff is involved in the 
reconsideration and modification of the vetoed provisions.
    After the publication of the President's fiscal year 1999 budget, 
the Joint Committee will be required to provide its own analysis and 
revenue estimates of the revenue provisions of the budget.
    During 1998, the requirements imposed under the Unfunded Mandates 
Reform Act of 1995 will give rise to a continuing responsibility of the 
Joint Committee staff to provide an estimate to the Congressional 
Budget Office of the direct costs of complying with mandates on the 
private sector or on State and local governments that are contained in 
revenue legislation considered by the Congress.
    Under the regulatory reform bill recently enacted, a process of 
Congressional disapproval applies to certain executive branch 
regulations, rulings, and other pronouncements. The House Ways and 
Means Committee and the Senate Finance Committee have asked the Joint 
Committee staff to review all tax regulations and similar guidance 
submitted to the Congress under the regulatory reform legislation and 
to report to the Committees on any issues that might be appropriate for 
Congressional disapproval.
    To fulfill the goals of the House and the Senate to make 
Congressional information more accessible, the Joint Committee recently 
set up its own internet web site. This enables individuals not only to 
obtain information about the Joint Committee and certain Joint 
Committee publications and activities, it also provides links to the 
sites of Members of the Committee. It is expected that work perfecting 
this web site will continue in 1998, and that regular updates will be 
provided in order to make current information available. Although this 
is not a significant component of the Joint Committee staff work, 
maintaining this web site in order to provide current information about 
the work of the Joint Committee for the benefit of Members of Congress, 
their staffs, and the general public will require some additional staff 
time.
    As always, the Joint Committee staff will continue to have an 
integral role in tax aspects of Federal budget deliberations and in any 
tax legislation considered by the Congress. It is anticipated that the 
Joint Committee staff will assist in the development and analysis of 
legislative proposals, and prepare markup documents, Committee reports 
and conference reports (Statements of Managers) with respect to any tax 
legislation.
                               conclusion
    Mr. Chairman, we will continue to rely on the staff of the Joint 
Committee to provide us with their technical support. This superb staff 
has a demonstrated track record of service to the Congress. The 
appropriation request for fiscal year 1999 is intended merely to 
provide the necessary resources for the Joint Committee staff to 
respond promptly and adequately to the requests for assistance that it 
receives from the Members of Congress and to maintain its current level 
of services.
    We respectfully urge the Members of your Subcommittee to respond 
favorably to the Joint Committee's request for funding for fiscal year 
1999.
                                 ______
                                 
 Attachment A.--1997 Tax-Related Legislative Reports Worked on by the 
                Staff of the Joint Committee on Taxation
            tax committee and conference report explanations
    H.R. 668 (Airport and Airway Trust Fund Reinstatement Act of 1997). 
H. Rept. 105-5 (House Ways and Means Committee report on bill to 
provide temporary extension of Airport and Airway Trust Fund excise 
taxes).
    H.R. 1226 (Taxpayer Browsing Protection Act of 1997). H. Rept. 105-
51 (House Ways and Means Committee report on bill to prevent 
unauthorized inspection of tax returns or tax return information).
    H.R. 2014 (Taxpayer Relief Act of 1997). H. Rept. 105-148 (House 
Budget Committee report on revenue reconciliation provisions as 
approved by the House Ways and Means Committee).
    H.R. 2014 (Taxpayer Relief Act of 1997). H. Rept. 105-220 
(Conference report on the Taxpayer Relief Act).
    H.R. 2015 (Balanced Budget Act of 1997). H. Rept. 105-149 (House 
Budget Committee report on revenue provisions of budget reconciliation 
provisions as approved by the House Committee on Ways and Means).
    H.R. 2015 (Balanced Budget Act of 1997). H. Rept. 105-217 (Revenue 
provisions of conference report on the Balanced Budget Act).
    H.R. 2513 (Restore and modify revenue provisions canceled under the 
Line Item Veto Act). H. Rept. 105-318, Part I (House Ways and Means 
Committee report on restoring two revenue provisions canceled under the 
Line Item Veto Act).
    H.R. 2621 (Reciprocal Trade Agreement Authorities Act of`1997). H. 
Rept. 105-341, Part I (House Ways and Means Committee report on revenue 
offset provision in trade ``fast track'' bill).
    H.R. 2644 (United States-Caribbean Trade Partnership Act). H. Rept. 
105-365 (House Ways and Means Committee report on revenue offset 
provision of Caribbean trade bill).
    H.R. 2645 (Tax Technical Corrections Act of 1997). H. Rept. 105-356 
(House Ways and Means Committee report on tax technical corrections).
    H.R. 2646 (Savings Act for Public and Private Schools Education). 
H. Rept. 105-332 (House Ways and Means Committee report on bill to 
allow tax-free expenditures from education accounts for elementary and 
secondary school expenses).
    H.R. 2676 (Internal Revenue Service Restructuring and Reform Act of 
1997). H. Rept. 105-364, Part I (House Ways and Means Committee report 
on bill to restructure the IRS and reform IRS procedures).
    S. 949 (Revenue Reconciliation Act of 1997). S. Rept. 105-33 
(Senate Finance Committee report on revenue reconciliation provisions).
    S. 1173 (Intermodal Surface Transportation Revenue Act of 1997). 
Explanation for the Congressional Record of Senate Finance Committee 
amendment to S. 1173, providing a revenue title to extend the Highway 
Trust Fund and Trust Fund taxes.
                      tax treaty executive reports
    Taxation Agreement With Turkey. Exec. Rept. 105-6 (Executive report 
for the Senate Foreign Relations Committee).
    Taxation Convention With Austria. Exec. Rept. 105-7 (Executive 
report for the Senate Foreign Relations Committee).
    Taxation Convention With Luxembourg. Exec. Rept. 105-8 (Executive 
report for the Senate Foreign Relations Committee).
    Taxation Convention With Thailand. Exec. Rept. 105-9 (Executive 
report for the Senate Foreign Relations Committee).
    Tax Convention With Switzerland. Exec. Rept. 105-10 (Executive 
report for the Senate Foreign Relations Committee).
    Tax Convention With South Africa. Exec. Rept. 105-11 (Executive 
report for the Senate Foreign Relations Committee).
    Tax Protocol With Canada. Exec. Rept. 105-12 (Executive report for 
the Senate Foreign Relations Committee).
    Tax Convention With Ireland. Exec. Rept. 105-13 (Executive report 
for the Senate Foreign Relations Committee).
                                 ______
                                 
               Attachment B.--Joint Committee on Taxation
                            jcs-97 documents
    JCS-1-97--Analysis Of Provisions Contained In The Line Item Veto 
Act (Public Law 104-130) Relating To Limited Tax Benefits. January 3, 
1997
    JCS-2-97--Description And Analysis Of Tax Proposals Relating To 
Individual Saving And IRA's. Scheduled for a Hearing Before the Senate 
Committee on Finance on March 6, 1997. March 3, 1997
    JCS-3-97--Analysis Of Proposed Tax Incentives For Higher Education. 
Scheduled for a Hearing Before the House Committee on Ways and Means on 
March 5, 1997. March 4, 1997
    JCS-4-97--Tax Treatment Of Capital Gains And Losses. Scheduled for 
a Public Hearing by the Senate Committee on Finance on March 13, 1997. 
March 12, 1997
    JCS-5-97--Description And Analysis Of Tax Proposals Relating To 
Savings And Investment (Capital Gains, IRA's, And Estate And Gift Tax). 
Scheduled for a Public Hearing Before the House Committee on Ways and 
Means on March 19, 1997. March 18, 1997
    JCS-6-97--Review Of Selected Entity Classification And Partnership 
Tax Issues. April 8, 1997
    JCS-7-97--Description And Analysis Of Proposals Relating To Estate 
And Gift Taxation. Scheduled for a Public Hearing Before the Senate 
Committee on Finance on April 10, 1997. April 8, 1997
    JCS-8-97--Impact On Individuals And Families Of Replacing The 
Federal Income Tax. Scheduled for a Public Hearing Before the House 
Committee on Ways and Means on April 15, 1997. April 14, 1997
    JCS-9-97--Analysis Of Proposed Tax And Savings Incentives For 
Higher Education. Scheduled for a Public Hearing Before the Senate 
Committee on Finance on April 16, 1997. April 15, 1997
    JCS-10-97--Description And Analysis Of Certain Revenue-Raising 
Provisions Contained In The President's Fiscal Year 1998 Budget 
Proposal. April 16, 1997
    JCS-11-97--Comparison Of Revenue Provisions Of H.R. 2014 As Passed 
By The House And The Senate. Prepared for the Use of the House and 
Senate Conferees. July 10, 1997
    JCS-12-97--Explanation Of Proposed Income Tax Treaty Between The 
United States And The Republic Of Austria. Scheduled for a Hearing 
Before the Committee on Foreign Relations, United States Senate on 
October 7, 1997. October 6, 1997
    JCS-13-97--Explanation Of Proposed Income Tax Treaty And Proposed 
Protocol Between The United States And The Republic Of Turkey. 
Scheduled for a Hearing Before the Committee on Foreign Relations, 
United States Senate on October 7, 1997. October 6, 1997
    JCS-14-97--Explanation Of Proposed Income Tax Treaty Between The 
United States And The Grand Duchy Of Luxembourg. Scheduled for a 
Hearing Before the Committee on Foreign Relations, United States Senate 
on October 7, 1997. October 6, 1997
    JCS-15-97--Explanation Of Proposed Income Tax Treaty Between The 
United States And The Republic Of South Africa. Scheduled for a Hearing 
Before the Committee on Foreign Relations, United States Senate on 
October 7, 1997. October 6, 1997
    JCS-16-97--Explanation Of Proposed Income Tax Treaty And Proposed 
Protocol Between The United States And The Swiss Confederation. 
Scheduled for a Hearing Before the Committee on Foreign Relations, 
United States Senate on October 7, 1997. October 6, 1997
    JCS-17-97--Explanation Of Proposed Income Tax Treaty And Proposed 
Protocol Between The United States And Ireland. Scheduled for a Hearing 
Before the Committee on Foreign Relations, United States Senate on 
October 7, 1997. October 6, 1997
    JCS-18-97--Explanation Of Proposed Income Tax Treaty Between The 
United States And The Kingdom Of Thailand. Scheduled for a Hearing 
Before the Committee on Foreign Relations, United States Senate on 
October 7, 1997. October 6, 1997
    JCS-19-97--Explanation Of Proposed Protocol To The Income Tax 
Treaty Between The United States And Canada. Scheduled for a Hearing 
Before the Committee on Foreign Relations, United States Senate on 
October 7, 1997. October 6, 1997
    JCS-20-97--Federal Income Tax Issues Arising In Connection With 
Proposals To Restructure The Electric Power Industry. October 17, 1997
    JCS-21-97--Joint Committee On Taxation Tax Modeling Project And 
1997 Tax Symposium Papers. November 20, 1997
    JCS-22-97--Estimates Of Federal Tax Expenditures For Fiscal Years 
1998-2002. Prepared for the House Committee on Ways and Means and the 
Senate Committee on Finance. December 15, 1997
    JCS-23-97--General Explanation Of Tax Legislation Enacted In 1997. 
December 17, 1997
                            jcx-97 documents
    JCX-1-97--Description Of Title III (``Affordable College Act'') Of 
S. 1 (``Safe And Affordable Schools Act Of 1997''). January 21, 1997
    JCX-2-97--Description Of S. 2 (``American Family Tax Relief Act''). 
January 21, 1997
    JCX-3-97--Background Information On Federal Air Transportation 
Excise Taxes And The Airport And Airway Trust Fund. Scheduled for a 
Public Hearing Before the Senate Committee on Finance on February 4, 
1997. February 3, 1997
    JCX-4-97--Background Information On Federal Air Transportation 
Excise Taxes And The Airport And Airway Trust Fund. Scheduled for a 
Public Hearing Before the House Committee on Ways and Means on February 
5, 1997. February 4, 1997
    JCX-5-97--Reinstatement Of Air Transportation Excise Taxes And 
Transfer Of Excise Tax Revenues To The Airport And Airway Trust Fund. 
Scheduled for a Markup by the Senate Committee on Finance on February 
5, 1997. February 4, 1997
    JCX-6-97R--Description Of Revenue Provisions Contained In The 
President's Fiscal Year 1998 Budget Proposal. February 10, 1997
    JCX-7-97--Reinstatement Of Air Transportation Excise Taxes And 
Transfer Of Excise Tax Revenues To The Airport And Airway Trust Fund. 
Scheduled for a Markup by the House Committee on Ways and Means on 
February 12, 1997. February 10, 1997
    JCX-8-97--Estimated Budget Effects Of The Revenue Provisions 
Contained In The President's Fiscal Year 1998 Budget Proposal. February 
27, 1997
    JCX-9-97--Comparison Of Certain Proposed Tax Incentives For Higher 
Education. Scheduled for a Hearing Before the House Committee on Ways 
and Means on March 5, 1997. March 4, 1997
    JCX-10-97--Description And Analysis Of Certain Revenue-Raising 
Provisions Contained In The President's Fiscal Year 1998 Budget 
Proposal. Scheduled for a Public Hearing Before the House Committee on 
Ways and Means on March 12, 1997. March 11, 1997
    JCX-11-97--Unauthorized Inspection Of Tax Returns Or Tax Return 
Information. Scheduled for Markup Before the House Ways and Means 
Committee on April 9, 1997. April 7, 1997
    JCX-12-97--Description Of S. 436 (The ``Intercity Passenger Rail 
Trust Fund Act Of 1997'') And Of Present-Law Provisions Relating To 
Federal Excise Taxes Imposed On Transportation Motor Fuels. Scheduled 
for a Public Hearing Before the Senate Committee on Finance on April 
23, 1997. April 21, 1997
    JCX-13-97R--Present Law And Legislative Background Relating To The 
Low-Income Housing Tax Credit. Scheduled for a Public Hearing Before 
the Subcommittee on Oversight of the House Committee on Ways and Means 
on May 1, 1997. April 30, 1997
    JCX-14-97--Description Of The Administration's Proposals Relating 
To The Earned Income Credit. Scheduled for a Public Hearing Before the 
House Committee on Ways and Means on May 8, 1997. May 7, 1997
    JCX-15-97--Written Testimony Of The Staff Of The Joint Committee On 
Taxation Regarding President Clinton's Tax Proposals For The District 
Of Columbia for a Hearing of the Subcommittee on the District of 
Columbia of the House Committee on Government Reform and Oversight, 
105th Congress on May 22, 1997. May 22, 1997
    JCX-16-97--Oral Testimony Of The Staff Of The Joint Committee On 
Taxation Regarding President Clinton's Tax Proposals For The District 
Of Columbia for a Hearing of the Subcommittee on the District of 
Columbia of the House Committee on Government Reform and Oversight, 
105th Congress on May 22, 1997. May 22, 1997
    JCX-17-97--Description Of Health-Related Tax Proposals. Scheduled 
for Markup Before the Health Subcommittee of the House Committee on 
Ways and Means on June 4, 1997. June 3, 1997
    JCX-18-97--Estimated Revenue Effects Of Health-Related Tax 
Proposals. Scheduled for Markup Before the Health Subcommittee of the 
House Committee on Ways and Means on June 4, 1997. June 4, 1997
    JCX-19-97--Description And Analysis Of Proposals Relating To The 
Deduction For Health Insurance Expenses Of Self-Employed Individuals, 
Worker Classification, Taxation Of Home Office Expenses, And Electronic 
Filing. Scheduled for a Public Hearing Before the Subcommittee on 
Taxation and IRS Oversight of the Senate Committee on Finance on June 
5, 1997. June 4, 1997
    JCX-20-97--Description Of Chairman's Mark Relating To Revenue 
Reconciliation Provisions. Scheduled for Markup Before the House 
Committee on Ways and Means on June 11, 1997. June 9, 1997
    JCX-21-97--Description Of Chairman's Mark Relating To Tax 
Simplification Provisions. Scheduled for Markup Before the House 
Committee on Ways and Means on June 11, 1997. June 9, 1997
    JCX-22-97--Description Of Chairman's Mark Relating To Technical 
Correction Provisions. Scheduled for Markup Before the House Committee 
on Ways and Means on June 11, 1997. June 9, 1997
    JCX-23-97--Estimated Budget Effects Of Chairman's Mark Relating To 
Revenue Reconciliation Provisions. June 9, 1997
    JCX-24R-97--Description Of Human Resources-Related Tax Proposals. 
Scheduled for Markup Before the House Committee on Ways and Means on 
June 10, 1997. June 9, 1997
    JCX-25-97--Estimated Budget Effects Of Chairman's Mark Relating To 
Earned Income Credit Compliance Proposals. June 9, 1997
    JCX-26-97--Estimated Revenue Effects Of A Chairman's Mark In The 
Nature Of A Substitute Regarding The Budget Reconciliation Human 
Resources Subcommittee Items. Scheduled for Markup Before the House 
Committee on Ways and Means on June 10, 1997. June 10, 1997
    JCX-27-97--Description Of The Modifications Contained In An 
Amendment In The Nature Of A Substitute To The Chairman's Mark Relating 
To Revenue Provisions As Released To Members Of The Committee On Ways 
And Means On June 9, 1997. Scheduled for Markup Before the House 
Committee on Ways and Means on June 11, 1997. June 11, 1997
    JCX-28-97--Estimated Budget Effects Of An Amendment In The Nature 
Of A Substitute To The Chairman's Mark Relating To Revenue 
Reconciliation Provisions. June 11, 1997
    JCX-29-97--Description Of Senate Finance Committee Chairman's Mark 
Relating To Revenue Reconciliation Provisions. Scheduled for Markup 
Before the Senate Committee on Finance on June 19, 1997. June 17, 1997
    JCX-30-97--Description Of Senate Finance Committee Chairman's Mark 
Relating To Tax Simplification Provisions. Scheduled for Markup Before 
the Senate Committee on Finance on June 19, 1997. June 17, 1997
    JCX-31-97--Description Of Senate Finance Committee Chairman's Mark 
Relating To Technical Correction Provisions. Scheduled for Markup 
Before the Senate Committee on Finance on June 19, 1997. June 17, 1997
    JCX-32-97--Estimated Budget Effects Of Chairman's Mark Relating To 
Revenue Reconciliation Provisions. June 17, 1997
    JCX-33-97--Estimated Budget Effects Of Chairman's Mark Relating To 
Tax Simplification Provisions. June 17, 1997
    JCX-34-97--Distributional Effects Of The Revenue Reconciliation 
Provisions Contained In The Senate Finance Committee Chairman's Mark. 
Scheduled for Markup Before the Senate Finance Committee on June 19, 
1997. June 17, 1997
    JCX-35-97--Estimated Budget Effects Of The ``Taxpayer Relief Act Of 
1997''. Scheduled For Consideration By The House Of Representatives On 
June 26, 1997. June 25, 1997
    JCX-36-97--Estimated Budget Effects Of The Revenue Provisions In 
H.R. 2014 As Passed By The Senate On June 27, 1997. July 1, 1997
    JCX-37-97--Comparison Of The Estimated Budget Effects Of The 
Revenue Provisions Of H.R. 2014 As Passed By The House And The Senate. 
July 10, 1997
    JCX-38-97--Disclosure Report For Public Inspection Pursuant To 
Internal Revenue Code Section 6103(p)(3)(C) For Calendar Year 1997. 
July 14, 1997
    JCX-39-97--Estimated Budget Effects Of The Conference Agreement On 
The Revenue Provisions Of H.R. 2014, The ``Taxpayer Relief Act Of 
1997''. July 30, 1997
    JCX-40-97--Summary Of Revenue Provisions Of H.R. 2014 (``Taxpayer 
Relief Act Of 1997''). August 1, 1997
    JCX-41-97--Distributional Effects Of The Conference Agreement On 
The Revenue Reconciliation Provisions Of H.R. 2014, The ``Taxpayer 
Relief Act Of 1997''. September 4, 1997
    JCX-42-97--Description Of Revenue Provisions To Be Considered In 
Connection With A Markup Of Trade Matters. Scheduled for Markup by the 
Senate Committee on Finance on September 11, 1997. September 9, 1997
    JCX-43-97--Estimated Revenue Effects Of Trade-Related Tax 
Proposals. Scheduled for Markup by the Senate Finance Committee on 
September 11, 1997. September 9, 1997
    JCX-44-97--Description And Analysis Of Proposals Relating To The 
Recommendations Of The National Commission On Restructuring The 
Internal Revenue Service On Executive Branch Governance And 
Congressional Oversight. Scheduled for Public Hearings Before the House 
Committee on Ways and Means on September 16, and 17, 1997. September 
16, 1997
    JCX-45-97--Written Testimony Of The Staff Of The Joint Committee On 
Taxation With Respect To Certain Provisions Of H.R. 2292 (the 
``Internal Revenue Service Restructuring And Reform Act Of 1997'') 
Before a Hearing of the Committee on Ways and Means. September 17, 1997
    JCX-46-97--Written Testimony Of The Staff Of The Joint Committee On 
Taxation Regarding Federal Income Tax Aspects Of Proposals To 
Restructure Certain FHA-Insured Multifamily Mortgage Portfolios for a 
Hearing of the Subcommittee on Housing and Community Opportunity of the 
House Committee on Banking and Financial Services on September 17, 
1997. September 17, 1997
    JCX-47-97--Description Of Legislation To Restore And Modify 
Provisions In The Taxpayer Relief Act Of 1997 Canceled Pursuant To The 
Line Item Veto Act. September 19, 1997
    JCX-48-97--Chairman's Amendment In The Nature Of A Substitute 
Relating To Provisions In The Taxpayer Relief Act Of 1997 Canceled 
Pursuant To The Line Item Veto Act. September 23, 1997
    JCX-49-97--Background And Description Of Proposals Relating To 
Taxpayer Protection And Rights (Title III Of H.R. 2292). Scheduled for 
a Public Hearing Before the Subcommittee on Oversight of the House 
Committee on Ways and Means on September 26, 1997. September 25, 1997
    JCX-50-97--Extension of Highway Trust Fund Excise Taxes and Related 
Trust Fund Provisions. Scheduled for a Markup by the Senate Committee 
on Finance on October 1, 1997. September 29, 1997
    JCX-51-97--Estimated Revenue Effects Of An Extension Of Highway 
Trust Fund Excise Taxes And Related Trust Fund Provisions. Scheduled 
For Markup By The Senate Committee On Finance On October 1, 1997. 
September 29, 1997
    JCX-52-97--Revised Estimated Revenue Effects Of An Extension Of 
Highway Trust Fund Excise Taxes And Related Trust Fund Provisions. 
Scheduled For Markup By The Senate Committee On Finance On October 1, 
1997. October 1, 1997
    JCX-53-97--Testimony Of The Staff Of The Joint Committee On 
Taxation Before The Senate Committee On Foreign Relations Hearing On 
Tax Treaties And Protocols With Eight Countries. October 7, 1997
    JCX-54-97--Revenue Offset To Trade Bill. Scheduled for Markup by 
the House Committee on Ways and Means on October 8, 1997. October 8, 
1997
    JCX-55-97--Estimated Revenue Effects Of The Revenue Offset For H.R. 
2621. Scheduled for Markup by the Committee on Ways and Means on 
October 8, 1997. October 8, 1997
    JCX-56-97--Description Of Chairman's Mark Of The ``Tax Technical 
Corrections Act Of 1997''. Scheduled for Markup by the House Committee 
on Ways and Means on October 9, 1997. October 8, 1997
    JCX-57-97--Revenue Offset For U.S. Caribbean Basin Trade 
Partnership Act. Scheduled for Markup by the House Committee on Ways 
and Means on October 9, 1997. October 8, 1997
    JCX-58-97--Estimated Revenue Effects Of A Revenue Offset For The 
``United States-Caribbean Basin Trade Partnership Act''. October 8, 
1997
    JCX-59-97--Description Of Education Savings Act For Public And 
Private Schools And A Revenue Offset. Scheduled for Markup by the House 
Committee on Ways and Means on October 9, 1997. October 8, 1997
    JCX-60-97--Estimated Revenue Effects Of The ``Education Savings Act 
For Public And Private Schools''. Scheduled for Markup by the Committee 
on Ways and Means on October 9, 1997. October 8, 1997
    JCX-61-97--Chairman's Amendment In The Nature Of A Substitute To 
H.R. 2646 Relating To Definition Of Qualified Education Expenses. 
October 9, 1997
    JCX-62-97--Description Of The ``Internal Revenue Service 
Restructuring And Reform Act Of 1997''. Scheduled for Markup by the 
House Committee on Ways and Means on October 22, 1997. October 21, 1997
    JCX-63-97--Description Of Changes To JCX-62-97 Made By The 
Amendment In The Nature Of A Substitute To Be Offered By Chairman 
Archer. October 22, 1997
    JCX-64-97--Estimated Revenue Effects Of An Amendment In The Nature 
Of A Substitute To H.R. 2676, The ``Internal Revenue Service 
Restructuring And Reform Act Of 1997''. October 22, 1997
    JCX-65-97--Description Of The Tax Provisions Of The Empowerment 
Zone/Enterprise Community Program And H.R. 1031, The ``Renewing 
American Communities Act Of 1997''. Scheduled for a Hearing Before the 
Subcommittee on Oversight of the House Committee on Ways and Means on 
October 28, 1997. October 24, 1997
    JCX-66-97--Description Of Revenue Offset In Amendment To H.R. 2621, 
The ``Reciprocal Trade Agreement Authorities Act Of 1997'' As Reported 
By The Committee On Ways And Means. November 7, 1997
    JCX-67-97--Estimated Revenue Effects Of The Revenue Offset In An 
Amendment To H.R. 2621, The ``Reciprocal Trade Agreement Authorities 
Act Of 1997,'' As Reported By The Committee On Ways And Means. November 
7, 1997
    JCX-68-97--Description Of Amendment To H.R. 2513 As Reported By The 
Committee On Ways And Means. November 7, 1997
    JCX-69-97--Estimated Revenue Effects Of Amendments To H.R. 2513, As 
Reported By The Committee On Ways And Means, To Restore And Modify 
Provisions In The ``Taxpayer Relief Act Of 1997'' Canceled Pursuant To 
The Line Item Veto Act. November 7, 1997
                                 ______
                                 

Attachment C.--Joint Committee on Taxation revenue estimate requests

        Calendar year                                    No. of requests

1985..............................................................   348
1986..............................................................   474
1987..............................................................   420
1988..............................................................   900
1989.............................................................. 1,290
1990.............................................................. 1,286
1991.............................................................. 1,461
1992.............................................................. 2,350
1993.............................................................. 2,380
1994.............................................................. 1,259
1995.............................................................. 2,278
1996.............................................................. 1,792
1997.............................................................. 2,079
                                 ______
                                 

                             ATTACHMENT D.--CONGRESSIONAL REQUEST AND REPLY DATA \1\
----------------------------------------------------------------------------------------------------------------
                                                         104th Congress           105th Congress (as of Dec. 18,
                                               ---------------------------------              1997)
                  Requestors                                                    --------------------------------
                                                 Requests   Replies    Percent                          Percent
                                                                       replies    Requests   Replies    replies
----------------------------------------------------------------------------------------------------------------
Ways and Means Committee:
    Republicans...............................        627        394       62.8        367        190       64.3
    Democrats.................................        360        216       60.0        196        106       69.9
Senate Finance Committee:
    Republicans...............................      1,053        731       69.4        516        305       70.5
    Democrats.................................        421        268       63.7        291        156       73.2
Non-Ways and Means Committee:
    Republicans...............................        308        210       68.2        272        152       61.4
    Democrats.................................        226        141       62.4        153         57       54.9
Non-Senate Finance Committee:
    Republicans...............................        200        136       68.0        207        106       59.9
    Democrats.................................        209        128       61.2        133         72       61.7
Others........................................         31         25       80.6         24         15       62.5
                                               -----------------------------------------------------------------
      Total...................................      3,435      2,249       65.5      2,159      1,159       65.9
----------------------------------------------------------------------------------------------------------------
\1\ Totals include both revenue and non-revenue requests.

                                 ______
                                 
                       Attachment E.--Memorandum
                                                 December 18, 1997.
To: Chief of Staff, Joint Committee on Taxation
From: Senior Refund Counsel
Subject: Refund Section--Calendar Year 1998 Operations Report

    This is a report on the more significant developments in this 
Office during the past calendar year.
                                summary
    Volume.--Refund Cases--602 reports were received during the year. 
The total dollar amount of refunds was $6,101,259,628.

------------------------------------------------------------------------
         Reports received           1994      1995      1996      1997
------------------------------------------------------------------------
Examination Division............       482       425       375       457
Appeals Division................       147       132       101       124
Department of Justice...........        18        20        25        18
Chief Counsel...................         6         2         5         3
                                 ---------------------------------------
      Total.....................       653       579       506       602
                                 =======================================
Concerns \1\....................        69        79       104        88
------------------------------------------------------------------------
\1\ Includes 8 post review deficiency cases for 1994, 12 for 1995, 16
  for 1996 and 4 for 1997.

    Post Review.--The Service reports 64 large deficiency cases to us 
annually for post review. Four of these cases generated concerns this 
year.
    Other Action.--(1) We transmitted for consideration of legislative 
action 10 issues that arose in various cases.
    (2) We transmitted 2 memoranda suggesting corrections were needed 
in computer programs to ensure correct reporting of tax liability.
    Exhibits and Appendices provide detailed information on most of the 
foregoing.
    Errors identified by us in 1997 and prior years, and agreed to by 
the Service in 1997 produced a net reduction in refunds of $14.3 
million. The average annual reduction for the last 7 years is $9.8 
million. Such corrections also reduced ATNOLCF's, $355.9 million, 
AMFTC's $23 million, and regular tax FTC's $8.5 million. In addition, 
one region informed us of savings in excess of $20 million from 
corrections made before cases were submitted to us, that resulted from 
memoranda we had written in earlier cases.
    We hope that in spite of our decreased staffing we are 
satisfactorily accomplishing our assigned portion of the Committee's 
mission and meeting your expectations. We look forward to a productive, 
challenging year.
                                 ______
                                 

                         EXHIBIT I.--REPORTS TO JC AS REQUIRED BY IRS CODE SECTION 6405
                                              [Calendar year 1997]
----------------------------------------------------------------------------------------------------------------
                                               No. of               Cumulative
                   Month                       cases    Cumulative    monthly   Dollar receipts     Cumulative
                                              received     total      average                    dollar receipts
----------------------------------------------------------------------------------------------------------------
January....................................         48          48          48   $1,260,468,739   $1,260,468,739
February...................................         46          94          47      347,028,954    1,607,497,693
March......................................         40         134          44      518,379,068    2,125,876,761
April......................................         55         189          47      342,716,526    2,468,593,287
May........................................         59         248          49      701,795,817    3,170,389,104
June.......................................         54         302          50      520,878,723    3,691,267,827
July.......................................         81         383          54      824,954,395    4,516,222,222
August.....................................         54         437          54      547,160,557    5,063,382,779
September..................................         40         477          53      370,329,743    5,433,712,522
October....................................         56         533          53      210,074,744    5,643,787,266
November...................................         26         559          50      179,610,623    5,823,397,889
December...................................         43         602          50      277,861,739    6,101,259,628
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 

              EXHIBIT II.--JOINT COMMITTEE CASES RECEIVED IN BY TYPES OF TAXPAYER AND SOURCE--1997
----------------------------------------------------------------------------------------------------------------
                                            Amount    Percent                                  Amount    Percent
----------------------------------------------------------------------------------------------------------------
            TYPES OF TAXPAYERS                                        SOURCE OF REPORTS
Individuals..............................        26      4.32   Examination.................       457     75.91
Estates..................................         7      1.16   Appeals.....................       124     20.60
Trusts...................................         2       .33   Justice.....................        18      2.99
Corporations.............................       567     94.19   Tax Court...................         3       .50
                                          ---------------------                              -------------------
      Total..............................       602    100.00         Total.................       602    100.00
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 

           EXHIBIT III.--JOINT COMMITTEE MONTHLY RECEIPTS--REFUND REPORTS FROM EXAMINATION AND APPEALS
                                              [Calendar year 1997]
----------------------------------------------------------------------------------------------------------------
                              Month                               Examination  Cumulative   Appeals   Cumulative
----------------------------------------------------------------------------------------------------------------
January.........................................................          31           31         13          13
February........................................................          39           70          6          19
March...........................................................          33          103          6          25
April...........................................................          44          147         10          35
May.............................................................          36          183         17          52
June............................................................          44          227          9          61
July............................................................          60          287         19          80
August..........................................................          38          287         14          94
September.......................................................          31          356          8         102
October.........................................................          45          401          9         111
November........................................................          20          421          6         117
December........................................................          36          457          7         124
----------------------------------------------------------------------------------------------------------------


              EXHIBIT IV.--1997 JOINT COMMITTEE ON TAXATION CONCERNS \1\ ON REFUND REPORTS FROM IRS
----------------------------------------------------------------------------------------------------------------
                                                                                                   Total No. of
                                                                   Examinations       Appeals        concerns
                                                                                                      issued
----------------------------------------------------------------------------------------------------------------
Number of concerns issued.......................................              54              29              83
Percent of total concerns issued................................              65              35             100
Total reports received..........................................             457             124             581
----------------------------------------------------------------------------------------------------------------
\1\ Number of Concerns does not include 4 on deficiency cases and 1 on a Justice case.

    Senator Bennett. Thank you, Mr. Chairman. We are 
appreciative of your efforts to be fiscally responsible and 
hold down your expenses, and this committee is particularly 
appreciative of your focusing on our request of last year 
dealing with requests for estimates from those who are not 
members of either the Ways and Means Committee or the Finance 
Committee.
    We had something of a wrangle in the subcommittee with your 
predecessor over this issue, and I at least know of Lindy 
Paull's background and great talent. I think you have made a 
very wise choice----
    Senator Roth. Thank you. I think so, too.
    Senator Bennett [continuing]. In putting Ms. Paull in this 
assignment.
    I will note the percentage, at least, of response to 
requests for estimates has gone up from the 104th Congress to 
the 105th Congress on the part of members of the tax-writing 
committees. It has unfortunately gone down with respect to 
other members, and that was the source of the concern we had 
last year.
    You undoubtedly read the language that we put in the 
conference report. The conferees expect the Joint Committee to 
be both responsive and timely in its responses to Members of 
Congress who do not serve on the revenue committees. It is the 
intent of the conferees to carefully monitor the responsiveness 
of the Joint Committee to determine if statutory language will 
be required next year.
    The wrangle was, are we going to force the committee to 
accept additional FTE's with the understanding that they would 
be dedicated solely to responding to Members of Congress who 
are not members of the tax-writing committees?
    Your predecessor said, give us 1 year to prove ourselves, 
and interestingly they did not say, give us the additional 
people. They were willing to give up the additional people in 
order to avoid the restrictive language.
    As I say, statistically the responsiveness has gone down. I 
think the one area that is statistically the largest decline is 
the House non-Ways and Means Committee Democrats which went 
from 62 percent replies in the 104th Congress down to 55 
percent in the 105th, and others, although the number is very 
low, 80 percent reply in the 104th has gone down to 62 percent 
in the 105th.
    The Senate non-Finance Committee Republicans are the second 
group that has had the biggest decline, from 68 percent in the 
104th down to roughly 60 percent in the 105th.
    I am willing to accept your assurances of focus on this 
issue, again as an expression of my confidence in Ms. Paull and 
her background and history in working with Members of the 
Senate, but we will, true to the comment in the conference 
report, continue to monitor this very closely because it is a 
matter that we have heard from other Members of Congress about, 
and we would be derelict in our duties if we did not stay on 
top of it.
    Senator Dorgan, do you have any questions?
    Senator Dorgan. Mr. Chairman, I think the budget request is 
very reasonable and it reflects some real prudence here. I 
served on the House Ways and Means Committee for 10 years, so I 
know a fair amount about the service given Members, especially 
tax committee members, by the Joint Committee on Taxation, and 
I also know that there is a fair part of the year when they 
work literally day and night, and they do not have a huge 
staff, but they put in about as many hours as anybody on 
Capitol Hill during certain periods, and I have always deeply 
appreciated the sacrifice and the effort they make.
    I think the expression that we made last year as a 
subcommittee was very important, however. I discovered that 
there are several stages of responses. Chairmen of the House 
Ways and Means Committee and the Finance Committee always get 
immediate responses.
    Members of the tax-writing committees get pretty good 
responses, and other Members had a little more difficult time, 
and I think all we were trying to say was that Members not able 
to serve on the tax-writing committees also need that service, 
and I think what we did last year and your response to that has 
been helpful and thoughtful, and we very much appreciate it.
    Senator Roth. Mr. Chairman and Senator Dorgan, I appreciate 
what you are saying and fully agree as to the importance that 
everybody have access. I have some of the same experiences 
sometimes with CBO, so I know of what you speak.
    Senator Bennett. You want us to pass that on to CBO when 
they appear for their appropriation?
    Senator Roth. You might give them a nudge.
    But let me say that Senator Dorgan is 100 percent correct 
when he talks about the workload on these people. First of all, 
I think we are very fortunate in being able to maintain the 
quality personnel that we have and the fact that they work day 
and night at times I think is not understood or appreciated on 
the part of many, so I would just like the record to reflect 
that we are fortunate in having a group of economists, 
accountants, and lawyers that do great work, and we will 
certainly try to watch this and make sure that there is fair 
access to everybody.
    Obviously, when there is a markup and some of those 
situations, a priority is established, but if you have any 
problems during the year I would hope both of you gentlemen 
would call it to either Lindy or my attention.
    Senator Dorgan. Could I ask one additional question?
    Senator Bennett. Surely.
    Senator Dorgan. This is one of the areas in which 
institutional knowledge I think is critical. To the extent that 
you have people on your staff who are permanent and have been 
there a long while and understand not only what happened last 
year but 5 years ago and 20 years ago in some of these 
difficult tax issues is very important, and we are going to 
have testimony a little later this morning by the Congressional 
Research Service in which they are concerned about the 
retirements that will occur, and what it will take away from 
their agency in terms of institutional knowledge.
    Have you taken a look at your staff? Is your circumstance 
such that you have a pretty good feeling about the continuation 
of institutional knowledge, given the permanent staff you have?
    Ms. Paull. We have quite a few members of our staff who 
have been on the staff for at least a decade and then we have a 
mix of people. We have a few senior people who have been on 
even longer than that, so we do have really good institutional 
knowledge, a very high quality professional staff, and we will 
try to maintain that.
    Senator Dorgan. Thank you very much.
    Senator Roth. I asked Lindy to introduce some of our top 
people who we have here.
    Ms. Paull. We have some of our top people here. Mary 
Schmitt, who is in charge of all our legal staff, and Bernie 
Schmitt, who is in charge of our economic and revenue-
estimating function, and Michael Boren, who is our top 
administrator.
    Senator Bennett. Thank you very much. Very good. Thank you, 
Mr. Chairman. We appreciate your efforts and congratulate you 
again on your choice of a chief of staff.
    Senator Roth. I appreciate that. Thank you.
    Senator Bennett. Thank you very much.
                        U.S. SENATE--Continuing

       Office of the Sergeant at Arms and Doorkeeper--Continuing

    Senator Bennett. All right. We now will go back to the 
Sergeant at Arms. They are about to make a chart presentation 
and, as I said, Mr. Casey, you need not feel quite as rushed as 
you might of before, because Senator Roth has come and gone. We 
appreciate your courtesy in allowing us to accommodate the 
chairman.
    Mr. Casey. It is not everyone who gets to be sandwiched in 
between Senator Warner and Senator Roth. That is not bad 
company, actually.

    ----------------------------------------------------------------

               Sergeant at Arms Strategic Planning Goals
    Provide the Senate with technologies that are year-2000 compliant.
    Provide the Senate with a secure IT environment that protects 
sensitive information and ensures data integrity.
    Provide the Senate with:
  --outstanding IT service and support
  --responsive computing and communications technology
  --optimum use of emerging technologies, including internet
  --improved IT management processes.
    Establish a centralized procurement function which will assure 
performance that satisfies customers, protects Senate interests, and 
obtains best values.

    ----------------------------------------------------------------

    I was just discussing at the moment of the break that we 
had four strategic goals that were assigned to us by the 
ongoing Senate strategic plan. That is that chart there. We 
reported to the Rules Committee on those goals the first week 
in February. I would be glad to make available to you the 
substance of our report on the progress of meeting that 
strategic plan, if the committee would like to have that----
    Senator Bennett. Thank you. We will put it in the committee 
files.
    Mr. Casey. You will note the first of those goals, Mr. 
Chairman, is year 2000.
    We can talk a lot about the organizational items in the 
Sergeant at Arms, but I think there are a couple of these items 
like year 2000 of particular interest to this committee, so let 
us get to that.
    We feel there is no more important task for us to be 
successful at than making sure that the Senate is year 2000 
compliant. Experts have suggested to us--and we have ongoing 
consultants working with us on year 2000. They suggest that 
what is complicated about this particular problem is not the 
technical fix to either the hardware or the software, but the 
complexity and the enormity of the task of managing year 2000 
compliance.

[GRAPHIC] [TIFF OMITTED] T08MA12.000


    In October 1996 we began using the GAO model, the five-
phase structured model on how to approach the year 2000 
problem.
    The five phases are awareness, assessment, renovation, 
validation, and, of course, the last one is implementation.
    Phase 1 is awareness. That is what everybody has been 
doing, what we continue to do. We have got an ongoing outreach 
program to Senate offices not only to be aware of what the 
overall systems are, year 2000, but what unique applications 
they may have on their own systems that are year 2000 that they 
are going to have to take a look at as well.
    We have an outreach page on Webster, so we are continuing 
to try to drive home the message to be aware of what is going.
    We have identified in the second phase, our core business 
applications, our systems. We have done an inventory of our 
computers and our vulnerabilities, and we have prioritized 
their conversion and their replacement.
    As a side note in response to a question asked by 
Congressman Saxton, the Joint Economic Committee has 77 
computers in the Senate side, 28 of which are already 
compliant, 24 of which are compliant-ready, and 5 which are 
not, so that is his status. That comes about by the assessment 
phase that we have completed.

[GRAPHIC] [TIFF OMITTED] T08MA12.001


    Phase 3 is renovation. Obviously, the renovation is the 
conversion, the replacement, the elimination of either the 
applications, the systems, or the hardware that causes the 
problem.
    Our renovation strategy for four of the mission-critical 
statements is as follows. On the office automation networks and 
desktop computers, we will basically make them compliant 
through routine life cycle replacements, or BIOS upgrades.
    In plain English, the vast majority of all of our desktop 
systems and computers will only require an upgrade on the 
software.
    I notice everybody looking at that chart. That which is 
green is good. It is done. That which is yellow is not quite as 
good, but pretty good. It means that they are compliant-ready 
and they will be ready to take the upgrade. That which is red 
is bad. As you can see in the PC's and gateways, 15 percent are 
already completed.
    In terms of numbers, Mr. Chairman, that is 1,370 of our 
PC's are compliant. You are right to say that in December we 
were at 63. We are now capable and turning PC's that are 
compliant-ready into compliant to about the tune of 500 a week.
    The yellow, that which is compliant-ready, is the universe 
we are working on now, and the red, of course, is that which is 
noncompliant, which means they have to be replaced or retired.
    And the MAC's you see up there, I know there are some MAC 
offices. Basically we have 15 MAC's.
    Mr. Ciccolella. Twelve that are not compliant. The others 
are compliant.
    Mr. Casey. It is 500 a month, is how we are turning the 
compliant-readies.
    Senator Bennett. Do you have enough months? I guess you do. 
Ten months gives you 5,000, so you end this year with 2,200.
    Mr. Casey. We basically have 15 months to go.
    Senator Bennett. OK.
    Mr. Casey. Laptops are the largest noncompliant area. 
Mainly that is because of the nature of the laptop. Laptops go 
places, go home, get in the car. They do not become the 
critical device that people use for computing. Basically the 
red is going to be replaced. Those are the 286's and 386's. We 
cannot make them compliant-ready. They will be replaced.
    The file servers, the same situation there exists. We will 
replace 14 of them. We have got 8 percent already compliant, 
and the others are getting ready to be compliant.
    In the core business applications, here we are talking 
about our financial management, legislative information, et 
cetera. Both Mitretek and GAO tell us that this is where our 
greatest problems lie.
    Our strategy here, however, is total replacement, and we 
are in the process of doing that. From a hardware perspective 
the necessary mainframe hardware upgrade has been accomplished 
and is being tested now, so it is the applications that we have 
to put on that hardware system.
    Data and telecommunications networks are being addressed in 
a previously approved and previously funded 5-year plan, and 
generally they are compliant. As you can see there, there is a 
very small sliver at both the data network and the voice 
network where we have problems in the States, and the State 
PBX's and modems will just simply have to be replaced.
    There are a couple of items up there. There is a large red 
box at the bottom. During the course of the assessment we 
basically isolated those things that are critical mission core 
functions. Those are the ones we are looking at now.
    Obviously, when the year 2000 comes there will be some 
things that will not make it through the window. We would like 
to address them. We would like to take care of all that, but in 
terms of the red at the bottom, those are those that are 
nonmission critical. If we finish the rest of our mission-
critical on-time, and the way we hope we can get it 
accomplished, we will be addressing those.
    The last one up on top, core business applications and 
mainframes, there was the issue of the Capitol Police. We found 
a patch, or a way to bring the Capitol Police's mainframe 
networks into compliance for the year 2000, so we found a way 
to fix that problem.
    Phase 4 is validation. We are not there yet. And phase 5 of 
this program is the full implementation, or the use of 
contingent plans where necessary.
    So currently we are in the process with Mitretek on board 
and GAO validating our methodologies to address the year 2000 
issue. There are the numbers.

                           prepared statement

    I have a secret weapon as well. We hired a chief of 
operations, Mr. Chick Ciccolella, who comes to us after a 
distinguished career in the Army. He is a world-class manager. 
He has taken over the operations division. He has a task force 
at the highest level in the operations division whose sole 
purpose it is to continue focusing on the year 2000 issue.
    I can answer questions at the end, if you want me to stop.
    [The statement follows:]
              Prepared Statement of Hon. Gregory S. Casey
    Mr. Chairman, it is an honor for me to appear before the committee 
today to discuss the operations and budget of the Sergeant at Arms and 
to restate our commitment to quality service to our Senate customers.
    First, a brief status report on our operations. In my testimony a 
year ago, I summarized twenty years worth of consultant reports 
recommending changes in the way the Senate Sergeant at Arms does 
business. I also outlined how we intended to reorganize the Sergeant at 
Arms organization to make it the customer focused, quality driven 
operation described in the Senate's emerging strategic plan.
    Today I am pleased to report this reorganization is complete. We 
believe today's Sergeant at Arms is structured to provide outstanding 
customer service to support the Senate's mission critical systems, to 
provide state of the art office automation, constituent response 
programs, and assurance these systems are secure from threat, available 
on demand, and are Year 2000 compliant.
    Our success in meeting both the Senate strategic plan and our own 
admittedly ambitious objectives is based on remaining focused on three 
management principles: understand customer needs and keep in touch with 
those expectations; use best management practices and rigorously 
evaluate every process; and develop and maintain a motivated and 
skilled workforce.
    We have created a new Customer Relations Department that will 
provide a single point of contact for all customer concerns about 
services, quality, and new product and support requirements. We have a 
Quality Assurance Council, comprised of representatives from member 
offices, committees, and other service and support offices within the 
Senate; their chief function is focused on continuous improvement.
    We have a reinvigorated Human Resource Office providing management 
training, establishing career ladders, pay for performance, recruitment 
and retention programs for our employees, and meeting the requirement 
of the Congressional Accountability Act.
    As we migrate some of our financial operations to the Secretary of 
the Senate, we are converting our financial operations office to a 
management review office to ensure our Quarterly Report will become 
increasingly more detailed and valuable--for you and for us.
    We have consolidated our Operations Division and eliminated 
duplication of services. To this division, we added two new 
departments: (1) the Office of Program Management, adds new discipline 
to project management, (2) the Office of the Systems Architect will 
ensure our information technology infrastructure remains visionary with 
an eye toward, not only our current, but future technology needs.
    And, in conjunction with the Secretary of the Senate, we are 
developing a Senate Joint Office of Education and Training. As we 
discussed here last year, we must invest much more in our human 
resources.
    In addition to doing that which we do to support our Senate 
customers, we've also been tasked with implementing our share of the 
emerging Senate Strategic Plan. The Sergeant at Arms has the 
responsibility for implementing these four (on chart) specific goals as 
well as providing all the technology for the Secretary's mission 
critical systems.
    Mr. Chairman, each of our strategic goals were discussed in great 
detail with the Strategic Planning Task Force in February. I would be 
pleased to make a copy of our report available to you.
    Operationally speaking, this is not the same Sergeant at Arms it 
was a year ago. But rather than talk generally, I know a couple of the 
tasks we are currently involved with that are of particular concern to 
you.
    There isn't a task more important for us to succeed at than meeting 
the challenges of making the Senate Year 2000 compliant. Experts 
suggest, what is so complicated about the Year 2000 problem is not the 
technical fix to a particular computer or piece of software--but the 
complexity of managing the enormous scale of the project.
    In October of 1996 we began implementation of a structured and 
disciplined Year 2000 program which comports to best practices as 
identified by the General Accounting Office.
    The program is a five phase approach (chart).
    Phase one is Awareness.--On this, we have been working with Senate 
offices over the past year to make them aware of Year 2000 issues 
including those which may be unique to their offices.
    Phase two is Assessment.--We have identified core business 
applications and systems, completed a hard inventory and prioritized 
their conversion or replacement. These are the systems and tools that 
support the critical operations of the Senate.
    Phase three is Renovation.--Converting, replacing or eliminating 
applications and systems and modifying their interfaces. Our renovation 
strategy for the mission critical systems are as follows:
  --Office automation networks and desktop computers will be compliant 
        through routine life-cycle replacements and ``bios'' upgrades. 
        In plain English, the vast majority of our desktop computers 
        will only require a software upgrade to the operating system to 
        become compliant.
  --Core business applications, like the Senate's financial management 
        and legislative information systems, have been identified by 
        our Y2K consultant, Mitretek, and the GAO, as our most 
        problematic Y2K issue. The Senate's strategy here is total 
        replacement of these applications and hardware. On the hardware 
        side, the SAA Operations Division, is already testing a newly 
        installed mainframe and related operating system.
      However, the software for the financial management and 
        legislative information systems is complicated. The Sergeant at 
        Arms is working with the project sponsor and the project team 
        to develop contingency plans to mitigate the risk.
  --Data and telecommunications networks are being addressed in our 
        previously approved 5 year network upgrade program. They are 
        generally compliant or are being upgraded with assistance from 
        our network vendors.
    Phase four is Validation.--Test, verify and validate applications 
and systems.
    Phase five is Implementation.--Follow our plan or, if need be, 
implement contingency plans if necessary.
    We are currently validating our methodologies and project status 
with our Y2K consultant, Mitretek, and the GAO. Additionally, we have 
completed the ``hard'' inventory developed in the assessment phase. The 
ongoing effort at renovation allows me to advise you today, of the 
8,258 desk and laptop computers currently in the inventory, 615 are 
already compliant, 6,184 are compliant ready.
    Second to Y2K in importance to the Senate Community, is Information 
System Security or INFOSEC. Consultants and GAO have been recommending 
an INFOSEC initiative for years.
    Last year my office obtained the services of an exceptional 
professional from the National Security Agency, who has spent several 
months assisting us in developing policy, structure, guidelines and 
recommendations. The Rules Committee recently authorized the 
implementation of an Information Systems Security plan based on that 
work and we are now in the process of selecting an INFOSEC Director.
    I also want to touch briefly on the issue of the Internet. We've 
been using one of the nation's foremost Internet consultants in helping 
us understand where technology will take us in the next millennium. One 
of their comments bring a shocking perspective to our task in this 
area. ``The Internet will swallow up telephone and TV * * *.''
    Last year, we facilitated 15 million outside email contacts with 
Senate offices. This year, we expect that number to double as the 
volume of Internet users in the United States doubles.
    How we accommodate this increase, and harness this communication 
tool, will be critical to the success of every Senate customer from now 
on.
    Last week we put the finishing touches on an ambitious tactile plan 
for putting the Senate at the front end of this technological marvel 
before the beginning of the next Congress. We think this $2 million 
initial effort can be funded through the existing Sergeant at Arms 
budget.
    Now, speaking of the budget, this is where the rubber meets the 
road. Are you getting what you pay for?
    First, in terms of efficiency, our original fiscal year 1999 budget 
request developed last fall, was the same as this year's budget--$97.9 
million, that number was a real $2 million less than the previous year.
    Since then, we have settled our reorganization and began to more 
fully reengineer what we do. That has lead to a revised budget request 
for $94.9 million--a full $3 million less than our original request. 
This savings results from a combination of operational efficiencies and 
the re-evaluation of projects. The reduced fiscal year 1999 budget 
request of $94.9 million consists of $34.4 million in salaries and 
$60.5 million in expenses. Salaries increased by $1.4 million or 4 
percent from last year, with a corresponding decrease in expenses. The 
expense request is for $60.5 million, $4.4 million or nearly 7 percent 
below fiscal year 1998. Expense savings are achieved by better managing 
ongoing activities and a careful evaluation of new technology projects. 
We have deferred several initiatives in favor of more cost effective 
solutions and have deferred others for which there is insufficient 
customer demand.
    Second, we will operate with the same 780 FTE's we had this year--
47 FTE's less than 1997, while still implementing a new Education and 
Training Office, an all new project management office, a new INFOSEC 
office, a new systems architect, a fully staffed customer service 
division, and a new office dedicated to inter and intranet development.
    Third, we continue to make progress on our new strategic projects, 
including year 2000 compliance, improved information security, and 
upgrades to our infrastructure which allows us to take full advantage 
of current and emerging technologies.
    To understand how we link our strategic initiatives to the budget, 
you first need to understand the budget.
  --35 percent supports state offices ($22 million);
  --16 percent D.C. office equipment and communications;
  --13 percent supports CSF ($8 million); and
  --9 percent produces the ID's, issues the parking permits, produces 
        graphics, televises the Senate, and pays the Doorkeepers.
    In other words, 86 percent of the fiscal year 1999 budget request 
is consumed in day-to-day operations.
    Key to linking dollars to the strategic plan is implementing 
strategic updates as a recurring business strategy. Included in the 
above is exactly that. Replacement of non-Y2K compliant desktop 
computers with those that are Y2K, etc.
    Mr. Chairman, let me just say how proud I am of the managers and 
employees of the Sergeant at Arms. We embarked on an ambitious 
organizational remake less than a year ago. We set out to change the 
structure and culture.
    That asked a lot of our people and they have performed wonderfully. 
Few will ever know or appreciate how difficult this task has been--but 
I do--and I thank them all.

    Senator Bennett. I congratulate you on the thoroughness and 
specificity of your assessment. We are, as Chairman Greenspan 
told us in the Banking Committee--I know that is a name that 
will get Senator Dorgan awake simply by invoking it.
    We are engaged in a truly unique situation in history. We 
have no prior experience with this, and I think Murphy is 
probably predominant in all of these operations, so the more 
time you can give yourself for testing at the back end of this 
process the better off you are going to be.
    You may be in compliance with the GAO windows. The message 
is that we have no idea that those windows are really the right 
windows. We have never done anything like this before, and you 
do everything you can to see that the testing phase of the 
implementation and validation, to use their terms, is as long 
as possible, because the concern that I have Government-wide as 
I look at this is that everyone is saying, we can be ready by 
this date to start, and you look at the amount of testing time 
they have, and it is very narrow. Particularly, DOD has a very 
narrow testing phase.
    So, with that concern, Senator Dorgan, do you have any 
questions on this before we go to the next?
    Senator Dorgan. It was a good presentation.
    Thank you, Senator.
    Mr. Casey. Thank you, sir.
    Second, too, the importance of year 2000 is another issue 
that we need to take care of, which is systems information 
security, or INFOSEC. This is something the GAO has been 
telling us we have needed to do for a long time.
    Last year, with the work of the Rules Committee, we brought 
in a professional from the National Security Agency, Pam Kelly. 
She spent several months preparing recommendations on how we 
can put together an INFOSEC office for the U.S. Senate. The 
Rules Committee recently authorized the implementation of that 
plan. We are now in the process of selecting and hiring an 
INFOSEC director.
    I would like to touch briefly on the issue of the Internet, 
and I know we do not have a lot of time. Suffice it to say we 
have got a world-class consultant also dealing with us on 
intranet and Internet. One of the comments that they made to us 
sort of puts this into a stark perspective, as well: The 
Internet will soon swallow up television and telephones.
    So we are aware of that. And we have put the finishing 
touches on an ambitious tactical plan for putting the Senate on 
the sort of leading edge of the Internet technology before the 
beginning of the next Congress. There is a $2 million 
initiative that we are funding inside the budget of the 
Sergeant at Arms.
    Speaking of budget, first, in terms of our efficiency, Mr. 
Chairman. This year's budget was $97.9 million, which itself 
was a $2 million reduction over last year. Since we submitted 
our original request for the same as we had last year, we have 
settled our reorganization. And because of that, we have been 
able to fully reengineer some of our services. This has led to 
a revised budget request of $94.9 million, or $3 million less 
than we asked for last fall.
    The savings result from a combination of our operational 
efficiencies and the reevaluation of some of the projects. It 
consists of $94.9 million; $34.4 million of it is salaries--
that is an increase of 4 percent, or $1.4 million; and a 
decrease of $4.4 million, or 7 percent, in the area of 
expenses. And on the expense side, we have achieved that, 
again, by better managing some of our ongoing projects and by 
analyzing and deferring some of the initiatives or eliminating 
or reducing some of those initiatives where we simply found no 
customer or insufficient customer demand.
    We will operate at the same 780 FTE's in the coming year 
that we had last year. That is 47 FTE's less than we had the 
year before. We are going to be able to do that with the 780 
FTE's while at the same time bringing online the new Office of 
Education and Training, the new Project Management Office, the 
new INFOSEC Office, the new systems architect, a fully staffed 
customer service division, and a dedicated Internet and 
intranet department.
    Third, we will continue to make progress on our strategic 
initiatives, including year 2000, basically, by making sure 
that the dollars that we spend are strategically linked to the 
dollars that we spend on our ongoing activities. And in my 
prepared text I talk to you about how our budget basically 
breaks down. It basically works this way: 86 percent of all the 
money that we expend are in the day-to-day operations. That 
leaves a very small sliver of dollars to address strategic 
initiatives. So what we are doing is linking those dollars to 
our reoccurring business strategy.
    Year 2000 is a perfect case in point. As we move the old 
computers, the old systems, out, we bring in those that are 
part of the strategic initiative. And that is what we are using 
Mr. Chris Day, who was our financial officer, who is now our 
management officer, to make sure that we do--that we bring some 
of our discipline on our strategic planning to our everyday 
operational expenses.
    Also, we are pursuing the IT protocol, which we believe is 
a partnering effort with all of the Senate family, the Senate 
offices, who have initiatives that they would like to see in 
their individual offices. That helps us develop a picture of 
the architect for the future, and helps us expend dollars 
through the individual office CSF accounts, computer accounts, 
to also help us meet the strategic planning objectives.
    Mr. Chairman, that would conclude my prepared testimony. I 
stand ready to answer any questions you may have. But I would 
like to say that I have been blessed with a tremendous staff. 
We started a very, very aggressive reorganization in the last 
year. We set out to change the culture and the structure of a 
very large organization. We asked a lot of our people. And our 
people performed magnificently, and sometimes under very 
difficult circumstances. Those people are here. And if I could 
ask them to stand so that you could see who these people are.
    Senator Bennett. Very good.
    Mr. Casey. Thank you.
    They have done a very magnificent job, and I am very proud 
of what they have been able to accomplish in the last year.

    ----------------------------------------------------------------

                                SERGEANT AT ARMS FISCAL YEAR 1999 BUDGET REQUEST
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                   Fiscal year--              Original   Revised
                                                     ----------------------------------------  fiscal    fiscal
                     Description                                                                year      year
                                                        1995      1996      1997      1998      1999      1999
----------------------------------------------------------------------------------------------------------------
Salaries............................................     $32.7     $31.9     $34.0     $33.0     $34.4     $34.4
Expenses............................................      74.9      61.3      65.9      64.9      63.5      60.5
                                                     -----------------------------------------------------------
      Total Budget..................................     107.6      93.2      99.9      97.9      97.9      94.9
                                                     ===========================================================
Staffing (FTE's)....................................       888       824       827       780       780       780
----------------------------------------------------------------------------------------------------------------

    ----------------------------------------------------------------

    Senator Bennett. Thank you. I am impressed by the numbers 
on your chart. I notice that all of the numbers are down except 
the FTE's and the salaries. I would be interested to know, if 
by maintaining the FTE's at the same level and the salary 
number at the same level, how you are handling the mandatory 
COLA increases?
    Mr. Casey. It is built into the budget. The mandatory COLA 
is built into the budget.
    Senator Bennett. Well, how does that work, if you have the 
same number of people as you had last year?
    Mr. Casey. We are increasing the salary component. As we 
did last year, we increased it.
    Senator Bennett. Well, here, the salary component is flat. 
Oh, I see. I apologize. I am going from original to revised. I 
should go from 1998 to revised. OK. That helps me. Thank you. I 
apologize for missing that point.
    Senator Dorgan, do you have any questions?
    Senator Dorgan. Well, Mr. Chairman, I think Mr. Casey has 
done a good job as Sergeant at Arms. And I think this 
presentation is an effective presentation. You certainly 
continue to exhibit some restraint. I like the reforms that you 
have implemented.
    Let me also say that this office was extraordinarily 
helpful last spring when our State was hit with this disaster. 
They were quick to help us provide some mobile office space, 
and it was enormously helpful. And we appreciate that.
    But you not only gave an effective presentation on the year 
2000 issue, but I think that all of us take some heart in 
recommendations that hold the line on staffing and pretty much 
hold the line on salaries, with the exception of the COLA. We 
appreciate that kind of recommendation. And I think that you 
are making some much-needed improvements in the organization. 
And I do not have any tough, probing questions.
    To the extent that I go through and find some additional 
inquiries, I would like to be able to send them to you. But, 
generally speaking, I am pleased and impressed with the work 
that your office has done.
    Mr. Casey. Thank you.
    Senator Bennett. We had a question last year. It is a 
ticky-tacky kind of question.
    Mr. Casey. It will come out. It will go to the GPO next 
week. [Laughter.]
    It will be in the hands of everybody within 30 days. But 
all the current numbers are currently posted daily on Webster.
    Senator Bennett. OK. So that the record will be clear, I 
was indeed going to ask the question about the updated phone 
book. [Laughter.]

                        Beauty and barber shops

    Another area that has attracted some attention, I think far 
beyond that which it deserves, in terms of the amount of money, 
but for some reason has attracted publicity. Will you comment 
on the consolidation of the beauty and barber shops?
    Mr. Casey. I would be glad to, Mr. Chairman.
    At the direction of a number of individuals on the Rules 
Committee, we looked into trying to eliminate what had become a 
rather significant deficit. We had a couple of recommendations 
on how to proceed. One of them was to consolidate the 
operations, eliminating duplicative administrative staff, 
eliminating duplicative reception staff, combining the two 
shops basically into one shop, so that we could obtain some 
efficiencies in ordering product and scheduling customers, or 
going to an outsourcing.
    It was determined by the Rules Committee that the proper 
way to go was to try to get the operation on a break-even basis 
or close to a break-even basis without outsourcing those 
services. We proceeded to do that. And on January 1, we 
switched over to the new process.
    Now, although a couple of months does not a year make, we 
have seen the monthly deficit go from roughly $39,000 in the 
first month that we have figures, to about $9,000. So we have 
turned the corner on that, and I hope are still able to provide 
a high level of service.
    Senator Bennett. And you raised the prices, which I noted.
    Mr. Casey. We did a survey as to what our prices looked 
like compared to the private sector and found out that in not 
all segments, but in some segments we were low, and we raised 
the prices to a competitive basis.
    Senator Bennett. Well, I appreciate your attention to that. 
I know it can be a highly emotional issue for Members back 
home, who like to grandstand on their willingness to accept 
austerity. But many times they get carried away with campaign 
rhetoric and get away from reality. So I appreciate your 
willingness to focus on that and bring it to the competitive 
arena the way you have.
    Now, I am going to raise a really small issue, but, 
nonetheless, it could be symptomatic of the challenges of 
running a bureaucracy, even as lean as you are running this 
bureaucracy. And I certainly compliment you on the direction 
and efficiencies that you have established. But this is the 
price you pay for responding to a public body like the Senate.

                            Cellular phones

    The Appropriations Committee--I cannot resist, sitting 
under the portrait of our chairman--recently received quotes 
for a Startac cellular phone. And the Senate Telecommunications 
Office provided a quotation of $800 for a Startac phone, with 
lithium battery, vibrate ring, two lines, and a 3-year 
warranty. And members of the Appropriations Committee got on 
the telephone, called around. Bell Atlantic Mobile quoted over 
the phone a price of $600 for an identical phone.
    This is not the Pentagon, with a $700 toilet seat, but, 
nonetheless, this is the kind of thing that also gets into 
newspapers if it does not get addressed and dealt with. And I 
am giving you an opportunity to respond here.
    You are familiar with this disparity?
    Mr. Casey. We are.
    Senator Bennett. I thought you might be.
    Mr. Casey. We are. You said a 3-year guarantee if I am not 
mistaken, there is also a 3-year signup charge to use it. No? 
He has an answer.
    Senator Bennett. OK, fine.
    Mr. Ravenberg. Yes, Senator. Usually there is a signup 
charge for these, depending upon the pricing. Companies do 
offer special pricing as an incentive for you to sign up for 
it. If there is not a minimum amount of time that you have to 
sign up for, there is usually a minimum billing amount for each 
month.
    Other things that you do not get with the Bell Atlantic 
special, if you will, you do not get the ability to dial 5-
digit numbers on the Senate and Hill with that. You also do not 
get the ability to dial 0 and get the Capitol operator or any 
of the other services that the Senate plan offers.
    I can tell you that our people are constantly pressuring 
the vendors to get the prices down, so that there is a standard 
price. We do not offer specials, but the price you get through 
the Sergeant at Arms is the same price every single day.
    Senator Bennett. Well done.
    Mr. Ravenberg. Thank you, Senator.
    Mr. Casey. That was a guest appearance by Duane Ravenberg, 
Deputy Chief of Operations.

                         Procurement operation

    I would also comment. One of the goals that we are charged 
with, under the strategic plan, is to develop a state-of-the-
art, cutting-edge procurement operation. We have hired a 
procurement specialist, with about 20 years of practice in this 
area. We have found that we do have some outdated procurement 
policies and procedures--severely outdated. And we are in the 
process of rewriting those procurement processes such that when 
there is an opportunity for us to take advantage of lower costs 
or other alternatives, we will be able to move to that.
    Right now, we simply cannot do it as easily as we would 
like. We recognize that. And one of the things we find out from 
our customers is while they may be happy with a lot of the 
service they get, once they buy the Startac, it is the entry 
into getting that product that is providing us some problems. 
So we are aware of that and trying to fix that on a broader 
scale.

                     disposal of surplus Equipment

    Senator Bennett. Let us go to the other end of the 
equation, the disposal of items. What is the procedure for 
items to be surplused?
    Mr. Casey. That is a difficult situation. We have a number 
of computers that are beginning to back up now, and we have 
guidance, legislative guidance, to make sure that those go to 
educational institutions. It is vague as to how we are supposed 
to do that. And we are currently just storing them at the GSA 
pending a solution to that.
    Mr. Harris. And we are currently in negotiations with GSA. 
There is an executive branch program for computers to schools. 
We are working out, with GSA, a process by which the Senate, in 
the legislation which Mr. Casey referred to, that we are 
meeting the spirit and the letter of that law.
    One thing we did not want to do is replicate the 
administrative process, and bring on another responsibility, 
where we could leverage an asset within the executive branch.
    Mr. Casey. Simply speaking, we could give these to GSA, and 
they could go ahead and send them wherever they wanted to. What 
we would like to do is to have a little bit more specific 
control as to where these items go. There is a cost involved in 
moving them. And we would like to have a little more 
clarification of that. So that if there is some needy school in 
Utah, we would be able to excess them a little more 
specifically.
    Senator Bennett. I hesitate to burden you with personal 
experience, but I cannot resist. GSA is not the most efficient 
way of getting rid of surplus equipment. When I was in the 
Nixon administration, the Under Secretary in the Johnson 
administration of the Department of Transportation had a 
particular chair that he wanted. And he got GSA to buy it for 
him. It was a magnificent Herman-Miller piece of furniture. The 
then-Under Secretary, when I was serving, did not like the 
chair. He wanted something more traditional. And he disposed of 
it in the very efficient way of putting it in the hall.
    Well, he got the kind of chair and desk that he wanted. I 
saw it, lusted after it, and asked if I could have it as my 
chair. I was told, absolutely, we want to get it out of the 
hall. And I wheeled it into my office and sat it in the glory 
for the 2 years that I served in the Nixon administration.
    When I left, I was told no one else wanted this particular 
chair, because it was completely nonstandard of anything in 
Government, and I said, fine, let me buy it. No; it had to go 
to GSA. It had to be put in a warehouse. It had to be put up 
for bids. There had to be proposals all the way around it. And 
I was told that the chair will be worn out by the time you can 
get your hands on it, and the cost will be enormous.
    I think, if you can stay out of the clutches of GSA when it 
comes to disposing of furniture or other items, you are going 
to be a lot better off.
    Mr. Casey. Could you describe the chair, Mr. Chairman? 
[Laughter.]
    Senator Bennett. I have done my best, Herman-Miller, 
leather and chrome. It was really wonderful.
    One comment back on the disposal of the computers. Does 
this mean the schools are going to get computers that are not 
year 2000 compliant?
    Mr. Casey. If they are 386's and before; that is correct.
    Senator Bennett. So we are giving them something that will 
be good for about 12 months?
    Mr. Casey. Well, I would say that we have a lot of non-
386's. Of course, there will probably be 486's that are 
noncompliant, too.
    Senator Bennett. OK.
    Senator Dorgan, do you have any other questions?
    Senator Dorgan. No.
    Senator Bennett. Fine. Thank you very much.
    Mr. Casey. Thank you, Mr. Chairman, Senator Dorgan. I 
appreciate it.

                     Additional committee questions

    Senator Bennett. Once, again, Mr. Casey, we congratulate 
you on the job you and your staff are doing. And these are very 
good numbers, indeed.
    Mr. Casey. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                     Additional Committee Questions
    Question. When will the Senate be able to produce auditable 
financial statements?
    Answer. The first auditable financial statements will be for fiscal 
year 2000. During fiscal year 1999, the Disbursing Office will install 
the new Senate general ledger and procurement systems, convert to 
obligation- and accrual-basis accounting, and conform back office 
policies and procedures as the first phase of FMIS. The next phase will 
incorporate other modules of an integrated system necessary to produce 
financial statements, such as a fixed asset module which will enable 
determination of the cost basis and depreciation schedule of assets to 
be capitalized on the balance sheet of the Senate.
    Question. Please update the Committee on the status of the 
appointment of a new Comptroller General of the United States.
    Answer. The Comptroller General is appointed to a 15-year term by 
the President, with the advice and consent of the Senate. Because the 
General Accounting Office, which the Comptroller General heads, exists 
primarily to provide research, review, and analysis for Congress, the 
applicable statute, 31 U.S.C. 703, establishes a bicameral commission 
to recommend three or more individuals to the President for 
appointment. I am assisting the Majority Leader in his capacity as 
chairman of the commission. The commission has carefully reviewed the 
qualifications of a large field of candidates, and, on January 22, 
1998, recommended three individuals to the President. All three are 
highly-qualified and are supported by a majority of the commission. To 
date, the President has not acted on the commission's recommendation.
    Question. The Secretary's testimony indicates that some statutory 
changes may be required to modify the way in which expense categories 
for Senators are prepared in order to convert to an OMB object 
classification. Are there any other changes of this type which may be 
required in order to implement FMIS? When do you expect to submit 
recommendations?
    Answer. At this point, the system design and requirements and the 
project plan for FMIS are not ready. When a draft project plan is 
ready, we will prepare a list of statutes and practices of the Senate 
that could be reviewed in connection with the FMIS implementation, 
whether to meet current federal financial accounting standards or to 
facilitate use of commercial off-the-shelf (COTS) software. That list 
will be transmitted to your Committee and to the Committee on Rules and 
Administration. Close consultation with both Committees will lead to 
recommendations as to whether the Senate should consider changing 
existing statutes or practices, or should modify the project plan.
    Question. In your testimony you mention that succession planning 
will be important for your office to fulfill its constitutional 
responsibilities in the future. Do you have a plan? Does your fiscal 
year 1999 budget request include any funds for your succession 
planning? If so, how much? What will this cost in future years?
    Answer. The fiscal year 1999 budget request for the Office of the 
Secretary does not include any funds specifically for succession 
planning. We have, however, requested authorization for up to fifteen 
new positions, primarily in the Disbursing Office to implement FMIS, 
but partly to plan for succession in selected departments. To the 
extent possible, the costs of these new positions will be absorbed 
within the requested budget. The basic plan is to ensure that each 
department, and particularly the thirteen in which the department head 
is already eligible to retire, is staffed with one and preferably two 
individuals who have the institutional knowledge, skills, and abilities 
required to assume the responsibilities of the department head; in many 
cases, to acquire such knowledge, skills and abilities takes several 
years of on-the-job training and experience. To that end, we are 
promoting from within as much as possible, and we are selecting highly-
qualified new hires who are committed to the Senate as a career. We are 
also studying other employee development and progression alternatives 
with a view toward developing generalists in the legislative 
departments who could be capable of succeeding more than one department 
head. Succession planning will impact future years' budgets in that 
staffing requirements in some departments will be determined by both 
the immediate workload and the need to ensure that one or two 
individuals are trained to assume the department head position.
    Question. What is the status of S. 1508, the Visitor Center 
legislation? What is the House's position?
    Answer. The Capitol Visitor Center Authorization Act has been 
introduced as H.R. 20 by Representative John Mica, and as S. 1508 by 
Majority Leader Trent Lott, Democratic Leader Thomas Daschle, and 
Chairman John Warner of the Committee on Rules and Administration. S. 
1508 is now before the Rules Committee. H.R. 20 was the subject of a 
hearing before the House Transportation and Infrastructure Subcommittee 
on Public Buildings and Economic Development on May 22, 1997, at which 
witnesses from inside and outside Congress all agreed on the need for 
the visitor center.
    While both the House and Senate bills contemplate that the capital 
construction costs (including the initial furnishing and equipping) 
will be provided by the existing Capitol Preservation Fund, and by 
additional private fund-raising overseen by the appropriate House and 
Senate committees, questions continue to be raised concerning the 
Capitol Visitor Center's follow-on costs, including care, maintenance, 
staffing, and educational programs. In the successful effort to 
eliminate the federal budget deficit, Congress has set the example by 
holding the line on Legislative Branch appropriations. Accordingly, 
there may be some reluctance to proceed with the project if to do so 
would incur substantial operating expenses with long-term impact on the 
Legislative Branch budget. Both H.R. 20 and S. 1508 take this concern 
into account by providing that the Capitol Visitor Center will not 
become a new item in the Legislative Branch appropriations. Rather, a 
new account for visitor center revenues and expenses is to be 
established, separate from the existing House, Senate, and joint item 
accounts. The visitor center will produce substantial revenue from 
retail operations serving the public, specifically restaurants and a 
sales shop, and a preliminary assessment by the Architect of the 
Capitol indicates that those revenues, estimated conservatively, will 
more than offset operating expenses. Moreover, the visitor center is a 
vital part of the Capitol Police Board's long-term plans for the 
security of the Capitol Building and Grounds. If it is not constructed, 
post-2000 expenditures for security, which must be funded from 
Legislative Branch appropriations, will be significantly higher than 
amounts reflected in the fiscal year 1999 appropriations bills.
    To resolve these questions, last October, Chairman Walsh of the 
Legislative Branch subcommittee of the House Committee on 
Appropriations, recommended the hiring of an independent consultant to 
prepare a detailed evaluation of the full costs of the Capitol Visitor 
Center project, considering all relevant matters including the costs of 
operating the center as intended, the projected revenues from retail 
operations, and the costs and benefits of integrating the security 
plans. I am advised that the Senate Rules Committee, concurring with 
Chairman Walsh and in order to expedite the overall project, intends to 
contract for the study from the Senate contingent fund, possibly before 
the end of March 1998.
    Question. Congratulations on your progress with LIS. It is a system 
which will be very useful for the Senate far into the future. Given 
that it is relatively new and you are continually making significant 
improvements, what efforts are being taken to keep staff informed about 
developments with this new resource?
    Answer. Thank you for your complimentary remarks. LIS is one the 
very most important technological innovations in the history of the 
Senate. When the system is fully implemented and its capabilities are 
fully known on the part of Senate staff, LIS will be an extremely 
valuable tool to virtually every individual staff member who has 
legislative responsibilities. The Office of the Secretary is, 
therefore, building upon and expanding its efforts to fully inform the 
entire Senate community of the LIS features and capabilities. We are 
also making special efforts to publicize new developments in the 
system.
    One such effort is to conduct surveys, which serve the dual 
purposes of informing Senate staff of available features and assessing 
user needs. About half of all Senate offices participated in the most 
recent survey, with detailed responses coming from legislative 
directors, legislative assistants, legislative correspondents, research 
assistants, and others. The responses clearly confirm that the ability 
to retrieve information on-line is a significant requirement for Senate 
staff to carry out their duties, as two-thirds of respondents use the 
existing services multiple times each day and virtually all do so at 
least several times a week. The survey asked detailed questions about 
the types of legislative information that offices need on-line. Nearly 
all respondents say that they ``always need'' or ``often need'' 
summaries and analyses of legislation, votes taken, and legislative 
status and calendar information. Most indicate that they ``always'' or 
``often'' need full texts of legislation, full texts of reports, full 
texts of the Record, member statements in the Record, and news 
articles.
    The survey further found that the existing LIS, even with its 
limited capabilities at this stage of development, is used by 87 
percent of respondents--a far higher usage rate than for any commercial 
source. Asked for one preferred source of on-line legislative 
information, more respondents indicated LIS than the combined responses 
favoring the three commercial sources in use in the Senate (Lexis-
Nexis, CQ/Westlaw, Legi-Slate). The reasons given for preferring LIS 
included ``easy use,'' ``quick response time,'' ``has the information I 
require,'' and ``the search system does what I need.''
    In another effort to promote LIS, the Project Office has prepared 
an LIS brochure, describing the system services that are currently 
available. The brochures have been distributed to all Senator and 
Committee offices, the cloakrooms, and the Democratic and Republican 
Policy Committees, and are also available at convenient sites such as 
the Copy Center. The Project Office has also circulated ``Quick Cards'' 
that briefly and conveniently instruct how to access the Amendment 
Tracking System, Committee Scheduling Information, and Vote 
Information. An innovation still in progress is an electronic mailing 
list, to be used to inform staff of new developments and upgrades to 
LIS, and also inform staff of scheduled training classes.
    Training classes, a function of the Project Office and the Senate 
Computer Center, provide instruction geared to Senate staff at all 
levels. Attendees receive LIS training materials and reference manuals 
that they may retain as information sources for use by the entire staff 
in their offices.
    Because of the critical importance of LIS, the Office of the 
Secretary is adding two staff positions to focus on LIS communications, 
education and training.
    Finally, and in addition to all of the organized efforts, I will 
continue to brief Senators personally concerning the progress of LIS, 
and will be pleased to arrange LIS demonstrations for Senators.
    Question. $5 million of fiscal year 1997 funds were provided for 
LIS to remain available until September 30, 2000. How much of those 
funds have been obligated to date?
    Answer. $3,051,903. The total obligations for LIS to date are 
$4,104,000. In fiscal year 1997, however, $1,052,917 was obligated and 
expended for LIS from other appropriations to the Office of the 
Secretary, with the Committee's approval. The use of other available 
funds in fiscal year 1997 reflected an effort to minimize any 
possibility that we may have to request additional appropriations 
earmarked for LIS before the system is implemented.
    Question. $7 million of fiscal year 1992 funds were provided for 
FMIS to remain available until September 30, 2000. How much of those 
funds have been obligated to date?
    Answer. $204,574; however, new contract terms awaiting finalization 
will immediately obligate an additional $536,000.
    Question. Last year this Committee questioned whether the Office of 
Reporters of Debate and Captioning Services would be consolidated. Have 
you taken any action in that regard?
    Answer. Consolidation of the Official Reporters and the Captioners 
was considered by my predecessor, but no action was taken. It is my 
feeling that any possible consolidation of these two departments should 
be considered in conjunction with the new technologies that are 
appearing on the fairly short-term horizon. Technological change that 
allows for continuous speech recognition holds out the prospect of 
revolutionizing the way in which the Record is produced. For the 
present, it seems that the most appropriate course is to defer any 
permanent restructuring of the reporting function while we monitor 
progress in the technologies.
    Question. Has the SAA completed an inventory of all information 
systems supporting the Senate, including the 161 Senate offices?
    Answer. Yes, the SAA has a completed inventory of all information 
systems supporting the Senate. Attachment I contains the overall 
inventory as requested by GAO during their audit.
    Question. Does the Office have a documented project plan for year 
2000 compliance? If not, when will it be completed? If so, does this 
plan include schedules for renovating, validating, and implementing 
each mission critical system, including mainframe applications?
    Answer. Yes, the SAA has a documented project plan for year 2000 
compliance. We are providing a copy of it to the General Accounting 
Office and will submit it to the Committee. The plan does include 
schedules for renovating, validating, and implementing each mission 
critical system, including mainframe applications. As specified below, 
some areas of the plan are more detailed than others.
    Utilizing the GAO five-phase approach, the Senate's status on each 
of those phases is listed below.
Awareness
    This phase began in August, 1996, when the initial Year 2000 
compliance project was initiated. Letters were sent to each Senate 
office informing them of the Year 2000 project and requesting 
information on any non-standard products that might be in use in their 
office. Letters were sent to departmental directors requesting that 
each establish a Year 2000 program.
    Since that time, a new user outreach program has been initiated 
with the Customer Relations Department. This program will include 
monthly columns in The Inkwell, a briefing of key Senate user groups 
such as the Senate Systems Administrators Association, periodic updates 
to the user community, a Y2K page on the SAA's Intranet site, Webster, 
and more. This program will be ongoing throughout the Y2K project.
Assessment
    Preliminary and follow-up inventories of PC hardware and mainframe 
applications have been conducted. Risk assessments are now an ongoing 
function at the individual project level to ensure that contingency 
plans are developed and implemented if needed. The project office 
continues to update all inventories to reflect current status.
    The Senate's strategy is to replace the major or core business 
systems that reside on the mainframe. To this end, the Senate has 
established two major development projects--LIS and FMIS and is 
creating two additional, non-mission critical projects--HRIS and MIS. 
In addition, we have begun the upgrade of the Senate payroll system to 
a Year 2000 compliant version.
    As the Senate has standardized on Compaq equipment, the majority of 
our desktop and LAN-based systems are Year 2000-ready and can be made 
fully compliant by applying a simple software upgrade currently 
available free-of-charge from Compaq. We currently have 1,480 pieces of 
fully compliant hardware in the Senate and that number increases daily. 
Based on our current rate of installation, all OA equipment should be 
fully compliant by August 1999.
    Our contract with Mitretek Systems, to conduct an independent 
assessment of our inventories and Y2K strategies, will be expanded in 
scope to include assistance with development of Y2K testing and 
validation methodologies as well as compliancy definitions and a more 
formal framework in which to work. While they are still in a fact-
finding mode, Mitretek has completed a preliminary assessment and we 
anticipate a final report on their findings and recommendations in 
April.
Renovation
    In preparation for supporting Year 2000 compliant applications, we 
are upgrading our mainframe. The installation of mainframe components 
for the new OS/390 year 2000 compliant upgrade to the operating system 
was completed in November, 1997. Customization and integration testing 
of system components are currently ongoing. A fully operational system 
will be available by the original March deadline.
    Our core business systems applications (LIS and FMIS) are already 
undergoing renovation by doing a full-scale replacement of these 
mainframe legacy systems. The development phase of these replacement 
programs should be shortened by our use of COTS, or commercial off the 
shelf, software products. In addition to these major system 
replacements, our current payroll system is also undergoing renovation 
solely to make it Year 2000 compliant. The scheduled completion date is 
the fall of 1999.
Validation
    The Senate has not reached this stage for any of its core business 
software applications. However, the need for confirming test and 
validation plans is clear and will be addressed shortly under the 
auspices of the Year 2000 program. With regard to the OA equipment 
portion of Y2K compliancy, our Technical Review personnel have begun a 
project to validate and test the efficacy of the Compaq-provided BIOS 
upgrades which are necessary to make some of our older Compaq hardware 
compliant.
Implementation
    Implementation plans are currently the responsibility of each 
application project. Guidelines for acceptance testing, data conversion 
and exchange issues, and contingency planning will be provided to 
project managers and system users by the Y2K project office.
    Question. The budget states that the Operations Division will 
increase its staff by 3, primarily for year 2000 compliance. Please 
explain what functions those staff will perform.
    Answer. The additional staff will support the Y2K project and the 
establishment of an information security (INFOSEC) initiative. The 
staff will consist of a director and professional staff. They will be 
responsible for implementing the information security plan recommended 
by a specialist from the National Security Agency. They will provide 
turn-key solutions, technical and policy advice to Senate offices.
    Question. Last year the Sergeant at Arms indicated that he would 
look into eliminating areas of overlapping management between his 
office, the Secretary of the Senate, and the Architect of the Capitol. 
What has come of that inquiry?
    Answer. The Sergeant at Arms remains committed to the efficient 
delivery of services to the Senate community. As the Committee 
correctly suggests, redundant and overlapping responsibilities lead to 
poor service and unnecessary costs to the taxpayer.
  --Internally, the Sergeant at Arm's has completed a reorganization 
        and is in the process of reengineering its operations. We have 
        already identified and eliminated numerous redundancies between 
        the various Sergeant at Arms departments. This includes the 
        consolidation of technical, administrative and customer support 
        units which have led to reduced costs, increased productivity 
        and higher quality of service.
  --The Sergeant at Arms has also been an active participant in the 
        Rules and Administration Committee's effort to ``strategically 
        align'' the services and operations of the Senate's support 
        offices. This has included a review of functional 
        responsibilities of the Sergeant at Arms and the Secretary of 
        the Senate.
      As a result of this review, the Sergeant at Arms will transfer 
        several financial functions to the Secretary of the Senate in 
        his role as chief financial officer. Additionally, human 
        resource management functions will be consolidated under the 
        Secretary of the Senate. Information technology functions have 
        been consolidated under the Sergeant at Arms.
      The need for Senate wide education and training will be met by 
        establishing a single office of Education and Training. This 
        office will be jointly managed by the Sergeant at Arms and the 
        Secretary of the Senate.
  --Additionally, the Sergeant at Arms and the Architect of the Capitol 
        are developing plans to consolidate and or transfer duplicative 
        support functions like furniture and cabinet shop services.
      The Sergeant at Arms and the Architect have also agreed to 
        develop a single unified customer service and ``help desk'' 
        operation which will result in a single point of contact for 
        all service available to the Senate community.
    The Sergeant at Arms will submit each of the final plans to the 
Committee on Rules and Administration and the Subcommittee on 
Legislative Branch Appropriations prior to their implementation.
    Question. The Appropriations Committee has noticed that certain 
standard equipment supplied by the Sergeant at Arms is more expensive 
and more fully featured than some of the more basic, non-standard 
equipment that is available on the open market. For example, the 
Committee has found lower cost, non standard cell phones and fax 
machines that might be sufficient for occasional, low volume usage. 
Does the SAA plan to make available more basic, lower cost equipment?
    Answer. It is our policy to provide the highest quality and most 
reliable equipment that is available. We believe that is what is 
required by most Senate offices. We will over the next year review our 
standard products and services with the goal of increasing flexibility 
to satisfy the needs of Members and Committees.
    Question. What are the current procedures and policies surrounding 
when an office returns to inventory the following items: cellular 
phones, computers, office furniture? What is the procedure for items to 
be surplused?
    Answer. We follow the same procedures and policies for cellular 
phones, computers, and office furniture. When equipment is returned 
from a Senate office to the SAA inventory, each item is examined to 
determine if it is re-usable. A permanent record is created for every 
disposed item.
    If items are obsolete, damaged beyond repair, or in poor working 
condition, they are disposed of using one of the methods listed below. 
These procedures are also followed for items declared surplus and made 
available to Senate staff.
  --Sale through GSA.
  --Transfer through GSA to another government agency.
  --Salvage all usable parts with remainder to be ``Junked''.
  --Trade-in to Vendor.
  --Sale to a Senator or Senate employee.
  --Sale to a Firm or Individuals other than a Government Agency.
    If items are re-usable, they are cleaned, checked for proper 
working order and re-issued as needed.
    For your information, we have included the disposal policy as 
listed in the Senate Handbook:

                         TITLE 2--THE CONGRESS

       CHAPTER 4--OFFICERS AND EMPLOYEES OF SENATE AND HOUSE OF 
                            REPRESENTATIVES

Sec. 59c. Disposal of used or surplus furniture and equipment.

    Effective October 1, 1981, the Sergeant at Arms and Doorkeeper of 
the Senate is authorized to dispose of used or surplus furniture and 
equipment by trade-in or by sale directly or through the General 
Services Administration. Receipts from the sale of such furniture and 
equipment shall be deposited in the United States Treasury for credit 
to the appropriation for ``Miscellaneous Items'' under the heading 
``Contingent Expenses of the Senate''. (Oct. 1, 1981, Pub. L. 97-51, 
Sec. 118, 95 Stat. 964.)
    Question. Please provide a copy of the charts used at the hearing.
    Answer. The information follows:

                                                  ATTACHMENT I
----------------------------------------------------------------------------------------------------------------
                                                                                      Office
                                                                     Mainframe      automation     Communication
                                                                   applications   systems--PC's,  networks--data
                                                                   and operating   laptops, file     and voice
                                                                    environment       servers
----------------------------------------------------------------------------------------------------------------
Total number of agency systems..................................              34          10,612               2
Number of mission-critical systems..............................               6          10,612               2
Total number of mission-critical systems........................               6          10,612               2
Number already compliant........................................               1           1,480  ..............
Number being replaced...........................................               4           1,019               2
Number being repaired...........................................               2           8,113  ..............
Number being retired............................................  ..............  ..............  ..............
 
                            COMPLETED
 
Milestones for mission-critical systems:
    Assessment..................................................               6          10,612               2
        Percent.................................................             100             100             100
    Renovation..................................................               1           1,480  ..............
        Percent.................................................              16              14  ..............
    Validation..................................................  ..............           1,480  ..............
        Percent.................................................  ..............              14  ..............
    Implementation..............................................  ..............           1,480  ..............
        Percent.................................................  ..............              14  ..............
                                                                 ===============================================
                              COST
 
Fiscal year:
    1996........................................................              NA              NA              NA
    1997........................................................      $2,000,000      $7,600,000      $1,700,000
    1998........................................................       5,900,000       4,600,000         900,000
    1999........................................................       6,500,000       5,400,000       1,900,000
    2000........................................................              NA              NA              NA
                                                                 -----------------------------------------------
      Total.....................................................      13,900,000      17,600,000       4,600,000
----------------------------------------------------------------------------------------------------------------

                          LIBRARY OF CONGRESS

STATEMENT OF JAMES H. BILLINGTON, LIBRARIAN OF CONGRESS
ACCOMPANIED BY:
        DONALD L. SCOTT, DEPUTY LIBRARIAN OF CONGRESS
        DANIEL P. MULHOLLAN, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE

                            opening remarks

    Senator Bennett. Our fifth panel is headed by the Honorable 
James Billington, the Librarian of Congress, and Mr. Dan 
Mulhollan, Director of the Congressional Research Service 
[CRS]. General Scott, you are going to join us, and we 
appreciate that, as well.
    Gentlemen, we thank you for your patience as we have worked 
through the other witnesses.
    We understand from the GAO, Dr. Billington, that the 
Library has been working hard to solve its year 2000 problem. 
And we commend you for getting in front of the curve on this 
issue. We understand that the Library has been busy taking 
steps to respond to all of the requirement of the electronic 
age, not just the year 2000.
    I should report that I have had a meeting with the CRS, 
outside of this formal hearing process. And I have been 
impressed with how the CRS is managing its work force to be 
responsive to the Congress, and designing a plan to address the 
problems of responsiveness. We look forward to hearing the 
details of that plan, particularly with respect to the 
succession problem that has been referred to otherwise.
    Now, with the darkening of the room, I understand you have 
some show and tell, in the true spirit of the electronic age, 
in electronic fashion, so, Dr. Billington, we are in your 
hands, unless, Senator Dorgan, you have any comments.
    Senator Dorgan. Why don't you proceed.
    Welcome, Doctor.

               opening remarks of Dr. James H. Billington

    Dr. Billington. Thank you, Mr. Chairman. Thank you, 
Senator.
    First, I think everyone who is here has previously appeared 
before the committee, with the possible exception of Elizabeth 
Zaic, Acting Director, Integrated Support Services, in the 
Library. And I do have, first, an announcement, Mr. Chairman. 
We have just received in writing from the General Services 
Administration confirmation that our rent bill will be reduced 
by $800,000. And as a result, our budget request for fiscal 
year 1999 can be reduced by subtracting the $800,000 from our 
``Rental of space'' account. We ask that this savings be 
applied to our request for additional talking book machines. We 
will provide the committee with further information on this 
matter.
    Senator Bennett. I congratulate you for reducing the budget 
by the full $800,000. There are many agencies that would reduce 
it by $200,000, and consider they are a hero.
    Dr. Billington. Well, thank you.
    Senator Bennett. According to the clock and the buzzers, 
we're going into the end of morning business. All right, good.
    Dr. Billington. Well, let me just highlight just a few 
points from my full statement before showing the committee a 
very short video on the electronic aspects of the Library, and 
then asking our magnificent Deputy, General Scott, to make a 
few brief remarks, if that is agreeable, Mr. Chairman. We will 
try to keep this very short.

                           Library's mission

    The Library is, as you know, a totally unique institution, 
with a national mission to serve the Congress and to facilitate 
the creative use of the world's knowledge for the good of our 
Nation.
    Senator Bennett. There is a rollcall vote. And I think the 
best thing for us to do is simply recess the subcommittee, run 
over and vote, and return as quickly as we can.
    [A brief recess was taken.]
    Senator Bennett. The subcommittee will come to order.
    Our apologies. The business of the Senate sometimes does 
intrude on the business of the Senate. That is one of the 
scheduling problems we wish we could solve, but we cannot. So 
we are in your hands, Dr. Billington.
    Dr. Billington. Thank you, Mr. Chairman.
    A key problem in our time is that the very nature of 
collections is changing. Knowledge is increasingly being 
generated and communicated in electronic and ephemeral forms. 
With a growing flood of unsorted electronic information that is 
becoming available today, the Congress and the Nation, I 
believe, needs more than ever, a trusted knowledge navigator--
which is what we believe the Library of Congress to be--to help 
sustain our knowledge-based democracy.
    Our public culture, moreover, is, Mr. Chairman, in danger 
of moving back down the evolutionary chain from knowledge to 
information, from information down into miscellaneous and often 
totally unfiltered broad and unverifiable raw data, and 
perhaps, beyond that even, just to an unsorted and often 
ungrammatical stream of consciousness that is flooding into the 
Internet. So there is really a major problem here.
    We may be sinking down rather than rising up to the twin 
peaks of wisdom and creativity that rise above a plateau of 
knowledge and which have really made democracy dynamic in this 
country. After all, the whole country was invented by people 
who were rooted in knowledge and had some of those qualities.

                          Library's challenges

    To sustain all this, basically, a knowledge-based 
democracy, in an information-inundated and unvalidated world, 
the Library of Congress has to collect, preserve, make secure 
and accessible this rapidly proliferating, often confusing, 
electronic universe, while still protecting intellectual 
property rights--our constitutional mandate--and, at the same 
time, continuing to collect and service nonelectronic 
materials, the volume of which also continues to increase, as 
whole new streams, cultures, participants in the intellectual 
knowledge-generating business come all over the world.
    This gives us a daunting set of challenges. And I am glad 
to report that, overall, we are doing more, for more people, 
with 12 percent fewer staff than in 1992. We are enormously 
grateful for this committee's support, and particularly for the 
integrated library system last year, which is enabling us to 
build a platform on which all further progress will be based.
    The institution is, however, severely stretched by its 
necessary commitment both to sustain traditional services and 
to effect our transition to an increasingly electronic world.
    We are, I think, in many ways, national leaders, and even 
world leaders, in some of our electronic delivery activities. 
We are getting 500,000 hits internally, here in Washington, and 
another 2 million hits every day more broadly from around the 
Nation and the world. We need the committee's continued 
support, including funding mandatory pay increases and 
unavoidable price level increases, which is well over one-half 
of our increased request this year, plus $2 million for the 
replacement of personal computers that will not work after the 
year 2000.
    General Scott will talk more about that in a minute.

                         Library's bicentennial

    Last year, we celebrated the 100th anniversary of the 
Thomas Jefferson Building, so magnificently restored by the 
Congress, and inaugurated the Library's bicentennial efforts 
for the year 2000, which will be our 200th anniversary. They 
are being carried almost entirely by private funds.
    Our theme for the bicentennial is gifts to the Nation, 
which is what the Congress has done by creating, sustaining and 
sharing with the broader American public both the mint record 
of America's creativity, through the copyright deposit, and the 
greatest collection of knowledge ever assembled in one place on 
this planet, which is one way of defining the nearly 113 
million items in all formats and languages the Library has.
    We hope to both dramatize and demonstrate the essential 
role that the Library of Congress and all libraries of our 
unique library system, of which we are an integral key part, 
play in keeping democracy dynamic. I hope we can have the 
committee's support. We appreciated your support in the past, 
and I would appreciate it continuing so that the Library can 
head into the 21st century, with expanded digital holdings and 
with the systems in place that can maximize service to the 
Congress and to all Americans in the localities where they live 
across this Nation.
    Each of you have a packet of materials providing further 
information about the Library. We have a short video to give 
the committee a quick look at the real progress we are making, 
and explaining one of our emerging electronic services to the 
Congress and to the Nation.

                          prepared statements

    And then General Scott will have a few words. And then we 
will be glad to answer your questions, Mr. Chairman.
    [Whereupon, a videotape was shown.]
    [The statements follow:]
               Prepared Statement of James H. Billington
    The Library of Congress, the oldest Federal cultural institution in 
the country, will be 200 years old on April 24 in the year 2000. With 
congressional support and direction, the Library has developed a 
massive collection of more than 113 million items, a superbly 
knowledgeable staff, and cost-effective networks for gathering in the 
world's knowledge for the nation's good.
    The Library has a proven record of making knowledge and information 
accessible to users everywhere--evidenced by the exponential rate of 
growth in the Library's Internet transactions and the wide public 
acclaim of its website. The Library directly serves the Congress and 
the entire nation with the most important commodity of our time: 
information. The Library's critical role as a trusted knowledge 
navigator for the Congress and the nation is made more important than 
ever by the growing flood of unsorted information available today.
    The Library's mission is to make its resources available and useful 
to the Congress and the American people and to sustain and preserve a 
universal collection of knowledge and creativity for future 
generations. The Library's first priority is to make knowledge 
available and useful to the United States Congress. This primary 
purpose can be realized only if the Library continues to acquire, 
organize, preserve, secure, and sustain its incomparable collections 
for present and future use. These are the top priorities in the 
Library's 1997-2004 Strategic Plan (see attachment 1), closely followed 
by the imperative to make the Library's unique collections and 
resources maximally accessible to the American people.
    Funding the Library's fiscal 1999 budget request is critical to our 
current efforts: to provide and enhance service to the Congress, to add 
content to the National Digital Library, to continue arrearage 
reduction, to maintain a modern copyright system, to ensure strong 
collections security, to maintain service to blind and physically 
handicapped people, and to implement preservation improvements, 
particularly for the Library's audio-visual materials. The Library's 
budget request for fiscal year 1999--$369.3 million in net 
appropriations and $27.7 million in authority to use receipts--supports 
these and other strategic priorities. This is a net increase of 6.5 
percent over fiscal 1998, which includes $12.8 million to fund 
mandatory pay raises and unavoidable price-level increases and $9.6 
million to meet critical growing workload increases (net of program 
decreases).
    As the Library moves towards its Bicentennial in the year 2000, we 
are working to develop a substantive program focused on leveraging 
private-sector support that will result in significant Gifts to the 
Nation. The Congress has made its Library over the years a cornerstone 
in our unique national library system. The Library provides services 
that save other libraries millions of dollars a year: inexpensive 
cataloging information, free surplus books, free inter-library loans, 
and 23 million free items every year to the blind and physically 
handicapped. All of this and more are directed to, and reach the 
American people through, other libraries.
    The historic investment the Congress has made in the Library's 
staff, collections, and facilities is now bringing rapidly increasing 
benefits to people in their localities all over America as access grows 
daily to the Library's information about the Congress and to the 
content of the Library's collections via the Internet. In the scant 
three-and-one-half years since we launched on-line the National Digital 
Library, the popular response to the content we are offering has 
continued to astound us. In fiscal 1996, our Internet transactions 
numbered 134 million; in fiscal 1997, they more than doubled to 345 
million. By late 1997, the Library was receiving some two million 
Internet electronic transactions every day (in addition to more than 
500,000 internal electronic transactions that are handled every 
workday).
    The National Digital Library program is our major gift to the 
nation, which will make millions of interesting and important items in 
a variety of media available on-line in local communities throughout 
America by the year 2000. Open access is the basic principle of our 
public library system--and is more important than ever in helping 
prevent a division between information ``haves'' and ``have-nots'' in 
the electronic age. The Congress, through its library, is ensuring that 
the tools of learning--and of learning about America--will be 
universally accessible in the next millennium.
    To continue to move forward--for the Congress and the nation--the 
Library requests funding for the following major new items or 
initiatives in the fiscal 1999 budget: (1) additional automation 
hardware, software, and services to ensure that the Library's 
operations continue and that on-line access is available electronically 
after the Year 2000 century change; (2) implementation of key elements 
of our security plan, including additional security aides to operate X-
ray scanners at public building entrances and anti-theft devices for 
the collections; (3) additional funds for the Congressional Research 
Service to support a staff succession plan to help ensure continuity of 
high-quality congressional services; (4) funding for off-site 
collections storage at Fort Meade, Maryland (print materials) and 
Culpeper, Virginia (audio/visual materials); and (5) the purchase of an 
additional 5,000 talking book machines to ensure their reliable 
availability for blind and physically handicapped people.
    In this time of budget constraints, the Congress has continued to 
be very supportive of the Library, increasing our budget over the past 
several years. However, the actual number of appropriated full-time 
equivalent (FTE) positions has declined by 539 or 11.9 percent since 
fiscal 1992. The Library's fiscal 1999 budget asks for a partial 
recapture of the FTE's lost since fiscal 1992 by requesting funding for 
42 additional FTE's (net of program reductions)--a level that is still 
9.3 percent lower than fiscal 1992. The Library is not requesting 
additional FTE's to operate off-site collections storage sites. We plan 
to use contract support for these new activities.
    The Library is working on ways to carry out its mission in a more 
economical manner by re-engineering major business processes. Because 
the Library's services are extremely labor intensive (some 70 percent 
of our budget is for payroll costs), future economies must come 
primarily from redesigning or modifying our major operations and from 
investing further in automation; both will improve the productivity of 
our staff. Implementation of the Legislative Information System (LIS), 
the Integrated Library System (ILS), the Electronic Cataloging in 
Publication (ECIP) system, the Copyright Office Electronic 
Registration, Recordation and Deposit System (CORDS), and the Global 
Legal Information Network (GLIN) will make it possible for the Library 
to do more for less in the future. However, these initiatives will not 
provide significant financial savings in fiscal 1999.
    Funding our fiscal 1999 budget request, including provisions for 
mandatory pay and price-level increases, will enable the Library to 
sustain its basic services while continuing to build more modern 
operations needed for an increasingly electronic future. In short, we 
believe the Congress should sustain its fruitful investment in the 
Library, which has historically been a gift to the nation and will be 
even more important for the next millennium.
                major accomplishments during fiscal 1997
    During fiscal 1997, the Library developed a 1997-2004 Strategic 
Plan, a Security Plan, and a Year 2000 Plan; provided objective, 
timely, nonpartisan, and confidential legislative support to the 
Congress on a wide range of issues; reduced our uncataloged backlog by 
another million items; completed key provisions of the Library's long-
standing Cook class action settlement agreement--making back-pay 
awards, promotions, and reassignments; received an unqualified 
``clean'' audit opinion on the Library's fiscal 1996 consolidated 
financial statements; strengthened the security of our collections; 
celebrated the 100th anniversary of the Thomas Jefferson Building; and 
inaugurated the Library's Bicentennial efforts.
    The Library improved services to the Congress and the nation 
through technology--installing the first release of the legislative 
information retrieval system, recording dramatic increases in Internet 
usage, and receiving many Internet awards (see attachment 2). The 
Library is making tangible progress towards meeting our Strategic Plan 
objectives and preparing for the 21st century.
             library's bicentennial and the information age
    Planning for the Bicentennial commemoration in 2000 began in 1997 
with the appointment of a steering committee of senior Library managers 
under the leadership of the Librarian of Congress. The Bicentennial 
goal is ``To inspire creativity in the century ahead by stimulating 
greater use of the Library of Congress and libraries everywhere.'' The 
Library's 200th anniversary is a unique opportunity to revalidate the 
historical role of libraries as centers of learning and to reinvigorate 
the nation through greater use of libraries and wider access to 
knowledge. The Bicentennial theme of ``Libraries--Creativity--Liberty'' 
reflects the essential role that the Library of Congress and all 
libraries play in a dynamic democracy.
    To ensure that the Library's operations continue and materials 
remain available electronically after the Year 2000 century change, to 
improve automation security and planning, and to continue critical 
automation projects, the Library is requesting an increase of 
$3,281,395 (net of a $2,040,000 planned reduction for the Integrated 
Library System). Major elements of this increase are:
    Computer Workstations and Equipment.--The Library is dependent on 
computer workstations as the primary tool to perform most tasks and 
requires an increase of $2,000,000 to fund the replacement of 700 
computer workstations. The Year 2000 century change makes a number of 
early model computers unusable and requires the Library to accelerate 
their replacement. The Library also requires $1,200,000 to purchase 
additional server and storage equipment. The growth in on-line content 
and the transition from the traditional computer mainframe environment 
to the more modern client/server-model which utilizes large UNIX 
servers and magnetic disk storage devices require more equipment to 
store, process, and deliver ever-increasing quantities of current and 
historical information.
    Computer Security.--Increased use and dependence on computer 
technology and integration and connection of automated systems via 
networks have increased the importance of computer security. The 
Library is requesting $668,784 to fund two FTE's, software, and 
disaster recovery contract services. The Library needs to focus 
additional resources on both preventing a potential disaster through 
improved security and implementing disaster recovery plans.
    Information Technology Services FTE's.--The Library's workload has 
increased in areas such as legislative information retrieval system 
support, technology planning, and electronic mail support. The Library 
requests funding for six FTE's and $506,352 to ensure that critical 
automation projects for the Congress and the Library have sufficient 
technical support.
    Law Library Automation Support.--The Library is requesting three 
FTE's ($240,201) and $100,000 in contractor support to make possible 
the Law Library's ability to make the transition to an increasingly 
digital environment. Twenty percent of legal information used to 
respond to congressional requests is now available only in electronic 
form; and this percentage is growing. Automation support is crucial if 
the Law Library is to keep up with this rapid change and provide more 
access to more information with limited resources.
    Integrated Library System.--Implementation planning for an 
Integrated Library System (ILS) began in 1997. An ILS will provide a 
computer platform that is Year 2000-compliant and will improve Library 
operations and collections security. Library staff are evaluating 
responses to the Request for Proposals (RFP) issued last year and will 
present an implementation plan for Congressional approval prior to 
procurement of the system. The fiscal 1999 budget includes $3,544,000 
(a reduction of $2,040,000 from fiscal 1998) for annual system 
maintenance charges and software fees, for additional computer 
equipment, and for contract services to convert massive manual files.
         security of library staff, collections, and facilities
    A highlight of fiscal 1997 was the completion of a comprehensive 
Library Security Plan, which was approved by the Senate Committee on 
Rules and Administration on February 2, 1998. The plan provides a 
framework for the physical security of the Library's collections, 
facilities, staff, visitors and other assets. Collections security is 
the centerpiece. The plan was developed by a team of security 
professionals, curators, and senior librarians. The plan articulates a 
collections prioritization scheme that establishes five different 
levels of risk, providing the strongest protection for the Library's 
Treasures and other rare items and appropriate degrees of security 
controls for other parts of the Library's collections. The process of 
assessing the status of collections security within custodial divisions 
has been initiated, and the completed assessments enable the Library to 
prioritize the use of limited security resources.
    Consistent with security planning, the Library is requesting an 
increase of $2,458,331 to enhance entry security, to record ownership 
markings on materials as early in the acquisition process as possible, 
and to conduct additional detailed risk assessments within areas that 
process, store, serve, and transport collections materials.
    For entry security, the Library needs 13 additional FTE's 
($355,331) to staff X-ray scanners and metal detectors at public 
entrances, which would bring our entry security up to the standards 
outlined in our plan. The budget also includes funding for X-ray 
scanners and upgraded metal detectors ($627,000).
    The security plan highlights the vulnerability of items that are in 
process prior to their marking and tagging. The Library is requesting 
$993,500 in the Copyright Office appropriation for theft detection 
devices and contract staff to apply them.
                   off-site storage and preservation
    The Library's preservation and arrearage reduction efforts are 
linked to the development of secondary storage sites to house processed 
materials and to provide for growth of the collections through the 
first part of the 21st century. The first storage module at the Fort 
Meade, Maryland campus, which employs cardboard boxes on wide-span 
shelving and houses paper-based collections (primarily books) is 
scheduled for occupancy by the end of fiscal 1999. In addition, the 
Library's Audio Visual Conservation Center in Culpeper, Virginia is 
scheduled for acquisition by gift during 1999. The Library is 
requesting $1,320,724 for start-up costs at Fort Meade, Maryland and 
for six months' funding at both of these off-site storage locations. 
The Architect of the Capitol is also requesting a new operating 
allotment for the Culpeper Center in the amount of $119,000 and an 
increase of $81,000 for electricity and fuel oil costs in the ``Capitol 
Power Plant'' appropriation to cover the Culpeper facility's utility 
costs.
                         audio/visual equipment
    The Library is requesting an increase of $643,000 for the Motion 
Picture Broadcasting and Recorded Sound (MBRS) equipment base (from 
$232,700 to $875,700) to replace old, failing equipment. MBRS equipment 
provides research access for media formats which are no longer 
produced, and the replacement of equipment is critical to continuing 
access to audio-visual materials for researchers and staff. The current 
base cannot handle the replacement of 70 equipment pieces that are 
either in danger of imminent failure or approaching that category.
                              law library
    The Law Library of Congress maintains the largest collection of 
legal materials in the world and also houses a unique body of foreign-
trained lawyers to supply legal research and analysis, primarily for 
the Congress on the laws of other nations, international law, and 
comparative law. More than 200 jurisdictions are covered or some 80 
percent of the sovereign entities of the world that issue laws and 
regulations. The Law Library utilizes this talent to maintain and 
develop the breadth and depth of a demanding collection, as well as to 
provide reference services whenever and for as long as either chamber 
is in session (as mandated by the Congress). These are daunting 
responsibilities. The U.S. Courts, the executive branch, and the legal 
community also depend heavily on the Law Library's collections.
    The Law Library's FTE's have declined from 98 in fiscal 1992 to 91 
in fiscal 1998. While the Law Library has been creative in attempting 
to meet its responsibilities, particularly with the development of its 
Global Legal Information Network (GLIN), a multinational legal 
database, funding for five FTE's ($251,750) is crucially required. The 
five FTE's would restore reference services to an acceptable level, 
increase the number of legal research courses taught to congressional 
staff, improve book retrieval services (which improves all activities), 
and expedite legal report preparation for the Congress.
                            copyright office
    The Library's Copyright Office promotes creativity and effective 
copyright protection--annually processing more than 620,000 claims, of 
which 560,000 are registered for copyright, and responding to more than 
420,000 requests for information. More than 850,000 works received 
through the copyright system are transferred to the Library, forming 
the core of the Library's immense Americana collections.
    The Library is requesting an increase of $1,266,000 to improve the 
security of the collections by tagging and marking Copyright Office 
materials upon receipt, by conducting additional risk assessments, and 
by implementing the automated reader registration system. All of the 
Copyright Office's security initiatives are consistent with the 
Library's security plan (discussed above) and are critical to the 
protection of the nation's intellectual heritage.
    The Library is requesting two changes in its authority to use 
Copyright Office receipts. First, a reduction of $2,340,000 is 
requested to reflect the end of receipts accompanying filings from the 
GATT Uruguay Round Agreements Act (Public Law 103-465). Second, an 
increase of $1,000,000 is requested for additional discretionary fee 
charges (e.g., special services). The Library is requesting authority 
to use the additional $1,000,000 in projected receipts to support the 
Copyright Office Electronic Registration, Recordation, and Deposit 
System (CORDS) project ($356,058) and to improve the registration 
process ($643,942). The additional receipts for CORDS would expand 
development and testing efforts.
    CORDS is the electronic future of the Copyright Office and provides 
the public with an electronic means to submit copyright claims and 
documents which streamline internal processing. Development as well as 
testing will continue through successive phases culminating in a 
significant number of electronic registrations over the Internet in 
fiscal year 2000. In the year 2004, the Library expects to receive at 
least 100,000 works in digital form: census data, films, music, 
encyclopedias, scientific papers, legal documents, and much else.
    The Congress revised the structure by which statutory fees are 
determined four months ago (Public Law 105-80, November 13, 1997). The 
new law authorizes the Register of Copyrights to increase statutory 
fees; to do this, a cost study is required along with an economic 
analysis of the proposal, which explains the various considerations, 
for example, in addition to cost, operational factors, and public 
policy concerns. Taking into consideration the timetable for comments 
from public hearings, the economic analysis, and Congressional review, 
the Library did not include a statutory fee increase in the fiscal 1999 
budget.
                     congressional research service
    As a shared source of nonpartisan analysis and information, CRS is 
a valuable and cost-effective asset to the Congress. CRS provides every 
Member and committee with support at all stages in the legislative 
process, from the formulation of ideas through oversight of programs 
previously created. In expanding the CRS mission in 1970, Congress 
embraced and implemented the concept of a cost-effective, pooled 
research effort in support of lawmaking at all stages. Now more than 
ever, CRS's importance to the Congress has grown as Congress grapples 
with increasingly complex legislation, does so with fewer Committee 
staff, and seeks efficient ways to acquire the objective analysis and 
information needed to conduct its legislative business.
    The Library is requesting $871,770 to support the hiring of 20 
additional CRS analysts to ensure the continuity of congressional 
services. Half of CRS's staff will be eligible to retire by the year 
2006, and according to a staff survey, nearly two-thirds of those 
eligible plan to do so in that time period. The loss of such a large 
number of experienced staff poses a threat to CRS' ability to maintain 
the current level of service to Members and committees in a wide 
variety of subject areas. The succession plan is designed to provide 
time to train entry-level staff and build their expertise and knowledge 
of the legislative process in time for them to take over from 
specialists who have provided such research and analysis for 20 to 25 
years.
    I am continually impressed with the uniqueness of the services that 
CRS provides and its importance to the Congress. No one else does or 
can do what CRS provides you daily: namely, impartial analysis of the 
full variety of the knowledge and opinion bearing on legislation. It 
combines true objectivity with a range of opinion representing diverse 
scholarship. The expertise required to provide these services has to be 
learned in the act of doing it--because this type of work is simply not 
done anywhere else. Therefore, if we are to provide future Congresses 
with what you have today, we must be able to initiate this replacement 
process and mentoring plan.
   national library service for the blind and physically handicapped
    The Library administers a sixty-six-year-old cooperative effort 
with state and local agencies and the United States Postal Service to 
provide a free national library program of braille and recorded 
materials for blind and physically handicapped persons. The Library 
selects and produces full-length books and magazines in braille and on 
recorded disc and cassette and provides special playback equipment. 
Reading materials and playback machines are distributed to a network of 
cooperating regional and subregional (local) libraries where they are 
circulated to eligible borrowers and returned to libraries by postage-
free mail.
    The current budget level (fiscal 1998) for talking book machines 
would provide for the purchase of some 56,000 cassette book machines 
(CBM) in fiscal 1999, but the Library projects that $1,250,000 is 
necessary to purchase another 5,000 CBM's to ensure the continued 
availability of the machines for blind and physically handicapped 
individuals.
                     library buildings and grounds
    The Architect of the Capitol (AOC) is responsible for the 
structural and mechanical care and maintenance of the Library's 
buildings and grounds. In coordination with the Library, the AOC has 
requested a capital budget of $6,474,000, an increase of $3,964,000. 
The AOC capital budget includes funding for 11 projects totaling 
$4,002,000 in appropriations that were requested by the Library. In 
addition, the Library is proposing, as another project, the transfer of 
$1,500,000 in gift funds to the AOC for the National Audio-Visual 
Conservation Center at Culpeper, Virginia. Library-requested projects, 
as well as AOC identified projects, are prioritized based on critical 
need and in accordance with both the Library's Strategic and Security 
Plans. The projects (1) improve the security of our staff and the 
collections by providing additional electronic card readers, sensor 
devices and other protections; (2) support the preservation of the 
Library's collections including improved environmental conditions; and 
(3) ensure the life and safety of the Library's staff and visitors. 
Properly storing the Library's collections in a secure, safe, and 
environmentally sound facility is the most important step toward 
preserving our collections for future generations.
    I urge the Committee to support the Architect's Library Buildings 
and Grounds budget and his position that reinvestment in the existing 
infrastructure is necessary and a prudent measure to support program 
operations and to avoid future costly facility costs.
                          proposed legislation
    The Library has submitted three legislative proposals to our 
authorizing committees. First, the authorization for the American 
Folklife Center (AFC) expires on September 30, 1998. The AFC's Board of 
Directors and the Library are seeking permanent authorization for the 
AFC. There is consensus within the folklore community on the need for 
this legislation.
    Second, in connection with its Bicentenary, the Library is seeking 
legislation that would provide appropriate Congressional oversight for 
the observance and all activities associated with it.
    Third, the Library has requested authorization of a revolving fund 
for fee-based activities as recommended by the General Accounting 
Office. The Library appreciates the Committee's support last year of a 
new revolving fund for the Cooperative Acquisitions Program, and we 
believe that more comprehensive revolving fund authority will permit 
the Library to operate its fee-based activities in a more businesslike 
manner, while enhancing the accountability of these programs.
                                summary
    The Library's proposed fiscal 1999 budget supports the Library's 
mission and strategic plan. The leadership role that the Library 
requests the Congress to support in the new electronic environment is 
the needed and logical extension of the historic role that the Library 
was asked to play in the era of print for the nation: championing 
public access to knowledge, setting bibliographic standards, and 
supplying bibliographic data to all libraries. Broadening access to 
knowledge is increasingly important to any responsible democracy and 
modern economy, which must be increasingly information-based. Libraries 
are a link in the human chain that connects what happened yesterday 
with what might take place tomorrow; they are the base camps for new 
discovery in the Information Age.
    By funding the Library's fiscal 1999 budget request, the Congress 
would prevent further staff reductions, ensure continued operations 
after the Year 2000 century change, enable the Library to improve the 
security of its staff and collections, and permit the Library to head 
into the 21st century with expanded digital holdings to provide the 
maximum service to the Congress and to Americans in the localities 
where they live across the nation.
    For fiscal 1999, we submit a budget request that will enable the 
Library of Congress to continue to make major contributions to the work 
of the Congress and to the creative life of the American people.
                                 ______
                                 
     Attachment 1.--Library of Congress Strategic Plan (1997-2004)
                                mission
    The Library's mission is to make resources available and useful to 
the Congress and the American people and to sustain and preserve a 
universal collection of knowledge and creativity for future 
generations.
                                 values
    The eight values of the Library of Congress are: Service, Quality, 
Effectiveness, Innovation, Fairness, Participation, Communication and 
Excellence.
                         priorities/objectives
    The first priority of the Library of Congress is to make knowledge 
and creativity available to the United States Congress.
  --To fulfill all Congressional mandates so well that the Congress 
        confidently continues to rely upon the Library to meet those 
        needs;
  --To meet or exceed needs and expectations of the Congress for 
        legislative research, analysis and information services at a 
        level of sustained excellence; and
  --To assure that the Congress is fully cognizant of the services and 
        resources of the Library of Congress, and has ready and 
        reliable access to them.
    The second priority of the Library of Congress is to preserve, 
secure, and sustain for the present and future use of the Congress and 
the Nation a comprehensive record of American history and creativity 
and a universal collection of human knowledge.
  --To develop and maintain the Library's universal collections in all 
        formats and languages, acquiring them through copyright, gift, 
        exchange purchase, and transfer, in the most timely and cost-
        effective manner to support the Library's mission;
  --To ensure that the Library's collections, both physical and 
        electronic, are appropriately secure;
  --To achieve arrearage reduction goals;
  --To provide innovative and effective bibliographic, intellectual, 
        and physical control that is appropriate, timely, and of high 
        quality for all of the Library's collections;
  --To ensure the preservation of the Library's collections for current 
        and future use, using appropriate preservation treatment and 
        technologies;
  --To lead the development, maintenance, and dissemination (both 
        nationally and internationally) of standards needed for: 
        effective electronic interchange of documents and bibliographic 
        data; preservation; and the theory and practice of cataloging; 
        and
  --To organize, sustain and make more usable the record of American 
        creativity through copyright registration, deposit, and 
        recordation systems.
    The third priority of the Library of Congress is to make its 
collections maximally accessible to Congress, the U.S. government more 
broadly, and the public.
  --To lead in the area of electronic outreach by contributing to a 
        national digital library that provides both broad access to the 
        Library's collections and links to other significant, publicly 
        available information, regardless of its location and format;
  --To make the Library's collections available both nationally and 
        internationally through use of digital technology, lending, and 
        document delivery;
  --To provide high-quality service to users accessing the Library by 
        telephone, correspondence, and electronic means;
  --To sustain high-quality service to users of the Library's reading 
        rooms, research areas, and collections;
  --To broaden awareness and use of the Library's special and foreign-
        language collections and reading rooms;
  --To sustain and improve high-quality service to blind and physically 
        handicapped patrons; and
  --To develop a plan to continue the National Digital Library Program 
        beyond the year 2000.
    The fourth priority is to add interpretive and educational value to 
the basic resources of the Library in order to enhance the quality of 
the creative work and intellectual activity derived from these 
resources, and to highlight the importance of the Library to the 
nation's well-being and future progress.
  --To foster creative scholarship in the Library's unique collections 
        including foreign-language and special-format materials; and
  --To promote awareness of the Library and fuller and more varied use 
        of its resources through national and international copyright 
        services, exhibits, concerts, publications, associations, 
        conferences, colloquia, and other interpretive programs.
    The Enabling Infrastructure.--To accomplish its mission the Library 
must have an efficient and effective infrastructure.
Financial Services
    To provide financial services (budget, accounting, disbursing and 
travel) to its clients and to conduct program activities, allocate 
resources, and ensure accountability; and
    To improve the Library's financial and legal framework, policies 
and procedures.
Human Resources
    To provide human resources leadership in service to the Library's 
internal constituency;
    To formulate and put in place a comprehensive personnel program 
that will significantly improve timeliness, efficiency and 
responsiveness to client needs; and
    To promote equal employment opportunity at the Library of Congress 
and facilitate resolutions of disputes fairly and quickly.
Security
    To ensure the security of Library staff, visitors, facilities, 
collections, and other assets.
Support Services
    To promote occupational health and safety and to provide a healthy, 
safe environment for staff and visitors;
    To provide facility management, space, and interior design support;
    To provide procurement and logistic support; and
    To provide records management, mail distribution, printing, and 
transportation services.
Technology
    To align the Library's current information technology resources 
with its overall priorities and develop technological architecture that 
will support the Library's objectives;
    To improve information technology customer satisfaction; and
    To establish and enforce information technology standards that will 
ensure compatibility of information technology systems.
                                 ______
                                 
   Attachment 2.--Library of Congress Selected Listing of Awards to 
                    National Digital Library Program

    [American Memory, including Learning Page and Today in History]

    Time Magazine Best Web Site of 1996 Award (one of ten sites).--Time 
Magazine rated American Memory among the ten best Web sites of 1996. 
December 23, 1996, page 84.
    New York Times ``Internet Hit''.--New York Times, Article about 
LCWeb and American Memory, ``Library of Congress Is an Internet Hit''. 
Sunday, Feb. 16, 1997, p. A18. URL: http://www.nytimes.com/ (Select 
``search''; then enter ``congress'' ``internet'' ``hit'' select ALL 
words.)
    PC Magazine Top 100 Web Sites Hall of Fame.--PC Magazine, Includes 
both American Memory and THOMAS in its Top-100 list, Hall of Fame. 
American Memory and THOMAS are two of twenty-four sites listed as 
``Five time champs'', making the cut every time, from the first Top-100 
listing in July 1996 to the current Top-100 listing in August 1997. 
URL: http://www.zdnet.com/pcmag/special/web100/__halloffame.htm. 
American Memory Review: URL: http://www8.zdnet.com/pcmag/special/
web100/lcweb.htm.
    Britannica's 40 Best Sites on the Web.--Britannica's Internet Guide 
selected 40 websites, out of the 64,000 they indexed, as the ``best of 
the web''. American Memory is one of the forty. URL: http://
www.ebig.com/best.html.
    Lycos Top 5 percent of the Internet Award.--Lycos award given to 
websites, judged to be in the top five percent of the Internet. The LOC 
web site, including American Memory, received an overall rating of 97 
based on a scale of 0-100. URL: http://point.lycos.com/categories/.
    NII Finalist for Education.--1996 National Information 
Infrastructure (GII) Awards recognized and honors superior 
accomplishments in applications of the Internet. American Memory was 
one of six National Finalist in the Education Category. URL: http://
www.gii.com/nii/.
    Magellan Internet Guide Four Star Reviews.--Magellan Internet Guide 
rated American Memory four stars out of four. URL: http://
www.mckinley.com/magellan/Reviews/News__and__Reference/ (select 
``Libraries and Reference'', select ``Libraries'', select ``US/Public 
Libraries'').
    Net Guide Best of the Web.--Five stars awarded to American Memory. 
URL: http://www.netguide.com/Site/Detail?siteId=12712. Three stars 
awarded to the Learning Page. URL: http://www.netguide.com/Site/
Detail?siteId=95532.
    American Library Association 50+ Great Sites for Parents and 
Kids.--American Library Association guide to quality family-friendly 
websites for kids. American Memory: URL: http://www.ssdesign.com/
parentspage/greatsites.50.html. Today in History is listed. URL: http:/
/www.ssdesign.com/parentspage/greatsites/50.html.
    History Channel Recommended Web Site.--The History Channel On-line 
includes American Memory in: U.S. History, General Resources section of 
its ``recommended'' history websites. URL: http://
www.historychannel.com/histlists/us.html.
    Blue Web'n Library of Blue Ribbon Learning Sites on the Web.--
Pacific Bell, with its Education First initiative and its Knowledge 
Network Explorer rated the Learning Page a five-star Resource 
application. URL: http://www.kn.pacbell.com/wired/bluewebn/.
    Web Top 40 Education Sites.--Syllabus Web, published by Syllabus 
Press, lists the Learning Page in its Syllabus Web Top 40 Education 
Sites. Syllabus Press is an educational publisher. URL: http://
www.syllabus.com/top40.htm.
    The Scout Report.--The Scout Report, published by Internic, is a 
weekly publication offering a selection of new and newly discovered 
Internet resources of interest to researchers and educators, featured 
The Learning Page on March 15, 1996. URL: http://www.cs.wisc.edu/scout/
report/archive/scout-960315.html.
                                 ______
                                 
     Legislative Information System of the U.S. Congress Home Page
                           congress this week
    Floor Now: Senate (internal only), House
    Senate Leadership: Majority, Minority
    House Leadership: Majority, Minority
    Bills This Week: Senate, House, CRS Alert
    Floor Amendments Pending: Senate
    Floor Schedules: Senate, House
    Committee Schedules: Senate, House
                         bills, votes, and laws
    Bill Summary & Status: 105, 104, 93-Current
    Roll Call Votes: Senate, House
    Legislation Full Text: 105, 104, 103, 102, 101
    Public Laws: 105, 104, 93-Current
    U.S. Code
                          congressional record
    CR Full Text: 105, 104, 103, 102, 101
    Browse Text: Most Recent Issue
    CR Index: 105-2, 105-1, 104-2, 104-1, 103-2
    Congressional Activity: 105, 91-Current
                           major legislation
    Definition of Major Legislation
    105th: Title, Topic, Bill Type/Number, Laws
    104th: Title, Topic, Bill Type/Number, Laws
    Appropriations: Status, Background
                            government links
    Senate (public)--Webster (Senate only)
    House (public)--Intranet (House only)
    Legislative Reference Sources
    Law Resources; Supreme Court Opinions
    Executive Branch; Federal Regulations
    State and Local Government
                              quick search
    Bill/Amendment/Law Number
    Word/Phrase
    Member
    Committee
    Stage in the Legislative Process
    Roll Call Votes: Senate,
    House Bill Number (105th):
                               committees
    Committee Reports Full Text: 105, 104
    Committee Schedules: Senate, House
    Selected Committee Transcripts: House
    Committee Home Pages: Senate, House
                            support agencies
    CRS: Home Page, Issue Briefs, Reports
    CBO: Home Page, Documents, Cost Estimates
    GAO: Home Page, Documents
    GPO: Home Page, ACCESS
    LOC: Home Page, THOMAS, Books
                              publications
    CRS Public Policy Literature Abstracts
    Cloakroom (Hotline, Greenwire, etc.)
    Historical Documents (Constitution, etc.)
                         directories and guides
    Senate Member List: by name, by state
    House Member List: by name, by state
    Member Home Pages: Senate, House
    CRS Guide to the Legislative Process
    How Our Laws Are Made
    Enactment of a Law
    LEGACY SYSTEMS MIGRATION PLANS: HOUSE, SCORPIO
                                 ______
                                 
                Congressional Research Service Home Page
                             crs this week
    Legislative Alert Products
    Weekly Update: New/Updated Products
    Television Programs
    Seminar Announcements
                    full text of crs online products
    All CRS Issue Briefs
    Selected CRS Reports
    CRS FY 1999 Appropriations Products
    CRS Electronic Briefing Books
                              crs services
    How to Place Requests to CRS
    Phone Numbers and Contacts
    Reading Rooms and Reference Centers
    Customized Research
    Confidential Consultations
    Orientations, Seminars, and Institutes
    CRS Info Packs (Complete list)
    CRS Audio Visual Products (Complete list)
    Congressional Interns and Volunteers
                        search crs and loc files
    All CRS Issue Briefs (Full text)
    Selected CRS Reports (Full text)
    CRS Public Policy Literature Abstracts
    Books Catalog (Search and order)
    Search CRS Web Pages (Search this site)
    SCORPIO/SCORPIO Migration Plan
                              legislation
    Legislative Information System (Congress only)
    CRS Guide to the Legislative Process
    Bill Summary and Status for 105th Congress
    CRS Legislative Alert Products
    CRS FY 1999 Appropriations Products
    CRS Electronic Briefing Books
    Legislative Reference Sources on the Internet
                   congressional staff reference desk
    Basic Reference (dictionary, directories, lists, ...)
    Constituent Services/Media Services
    Scheduling/Speechwriting
    Other Reference Desks/A-Z Index to Reference Desk
                      internet resources by topic
    Budget
    Economics
    Elections and Campaigns
    Environment and Natural Resources
    Foreign Affairs and National Defense Law
    Science, Medicine, and Technology
                          library of congress
    Selected Services of the Library of Congress
    Books Catalog (Search and order)
    Borrowing Books from the Library of Congress
    LOC Home Page (Public access)
    THOMAS (Public legislative system)
             This Page: http://www.loc.gov/crs/crstext.html
                 CRS Home Page: http://www.loc.gov/crs
    Disclaimer: CRS makes every effort to provide a fair and 
responsible selection of material on its Home Page from a diverse range 
of resources. From the CRS Home Page you can enter other, independent 
Web sites. CRS is not responsible for either the content or nature of 
those sites.
    Warning: The CRS Home Page is for use only by Members of Congress 
and their staffs. Unauthorized use, tampering with, or modification of 
this system or its supporting hardware or software may violate federal 
and/or local statutes, and may subject the violator to criminal and/or 
civil penalties. In the event of unauthorized intrusion, all relevant 
information regarding possible violations of law may be provided to law 
enforcement officials.
                                 ______
                                 
                United States Copyright Office Home Page
    ``To promote the progress of science and useful arts, by securing 
for limited times to authors and inventors the exclusive right to their 
respective writings and discoveries'' (U.S. Constitution, Article I, 
Section 8)
                                welcome
    Hours of service and location
    Speeches & testimony, Press releases, international meetings, 
seminars, lectures
                               what's new
    Project Looking Forward, Copyright Office
    Creates Online News List, Copyright
    Legislation, New and Pending
       u.s. copyright office general information and publications
    Copyright Basics
    Copyright Law
    Compendium II Copyright Office Practices
    Copyright Registration
    Copyright Application Forms
    Copyright Information Circulars
    Form Letters--In Answer to Your Query
    Mandatory Deposit Requirements of the U.S. Copyright Law
    Copyright Office Records--How to conduct a search
    Copyright Office Announcements, including Federal Regulations
    CARP & Licensing Information
    Fax on Demand--Copyright information via fax
    U.S. Copyright Office Creates Online News List
    Copyright Office FAQ (Frequently Asked Questions)
    Freedom of Information Act (FOIA)
                         other copyright topics
    Copyright Office Reports
    Copyright Legislation--New and Pending
    World Intellectual Property Organization Diplomatic Conference 
Preparatory Documents
    World Intellectual Property Organization Diplomatic Conference--New 
Treaties
    CORDS (Copyright Office Electronic Registration, Recordation & 
Deposit System)
    URAA, GATT amends U.S. law
    Internet Resources Related to Copyright
                                 ______
                                 
   Copyright Office Electronic Registration, Recordation and Deposit 
                            System Home Page
    Goal.--The goal of the CORDS project is to develop and test a 
system for copyright registration and recordation with copyright 
applications, copies of works, and copyright related documents 
transmitted in digital form over communications networks such as the 
Internet.
    The Copyright Office and the Library of Congress will also 
cooperatively establish the policies and operating procedures necessary 
for both the Office and the Library to create secure digital 
repositories to store, retrieve, and use digitized copyrighted 
materials in accordance with the terms and conditions of access and use 
established by copyright owners.
    Benefits.--Creators will register their works electronically, 
transmitting both the application and the works in digital form, with 
registration information then incorporated into the centralized online 
database of copyright registration records.
  --Copyright owners and agents will record electronically documents 
        pertaining to transfers of copyright ownership (such as 
        assignments, licenses, and security interests) which will be 
        accessible in an online database.
  --CORDS will test a Copyright Office repository for registered 
        digital works where access will be governed by the law and 
        regulations. CORDS will also test a Library of Congress 
        repository for digital works selected for its collections. 
        Access to the repository may be available in accordance with 
        the authors' or other copyright owners' terms and conditions.
  --Copyrighted works in digital form will be available for the benefit 
        of research, education, and other purposes.
    Background.--Since the establishment of the U.S. Copyright Office 
in the 1800's, the Office has manually handled all the materials 
submitted for copyright and deposit, as well as the documents submitted 
for recordation of ownership transfers such as assignments and 
exclusive licenses.
    Description.--Since fiscal year 1993, the U.S. Copyright Office, 
the Library of Congress, and the Corporation for National Research 
Initiatives (CNRI) have been cooperating on the development of the 
testbed Copyright Office Electronic Registration, Recordation & Deposit 
System (CORDS). CNRI is developing the testbed system under contract 
with the Advanced Research Projects Agency (ARPA) and the Library of 
Congress.
[GRAPHIC] [TIFF OMITTED] T08MA12.002

    The system architecture includes these components:
    1. Electronic Registration and Recordation System.--This system 
consists of the hardware and software that will enable copyright 
applicants to prepare their copyright applications and deposit 
materials in machine readable formats, to sign their submissions 
digitally using public key/private key encryption technology, and to 
send applications, deposits, and documents to the Copyright Office via 
the Internet, using Privacy enhanced Mail (PEM). This system will 
enable the Copyright Office to receive digital submissions via the 
Internet, verify that each one is authentic and complete, debit fees 
from the applicant's deposit account with the Copyright Office, create 
an electronic tracking record, acknowledge receipt of the application 
or document, provide for online processing of applications, deposits, 
and documents by examiners and catalogers, and notify applicants 
electronically that the registration or recordation has been completed. 
The Copyright Office digital repository will hold these digital 
copyright deposit materials in a secure and verifiable manner.
    2. Existing Copyright Office Systems.--The system components that 
process digital applications will interface with existing Copyright 
Office in-process (COINS) and cataloging (COPICS) automated systems. 
CORDS records will be compatible and integrated with existing automated 
Copyright Office records.
    3. Handle Management System.--Each digital object registered with 
the Copyright Office will have a single unique identifier called a 
``handle.'' The handle is used to locate the digital object and its 
associated rights and permissions information.
    Testbeds.--A testbed copyright registration system with electronic 
deposits will be available in mid to late 1995 for trial use for 
copyright registration of a limited number of digital works. 
Thereafter, a testbed recordation system will be developed and tested 
as well. As part of the testbed process, the Copyright Office will 
define the policies and procedures that permit the Office to receive 
and process copyright registrations and recordations of documents 
electronically.
    Future plans.--After completion of the registration and recordation 
testbeds, the Copyright Office plans to build on the basic system if 
sufficient funds are appropriated and available in fiscal year 1996 and 
thereafter to support further development. After analyzing the testbed 
project results, the Office plans to incorporate necessary changes and 
to expand the program systematically in phases, testing electronic 
submission of other formats of copyrighted materials submitted by 
representative groups of copyright owners.
                                 ______
                                 
                   The Library of Congress Home Page
                            american memory
    Documents, photographs, movies, and sound recordings that tell 
America's story. Resources for Educators: The Learning Page. New 
Collections: America from the Great Depression to World War II: Photos 
from the FSA-OWI, 1935-1945 and An American Ballroom Companion: Dance 
Manuals, ca. 1490-1920. Collection Previews: Railroad Maps: 1828-1900 
and Buckaroos in Paradise: Ranching Culture in Northern Nevada, 1945-
1982. New Feature: Today in History.
                    thomas: legislative information
    Full text access to current bills under consideration in the U.S. 
House of Representatives and Senate.
                              exhibitions
    You may have missed them on display in Washington, D.C. but now 
open indefinitely on the Internet. Updated: American Treasures of the 
Library of Congress.
                            library services
    Resources for libraries, information professionals, and 
researchers. These include: Acquisitions, Cataloging, Cataloging 
Distribution Service, Preservation, Reading Rooms, Research and 
Reference, Special Programs and Services, Standards, Library of 
Congress Catalogs, Access to Catalogs at Other Libraries.
                             research tools
    Resources for researchers and information professionals. These 
include the catalogs of the Library of Congress and other libraries, 
databases on special topics, and other Library of Congress Internet 
resources.
                                 ______
                                 

                 LIBRARY OF CONGRESS FISCAL 1999 BUDGET
                          [Dollars in millions]
------------------------------------------------------------------------
                                                  Amount       Percent
------------------------------------------------------------------------
Library of Congress salaries and expenses....       $239.4          60.3
    (Receipts)...............................         (6.5)  ...........
Copyright Office salaries and expenses.......         35.3           8.9
    (Receipts)...............................        (21.2)  ...........
Congressional Research Service salaries and           68.5          17.3
 expenses....................................
National Library Service for the Blind and            48.1          12.1
 Physically Handicapped salaries and expenses
Furniture and furnishings....................          5.7           1.4
                                              --------------------------
      Total appropriated (BA) \1\............        397.0   ...........
------------------------------------------------------------------------
\1\ Includes $27.7 million in receipts.
 
Source: Fiscal year 1999 budget, p. 1.


           LIBRARY OF CONGRESS FISCAL 1999 BUDGET--ALL SOURCES
                          [Dollars in millions]
------------------------------------------------------------------------
                                                   Amount      Percent
------------------------------------------------------------------------
LOC appropriation.............................     \1\ $397         75.3
Revolving funds...............................         12.8          2.4
Gift and trust funds..........................         14.6          2.8
Reimbursable prog.............................         87.0         16.5
AOC appropriation.............................         16.1          3.0
                                               -------------------------
      Total funds available...................        527.5  ...........
------------------------------------------------------------------------
\1\ Includes $27.7 million in receipts.
 
Source: Fiscal year 1999 budget, p. 7.


                  LIBRARY OF CONGRESS YEAR 2000 PROJECT
     [Percent of 103 Library of Congress mission-critical systems by
                              disposition]
------------------------------------------------------------------------
                                                   Amount      Percent
------------------------------------------------------------------------
Systems to be repaired........................           33           32
System to be retired..........................            1            1
Systems still being analyzed..................            3            2
Systems already compliant.....................           34           33
Systems to be replaced........................           32           31
------------------------------------------------------------------------

                                 ______
                                 
    Prepared Statement of Marybeth Peters, Register of Copyrights, 
                            Copyright Office
    Mr. Chairman and Members of the Subcommittee: I appreciate the 
opportunity to present the budget request of the Copyright Office for 
fiscal year 1999. 1997 was an important year; it was the 100th 
anniversary of the Copyright Office and of the position of Register of 
Copyrights. During these 100 years the role of the Office has been one 
of leadership in the establishment of U.S. copyright policy and service 
to the nation. The record has been one of solid achievement, and this 
year is no different.
    The Office processed 627,864 claims, registered 569,226 which 
represented over 700,000 works, recorded 16,548 documents with more 
than 250,000 titles, collected over $15,000,000 for our services and 
obtained over 850,000 copies of works worth over $25,000,000 for the 
collections of the Library. Additionally, we handled 421,150 requests 
for information, and the Licensing Division collected approximately 
$185,000,000 in royalty fees.
    The copyright-based industries once again were at the forefront of 
our economy. They grew twice as fast as the rest of the economy as a 
whole and surpassed every other export sector except automotive and 
agriculture. These creative industries depend on strong copyright 
protection here and abroad.
    Copyright protects works of authorship which comprise a wide 
variety of products and services. These include traditional products, 
such as print materials, films, sound recordings, photographs, 
sculptures, maps and television programs and electronic products, such 
as computer programs and databases. Digital technology and the growth 
of computer and telecommunications networks, particularly, the 
Internet, have posed many challenges to the protection and enforcement 
of copyright. These are of critical concern to authors, owners of 
copyright, as well as to users of copyright material, and the Copyright 
Office as well as the Congress spent many hours on ``digital agenda'' 
issues in 1997.
    In fiscal year 1999 the Copyright Office will focus on three major 
initiatives--
  --CORDS (the Copyright Office Electronic Registration, Recordation 
        and Deposit System)
  --Security of materials
  --Planning for a new schedule of statutory fees and revising the 
        discretionary fee schedule for special services.
    With respect to CORDS, there were significant achievements in 1997. 
Stanford University and MIT Press joined Carnegie Mellon University as 
test sites and proved the concept of the system. The system's 
capabilities were expanded to cover additional classes of works, 
multiple hardware platforms and operating environments, as well as 
multiple Internet browsers. Planning was done to begin accepting 
electronic applications with traditional deposits, and a long-range 
business plan analyzing the costs and benefits was completed. A batch 
mode interface was created to support publishers who submit large 
numbers of claims, and an extensive outreach effort to gain new 
partners for the full or the partial system is underway.
    The Copyright Office and its expert consultants will continue to 
build on and enhance the basic production system, incorporating changes 
from the test results as well as the latest advances in technology. The 
Office must expand the program systematically in a series of carefully 
constructed test phases; consequently, we are requesting authority, 
funded through increased fee receipts, to add up to three program 
analysts and three computer specialists to deal with an increasing 
workload.
    CORDS will play an important role in our networked digital world. 
It is essential to the future of the Copyright Office. It will also 
serve as an important electronic acquisition tool for the Library, and 
an essential component in rights management systems throughout the 
world.
    Let me turn to security. Over a million copies of works come in to 
the Copyright Office for possible use by the Library of Congress in its 
collections or exchange programs. Keeping those copies secure is our 
duty; this year we again made a number of improvements including naming 
a Security Manager to coordinate our security initiatives, which are 
part of the Library's Security Plan.
    A key component of the plan is expanding the theft detection and 
accession (ownership) marking programs, and the Office is seeking 
$993,521 to ensure the application of anti-theft devices and the 
marking of all materials. Additionally, when the Library installs its 
reader registration system in the Madison Building, the Office plans to 
automate its manual reader registration system in five public service 
areas. Consequently we are requesting $47,000 for required computer 
software and equipment.
    Also, the Copyright Office is participating in the Library's Risk 
Assessment program which will assess vulnerabilities of theft, damage 
and physical deterioration to the Library's Heritage Assets. In 1997 a 
risk assessment of CD's and CD-ROM's in the Office was conducted. We 
are requesting $225,000 to conduct five additional assessments to 
identify control weaknesses and develop a plan of action.
    Last year I reported on our attempts to get additional fee setting 
authority. I am happy to report that such authority was enacted into 
law on November 13 in a technical amendments act (Public Law 105-80). 
The Office can propose fees up to full cost recovery; however, these 
fees must be fair and equitable and must give due consideration to the 
objectives of the copyright system. The proposed statutory fee 
schedule, which is to be accompanied by an economic analysis, is to be 
given to the Congress; the fees can go into effect 120 days after the 
schedule is submitted to the Congress unless during that 120 day period 
a law is enacted stating in substance that the Congress does not 
approve the fee schedule.
    In anticipation of this legislation, the Copyright Office began the 
process of determining the costs of registering claims, recording 
documents and providing related services by hiring a consulting firm 
with expertise in cost accounting and an expert in the new Federal 
Managerial Cost Accounting Standards and establishing a Copyright 
Office Fee Analysis Task Group. The Office believes that certain 
expenses, e.g., those related to obtaining copies of works for the 
Library through the mandatory deposit provisions of the law and the 
Office's policy program are not, and should not be, recoverable through 
fees. These activities would continue to be funded by appropriations.
    The consulting firm was guided by the Federal Accounting Standards 
Advisory Board (FASAB) cost accounting standards which require 
measuring, recognizing and reporting the full cost of programs. Full 
cost is defined as the value of all resources that were applied to the 
production and delivery of an activity, good, or service. Thus, costs 
must be identified and recognized regardless of which government entity 
funded the expenses. This is true even if only a portion of the full 
cost can be recovered.
    With respect to the statutory fees, the Office plans to meet with 
the copyright industries, authors' groups and other affected parties. 
The fee structure is complicated; therefore, the Office will publish a 
list of questions with one or more possible fee schedules and formally 
seek input through public hearings and public comment. Some of the 
questions are: Should the registration fee differ according to the type 
of material being registered? Should a motion picture cost the same as 
a newspaper or a song? Should a computer program cost the same as a 
photograph? Should a distinction be made depending on whether the work 
is published or unpublished or whether the work is one that is made for 
hire? After considering the cost study, the operational and policy 
issues as well as the input from the public, the Office will prepare 
the required economic analysis and propose a schedule of statutory fees 
to the Congress. Because of these various factors, the fiscal 1999 
budget does not include statutory fee increases.
    Another provision of the new law allows for a percentage of our 
prepaid fees to be invested in U.S. securities and the interest earned 
can be used to improve the Office's operational efficiency. We are 
implementing this, and it will be operational in fiscal year 1999. The 
potential annual interest is between $30,000 and $50,000.
    The Office is also in the process of raising its discretionary fees 
for existing special services and imposing several new fees. These 
services are varied and include, for example, expedited handling and 
first and final appeals of refusals to register. We anticipate that we 
might receive as much as $1,000,000 in additional receipts from these 
fees; however, we are reducing our request for spending authority by 
$1,340,000 because of reduced GATT receipts. In 1995 and thereafter the 
Office sought additional spending authority in anticipation of an 
unknown but potentially large increase in work brought about by the 
GATT Uruguay Round Agreements Act, Public Law 103-465, 108 Stat. 4809 
(1994). Authors from World Trade Organization countries and countries 
that are members of the Berne Convention for Literary and Artistic 
Works had copyright protection restored for many of their works that 
were in the public domain in the United States. During a specified two 
year period owners of such works can file notices of intention to 
enforce their rights with the Copyright Office. For most countries, the 
filing period was January 1, 1996 to December 31, 1997; consequently, 
it has expired. The Office requested spending authority for fiscal 
years 1996, 1997, and 1998 based on potential filings that in fact 
never materialized; thus, the Office had higher spending authority than 
what proved necessary. Since few will be eligible to file notices of 
intent to enforce their copyright, any future GATT filings will have 
little effect on the budget. The bottom line is that due to higher fees 
but reduced anticipated GATT receipts, we are requesting spending 
authority of only $16,000,000.
    Let me conclude with the provision in the technical amendments act 
that authorizes the Copyright Office to pay arbitrators directly. As 
you know, the Office oversees Copyright Arbitration Royalty Panels 
(CARP's), which handle distribution proceedings of royalties collected 
under certain statutory licenses. In distribution proceedings, the 
Copyright Office is now empowered to pay the arbitrators directly with 
funds from the relevant royalty pool. Previously, the parties were 
billed by the arbitrators, and the parties paid the arbitrators. 
Because of this change we will need the authority Congress initially 
approved in fiscal year 1998 to expend up to $1.8 million from 
offsetting collections to pay the arbitrators engaged in distribution 
proceedings in fiscal year 1999.
    Thank you, and I welcome your questions which I would be pleased to 
answer now or more fully in writing.

                  opening remarks by gen. donald scott

    Senator Bennett. Thank you.
    General Scott. Thank you, Mr. Chairman, for the opportunity 
to appear with Dr. Billington to present our fiscal year 1999 
budget request.
    This committee's approval of our fiscal 1997 and 1998 
funding levels helped us to establish better management 
practices and to develop our work force so that they will be 
more efficient and effective in the new millennium. Mr. 
Chairman, I would like to highlight a few of those 
accomplishments that we had last year.

                       Library's accomplishments

    First, we were able to take Dr. Billington's vision, and 
the guidance provided by Congress, and to come up with a 
strategic plan that takes us out to and through the year 2004. 
As you saw in the video, we have made the Library's holdings 
more available through electronic means, and we will continue 
to migrate our systems, so that they can be more compatible 
with the information age and technology in that regard.
    The legislative information system that we put online at 
the beginning of the 105th has dramatically improved 
communication between the Congress and other legislative branch 
agencies. We also managed to educate most of the 560 managers 
and supervisors that we have in the Library of Congress. We 
provided them techniques on how they can get better results and 
improve the work environment at the same time.
    We are currently offering a class for our staff. This is a 
1-day class. They will have access to the same information that 
we hope will help us to better prepare them to do the job for 
now and the 21st century.
    And in the area of financial management, we are very, very 
pleased to announce that the Library achieved its first ever 
unqualified, clean audit opinion on our consolidated financial 
statements from an independent firm. This has been a lot of 
work, but it helps us show that we are more accountable for the 
funds that are entrusted to our care, whether appropriated or 
gift or trust funds. We will work very hard to try to stay in 
that elite fraternity.
    We also managed to cut the arrearage by another 1 million 
items during last year.
    So, in short, Mr. Chairman, we have realized several goals 
last year that helped our management practices. We think it 
will continue to improve and modernize our work force so that 
they can render better service to the Congress and to the 
American people.

                         Priority budget items

    Now, as Dr. Billington pointed out, we will continue to 
need the support and assistance of this committee. Included in 
this budget request, we have five items that we believe are 
critical if we are to continue to make progress in this area. 
First and foremost, we have placed at the highest priority our 
effort to make sure that all of our automated systems are year 
2000 compliant. In that regard, the integrated library system 
that this committee approved for us last year, which is year 
2000 compliant, is scheduled to be installed by the 1st of 
October, 1999.
    That is going to help us improve our collection security. 
It is also going to help us have a better inventory and help us 
connect the other operational processes throughout the Library.
    Also, we have formed an integrated library system project 
team that is headed up by a noted and respected librarian, who 
understands computers. That system is moving ahead. We are 
currently reviewing requests for proposals. We will present, 
within the next month, an implementation plan for the Congress 
to approve prior to us going out to purchase this system.
    To complete our year 2000 compliance needs, we have also 
included in this budget a request for $2 million, that will 
purchase computers. The computers that we purchase will replace 
a like number that we have assessed as not economically 
feasible to fix. So we are asking for $2 million to help with 
this effort.
    We have four other items that we are asking for, that we 
think are very important. In the area of security, we are 
asking for $2.5 million to fund key elements in our security 
plan. In the area of offsite storage, we are asking for $1.3 
million to begin operations at two offsite collection and 
storage facilities. And for talking books, we have reduced our 
request from $1,250,000 to $450,000. We would like your 
approval to apply the $800,000 in rental savings toward the 
purchase of additional talking book machines for the blind and 
physically handicapped.
    Finally, in the area of congressional staff succession, we 
are asking for $872,000 for the Congressional Research Service, 
to support our staff succession plan, which we believe is very 
necessary to provide the same high level of service that the 
Congress now receives and has grown to expect from the 
Congressional Research Service.
    In total, we are asking for a 6.2-percent net increase, 
which is $21.6 million over what we asked for last year. Now, 
57 percent of that number is for wage and price increases, 
which continues to be the largest portion of our budget.
    Further details that you might ask for, Mr. Chairman, are 
in Dr. Billington's formal statement and in our budget 
justification. So my colleagues and I would welcome any 
questions.
    Senator Bennett. Thank you.
    Mr. Mulhollan.

                 opening remarks by daniel p. mulhollan

    Mr. Mulhollan. Thank you, Mr. Chairman, Senator Dorgan.
    I am pleased to be here to discuss the fiscal year 1999 
budget request for CRS. First and foremost, I want to assure 
you that we will continue to focus our efforts on offering 
support for the legislative work of the Congress within the 
fiscal decisions you make.
    I know your time is short; I will be brief.

                              CRS mission

    Mr. Chairman, Senator Dorgan, the CRS statutory mission is 
to provide Congress with, and I quote, ``analysis, appraisal, 
and evaluation of legislative proposals in estimating the 
probable results of such proposals.'' In other words, what are 
the unanticipated consequences of the measure?
    To fulfill that mission, it is vital that we maintain 
without further diminution our analytic and research capacity. 
Crucial to that purpose, our budget has two requests. First and 
most importantly, is our request for funding to cover our 
mandatory costs for personnel, which constitutes 90 percent of 
the service's total operating budget. The other 10 percent of 
those costs are allocated for the tools required to perform 
research and produce analysis. We are also asking that the 
fiscal year 1999 appropriations cover cost increases due 
directly to the effects of inflation.
    Second, we are asking that the Congress help us to 
implement part of our succession initiative. Let me stress here 
that we are not asking the Congress to support the full 
initiative. We are undertaking most of the activities in 
support of succession within our current resources. What we are 
asking, however, is that the Congress assist us for a limited 
time to add 20 staff in each of the fiscal years, 1999 to 2001, 
and allow us to use the subsequent 5 years to reduce staff back 
to current levels.
    We seek this assistance because, by 2006, one-half of CRS's 
current staff will be eligible to retire. Nearly two-thirds of 
those, about 250 staff, plan to leave in that timeframe. These 
losses pose a major challenge to our ability to ensure the 
continuation of our analytic services to you. Some of the 
losses are right around the corner. By 2000, expert staff who 
cover such areas as monetary affairs, crime and criminal 
justice, congressional committee operations, global climate, 
and defense policy and budget, will leave. These losses will 
accelerate, affecting such areas as tax policy, Social 
Security, and pensions, legislative and budget procedures and 
processes, and Asian affairs.
    By 2006, virtually all areas of legislative support that 
CRS now provides will be in jeopardy.
    Finally, as my written statement emphasizes, we are taking 
full advantage of the efficiencies and opportunities that 
existing and emerging technologies provide. As we do, we are 
concentrating CRS resources on direct service to the Congress. 
It is, therefore, my responsibility to call to your attention 
the possible consequences of legislation introduced in both the 
Senate and the House that, if adopted, could divert our focus 
away from the immediate legislative needs of Members.

                  CRS issue briefs and reports online

    This legislation would require CRS to make all of its issue 
briefs and reports, which appear on our congressional web site, 
directly available to the public. Now, we appreciate the 
compliment inherent in the proposals. CRS has traditionally 
played an important role in assisting Members in providing 
their constituents with relevant information and analysis on 
public policy, and remains committed to doing so.
    Last year, 749,000 CRS reports and issue briefs were 
distributed to Members and committees. A good portion of those 
were used to inform constituents. Developments in web 
technology make it possible for CRS to further assist Members 
and committees in the electronic distribution of CRS products 
at your election. I believe that the direct disclosure of the 
information residing on the CRS home page could have 
significant congressional, operational, and legal implications 
both for the service and the Congress.
    To briefly summarize this concern: First, the proposal may 
affect your relationship with your constituents, who have 
historically gone directly to you when they have questions on 
legislation. Second, it may also change the way CRS frames and 
analyzes legislative issues. Third, the proposal raises legal 
questions, such as those related to protection of 
confidentiality under speech and debate, and copyright 
obligations. Finally, the proposal could have significant 
operational costs for CRS.
    Mr. Chairman, I would have similar concerns if we were 
discussing direct public access to the legislative information 
system. I would like to submit for the record and your 
consideration, additional materials considering the estimated 
cost of implementing the legislation, the history of 
congressional actions on this issue, and legal and 
constitutional issues involved for CRS and the Congress.

                           prepared statement

    I would be pleased to discuss further any part of our 
budget request, as well as answer any questions you may have.
    Thank you.
    [The statement follows:]
               Prepared Statement of Daniel P. Mulhollan
    Mr. Chairman and Members of the Subcommittee: I am very pleased to 
appear here today to discuss the fiscal year 1999 budget request for 
the Congressional Research Service. I would like to outline briefly the 
accomplishments of the Service, to discuss the challenges facing us in 
the near future, and to assure you that we have and will continue to 
focus our efforts on supporting the legislative work of the Congress in 
an effective manner within the fiscal decisions you make.
            sustaining the quality and scope of crs services
    The budget we submit for your consideration today is based on our 
statutory mission to assist the Congress in the analysis of legislative 
proposals. To fulfill that mission, it is vital that we maintain, 
without further diminution, our analytic and research capacity. To do 
this, we seek funding for three purposes: first, to cover mandatory 
personnel costs; second, to begin a succession initiative to address 
the likely loss of a large number of CRS experts between now and 2006; 
and third, to fund the price level increases which support the conduct 
of our research and the delivery of our products.
    Ninety percent of the CRS budget funds personnel; therefore, the 
most significant item in our request is for mandatory personnel costs. 
As part of a legislative civil service, we are required, by law, to 
make mandated pay raises and to provide within-grade increases and 
promotions when staff meet the standards of their position plans. As 
you know, since 1992, CRS staffing has decreased by nearly 100 people 
due to funding constraints. If these costs are not fully funded, we 
will have no choice but to reduce our staff further. While we have 
striven to manage reductions in the past so as to avoid dramatic cuts 
in service, the cumulative effect of less than full funding for all 
mandatories is a systematic reduction in our capacity to provide 
analysis on legislative proposals. In short, further cuts to staff 
threaten our ability to fulfill our statutory mission.
Succession initiative
    Our budget request also seeks funding to assist us in carrying out 
our succession initiative, which is designed to address an additional 
threat to our analytic capacity. As I stated in my testimony before 
this Committee last year, by 2006, half of CRS's current staff will be 
eligible to retire. Nearly two-thirds of those eligible, about 250 
people, have told us that they indeed plan to leave during that time 
frame. These losses pose a major challenge to our ability to ensure the 
continuation of our analytic services to the Congress.
    The risk CRS faces today is the result of two circumstances. First, 
the Legislative Reorganization Act of 1970 expanded the statutory 
mission of the Congressional Research Service to provide the Congress 
with ``analysis, appraisal, and evaluation of legislative proposals'' 
in order to assist the Congress in: (A) determining the advisability of 
enacting such proposals; (B) estimating the probable results of such 
proposals and alternatives thereto; and (C) evaluating alternative 
methods for accomplishing those results; and, by providing such other 
research and analytical services * * * appropriate for these purposes, 
otherwise to assist in furnishing a basis for the proper evaluation and 
determination of legislative proposals and recommendations * * *.
    Based on an underlying belief that the Congress needed this 
expertise, and that it could most effectively and efficiently meet that 
need through a nonpartisan, shared pool of experts, the Congress 
subsequently provided funding for a significant increase in CRS staff 
capacity to implement the Act. Many of the staff hired to fulfill these 
responsibilities have stayed to make CRS what it is today and are now, 
or will soon become, eligible to retire.
    The second circumstance is the one which has prevented us from 
fully addressing this demographic situation before now. As a result of 
the budget constraints we have experienced since 1992, the Service has 
been unable to fill behind most of the resignations, deaths or 
retirements of analysts and specialists. Therefore, CRS does not have 
sufficient staff ready to take over many of the complex areas of 
analysis as our most experienced staff leave. But for this downsizing, 
CRS would now have on its staff a greater number of junior and mid-
level analysts and information specialists developing their subject 
expertise, analytic skills, and knowledge of the legislative process 
and congressional environment. If we had been able to replace staff who 
left as a result of normal attrition over this time period, we would be 
in a better position to sustain our analytic capacity even as our most 
senior people retired.
    Our first step in managing such a wholesale loss of senior experts 
was to develop and implement a continuous process to assess the risks 
associated with this loss--a risk that is particularly threatening at a 
time when the Congress faces relatively high turnover in staff and 
Members, and the complexity of public policy debates increases. We 
conducted a staff survey to determine the scope of the problem, and 
undertook a subsequent assessment of the impact of each individual's 
retirement plan on the Service's overall analytic capacity, by subject 
area, between now and 2006.
    The results of this risk assessment indicate that, as early as the 
year 2000, CRS will experience diminished capacity in a growing number 
of subject areas, including civil rights, crime and criminal justice 
programs, congressional committee operations, executive management and 
personnel, global climate change and earth science, and defense policy 
and budgets. After the year 2000, the losses in analytic and research 
capacity accelerate, affecting areas such as tax, legislative and 
budget processes, elections, social security and pensions, and 
expertise on Asia. By 2006 virtually all areas of legislative support 
that CRS provides to the Congress would be affected.
    The CRS staff eligible to retire in the next six years are our most 
senior, independent, and authoritative analysts and specialists. Unless 
we can get a ``head start'' on replacing them, we will have to wait 
until the year they retire, and hire their replacements without 
sufficient lead-time to bring those replacements up to the level of 
competence necessary to sustain our current analytic and research 
services. Under this scenario we would have to hire replacement staff 
at the mid- or senior-levels to minimize service disruptions. Our 
experience hiring at these levels results in concern that we would be 
less likely to find a sufficient degree of diversity in the applicant 
pool than would be the case with entry-level hires. In addition, mid- 
and senior-level experts may not have all of the quantitative skills 
that are now standard requirements in public policy graduate schools. 
These skills have become increasingly critical to serving the Congress 
as we analyze research and information and formulate methodologies to 
analyze alternative methods for approaching public policy issues like 
health, social security, transportation, and tax.
    To address this risk, we have adopted a number of strategies within 
our current resources. We developed procedures to provide more 
flexibility in assigning work to staff on-board, including formal 
assignments and professional details; we also have undertaken 
organizational adjustments. We have provided upward mobility to staff 
through formal programs including participation in the National War 
College, the Industrial College, and the Fulbright fellowship program. 
In addition, we have re-instated the Graduate Recruit Program--a 
program that allows us to hire a limited number of students enrolled in 
graduate programs who anticipate completion of their graduate degrees 
during the subsequent academic year. We also are using a formal 
resource allocation process to fill vacancies in the highest risk areas 
and track the outcome of these hiring decisions.
    In developing our succession initiative, we examined extensively 
other public and private sector succession efforts. We were careful in 
our design to minimize the likelihood of creating another workforce 
cohort that would cause the need for future succession planning of this 
scope. The combination of hiring at the entry-level (our intentions for 
the succession plan included in the budget request), and hiring at mid- 
and senior-levels (for some types of positions) will help us avoid 
creating a similar ``bulge'' in the future. This initiative represents 
our best thinking on how we can address the concentrated loss of expert 
staff while sustaining our analytic capacity in those subject areas 
most heavily affected.
Objectives and Structure of the Succession Plan
    The plan is designed to bring new staff to CRS before our experts 
retire so that their institutional memory on issues, their knowledge of 
the legislative process, and the CRS service qualities of 
confidentiality, objectivity, timeliness, accuracy, and responsiveness 
can be passed on. We have tried to minimize the additional resources 
needed from the Congress for this plan by managing most of the 
succession initiative within current CRS resources. The assistance that 
we are requesting from the Congress through our budget request for 
fiscal 1999 would temporarily increase our staff by 60 over a three 
year period (fiscal 1999-2001) then reduce staff by ten each year for 
the following four fiscal years and by twenty in the final year of the 
plan (fiscal 2006). By 2006 CRS would return to the fiscal 1997 
authorized staff level. We believe that our succession plan is fiscally 
sound and limited in scope--we are asking for only 60 staff to 
transition through the potential loss of nearly 250. In addition, our 
analysis supports the conclusion that we can achieve the out-year 
reductions in staff through expected retirements. The Service's fiscal 
1999 appropriation submission requests 20 FTE's and $871,770 to 
implement Phase I.
    During the fiscal 1999 to fiscal 2001 period the new staff hired 
under the plan would work closely with senior analysts in an 
apprenticeship capacity, whereby the senior staff could share their 
knowledge and experience in their discipline within the legislative 
context. While entry-level staff will come with strong analytic and 
research skills, their academic training must be supplemented with on-
the-job training and experience within the legislative environment. To 
maximize the development of subject expertise and knowledge of the 
legislative environment, our experience has been that the best training 
is working through budget and appropriation cycles and reauthorizations 
of major legislation. This work exposes new staff to the type of 
analysis that uniquely informs the various stages of legislation--from 
policy formulation and conceptualization to introduction and analysis 
of various bill proposals to hearings to committee reporting to floor 
debates to conference consideration to final passage to implementation 
and finally to oversight.
    Our experience has shown that the development of these unique 
skills takes four to five years. During this time staff learn how to 
work independently. They acquire and refine skills and develop the 
ability to (1) understand the legislative and budget procedures as 
practiced; (2) examine issues from an unbiased, nonpartisan 
perspective; (3) present analysis and research in a manner and form 
that best meets the clients' legislative needs; (4) develop and 
maintain contacts with subject experts in academia, government 
agencies, and elsewhere; and (5) perhaps most importantly, develop 
trust relationships with Members and staff. Each of these attributes is 
critical if CRS is to continue the close support on which the Congress 
has come to rely.
Price Level Increases
    The third item in our budget request is for funding to cover price 
level increases which support the conduct of our research and the 
delivery of our products. A significant element of this support is 
technology and the opportunities it provides to the Service to more 
effectively carry out our statutory mission. It is in this context that 
I offer the following summary of some of the many uses CRS is making of 
our electronic resources:
    The CRS Home Page.--This secure web site makes key CRS services 
available to the Congress electronically through the CAPNET. We are 
continually enhancing the CRS Home Page to offer the Congress a 
dynamic, hyperlinked, and interactive platform that makes available the 
latest information and analysis to assist the Congress in its 
legislative work. Congressional users can access the full text of Issue 
Briefs and selected reports and the weekly Legislative Alert. In 1998, 
we hope to expand the Home Page to provide the Congress with the full 
text of more of our congressional distribution products. We are also 
designing ``Electronic Briefing Books''--a new concept that will 
integrate key information and analysis on active legislative issues and 
present them in easy to use electronic formats. In addition, we are 
exploring new ways of preparing reports, taking advantage of electronic 
capabilities in graphics, map designs, and interlinking among 
information resources, particularly with the Congress' Legislative 
Information System.
    Enhanced security of computer and information systems.--CRS is 
working diligently to protect information from unauthorized access, to 
assure that congressional users will be provided uninterrupted service, 
and to plan for disaster recovery. Work is well under way in this area 
and is being led by a CRS Systems Security Team. This team has 
undertaken an agency-wide security assessment and has consulted with 
the National Security Agency; designed and delivered a program to 
educate all CRS staff on security matters; developed a formal process 
for reporting and tracking unusual activity on our electronic systems; 
and instituted strict password protocols for all CRS systems.
    Year 2000 Compliance.--CRS has been aware of the implications of 
Y2K compliance for several years and has been formulating plans to 
test, certify, and replace our systems for some time. CRS prepared a 
report for the Congress in 1996 on the implications of Y2K for computer 
systems nation-wide. This report is cited in S. 22, a bill to establish 
a commission on the Year 2000 computer problem, sponsored by Senator 
Moynihan. We also have been developing contingency planning to address 
disruptions that might occur to the critical systems within our 
control. Our goal is to confirm Y2K compliance for all our systems by 
the end of this year.
    The Legislative Information Retrieval System (LIS).--The Service 
also remains committed to assisting the House and Senate refine its 
Legislative Information Retrieval System, the LIS, to advance the 
timely availability of and accessibility to critical legislative 
information. The LIS offers a wealth of information to the Congress and 
to legislative branch agencies on current legislation, floor action, 
amendments, the full text of the Congressional Record, and its links to 
other legislative agency Internet sites. The Senate Committee on Rules 
and Administration and the Committee on House Oversight established 
policies and provided oversight as CRS worked with the Library of 
Congress' Information Technology Office to design, develop, and deliver 
the first release of the retrieval system at the start of the 105th 
Congress. CRS continues to work closely with these committees, the 
officers of the House and Senate, and with congressional users to 
enhance the system so that it can replace the previous systems by the 
start of the next Congress. The most recent enhancements to the LIS, 
specifically designed for the Senate, are links to information on 
recorded votes and amendments pending on the Floor. I am also pleased 
to report that the Congress has chosen to include in the LIS several 
sites on the CRS Home Page, including our appropriations page, our 
appropriations status table, the Legislative Alert, our Public Policy 
Literature file, our guide to the legislative process, and our 
legislative reference sources and law sources.
    I also would like to draw your attention to the results of a recent 
survey initiated by the Secretary of the Senate. The survey indicates 
that 92 percent of the Senate respondents go on-line, either often or 
always, for analysis and summary information about legislation. The LIS 
is the most cited resource for that information. I also found 
encouraging that when the respondents cannot find certain legislative 
information on-line, they most frequently go to CRS for assistance.
           distribution of crs written products to the public
    As my testimony today has emphasized, we are making every effort to 
concentrate CRS resources on direct service to the Congress and to take 
full advantage of existing and emerging technologies. It is therefore 
my responsibility to call to your attention the possible consequences 
of a proposal which, if adopted, could divert our focus significantly 
away from the immediate needs of the Congress.
    As the Members of this Committee are aware, legislation has been 
introduced--S. 1578 in the Senate and H.R. 3131 in the House--requiring 
that all CRS issue briefs and reports, which appear on our 
congressional Web site, be made directly available to the public by CRS 
via the Internet. While my colleagues and I appreciate the compliment 
inherent in the proposal for direct dissemination, I believe it is 
important to bear in mind the implications of such a major change in 
congressional policy.
Implications for Member-Constituent Relations
    First and foremost, I am concerned that this proposal threatens the 
important relationship that Members have with their constituents. 
Historically, constituents have gone to Members of Congress when they 
have questions about legislation. As such, the Congress has reserved 
for itself the right to distribute CRS materials to the public (either 
by utilizing the contents of a CRS analysis, forwarding the analysis in 
whole or in part, or downloading sections of an electronic version of 
the CRS analysis to be incorporated into the response). Likewise, 
receiving constituent correspondence directly assists Members in their 
understanding of constituent awareness, concerns, and preferences 
regarding public policy decisions. The wholesale direct dissemination 
of CRS products to the public would bypass this longstanding 
relationship by denying constituents the benefit of their Members' 
additional insights, party viewpoints, or regional perspectives on CRS 
analyses.
Consequences for CRS Operations
    In addition to these direct impacts on Members, CRS believes that 
wholesale direct dissemination of CRS products would have serious 
consequences for the Service itself, requiring us to divert scarce 
resources away from our statutory mission. Our analysts inevitably 
would have to shift the focus of much of their work away from the 
direct needs of the Congress to address the much more diffused and 
varied perspectives and interests of the public. Currently, CRS is the 
only organization, public or private, that continually updates the same 
product to focus our analysis on the point where congressional 
decision-making in each Chamber is occurring at the moment. In order to 
meet the immediate demands of a pressed congressional calendar, CRS 
authors often provide minimal context and background in their analyses, 
assuming the congressional reader's knowledge of the various stages of 
the legislative process, the distinctions between authorizing and 
appropriating decisions, and similar matters. Were CRS authors to 
broaden the coverage and scope of their products to meet the needs of 
an expanded, non-congressional audience, they would do so at the 
expense of refined, concise analysis targeting the needs of Members and 
staff working directly in the legislative arena. Simply put, working 
for an audience of 535 Members is quite different from working for 535 
million individuals, or whatever the world-wide Internet audience is 
today.
    Another consequence of wholesale dissemination is that much of the 
efficiency envisioned in our business plan to deliver services in an 
electronic environment would be lost. We have designed our Home Page to 
make our reports, issue briefs, and services readily available and to 
present them in a format that can be customized by each congressional 
client, allowing the user to draw from it that information of greatest 
value, modify it, and easily explore related topics both within CRS and 
through links to outside sources. Increasingly, the analytic products 
created by CRS are drafted with the full expectation of the 
augmentation possible through those electronic links. As an evolving 
interactive, interconnected and constantly updated resource tool for 
the Congress, our Home Page is not merely a repository for completed 
documents; nor is it primarily a document delivery system. Having a 
second CRS Web site directly available to the public, which cannot take 
advantage of such links will require us to establish two vehicles of 
service, and, given limited resources, will diminish our effectiveness 
in meeting your legislative needs.
Legal Issues
    Additionally, S. 1578 and its companion House bill raise 
significant legal issues for CRS. Wholesale dissemination of CRS 
products could bring into question the availability of speech or debate 
clause protection undermining the presumption of confidentiality, which 
is so crucial to the trust relationship between CRS and our 
congressional clients. Relevant Supreme Court rulings indicate that the 
dissemination to the general public of CRS products would not be 
considered a legislative act but would be viewed by the courts as an 
exercise of Congress' representational function, for which speech or 
debate immunity is not available. Those engaged in the preparation and 
public distribution of CRS products could be vulnerable to a variety of 
judicial and administrative proceedings. Wholesale dissemination also 
carries with it the risk of copyright infringement claims. If access to 
CRS products is broadened, our ability to use copyrighted material in 
our reports might be restricted or denied altogether.
Cost Factors
    A final concern posed by S. 1578 involves the costs to CRS of 
implementing this legislation. Some of these ``costs'' are quite 
difficult to quantify, such as the effects of possible loss of speech 
or debate protection or the consequences of diminishing the 
constitutional role of Members as direct providers of information to 
their constituents. In other areas, although cost estimates may be more 
feasible, they must be regarded as somewhat speculative, inasmuch as 
CRS has no previous experience dealing with direct large-scale 
dissemination of our products and thus cannot readily anticipate the 
behavior of Members and the public in this context.
    With these caveats, and recognizing that our analysis is still 
ongoing, I can say to you with confidence that enactment of legislation 
such as S. 1578 would require a substantial commitment of CRS resources 
in four key areas:
    First, staff time would have to be devoted to creating and 
maintaining a separate CRS Web site for dissemination to the public.
    Second, additional costs can be expected to handle the anticipated, 
and indeed inevitable, large increase in direct contacts between CRS 
and the general public resulting from wholesale direct dissemination.
    Third, we anticipate that the heightened public profile of our 
reports and issue briefs, combined with the fact that many non-
congressional users do not have the capacity to down-load documents or 
may hear of CRS products but have no Internet access available to them, 
will lead to an increased demand for the paper copy of CRS products in 
the form of Member requests to CRS on behalf of their constituents.
    Finally, Members themselves, concerned that our products will be 
circulated far more extensively than in the past, would likely place 
many more requests for tailored, confidential memoranda in order to 
afford themselves the opportunity to reflect upon and consider 
questions emerging from legislative proposals before having to respond 
to public inquiries. Confidential memoranda designed for a single 
client, which cannot be released to other Members without the 
requestor's consent, are far more expensive on a per-unit basis than 
products which can be available (either electronically or in hard copy) 
to all interested congressional offices.
    Mr. Chairman, in recent years the Congress has assumed 
proportionately larger cuts than the Executive Branch, thereby reducing 
the overall resources available for congressional operations. I am 
deeply concerned that the enactment of S. 1578 would create a new 
public mission for CRS that inevitably would divert precious funds from 
what must remain our primary mission--to provide analysis and 
information to assist you in understanding and assessing the 
consequences, both intended and unintended, of the legislative 
proposals before you.
    To summarize our position on this issue, we believe that S. 1578 
raises significant issues, both for the Congress and for CRS, which you 
and your colleagues may wish to consider before you decide to change 
the policy governing the dissemination of our products. My testimony 
today does not represent a CRS position on this issue, for this 
decision clearly rests with the Congress, However, it is my 
responsibility to inform you of possible unintended consequences or 
implication of such a change in policy. To assist you in your 
deliberations, I would like to submit for the record additional 
materials concerning the history of congressional action on this issue, 
the legal and constitutional issues involved, the estimated cost of 
implementing this legislation, as well as the more general question of 
Members' potential liability for disseminating material over the 
Internet.
    In conclusion, Mr. Chairman, CRS submits to you today a budget that 
takes into account the efforts throughout the legislative branch to 
adapt to continuing fiscal constraints. We ask you today to consider 
the three elements in our request: (1) to provide us funds to support 
increases in mandatory staff costs; (2) to support our succession 
initiative by permitting us to temporarily increase our staff size to 
ensure the availability of expertise to the Congress; and (3) to fund 
price level increases. The goal of this budget request is to support 
our critical programs within limited resources, and allow us to 
continue fulfilling our statutory mission. We want the Congress to turn 
to CRS first when legislative research and analysis are needed, and we 
keep this focus as we work each day with you and your staff.
    Mr. Chairman, I would be pleased to discuss these issues in more 
detail and to answer any questions that Members of the Subcommittee 
might have.
                                 ______
                                 
    Congressional Policy Concerning the Distribution of CRS Written 
                Products to the Public--January 2, 1998
    The following discussion reviews congressional policy concerning 
distribution of CRS products to the public and addresses issues for 
consideration by the Congress in determining whether to alter current 
policy regarding public availability of various CRS products, such as 
Reports and Issue Briefs.
    As set forth below, CRS at present is precluded by law from general 
public distribution of its materials without prior approval by a 
congressional oversight committee. The Congress has actively exercised 
its oversight authority regarding CRS publication practices and has 
developed and promulgated standards to be applied in evaluating 
specific proposals. Current guidelines from the Joint Committee on the 
Library and other congressional bodies, issued in 1980, restrict the 
vast majority of CRS written products to congressional use and 
distribution to the public on a selective basis only.
    Many years of congressional consideration of this issue reveal 
serious concerns about the institutional and legal consequences likely 
to result from the wholesale direct public distribution of CRS products 
with a potentially large circulation (e.g., CRS Reports and Issue 
Briefs).
background on current congressional policy concerning the distribution 
                 of crs written products to the public
Summary
    Congress has historically reserved to itself control over the 
dissemination of CRS products to the public on the principle that CRS, 
as an extension of congressional staff, works exclusively for the 
Congress.
    To maintain congressional control over dissemination, a provision 
has been included in CRS annual appropriations acts since fiscal year 
1952 requiring prior oversight committee approval for any CRS 
publication (as noted above, ``publication'' refers to wholesale 
release of CRS products directly to the public).
    Congress has never authorized the wholesale public dissemination of 
CRS analytical products such as Reports or Issue Briefs (and has seldom 
authorized publication of other products), whether by CRS or the 
Congress, but rather has preferred to rely on congressional release of 
individual products on a case-by-case basis.
    To further indicate the degree of congressional control over CRS 
products, Congress, the courts, and administrative tribunals have 
declared CRS communications to the Congress to be privileged under the 
Speech or Debate Clause of the Constitution and to be under the custody 
and control of the Congress. These determinations have assured the 
maintenance of confidentiality in CRS relationships with congressional 
clients, a critical element of CRS effectiveness and an expectation of 
those who seek its assistance.
Current Restrictions and Guidelines.
    At present, CRS is precluded by law from general public 
distribution of its materials without prior approval by one of its two 
congressional oversight committees. This restriction results from a 
limitation that has appeared in CRS' annual appropriations acts in each 
year since fiscal year 1952. This provision reads as follows:

          ``Provided, that no part of this appropriation may be used to 
        pay any salary or expense in connection with any publication, 
        or preparation of material therefor (except the Digest of 
        Public General Bills), to be issued by the Library of Congress 
        unless such publication has obtained prior approval of either 
        the Committee on House Oversight or the Senate Committee on 
        Rules and Administration.'' \1\
---------------------------------------------------------------------------
    \1\ For the current version of this provision, see Pub. L. 105-55, 
111 Stat. 1190 (1997).

    The most recent policy statement from Congress regarding the 
publication of CRS written products came in 1980. In a communication, 
---------------------------------------------------------------------------
dated March 21, 1980, the Joint Committee on the Library reaffirmed:

          ``Congressional policy that the circulation of CRS materials 
        prepared specifically for congressional use be limited to the 
        Congress, and that the long-standing policy of confidentiality 
        in the work of CRS for individual congressional clients should 
        be maintained. We believe that, as in the past, CRS and its 
        oversight committees should consider the publication of only 
        those CRS products whose release to the general public would be 
        compatible, both in terms of cost and product content, with the 
        CRS's obligations to the Congress.''

    The 1980 guidelines were developed subsequent to a 1978 proposal to 
CRS by the National Conference of State Legislatures (NCSL) under which 
CRS would have received access to the files of State research materials 
abstracted by the NCSL, and also would have had the opportunity to 
order copies of desired items for use in answering congressional 
inquiries. In return, CRS would have provided the NCSL with periodic 
listings of CRS Reports (called ``multiliths'' at that time) and with 
only one copy of those CRS Reports which the NCSL requested. Under this 
proposal the NCSL also would have gained access to certain files from 
the Library of Congress's SCORPIO system, including CRS Issue Briefs.
    On September 27, 1978, the Joint Committee on the Library held a 
hearing to consider the CRS-NCSL exchange proposal. At the hearing, the 
Committee concluded that any transmission of CRS material contained in 
SCORPIO to non-congressional users via computer terminal would 
constitute a ``publication'' and thus, under the terms of the language 
contained in CRS's annual appropriations legislation (noted above) 
would require the prior approval of either the Committee on House 
Administration or the Senate Committee on Rules and Administration. 
Moreover, members of the Joint Committee expressed serious reservations 
about any activity that might divert CRS resources and priorities from 
its statutory responsibilities to Congress. Finally, members of the 
Committee expressed the view that it was appropriate for Members of 
Congress, rather than CRS, to determine whether and to what extent 
various CRS products should be publicly disseminated. As a result, no 
action was taken to implement the proposed CRS-NCSL exchange.
    The March 21, 1980 guidelines were followed later that month (March 
27, 1980) by enactment of a Senate Resolution. (S. Res. 396, 96th 
Congress). The Senate resolved:

          ``That it is the determination of the Senate that the 
        communications of the Congressional Research Service to the 
        members and committees of the Congress are under the custody 
        and control of the Congress and may be released only by the 
        Congress, its Houses, committees and members, in accordance 
        with the rules and privileges of each House.'' \2\
---------------------------------------------------------------------------
    \2\ 126 Cong. Rec. 6892 (March 27, 1980). This Senate Resolution 
directed the Senate Legal Counsel to represent the Senate and CRS in 
respect to a Federal Trade Commission administrative law judge's 
``sweeping subpoena [on behalf of oil companies involved in a FTC 
proceeding] to the Congressional Research Service for documents which 
discuss the oil industry and governmental policy in relation to it.'' 
Id. The Resolution stated that ``the communications between the 
Congressional Research Service and the members and committees of the 
Congress are an integral part of the legislative process and privileged 
under the Speech or Debate Clause of the Constitution.''

    Senate Majority Leader Byrd, in introducing the Resolution, noted 
CRS' role in advising members and committees on legislative issues and 
that CRS ``thereby provides a service to the Members and committees of 
Congress which is equivalent to that performed by the staffs of Members 
and committees.'' \3\
---------------------------------------------------------------------------
    \3\ Id.
---------------------------------------------------------------------------
    Over the years, and at the request of CRS, the Joint Committee on 
the Library has authorized a very limited number of CRS publications 
for broader distribution through depository libraries, the sales 
program of the Superintendent of Documents, and to the public through 
individual purchases. In addition, several CRS products are published 
as the result of specific statutory authorization: the Digest of 
General Public Bills and Resolutions (Bill Digest); \4\ and three 
publications for which CRS has been given responsibility by the 
Librarian of Congress: the Constitution of the United States of 
America, Analysis and Interpretation (Constitution Annotated); \5\ and 
the national high school and college debate topic manuals.\6\
---------------------------------------------------------------------------
    \4\ 2 U.S.C. 166(d)(6).
    \5\ 2 U.S.C. 168.
    \6\ 44 U.S.C. 1333.
---------------------------------------------------------------------------
Current Accessibility of CRS Written Products
    With few exceptions, congressional offices are the exclusive source 
for distributing CRS Reports and Issue Briefs to the public. Member 
offices use CRS products to develop their own understanding of policy 
issues and options and to inform their constituents regarding these 
issues and options. The principles of representative government and of 
legislative accountability hold that representatives have an obligation 
to provide their constituents with the information and understanding 
required in order to exercise democratic citizenship; that is, the 
democratic idea that the authority of those who govern rests on the 
consent of those who are governed, calls for democratic consent to be 
fully informed and enlightened.
    It is well known, both in Washington, D.C. and by interested 
parties throughout the country, that constituents may obtain copies of 
CRS written products through a Member or Committee of Congress. In 
addition, congressional offices often respond directly to constituent 
requests for information on particular subjects by sending copies of 
CRS Reports and Issue Briefs. For example, during fiscal year 1996, 
690,000 copies of CRS Reports and Issue Briefs were sent to 
congressional offices. Some percentage of these are sent on to 
constituents--either because constituents asked for them specifically 
or as a means of answering constituent requests for information.\7\
---------------------------------------------------------------------------
    \7\ CRS has not undertaken to survey congressional offices to 
determine this precise percentage.
---------------------------------------------------------------------------
    Moreover, current technology now enables Members and Committees to 
make CRS products available to constituents in electronic format 
through congressional Homepages. Recent enhancements to the CRS Issue 
Brief system, initially released to Congress on the CRS Homepage and 
now available also through the new Legislative Information System, make 
CRS Issue Briefs available in World Wide Web format (HTML). This 
upgrade makes it easier for Members and Committees to add Issue Briefs 
to their own Homepages for their constituents to the extent such 
availability is deemed appropriate by Members and Committees. Selected 
CRS Reports are also available to the Congress electronically through 
the CRS Homepage.
  issues associated with the wholesale release of crs products to the 
                                 public
Institutional Issues
    The direct, wholesale dissemination by Congress of Reports and 
Issue Briefs would have significant effects on the policies, resources, 
and institutional culture that CRS utilizes in serving the Congress.
    First, CRS' mission is to support the Congress exclusively. Given 
its limited resources, CRS can undertake services to non-congressional 
entities (such as the public) only at the expense of direct support of 
the Congress. While the direct and indirect costs associated with 
disseminating Reports and Issue Briefs are difficult to estimate with 
precision, it is clear that significant resources would have to be 
diverted from congressional services. For example, with wider product 
distribution, particularly to users of the Internet/World Wide Web, CRS 
is more likely to get calls, comments, and requests for additions and 
changes that would place a burden on CRS analysts, distracting them 
from their work for Congress. In particular, outside parties may judge 
and question CRS papers on the basis of standards other than the 
standards CRS has developed to meet congressional needs (e.g., 
timeliness, non-partisanship, balance, objectivity). It is reasonable 
to anticipate that the volume of communications between CRS and the 
public, currently manageable, would rise substantially and affect the 
Service's ability to meet the needs of congressional requester. Any 
mechanisms developed by CRS to shield analysts from these demands would 
of course also involve resource commitments.
    Second, CRS analysts now direct their writings, focused on 
legislative issues, to congressional audiences. The closeness of CRS to 
the legislative process and the sensitivity of the Service's 
traditional culture of exclusively supporting Congress' legislative 
needs shape the nature and content of its written products. If CRS 
written products were routinely available on a wholesale basis to 
academic and other professional peers outside the Congress, CRS 
analysts might become more conscious of the need to address views, 
methods, disciplines, and expectations of non-congressional 
professional peers, with the result that CRS written work could shift 
away, or appear to shift away, from its current emphasis on the 
congressional audience.
    With an awareness that a CRS Report would be disseminated to the 
public, Members may increase the number of confidential requests that 
they place with CRS in order to ensure that they are provided an 
opportunity--should they so desire--to reflect and consider questions 
that emerge from evolving legislative proposals before they have to 
respond to public inquiry about the resulting issues. This increase in 
confidential requests requiring more tailored responses would diminish 
the ability of CRS analysts to prepare reports that are generally 
available to Congress and that serve a broader congressional audience. 
With this increase in tailored analysis would come the necessity of 
duplicating more analysis because of the demand of those Members who 
request that their examination of a legislative proposal remain 
confidential at that point in the legislative process.
    A third, related concern is potentially increased pressure from 
interest groups and lobbying organizations on CRS analysts concerning 
the content of their reports and the impact this pressure may have on 
serving the direct needs of the Congress for analysis and information 
that is non-partisan, objective, and balanced. Enhanced internal 
mechanisms would have to be developed to ensure that communications 
with interested parties did not deflect CRS analysts from producing 
products that are free from advocacy and bias, resulting in a further 
diversion of resources from direct service to Congress.
    Fourth, CRS staff serve by statute as an extension of Member and 
committee staff. The release by Congress of CRS Reports and Issue 
Briefs may set a precedent leading to greater pressure to have studies 
prepared by congressional staff for Members' exclusive use (e.g., 
committee staff studies distributed to entire committee membership) to 
be disseminated directly to the general public. It might be difficult 
for Congress to articulate a convincing rationale for granting public 
access to the Service's work but denying equivalent access to materials 
prepared by other shared staff (e.g., committee staff) that are 
distributed to more than one Member. Thus, a policy of providing 
Members' constituents with the same materials that Members themselves 
draw upon to make legislative decisions could have serious implications 
for the functions of staff and their relationship with Members.
Legal Issues
    This section considers three pertinent legal issues associated with 
the wholesale dissemination of CRS products to the public. The first 
two issues involve the speech or debate clause of the Constitution and 
the third deals with intellectual property questions.
    1. Widespread electronic dissemination to the general public of CRS 
Reports and Issue Briefs would be more likely than dissemination 
pursuant to current policy to precipitate litigation in which speech or 
debate clause immunity would not be a defense.
    Since its 1972 ruling in United States v. Brewster, the Supreme 
Court has limited the immunity afforded under the speech or debate 
clause \8\ to ``legislative acts,'' which were distinguished from a 
range of activity described as ``entirely legitimate'' but unprotected 
by the speech or debate clause because it was considered to be 
``political in nature.'' \9\ In several cases relevant to the 
applicability of speech or debate immunity to the public distribution 
of CRS products, the Court has relied on the dichotomy established in 
Brewster to hold that congressional activities intended to inform the 
general public are outside the scope of the speech or debate clause. 
Notably, in Doe v. McMillan, the Court found that the clause might not 
protect the Public Printer and the Superintendent of Documents from 
liability for distribution of a committee report, which contained 
material alleged to have invaded individual privacy rights, beyond 
``the legitimate legislative needs of Congress * * *.''\10\
---------------------------------------------------------------------------
    \8\ U.S.Constitution, Art. 1, Sec. 6, clause 1.
    \9\ 408 U.S. 501, 509, 512 (1972).
    \10\ Doe v. McMillan, 412 U.S. 306, 324 (1973) (emphasis added). 
The Court remanded for a determination as to whether the extent of 
distribution by the Public Printer and the Superintendent of Documents 
had exceeded ``the legitimate legislative needs of Congress, and hence 
the limits of immunity.'' Id. On the remand, the lower courts upheld 
the claim of immunity as to the Public Printer and Superintendent of 
Documents (374 F. Supp. 1313 (D.D.C. 1974), aff'd, 566 F.2d 713 
(D.C.Cir. 1977), cert. denied, 435 U.S. 969 (1978)), but the court of 
appeals expressly reserved the question of the availability of immunity 
``in a case where distribution was more extensive * * *.'' 566 F.2d at 
718. Apparently the only copies distributed outside the federal 
government in the events that precipitated the suit in McMillan were 
approximately 172 of 796 copies that had been distributed to various 
federal agencies.
---------------------------------------------------------------------------
    The dissemination (by Members and/or their aides, by CRS, or by a 
congressionally designated entity) to the general public of CRS 
products would not be viewed as a legislative act but would be 
considered to be an exercise of Congress' representational function, 
for which speech or debate immunity is not available.\11\ Those engaged 
in public distribution of CRS products, as well as CRS analysts who 
prepare the products, may be vulnerable to a variety of administrative 
and judicial proceedings. In such actions, litigants might seek, for 
purposes of discovery, the files of CRS analysts or litigants might ask 
for damages or injunctive relief barring further distribution of a 
particular report or issue brief. Litigants might also claim damages in 
suits alleging copyright infringement.
---------------------------------------------------------------------------
    \11\ See, e.g., Doe v. McMillan, supra; Hutchinson v. Proxmire, 443 
U.S. 111 (1979).
---------------------------------------------------------------------------
    It would seem that these kinds of actions would be more likely to 
occur as a result of widespread electronic dissemination to the general 
public of CRS products than from the current practice of limited 
distribution (e.g., dissemination by a congressional office of a single 
hard copy of a particular CRS product to a constituent or incorporation 
of a CRS product in a committee report or hearing).
    2. Widespread electronic public dissemination of CRS products would 
jeopardize the confidentiality of CRS files and hamper a claim of 
constitutional immunity by CRS.
    Widespread electronic circulation of CRS products to the general 
public could set CRS on a course accompanied by uncertain legal 
consequences.\12\
---------------------------------------------------------------------------
    \12\ As one legal journal has observed, in addressing the Internet 
and other computer-related issues, the courts are on ``uncharted 
water.'' Thou Shalt Not Trespass--Even in Cyberspace, New Jersey 
Lawyer, Sept. 1, 1997, at p. 10.
---------------------------------------------------------------------------
    An inevitable consequence of widespread distribution of CRS 
products to the general public would be an increase in public awareness 
of the research and analysis prepared by the Service for Congress, 
which could escalate the efforts of litigants to obtain, for purposes 
of discovery, CRS analysts' files. These discovery attempts might seek 
not only information and data used to develop CRS Reports and Issue 
Briefs but also related material from the Service's files.
    Speech or debate immunity may provide a valid defense in such 
discovery proceedings if the subject of the proceedings is a protected 
legislative act.\13\ However, it is noted that, even in those cases in 
which CRS succeeded in defending against discovery efforts, the 
litigation would place a burden on CRS and other congressional 
resources \14\ and could put judges in the position of arbitrating 
disputes concerning the confidentiality of communications between CRS 
and Congress.\15\ Claims of speech or debate immunity would be subject 
to review by the courts, potentially including in camera inspection of 
material as to which a claim of privilege is made \16\ and segregation 
of protected from non-protected material.\17\ Arguably, this type of 
judicial sifting of legislative branch materials would impinge upon the 
interest in confidentiality served by the speech or debate clause.\18\
---------------------------------------------------------------------------
    \13\ See, e.g., Brown & Williamson Tobacco Corp. v. Williams, 62 
F.3d 408 (D.C.Cir. 1995).
    \14\ Discovery attempts to obtain CRS file materials have often 
been defended by the offices of House General Counsel or Senate Legal 
Counsel. See, e.g, S. Res. 291, 101st Cong. (resolution directing 
Senate Legal Counsel to represent a CRS attorney in Smith v. IRS, No. 
3778-89 (Tax Ct. 1990)).
    \15\ See In re Grand Jury Investigation, 587 F.2d 589 (3d Cir. 
1978); United States v. Eilberg, 507 F. Supp. 267 (E.D.Pa. 1980).
    \16\ See, e.g., Benford v. American Broadcasting Co., 98 F.R.D. 42 
(D.Md. 1983), rev'd on other grounds sub nom. In Re Guthrie, 733 F.2d 
634 (4th Cir. 1984).
    \17\ See, e.g., United States v. Helstoski, 442 U.S. 477, 488 n.7 
(1979).
    \18\ The courts are divided on the question of whether the speech 
or debate clause was intended to ensure confidentiality for 
legislators. Compare Brown & Williamson Tobacco Corp., 62 F.3d at 420 
with In re Grand Jury Investigation, 587 F.2d at 597.
---------------------------------------------------------------------------
    Further, for two reasons, it is uncertain whether Congress would 
prevail in litigating such matters. First, it is possible that a court 
would not precisely differentiate among the information in the 
superficially similar types of documents in a CRS subject file and 
would grant litigants access not only to publicly available information 
but also to confidential communications between the Service and 
congressional offices. Second, in previous instances in which CRS has 
been involved in litigation or agency proceedings, the judicial or 
agency decision has emphasized that CRS performs a legislative function 
and that its staff functions as an adjunct of Member and committee 
staff.\19\ With wider dissemination of CRS products to the general 
public, this longstanding perception of the Service and the nature of 
its communications to the Congress could be altered, eventually putting 
at risk speech or debate protection for the Service's confidential 
work. In other words, extensive involvement by CRS in the direct public 
information function could lead courts and administrative agencies to 
reconsider their perception of CRS as playing a significant and unique 
support role in the legislative process, and thus some day might hamper 
a claim of immunity even in an instance in which CRS was fulfilling its 
legislative function.\20\
---------------------------------------------------------------------------
    \19\ See Webster v. Sun Oil, 731 F.2d 1 (D.C.Cir. 1984) and 790 
F.2d 157 (D.C.Cir. 1986) (communications to CRS analyst are within 
scope of common law privilege for communications to a legislative 
body); In re Exxon Corporation, 95 F.T.C. 919 (1980) (FTC subpoena for 
CRS documents barred by speech or debate immunity and separation of 
powers doctrine; CRS performs an ``essentially legislative function'').
    \20\ See, Doe v. McMillan, note 9, supra.
---------------------------------------------------------------------------
    3. There is some risk of assertion of copyright infringement if CRS 
materials are made available online to members of the general public.
    United States copyright protection is not available for U.S. 
Government works.\21\ Those portions of a public document authored by 
the U.S. Government are in the ``public domain''--freely and widely 
available to the public without restrictions placed on their 
dissemination. However, the government's inclusion of copyrighted 
material in a government publication does not thrust that material into 
the public domain or impair the rights of the copyright owner.\22\
---------------------------------------------------------------------------
    \21\ 17 U.S.C. Sec. 105.
    \22\ The legislative history of the Copyright Act contains the 
following statement:
    The committee here observes: (1) there is nothing in section 105 
that would relieve the Government of its obligation to secure 
permission in order to publish a copyrighted work; and (2) publication 
or other use by the Government of a private work would not affect its 
copyright protection in any way. (H.R. Rep. No. 1476, 94th Cong., 2d 
Sess. 60 (1976)).
---------------------------------------------------------------------------
    CRS may incorporate preexisting material in its written responses 
to congressional requests. Although such material is often from public 
domain sources, in certain instances the material, appropriately 
credited, may be from copyrighted sources. To the extent that the 
material is copyrighted, CRS either: obtains permission for the use; 
\23\ considers its information-gathering function protected by the 
speech or debate clause; or believes that the use falls under the 
``fair use'' doctrine of the Copyright Act \24\ as applied in the 
context of the legislative process.
---------------------------------------------------------------------------
    \23\ Although CRS obtains permission to reproduce certain 
copyrighted works, the permissions are generally based on legislative 
use and the expectation that dissemination is limited to Members of 
Congress.
    \24\ Copyright Act of 1976, Act October 19, 1976, Pub. L. No. 94-
553 (codified as amended at 17 U.S.C. Sec. Sec.  101 et seq.). See 17 
U.S.C. Sec. 107.
---------------------------------------------------------------------------
    The exclusive rights \25\ of the copyright owner are qualified or 
limited by enumerated exceptions.\26\ Unless excused by a statutory 
exception, the unauthorized use of a copyrighted work is considered an 
infringement. Fair use is one of the limitations on the copyright 
owner's exclusive rights and may be invoked as an affirmative defense 
to a claim of copyright infringement.
---------------------------------------------------------------------------
    \25\ 17 U.S.C. Sec. Sec. 106, 106A.
    \26\ 17 U.S.C. Sec. Sec. 107-120.
---------------------------------------------------------------------------
    The copyright statute does not expressly include congressional use 
of copyrighted works as a fair use. However, both the House and Senate 
Reports on the Copyright Act of 1976 include the ``reproduction of a 
work in legislative or judicial proceedings or reports'' among examples 
of fair use.\27\ The legislative history also contains an observation 
that publication of copyrighted material in Congressional documents 
would constitute fair use ``[w]here the length of the work or excerpt 
published and the number of copies authorized are reasonable under the 
circumstances, and the work itself is directly relevant to a matter of 
legitimate legislative concern * * *.'' \28\
---------------------------------------------------------------------------
    \27\ See H.R. Rep. No. 1476, 94th Cong., 2d Sess. 65 (1976); S. 
Rep. No. 473, 94th Cong., 1st Sess. 61-62 (1975) quoting REPORT OF THE 
REGISTER OF COPYRIGHTS ON THE GENERAL REVISION OF THE U.S. COPYRIGHT 
LAW, 87th Cong., 1st Sess. 24 (Comm. Print 1961) (hereafter REGISTER'S 
REPORT).
    \28\ See H.R. Rep. No. 1476, Id. at 73.
---------------------------------------------------------------------------
    Thus, in an infringement action, a court might regard the 
publication of copyrighted material in a Congressional document for 
legitimate legislative purposes as a ``fair use.'' If, however, the use 
is outside of such legislative purposes, it is possible that a 
traditional fair use analysis might result in liability for copyright 
infringement. Wider dissemination outside the confines of Congress 
would further complicate the ``fair use'' question.\29\
---------------------------------------------------------------------------
    \29\ Moreover, if CRS products were generally available to the 
public, the construction of these products may be affected, with the 
potential consequent loss when material, such as copyrighted maps or 
graphs, may be withheld in the writing of the paper with the 
foreknowledge that the paper could be widely disseminated and thereby 
subject to different ``fair use'' guidelines than those applicable to 
work for legislative use only. Therefore, public availability may 
perforce shape selected CRS products so that their contents no longer 
bring to bear the best information and analysis to assist Members in 
their decisionmaking.
---------------------------------------------------------------------------
    The copyright laws do not contain an exemption from copyright 
infringement for unauthorized use of copyrighted materials by the U.S. 
Government. Subsection 1498(b) of Title 28 of the U.S. Code provides 
that the exclusive remedy of a copyright owner for copyright 
infringement by the United States is an action against the United 
States in the U.S. Court of Federal Claims ``for the recovery of * * * 
reasonable and entire compensation * * * including the minimum 
statutory damages * * *.'' Speech or debate clause immunity is not 
waived under Sec. 1498(b); however, activities outside of the 
legislative sphere would not be shielded from a copyright infringement 
action.\30\
---------------------------------------------------------------------------
    \30\ As originally enacted, Sec. 1498 applied only to suits for 
patent infringement against the United States. In 1960, Congress 
amended Sec. 1498 to give its consent to suits for copyright 
infringement against the United States; Section 2 of Pub. L. 86-726 
provided:
    Nothing in this Act shall be construed to in any way waive any 
immunity provided for Members of Congress under article I of section 6 
of the Constitution of the United States.
    Section 2 was added to the House bill by Senate amendment in order 
``to emphasize the fact that no immunities for Members of Congress 
under article I of section 6 of the Constitution shall be waived by the 
enactment of this legislation.'' See S. Rep. No. 1877, 86th Cong., 2d 
Sess. (1960) as reprinted in 1960 U.S.C.A.A.N. 3444. Presumably, speech 
or debate clause protection would protect Congressional use of 
copyrighted material that is used to further legitimate legislative 
activities that are part of the legislative processes (e.g., 
copyrighted material inserted into the Congressional Record or 
congressional document). See Copyright Office Memorandum of May 26, 
1958 reprinted in 1960 U.S.C.A.A.N. at 3456. Congress did not waive its 
speech or debate clause immunity when it amended Sec. 1498. However, 
insofar as activities outside of the legislative sphere (e.g., 
political activities or public information activities) are concerned, 
it would appear that Sec. 1498(b) would not shield Congress from a 
copyright infringement action.
---------------------------------------------------------------------------
    In summary, where permission has been granted to CRS to use 
copyrighted material, it has likely been based on legislative purpose 
and limited to selective distribution of hardcopy by Members of 
Congress. If access is broadened to wholesale release to members of the 
general public, such release may be outside the scope of ``legitimate 
legislative purpose.'' If a CRS product, containing substantial 
copyrighted material (albeit with appropriate credit) is made available 
to the general public without permission and outside the confines of 
traditional fair use, liability is possible. In this regard, 
distinctions can be made between the selective distribution of hardcopy 
CRS products by Members and Committees and wholesale, potentially 
world-wide distribution of CRS products on the Internet. Violation of 
any of the exclusive rights of the copyright owner may give rise to an 
action for copyright infringement. Although the extent of copyright 
owners' rights in the online environment is still evolving, wholesale 
distribution of CRS products via the Internet--unlike the current 
practice--would likely implicate copyright owners' performance and 
public display rights,\31\ as a matter of direct infringement, and may 
implicate rights of reproduction and public distribution \32\ either as 
a matter of direct, vicarious or contributory infringement. On the 
other hand, under a ``fair use'' analysis, there is likely less effect 
upon the potential market of the copyright owner in the case of 
selective hardcopy distribution than in the case of wholesale 
distribution on the Internet. Selective distribution of hardcopy CRS 
products by Members may not constitute ``publication'' in the copyright 
sense.\33\
---------------------------------------------------------------------------
    \31\ 17 U.S.C. Sec. Sec. 106(4),(5).
    \32\ 17 U.S.C. Sec. 106(1), (3).
    \33\ 17 U.S.C. Sec. Sec. 101,106(3).
---------------------------------------------------------------------------
                               conclusion
    To review, Congress has historically regarded CRS as an extension 
of its own Member and committee staff. CRS' relationship with Congress 
is confidential and exclusive; in order to preserve this relationship, 
Congress has determined as a matter of policy that CRS products are to 
be distributed to non-congressional users through congressional offices 
on a selective basis. Proposals to disseminate CRS products directly to 
the public would fundamentally change this longstanding congressional 
policy, with potentially significant institutional and legal 
consequences for CRS and current congressional operations and 
practices.
                                 ______
                                 
  Legal Issues Presented by Proposals for the General Release of CRS 
               Products to the Public--February 24, 1998
    This paper considers significant legal issues implicated by 
proposals involving the general release of Congressional Research 
Service (CRS) products such as Reports and Issue Briefs. (Issues of 
policy and technology posed by the general release of CRS products are 
beyond the scope of this analysis.) Specifically, attention is given to 
three pertinent legal issues, the first two involving the Speech or 
Debate Clause and the third dealing with intellectual property 
questions. This study assumes that CRS products would be published by 
CRS itself and identifies adverse legal consequences that would result 
from such publication. Publication of CRS products by the Congress 
would have corresponding legal consequences but these would be 
exacerbated in the case of direct public dissemination by CRS 
itself.\34\
---------------------------------------------------------------------------
    \34\ This study addresses, inter alia, issues relating to the 
speech or debate clause that were raised in the statement of Senator 
McCain upon introduction of S. 1578, 105th Cong. (providing that the 
Director of CRS is to make specified CRS products, including Reports 
and Issue Briefs, available on the Internet) and in a letter inserted 
by Senator McCain in the Congressional Record from Stanley Brand, 
former General Counsel to the House of Representatives (hereafter, 
Brand letter). 144 Cong. Rec. S123-25 (daily ed. Jan. 28, 1998).
---------------------------------------------------------------------------
    1. Dissemination of CRS products on the Internet \35\ would not be 
cloaked with constitutional immunity.
---------------------------------------------------------------------------
    \35\ The Internet has been described by the Supreme Court as ``a 
unique and wholly new medium of worldwide human communication.'' Reno 
v. American Civil Liberties Union, 117 S. Ct. 2329, 2334 (1997). 
Commentators have observed that ``novel and unsettled'' legal questions 
are raised by cyberspace (Decisions Reflect Nature of Media, National 
Law Journal, Aug. 11, 1997, at p. B8) and that in addressing the 
``Internet and computer-related issues'' the courts are on ``uncharted 
water.'' Though Shalt Not Trespass--Even in Cyberspace, New Jersey 
Lawyer, Sept. 1, 1997, at p. 10.
---------------------------------------------------------------------------
    Members of Congress are protected by art. I, Sec. 6, cl. 1, of the 
Constitution, which provides in part that ``for any speech or debate in 
either House, [Senators and Representatives] shall not be questioned in 
any other place.'' The clause performs two related functions. First, it 
protects the ``independence and integrity of the legislature,'' and 
second, it ``reinforce[s] the separation of powers * * *.'' \36\ The 
clause ``applies not only to a Member but also to his aides insofar as 
the conduct of the latter would be a protected legislative act if 
performed by the Member himself.'' \37\
---------------------------------------------------------------------------
    \36\ United States v. Johnson, 383 U.S. 169, 178 (1966)(footnote 
omitted). See also United States v. Brewster, 408 U.S. 501, 507 (1972).
    \37\ Gravel v. United States, 408 U.S. 606, 618 (1972).
---------------------------------------------------------------------------
    In early decisions, the Supreme Court interpreted the clause 
broadly and considered it as protecting activity beyond the walls of 
the chamber.\38\ However, in recent years the Court has constricted the 
range of actions shielded by the constitutional provision.\39\ 
Beginning with its decision in 1972 in United States v. Brewster, the 
Court has limited the protection of the clause to ``legislative acts.'' 
\40\ In that case, the Court explained that ``a legislative act has 
consistently been defined as an act generally done in Congress in 
relation to the business before it. In sum, the Speech or Debate Clause 
prohibits inquiry only into those things generally said or done in the 
House or the Senate in the performance of official duties and into the 
motivation for those acts.'' \41\ In another frequently quoted 
description of the scope of the privilege, the Court declared that, in 
addition to actual speech or debate in either House, the clause applies 
only to acts which are ``an integral part of the deliberative and 
communicative processes by which Members participate in committee and 
House proceedings with respect to the consideration and passage or 
rejection of proposed legislation or with respect to other matters 
which the Constitution places within the jurisdiction of either 
House.'' \42\
---------------------------------------------------------------------------
    \38\ See, e.g., United States v. Johnson, 383 U.S. 169, 180 (1966); 
Kilbourn v. Thompson, 103 U.S. 168, 203-04 (1880).
    \39\ For a detailed historical review of the restricted reading 
placed upon the clause by the courts, see Walker, Constitutional Law: 
Narrowing the Scope of Speech or Debate Clause Immunity, 68 Temple L. 
Rev. 377 (1995).
    \40\ 408 U.S. 501, 509 (1972).
    \41\ Id. at 512.
    \42\ Gravel, 408 U.S. at 625.
---------------------------------------------------------------------------
    In Brewster, the Court distinguished protected legislative acts 
from a range of activity described as ``entirely legitimate'' but 
unprotected by speech or debate immunity because it was considered to 
be ``political in nature.'' \43\ In several cases of relevance to the 
applicability of speech or debate immunity to the general public 
distribution of CRS products, the Court has relied on the dichotomy 
established in Brewster to hold that congressional activities intended 
to inform the general public are outside the scope of the speech or 
debate clause.\44\ Thus, the Court has held that the clause did not 
protect a Member from liability for allegedly defamatory remarks in 
newsletters and press releases based almost entirely on the Member's 
statement to the Senate, which had appeared in the Congressional 
Record.\45\ The Court has further held that the clause did not preclude 
a grand jury from questioning a Member's aide in regard to possible 
criminal liability for arranging for the private publication of the 
Pentagon Papers, which previously had been inserted by the Member in a 
subcommittee hearing record.\46\
---------------------------------------------------------------------------
    \43\ 408 U.S. at 512.
    \44\ In dicta in Brewster, the Court indicated that newsletters to 
constituents, news releases, and speeches delivered outside of Congress 
would not be protected by speech or debate immunity. Id.
    \45\ Hutchinson v. Proxmire, 443 U.S. 111 (1979). See also Chastain 
v. Sundquist, 833 F.2d 311 (D.C.Cir. 1987) (Member's press release and 
communications to executive branch not protected by speech or debate 
immunity or common law official immunity), cert. denied, 487 U.S. 1240 
(1988). In a recent ruling in a defamation suit based on a Member's 
statement in a television interview concerning the status of an 
appropriations bill, speech or debate immunity was not available but 
the Member successfully invoked a statutory mechanism (28 U.S.C. 
Sec. 2679 (Westfall Act)) providing for substitution of the United 
States as the defendant. Williams v. United States, 71 F.3d 502 (5th 
Cir. 1995).
    \46\ Gravel, 408 U.S. at 609-10, 622.
---------------------------------------------------------------------------
    Perhaps most importantly, in Doe v. McMillan, a suit filed against, 
inter alia, various Members, their staffs and consultants, the Public 
Printer, and the Superintendent of Documents, seeking declaratory and 
injunctive relief and damages based on the publication of an official 
committee report that included material alleged to invade plaintiffs' 
privacy, in an opinion written by Justice White, the Court held that 
individuals ``such as the Superintendent of Documents or the Public 
Printer or legislative personnel, who participate in distribution of 
[legally] actionable material beyond the reasonable bounds of the 
legislative task, enjoy no speech or debate clause immunity.'' \47\ 
Justice Douglas, in a concurring opinion joined by Justices Brennan and 
Marshall, would have extended speech or debate immunity to ``a 
legislator's function in informing the public'' because that task ``is 
essential to maintaining our representative democracy.'' \48\
---------------------------------------------------------------------------
    \47\ 412 U.S. 306, 315, 324 (1973). However, the Court held that 
the actions of the Members, their staffs, and consultants in preparing 
the report and ordering that it be printed were protected by speech or 
debate immunity. Id. at 313.
    \48\ Id. at 328. Justice Blackmun, in an opinion concurring in part 
and dissenting in part that was joined by Chief Justice Burger, 
considered the informing function to be ``an essential attribute of an 
effective Legislative Branch,'' and believed that the opinion of the 
Court effectively curtailed that function and thereby violated ``the 
historical tradition signified textually by the speech or debate clause 
and underlying our doctrine of separation of powers.'' Id. at 334. The 
suggestion in Justice Douglas's concurrence that speech or debate 
immunity should protect the informing function has not been adopted by 
the Court in subsequent cases. In fact, in Hutchinson v. Proxmire, 443 
U.S. at 130, the majority opinion approved the views expressed in 
Justice White's opinion for the Court in McMillan.
---------------------------------------------------------------------------
    The Court in McMillan remanded for a determination as to whether 
the extent of distribution by the Public Printer and the Superintendent 
of Documents had exceeded ``the legitimate legislative needs of 
Congress, and hence the limits of immunity.'' \49\ On the remand, after 
a detailed factual inquiry which revealed that there had been quite 
limited public distribution of the report, the lower courts upheld the 
claim of immunity as to the Public Printer and Superintendent of 
Documents.\50\ The court of appeals on the remand expressly reserved 
the question of the availability of immunity ``in a case where 
distribution was more extensive, was specially promoted, was made in 
response to specific requests rather than standing orders, or continued 
for a period after notice of objections was received.'' \51\
---------------------------------------------------------------------------
    \49\ 412 U.S. at 324-25.
    \50\ 374 F. Supp. 1313 (D.D.C. 1974), aff'd, 566 F.2d 713 (D.C.Cir. 
1977), cert. denied, 435 U.S. 969 (1978). Based on affidavits submitted 
by the Public Printer, other material in the record, and a memorandum 
of the Public Printer filed upon appeal of the district court's ruling, 
``it was determined that in addition to 2,557 copies of the report 
distributed within the Congress and its staff, 796 copies were 
distributed to various federal government agencies based on statutory 
requirements and standing orders. Another 796 copies were retained in a 
security cage [and were not distributed because of the litigation]. * * 
* About 54 `extra' copies were retained by the Printer for internal use 
and for distribution in case of spoilage.'' 566 F.2d at 715. Apparently 
the only copies distributed outside the federal government were 
approximately 172 of the 796 copies that had been distributed to 
various federal agencies. Specifically, ``about 92 copies were 
distributed to members of the public who maintained standing orders for 
all committee reports'' and ``about 80 copies were automatically 
delivered to foreign legations with standing orders for all committee 
reports under 44 U.S.C. Sec. 1717 * * *.'' Id. at 716.
    \51\ Id. at 718.
---------------------------------------------------------------------------
    Under the caselaw reviewed above, the dissemination to the general 
public of CRS products--by CRS \52\ or by Members and/or their aides 
\53\--would not be considered a legislative act \54\ but would be 
viewed by the courts as an exercise of Congress' representational 
function, for which speech or debate immunity is not available.\55\ 
Those engaged in public distribution of CRS products, as well as CRS 
analysts who prepare the products, may be vulnerable to a variety of 
judicial and administrative proceedings. In such actions, litigants 
might seek, for purposes of discovery, the files of CRS analysts or 
litigants might ask for damages \56\ or injunctive relief barring 
further distribution of a particular report or issue brief.\57\ 
Litigants might also claim damages in suits alleging copyright 
infringement. It would seem that these kinds of actions would be more 
likely to occur as a result of widespread electronic dissemination to 
the general public of CRS products than from limited distribution 
(common under current practice) by a congressional office of a single 
hard copy of a particular CRS Report or Issue Brief to a constituent.
---------------------------------------------------------------------------
    \52\ See Doe v. McMillan, 412 U.S. at 318 (immunity of 
Superintendent of Public Documents and of Public Printer was 
coextensive with that of Members of Congress whom they served).
    \53\ Under the Court's holding in Gravel, 408 U.S. at 618, speech 
or debate immunity applies to a Member's aide ``insofar as the conduct 
of the * * * [aide] would be a protected legislative act if performed 
by the Member himself.''
    \54\ In determining whether the extent of distribution exceeds the 
legislative needs of Congress, and thus is outside the bounds of speech 
or debate immunity, the courts may consider various factors relating to 
the distribution, including the number of copies circulated and the 
purposes for which they were circulated. See Doe v. McMillan, 374 F. 
Supp. 1313 (D.D.C. 1974), aff'd, 566 F. 2d 713 (D.C.Cir. 1977), cert. 
denied, 435 U.S. 969 (1978).
    \55\ In his remarks upon the introduction of S. 1578, Senator 
McCain observed that, by providing for the dissemination of CRS 
research products via the Internet, Members would be fulfilling their 
role of informing the public. Senator McCain recognized that an issue 
exists as to the applicability of speech or debate immunity to 
exercises of the informing function. 144 Cong. Rec., supra note 1, at 
S123.
    \56\ See Doe v. McMillan, supra (invasion of privacy).
    \57\ Id.
---------------------------------------------------------------------------
    It has been suggested that speech or debate clause concerns raised 
by legislation providing for the dissemination of certain CRS products 
via the Internet might be addressed by including in such legislation 
language stating that ``nothing herein shall be deemed or considered to 
diminish, qualify, condition, waive, or otherwise affect applicability 
of the Constitution's speech or debate clause, or any other privilege 
available to Congress, its agencies or their employees, to any CRS 
product made available on the Internet under this bill.'' \58\ The 
effect of the suggested language is uncertain. (1) Would the courts 
characterize the language as ``self-serving'' and disregard it? (2) 
Even if not disregarded, would the effect of the language be to deny 
immunity to the dissemination of CRS products on the Internet? The 
suggested language would not immunize CRS products but would simply 
seek to have the courts treat ``any CRS product made available on the 
Internet'' in the same way that they would treat any other information 
disseminated by Congress or its agents to the general public--i.e., as 
unprotected.\59\ (3) Because the proposed language applies only to CRS 
products made available on the Internet, would it have any impact on 
concerns with regard to the effect of dissemination of Service products 
to the general public on attempts to gain access to CRS files? \60\
---------------------------------------------------------------------------
    \58\ The Brand letter proposes that the quoted language be included 
in S. 1578, 105th Cong. See note 1, supra.
    \59\ See notes 11-18 and accompanying text, supra.
    \60\ See pp. 5-8, infra.
---------------------------------------------------------------------------
    2. Public dissemination of CRS products might jeopardize the 
confidentiality of CRS files and hamper a claim of constitutional 
immunity by CRS.
    Extensive distribution of CRS products to the general population 
would increase public awareness of the research and analysis prepared 
by the Service for Congress and could thereby intensify efforts by 
litigants to obtain, for purposes of discovery, the files of CRS 
analysts who prepare the products. These discovery attempts might seek 
not only information and data used to develop CRS Reports and Issue 
Briefs but also related material from the files.\61\
---------------------------------------------------------------------------
    \61\ See In the Matter of Exxon Corporation, et al., FTC Docket No. 
8934, Application of November 6, 1978, at p. 18 (at request of 
respondents in agency proceeding, FTC administrative law judge issued 
subpoena seeking discovery of, inter alia, CRS ``reports on the oil 
industry in connection with House and Senate subcommittee studies of 
the oil industry and in connection with congressional preparation of 
bills relating to energy matters''), subsequent ruling, In re Exxon 
Corporation, 95 F.T.C. 919 (1980); Chapman v. Space Qualified Systems 
Corp., 647 F. Supp. 551, 552 (N.D.Fla. 1986) (seeking discovery from 
GAO investigator of various materials, including ``all working 
documents'' related to a GAO investigation conducted at the request of 
a congressional committee, executive branch inspector general reports 
provided to GAO, and communications to GAO from Congress or 
congressional staff). See also Smith v. IRS, No. 3778-89 (Tax Ct. 1990) 
(litigants obtained subpoena calling for the testimony of an attorney 
in the American Law Division of CRS and for the production of 
background materials used by the attorney in preparing a memorandum for 
a Member of the Senate). It might be noted that, with some frequency, 
litigants are seeking in discovery not only documents and depositions 
from congressional support agencies but also from Members of Congress 
and congressional staff. See, e.g., Brown & Williamson Tobacco Corp. v. 
Williams, 62 F.3d 408 (D.C.Cir. 1995); In the Matter of the 
Applications of the City of El Paso, Texas, 887 F.2d 1103 (D.C. Cir. 
1989); Minpeco, S.A. v. Conticommodity Services, Inc., 844 F.2d 856 
(D.C.Cir. 1988); Miller v. Transamerican Press, Inc., 709 F.2d 524 (9th 
Cir. 1983); United Transportation Union v. Springfield Terminal Ry., 
132 F.R.D. 4, 6 (D.Me. 1990) (litigant who had previously engaged in 
``sweeping discovery,'' including depositions from, and document 
production by, House and Senate aides, also sought internal 
congressional communications); Common Cause v. Bolger, 574 F. Supp. 
672, 673-74 (D.D.C. 1982) (three-judge court), aff'd mem., 461 U.S. 911 
(1983).
---------------------------------------------------------------------------
    The speech or debate clause may provide a valid defense in such 
discovery proceedings if the subject of the proceedings is a protected 
legislative act.\62\ However, even in instances in which CRS succeeded 
in defending against such discovery efforts, such litigation would 
place a significant burden on congressional resources \63\ and could 
make judges the arbiters of disputes concerning the confidentiality of 
communications between CRS and Congress.\64\ Claims of speech or debate 
immunity would be subject to judicial review \65\ which might include 
in camera inspection of material as to which a claim of privilege is 
made \66\ and segregation of protected from non-protected material.\67\ 
Such judicial screening of legislative branch materials arguably 
impinges upon the interest in confidentiality served by the speech or 
debate clause.\68\
---------------------------------------------------------------------------
    \62\ See, e.g., Brown & Williamson Tobacco Corp., supra (exercise 
of Congress' investigative power). The speech or debate clause has been 
held to be a valid defense in an attempt to obtain access to CRS 
materials prepared to aid Congress in considering legislation. See In 
Re Exxon Corporation, supra. The role of the speech or debate clause as 
a defense in such litigation is discussed in the Brand letter, supra 
note 1.
    \63\ In actions in which litigants have sought access to its files, 
CRS has generally been represented by the Office of Senate Legal 
Counsel or the House General Counsel. For example, in Smith v. IRS, 
supra, the CRS employee involved was represented by the Senate Legal 
Counsel pursuant to S. Res. 291, 101st Cong.
    \64\ See In re Grand Jury Investigation, 587 F.2d 589 (3d Cir. 
1978); United States v. Eilberg, 507 F. Supp. 267 (E.D.Pa. 1980).
    \65\ In United States v. Nixon, 418 U.S. 683, 703-05 (1974), the 
Court rejected the President's contention that the separation of powers 
doctrine barred judicial review of a claim of executive privilege, and 
in support of judicial authority in such a case the Court cited several 
speech or debate clause cases in which it had interpreted the immunity 
of Members. Id. at 704, citing Doe v. McMillan; Gravel; Brewster; and 
Johnson.
    \66\ ``Courts have conducted in camera hearings, with participation 
by adverse parties, to determine whether materials subpoenaed from 
Members of Congress were within the speech or debate privilege.'' 
Raveson, Unmasking the Motives of Government Decisionmakers, 63 
N.C.L.Rev. 879, 968 n.523 (1985) (citing In Re Grand Jury 
Investigation, 587 F.2d 589, 596-97 (3d Cir. 1978); In Re Possible 
Violations of 18 U.S.C. 201, 371, 491 F. Supp. 211, 213-14 (D.D.C. 
1980)). The Brand letter, supra note 1, states that in camera review is 
not routinely used by the courts to settle disputes concerning the 
applicability of speech or debate immunity. If in camera review is 
employed relatively infrequently, congressional concern over the 
judiciary's use of this technique may be alleviated but not eliminated.
    The case of Benford v. American Broadcasting Co., 98 F.R.D. 42 
(D.Md. 1983), was cited in a previous CRS discussion of the possibility 
of in camera inspection of material when a claim of privilege is 
raised. The Brand letter comments that in camera inspection of House 
documents was not ordered by the court in that case. It is correct that 
the court did not order such an inspection. However, in denying a 
congressional committee's motion to intervene to obtain a protective 
order from a litigant's subpoena seeking in discovery material as to 
which speech or debate immunity was claimed, the district court stated 
that it ``should examine the relevant documents * * * in camera * * 
*.'' Id. at 45 n.2. (The opinion in Benford is convoluted because of 
the procedural complexity of the lengthy litigation involved. However, 
the court's position with regard to in camera review is clarified by a 
subsequent ruling in the same litigation, in an opinion by the same 
judge. Benford v. American Broadcasting Co., 565 F. Supp. 139, 141 
(D.Md. 1983), rev'd on other grounds sub nom. In Re Guthrie, 733 F.2d 
634 (4th Cir. 1984). In that subsequent ruling, the court expressly 
reserved ``the right to examine in camera'' documents as to which a 
claim of speech or debate privilege was raised. Id. at 143.)
    \67\ The Court in Nixon upheld the authority of the district court 
to segregate privileged material (to be returned to the President) from 
material that would be admissible in the judicial proceedings for which 
they had been subpoenaed. 418 U.S. at 714-16. Segregation of protected 
from non-protected material has also been upheld in the speech or 
debate context. See, e.g., United States v. Helstoski, 442 U.S. 477, 
488 n.7 (1979).
    \68\ See generally Evidentiary Implications of the Speech or Debate 
Clause, 88 Yale L.J. 1280, 1286-87 n.30 (1979). The courts are divided 
on the question of whether the speech or debate clause was intended to 
ensure confidentiality for legislators. Compare Brown & Williamson 
Tobacco Corp. v. Williams, 62 F.3d at 420 with In re Grand Jury 
Investigation, 587 F.2d at 597.
---------------------------------------------------------------------------
    Moreover, there is no assurance that CRS would prevail in 
litigating such matters. Two concerns might be highlighted. The first 
stems from the mix in CRS files which commonly include, inter alia, 
material from research sources in the public domain, confidential CRS 
memoranda for Congress, and communications between Congress and the 
Service. Because the information contained in the different types of 
documents in a particular CRS subject file is superficially similar, 
and because the Service's work for Congress is cumulative in nature 
(i.e., a CRS Report often builds upon the general analysis developed in 
response to specific requests from Members and congressional 
staff),\69\ there may be a risk that a court would not precisely 
differentiate among the types of documents and would grant litigants 
access not only to publicly available information but also to 
confidential communications between the Service and congressional 
offices.
---------------------------------------------------------------------------
    \69\ For example, an analyst may prepare a CRS Report on the 
economic implications of a tax cut on the basis of, inter alia, 
academic studies on the subject and some of the general factual 
information and analysis that had been included in a confidential 
memorandum previously prepared for a Member of the Ways and Means 
Committee who requested an assessment of a draft bill. Of course, 
because of the confidential relationship of CRS with its congressional 
clients, none of the specific analysis of the draft bill included in 
that memorandum would appear in, or be reflected, in the CRS Report.
---------------------------------------------------------------------------
    The second concern arises from the fact that, in previous instances 
in which CRS has been involved in litigation or agency proceedings, the 
judicial or agency decision has emphasized that CRS performs a 
legislative function and that its staff functions as an adjunct of 
Member and committee staff.\70\ With wider dissemination of CRS 
products to the general public, this longstanding perception of the 
Service and the nature of its communications to the Congress could be 
altered, eventually putting at risk speech or debate protection for the 
Service's confidential work. In other words, extensive involvement by 
CRS in the direct public information function could lead courts and 
administrative agencies to reconsider their perception of CRS as 
playing a significant and unique support role in the legislative 
process, and thus some day might hamper a claim of immunity even in an 
instance in which CRS was fulfilling its legislative function.
---------------------------------------------------------------------------
    \70\ See Webster v. Sun Oil, 731 F.2d 1 (D.C.Cir. 1984) and 790 
F.2d 157 (D.C.Cir. 1986) (communications to CRS analyst are within 
scope of common law privilege for communications to a legislative 
body); Smith v. IRS, No. 3778-89 (Tax Ct. 1990) (protecting from 
compulsory process background materials used by CRS staff in preparing 
reports and memoranda for Members); In re Exxon Corporation, 95 F.T.C. 
919 (1980) (FTC subpoena for CRS documents barred by speech or debate 
immunity and separation of powers doctrine; CRS performs an 
``essentially legislative function''). Cf. Browning v. Clerk, U.S. 
House of Representatives, 789 F.2d 923, 929 (D.C.Cir.) (personnel 
actions held to be protected by speech or debate immunity if the 
``employee's duties were directly related to the due functioning of the 
legislative process'') (emphasis in the original), cert. denied, 479 
U.S. 996 (1986).
---------------------------------------------------------------------------
    3. There is some risk of assertion of copyright infringement if CRS 
materials are made available on-line to members of the general public.
    CRS may incorporate preexisting material in its written responses 
to congressional requests. Although such material is often from public 
domain sources,\71\ in certain instances the material may be from 
copyrighted sources.\72\ To the extent that the material is 
copyrighted, CRS either: obtains permission for the use; \73\ considers 
its information-gathering function protected by the speech or debate 
clause; \74\ or believes that the intended use falls under the ``fair 
use'' doctrine of the Copyright Act.\75\
---------------------------------------------------------------------------
    \71\ For example, prior CRS Reports; other government publications.
    \72\ CRS's uses of copyrighted material are appropriately credited.
    \73\ Although CRS obtains permission to reproduce certain 
copyrighted works, the permissions are generally based on legislative 
use and do not explicitly cover electronic dissemination.
    \74\ U.S. Const., art. 1, Sec. 6, cl. 1. Speech or debate clause 
protection extends to activities within the sphere of legitimate 
legislative activity (generally considered to be matters that are an 
integral part of the deliberative process by which members participate 
in legislative proceedings) rather than activities that are 
representational or political in nature. When CRS performs a 
legislative function, the speech or debate clause shield provides 
protection from copyright infringement claims. See CRS's purposes and 
duties as set forth in 2 U.S.C. Sec. 166(d); see also Webster v. Sun 
Oil, supra n.27.
    \75\ Copyright Act of 1976, Act October 19, 1976, Pub. L. No. 94-
553 (codified as amended at 17 U.S.C. Sec. Sec. 101 et seq.). Fair use 
is a judicial doctrine codified for the first time in the Copyright 
Act. See 17 U.S.C. Sec. 107. Although the Act does not define ``fair 
use,'' the Act lists four illustrative factors, based on prior case 
law, to be considered when determining whether a use made of a work is 
a fair use: (1) the purpose and character of the use, including whether 
such use is of a commercial nature or is for nonprofit educational 
purposes; (2) the nature of the copyrighted work; (3) the amount and 
substantiality of the portion used in relation to the copyrighted work 
as a whole; and (4) the effect of the use upon the potential market for 
or value of the copyrighted work.
---------------------------------------------------------------------------
    United States copyright protection is not available for U.S. 
Government works.\76\ Those portions of a public document authored by 
the U.S. Government are in the ``public domain''--freely and widely 
available to the public without restrictions placed on their 
dissemination. However, the government's inclusion of copyrighted 
material in a government publication does not thrust that material into 
the public domain or impair the rights of the copyright owner.\77\
---------------------------------------------------------------------------
    \76\ 17 U.S.C. Sec. 105. Sec. 101 defines a ``work of the United 
States Government'' as ``a work prepared by an officer or employee of 
the United States Government as part of that person's official 
duties.'' While works of the U.S. Government are not protected under 
U.S. copyright laws, protection may be available under the statutes of 
certain other countries.
    \77\ The legislative history of the Copyright Act contains the 
following statement:
    The committee here observes: (1) there is nothing in section 105 
that would relieve the Government of its obligation to secure 
permission in order to publish a copyrighted work; and (2) publication 
or other use by the Government of a private work would not affect its 
copyright protection in any way. (H.R. Rep. No. 1476, 94th Cong., 2d 
Sess. 60 (1976).)
---------------------------------------------------------------------------
    The exclusive rights \78\ of the copyright owner are qualified or 
limited by enumerated exceptions.\79\ Unless excused by a statutory 
exception, the unauthorized use of a copyrighted work is considered an 
infringement. Fair use is one of the limitations on the copyright 
owner's exclusive rights and may be invoked as an affirmative defense 
to a claim of copyright infringement.\80\
---------------------------------------------------------------------------
    \78\ 17 U.S.C. Sec. Sec. 106, 106A.
    \79\ 17 U.S.C. Sec. Sec. 107-120.
    \80\ A bright-line approach to fair use is difficult if not 
impossible; courts examine the fair use defense on a case-by-case 
basis.
---------------------------------------------------------------------------
    The copyright statute does not expressly include congressional use 
of copyrighted works as a fair use. However, both the House and Senate 
Reports on the Copyright Act of 1976 include the ``reproduction of a 
work in legislative or judicial proceedings or reports'' among examples 
of fair use.\81\ The legislative history also contains an observation 
that publication of copyrighted material in Congressional documents 
would constitute fair use ``[w]here the length of the work or excerpt 
published and the number of copies authorized are reasonable under the 
circumstances, and the work itself is directly relevant to a matter of 
legitimate legislative concern * * *.'' \82\]
---------------------------------------------------------------------------
    \81\ See H.R. Rep. No. 1476, 94th Cong., 2d Sess. 65 (1976); S. 
Rep. No. 473, 94th Cong., 1st Sess. 61-62 (1975) quoting REPORT OF THE 
REGISTER OF COPYRIGHTS ON THE GENERAL REVISION OF THE U.S. COPYRIGHT 
LAW, 87th Cong., 1st Sess. 24 (Comm. Print 1961) (hereafter REGISTER'S 
REPORT).
    \82\ See H.R. Rep. No. 1476, Id. at 73. A ``matter of legitimate 
legislative concern'' is not defined. In a speech or debate clause 
context, protection extends to activities within the sphere of 
legitimate legislative activity which is generally considered to be 
matters that are an integral part of the deliberative and communicative 
processes by which members participate in legislative proceedings. Such 
matters are distinguished from those activities that are political in 
nature and further interests distinct from legislative responsibility. 
See Gravel v. United States, supra n.2; United States v. Brewster, 
supra n.1. The republication of intra-Congressional material outside 
Congress has been held not to be a protected legislative activity. See 
Miller v. Transamerican Press, Inc., supra n.21; Hutchinson v. 
Proxmire, supra n.10 at 127-28 (1979). Although obtaining information 
pertinent to potential legislation is one of the ``things generally 
done in a session of the House'' concerning matters within the 
``legitimate legislative sphere'' (see Kilbourn v. Thompson, 103 U.S. 
168, 204 (1881)), Congress's ``informing function'' protected by the 
speech or debate clause as part of the legislative function is that of 
informing itself about subjects susceptible to legislation, not that of 
informing the public. See Hutchinson v. Proxmire, at 132-33.
---------------------------------------------------------------------------
    In an infringement action, a court might regard the publication of 
copyrighted material in a Congressional document for legitimate 
legislative purposes as a ``fair use.'' If, however, the use is outside 
of such legislative purposes, it is possible that a traditional fair 
use analysis might result in liability for copyright infringement. 
Wider dissemination outside the confine of Congress would further 
complicate the ``fair use'' question. While courts appear to be 
applying the same fair use analysis in infringement actions involving 
the electronic environment as in more traditional environments, the 
application of fair use in the electronic environment is still 
developing.
    The copyright laws do not contain an exemption from copyright 
infringement for unauthorized use of copyrighted materials by the U.S. 
Government. Subsection 1498(b) of Title 28 of the U.S. Code provides 
that the exclusive remedy of a copyright owner for copyright 
infringement by the United States is an action against the United 
States in the U.S. Court of Federal Claims ``for the recovery of * * * 
reasonable and entire compensation * * * including the minimum 
statutory damages * * *.'' \83\ Speech or debate clause immunity is not 
waived under Sec. 1498(b); however, activities outside of the 
legislative sphere would not be shielded from a copyright infringement 
action.\84\ The one case interpreting Sec. 1498(b) narrowly construed 
the governmental waiver--relying on general construction of such 
waivers and on prior interpretation of a similar provision.\85\]
---------------------------------------------------------------------------
    \83\ Damages are limited to ``reasonable and entire compensation.'' 
The available remedies do not include the other remedies for 
infringement available under the Copyright Act against infringing 
parties such as: injunctions; impoundment and disposition of the 
infringing articles; recovery of full costs and attorney's fees.
    The subsection provides that before such an infringement action is 
instituted, ``the head of the appropriate department or agency of the 
Government, as the case may be, is authorized to enter into an 
agreement with the copyright owner in full settlement and compromise 
for the damages accruing to him by reason of such infringement and to 
settle the claim administratively out of available appropriations.''
    \84\ As originally enacted, Sec. 1498 applied only to suits for 
patent infringement against the United States. In 1960, Congress 
amended Sec. 1498 to give its consent to suits for copyright 
infringement against the United States; Section 2 of Pub. L. 86-726 
provided: Nothing in this Act shall be construed to in any way waive 
any immunity provided for Members of Congress under article I of 
section 6 of the Constitution of the United States.
    Section 2 was added to the House bill by Senate amendment in order 
``to emphasize the fact that no immunities for Members of Congress 
under article I of section 6 of the Constitution shall be waived by the 
enactment of this legislation.'' See S. Rep. No. 1877, 86th Cong., 2d 
Sess. (1960) as reprinted in 1960 U.S.C.A.A.N. 3444. Presumably, speech 
or debate clause protection would protect Congressional use of 
copyrighted material that is used to further legitimate legislative 
activities that are part of the legislative processes (e.g., 
copyrighted material inserted into the Congressional Record or 
congressional document). See Copyright Office Memorandum of May 26, 
1958 reprinted in 1960 U.S.C.A.A.N. at 3456. Congress did not waive its 
speech or debate clause immunity when it amended Sec. 1498. However, 
insofar as activities outside of the legislative sphere (e.g., 
political activities) are concerned, it would appear as if Sec. 1498(b) 
would not shield Congress from a copyright infringement action.
    \85\ Auerbach v. Sverdrup Corp., 829 F.2d 175 (D.C. Cir. 1987) 
(holding that the government only waives immunity under Sec. 1498(b) 
for third-party infringements that are authorized or consented to by 
the government rather than for any copyright infringement that a third 
party may choose to undertake). The Auerbach case, relying on the 
legislative history of this provision, is the sole case construing 
Sec. 1498(b). Sec. 1498(a), the sister provision waiving immunity for 
patent infringements, has been interpreted more often--courts holding 
that such waiver is limited to direct governmental infringement.
---------------------------------------------------------------------------
    The protection of intellectual property rights in the information 
age and the balance between copyright owners' exclusive rights to 
control the uses of their creative works and the public's right of fair 
use of and access to copyrighted works are being addressed by Congress 
\86\ and the courts.
---------------------------------------------------------------------------
    \86\ In December 1996, the World Intellectual Property Organization 
(WIPO) adopted two new intellectual property treaties--the WIPO 
Copyright and WIPO Performances and Phonograms Treaties. The Copyright 
Treaty covers copyright protection for computer programs and for 
databases as intellectual works, and uses of copyrighted works in 
digital electronic environments, including transmissions over the 
Internet. The Administration's treaty implementation bills (S. 1121 and 
H.R. 2281) were introduced at the end of July 1997. Alternative WIPO 
implementation bills (S. 1146 and H.R. 2180) also address additional 
Internet policies issues. See U.S. Library of Congress. Congressional 
Research Service. World Intellectual Property Organization Performances 
and Phonograms Treaty: An Overview (CRS Report for Congress 97-523A); 
and U.S. Library of Congress. Congressional Research Service. Online 
Service Provider Copyright Liability: Analysis and Discussion of H.R. 
2180 and S. 1146 (CRS Report for Congress 97-950A). See also H.R. 3048, 
introduced in November 1997, which implements the WIPO treaties and 
updates United States copyright laws to accommodate the developments of 
digital technology (addressing, e.g., ``fair use,'' ``first sale,'' and 
distance learning). H.R. 2652, the ``Collections of Information 
Antipiracy Act'' would create sui generis protection, distinct from 
copyright protection, for collections of facts, data or works of 
authorship. Government collections of information are excluded. 
Exceptions address acts such as the extraction of insubstantial parts 
of collections of information; independent gathering of information; 
non-profit educational, scientific or research uses; and extraction for 
news reporting. The bill responds to the Supreme Court's decision in 
Feist Publications v. Rural Telephone Service Co., 499 U.S. 340 (1991) 
which held that comprehensive collections of facts arranged in 
conventional formats were not protected and could not be 
constitutionally protected under copyright. For an overview of 
legislative proposals introduced in the 104th Congress, see U.S. 
Library of Congress. Congressional Research Service. Copyright 
Proposals for the National Information Infrastructure (CRS Report for 
Congress 95-1166A).
---------------------------------------------------------------------------
    In summary, where permission has been granted to CRS to use 
copyrighted material, it has likely been based on legislative purpose 
and limited to the print (rather than the electronic) environment.
    If access is broadened to members of the general public, 
congressional release may be outside the scope of ``legitimate 
legislative purpose.'' In such cases, a traditional fair use analysis 
may not provide an affirmative defense to an infringement action and 
liability could attach.\87\
---------------------------------------------------------------------------
    \87\ Liability, however, would be limited by the exclusive remedies 
provided for in 28 U.S.C. Sec. 1498(b). Copyright owners may not wish 
to assume the costs associated with Sec. 1498(b) litigation in light of 
the limited damages that are available under this section.
---------------------------------------------------------------------------
    The copyright law is intended to foster the creation and 
dissemination of intellectual works for the public welfare and to 
reward authors for their contribution to society. Striking a fair 
balance between the authors' exclusive rights to control the 
dissemination of their works and the public interest \88\ is ever more 
challenging in the electronic environment.
---------------------------------------------------------------------------
    \88\ REGISTER'S REPORT, supra n.39 at 6:
    Within reasonable limits, the interests of authors coincide with 
those of the public. Both will usually benefit from the widest possible 
dissemination of the author's works. But it is often cumbersome for 
would-be users to seek out the copyright owner and get his permission. 
There are many situations in which copyright restrictions would inhibit 
dissemination, with little or no benefit to the author. And the 
interests of authors must yield to the public welfare where they 
conflict. * * * While some limitations and conditions on copyright are 
essential in the public interest, they should not be so burdensome and 
strict as to deprive authors of their just reward * * *.
---------------------------------------------------------------------------
    Public interest in dissemination of government documents must be 
weighed against the legitimate governmental purposes that are served in 
the Government's exercise of due diligence in not infringing copyrights 
(e.g., restricting the public's use of proprietary information 
incorporated in a government document). Although it may be possible to 
limit liability to some extent by taking certain diligent measures,\89\ 
some degree of liability may continue to exist. There is some risk of 
assertion of copyright infringement if CRS materials containing 
proprietary material (and intended to support congressional needs) are 
made available on a wholesale basis on-line to members of the general 
public.
---------------------------------------------------------------------------
    \89\ For example, notifying the public that although there are no 
restrictions on the replication of CRS materials--copyrighted materials 
contained therein may not be used without permission of the copyright 
owner.
---------------------------------------------------------------------------
                                 ______
                                 
                               Memorandum
                                                 February 24, 1998.

Subject: Immunity Issues Related to Dissemination by Members of 
        Material on Their Home Pages
From: Jay R. Shampansky, Legislative Attorney, American Law Division

    The Supreme Court recently described the Internet as ``a unique and 
wholly new medium of worldwide human communication.'' \90\ Cyberspace 
is new technology which raises ``novel and unsettled'' legal 
questions.\91\ This memorandum provides a brief overview of some of the 
major immunity issues potentially raised in a case in which a Member 
uses his home page to disseminate materials (e.g., legislative 
documents, legislative agency products, executive branch reports, 
information about state governments, press releases, newspaper and 
magazine articles) to the general public or to provide links to other 
Web sites. The same basic legal issues discussed below may be presented 
when Members use means other than their home pages to disseminate 
information to the general public. However, the potential for liability 
may be increased when documents are circulated on the Web because of 
the vast audience.
---------------------------------------------------------------------------
    \90\ Reno v. American Civil Liberties Union, 117 S. Ct. 2329, 2334 
(1997).
    \91\ Decisions Reflect Nature of Media, National Law Journal, Aug. 
11, 1997, at p. B8.
---------------------------------------------------------------------------
Speech or Debate Clause Immunity
    Dissemination of material via the Internet would not be cloaked 
with constitutional speech or debate clause immunity.\92\ The Supreme 
Court in recent years has narrowed its interpretation of the speech or 
debate clause so as to limit its protection to ``legislative acts.'' 
\93\ Dissemination by a Member of material on the Internet would not be 
considered a legislative act, but would be viewed as an exercise of 
Congress' informing function, for which constitutional immunity is not 
available. In the absence of constitutional immunity, a Member and/or 
his aides engaged in public distribution of materials would be 
vulnerable to a variety of proceedings in which plaintiffs might seek 
damages or injunctive relief barring further distribution of a 
particular document.\94\ Litigants might also claim damages in suits 
alleging defamation or copyright infringement, or they might seek 
discovery of documents from congressional files.
---------------------------------------------------------------------------
    \92\ Art. I, Sec. 6, cl. 1.
    \93\ United States v. Brewster, 408 U.S. 501, 509 (1972). See also 
Walker, Constitutional Law: Narrowing the Scope of Speech or Debate 
Clause Immunity, 68 Temple L. Rev. 377 (1995).
    \94\ See, e.g., Doe v. McMillan, 412 U.S. 306 (1973), a suit filed 
against various Members, their staffs and consultants, the Public 
Printer, and the Superintendent of Public Documents, seeking 
declaratory and injunctive relief and damages based on the publication 
and distribution of an official committee report that included material 
alleged to invade plaintiffs' privacy.
---------------------------------------------------------------------------
Other Possible Defenses
    In some cases defenses other than the speech or debate clause may 
be raised. Of course, the defenses asserted will depend on the 
particulars of a case. Two of the major defenses are sketched below.
    Absolute and qualified immunity.--In several cases, Members have 
argued that although certain official communications (such as with the 
press and constituents) are not protected by the speech or debate 
clause, they are nonetheless shielded by the judicially-created 
absolute and qualified immunity doctrines available in certain 
circumstances to executive branch officials. Such a claim of immunity 
by a Member in a defamation action was rejected in the leading case of 
Chastain v. Sundquist,\95\ in which the U.S. Court of Appeals for the 
District of Columbia Circuit found that this immunity would not be 
warranted in light of Supreme Court treatment of suits against Members.
---------------------------------------------------------------------------
    \95\ 833 F.2d 311 (D.C.Cir. 1987), cert. denied, 487 U.S. 1240 
(1988).
---------------------------------------------------------------------------
    Westfall Act.--The Federal Employees Liability Reform and Tort 
Compensation Act,\96\ commonly referred to as the Westfall Act, allows 
for the substitution of the United States for individual federal 
employees in certain tort suits and provides for immunity for the 
defendant employees. However, the immunity afforded by the Westfall Act 
is of limited scope. (1) It applies only to common law torts (e.g., 
defamation), not to actions alleging violation of constitutional or 
statutory rights. (2) The immunity only affects a suit for money 
damages. It does not preclude a suit seeking injunctive or other 
equitable relief against the United States or an individual federal 
employee. Thus, it would not bar a suit to enjoin distribution of 
material on a Member's home page. (3) Application of the act is 
contingent upon certification by the Attorney General that the 
defendant employee was acting within the scope of his office or 
employment at the time of the incident out of which the claim arose. 
Although it appears that Members are covered by the Westfall Act, it is 
uncertain to what extent the act may apply to Members' communications 
with the public. In Williams v. United States,\97\ it was held that the 
defendant Member ``was acting within the scope of his employment * * * 
at the time he allegedly made defamatory statements * * * [about the 
plaintiff] during a television interview * * *.'' The Member's comments 
concerned the status of an appropriations bill.\98\
---------------------------------------------------------------------------
    \96\ Pub. L. No. 100-694, 102 Stat. 4563 (1988), 28 U.S.C. 
Sec. Sec. 1346(b), 2671-80.
    \97\ 71 F.3d 502, 503 (5th Cir. 1995).
    \98\ The Westfall Act was recently successfully invoked in a 
Member's defense of a defamation action based on remarks he had made to 
the media in regard to pending legislation. Operation Rescue National 
v. United States, 975 F. Supp. 92 (D.Mass. 1997).
---------------------------------------------------------------------------
                                 ______
                                 
                               Memorandum
                                                 February 25, 1998.

Subject: Estimate of financial costs of implementing bills which would 
        require publication of certain CRS products on the Internet.
From: Daniel P. Mulhollan, Director

    This memorandum is a response to congressional requests for an 
estimate of the costs CRS would incur in implementing legislation (S. 
1578 and H.R. 3131) which would require the Director of CRS to make 
various specified CRS products available to the general public on the 
Internet.
    This estimate is based on three major components: costs of meeting 
technological requirements for implementation; costs of handling 
increased direct contacts with the general public; and costs resulting 
from changes in the number and type of congressional requests for CRS 
services. Before proceeding to the estimate, however, it is important 
to summarize explicitly the premises and the framework on which this 
analysis is based, as well as certain limitations resulting from the 
nature of the issues presented.
    First, certain significant costs associated with the bills--indeed 
the most significant ones in terms of CRS' continued ability to serve 
the Congress efficiently and effectively--cannot be quantified and thus 
are not included in these estimates. Important costs of this type 
include the possible loss of Speech or Debate protection for CRS' 
confidential communications to Members. Another significant non-
quantifiable cost is the loss to the Congress and the nation resulting 
from the diminution of the role of Members as direct providers to their 
constituents of information about legislative proposals. Yet another 
cost of the proposal appears likely to be long-term and not readily 
measured: the shift in the mission of CRS, from serving the Congress 
directly and exclusively by meeting evolving congressional needs 
throughout the legislative process to serving broader, more diffused 
objectives, including preparing products informative to and suitable 
for the general public.
    Second, certain of the cost estimates which we have prepared must 
be regarded as somewhat speculative, inasmuch as CRS has no previous 
experience dealing with large-scale direct dissemination of its 
products to the public and thus cannot readily anticipate the behavior 
of Members and the public under such circumstances. (It is reasonable 
and prudent, however, to anticipate that wholesale dissemination on the 
Internet would vastly increase the circulation of CRS products over the 
volume that circulates to the public under the current policy of 
selective dissemination by Members). This analysis presents the 
assumptions on which the estimates are based. We believe these 
assumptions are consistent with very conservative cost estimates and 
that actual financial costs could be substantially greater, perhaps on 
the order of multiples of estimated amounts. The estimating approach 
used throughout assumes that we would maintain current services to the 
Congress, except for the attending, non-quantifiable reductions in the 
quality and character of service noted in the previous paragraph.
    Third, we have not undertaken an analysis of all possible options 
which might be available to CRS in implementing these bills. Instead, 
we have limited ourselves to what we currently regard as our most 
feasible course of action, based upon the need to maximize the use of 
our resources in directly supporting congressional legislative needs, 
as well as the importance of complying with the language and intent of 
the bills. If these bills were enacted, CRS management would 
necessarily conduct a thorough examination to develop options and 
strategies for implementation. Based upon our review to date, however, 
we believe any alternative approaches would likely be accompanied by 
substantial financial costs.
Costs of Technological Requirements for Implementation
    We currently provide CRS products to the Congress via the Web in 
several ways: (1) as electronic documents in HTML format that allows 
congressional users to move from CRS products to other continually 
updated information sources (e.g., Bill Digest); (2) as electronic 
documents (HTML) that link to each other and to static sites and 
references; and, (3) as stand-alone products displayed in PDF format 
for viewing, downloading, and printing.
    All CRS issue briefs, and 13 appropriations reports are displayed 
on the Web in both PDF and HTML formats. An additional 200 to 300 CRS 
reports that are also available via the Web are in PDF format only. 
(These reports are replaced and updated to reflect changing legislative 
developments). The PDF version is ``stand alone'' and does not ``link'' 
out to other documents or places; the HTML version on the other hand is 
really an electronic road map that links to other documents and sites 
within and outside of CRS.
    A challenge in providing the public with the HTML version of CRS 
products is the 30-day delay contained in the bills. While we are 
withholding the HTML document from distribution, the status of the 
legislation discussed is marching ahead and the bill status 
``connection'' is faithfully recording its progress. Thirty days later 
the HTML document is made available, linked to the status site, and is 
``still'' discussing the situation as it existed 30 days earlier while 
the link now reflects current information such as the status of 
legislation today.
    The only format that is common to all CRS Web products is PDF. This 
is the prime format for the 200 to 300 ``flat'' reports we maintain on 
the Web, and is also an alternative format we offer for issue briefs 
and the appropriations papers. Our PDF documents have no internal 
links: they are facsimiles of the hard copy. The PDF format has certain 
features that could be used in implementing the bills. PDF displays 
documents as they appear in print, and includes all tables, charts, 
graphs, and pictures. This format prints at remote locations, and can 
be viewed using free Adobe software now in wide use. At this time, the 
PDF format of our Web products is the one we could offer the public in 
the event the bills were enacted. A limitation of making a commitment 
to the PDF format, however, would be reduced flexibility in developing 
products for the Congress whose usefulness might depend on live links 
to sources which could not be made available to the public such as 
subscription data bases and full texts of copyrighted sources.
    In implementing the bills we would distribute the designated CRS 
products in a PDF format from the CRS public Web site. The 30-day delay 
restriction, however, is a serious consideration and introduces 
complexities we have not encountered before. We have not yet determined 
the actual technique we would use to delay releasing public versions 
while continuing to provide Congress with the most recent versions. In 
estimating the cost, to the Library's Office of Information Technology 
Services (ITS) and to CRS, in very general terms, we assume that the 
public versions of products would be exactly the same as the 
congressional versions, that no editing would be required for the 
public versions to address copyright concerns or to limit public access 
to CRS authors. ITS and CRS would need to design and program a system 
to display the PDF files with an index of some kind and also develop a 
maintenance system to keep track of the various dates of release. We 
estimate initial building efforts would require a GS-14 level 
programmer devoting full time for at least three months, at a cost of 
about $21,000. ITS and CRS would need to build a transfer and 
maintenance capacity to the public location; work the uploading and 
updating activities into the existing production streams; and develop a 
capacity to maintain the files, i.e., check, correct, add, delete, 
move, etc. For the continuing maintenance aspect of the project, we 
estimate it would occupy one person at the GS-13 level assigned to work 
full-time on this project, at an annual salary and benefits cost of 
about $72,000. Should it be determined to be necessary to edit products 
to create public versions, the costs of maintaining the public CRS Web 
site would be substantially greater.
Costs of Increased Direct Contacts between CRS and the General Public
    Although S. 1578 and H.R. 3131 seek to preclude the general public 
from submitting comments directly to CRS about its products, we 
nevertheless anticipate increased public telephone calls and e-mail 
communications as a result of greater awareness of CRS and its 
publications. Our conclusion that CRS cannot in fact prevent such an 
increase in non-congressional calls is based on two considerations. 
First, we doubt that the Congress would wish CRS staff to summarily 
terminate all public callers without providing information of any sort. 
Second, we assume that many callers who were not satisfied by CRS would 
contact their Members' offices, and that in most cases their concerns 
or questions would ultimately be assigned to CRS as constituent 
requests, to which we would be obligated to respond.
    We currently receive over 7,000 telephone calls annually from the 
public, 5,000 of which are automatically routed to recorded 
announcements through a phone tree. The remaining 2,000 callers reach 
the main congressional inquiry telephone line with questions which 
cannot be satisfactorily answered by these announcements. Public 
callers want: to express their comments about the substance of CRS 
products; to speak directly with CRS analysts about products and to 
discuss research strategies; to invite CRS staff to speak to their 
organizations about public policy issues; to ask CRS to consider 
additional material or points of view in products; to obtain 
information on when new products will be available or updated; and to 
learn about CRS products on particular issues.
    CRS inquiry staff often spend up to 10 minutes or longer with each 
public caller and therefore are less able to assist congressional 
callers with urgent requests for research and analysis. With increased 
public awareness of CRS products on the Web, we would likely receive a 
higher volume of public calls with questions such as those described 
above. In addition, we would expect public calls for technical 
information or ``troubleshooting'' assistance. For example, questions 
about which search terms to use to find reports on particular topics, 
how to download and print reports and tables contained in them, 
requests for hard copy of reports for public callers who do not have 
printers, and so forth. Because the Web is accessible globally, we also 
expect a volume of international callers. Responding to 
noncongressional calls would require additional staff time or result in 
delays when congressional callers try to reach CRS.
    To estimate the number of additional public contacts that might be 
generated, one useful comparison can be made to the THOMAS legislative 
information system. The Library's Office of Information Technology 
Services (ITS) receives approximately 1,000 e-mail inquiries about 
THOMAS every month and we expect that CRS could receive at least this 
number of inquiries by telephone or e-mail. We estimate the annual cost 
of this activity, based upon one staff member at the GS-11 level, at 
about $55,000.
    In addition to public calls and e-mail received and answered 
through established, centralized processes, we anticipate that more 
members of the public would want to contact CRS staff who have written 
the reports. These added public calls could potentially distract CRS 
staff from meeting pressing congressional deadlines. Further, the 
public could also e-mail questions and comments to CRS analysts who 
could potentially be swamped with comments and questions. The 
complications resulting from mixing increased communications from the 
public with those from congressional clients would require us to 
consider modifying CRS communications systems and systems for recording 
and tracking requests assigned to researchers/attorneys. Moreover, the 
long-standing practice of identifying the authors of CRS products for 
the convenience of the Congress, might need to be modified for public 
versions of CRS products, a costly process as noted above.
Costs Associated with Changes in the Number and Type of Congressional 
        Requests for CRS Services
            Increased Congressional Requests for Tailored Analyses
    The closeness of CRS to the legislative process and the sensitivity 
of the Service's traditional culture of directly and exclusively 
supporting Congress' legislative needs currently shape the nature and 
content of its written products. If, however, CRS written products were 
routinely and readily available to the general public, including 
academics, other professional peers, and interest groups outside the 
Congress, CRS analysts would likely become more sensitive to addressing 
views, methods, disciplines, and expectations of non-congressional 
audiences. Congressional offices would be expected to contribute 
directly and indirectly to this shift of focus and emphasis as they 
would place more requests for CRS assistance in responding to 
communications from non-congressional readers of CRS products. As a 
consequence of accommodating needs of the general public, CRS written 
work would shift away, or appear to shift away, from its current 
emphasis on immediate, legislative needs of the congressional audience. 
Members would be expected to meet their legislative needs more often by 
relying on confidential memoranda and briefings which are 
individualized and tailored to respond to their specific needs.
    Members may also increase the number of requests for CRS 
confidential analyses to ensure that they are provided an opportunity--
should they so desire--to reflect and consider questions that emerge 
from evolving legislative proposals before they have to respond to 
public inquiry about related issues. We recognize that the 30-day delay 
provision included in both bills is intended to address this issue by 
giving Members a period during which dissemination of CRS products 
would be limited. In our judgment, however, the knowledge that 
wholesale public distribution would ultimately occur within a 
relatively short period of time (long before most legislative issues 
are resolved) would persuade many Members to regard confidential 
memoranda and briefings as preferred vehicles for meeting their 
legislative needs.
    Thus, expanding the audience for CRS products to incorporate the 
general public simultaneously would diminish the value of one of our 
most cost-effective activities in meeting the needs of the Congress 
(creation of products intended for distribution to all interested 
congressional offices) and magnify the demand for one of our most 
costly labor-intensive activities (tailored analyses for individual 
Members through memoranda or in-person briefings). With the increase in 
tailored products would come the necessity of duplicating work because 
of the demand of those Members who request that their examination of a 
legislative proposal remain confidential at that point in the 
legislative process.
            Estimating Costs of Increased Congressional Requests for 
                    Tailored Analyses
    We acknowledge that the estimates of costs associated with 
increased tailored analyses are imprecise, but we believe the 
methodology is sound and the estimates of increased workload are 
conservative. We assume that these tailored analyses would be in 
addition to the work currently performed by analysts, which includes 
the creation of approximately 1,000 CRS Reports and issue briefs per 
year. We estimate that 50 percent to 75 percent of those products are 
related to areas of active legislative interest; therefore, 500 to 750 
products would generate proprietary interests on the part of some 
congressional clients who would want confidential, tailored analyses 
addressing their own concerns about the issues. We also make a 
conservation assumption that each of the 500 to 750 products would 
generate 2 to 5 added requests of this type across the Congress as a 
whole, or a total of 1,000 to 3,750 additional requests for tailored 
analyses. Actual demand in certain areas could be quite high, for 
example, as many as 25 members of a congressional committee or 
subcommittee might request individual tailored products on various 
aspects of an issue at hand.
    To estimate the additional staff required to handle this additional 
workload (without sacrificing current services to Congress), we begin 
with the average number of the tailored analyses prepared by the 300 
CRS analysts/lawyers. For fiscal year 1997 the total number of such 
responses in 5,680 and the average was 19. On this basis, we estimate 
that it would take an additional 52 to 196 analysts/attorneys to meet 
the added workload needs. Recognizing, however, that CRS staff spend 
time producing both customized products and general distribution 
products, we arbitrarily halve that number and estimate that CRS would 
need an increase of 26 to 83 analysts to handle the estimated increased 
workload. Based on average compensation (salary plus benefits) of 
$87,700, total cost of the added staff would be from $2,280,000 to 
$7,279,000.
            Constituent Requests for New or Updated Products
    We anticipate that congressional demand would result in an 
increased workload with concomitant costs, some of which can be 
estimated and some of which are unknown. For example, having CRS 
products available to the public via the Internet is likely to result 
in requests by constituents to their Members for new general 
distribution products or updates to existing products. These 
constituent requests might involve areas without legislative activity 
for which no CRS products or updates are being considered. Costs for 
these activities are unknown because it is difficult to predict how 
many requests to CRS from congressional offices might be generated from 
this constituent demand, or how much time would be spent in completing 
the requests or negotiating with congressional offices if legislative 
priorities and CRS staff resources preclude honoring the requests. 
Similarly, it is difficult to predict how many complaints CRS might 
receive from congressional offices on behalf of constituents or to 
estimate the costs of time spent on dealing with such complaints.
            Increased Demand for Paper Copies of CRS Products
    Making even a limited group of CRS reports and issue briefs 
available to the public on the Internet would raise the public profile 
of both CRS and its products as sources of information. We recognize 
that vast majority of the public who have Internet access and may be 
equipped to print CRS products from their own PC's. Nonetheless, the 
literature indicates that a significant percentage of the public would 
not be able to print CRS products from their Internet workstations. The 
heightened public profile and the problems associated with the public's 
ability to print CRS products from the Internet combine to lead us to 
assume that demand for the paper copies of CRS products would increase 
in the form of Member requests to CRS on behalf of their constituents. 
With no experience in responding to wholesale public awareness of CRS 
products, it is difficult to predict how large an increase in demand 
for printed copies might be, but the increase relative to current 
demand would certainly be substantial. At the rate the public currently 
uses Library's THOMAS legislative information system, if one-half of 
one percent of accessions to CRS products on the Internet resulted in 
just one additional printed copy of a CRS product, CRS distribution of 
printed copies of its products would double. CRS currently distributes 
about 750,000 copies of products to the Congress, about 550,000 of 
which are printed copies.
    Estimated added costs for personnel, paper and printing supplies 
are $215,000 for a 50 percent increase in printing copies and 
distributing them through established congressional channels. The cost 
would be $416,000 for a doubling in the number of copies printed and 
distributed. Printing costs are based on the following consumables (per 
page): toner ($0.00183), staples ($0.000919), developer ($0.000323), 
paper ($0.0044) and equipment cost ($0.0112519). A major factor in the 
personnel costs is that CRS not only produces and maintains a large 
number of titles, about 1,000 new titles each year, but also frequently 
updates and revises products after their release. This aspect of 
operations has evolved to support the special legislative needs of the 
Congress and may be unique to CRS, at least on the scale at which CRS 
carries out this practice.
Summary of Estimated Financial Costs \1\
---------------------------------------------------------------------------
    \1\ These cost estimates must be regarded as somewhat speculative, 
inasmuch as CRS has no previous experience dealing with large-scale 
direct dissemination of its products to the public. We believe that the 
assumptions on which the estimates are based are consistent with very 
conservative estimates and that actual financial costs could be 
substantially greater, perhaps on the order of multiples of estimated 
amounts. Significant costs in terms of CRS' continued ability to serve 
the Congress efficiently and effectively cannot be quantified and thus 
are not included in these estimates.
---------------------------------------------------------------------------
            Costs of Technological Requirements for Implementation
    GS-14 level programmer for three months (a one-time cost): $21,000.
    GS-13 level staffer full time (recurring cost): $72,000 annually.
            Costs of Increased Direct Contacts between CRS and the 
                    General Public
    GS-11 level staffer, 500 hours per year (recurring cost): $55,000 
annually.
            Costs Associated with Changes in the Number and Type of 
                    Congressional Requests for CRS Services.
    26 to 83 analysts/lawyers full-time (recurring cost): range from 
$2,280,000 to $7,279,000 annually.
    Added printing costs including personnel, paper and printing 
supplies would be $215,000 for a 50 percent increase in printed copies 
and $416,000 for a doubling in the number of printed copies.

                 concerns of putting CRS reports online

    Senator Bennett. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    I regret I have to leave for something that is an 
obligation that I just must get to. But I want to ask a couple 
of questions. I met with both Dr. Billington and Mr. Mulhollan 
yesterday. And I want to ask a question about this issue of the 
CRS online.
    When CRS does a report for Congress--lets say I intend to 
ask CRS for a very brief report this afternoon on something--
when you do a report for Members of Congress, and I use that 
report, it becomes part of the public domain, because I have 
made it part of the public domain. If, however, someone had 
access to that report this afternoon and you update that report 
next Friday, when another Member asks a similar question and 
events have transpired, the report is different, is it not?
    Mr. Mulhollan. That is correct.
    Senator Dorgan. The reports that you are doing for us 
represent, effectively, staff work that changes over time. And 
my concern about this online approach is that someone might 
well take a CRS report that seems to be supportive of their 
position, because they have pulled it off the computer, and 
they discover that is something you have said, not 
understanding or probably not caring that you said something 
much different 1 month later because circumstances changed and 
you had another report on the same thing that was vastly 
different.
    It seems to me that characteristic of your work for 
Congress makes it much different than, for example, a GAO that 
formally publishes a study, and that study represents exactly 
what they did and for whom and what the study was about. Yours 
is different, is it not?
    Mr. Mulhollan. I would quite agree, sir. What I would like 
to emphasize that the change is not so much in the analysis, 
but the focus of the analysis. One may, at a committee design 
stage, be talking about eight different options, but later you 
are focusing on two, so you drop the other six options in the 
discussion, and elaborated on the two. What CRS does on a 
consistent basis is to try to focus on the stage of the 
decisionmaking process, so that we can be as concise and timely 
as possible.
    And it differs. As a result, you can have, within 1 week's 
period of time, an issue brief updated each day, if, in fact, 
the issue is changing quickly from subcommittee, to coming out 
of the committee, to moving to the other Chamber. It is our job 
to help you with that.
    Senator Dorgan. Dr. Billington, you are involved in a very 
aggressive approach, one that this committee very much 
appreciates, to try to move information and provide public 
access to information through the Internet and so on. You know 
of the case Mr. Mulhollan makes in the question I just asked. 
What is your opinion of that?
    Dr. Billington. Well, I share the concerns of the Director 
of CRS. I think the difficulty with all of this is that the 
Nation and our thought processes have not yet come to grips 
with the implications of what this new technology is doing. I 
mean there is a broader philosophic risk, that you might get 
into a situation almost of plebiscitary democracy, where the 
representational process gets almost cut out of the 
decisionmaking process. There is already the rapid electronic 
media, television, which has, in fact, changed the deliberative 
processes of our form of Government.
    I am not necessarily offering a net judgment on this 
particular matter; it is for the Congress to decide how we 
should serve it--but it does seem to me that the issue raises 
real problems for the representational function, we have a 
representative Government, we do not have a direct plebiscitary 
system of Government. And the deliberative function of the 
Congress will be altered, if the Members are, in effect, 
responding not only to the running requests at different levels 
of committee and individual Member deliberation and between the 
two Houses, and if they are, in some sense, also responsive to 
a direct communication with a national audience. If the public 
can obtain such information without going through the 
Representatives for whom we work, then the Representatives have 
made a decision, in effect, to change the way they do business. 
And it is going to change the nature of the reports, 
necessarily, that the Congress will get.
    And I think it could interfere, unless there is very great 
expenditure involved. And it runs the risk of interfering with 
their direct constant responsiveness to you. This is a system 
that has been functioning for more than--well, it is 80 years 
now. It is really unique. And it is fascinating to see how many 
other countries are interested in finding some way of 
replicating this kind of service--because legislation, more 
than ever, has to be based on knowledge and analysis. Things 
are so complex; there are so many players; there is so much 
international interaction with our economy, and so forth.
    So it seems to me that you should keep the focus on your 
representational function. These are entirely decisions for you 
to make--it is for you to decide how we best serve you. But I 
do think it raises--and in a sense, risks prejudging the 
effects before we really have any sense of, or any full 
analysis or understanding of what the effects would be.
    There is an old statement: If it ain't broke, don't fix it. 
You have something that is not only not broke, but it is 
functioning, I think, quite well and responsively for the 
Congress in a time when you really need this kind of analysis 
on a pooled, efficient basis.
    So I would be reluctant to superimpose this added thing, 
just thinking that it is a question of putting it up online, 
because it is going to change the nature of the work that they 
will do. And it is also going to change the expense of it, 
because you will be flooded with all kinds of informational 
requests and we will end up having to respond to all kinds of 
things, whereas now we just respond to you, and you make the 
decision as to how to further distribute it.
    Senator Dorgan. Well, that is why I asked the question: 
Will it change the nature of the work, and the type of work, 
done by CRS? I mean I think the motives are just fine of people 
who are asking this question. Because I think that much of what 
we do and much of what we produce as a Government should be 
made available as quickly as possible and as easily as possible 
to the American people.
    But, for example, if in the spirit of openness one 
suggested that really everything that is written in Senator 
Bennett's office with respect to any issue between him and his 
staff and so on should be made available to anyone so they can 
have a better sense of how he is making his decisions--what 
kind of advice is he getting from staff and so on--I suspect he 
would be troubled by that. I certainly would be. Because there 
is a lot of informal communication back and forth.
    And I am wondering here about the nature of CRS being 
essentially a staff function of the Congress that produces 
reports that are constantly changing--by necessity, constantly 
changing, because the requests from Congress on different days, 
with different nuances, on complicated issues--in some cases 
dealing with foreign affairs and defense issues and weapons 
programs and so on--I would worry very much about someone 
saying, well, let us just shove all of this out there, and 
wonder what the consequences would be if someone who next, 
then, is answering a very technical and very difficult question 
from Senator Bennett or myself, and thinking to themselves, how 
can I write this now because I know this is going to be put up 
on the web tomorrow; gee, I do not think I can say it quite as 
candidly as I might have said it before because someone will 
misinterpret it.
    So the reason I ask this question is I think the people who 
raise this do so in good faith, but I think this might be an 
area where we want to be very careful about what we decide to 
put on the web. Every Member of Congress has the capability of 
taking this information, a CRS report, and putting it on their 
web page or making it accessible in one way or another to their 
constituents.
    Dr. Billington. Senator, there is one other point that is 
worth making. I think--because I am sure those that are 
suggesting this are concerned with getting more information out 
and getting as much as possible. The Library of Congress, as an 
institution, is capable of directly responding to the public. 
We answer 1 million inquiries a year from all over the country. 
We are the library of last resort for most other libraries and 
other sources of information needs. If people do not think they 
are getting enough information, well, you can direct them to 
the Library--that is part of our job as it exists.
    Moreover, there is the Thomas system of getting 
congressional information out, which we are making much more 
user friendly. Usage quadrupled from September 1996 to 
September 1997. We are getting out a great deal of information 
about the Congress--but these are finished products of the 
Congress, that are going to enable ordinary citizens to 
decipher and get the kind of information they want to know 
about voting records, about the status of bills, about the bill 
digest, that kind of information.
    So we are, in fact, getting a lot more information out. We 
are able to answer, through our regular system, general 
inquiries that people have. So I think we are not talking about 
not getting more information out to the American people; we are 
talking about a question of whether this particular dedicated, 
unique service that CRS represents should be opened up, and if 
so, in what manner and with what resources. Because the other 
point does have hidden costs that you cannot anticipate until 
you get into it. And so that should be taken into 
consideration.
    Senator Dorgan. Well, I thank you for your responses.
    Mr. Chairman, thanks for your generosity.
    Senator Bennett. Let me comment before you have to leave on 
the same issue as I have thought it through. And I think Dr. 
Billington's comments were very helpful.
    The Library of Congress currently is staffed to the 
Congress. The net effect of this proposal would be, in the eyes 
of some, to make them the authority and us subject to charge if 
we did not do what they told us ought to be done. I am thinking 
of an experience where I made, for me, a fairly major speech on 
the economy, and I turned to the Library of Congress for data.
    Very appropriately, some of the people in the Library of 
Congress who provided that data said the data demonstrates thus 
and such. I said, no, the data does not. In my opinion, the 
data demonstrates thus and such, and we hammered it out. And I 
took the Library of Congress data as the basis of my speech, 
but not necessarily the conclusion that the particular staffer 
had come to.
    I could see a situation where my opponent in the next 
election grabs hold of this and says, you have deliberately 
distorted the authoritative information--the Library of 
Congress told you that is the way the economy works and you 
chose to disagree with it, and make them the ultimate 
decisionmaker when, in fact, we should be the ultimate 
decisionmakers, and they function in a staff position.
    This particular woman, very quickly, when she realized the 
direction which I was trying to go, said, oh, you are right if 
you are pursuing that part of the economy, this data does not 
apply. But that was a conversation that was not evidenced in 
the written report provided. And I think that is a very 
dangerous position to put you in--you, the Library of 
Congress--because we do get to the point where you have direct 
democracy of the kind Alexander Hamilton was most afraid of: We 
do not have a representative republic where we are the ones who 
are responsive.
    Dr. Billington. You will tend to get a more pablumized 
product, basically.
    Senator Bennett. Yes; to avoid that very thing.
    Dr. Billington. To avoid that, so that nobody----
    Senator Bennett. Yes.
    Senator Dorgan. And that means less useful product, in my 
judgment. And the reason I asked this question--I met with both 
of you yesterday and talked a bit about your organizations--and 
the chairman will likely have some questions about your 
organizations--but both CRS and the Library of Congress provide 
invaluable service to Congress and we very much appreciate 
that.
    I regret that I must leave. And I appreciate the chairman's 
generosity.
    Senator Bennett. Thank you. I appreciate your question.
    Let me run through a few of these rather quickly. Dr. 
Billington, you are planning a celebration for the 
bicentennial, as well you should. This is something that is 
deserving of celebration. Can we anticipate a request for 
appropriated funds to deal with that opportunity?
    Dr. Billington. Well, we are relying primarily, certainly 
up to this point, on private funding. We have raised, thanks 
largely to the generosity of our Madison Council, about $1.5 
million for this. And we would, I think, plan to primarily rely 
on the private funding for this. I do not think we can 
confidently give an absolutely categorical answer on that, but 
we are certainly going to make every effort to fund this 
ourselves. We have so far.
    And we are very interested in congressional participation, 
because we hope to have programs that will relate to every 
congressional district in every State in the country. Because 
the theme is gifts to the Nation. And so we want to work very 
closely with the Congress on this. We have asked for 
authorization for an official recognition by the Congress of 
the bicentennial. The Joint Committee on the Library is the 
oldest joint committee of the Congress. We came into being as 
the Congress did--and for nearly a century in the Capitol 
Building.
    So we will want to work very closely with the Congress on 
this. And I would not absolutely say that we may not have some 
needs that we would want to discuss with you. But our plan has 
been, and so far, we have been dealing only with private funds.
    Senator Bennett. OK. Thank you.
    Congress has provided you authority for a transfer of a 
facility in Culpeper, VA, to the Library. We need not address 
it here, but I would hope you would submit for the record a 
summary of the Culpeper transaction so that we can have it as 
part of our record.
    Dr. Billington. Yes, sir, I would be glad to do that.
    [The information follows:]

    Summary of Culpeper Audio-Visual Conservation Center Transaction

    Legislation authorizing the Architect of the Capitol (AOC) 
to acquire the property in Culpeper for use as the National 
Audio-Visual Conservation Center was signed by the President on 
December 15, 1997. The Packard Foundation is proceeding to 
secure necessary environmental and due diligence studies under 
the direction of the AOC and anticipates purchasing the 
property by April 1998. A master plan, which will describe the 
work necessary to make the facility fully operational, is due 
in June 1998. Once the AOC and Library have analyzed the master 
plan, we will present options to the appropriate committees for 
a date of transfer of the property from the Packard Foundation 
to the AOC. At the request of the Senate Rules Committee, the 
Library and AOC will provide joint monthly status reports on 
the Culpeper project to the appropriate Congressional 
committees.
    The Culpeper facility will enable the Library to centralize 
in a secure and environmentally suitable facility all of its 
existing audio-visual collections--now stored in five 
locations: Wright-Patterson AFB, Ohio; Suitland, Maryland; 
Boyers, Pennsylvania; Landover, Maryland; and Capitol Hill.

    Senator Bennett. And you are requesting slightly over $1 
million to begin operation of your first offsite collection 
storage facility at Fort Meade. When do you expect to occupy 
the Fort Meade facility?
    General Scott. We have projections from the Architect of 
the Capitol that the first module would be ready by July 1999. 
Our plans are to move in and take occupancy of that space by 
September of that year, 1999.
    Senator Bennett. And do you plan additional storage 
modules? And if so, on what time schedule?
    General Scott. In our strategic plan, we have one more 
module scheduled for fiscal year 2001--module No. 2. And then, 
following that, in fiscal year 2003, module three and module 
four are scheduled.

           prepared statement of the american bar association

    [Clerk's note.--The statement submitted by the American Bar 
Association previously mentioned will be inserted in the record 
at this point.]
    [The statement follows:]

           Prepared Statement of the American Bar Association

    Mr. Chairman and Members of the Subcommittee, the American 
Bar Association (ABA) appreciates the opportunity to provide 
written testimony supporting the fiscal year 1999 budget of the 
Library of Congress and its Law Library. My name is Janet S. 
Zagorin. I am Chair of the American Bar Association (ABA) 
Standing Committee on the Law Library of Congress. This 
testimony is being submitted on behalf of the ABA at the 
request of Jerome J. Shestack, President of the Association.
    With over 391,000 members, the ABA is the world's largest 
professional organization. Due in large part to a sophisticated 
volunteer network, the ABA has been able to play an important 
role in ensuring that our government is committed to leadership 
in the development and maintenance of a first-rate library. It 
is the ABA's hope that you will continue to grant adequate 
funding for the Library to continue to build its leading 
presence on the Internet and preserve its treasures for future 
generations.
    The ABA has given special focus to the Law Library of 
Congress through its Standing Committee on the Law Library of 
Congress, which was created in 1932 because the Association was 
committed to its growth as the nation's principal repository of 
legal literature and sources. And we have watched in awe as 
that collection has become one of the most prestigious and 
comprehensive legal collections in the world. It is an archive 
of the best that the world's legal minds have produced, 
complemented by a unique corpus of foreign-trained lawyers that 
apply expert legal research and analysis on laws of other 
nations, international law and comparative law, making it also 
a living resource that reflects and helps to exert our vision 
of democracy and promotion of the rule of law throughout the 
world.
    As Americans consider the globalization of our economy, the 
spread of democracy, and the advancement of fundamental 
freedoms and human rights, the world's reliance on the Law 
Library of Congress becomes more imperative. Congress' 
continued support of the Law Library of Congress is a testament 
to other countries of our devotion to freedom of information 
and access to the laws of our land. Lawmakers of other 
countries increasingly are relying on the resources of the Law 
Library of Congress as they attempt to use the American legal 
system and its commitment to transparency as a role model for 
their own lands.
    Since 1993, the Library has creatively absorbed the impacts 
of a flat budget, but it has been forced to reduce valuable 
staff and services, and now, as it prepares for the challenging 
information demands of the next century, there is no 
flexibility left. While we appreciate Congress' continued 
interest and support for the Library of Congress during these 
austere fiscal times, the ABA urges you to prevent further 
erosion of its workforce and resources by granting the Library 
of Congress the resources it needs to address these demands.
    The Law Library, bolstered by its masterful inroad into the 
electronic age through the development and leadership of an 
international cooperative effort for a multinational legal 
database--the Global Legal Information Network (GLIN), in 
effect represents the Congress in a global outreach project to 
bring all of the world's legislative bodies into closer and 
more informed exchange of legislative solutions to worldwide 
problems. GLIN is an innovative effort involving government 
partners throughout the world who share via the Internet the 
full, official text of their nation's laws and regulations. It 
performs the dual function of expediting the Law Library's 
research services to Congress as well as promoting 
international communication, exchange, and comprehension of 
legal information. The funding requested for the Library's 
automation projects including GLIN will undoubtedly strengthen 
and enhance its efficiency and effectiveness internally and 
globally, in serving the Congress, in expanding public access 
to its invaluable collections, and in sustaining its leading 
role as steward of this vast knowledge.
    As the Library of Congress continues to meet new 
technological demands, its challenge to remain a leader in 
serving the Congress and the nation, without adequate 
resources, becomes more difficult. While economic realities are 
forcing our major public institutions to be more competitive, 
information technology simultaneously is providing unlimited 
opportunities to be not only cost-effective, but also 
innovative. GLIN, a promising part of the entire digital effort 
of the Library of Congress, reflects the Law Library's 
commitment toward that end. Moreover GLIN, a true multinational 
database, enables the Law Library of Congress to enhance its 
leadership role in providing expertise on legal matters of 
interest to Congress and the nation.
    Although the Congress is the priority client of the Library 
of Congress and its Law Library, I know that you will agree 
that this important institution renders a great deal of 
valuable service to the nation. That service should be 
supported by the Congress because it enhances the lives of all 
of us. Given the challenges of today's world and the great 
resources of the Library, it should be made more--not less--
accessible.
    I know that you are facing many difficult choices as you 
continue to search for ways to contain the Legislative Branch 
budget, but I hope that you will spare our nation's Library in 
that search. During the last several years, the Library has 
creatively coped with a flat budget as it joined the campaign 
for a smaller government, but the bottom line has been that 
important services are now lacking and there are too few staff 
to strategically plan for the rapidly increasing demands of its 
resources in an increasingly digital world. Giving the Library 
of Congress and its Law Library the support it now needs to, 
for example, restore depleted reference services, expedite 
legal analysis and report preparation, and strengthen the Law 
Library's presence on the Internet would be a significant and 
timely gift to our nation.
    As we celebrate the valiant restoration and reopening of 
the Thomas Jefferson Building and approach the Library's 
Bicentennial in 2000, we are reminded that the Library of 
Congress is a tremendous source of pride for the nation and a 
true symbol of its founding ideals. At a time when nations all 
over the world are questioning their leaders, their systems of 
justice, and their very foundations, it is imperative that we 
support the primary institution that preserves the knowledge 
and ideas that sustain us as a community and a nation.
    Mr. Chairman and Members of the Subcommittee, the American 
Bar Association appreciates your courtesy in allowing me to 
submit this testimony. We hope that you will look most 
favorably upon the budget request of the Library of Congress 
and its Law Library. The information concerns of the next 
century demand it.

                     Additional committee questions

    Senator Bennett. OK. Well, we may have some other questions 
that we would submit to you in writing, but we thank you for 
your presentation here today. We thank you for your diligence 
in presiding over what truly qualifies as a national treasure. 
There was a time in the rhetoric of this country when those 
words were somewhat debased with overuse. But the phrase 
``national treasure'' certainly applies here if it applies 
anywhere.
    And you have a most significant stewardship, Dr. 
Billington, and you have discharged it well. And we in the 
Congress are grateful to you for that.
    Dr. Billington. Thank you. I would just like to say that 
the biggest treasure we have is the people that work at the 
Library. I mean when you consider that our staff set the 
world's record of cataloging, with many less people than they 
have had in the past. Just to take one example of the kind of 
work of the people that do not get to appear here, but behind 
me are not only these wonderful people that are leading the 
different divisions of the Library, but a very, very dedicated 
staff.
    And I know that all of them tremendously appreciate the 
support and the encouragement they get from all of you here in 
the Congress. So we do thank you. And thank you for this 
opportunity to be here.
    Senator Bennett. Thank you very much.
    General Scott. Sir, thank you.
    Mr. Mulhollan. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                     Additional Committee Questions
                       integrated library system
    Question. Congress provided $5.5 million for an Integrated Library 
System in fiscal year 1998. Please update the Committee on the progress 
and status of that project. Please address how requirements identified 
in the conference report were/will be met. In addition, please provide 
an updated time line for the project.
    Answer. Beginning with management issues, an Integrated Library 
System (ILS) Project Office has been established, headed by a senior-
level staff person reporting directly to the Deputy Librarian and 
Associate Librarian for Library Services. The Office Director has 
created a robust project management structure, and has already filled 
three key ILS management positions. An RFP has been issued and 
responses have been received. Vendors have presented on-site capability 
demonstrations to the Library's technical evaluation committee, who are 
completing their final reports and scores. Vendors' ``best and final'' 
offers are scheduled to begin March 30, 1998, and run three to four 
weeks. The Library plans to award a contract in late April or early 
May.
    Regarding the requirements of the conference report, the ILS 
Program Office is completing the ILS Implementation Plan for 
presentation to Congress in April. The plan will address all 
requirements in the Conference Report, including tracking and reporting 
benefits and costs.
    The ILS time line follows:
  --March-April 1998--Form implementation teams
  --April 1998--Brief Congressional committees
  --Late April-early May 1998--Award Contract to ILS vendor
  --May 1998-October 1999--Deliver schedule products (Milestones from 
        Schedule F--Delivery Schedule--from the RFP)
  --October 1999--Make all ILS modules operational; turn off legacy 
        systems
  --November 1999--Begin Business Process Improvement analysis
    Question. Please explain how the new Integrated Library System 
(ILS) schedule slippage affected your Year 2000 program.
    Answer. The ILS Program remains on schedule for implementation in 
October 1999, before the Year 2000. The only change in the ILS schedule 
was a minor adjustment in the date for awarding the contract; and the 
Library made this change to accommodate requests from vendors. In our 
opinion, that short extension of time to allow vendors to prepare 
extensive on-site capability demonstrations was necessary and will 
shorten the time required for ILS implementation. The Library is 
developing contingency plans for mission-critical automation functions. 
The Library expects the ILS to be operational in October 1999.
                     legislative information system
    Question. Working with Senate staff, the Library and CRS have 
developed an integrated legislative information retrieval system to 
provide better access to information needed for congressional work. The 
Library is requesting two additional positions in the 1999 budget to 
continue development of this system. What is the status of the 
Legislative Information System and why are two additional positions 
needed?
    Answer. The Library absorbed the cost of developing and operating 
the Legislative Information System (LIS) which depends heavily on the 
design and development work done to create and maintain THOMAS. There 
are currently 10 FTE's (in ITS) and another 2.5 FTE's (in CRS) assigned 
to LIS/THOMAS. The LIS has been operational since the start of the 
105th Congress, and is being steadily expanded with new information 
files and new functionality--especially enhanced searching 
capabilities. LIS will replace some of the current House and Senate 
legacy systems as they are retired over the course of next year. A 
detailed plan projecting the LIS development schedule for new 
capabilities has been reviewed by Senate Rules and will be presented to 
House Oversight soon. Two additional positions are needed to deliver 
this projected development workload and to absorb the increased 
maintenance workload which results from new development and the 
consequent larger base system.
                    global legal information network
    Question. The Law Library is developing an automated network to 
receive the laws of other nations. Eleven nations are now sending their 
laws to the Library's network electronically via the Internet. The 
Library's request includes $356,000 to support the Law Library's 
automation efforts. What are the Library's plans for expanding the 
legal network and how will the additional funds be used?
    Answer. A significant expansion of the Global Legal Information 
Network (GLIN) is proposed by:
  --The Law Library working with the Parlamento Latinoamericano (Latin 
        American Parliament comprising 22 nations of Latin America and 
        the Caribbean) to encourage all their members to join GLIN. 
        These countries would contribute their own current laws, and as 
        that potential is realized, Law Library staff can concentrate 
        on adding retrospective material from the Law Library's 
        collections as part of its overall digitization effort.
  --The Law Library working with the U.S. Department of State to 
        encourage GLIN membership for the 18 economies of APEC.
    The additional requested funds will be used to establish the 
minimum level of technical support within the Law Library to sustain 
and enhance the digital Law Library. The new automation staff will: 
Maintain and enhance the Law Library's Internet site including the GLIN 
application which provides for input, update and retrieval of official 
legal information and digitized documents; and develop capabilities to 
acquire and to control an increasing number of legal sources that exist 
only in digital form (currently established at 20 percent of total).
                               year 2000
    Question. Has the Library initiated the development of contingency 
plans to be prepared in the event of systems failure on Jan. 1, 2000. 
Please explain.
    Answer. Yes, contingency planning has been initiated at the 
Library. The Deputy Librarian designated Library business unit leaders 
as responsible for contingency planning associated with each of the 
Library's mission-critical systems. GAO has just issued, as an exposure 
draft, their guidance on contingency planning. We are studying that 
draft and are using that guidance in preparation of our contingency 
plans.
                     congressional research service
    Question. At the Library's hearing before the House Appropriations 
Subcommittee on Legislative, the issue was raised whether CRS is 
duplicating estimating work done by the Joint Committee on Taxation. Is 
there a duplication?
    Answer. CRS complements the work of the Joint Committee on Taxation 
(JCT) but does not duplicate it. Official revenue estimates are 
provided exclusively by the Joint Committee on Taxation. If CRS is 
asked for revenue estimates, it provides those issued by the Joint 
Committee.
    CRS provides economic and legal analysis on tax issues for Members 
and committees, including the Joint Committee on Taxation, the Ways and 
Means Committee, and the Finance Committee. It supports the JCT by 
providing technical or factual information in areas requiring expertise 
available in CRS but not routinely needed by the committee staffs (e.g. 
the relationship of tax provisions to campaign financing). CRS also 
uses tax and subject area expertise to analyze the total Federal 
commitment and approach to specific public policy areas (e.g., child 
care).
    CRS and the Joint Committee have differing and unique roles--as do 
CBO and GAO. Individual Members of Congress, in placing their requests, 
make the judgment as to who can best meet their support needs. CRS 
staff remain in contact with staff of the Joint Committee as well as 
staff of other committees and agencies in order to provide support and 
to avoid duplication. When CRS gets questions which clearly fall within 
another entity's unique mission, CRS refers the requester to that 
entity to avoid duplication.
                                 ______
                                 
              Questions Submitted by Senator Byron Dorgan
                            library security
    Question. Dr. Billington, two years ago, this subcommittee directed 
the Library to develop an extensive security plan. My understanding is 
that you have submitted that plan and that it was recently approved by 
the Senate Rules Committee. Accordingly, the Library is requesting $2.5 
million to improve the security of its staff, collections, and 
facilities. The Architect of the Capitol is requesting another $2 
million in addition to your request of $2.5 million, to improve Library 
security. How do the funds requested address the tasks listed in your 
security plan? What has the Library done to address the recommendations 
contained in GAO and consultant reports?
    Answer. The funding addresses three top priorities cited in the 
Library Security Plan: $982,000 for entry security to bring the Library 
up to the standard used by other Capitol Hill Buildings--which includes 
the use of x-ray scanners and metal detectors; $993,000 to mark and to 
apply detection devices on 1.2 million items received through the 
Copyright Office; and $435,000 to conduct eleven risk assessments of 
key processing and custodial divisions.
    The Library responded to GAO recommendations and consultants by 
implementing over 200 specific recommendations listed in the 1996 
Computer Science Corporation security survey and by developing a 
comprehensive collections security plan. The plan identifies potential 
threats and vulnerabilities and calls for specific minimal thresholds 
of security for segments of the collections. While the Library reacts 
to instances of theft and mutilation of the collections by seeking 
identification and prosecution of the criminal, the Security Plan is 
now the basis for comprehensive decision-making.
    Part of the funds sought by the Library will be used for collection 
risk assessments. The risk assessments are an intensive examination of 
all the controls and processes in place to protect the collections. 
Recommended actions based on the risk assessments will be integrated 
into the Library Security Plan for implementation.
                          collections security
    Question. Last year, a theft of materials from the Library's rare 
book collection was uncovered when a book dealer in Massachusetts 
reported that someone was trying to sell items belonging to the 
Library. How is the Library responding to this theft and what steps are 
being taken to prevent future thefts?
    Answer. The Library's policy is to pursue aggressively instances of 
theft or mutilation of its collection. The specific case was resolved 
on March 12, 1998, when the court accepted a guilty plea; sentencing is 
scheduled for July 8, 1998. Within the Rare Book and Special 
Collections Division, controls have been tightened by changing 
processing activities. Items are now stamped with Library ownership 
marks immediately upon accessioning; signature are required as items 
move through the processing phases. During the past year, 600,000 items 
have been stamped and a complete inventory of the collection has 
commenced.
    The overall security for the collections is outlined in the 
Library's Security Plan approved by the Senate Committee on Rules and 
Administration. The Security Plan categorizes the Library's collections 
into a hierarchy of five risk levels, with the strongest protection 
accorded the Library's ``Treasures'' and other rare items. Lesser 
degrees of security controls are applied to the general collections. 
The Library is currently applying the minimal standards to all 
collections on Capitol Hill; the results of the analysis will be used 
to assess any vulnerabilities and to rank protective remedies.
                        national digital library
    Question. Dr. Billington, the National Digital Library was approved 
by the Congress in 1996 with the understanding that for every Federal 
dollar the private sector would contribute three dollars. In total, the 
$45 million of the estimated $60 million project was to be funded by 
private contributions. What is the status of the private sector 
contributions towards this project?
    Answer. At the close of fiscal 1997, we had raised $28 million. 
Further, we are proud to report that with recent pledges, we will meet 
our $45 million goal well ahead of schedule. Just last month, John 
Kluge, Chairman of our James Madison Council, issued a challenge at our 
Madison Council meeting in by pledging up to $5 million in a $2 match 
for every $1 we raise to complete the funding for this phase of the 
NDL.
                            copyright office
    Question. Ms. Peters, late last year, the Copyright Office was 
given new authority to adjust statutory registration fees after the 
completion of a cost study and final review by the Congress. Higher 
registration fees would lower the need for appropriations. The 
Library's fiscal 1999 budget does not include a request for additional 
authority to spend receipts from registration fees. When does the 
Copyright Office plan to adjust its registration fees?
    Answer. I will propose a schedule of statutory fees to Congress in 
fiscal 1999, to go into effect July 1, 1999--these fees not reflected 
in the fiscal 1999 budget. We need to evaluate the sensitivity of 
higher statutory registration fees on the public demand and to consider 
operational and policy issues. The fiscal 2000 budget submission will 
reflect these new statutory fees. New discretionary fees will be 
implemented on July 1, 1998, and are reflected in the fiscal 1999 
budget submission.
    Statutory fees are filing fees for registration of claims and 
recordation of documents. The legislation permitting the Office to 
increase statutory fees requires a cost study, economic analysis and 
that consideration be given to the objectives of the copyright system. 
Public hearings will be conducted to solicit comments from the 
copyright community. Revised statutory fees may be instituted after the 
end of 120 days after the schedule is submitted to the Congress, unless 
within that 120-day period, a law is enacted stating the Congress does 
not approve the schedule. Due to the complexity of this process, the 
Copyright Office does not plan to implement new statutory fees until 
July 1, 1999. Discretionary fees are service fees for special or 
expedited handling that account for approximately 10 percent of fee 
revenue. Since they do not involve public hearings, economic analyses 
or mandatory congressional review, they will be implemented in July 
1998.
                               year 2000
    Question. Dr. Billington, I know the Library is taking steps to 
ensure that its automated systems will work after the Year 2000 century 
change. GAO has reported that a number of agencies are not fixing their 
mission critical systems fast enough which may result in program 
failures in the year 2000. Please provide the subcommittee with a 
description of the steps that the Library is taking to ensure that the 
Library's systems will be working in the Year 2000?
    Answer. The Library is devoting maximum available resources to its 
Year 2000 effort, and has tasked its Information Technology Services 
group with leading this initiative and performing the central 
coordination function. In addition, Library managers in each of the 
other service and support units have also been assigned responsibility 
for Year 2000 planning and results specific to their units.
    The steps being taken to ensure that the Library's systems will be 
working in the Year 2000 follow GAO guidance, and are: inventory; 
analysis; modification or upgrade; testing; and implementation. Each 
step involves a series of tasks with target completion dates. 
Dependencies have been identified as part of the inventory and analysis 
phases, so that tasks associated with subsequent steps can be 
accomplished in parallel, as much as possible.
    GAO guidance indicates that all agencies should complete all phases 
or steps several months before Library plans indicate will be possible. 
While the Library would like nothing better than to plan for completion 
of all Year 2000 renovation work earlier, it is simply not realistic to 
do so. Some Library systems are already Year 2000 compliant, some will 
be completed well within GAO's suggested targets, and some will be 
completed several months later than GAO suggests. Because we have made 
every effort to prepare realistic plans, we cannot honestly report that 
we will meet the GAO targets in every case. However, we fully expect to 
complete all renovation, upgrade, or replacement of all Library 
mission-critical systems, before Year 2000 program failures become a 
problem.
                     congressional research service
    Question. Mr. Mulhollan, last year the Congress did not fund your 
proposal to hire additional staff for a succession initiative. CRS is 
again requesting funding of the succession initiative which would 
overlap critical analytical staff slated for retirement. Why do you 
believe the succession initiative is a critical budget item? Since last 
year's budget, do you have additional information that would further 
support your request?
    Answer. We resubmitted the succession initiative for a number of 
reasons. We understood that Congress' decision not to fund the 
succession initiative last year did not necessarily speak to the merits 
of the proposal but rather reflected the severe budgetary constraints 
on the fiscal 1998 Legislative Branch budget. By 2006, half of CRS's 
current staff will be eligible to retire. Nearly two-thirds of those 
eligible, about 250 people, plan to leave during that time frame. These 
losses pose a major challenge to our ability to ensure the continuation 
of our analytic services to the Congress. In many dozens of meetings I 
have had with Members over the last year, I have heard great concern 
over the impending loss of CRS experts on whom Members rely. Many 
Members have expressed their support for the initiative the Service has 
shown to deal with this serious problem, as well as for the specifics 
of the plan. While we recognize that budget constraints are still a 
concern, as we move a year closer to those retirements, it is our 
responsibility to address such concern of Members, and to avoid, if at 
all possible, a significant reduction in our analytic support to 
Members.
    The CRS staff eligible to retire in the next six years are our most 
senior, independent, and authoritative analysts and specialists. Unless 
we can get a ``head start'' on replacing them, we will have to wait 
until the year they retire, and hire their replacements without 
sufficient lead-time to bring those replacements up to the level of 
competence necessary to sustain our current analytic and research 
services. Under this scenario we would have to hire replacement staff 
at the mid- or senior-levels to minimize service disruptions which 
raised concerns that we would be less likely to find a sufficient 
degree of diversity in the applicant pool than would be the case with 
entry-level hires. In addition, mid- and senior-level experts may not 
have all of the quantitative skills that are now standard requirements 
in public policy graduate schools and which are needed as we analyze 
research and information and formulate methodologies to analyze 
alternative methods for approaching public policy issues like health, 
social security, transportation, and tax.
    Question. As you are aware, Senator McCain has introduced a bill, 
S. 1578, which would make certain information available for access and 
retrieval by the public--on the Internet--through the Congressional 
Research Service web site. Please provide the subcommittee your views 
on this legislation and any ideas you have on an alternative to this 
issue.
    Answer. As I indicated in my written testimony before your 
Subcommittee, we believe that S. 1578 raises significant issues, both 
for the Congress and for CRS, which you and your colleagues may wish to 
consider before you decide to change the policy governing the 
dissemination of our products. I should emphasize that CRS has no 
position on this issue, for this decision clearly rests with the 
Congress. However, it is my responsibility to inform you of possible 
unintended consequences or implications of such a change in policy. For 
more detailed information on this matter, I would refer you to the 
materials which I submitted for the record with my statement concerning 
the history of congressional action on this issue, the legal and 
constitutional issues involved, the estimated cost of implementing this 
legislation, as well as the more general question of Members' potential 
liability for disseminating material over the Internet.
    Implications for Member-Constituent Relations.--First and foremost, 
I am concerned that this proposal threatens the important relationship 
that Members have with their constituents. Historically, constituents 
have gone to Members of Congress when they have questions about 
legislation. The wholesale direct dissemination of CRS products to the 
public would bypass this longstanding relationship by denying 
constituents the benefit of their Members' additional insights, party 
viewpoints, or regional perspectives on CRS analyses.
    Consequences for CRS Operations.--In addition to these direct 
impacts on Members, CRS believes that wholesale direct dissemination of 
CRS products would have serious consequences for the Service itself, 
requiring us to divert scarce resources away from our statutory 
mission. Our analysts inevitably would have to shift the focus of much 
of their work away from the direct needs of the Congress to address the 
much more diffused and varied perspectives and interests of the public. 
In order to meet the immediate demands of a pressed congressional 
calendar, CRS authors often provide minimal context and background in 
their analyses, assuming the congressional reader's knowledge of the 
various stages of the legislative process, the distinctions between 
authorizing and appropriating decisions, and similar matters. Were CRS 
authors to broaden the coverage and scope of their products to meet the 
needs of an expanded, non-congressional audience, they would do so at 
the expense of refined, concise analysis targeting the needs of Members 
and staff working directly in the legislative arena.
    Another consequence of wholesale dissemination is that much of the 
efficiency envisioned in our business plan to deliver services in an 
electronic environment would be lost. We have designed our Home Page to 
make our reports, issue briefs, and services readily available and to 
present them in a format that can be customized by each congressional 
client, allowing the user to draw from it that information of greatest 
value, modify it, and easily explore related topics both within CRS and 
through links to outside sources. Having a second CRS Web site directly 
available to the public, which cannot take advantage of such links will 
require us to establish two vehicles of service, and, given limited 
resources, will diminish our effectiveness in meeting your legislative 
needs.
    Legal Issues.--Additionally, S. 1578 and its companion House bill 
raise significant legal issues for CRS. Wholesale dissemination of CRS 
products could bring into question the availability of speech or debate 
clause protection undermining the presumption of confidentiality, which 
is so crucial to the trust relationship between CRS and our 
congressional clients. Relevant Supreme Court rulings indicate that the 
dissemination to the general public of CRS products would not be 
considered a legislative act but would be viewed by the courts as an 
exercise of Congress' representational function, for which speech or 
debate immunity is not available. Those engaged in the preparation and 
public distribution of CRS products could be vulnerable to a variety of 
judicial and administrative proceedings. Wholesale dissemination also 
carries with it the risk of copyright infringement claims. If access to 
CRS products is broadened, our ability to use copyrighted material in 
our reports might be restricted or denied altogether.
  --Cost Factors.--A final concern posed by S. 1578 involves the costs 
        to CRS of implementing this legislation. With the caveat that 
        some of these ``costs'' are difficult to quantify (e.g. the 
        possible loss of speech or debate protection), and recognizing 
        that our analysis is still ongoing, I can say to you with 
        confidence that enactment of legislation such as S. 1578 would 
        require a substantial commitment of CRS resources in four key 
        areas:
    --First, staff time would have to be devoted to creating and 
            maintaining a separate CRS Web site for dissemination to 
            the public.
    --Second, additional costs can be expected to handle the 
            anticipated, and indeed inevitable, large increase in 
            direct contacts between CRS and the general public 
            resulting from wholesale direct dissemination.
    --Third, we anticipate that the heightened public profile of our 
            reports and issue briefs will lead to an increased demand 
            for the paper copy of CRS products in the form of Member 
            requests to CRS on behalf of their constituents.
    --Finally, Members themselves, concerned that our products will be 
            circulated far more extensively than in the past, would 
            likely place many more requests for tailored, confidential 
            memoranda in order to afford themselves the opportunity to 
            reflect upon and consider questions emerging from 
            legislative proposals before having to respond to public 
            inquiries. Confidential memoranda designed for a single 
            client, which cannot be released to other Members without 
            the requestor's consent, are far more expensive on a per-
            unit basis than products which can be available (either 
            electronically or in hard copy) to all interested 
            congressional offices.
    Alternatives.--We believe that greater public access to CRS 
products could be obtained under the current policy of selective 
congressional dissemination, without encountering many of the costs, 
legal issues and institutional difficulties attendant upon legislation 
such as S. 1578.
    Under present guidelines, congressional offices serve as the 
disseminators of CRS products to the public. During fiscal year 1997, 
CRS sent almost 750,000 copies of our Reports and Issue Briefs to 
congressional offices. We believe that a significant proportion of 
these were used in responding to constituent inquiries, including 
specific requests for our products as well as general inquiries on 
various topics.
    Moreover, current technology now enables Members and committees to 
make appropriate CRS products available to constituents in electronic 
format through their respective congressional home pages. We learned 
from a recent informal survey that all 100 senators, 350 House Members, 
and 44 committees now have their own Web sites, evidence that there is 
ample capacity to make our materials widely available to the public on 
a selective basis within current policy guidelines.
    To assist in achieving this objective, CRS is prepared to assist 
our oversight committees in working with Member offices and committees 
in identifying those of our products which would be suitable for 
placement on their Web sites. CRS can also provide advice on the 
technical aspects of transferring CRS documents to congressional web 
sites. Finally, CRS is available to advise congressional offices of any 
possible issues of legal liability which might arise from the 
dissemination of any materials over the Internet.
    A final point is that this alternative does not present several of 
the issues and concerns raised by S. 1578. To summarize briefly:
  --Since Members themselves would continue to make our products 
        available, their direct relationship with constituents would 
        not be affected.
  --Continuation of a policy of selective dissemination would limit 
        direct dissemination to products appropriate for such 
        treatment, thereby reducing the need for major changes in the 
        content and focus of our materials.
  --Eliminating the requirement for a Web site maintained by CRS, and 
        preserving a policy of selective congressional dissemination, 
        make it less likely that the confidentiality of our products 
        under the speech or debate clause would be successfully 
        challenged.
  --Retention of current policy eliminates the costs associated with 
        maintaining a separate CRS public web site, and lessens the 
        likelihood that Members would request many more confidential 
        memoranda.
                          OFFICE OF COMPLIANCE

STATEMENT OF RICKY SILBERMAN, EXECUTIVE DIRECTOR
    Senator Bennett. Our final witness of the day is Ms. Ricky 
Silberman, the Executive Director of the Office of Compliance. 
We thank you for your patience. It has been kind of a long 
morning.
    We note, Ms. Silberman, that you are proposing a reduction 
of 7 percent from your fiscal year 1998 level. That always 
comes as a pleasant surprise. And we commend you for adjusting 
your request to reflect actual needs.
    We will be happy to hear from you.
    Ms. Silberman. Thank you, Mr. Chairman.
    At this time I would like to also introduce two of our 
statutory appointees, who have been here before, and also we 
have a new General Counsel whom I would like you to meet. Pam 
Talkin, our Deputy Executive Director for the Senate, you are 
all familiar with; Jim Stephens, our Deputy Executive Director 
for the House; and Gary Green is the new General Counsel. And 
we are delighted to have him on board and to have the benefit 
of his 27 years in this field. And then, Beth Brown, who works 
very closely with this committee, is our Administrative 
Officer.
    I am pleased to present our 1999 budget request of $2.286 
million, the 7-percent decrease, which you noticed, from our 
fiscal year 1998 appropriations.
    Senator Bennett. We always notice decreases.
    Ms. Silberman. Well, we tried.
    As you know, Congress established the Office of Compliance 
in 1995. And as a new institution, with neither track record 
nor even direct model, our first two budget requests were 
necessarily based on guesstimates. And we did them kind of 
holding our breath. Happily, we are now able to rely on 2 
years' experience with the actual workload and, more 
importantly, on our analysis and evaluation of what it takes to 
get the job done efficiently and effectively.
    I would call to your attention the two reports for calendar 
years 1996 and 1997, on employee use of the office, which are 
attached to the submission. These reports are required by the 
Congress under 301(h) of the act. And they demonstrate the 
efficiency and effectiveness of the counseling and mediation 
process which Congress provided legislative branch employees in 
the CAA.

                   Counseling and mediation processes

    In this process, our counselors are always available to 
give informal advice and information to both employees and 
employing offices on the procedures of the office and the 
rights and protections and responsibilities under the act. It 
is important to note that if an employee goes further in the 
process and files a formal request for counseling, which is 
what actually begins the process, these counselors then 
evaluate the alleged violation, advise the employee of his or 
her rights and responsibilities under the CAA, and attempt to 
facilitate the early resolution of disputes, which is such an 
important feature of the act.
    The fact that the vast majority of employees who contact 
our office do not initiate formal proceedings is, I believe, 
testimony to the effectiveness of the counselors' work.
    The mediation program has proved similarly effective and 
efficient. Early on, we decided that the mediation function was 
best outsourced to recognized, experienced, independent 
mediators upon whom we could call on an as-needed basis. The 
mediations which have taken place under that system have a very 
high rate of settlement. But one of the things that I wanted to 
bring to your attention is that we can always do better. And to 
that end, we have identified several factors which we believe 
create the most favorable climate and environment for 
settlement.
    For instance, we have found that mediation works best when 
the decisionmakers in employing offices actively participate in 
all mediating sessions. In this way, the mediator works with 
the employee and employing office in finding ways to resolve 
the dispute short of adjudication or litigation. We are, 
therefore, looking at how to ensure that decisionmakers are 
present at all mediation sessions conducted under the auspices 
of the Office of Compliance.
    A Senate employee actually said it best in a letter which 
she wrote the office earlier this year. She wrote, and I quote, 
that the Office of Compliance counselor had saved her life and 
sanity. Because of the efforts of our office, she said, her 
employer had participated in the mediation. The dispute was 
resolved. And she remains happily and productively on the job.
    Mr. Chairman, we have resolved scores of cases. And each 
case represents the realization of the promise of the CAA. And 
I can think of no better illustration of the good work of this 
office.
    Before closing, I just want to reiterate the caveat that 
has been included in each of the office's three budget 
submissions. Our projections are based on present workload. And 
that present workload is based on what the CAA has given us to 
do in terms of the Congress. The instrumentalities have come on 
on a serial basis. The 1999 budget request takes into account 
that the Library of Congress and the General Accounting Office 
are presently covered only under certain provisions of the CAA.
    However, the reason I bring this up is that a question has 
been raised as to whether employees of these instrumentalities 
have not only the substantive rights conferred under the CAA 
but also procedural rights, which would mean that we would 
receive their charges. We have issued a notice of proposed 
rulemaking so that interested parties can comment on the 
question.
    Whatever the outcome of that rulemaking, should Congress 
decide--and the Congress is the one that is going to have to do 
it--that the GAO, the GPO, and/or the Library should fall under 
the purview of the office more comprehensively than they do at 
present, we probably will need additional staff and funding. 
And we will be coming to you at that point.

                           prepared statement

    Mr. Chairman, I thank you for the opportunity to testify 
here today, and I really want to express my appreciation to 
Christine Ciccone and to the staff of this committee. Their 
unfailing assistance has made it possible for us to be able to 
do the job that we have done. And we appreciate it very much.
    [The statement follows:]
                 Prepared Statement of Ricky Silberman
    Mr. Chairman and Members of the Subcommittee, I am pleased to 
present the budget request of the Office of Compliance (Office) for 
fiscal year 1999. The Office was established as an independent agency 
within the legislative branch by the Congressional Accountability Act 
of 1995 (CAA), which generally applies the rights and protections of 
eleven labor and employment laws to more than 20,000 covered 
congressional employees and employing offices. The CAA vests authority 
in the Office to administer and enforce the Act, to establish a 
confidential, timely and neutral dispute resolution and adjudication 
process for claims arising under the Act and to provide education and 
information about the rights and protections provided under the Act.
    To carry out these functions, the Office is requesting $2,286,000 
for fiscal year 1999, a 7 percent decrease from the agency's fiscal 
year 1998 appropriation, with no increase in staff. This budget request 
is based on the agency's actual expenditures during its first two years 
of operation. The request includes funding for 19 full-time equivalent 
positions (FTE's), funding for a 3 percent cost of living increase for 
salaries, a reduction of 7 percent in personnel benefits, and a 17 
percent reduction in other services, primarily for hearing officers, 
mediators, and court reporting services.
    As mandated in the CAA, the Office is, as of January 1, 1998, fully 
operational. On January 23, 1996, most provisions of the law took 
effect, covering the House of Representatives, the Senate, the Capitol 
Guide Service, the Capitol Police, the Congressional Budget Office, the 
Office of the Architect of the Capitol, the Office of the Attending 
Physician, the Office of Compliance, and their employees. Additional 
provisions involving labor management relations went into effect on 
October 1, 1996, the OSHA and ADA public access provisions on January 
1, 1997, and the section relating to safety and health was applied to 
the Library of Congress (Library) and the General Accounting Office 
(GAO) on December 30, 1997. The reports on the use of the Office by 
covered employees during calendar years 1996 and 1997 that were 
mandated by section 301(h) of the CAA are attached to this submission. 
These reports document the efficiency and effectiveness of the systems 
and processes which have been put in place.
    As in our prior submissions, this request is based on two 
assumptions: that the Office of Compliance will remain in its present 
location in the Library of Congress; and that our caseload will remain 
at roughly current levels. Additional funding and staffing will be 
requested should either of these assumptions change. Further, this 1999 
budget request takes into account that employees of the Library of 
Congress and the General Accounting Office will be covered under 
certain provisions of the CAA in fiscal year 1999. However, should 
Congress decide that GAO, GPO and/or the Library are to fall under the 
purview of the Office of Compliance more comprehensively than at 
present, additional funding and staffing will be required.
         office of compliance's authority and responsibilities
    The Congressional Accountability Act of 1995 established the Office 
of Compliance as an independent agency in the federal legislative 
branch. In addition to the five-member Board of Directors who serve on 
a part-time basis, the CAA establishes four statutory officers: the 
Executive Director, the Deputy Executive Directors for the House and 
Senate, and the General Counsel.
    Under the CAA, the Office is charged with establishing and 
administering an alternative dispute resolution process which provides 
counseling, mediation and adjudicative hearings and appeals for covered 
legislative branch employees. The CAA requires the Office's Executive 
Director, subject to Board approval, to adopt rules governing the 
procedures of the Office, and requires the Board to adopt substantive 
regulations for implementation of the CAA. The Office is also charged 
with providing education and information to Members of Congress, other 
employing offices, and employees of the legislative branch. The Office 
of the General Counsel is charged with enforcement of the sections of 
the CAA dealing with unfair labor practices, safety and health, and 
disability access. This includes investigation and prosecution of 
claims under these sections, and periodic inspections to ensure 
compliance with health and safety, as well as disability access 
requirements.
                       dispute resolution process
          requests for information, counseling, and mediation
    The Office provides covered employees in the legislative branch 
with a neutral, confidential, efficient process for resolving disputes 
relating to employment rights and protections. Employees and employing 
offices may, at any time, seek informal advice and information on the 
procedures of the Office and the rights, protections, and 
responsibilities afforded under the CAA. The Office responds to all 
inquiries on a confidential basis, and tracks both the number and the 
nature of the inquiries.
    Before filing a formal complaint alleging a violation under the 
CAA, employees must request counseling and mediation which is provided 
under the auspices of the Office of Compliance in a neutral, 
confidential setting. During the 30-day counseling period, the 
counselor evaluates the alleged violation, advises the employee of his 
or her rights and responsibilities under the CAA, and facilitates 
resolution of the problem. If the counseling does not resolve the 
employee's concerns, the Office provides neutral, trained mediators to 
assist the parties in resolving the dispute. The period for mediation 
is generally 30 days, but may be extended at the request of the 
parties.
                              adjudication
    After counseling and mediation, if the dispute remains unresolved, 
the employee may choose either to pursue the claim through the 
adjudicative hearing process under the auspices of the Office, or file 
suit in Federal District Court. An employee who elects the adjudicative 
procedures of the Office files a formal complaint with the Office. The 
Executive Director appoints an independent Hearing Officer to consider 
the case and render a written decision, which may be appealed to the 
Office's Board of Directors. The Board of Directors issues written 
decisions, which may then be appealed to the U.S. Court of Appeals for 
the Federal Circuit. The administrative hearing process offers speedier 
resolution and confidentiality, while offering the same remedies as 
civil action.
Accomplishments in fiscal year 1997
    Dispute Resolution Process.--Fiscal year 1997 was the first full 
fiscal year of operation of the Office's alternative dispute resolution 
process. The vast majority of workplace disputes received by the Office 
of Compliance are resolved in the first stages of the dispute 
resolution system prior to adjudication or litigation. During fiscal 
year 1997, a total of 1,716 calls for information were made to the 
Office directly, or to the Office's information line. In fiscal year 
1997, a total of 165 formal counseling requests were filed, compared to 
61 in our first 8 months of operations (in fiscal year 1996). Of the 61 
filed in fiscal year 1996, 15 cases were pending in counseling as of 
October 1, 1996. A total of 158 requests for mediation were received in 
fiscal year 1997. Of the 184 cases that were either pending in 
counseling or mediation at the start of the fiscal year, or received as 
new requests for counseling, many of the cases (i.e., 75) were resolved 
during, or were not pursued past, this stage of the alternative dispute 
resolution process. At the end of fiscal year 1997, there were 14 cases 
in which the mediation period had recently ended and the period for 
filing a complaint remained open, and 32 cases which remained in 
mediation.
    A total of 12 complaints were pending on October 1, 1996, and 6 new 
complaints were filed during fiscal year 1997. Six hearing officer 
decisions were issued on 13 cases; 5 appeals of hearing officer 
decisions were filed; and 2 Board decisions were issued on 9 cases.
    Labor Management Relations.--The Office carries out the Board's 
investigative authorities under section 220(c)(1) of the CAA, involving 
issues concerning the appropriateness of units for labor organization 
representation, the duty to bargain, and exceptions to arbitrators' 
awards. The Office achieved several additional significant 
accomplishments related to union representation matters in fiscal year 
1997. Four representation petitions were filed, and two pre-election 
investigatory hearings were held. Based on records developed during the 
pre-election investigatory hearings, two Board Decisions and Directions 
of Election were issued. One election agreement was entered into by the 
parties and approved by the Executive Director on behalf of the Board. 
Elections were held in all three of these cases, in addition to a 
runoff election in one of the three. Two cases were pending at the end 
of fiscal year 1997: a representation petition seeking to organize a 
unit of approximately 35 employees, and a unit clarification petition 
seeking to include additional employees in a unit certified in fiscal 
year 1997.
Plans for fiscal year 1998 and fiscal year 1999
    The number of mediations conducted in fiscal year 1998 and fiscal 
year 1999 is projected to increase from fiscal year 1997. The number of 
mediation requests received in the last half of fiscal year 1997 was 
much higher than in the first half. This may indicate a trend which 
would result in a moderately increased workload in this area. An 
increase in the number of mediations may also result in a higher number 
of unresolved disputes. Accordingly, the numbers of complaints and 
hearings are also projected to increase.
    In fiscal year 1998, as collective bargaining agreements are 
negotiated and as parties begin the bargaining process, disputes may 
arise as to an employing office's duty to bargain over a proposal. If 
an employing office declares a proposal non-negotiable, the labor 
organization may petition the Board for review, and the Board will 
issue a decision in the matter. After the collective bargaining 
agreements are in place in fiscal year 1998 or in fiscal year 1999, the 
Board may be called upon to review arbitrators' awards. Either party to 
an arbitrator's award can file an exception to the award claiming that 
the award is deficient under section 220 of the CAA, and the Board will 
make a determination on the matter.
    Additionally, under Section 220 of the CAA, the Board exercises the 
authorities of the Federal Services Impasses Panel to resolve impasses 
which may arise in the collective bargaining process in the legislative 
branch. The Board may exercise that authority in a number of ways: the 
Board can ask the Executive Director to appoint a mediator; Board 
members can also act as arbitrators or hold hearings. Since the Board 
has not yet been called upon to make determinations in these areas, it 
is difficult to project if additional resources will be required.
         inspections, technical assistance, and investigations
                     occupational safety and health
    Periodic Inspection.--The CAA requires the General Counsel of the 
Office of Compliance to inspect facilities in the legislative branch 
for compliance with safety and health standards at least once each 
Congress, and report the findings to Congress. The first inspection is 
taking place during the 105th Congress, a two-year period that runs 
from January, 1997 through December, 1998.
    Approximately 20 million square feet of space are included in the 
inspection, including the Capitol Power Plant, and numerous carpentry, 
paint finishing and metal shops. Questionnaires survey the safety and 
health conditions of more than 1,000 District offices throughout the 
country. Employing offices are informed of any deficiencies identified, 
so that hazards can be corrected as soon as possible. As mandated in 
section 215 of the CAA, the report to Congress will describe the status 
of compliance with safety and health laws and identify those violations 
that have not been corrected. Section 215(e)(3) of the CAA requires 
that citations be issued for violations identified in the inspection 
that have not yet been corrected by the time the report is submitted.
    Requests for Safety and Health Inspections.--On January 1, 1997, 
the CAA's safety and health provisions became effective, including a 
provision giving covered employees the right to request inspections of 
possibly hazardous conditions in work areas. Except for situations 
involving imminent danger, when a request for an inspection is 
received, the General Counsel notifies the employing office of the 
allegation. Employing offices are given the opportunity to resolve the 
alleged violation and provide the Office of the General Counsel (OGC) 
with the information necessary for the Office to determine that 
appropriate action has been taken.
    In the event that the employing office responsible for abating a 
condition that violates an OSHA standard is unable to correct the 
problem within a specified time, the OGC inspects and issues citations 
and/or notifications, as appropriate. If, after issuing a citation, the 
General Counsel determines that a violation has not been corrected, the 
General Counsel may file a complaint with the Office which is submitted 
to a hearing officer. If correcting hazardous conditions frequently 
results in cases going to hearing, additional personnel may be needed 
for such litigation.
    Technical Assistance.--Like OSHA, the OGC has the responsibility 
for providing compliance assistance to employing offices and covered 
employees. The OGC also provides interpretations of OSHA standards to 
employing offices upon request, as well as information about proposed 
OSHA regulations that affect their operations.
Accomplishments in fiscal year 1997
    During fiscal year 1997, virtually all of the non-office space was 
inspected, including the Capitol Power Plant, off-site warehouses at 
Blue Plains, Fort Meade, and Alexandria, electrical rooms, and 
mechanical shops; these are the areas in which most deficiencies would 
reasonably be expected to be concentrated. In the inspections conducted 
to date for the 105th Congress, some 50 conditions serious enough to 
constitute violations of OSHA safety and health standards have been 
identified. If these hazards are not remedied in a timely fashion, 
citations will be issued and litigation to enforce the citations could 
be necessary.
    During the last nine months of the fiscal year, the OGC received 15 
requests for inspection, and resolved ten of the cases.
    During fiscal year 1997, the OGC responded to 72 requests for 
technical assistance about workplace safety and health concerns, such 
as the need for respirators to protect against harmful chemical 
exposures and the need for building evacuation plans. The OGC has also 
recently prepared information explaining OSHA's proposed new 
requirements to control the spread of tuberculosis to employing 
offices, including the Office of the Attending Physician and the 
Capitol Police.
Plans for fiscal year 1998 and fiscal year 1999
    As of January 1, 1998, both the Library of Congress and the General 
Accounting Office are covered by the safety and health provisions of 
the CAA. Thus, an additional 5.5 million square feet of space are now 
required to be in compliance with the safety and health standards, and 
the number of employees who are covered by the safety and health 
provisions is increased over 40 percent, from 20,000 to 28,000. For 
this reason, an additional $20,000 has been requested for the safety 
and health consultant, both for conducting the inspections and for 
providing the technical assistance necessitated by the additional 8,300 
covered employees. For example, the OGC plans to assist in the 
development of programs to reduce occupational injuries in legislative 
branch agencies that have high lost time injury and illness rates.
    If citations and litigation are necessary in cases of 
noncompliance, the workload of the OGC could necessitate increased 
funding. This will be addressed in a supplemental request for funding, 
should it become necessary.
    The number of requests for inspections may be higher in fiscal year 
1999. In the first five months of fiscal year 1998, nine requests have 
been received, as compared to the 15 received in the last nine months 
of fiscal year 1997. In addition, as of January 1, 1998, the 8,300 
additional employees of the Library and the GAO have been added to the 
pool of potential complainants, which will likely result in an increase 
in requests for inspection. If citations and litigation are necessary 
in cases of noncompliance, an increased workload for the OGC could 
necessitate additional staff and/or funding in the future.
      public services and accommodations under the americans with 
                            disabilities act
    Inspections.--Pursuant to section 210 of the CAA, the Office of the 
General Counsel conducts inspections at least once each Congress to 
determine compliance with the rights and protections against 
discrimination in the provision of public services and accommodations 
established by the Americans with Disabilities Act. The inspection 
cycle is similar to the cycle for the safety and health inspections 
described above. However, since only public areas, and not those areas 
used exclusively by employees, are subject to this provision of the 
CAA, less space is inspected--an estimated 8 million square feet rather 
than the 20 million feet inspected for safety and health.
    Technical Assistance.--The CAA directs the OGC to provide employing 
offices with technical advice to assist them in complying with 
disability access requirements. In addition, the OGC routinely answers 
questions from and provides information to Congressional offices on 
disability access laws.
Accomplishments in fiscal year 1997
    In fiscal year 1997, the OGC received 67 requests for information 
about disability access requirements. These included questions such as: 
the wording that should be used in notices for town meetings about 
accommodations available for individuals with disabilities, the type of 
auxiliary aids that Congressional offices are required to make 
available upon request, and whether disability access laws require that 
District offices in inaccessible buildings relocate.
    The OGC also prepared and distributed materials explaining the 
disability access requirements that typically apply to Congressional 
offices and the public services and activities they undertake. This 
information is also published on the Office of Compliance web page 
(www.compliance.gov).
Plans for fiscal year 1998 and fiscal year 1999
    Funding to fulfill the disability access provision of the CAA is 
expected to remain at roughly its current level in fiscal year 1999, 
unless CAA coverage is expanded to the Library or GAO. In fiscal year 
1997, considerable assistance was received from the Department of 
Justice and the Access Board. If this assistance were no longer 
available to the OGC, it is estimated that an additional 150 consulting 
hours at roughly $80 per hour would be necessary to fulfill the 
mandatory functions. This will be addressed in a supplemental request 
for funding, should it become necessary.
                         unfair labor practices
    The General Counsel is responsible for receiving and investigating 
allegations of unfair labor practices filed under section 220 of the 
CAA, and for filing and prosecuting complaints of unfair labor 
practices with the Office.
Accomplishments in fiscal year 1997
    A total of ten charges of unfair labor practices were submitted to 
the OGC for investigation during the fiscal year. The OGC also received 
22 requests for assistance or information about labor-management 
relations issues covered by section 220.
Plans for fiscal year 1998 and fiscal year 1999
    The trend in charge filing indicates that the OGC's unfair labor 
practice workload will likely increase in fiscal year 1998 and fiscal 
year 1999. During the first five months of fiscal year 1998, nine 
charges were submitted, nearly as many as were submitted in all of 
fiscal year 1997. Additionally, during fiscal year 1997, none of the 
charges filed proceeded to the complaint and hearing, either because 
the parties resolved the dispute or because the General Counsel 
determined after investigation that the evidence was insufficient to 
warrant the filing of a complaint. Although the policy of encouraging 
settlement prior to the filing of a complaint is expected to continue, 
there will most likely be cases in which settlement cannot be achieved. 
In this event, after the General Counsel files a complaint, the 
Executive Director will assign a hearing officer to hear the complaint.
                       education and information
    Under the CAA, the Office of Compliance provides education and 
information to Congress, other employing offices of the legislative 
branch, and covered employees. In order to fulfill its mandate to 
inform covered employees and employing offices of their rights, 
protections and responsibilities under the CAA, the education and 
information program distributes written materials and publications, 
conducts briefings, maintains a web site on the Internet and provides 
counseling, referrals, and information to employees and employing 
offices on an individual basis.
Accomplishments in fiscal year 1997
    The first annual report, presenting statistics on the use of the 
Office of Compliance, was submitted to Congress on October 1, 1997. The 
report covers the period from January 23, 1996, when the CAA went into 
effect, to December 31, 1996.
    The CAAnews, a newsletter published quarterly and containing 
updated information on the CAA and the Office of Compliance, was mailed 
to the residences of 20,000 covered employees throughout the year.
    Briefings were presented twice a month by the Office to new Senate 
employees in order to familiarize them with the CAA and the Office of 
Compliance. Regularly scheduled monthly briefing were conducted for 
House employing office senior staff. These briefings have focused on 
specific areas of the CAA, including Office of Compliance dispute 
resolution procedures, the mediation process, the Fair Labor Standards 
Act, and the Family and Medical Leave Act.
    The Office of Compliance world wide website disseminates 
information via the Internet. The website (www.compliance.gov), located 
on a GPO server and accessible via GPO's Access system, is updated on 
an ongoing basis. It currently includes the 400 page ``Guide to the 
Congressional Accountability Act'' manual, employee rights and 
protections brochures, regulations promulgated by the Board of 
Directors, decisions by the Board, and information on ADA public access 
and accommodations and OSHA compliance.
    The Office reference manual, ``A Guide to the Congressional 
Accountability Act'', includes summaries of the laws applied by the 
CAA, question and answer sections for each law, and a complete set of 
the Office's procedural and substantive rules. Updates to the manual 
were distributed throughout the year. Two copies of the manual were 
provided to newly elected members of the 105th Congress, for their 
Capitol and District offices.
    A new rights and protections brochure containing summaries of the 
three laws applied by the CAA after January 23, 1996 was mailed to all 
covered employees. On a monthly basis, the Office mailed its two rights 
and protection brochures to all new covered employees. The Office of 
Compliance revised procedural rules were published in booklet format. 
In addition, several Office publications advising employees of their 
rights and notifying them of upcoming elections were developed, and 
they were translated into Spanish for one of the union elections held 
in fiscal year 1997.
    An interactive telephone information line directed callers to 
recorded information (this data was included in the annual report to 
Congress), or to an Office staff member who discussed claims and 
provided resource referrals.
Plans for fiscal year 1998 and fiscal year 1999
    In fiscal year 1998, for the first time, approximately 8,300 
employees of the General Accounting Office and the Library of Congress 
will be covered under certain sections of the CAA. The Office will 
prepare, publish and distribute new written materials to meet its 
congressional mandate to ``educate and inform'' this specific group of 
covered employees. Employees will be mailed a separate rights and 
protections brochure, a special edition of the Guide to the 
Congressional Accountability Act resource manual will be produced for 
GAO and the Library, and informational posters will be printed and 
distributed to GAO and the Library for posting.
    The CAAnews, with additional information on the CAA and the Office 
of Compliance, will continue to be published on a quarterly basis and 
mailed to covered employees' residences.
    The ``Guide to the Congressional Accountability Act'' manual will 
be distributed to new members of the 106th Congress and updated as 
needed. Throughout the year, new employees covered under the CAA will 
be mailed employee rights and protections brochures.
    In fulfilling its statutory responsibilities, the education and 
information program will continue to update, reprint and distribute 
existing materials and produce new publications, fact sheets, posters 
and updates for more than 28,000 covered employees and employing 
offices (a 40 percent increase in covered employees from fiscal year 
1997).
                           regulation writing
    The CAA requires the Executive Director, subject to Board approval, 
to adopt rules governing the procedures of the Office. The CAA further 
requires the Board to adopt, subject to Congressional approval, 
substantive regulations implementing sections of the CAA that apply 
rights and protections of the Fair Labor Standards Act, the Family and 
Medical Leave Act, the Employee Polygraph Protection Act, the Worker 
Adjustment and Retraining Notification Act, Titles II and III of the 
Americans with Disabilities Act, the Occupational Safety and Health 
Act, and the Federal Service Labor-Management Relations Statute.
Accomplishments in fiscal year 1997
    The regulations for the implementation of two of the laws made 
applicable by the CAA, i.e., OSHA and Titles II and III of the ADA, 
were finalized and adopted by the Board in December, 1996. The Office 
developed amendments to extend those provisions of its substantive 
regulations that relate to the CAA sections made applicable to GAO and 
the Library of Congress, and proposed them in September of 1997. (The 
Board subsequently adopted these amendments in October, and they are 
currently awaiting Congressional approval.) Amendments to the 
procedural rules to include GAO and the Library were also developed, 
and the Notice of Proposed Rulemaking was signed by the Executive 
Director on September 30 and published for comment in the Congressional 
Record on October 1, 1997. As a result of the submission of the Library 
of Congress, the Office has published a further notice of proposed 
rulemaking requesting further comment on the issues raised by the 
Library.
Plans for fiscal year 1998 and fiscal year 1999
    The Board's substantive regulations will be periodically reviewed 
and updated to take into account any amendments made to the executive 
agency regulations on which the Board's regulations are based. In the 
first such update, signed on October 31, 1997, the Board adopted 
amendments to update its regulations implementing section 215 
(Occupational Safety and Health).
    Further, if Congress amends the CAA to expand the Office's 
responsibilities with respect to GAO and the Library of Congress, or to 
give the Office responsibilities with respect to GPO, amendments to the 
Board's substantive regulations and to the Executive Director's 
procedural rules will be needed. The nature, extent, and timing of 
these amendments would depend on the terms of the statutory amendments 
by which the Office's expanded responsibilities are established.
                          studies and reports
    Section 230 of the CAA mandates a study on the application of the 
rights, protections, and procedures under the eleven employment and 
labor laws in the CAA to the General Accounting Office, the Government 
Printing Office, and the Library of Congress and their employees. 
Section 102(b)(2) of the CAA requires the Board to submit a report to 
Congress on the applicability to the legislative branch of any 
employment laws not contained in the CAA, beginning on December 31, 
1996, and every two years thereafter.
    Sections 210(f)(2) and 215(e)(2) of the CAA require the General 
Counsel of the Office to submit, at least once every Congress, a report 
to Congress and the Office of the Architect of the Capitol containing 
the results of the periodic inspections required by the CAA. This 
study, discussed in the Inspections, Technical Assistance, and 
Investigations section above, must also outline the steps necessary to 
remedy a violation, describe the consequences of each violation, and 
estimate the cost and time needed to correct the violation.
Accomplishments in fiscal year 1997
    The section 102(b) and section 230 studies were submitted to 
Congress in fiscal year 1997. The Board is conducting an additional 
study to examine in-depth those sections of the laws applied to the 
legislative branch by the CAA that were not originally applied in the 
CAA, and make recommendations, as necessary. This study was begun in 
fiscal year 1997, and it will be issued prior to December 31, 1998.
Plans for fiscal year 1998 and fiscal year 1999
    Section 102(b) requires that the Board submit a report to Congress 
every two years, on whether and to what degree federal employment and 
public disability access laws apply to the legislative branch, and 
whether such laws that do not apply should be made applicable. At a 
minimum, the December 1998 report will address those federal laws that 
were enacted or amended since the issuance of the December 1996 report. 
The Board may also consider whether to focus in-depth on one or several 
categories of laws that do not now apply to the legislative branch as 
part of the 1998 or subsequent biennial studies. It may then make 
recommendations to Congress to apply additional provisions of law to 
the legislative branch.
    The reports required by sections 210(f)(2) and 215(e)(2) of the CAA 
will be submitted by the General Counsel, at least once every Congress, 
to Congress and the Office of the Architect of the Capitol; these 
reports will contain the results of the periodic inspections required 
by the CAA.
               administrative and financial improvements
Accomplishments in fiscal year 1997
    The Office developed and distributed to all staff a Financial 
Directive on procurement procedures that ensures that appropriate 
checks and balances are maintained on expenditures of appropriated 
funds, and that such expenditures comply with Financial Acquisition 
Regulations (FAR). All contracts and contracting procedures were also 
standardized to comply with the Financial Directive and FAR.
    The Executive Director approved the Vision, Goals and Strategies 
statement prepared by the Legislative Branch Financial Managers Council 
and endorsed by the House Appropriations Committee in its report on the 
Legislative Branch Appropriations Bill. Preliminary steps were taken to 
comply with its tenets, including cross-servicing disbursements and 
other financial services with the Library. In addition, a five-program 
budget structure was developed and implemented that facilitates both 
tracking expenditures and accurately projecting future costs, devised 
as a first step to eventual compliance with FASAB cost accounting 
standard 4, i.e., ``Managerial Cost Accounting Concepts and Standards 
for the Federal Government.'' Finally, in partnership with the Library, 
an auditable consolidated financial statement is currently being 
prepared using fiscal year 1997 data.
    To prepare for Year 2000 system demands, the Office started to 
upgrade its equipment and software during fiscal year 1997. Previous 
equipment had been obtained from the former Office of Technology 
Assessment, and it was inadequate to make the transition to year 2000 
data, and unable to run 32-bit Windows 95 software. The Office procured 
a new Compaq server for its local area network that is equipped with 
RADE technology (i.e., technology by which data files are redundantly 
stored on multiple hard drives) to protect against data loss, and began 
to replace its 486 computers with pentium computers. The Office's 
furniture and equipment inventory was completely updated, as well.
    The Office also developed and installed external e-mail as well as 
dial-up connectivity with the Architect of the Capitol. These system 
enhancements are via stand-alone computer, in order to continue to 
protect the strict confidentiality required by section 416 of the CAA. 
The Office of the General Counsel developed its own data entry and 
database management application for the OSHA and ADA questionnaire 
data, using Access software.
    In order to ensure consistency with statutory timeframes, 
efficiently manage and report to Congress as mandated, the Office's 
extensive computerized case-tracking system was completed. This system 
generated the first report to Congress on the use of the Office by 
legislative branch employees, as mandated by section 301(h) of the CAA.
    Building on the early accomplishments of the Office, several cost-
containing measures we initiated in this fiscal year. Printing costs 
were reduced significantly by having the Office's publications 
published through contracts negotiated by the Government Printing 
Office; a group contract rate was negotiated with Westlaw Publications, 
which significantly reduced the costs anticipated in last year's budget 
for this purpose; the Office replaced the large Kodak copier we had 
procured earlier with three small Kodak copiers at no additional 
expense, facilitating more in-house copying and resulting in 
considerable savings.
Plans for fiscal year 1998 and fiscal year 1999
    The Office has entered into a partnership with the Library of 
Congress Financial Services Division to prepare a consolidated 
financial statement for fiscal year 1997. This agreement was included 
in our Interagency Agreement with the Library for fiscal year 1998, and 
it is the Office's next step in implementing the Vision, Goals and 
Strategies of the Legislative Branch Financial Managers Council.
    The letter writing capability of the Office's case tracking 
application will be upgraded in fiscal year 1998 to be compatible with 
Windows 95 and the new 32-bit Paradox and WordPerfect software. Pentium 
computers will be procured and installed for staff who have not yet 
received the Office's upgraded software and hardware, thus ensuring 
that the Office is prepared for the challenge of the year 2000.
    The Office's employee manual will be revised to incorporate 
additional information, including the Office's flexiplace, travel and 
e-mail policies and procedures.
                  awards and settlements appropriation
    Section 415 of the CAA established ``an account of the Office in 
the Treasury of the United States for the payment of awards and 
settlements * * * under this Act,'' and further authorized to be 
appropriated ``such sums as may be necessary to pay such awards and 
settlements.'' Section 415 stipulated that awards and settlements under 
the CAA should only be paid from that account, which is to be separate 
from the operating expenses account of the Office of Compliance 
established under section 305 of the CAA. The Executive Director 
approves all such awards.
    The Legislative Branch Appropriations Acts of 1996, 1997, and 1998 
have appropriated funds for awards and settlements under the CAA. 
Section 305 of the fiscal year 1998 appropriation bill contained the 
following language:

          Such sums as may be necessary are appropriated to the account 
        described in subsection (a) of section 415 of Public Law 104-1 
        to pay awards and settlements as authorized under such 
        subsection.

    Awards and settlements are paid by means of a disbursement process 
designed to safeguard the confidentiality of the settlements and the 
parties involved. Only one non-Office employee (who has signed a 
confidentiality agreement) has access to information about claimants.
    In fiscal year 1997, a total of $39,429 was awarded and disbursed 
under six settlements made under section 415 of the CAA. To date in 
fiscal year 1998, a total of $73,700 has been awarded and disbursed 
under 11 settlements.
       office of compliance's budget request for fiscal year 1999
    The Office of Compliance's fiscal year 1999 budget request of 
$2,286,000 reflects a $193,000 (-7 percent) decrease from the fiscal 
year 1998 appropriation of $2,479,000.
    Staffing levels are projected at the same level as in fiscal year 
1998. However, additional staff would be required, should Congress 
decide to expand the coverage of employment and safety laws in the CAA 
for employees of the General Accounting Office, the Government Printing 
Office, and the Library of Congress.
    Employee benefit ratios for the Office continue to be lower than 
those experienced by most federal agencies for several reasons. More 
employees are covered by the FERS retirement system than are covered by 
CSRS, and neither workers' compensation payments nor payments to 
retirees have been made to date. For these reasons, $27,000 less is 
requested for employee benefits than in fiscal year 1998.
    A decrease of $8,000 is requested for travel in fiscal year 1999 
based upon fiscal year 1997 actual expenditures. The request for rent, 
communication and utilities is $21,000 less than in fiscal year 1998 as 
a result of the agreement negotiated with Westlaw Publishing. Virtually 
all online services Westlaw provides are covered within a group rate 
under this agreement.
    In the fiscal year 1999 request, a total of $114,150 is requested 
for mediators, $19,000 more than the actual fiscal year 1997 
expenditures of $95,150. This request is higher because the number of 
mediations requested in the last half of fiscal year 1997 was much 
higher than in the first half, which indicates a trend which is 
expected to result in an increased workload in this area.
    Based on actual expenditures, we are requesting a total of $90,780 
for hearing officers, and $23,180 for the services of court reporters. 
Although these costs are slightly higher than the actual costs for 
fiscal year 1997 of $75,780 and $19,200, respectively, they are about 
half of the fiscal year 1998 budget request for these services. They 
are projected to increase in response to the trend in requests for 
mediation discussed above.
    The Office is requesting an increase of $7,000 for supplies 
primarily for materials needed to fulfill our statutory mandate for 
education and information. Every report as well as all new and revised 
regulation must be produced and distributed for all Members of 
Congress, and other employing offices. As discussed above, provisions 
of the CAA now apply to 8,300 additional employees of GPO and the 
Library, all of whom will receive publications as well.
    Since its inception, the Office has been located in the Adams 
building of the Library of Congress. Pursuant to an agreement with the 
Library, the space was expanded to accommodate our initial operations. 
On the basis of this occupancy, no additional funding for moving 
expenses, rent, utilities, or system and phone wiring has been included 
in this request. If the Office is required to relocate in fiscal year 
1999, additional funding will be sought in a supplemental request.
                               conclusion
    In the two years since this Office was established much has been 
accomplished. As of January 1, 1998, the Office is fully operational, 
all regulations have been approved by the Board, procedures are 
established, and all systems are up and running. Whereas in the past we 
have had to rely largely on conjecture, this year's budget request is 
based on almost two years of experience with what our actual workload 
is, and what it costs to do the job efficiently and effectively. The 
effectiveness of the alternative dispute resolution process that 
Congress envisioned and set forth in the CAA has now been documented. 
All of this speaks not only to the good work of the Office, but, more 
importantly, to the commitment of Congress to the important principles 
of the Congressional Accountability Act.
                                 ______
                                 
  Office of Compliance Section 301(h) Report to Congress--January 23, 
                         1996-December 31, 1996
                              introduction
    The Congressional Accountability Act (CAA) generally applies 
provisions of eleven federal labor and employment laws to over 20,000 
covered congressional employees and employing offices. The CAA 
establishes the Office of Compliance (Office), an independent agency in 
the legislative branch of government, to administer and enforce the CAA 
and provide a process for speedy, confidential resolution of workplace 
disputes. Section 301(h) of the CAA requires that the Office of 
Compliance:
          ``* * * compile and publish statistics on the use of the 
        Office by covered employees, including the number and type of 
        contacts made with the Office, on the reason for such contacts, 
        on the number of covered employees who initiated proceedings 
        with the Office under this Act and the result of such 
        proceedings, and on the number of covered employees who filed a 
        complaint, the basis for the complaint, and the action taken on 
        the complaint.''
    This first report provides the information for the period from 
January 23, 1996 through December 31, 1996. Future reports will be 
issued soon after the end of each calendar year, beginning in January 
1998. The report begins with a summary of the authority and 
responsibilities of the Office of Compliance.
          office of compliance authority and responsibilities
    The CAA establishes the Office of Compliance with a Board of five 
members, who serve on a part-time basis, and four statutory appointees: 
the Executive Director, Deputy Executive Director for the Senate, 
Deputy Executive Director for the House, and the General Counsel. The 
Office is charged with providing alternative dispute resolution 
procedures, as well as adjudicative hearings and appeals, for covered 
legislative branch employees and education and information on the CAA 
to members of Congress, other employing offices, and employees of the 
legislative branch. The Board is required to adopt substantive 
regulations for implementation of certain provisions of the CAA. The 
Executive Director is required to adopt rules governing the procedures 
of the Office. The Office of the General Counsel enforces the 
provisions of sections 210 and 215, relating to health and safety and 
public access requirements, including investigation and prosecution of 
claims under these sections, and periodic inspections to ensure 
compliance. Additionally, the General Counsel investigates and 
prosecutes unfair labor practices under section 220 of the CAA.
    The CAA applies the rights and protections of provisions of the 
following eleven labor and employment statutes to covered employees 
within the legislative branch: title VII of the Civil Rights Act of 
1964, the Age Discrimination in Employment Act of 1967, title I of the 
Americans with Disabilities Act of 1990, the Rehabilitation Act of 
1973, the Family and Medical Leave Act of 1993, the Fair Labor 
Standards Act of 1938, the Employee Polygraph Protection Act of 1988, 
the Worker Adjustment and Retraining Notification Act, chapter 43 of 
title 38 of the U.S. Code (relating to veterans' employment and 
reemployment), the Americans with Disabilities Act of 1990 relating to 
public services and accommodations, the Occupational Safety and Health 
Act of 1970, and chapter 71 of title 5 of the U.S. Code (relating to 
federal service labor-management relations).
    On January 23, 1996, key provisions of the law took effect covering 
the House of Representatives, the Senate, the Capitol Guide Service, 
the Capitol Police, the Congressional Budget Office, the Office of the 
Architect of the Capitol, the Office of the Attending Physician, the 
Office of Compliance, and their employees. On October 1, 1996, section 
220, the labor management section of the CAA took effect, as did the 
OSHA and ADA sections on January 1, 1997.
                    use of the office of compliance
    Section 301(h) of the Congressional Accountability Act mandates 
that the Office of Compliance:
          ``* * * compile and publish statistics on the use of the 
        Office by covered employees, including the number and type of 
        contacts made with the Office, on the reason for such contacts, 
        on the number of covered employees who initiated proceedings 
        with the Office under this Act and the result of such 
        proceedings, and on the number of covered employees who filed a 
        complaint, the basis for the complaint, and the action taken on 
        the complaint.''
    The following statistics provide this data on the use of the Office 
by covered employees from January 23, 1996, when the CAA generally took 
effect, to December 31, 1996. (Given the statutory time frames, 
proceedings initiated in 1996 may still be in the dispute resolution 
process as of December 31, 1996.)
Number and Types of Contacts Received: 1,677
    Employees and employing offices may, at any time, seek informal 
advice and information on the procedures of the Office and the rights, 
protections, and responsibilities afforded under the CAA. The Office 
responds to all inquiries on a confidential basis.
    1,677 requests for information from covered employees, employing 
offices, the public, unions, and the press were made by phone and in 
person from January 23, 1996 to December 31, 1996. Contacts were made 
by:
                                                                        
Employees.........................................................   652
Employing offices.................................................   603
Public............................................................   107
Unions............................................................    36
Press.............................................................    44
Recorded information line.........................................   235
                        -----------------------------------------------------------------
                        ________________________________________________
      Total requests for information.............................. 1,677
Reasons for Employee Contacts
    652 covered employees contacted the Office asking questions under 
the following sections:\1\
---------------------------------------------------------------------------
    \1\ Aggregate numbers will not necessarily match totals as a single 
contact may involve more than one section or subsection of the CAA, 
and/or more than one issue or alleged violation.

------------------------------------------------------------------------
Section                       Description                       Contacts
------------------------------------------------------------------------
    201Rights and protections under title VII of the Civil         112
        Rights Act of 1964, the Age Discrimination in
        Employment Act of 1967, the Rehabilitation Act of
        1973, and title I of the Americans with
        Disabilities Act of 1990
    202Rights and protections under the Family and Medical          26
        Leave Act of 1993
    203Rights and protections under the Fair Labor                 155
        Standards Act of 1938
    204Rights and protections under the Employee Polygraph   .........
        Protection Act of 1988
    205Rights and protections under the Worker Adjustment           73
        and Retraining Notification Act
    206Rights and protections relating to veterans'                  3
        employment and reemployment
    207Prohibition of intimidation or reprisal                       8
    210Rights and protections under the Americans with               1
        Disabilities Act of 1990 relating to public
        services and accommodations; procedures for remedy
        of violations
    215Rights and protections under the Occupational Safety          4
        and Health Act of 1970; procedures for remedy of
        violations
    220Application of chapter 71 of title 5, United States          13
        Code, relating to federal service labor-management
        relations
    230Study and recommendations regarding General                   9
        Accounting Office, Government Printing Office, and
        Library of Congress
    CAAQuestions regarding the general application of the          128
        CAA
------------------------------------------------------------------------

    Additionally, the office received 150 questions from employees on 
matters which were not cognizable under the CAA.
    The 652 employee contacts were for information regarding:

Assignments.......................................................     4
Belo contracts....................................................    14
Benefits..........................................................     1
Compensatory time off.............................................     9
Compensation......................................................    29
Demotion..........................................................     8
Discipline........................................................     2
Equal pay.........................................................     1
Evaluation........................................................     2
Exemptions under the Fair Labor Standards Act.....................    42
General questions regarding statutory requirements................   102
Harassment........................................................    14
Hiring............................................................     3
Hours of work.....................................................    28
Inspections.......................................................     1
Interns...........................................................     1
Leave.............................................................    14
Leave eligibility.................................................     4
Office operations.................................................     1
Overtime pay......................................................    32
Promotion.........................................................    12
Reasonable accommodations.........................................    12
Record keeping....................................................     4
Recruitment.......................................................     1
Reinstatement.....................................................     6
Rulemaking........................................................     3
Scheduling........................................................    34
Severance.........................................................     1
Termination.......................................................   119
Terms and conditions of employment................................    14
Time-off..........................................................     1
Requests for written materials....................................    58
Number of Proceedings Initiated by Covered Employees: 95
    Pursuant to title IV of the CAA, the Office of Compliance provides 
dispute resolution in the form of counseling and mediation. A 
proceeding under the CAA is initiated by a request for counseling 
alleging a violation of the CAA.
    95 employees from the following offices filed requests for 
counseling:

The Architect of the Capitol......................................    34
Capitol Guide Service.............................................     6
Capitol Police....................................................     2
Congressional Budget Office.......................................     1
House of Representatives (non-member or committee offices)........    39
House of Representatives (member offices).........................     7
Senate Committee..................................................     1
Senate (non-Senator offices)......................................     2
Senator...........................................................     3
                        -----------------------------------------------------------------
                        ________________________________________________
      Total employee counseling requests..........................    95

    These 95 requests for counseling alleged violations under the 
following sections of the Congressional Accountability Act: \2\
---------------------------------------------------------------------------
    \2\ See footnote 1.

------------------------------------------------------------------------
Section                       Description                       Contacts
------------------------------------------------------------------------
    201Rights and protections under title VII of the Civil          82
        Rights Act of 1964, the Age Discrimination in
        Employment Act of 1967, the Rehabilitation Act of
        1973, and title I of the Americans with
        Disabilities Act of 1990
    202Rights and protections under the Family and Medical           8
        Leave Act of 1993
    203Rights and protections under the Fair Labor                  12
        Standards Act of 1938
    205Rights and protections under the Worker Adjustment           35
        and Retraining Notification Act
    207Prohibition of intimidation or reprisal                      22
------------------------------------------------------------------------

    Workplace issues raised by the 95 employees requesting counseling 
fell into the following categories: \3\
---------------------------------------------------------------------------
    \3\ See footnote 1.

Assignments.......................................................     7
Compensatory time off.............................................     1
Compensation......................................................    24
Discipline........................................................    13
Fair Labor Standards Act exemptions...............................     2
Harassment........................................................    20
Hiring............................................................     4
Hours of work.....................................................     5
Leave.............................................................     2
Overtime pay......................................................     3
Promotion.........................................................    11
Reasonable accommodation..........................................     1
Reassignment......................................................     1
Reinstatement.....................................................     1
Termination.......................................................    47
Terms and conditions of employment................................    17
Results of the Proceedings
    Counseling.--Of the ninety-five counseling requests received 
between Jan. 23 and Dec. 31, 1996: twenty-six cases closed during or 
after counseling with no request for mediation; twenty-nine cases were 
pending at various stages in the counseling process at the end of 1996; 
and forty requests for mediation were filed.
    Mediation.--Of the forty mediation requests received between Jan. 
23 and Dec. 31, 1996: fourteen cases closed during or after mediation 
(eight cases were formally settled and in six cases, no further action 
was taken by the covered employee after mediation ended); five cases 
were in mediation on December 31, 1996; eight cases had completed 
mediation and were in the time period when a complaint could be filed; 
and thirteen complaints were filed after mediation.
    Complaints and Hearings.--If the dispute remains unresolved after 
counseling and mediation, an employee may elect to file a civil action 
in the district courts of the United States or to file a complaint with 
the Office. If a complaint is filed with the Office, a Hearing Officer 
is appointed to hear the case and issue a decision.
    Of the thirteen complaints filed after mediation (between Jan. 23 
and Dec. 31, 1996): five hearings were scheduled for twelve cases (8 
cases being consolidated for one hearing); and one complaint was 
pending.
    Of the five hearings: four hearings were completed, covering eleven 
cases, and Hearing Officer decisions were issued in those four 
hearings; and one hearing was scheduled but not completed as of 
December 31, 1996.
Basis of Complaints
    The thirteen complaints filed involved the following issues: Worker 
Adjustment and Retraining Notification Act: eleven complaints; alleged 
sexual harassment, reprisal, and hostile work environment: one 
complaint; and alleged denial of promotion because of color and 
religion and discrimination based on gender: one complaint.
Action Taken on Complaints
    Any party aggrieved by a Hearing Officer's decision may file a 
petition for review of the decision by the Board of Directors of the 
Office.
    As of December 31, 1996, of the four Hearing Officer decisions 
issued: two petitions for review had been filed with the Board; and the 
appeal period for the other two decisions was still open.
    No Board decisions were issued in 1996; to our knowledge, no civil 
actions were filed in Federal Court in 1996 by covered employees.
                                 ______
                                 
  Office of Compliance Section 301(h) Report to Congress--January 1, 
                         1997-December 31, 1997
                              introduction
    The Congressional Accountability Act (CAA) generally applies 
provisions of eleven federal labor and employment laws to over 20,000 
covered congressional employees and employing offices. The Office of 
Compliance (Office), an independent agency in the legislative branch of 
government, was established in the CAA to administer and enforce the 
Act and provide a process for the timely and confidential resolution of 
workplace disputes. Section 301(h) of the CAA requires that the Office 
of Compliance:
          * * * compile and publish statistics on the use of the Office 
        by covered employees, including the number and type of contacts 
        made with the Office, on the reason for such contacts, on the 
        number of covered employees who initiated proceedings with the 
        Office under this Act and results of such proceedings, and on 
        the number of covered employees who filed a complaint, the 
        basis for the complaint, and the action taken on the complaint.
    This second annual report provides information for the period from 
January 1, 1997 through December 31, 1997. The report begins with a 
summary of the authority and responsibilities of the Office of 
Compliance.
          office of compliance authority and responsibilities
    The CAA establishes the Office of Compliance with a Board of five 
members, who serve on a part-time basis, and four statutory appointees: 
the Executive Director, Deputy Executive Director for the Senate, 
Deputy Executive Director for the House, and the General Counsel. The 
Office is charged with providing alternative dispute resolution 
procedures, as well as adjudicative hearings and appeals, for covered 
legislative branch employees and education and information on the CAA 
to members of Congress, other employing offices, and employees of the 
legislative branch. The Board is required to adopt substantive 
regulations for implementation of certain provisions of the CAA. The 
Executive Director is required to adopt rules governing the procedures 
of the Office. The Office of the General Counsel enforces the 
provisions of sections 210 and 215, relating to health and safety and 
public access requirements, including investigation and prosecution of 
claims under these sections, and periodic inspections to ensure 
compliance. Additionally, the General Counsel investigates and 
prosecutes unfair labor practices under section 220 of the CAA.
    The CAA applies the rights and protections of provisions of the 
following eleven labor and employment statutes to covered employees 
within the legislative branch: title VII of the Civil Rights Act of 
1964, the Age Discrimination in Employment Act of 1967, title I of the 
Americans with Disabilities Act of 1990, the Rehabilitation Act of 
1973, the Family and Medical Leave Act of 1993, the Fair Labor 
Standards Act of 1938, the Employee Polygraph Protection Act of 1988, 
the Worker Adjustment and Retraining Notification Act, chapter 43 of 
title 38 of the U.S. Code (relating to veterans' employment and 
reemployment), the Americans with Disabilities Act of 1990 relating to 
public services and accommodations, the Occupational Safety and Health 
Act of 1970, and chapter 71 of title 5 of the U.S. Code (relating to 
federal service labor-management relations.)
        second annual report--january 1, 1997-december 31, 1997
Number of Contacts Received by the Office of Compliance: 1,439
    Employees and employing offices may, at any time, seek informal 
advice and information on the procedures of the Office and the rights, 
protections, and responsibilities afforded under the CAA. The Office 
responds to all inquiries on a confidential basis.
    1,439 requests for information from covered employees, employing 
offices, the public, unions, and the press were made by phone and in 
person from January 1, 1997 through December 31, 1997. Contacts were as 
follows:
                                                                        
Employees.........................................................   501
Employing offices.................................................   263
Public............................................................    69
Unions............................................................    12
Press.............................................................    11
Recorded information line.........................................   583
Reasons for Employee Contacts
    501 covered employees contacted the Office asking questions under 
the following sections: (note: aggregate numbers will not necessarily 
match category totals as a single contact may involve more than one 
section or subsection of the CAA, and/or more than one issue or alleged 
violation).

------------------------------------------------------------------------
Section                       Description                       Contacts
------------------------------------------------------------------------
    201Rights and protections under title VII of the Civil         211
        Rights Act of 1964, the Age Discrimination in
        Employment Act of 1967, the Rehabilitation Act of
        1973, and title I of the Americans with
        Disabilities Act of 1990
    202Rights and protections under the Family and Medical          50
        Leave Act of 1993
    203Rights and protections under the Fair Labor                 105
        Standards Act of 1938
    204Rights and protections under the Employee Polygraph           1
        Protection Act of 1988
    205Rights and protections under the Worker Adjustment            1
        and Retraining Notification Act
    206Rights and protections relating to veterans'          .........
        employment and reemployment
    207Prohibition of intimidation or reprisal                      14
    210Rights and protections under the Americans with               1
        Disabilities Act of 1990 relating to public
        services and accommodations; procedures for remedy
        of violations
    215Rights and protections under the Occupational Safety          4
        and Health Act of 1970; procedures for remedy of
        violations
    220Application of chapter 71 of title 5, United States          29
        Code, relating to federal service labor-management
        relations
     NAQuestions regarding the general application of the           87
        CAA
     NAQuestions on matters not cognizable under the CAA            11
------------------------------------------------------------------------

    The 501 employee contacts were for information regarding:

Assignments.......................................................    11
Belo contracts....................................................     4
Benefits..........................................................     1
Compensatory time off.............................................    10
Compensation......................................................    13
Demotion..........................................................     4
Discipline........................................................    15
Evaluation........................................................     3
Exemptions under the Fair Labor Standards Act.....................    23
General questions regarding statutory requirements................   120
Harassment........................................................    37
Hiring............................................................    28
Hours of work.....................................................     9
Interns...........................................................     2
Layoff............................................................     1
Leave.............................................................    50
Leave eligibility.................................................     4
Notice posting....................................................     1
Overtime pay......................................................    30
Promotion.........................................................    13
Reasonable accommodations.........................................    15
Reassignment......................................................     5
Recordkeeping.....................................................     3
Reinstatement.....................................................     5
Rulemaking........................................................     1
Scheduling........................................................    10
Termination.......................................................    44
Terms and conditions of employment................................    38
Requests for written materials....................................    26
Number of Proceedings Initiated by Covered Employees: 152
    Pursuant to title IV of the CAA, the Office of Compliance provides 
dispute resolution in the form of counseling and mediation. A 
proceeding under the CAA is initiated by an individual employee's 
request for counseling alleging a violation of the CAA.\1\
---------------------------------------------------------------------------
    \1\ It should be noted that the alleged unlawful application of a 
single policy of an employing office may involve multiple individual 
claims.
---------------------------------------------------------------------------
    152 formal requests for counseling were filed by employees from the 
following employing offices:

The Architect of the Capitol......................................    77
Capitol Guide Service...................................................
Capitol Police....................................................    42
Congressional Budget Office.......................................     2
House of Representatives (non-member or committee offices)........     8
House of Representatives (member offices).........................     8
Senate (non-Senator or committee offices).........................    11
Senate (member offices)...........................................     4

    These 152 requests for counseling alleged violations under the 
following sections of the Congressional Accountability Act: (please see 
note above regarding aggregate numbers).

------------------------------------------------------------------------
Section                       Description                       Contacts
------------------------------------------------------------------------
    201Rights and protections under title VII of the Civil         134
        Rights Act of 1964, the Age Discrimination in
        Employment Act of 1967, the Rehabilitation Act of
        1973, and title I of the Americans with
        Disabilities Act of 1990
    202Rights and protections under the Family and Medical           4
        Leave Act of 1993
    203Rights and protections under the Fair Labor                  30
        Standards Act of 1938
    207Prohibition of intimidation or reprisal                      24
------------------------------------------------------------------------

    Workplace issues raised by employees requesting counseling under 
the CAA fell into the following categories: (please see note above 
regarding aggregate numbers).

Assignments.......................................................    23
Classification....................................................     2
Compensatory time off.............................................     1
Compensation......................................................    63
Demotion..........................................................     1
Discipline........................................................    10
Harassment........................................................    19
Hiring............................................................    11
Hours of Work.....................................................    27
Layoff............................................................     1
Leave.............................................................     5
Overtime Pay......................................................    28
Promotion.........................................................    16
Reasonable accommodations.........................................    13
Reinstatement.....................................................     1
Retirement........................................................     1
Termination.......................................................    27
Terms and conditions of employment................................     7
Results of the Proceedings
    Counseling.--Of the 152 counseling requests received between 
January 1, 1997 and December 31, 1997, and the 29 counseling requests 
pending on January 1, 1997: 13 cases closed during or after counseling, 
but before mediation--1 was settled and 12 sought no further action; 11 
cases were pending at the end of 1997; and 157 requests for mediation 
were filed.
    Mediation.--157 mediation requests were received between January 1, 
1997 and December 31, 1997. In addition, on January 1, 1997 there were 
5 cases pending in mediation, and 8 cases which had completed mediation 
and were in the open period for filing a complaint. Of those 170 cases: 
139 cases closed during or after mediation (62 cases were settled; in 
20 cases, no further action was taken by the covered employee after 
mediation ended; and 57 civil actions were filed in District Court); 11 
cases were pending in mediation on December 31, 1997; 14 cases had 
completed mediation and were in the time period when a complaint could 
be filed; and 6 complaints were filed after mediation ended.
    Complaints and Hearings.--If the dispute remains unresolved after 
counseling and mediation, an employee may elect to file a civil action 
in the district courts of the United States or to file a complaint with 
the Office. If a complaint is filed with the Office, a Hearing Officer 
is appointed to hear the case and issue a decision.
    Complaints.--6 complaints were filed between January 1, 1997 and 
December 31, 1997 and 2 complaints were pending on January 1, 1997.
    Basis of Complaints.--The complaints filed during 1997 involved the 
following issues:
  --alleged harassment and discrimination in terms and conditions of 
        employment based upon race and religion and in reprisal for 
        opposition to practices made unlawful by the CAA: 2 complaints
  --alleged retaliation against an employee for having initiated a 
        proceeding under the CAA: 2 complaints
  --alleged discriminatory discharge based on race: 1 complaint
  --alleged discriminatory discipline and termination based upon age 
        and race and in reprisal for having taken family and medical 
        leave: 1 complaint.
    Action Taken on Complaints.--Any party aggrieved by a Hearing 
Officer's decision may file a petition for review of the decision by 
the Board of Directors of the Office.
    Hearings.--3 Hearing Officer decisions were issued; 4 cases were 
settled before the hearings concluded; and 1 complaint was pending with 
a hearing scheduled for early 1998.
    Appeals.--4 petitions for review of Hearing Officer decisions 
covering 11 cases were filed with the Board (in addition, 2 petitions 
were pending on January 1, 1997); and 1 Hearing Officer decision was 
not appealed and became the final decision of the Office.
    Board action.--3 Board decisions were issued in 1997 covering 10 
cases; and 3 petitions for review of Hearing Officer decisions were 
pending on December 31, 1997.
    Judicial review.--1 petition for review was filed; and no court 
decision was issued.
Labor-Management Relations
    The Office carries out the Board's investigative authorities under 
section 220 of the CAA, involving issues concerning the appropriateness 
of bargaining units for labor organization representation, the duty to 
bargain, and exceptions to arbitrators' awards.
    January 1, 1997-December 31, 1997.--3 representation petitions were 
filed; 1 pre-election investigatory hearing was held; 2 Board decisions 
and Directions of Election were issued; 1 election agreement was 
entered into by the parties and approved by the Executive Director on 
behalf of the Board; 3 elections were conducted and one case required a 
run-off election. (As a result of the elections, 3 different labor 
organizations were certified as the bargaining representatives of 
employees in the three units in which the elections were conducted); 
and 2 petitions were pending on December 31, 1997: a representation 
petition filed by a labor organization seeking to represent a unit of 
approximately 35 employees, and a unit clarification petition seeking 
to include additional employees in a bargaining unit certified in 1997.
The Office of the General Counsel
    The Office of the General Counsel is responsible for matters 
arising under three sections of the CAA: section 210--Public Services 
and Accommodations under the Americans with Disabilities Act of 1990; 
section 215--Occupational Safety and Health Act of 1970; and section 
220--unfair labor practices under chapter 71, of title 5, United States 
Code.

                    JANUARY 1, 1997-DECEMBER 31, 1997
------------------------------------------------------------------------
Section                       Description                       Requests
------------------------------------------------------------------------
         Requests for Information and Technical Assistance
 
    210Public Services and Accommodations under the                 60
        Americans with Disabilities Act of 1990
    215Occupational Safety and Health Act of 1970                   89
    220Unfair labor practices under chapter 71, of title 5,         23
        United States Code
                                                            ------------
             Total requests                                        172
                                                            ============
          Requests for Inspection, Charges Filed with the
                          General Counsel
 
    210Cases filed                                           .........
           Cases closed                                      .........
           Cases pending as of December 31, 1997             .........
    215Requests for inspection filed                                22
           Cases closed                                             10
           Cases pending as of December 31, 1997                    12
    220Unfair labor practices charges filed                         18
           Cases closed                                             10
           Cases pending as of December 31, 1997                     8
------------------------------------------------------------------------

                     Additional committee questions

    Senator Bennett. Thank you. I appreciate your courtesy in 
mentioning that. We appreciate Christine, as well, on this side 
of the table.
    We have some additional questions that we will submit to 
you for a written response.
    Unfortunately, I have another conflict, as well, and I am 
going to have to move along. But I want to thank you for 
highlighting your past success and the manner in which you go 
about your duties. And as one of the strong supporters of the 
Congressional Accountability Act, I am delighted to have this 
report that indicates that things are, in fact, working out.
    So thank you for your statement. And I look forward to 
receiving the answers to our questions, which I am sure you 
will be responsive to.
    [The following questions were not asked at the hearing, but 
were submitted to the office for response subsequent to the 
hearing:]
                     Additional Committee Questions
    Question. In your testimony you state that if you are required to 
move out of the facilities provided by the Library of Congress, you 
will need additional funds. Is there talk of the Office moving?
    Answer. The Office of Compliance has been located within the Adams 
Building of the Library of Congress since the Office opened. This 
arrangement has not been formalized, therefore we make note of it each 
year in our budget submission. Should we have to move, we have 
estimated that the cost of rent and utilities for this agency would be 
approximately $268,000 per year.
    Question. Funds are provided to the Office of Compliance for 
witness fees and mileage. The Congressional Accountability Act requires 
that witnesses be paid for fees and mileage. The Office of Compliance 
has refused to pay witness fees or expenses for Senate witnesses. It 
has taken the position that it has the discretion whether to pay and 
has adopted a policy not to pay. Please explain the reason for that 
policy.
    Answer. The Congressional Accountability Act authorizes the 
expenditure of funds for employing offices to pay for witness fees and 
allowances. Such funds are not expressly provided to the Office of 
Compliance for the use of covered employing offices. In July 1997, the 
representative of an employing office asked the Office of Compliance to 
pay for witnesses who were being called to testify by and on behalf of 
the employing office. An Office of Compliance staff attorney researched 
the request and prepared the attached memorandum. The memorandum 
reflects the rationale underlying the Office's decision not to pay fees 
for witnesses appearing before the Office, whether those witnesses 
appear on behalf of a covered employee or an employing office.
    [The information follows:]
                               memorandum
                                                     July 30, 1997.
To: Ricky Silberman
From: Nicola Goren
Re: Payment of Witness Travel Expenses under Section 305(c) of the CAA
Issues Presented
    (1) Is the Office of Compliance (Office) required to pay the travel 
expenses for covered employees under section 305 of the CAA?
    (2) Are former employees ``covered employees'' under section 305(c) 
of the CAA?
Background
    In the context of a case before a Hearing Officer of the Office of 
Compliance (Office), the Senate Chief Counsel for Employment (SCCE) 
decided to call several former employees, including one who currently 
resides in Arizona, as witnesses. The SCCE called the Office to arrange 
for payment of travel expenses for those former employees. The Office 
maintained that those expenses were not the Office's responsibility. 
The SCCE informed the Office that they had checked with an auditor at 
the Senate Rules Committee who informed them that no appropriation 
other than the Office's was available to pay for travel expenses of 
witnesses in cases before the Office. The SCCE then petitioned the 
Hearing Officer in the case to order the Office to pay the expenses. 
The case settled before the issue had to be finally decided.
    In light of the legal research and analysis below, section 305(c) 
should not be read to require the Office to pay for travel expenses of 
covered employees who serve as witnesses. Moreover, legal precedent and 
policy arguments dictate against such a reading.
Review and Analysis of the SCCE's Arguments
    The SCCE argues that, pursuant to section 305, the Office must pay 
the travel expenses for the former employees in question.
    Section 305(c) of the CAA reads as follows:

          Witness Fees and Allowances.--Except for covered employees, 
        witnesses before a hearing officer Board in any proceeding 
        under this Act other than rulemaking shall be paid the same fee 
        and mileage allowances as are paid subpoenaed witnesses in the 
        courts of the United States. Covered employees who are 
        summoned, or are assigned by their employer, to testify in 
        their official capacity or to produce official records in any 
        proceeding under this Act shall be entitled to travel expenses 
        under subchapter I and section 5751 of chapter 57 of title 5, 
        United States Code.

    (The SCCE's petition involves solely the second sentence of this 
section, with respect to covered employees. The SCCE makes no argument 
on the issue of who should pay witness fees and expenses for non-
covered employees.)
            ``Covered Employees'' Includes Former Employees
    The SCCE claims that the former employees in question should be 
treated as covered employees under the second part of section 305(c), 
because the CAA defines ``covered employees'' as including former 
employees. The SCCE argues that section 101 of the CAA defines covered 
employees as including former employees, ``[e]xcept as otherwise 
specifically provided in this Act.'' The SCCE notes further that 
nothing in section 305 specifically provides that the term ``covered 
employee'' is to be interpreted differently than throughout the rest of 
the CAA.
    Although ordinarily this argument would prevail, here the context 
of section 305(c) requires a different reading of the statute. The 
first sentence of section 305(c), by its terms, applies to non covered 
employees, and entitles them to witness fees and travel expenses when 
called as witnesses before a Hearing Officer or the Board. The second 
sentence of the section applies to covered employees, and entitles them 
only to travel expenses under title 5, United States Code, in 
connection with their appearance as witnesses in any proceeding under 
the CAA. Title 5, United States Code, covers rights and protections of 
federal employees. The difference in treatment between employees and 
non employees stems from the fact that, under 5 U.S.C. Sec. 5537, 
government employees, including most legislative branch employees, may 
not receive fees for ``service as a witness on behalf of the United 
States or the District of Columbia.'' The prohibition stems from the 
prohibition against being on two government payrolls simultaneously. 
Thus, government employees called as witnesses as part of their 
official duties cannot accept a witness fee for their participation--
only travel expenses. On the other hand, non government employees are 
entitled to a witness fee as well as travel expenses. The drafters of 
section 305(c) could not have intended that ``covered employees'' be 
read to include former employees in this context, entitling individuals 
no longer on the legislative branch's payroll only to travel expenses, 
and not the witness fee that ordinary non-government employees earn as 
witnesses.
            Section 305 does not require the Office expenses
    If one assumes that the individuals in question are covered 
employees under section 305(c), who is authorized and/or required to 
pay their expenses as witnesses? As indicated above, the second 
sentence of section 305(c) states that ``[c]overed employees who are 
summoned, or are assigned by their employer, to testify in their 
official capacity or to produce official records in any proceeding 
under this Act shall be entitled to travel expenses under subchapter I 
and section 5751 of chapter 57 of title 5 of the United States Code.'' 
The CAA, itself, is silent as to who bears fiscal responsibility for 
those expenses. Section 5751 of title 5, United States Code, however, 
provides the answer to this question.
            5 U.S.C. Sec. 5751 and appropriations law
    Section 5751 of title 5, United States Code, entitles employees 
summoned, or assigned by their agency, ``to testify or produce official 
records on behalf of the United States,'' to travel expenses under 
subchapter I of title 5. Section 5751 then specifies the following:

          If the case involves the activity in connection with which 
        [the employee] is employed, the travel expenses are paid from 
        the appropriation otherwise available for travel expenses of 
        the employee * * *. If the case does not involve its activity, 
        the employing agency may advance or pay the travel expenses of 
        the employee, and later obtain reimbursement from the agency 
        properly chargeable with the travel expenses.

    This section clearly indicates the following: if an employee is 
called as a witness to testify in his official capacity in a case in 
which the employing office is being sued (or is suing), the employing 
office would be responsible for that employee's travel expenses. 
However, if, for example, an employee of an agency is called to testify 
in his official capacity in a case brought by the Department of Justice 
against a private sector company, perhaps as an expert witness, the 
Department of Justice ultimately would be responsible for the travel 
expenses, although the employing agency would be authorized to pay the 
expenses and then obtain reimbursement from the Department of Justice. 
Consequently, either the employing office, or the office responsible 
for the legal action, may have to pay the expenses. However, in no 
event is the court, or other venue, required to pay them.
    This reading of the statute is supported by several Comptroller 
General opinions interpreting 5 U.S.C. Sec. 5751, as well as the 
Department of Justice's regulations issued pursuant to that section. In 
23 Comp. Gen. 47, 49 (1943), the Comptroller General held that ``the 
employing agency is required to pay * * * the traveling expenses 
incurred by the witness * * * where the information or facts 
ascertained by the employee as part of his official duties forms the 
basis of the case * * *.'' In 39 Comp. Gen. 1, 2 (1959), the 
Comptroller General determined that if an employee testifies to facts 
and information he or she acquires in the course of his or her assigned 
duties, the employing agency is responsible for the payment of that 
employee's travel expenses. (Both these cases are cited in 28 C.F.R. 
Sec. 21.2(d)(1) supporting the Department of Justice's interpretation 
that these expenses are payable by the employing agency.)
    In 66 Comp. Gen. 269 (1990), the Comptroller General held that 
``the statutory provision in 5 U.S.C. Sec. 5751, authorizing 
reimbursement of travel expenses of government employees called as 
witnesses * * * [is] applicable to discrimination hearings before an 
Administrative Judge of the Equal Employment Opportunity Commission 
(EEOC).'' In that case, a current employee of the Department of 
Veterans Affairs (VA) was summoned to testify at the EEOC regarding his 
official duties at his former agency, the Coast Guard. The VA contended 
that the Coast Guard should pay the travel expenses for the employee. 
The Coast Guard argued that either the EEOC (the venue for the 
proceeding) or the other party to the case should pay for travel 
expenses. The Comptroller General held that the Coast Guard, the 
employing office whose activity was at issue in the case, was 
ultimately responsible for paying the travel expenses for the employee 
but that the VA could pay them initially to avoid disrupting the 
process and then obtain reimbursement from the Coast Guard. The EEOC 
was never considered as a potential payor of these expenses.
    In short, the CAA specifically cites 5 U.S.C. Sec. 5751 as the 
applicable standard for payment of travel expenses. That section and 
Comptroller General precedent establish that the employing office must 
pay the travel expenses for their employees summoned as witnesses to 
testify before a Hearing Officer at the Office. In this case, the 
Capitol Guide Board should ultimately be responsible for paying these 
expenses, as it is the employing office whose activity is in question 
here and in connection with whom the employee would be testifying in 
his or her official capacity.
            The Office's appropriation is not the only available 
                    appropriation
    The SCCE contends that neither it, nor any other Senate office, has 
authority to pay for these travel expenses. This is erroneous.
    First, as discussed above, the cases interpreting 5 U.S.C. 
Sec. 5751 indicate that travel expenses for an employee testifying in 
this type of situation are to be paid out of the employing office's 
appropriation for official employee travel. Virtually every employing 
office in the legislative branch, including the Capitol Guide Board and 
the SCCE, is authorized to spend funds on official employee travel.
    Second, the U.S. Senate Handbook specifically authorizes the 
payment of legal expenses (which would include travel expenses for 
witnesses) by Senate offices. See p. 11-30.
            Section 305 authorizes expenditures by the Office as well 
                    as other expenditures in connection with activities 
                    under the CAA
    The SCCE contends that section 305 authorizes expenditures by the 
Office and thus requires the Office to pay witness travel expenses as 
well, by virtue of section 305(c). This is erroneous.
    Section 305 is entitled ``Expenses'' and not ``Expenses to Be Paid 
by the Office''. The drafters clearly did not intend section 305 only 
to cover expenses to be paid by the Office. Each subsection of section 
305 authorizes specific expenditures and indicates what appropriation 
is available to pay for them. Subsection 305(a) authorizes 
appropriations for the Office's expenses. Subsection 305(b) authorizes 
the Office to contract for goods and services pursuant to the same 
authorization as agencies in 31 U.S.C. 1535 and 1536. This subsection 
specifically states that this is an expense of the Office and, thus, 
expenses would be paid out of the Office's appropriation for expenses. 
Subsection 305(c) authorizes expenditures to be made for witness fees 
and expenses for non-covered employees, as well as witness expenses for 
covered employees pursuant to the same authorization as in 5 U.S.C. 
5751, which, as discussed above, specifies that the employing office is 
to be responsible for these expenses. Further, nowhere in that 
subsection is there any indication that this is to be an expense of the 
Office.
            Office Policy Concerns
    The SCCE's contention that the Office should be responsible for 
paying travel expenses for covered employees called as witnesses raises 
several important concerns.
    First, the sentence entitling covered employees to payment for 
travel expenses incurred when serving as witnesses does not limit the 
entitlement only to cases before the Office. The section entitles 
covered employees to travel expenses ``in any proceeding under this 
Act.'' If one accepts the SCCE's position that the Office is to pay for 
these expenses, this would require the Office to pay for travel 
expenses for covered employees testifying in court, when the Office is 
no longer even involved in the case in any capacity. The drafters could 
not have intended such a result.
    Second, shifting the responsibility for payment of these expenses 
to the Office would essentially remove any check on the employing 
office's ability or need to call witnesses. The employing office would 
be free to call as many witnesses as it liked, without having to be 
accountable for the cost. This would put the Office in the untenable 
position of having to subsidize unlimited numbers of witnesses from a 
very limited appropriation, and would potentially tie up the system 
with innumerable witnesses. The drafters could not have intended this 
result either.
    Third, reading the statute as requiring the Office to pay the 
travel expenses of witnesses would necessarily include covered 
employees called as witnesses by both the employee and the employing 
office. Again, this could potentially subject the Office to enormous 
unforeseeable expenditures.
    Finally, if the statute, or the appropriations act, is amended to 
require the Office to assume responsibility for these expenses, this 
may result in the Office being responsible for witness fees and 
expenses for non-covered employees under the first sentence of section 
305(c) too--which clearly was not intended in the CAA.
Conclusion
    The law and policy concerns require that the Office not be held 
responsible for payment of travel expenses for covered employees called 
as witnesses in proceedings under the CAA. The employing office, as 
well as the SCCE, have authorization and the responsibility to pay 
these expenses in this case. If the purpose of the CAA is for Congress 
to be treated like private sector employers, the statute cannot be read 
to require the Office to pay travel expenses for witnesses: private 
sector (and other public sector) employers do not enjoy that benefit.
                         settlements and awards
    Question. Under the Congressional Accountability Act, funds are 
provided for the payment of settlements and awards. It is this 
committee's understanding that there have been instances when the 
Office of Compliance has refused to pay all costs associated with a 
settlement agreement. For instance, fees associated with training 
required as part of the settlement agreement. Please explain the Office 
of Compliance's policy in this regard.
    Answer. Section 415(a) of the Congressional Accountability Act 
provides for the establishment of an Office of Compliance account for 
the payment of awards and settlements. Settlements requiring any 
expenditure of funds from that account must be approved by the 
Executive Director under section 414 of the CAA. Under the terms of 
various settlements approved over the past two years, covered employees 
have received payment of back pay and attorney's fees from the account. 
Such payments were made only when the parties to the approved 
settlement specifically agreed to the precise amounts to be expended 
for those purposes.
    In addition to the payment of awards or fees, employing offices 
often agree, as part of a settlement, to undertake other efforts and 
obligations in the workplace in order to amicably resolve disputes and 
comply with the CAA. For example, employing offices have agreed to 
provide training, revise personnel policies and manuals, re-evaluate 
and reconsider employees, and issue guidance and memoranda to staff. 
Such activities often involve some personnel or budgetary expenditures 
for employing offices. In one instance, an employing office agreed to 
provide sensitivity training to a disabled employee's co-workers. 
Several months after the matter was settled, the employing office 
submitted an ``invoice'' to the Office of Compliance requesting payment 
to the consultant the employing office had retained to conduct the 
training. The attached letter to the employing office's representative 
from this Office's General Counsel (redacted to protect the 
confidentiality of the matter and the parties) reflects this Office's 
policy with respect to the payment of costs associated with complying 
with the CAA, as opposed to payment from the awards and settlements 
account for specified, agreed upon amounts to individuals and/or their 
attorneys.
                                      Office of Compliance,
                                 Washington, DC, February 11, 1998.
Jean M. Manning, Esq.
Senate Chief Counsel for Employment, Office of the Secretary,
Washington, DC.
    Dear Ms. Manning: Ms. Silberman has forwarded your February 5 
letter to me for response. In that letter, you note that [deleted] 
agreed, as a condition of the July 1997 Settlement Agreement herein, to 
conduct one or more training seminars for all [deleted] employees 
regarding subjects specified in the Agreement. Your letter contains an 
invoice from the consultant retained by [deleted] for this purpose, and 
requests that the Office of Compliance arrange for payment of this 
invoice by the Treasury of the United States, pursuant to Section 
415(a) of the Congressional Accountability Act, 2 U.S.C. Sec. 1415(a).
    Your request is hereby denied. While your letter asserts that 
Congress approved such funds ``* * * to pay settlement expenses * * 
*'', the CAA expressly limited the use of such appropriated funds to 
the payment ``* * * of awards and settlements under this Act.'' To 
interpret the language of 415(a) as your letter does seems 
impermissibly to expand upon the reach of the Act.
    On the other hand, Section 415(b) expressly authorizes certain 
``expenses'' of employing offices ``* * * which are needed to comply 
with this Act.'' The funds to pay the training program invoice 
therefore appear to be authorized pursuant to Section 415(b) for the 
employing office to pay. Indeed, it may well be that the parties to the 
Agreement had this in mind when they agreed that the ``Employer shall * 
* * conduct one or more training seminars * * *'' (Agreement, Sec. 
2.7), especially since the Agreement provides, in Section 6.4, that 
``each party shall bear his/its own costs, expenses and attorneys' fees 
* * *.''
            Sincerely,
                                                Gary Green,
                                                   General Counsel.

                          subcommittee recess

    Senator Bennett. The subcommittee stands in recess.
    Ms. Silberman. Thank you very much.
    [Whereupon, at 11:53 a.m., Thursday, March 12, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 1999

                              ----------                              


                        THURSDAY, MARCH 19, 1998

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9 a.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Robert F. Bennett (chairman) 
presiding.
    Present: Senators Bennett and Dorgan.

                        ARCHITECT OF THE CAPITOL

STATEMENT OF ALAN M. HANTMAN, AIA, ARCHITECT OF THE 
            CAPITOL
ACCOMPANIED BY:
        STUART PREGNALL, BUDGET OFFICER
        HERBERT M. FRANKLIN, ADMINISTRATIVE ASSISTANT
        LARRY STOFFEL, SUPERINTENDENT, SENATE OFFICE BUILDINGS
        AMITA POOLE, SUPERVISING ENGINEER, CAPITOL BUILDING

              OPENING STATEMENT OF HON. ROBERT F. BENNETT

    Senator Bennett. This is the last of our subcommittee 
hearings on the fiscal year 1999 budget, and this morning we 
will hear from the Architect of the Capitol, the General 
Accounting Office, and the Government Printing Office.
    It will come as no surprise that I will be talking about 
the year 2000 problem. I think each agency knows in advance, 
and is prepared to address it.
    Before we begin I will note that the American Bar 
Association has provided testimony to be included in the record 
in support of funding for the Law Library of Congress. If there 
is no objection, it will be included at the end of the Library 
of Congress hearing.
    Now, our first witness this morning is the Honorable Alan 
Hantman, Architect of the Capitol.
    Mr. Hantman. Good morning.
    Senator Bennett. We are grateful to have you here, sir. We 
thank you for your efforts. You have been here, what----
    Mr. Hantman. One year.
    Senator Bennett [continuing]. One year, and it has been a 
long year in some ways, but you have done an excellent job. We 
appreciate your willingness to listen to the concerns of this 
committee, and become personally involved.
    The good news that I will share with you publicly, is that 
GAO has given us an analysis of all of the agencies under the 
Legislative Branch Subcommittee's jurisdiction with respect to 
the year 2000, and the Office of the Architect of the Capitol 
comes out on top as the best prepared.
    You started the earliest, and have the best plan in place, 
as well as some contingency plans, and we are delighted to note 
that, and appropriately issue thanks to you for it.
    Senator Dorgan, do you have any----
    Senator Dorgan. Mr. Chairman, I do want to make a comment 
when the GAO comes before us, and it is relative to the 
selection of the Comptroller General. You know my frustration 
with that process.
    Senator Bennett. Which I share.
    Senator Dorgan. I may have a suggestion or two, but we will 
talk about that in the future, because I do not want to take up 
a great deal of time. At this time, I look forward to the 
testimony of the Architect of the Capitol, Mr. Hantman.
    Senator Bennett. Yes.

                            Agency overview

    Senator Bennett. Mr. Hantman.
    Mr. Hantman. Good morning, Mr. Chairman, I am pleased to 
come before the subcommittee again.
    May I introduce, please, Stuart Pregnall, our Budget 
Officer; Larry Stoffel, our Superintendent, Supervising 
Engineer for the Senate office buildings; and we have some of 
our other staff to answer specific questions that you may have.
    As you are aware, I have been immersed in learning and 
evaluating the complexities of this agency, while also 
initiating concrete action in response to Congress' imperatives 
to find cost-effective quality service in support of its day-
to-day activities.
    I have heard Congress' mandate loud and clear, and I have 
focused in on rebuilding this agency into a unified and 
flexible, responsive, and quality-oriented instrument of the 
Congress.
    With that philosophy of openness and shedding daylight on 
our operations, I have presented a two-part presentation, one 
basically to give a kind of a state-of-the-agency overview; 
some issues that are not quantifiable in purely budget terms, 
but they are important, I believe, to hear; and then we will 
get into the budget area itself.
    If I need to talk more quickly, please let me know, Mr. 
Chairman.
    Senator Bennett. You are doing fine.
    Mr. Hantman. Thank you.
    With respect to last year's budget, we were given some $33 
million by this committee last year to deal with capital 
projects. We have initiated the planning, drawings, contracts, 
and construction work for that $33 million, some $4 million in 
design at this point in time, $12 million under contract for 
construction, some $16 million in project development.
    Also, we have completed construction documents for 
renovation of the U.S. Botanic Garden Conservatory, and this 
project is now being advertised for bidding, and we have better 
than 20 bidders at this point in time.
    We expect to award that in June of this year, as well as 
the contiguous privately funded National Garden, which is in 
the process, and will also follow shortly.
    Another significant project is the rehabilitation of the 
U.S. Capitol dome. Initial portions of the study for necessary 
renovations of the dome have been completed, while others are 
still in process.
    I would like to thank you Mr. Chairman and Senator Dorgan 
for supporting the inclusion of this project in the emergency 
supplemental bill.
    As you know, the $7.5 million will perform the complex task 
of removing lead-based paint in the interstitial space between 
the inner and outer domes, and after study, repainting of the 
metal. This will permit the necessary detailed inspection of 
all cast iron elements to clearly define the total scope of the 
work for subsequent phases.
    On the operations side, we have initiated programs to 
select and begin the introduction of a computer-aided facility 
management system to track and coordinate, record, and evaluate 
work management costs and staffing data throughout the campus, 
as well as to provide enhanced space management capabilities.
    We have also improved communications between this agency 
and our oversight entities, our clients, and other arms of the 
Congress, something which clearly is an ongoing process.
    We have upgraded our internal administrative systems, as 
you pointed out, Mr. Chairman, for the year 2000 fix. We have 
initiated an agencywide strategic planning process, reorganized 
our central staff to better support the work of all of our 
jurisdictions.
    And we are rebuilding our human resources management 
division to fulfill the imperatives of the AOC Human Resources 
Act, and the Congressional Accountability Act. We have also 
created task forces to investigate alternative means of 
providing more cost-effective quality services in many areas of 
the agency.
    Mr. Chairman, I believe it is important to know the 
philosophical underpinnings of these efforts, the foundation we 
are building on, because there is no quick fix to the solution 
for rebuilding and reengineering business practices in this 
agency.

                           Strategic planning

    Through our strategic planning process we are building an 
organization that will be able not only to support the day-to-
day workings of both Houses of the Congress, but one that will 
go on performing its duties long after all of us in this room 
are gone.
    Our new vision statement, which is the first board over 
here, basically talks about our philosophy, our vision.

    ----------------------------------------------------------------

               Architect of the Capitol Vision Statement
    We will be an innovative and efficient team dedicated to service 
excellence and to preserving, maintaining, and enhancing the national 
treasures entrusted to our care.
                              Core Values
Service Excellence
Stewardship
Integrity
Professionalism
Creativity
Loyalty
Respect and Diversity
Teamwork

    ----------------------------------------------------------------

    It states that ``We will be an innovative and efficient 
team, dedicated to service excellence, to preserving, 
maintaining, and enhancing the national treasures entrusted to 
our care.''
    We also have a set of core values that go along with this, 
service excellence, stewardship, integrity, professionalism, 
creativity, loyalty, respect and diversity, and teamwork.
    Mr. Chairman, change is necessary to ensure that this 
agency makes these values and this vision part of our corporate 
culture, so that all staff members truly make them the 
foundation of how we work, the basis for how we do business.
    This agency is undergoing an intensive review of its 
operations, with the goal of continuously refining and 
improving the quality of our services to Congress and to our 
visitors. As part of this review we are investigating how to 
keep costs down, and most efficiently deliver our services in 
fulfillment of our fiduciary responsibilities to the American 
taxpayer.
    If any of these initiatives involve staffing reductions, it 
is our recommendation that this agency be authorized to 
implement early-out and buyout programs for affected employees. 
As you are aware, this was a successful program that we used 
with the Senate restaurants this year, and we should actually 
be in the black by $200,000 this year and $600,000 next year, 
instead of a consistent loss.

             fiscal year 1999 Operating and capital budget

    I would like to turn now, if I can, specifically to our 
budget for fiscal year 1999. Our first board shows the 
operating and capital budgets by categories, on the left side, 
the capital budget of $87.5 million, which we will talk about 
in a little while. I would like to start off with the operating 
budget of $153.8 million.
[GRAPHIC] [TIFF OMITTED] T08MA19.000

    This is basically a 5.8-percent increase over last year. It 
would basically be 5 percent, if we did not have an election 
move cycle included in the costs right now, and about two-
thirds of the costs here, the increase, is due to COLA's, 
mandated pay, and benefits increases.
    We also have some 6 percent in there for an agencywide 
uniform program. I am not sure if we have any of our staff in 
here with our uniforms. It has been a very successful program, 
and we are hoping to extend that throughout the campus to 
instill a sense of pride, organization, and quality service 
from all of our people, and recognition of who is providing 
those services.
    On our next chart, let us talk a little bit about our FTE 
employee budget.



     Architect of the Capitol full-time equivalent employment budget

                  [16.4 percent reduction from 1992-99]

        Fiscal year                                                FTE's

1992.............................................................. 2,407
1993.............................................................. 2,383
1994.............................................................. 2,347
1995.............................................................. 2,311
1996.............................................................. 2,151
1997.............................................................. 2,034
1998.............................................................. 2,012
1999.............................................................. 2,012



                             FTE employment

    This indicates that there has been a 16.4-percent reduction 
in FTE count from 1992, to date, a very significant decrease, 
and many very positive reengineering efforts have been achieved 
to continue providing quality service to the House and the 
Senate in a responsible manner, shop consolidations to reduce 
supervisors, crosstraining, so that air-conditioning system 
people on the second and third shifts can also do electrical 
and plumbing work, and not have overtime for lots of other 
people as well.
    This chart represents a maximum number of FTE's for fiscal 
year 1999. If we can, let us go to our next chart.

    ----------------------------------------------------------------

                     ARCHITECT OF THE CAPITOL FISCAL YEAR 1999 OPERATING AND CAPITAL BUDGET
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                           Fiscal year--
                                                  --------------------------------------------------------------
                                                     1993     1994     1995     1996     1997     1998     1999
----------------------------------------------------------------------------------------------------------------
Capital..........................................     32.8     23.6     27.9     17.3     47.9     33.9     62.1
Operating........................................    137.0    141.3    148.3    141.1    139.0    145.4    153.8
                                                  --------------------------------------------------------------
      Subtotal...................................    169.8    164.9    176.2    158.4    186.9    179.3    215.9
                                                  ==============================================================
Security.........................................  .......  .......  .......  .......  .......  .......     25.4
                                                  --------------------------------------------------------------
      Total......................................    169.8    164.9    176.2    158.4    186.9    179.3    241.3
----------------------------------------------------------------------------------------------------------------

    ----------------------------------------------------------------

                      Operating and capital budget

    This chart basically deals with our operating and capital 
budget, and shows that operations costs have been relatively 
level over the past 6 years. Most of the inflationary costs, 
utility increases, COLA's, et cetera, have been absorbed 
through decrease in work level forces.
    The more significant changes have occurred in the capital 
side of the budget. In fiscal year 1999, a major component of 
the increase is shown for some $25 million in security-related 
projects.
    Let us take a look at the breakdown on the capital side 
requests.
[GRAPHIC] [TIFF OMITTED] T08MA19.001

                            Capital projects

    It is broken down into two basic areas. On the left side we 
see new facilities, some 18 projects, representing $26.9 
million.
    A part of this, of course, is the proposed Capitol square 
perimeter security project, accounting for some $20 million of 
these costs. I, as a member of the Capitol Police Board, would 
like to thank you, Mr. Chairman and Senator Dorgan, for your 
support of this project in the supplemental bill.
    The larger portion of the pie chart represents some 142 
reinvestment projects, worth some $60.4 million, from which 
also we can subtract the $7.5 million for the Capitol dome, 
which, again, is part of the supplemental now.
    All of these areas are broken down by ADA, life safety, 
capital projects, cyclical maintenance projects, technology and 
management, and we can review each one of them with you 
relative to its merits, and they have been structured this way 
so that we can take a look at priorities. The requested 
increase in the capital projects portion of the budget is very 
significant, but the magnitude of the total for reinvestment 
cyclical maintenance projects is very much in line, Mr. 
Chairman, with the benchmark analysis we discussed last year 
with you.
    That analysis indicated that a campus-like complex of this 
age, monumental quality and magnitude, could expect to 
conservatively expend approximately 1.7 percent of the 
replacement value of the buildings and infrastructure.
    This is the same chart we talked about last year, and at 
that time, Mr. Chairman, you asked us to verify that relative 
to other major Federal projects.



                 Architect of the Capitol benchmark data

                    [Fiscal year 1999 funding levels]

Current Facility Replacement Value......................  $3,600,000,000
                    ========================================================
                    ____________________________________________________
                                                          Annual renewal
                                                              percentage

AOC Benchmark (Based on Universities of Illinois, 
    Michigan, and Stanford and the Army Corps of 
    Engineers)..........................................            1.7 
Army Corps of Engineers (Budget Objective)..............            1.75
University Federal Research Cost Recovery (OMB A-21)....            2.0 
Conservative Commercial Depreciation at 40 Years (IRS 
    will accept a faster depreciation rate).............            2.5 
National Research Council of the Academy of Sciences:
    Low Range...........................................            1.5 
    High Range..........................................            3.0 
Fiscal year 1999 Capital Request (Request $60,478,000 
    Less $27,000,000 Security and Additional Facilities)            1.7 



                         Reinvestment benchmark

    We, in fact, checked out the Ronald Reagan International 
Trade Center, and if we would have used the type of benchmarks 
for cost of data approved for their project, this cost would 
be, rather than $3.6 billion for the appraised value, more like 
$4 billion.
    We also took a look at GSA standards and measured them 
relative to the different quality of spaces they use for their 
courthouses, et cetera, and that cost would be in the range of 
$3.1 billion.
    So we are very comfortable with the concept of $3.6 billion 
as a base number, and the 1.7 percent basically, as we 
discussed last year, we also feel very comfortable with that 
number.
    The next chart basically updates last year's presentation, 
and plots the 1.7 percent reinvestment benchmark against actual 
reinvestment, from 1993 to 1998, and it adds in the 1999 
request for cyclical maintenance.
[GRAPHIC] [TIFF OMITTED] T08MA19.002

                   Cyclical maintenance reinvestment

    It shows that the 1.7 percent in 1993 equated to $49.6 
million, and escalated at 3 percent per year, to $57.5 million 
in 1998.
    This totaled some $321 million in potential need for 
reinvestment for this period, but the red line plots actual 
reinvestment, from some $25.3 million, down to $14.5 million in 
1997, including the $33.5 million for the Botanic Garden, that 
brought it to $47.9 million.
    In 1998, it shows an increase from $14.5 million to $33.7 
million, which this committee allocated, reversing the downward 
trend in recognition of the very real need to be responsible 
stewards of these national treasures.
    I think it is important to note, however, that the total 
reinvestment made in the Capitol complex between 1993 and 1998 
amounts to just under $175 million, some 54 percent of the $321 
million benchmarked for that period.
    The approximate $150 million difference between the 
benchmark and the actual expenditures accounts for the pent-up 
need for so many long deferred projects to finally be funded.
    I believe that we would be in a lot worse shape, Mr. 
Chairman, if the day-to-day maintenance efforts by Larry 
Stoffel and our staff had not helped to extend the life 
expectancy of building systems and components way beyond what 
could reasonably be expected.
    As this chart shows, our 1999 request for reinvestment 
funding of $60.5 million is within 2 percent of the $59.3 
million benchmark. Each project must, of course, stand on its 
own merits and needs, but the overall magnitude is in line. We 
stand ready to discuss the validity of the projects at your 
convenience. The next chart basically breaks it down into the 
areas of life safety, ADA, security, et cetera.

    ----------------------------------------------------------------

                      ARCHITECT OF THE CAPITOL FISCAL YEAR 1999 BUDGET REQUEST BY CATEGORY
----------------------------------------------------------------------------------------------------------------
                                                                             Excluding House office buildings
                                Fiscal year                             ----------------------------------------
           Category                 1999     Percent   No. of   Percent  Fiscal year
                                  request             projects               1999     Percent   No. of   Percent
                                                                           request             projects
----------------------------------------------------------------------------------------------------------------
Life safety...................  $11,025,000     12.6       30      18.8   $7,796,000     10.4       23      17.8
ADA...........................    2,125,000      2.4        7       4.4    1,725,000      2.3        6       4.7
Security......................   25,382,000     29.0       14       8.8   25,382,000     34.0       14      10.9
Cyclical maintenance/            13,320,000     15.2        6       3.8   11,670,000     15.6        4       3.1
 improvement..................
Cyclical maintenance..........   22,258,000     25.4       65      40.6   15,958,000     21.4       49      38.0
Technology/management systems.    2,035,000      2.3        8       5.0    2,035,000      2.7        8       6.2
Improvement:
    AOC.......................    3,655,000      4.2       13       8.1    3,480,000      4.7       11       8.5
    Client....................    7,660,000      8.8       17      10.6    6,658,000      8.9       14      10.9
                               ---------------------------------------------------------------------------------
      Total...................   87,460,000    100.0      160     100.0   74,704,000    100.0      129     100.0
----------------------------------------------------------------------------------------------------------------

    ----------------------------------------------------------------

                           prepared statement

    I readily acknowledge that the amount requested is large 
and understand the pressures to achieve a balanced Federal 
budget in fiscal year 1999. As you are well aware, however, Mr. 
Chairman, the need for these projects do not go away, since 
they are needed to maintain our aging infrastructure.
    I would be more than happy, Mr. Chairman, to address any 
questions, comments, whatever.
    [The statement follows:]
               Prepared Statement of Alan M. Hantman, AIA
               general introduction and executive summary
    Mr. Chairman, I am pleased to once again appear before this 
Committee to present the budget for the Architect of the Capitol, one 
year, one month and sixteen days after I officially assumed my duties 
on February 3rd of 1997. As you are aware, I have been immersed in 
learning and evaluating the complexities of this agency, while also 
initiating concrete action in response to Congress' imperative to 
provide cost effective, quality service in support of its day to day 
activities. I heard Congress' mandate ``loud and clear'' and have 
focused in on rebuilding this agency into a unified, yet flexible, 
responsive and quality oriented instrument of the Congress. A brief 
summary of actions to date includes:
    Capital Projects.--Initiating the planning, drawings, contracts and 
construction for work on the $33 million of capital projects funded in 
fiscal year 1998 such as:
  --$3 million in projects under contract for design: Senate 
        Legislative Garage; Capitol Dome; and Dirksen Building 
        Telecommunications and Fire Sprinkler
  --$12 million in projects under contract for construction: Jefferson 
        Building Roof and Elevator Modernization
  --$18 million in project development: Power Plant East Chiller 
        Replacement and ADA Improvements
    Also, we have completed construction documents for renovation of 
the U.S. Botanic Garden Conservatory, and this project is now being 
advertised for bid. The contiguous privately funded National Garden is 
in process and will follow shortly. Another significant project is the 
rehabilitation of the U.S. Capitol Dome. Initial portions of the study 
for necessary renovations of the Dome have been completed while others 
are still in process. This fiscal year 1999 budget recommends 
allocating $7.5 million to perform the complex task of removing lead-
based paint in the interstitial space between the inner and outer 
domes, and, after study, repainting the metal. This will permit the 
necessary detailed inspection of all cast iron elements to clearly 
define the scope of work for subsequent phases.
    Operations, Personnel Policies and Procedures.--On the operations 
side we have initiated programs to:
  --Select and begin the introduction of a computer aided facility 
        management system (CAFM) to track, coordinate, record and 
        evaluate work management cost and staffing data throughout the 
        campus, as well as to provide enhanced space management 
        capabilities
  --Improve communications between the agency and our oversight 
        entities, our clients, and other arms of Congress
  --Upgrade internal administrative systems to achieve a Year 2000 fix 
        for our procurement, financial and inventory operations
  --Initiate an agency wide strategic planning process
  --Facilitate initiatives with the Senate Sergeant at Arms, the 
        Secretary of the Senate, as well as their counterparts on the 
        House side, and the Capitol Police, to coordinate services, and 
        eliminate overlapping functions
  --Reorganize Central Staff to better support the work of all of our 
        jurisdictions
  --Rebuild our Human Resources Management Division
  --Create task forces to investigate alternative means of providing 
        more cost effective and quality services in many areas of the 
        agency
  --Develop standardized policies and procedures for use by all AOC 
        jurisdictions across the campus
  --Provide management training programs for managers at all levels, as 
        well as developing training opportunities to further enhance 
        the trade and professional skills of our employees.
Vision and Goals
    I believe, Mr. Chairman, that it is important for the Congress to 
know the philosophical underpinnings of these efforts, the foundation 
we are building upon, because there is no ``quick fix'' solution to 
what is needed in rebuilding and re-engineering business practices in 
this agency. Through our strategic planning process, we are building an 
organization that will be able not only to support the day to day 
workings of both houses of the Congress in an equitable and 
professional manner, but one that will go on performing its duties long 
after all of us in this room are gone. It is important for us to build 
not only for today but also for the future--not only in our capital and 
maintenance projects, but also to build the proper team to perform the 
necessary day to day functions and services of this agency. This would 
include developing the proper mix of in house staff, vendors, 
indefinite quantity service contracts, and temporary employees to be 
called upon as work load necessitates. Our new Vision Statement commits 
us to this: ``We will be an innovative and efficient team dedicated to 
service excellence and to preserving, maintaining, and enhancing the 
national treasures entrusted to our care.''
    Our ongoing strategic planning process also produced a set of core 
values that we will use to guide us in our planning and our day to day 
activities: Service Excellence; Stewardship; Integrity; 
Professionalism; Creativity; Loyalty; Respect; Diversity; and Teamwork.
Congressionally Mandated Changes
    Change is necessary to assure that this agency makes these values 
and the vision part of our ``corporate culture'' so that all staff 
members truly make them the foundation of our work, the basis for how 
we do business. Many issues were identified and mandated for change in 
the Architect of the Capitol Human Resources Act, and in the 
Congressional Accountability Act. These include the requirement to 
develop human resources management programs consistent with the 
practices common among other federal and private sector organizations. 
In response, this agency has begun initiatives to:
  --more clearly define job descriptions and job expectations so that 
        everyone will know the requirements to successfully perform 
        their jobs.
  --create a viable job performance and evaluation system so that 
        constructive feedback can be given to improve performance where 
        necessary, and to recognize and acknowledge those who provide 
        quality service and work towards the achievement of our vision 
        and goals.
  --assure that uniform and fair standards are developed, implemented 
        and used throughout the Agency to the greatest extent possible 
        with respect to working conditions, job postings, upward 
        mobility, etc.
  --create a viable equal employment and conciliatory programs function 
        that can fairly and efficiently address employee concerns in 
        line with the Congressional Accountability Act.
  --provide training opportunities to further enhance the trade and 
        professional skills of our employees, including helping 
        supervisors better communicate with, and monitor the work of, 
        those who report to them.
    These initiatives are all in process and are part of the foundation 
that this Agency is being rebuilt on. The Congressional Accountability 
Act also created the Office of Compliance with the powers to monitor 
compliance with the intent of the Act, and also granted the employees 
of this agency, among others on Capitol Hill, the right to form unions. 
As you are aware, at this point AFSCME Council 26 has been designated 
to represent over 600 of our custodial and labor employees, and we are 
in the process of working with the union on a range of issues.
Review and Evaluation Methodology
    In order to address these realities and comply with these laws, 
this Agency is undergoing an intensive review of all of its operations 
with the goal of continuously refining and improving the quality of our 
services to Congress and our visitors to Capitol Hill, while at the 
same time responding to the imperatives of the laws discussed above. As 
part of this review we are investigating how to keep costs down and 
most efficiently deliver our services in fulfillment of our fiduciary 
responsibilities to the American Taxpayer.
    This is in line with House recommendations over the past two years 
regarding future restructuring of the Office of the Architect of the 
Capitol, which discussed looking for sensible ways to streamline the 
Architect's operation and logical areas in which to involve the private 
sector. Specifically, consideration of the private sector was suggested 
for routine maintenance and remedial work, in addition to the major AOC 
projects for which this is now routinely done. Our on-going 
investigation therefore includes in-depth evaluations of: Logical areas 
in which to involve the private sector; internal opportunities to re-
engineer and consolidate existing staff; and opportunities to eliminate 
duplication of services with other arms of the House and Senate.
    If any of these initiatives result in staffing reductions, it is 
our recommendation that this agency be authorized to implement early 
out and buy out programs for affected employees. There are three basic 
components to this review and evaluation: Impartial peer group 
benchmarking for best business practices; Intra-Agency information 
gathering and assessment; and customer feedback.
    These will be discussed in more detail under Goals and Processes 
for Sensible Agency Re-engineering.
Fiscal Year 1999 Budget Overview
    I would like to briefly address our fiscal year 1999 budget 
request. The Operating Budget requested for fiscal year 1999, 
$153,812,000, represents a 5.8 percent increase in operating costs, 
two-thirds of which are due to mandated pay and benefits costs, 12 
percent to election move cycle costs, and 6 percent to an agency-wide 
uniform program based on the pilot program currently underway in the 
Senate. Cost savings will be achieved through re-engineering efforts 
planned in fiscal year 1998 and implemented in fiscal year 1999, and 
will be reflected in savings in subsequent budgets.
    The requested increase in the Capital Projects portion of the 
budget is significant, but the magnitude of the total for cyclical 
maintenance projects is very much in line with the benchmark analysis 
discussed last year. That analysis indicated that a ``campus-like'' 
complex of this age, monumental quality and magnitude could expect to 
expend annually approximately 1.7 percent of the replacement value of 
the buildings and infrastructure. Based upon an estimated replacement 
value of $3.6 billion, 1.7 percent would equate to a target 
reinvestment level of $59.3 million with 3 percent escalation to fiscal 
year 1999. Each project must of course stand on its own, but the 
overall magnitude of our request of $60.5 million, correlates directly 
with the 1.7 percent benchmark of $59.3 million and we stand ready to 
discuss the validity of each of the 228 projects at your convenience. 
They have been categorized into Life Safety, Security, etc., for the 
purpose of analysis and decision making.
    There have been unanticipated project cost increases included in 
this request, such as the Capitol Square Perimeter Security 
Improvements. Further, the ongoing study of the necessary repairs and 
repainting of the Capitol Dome has led to the conclusion that this 
project also has increased in complexity, scope, and therefore, cost. 
These two projects alone account for $27.5 million of the fiscal year 
1999 budget request. The overall budget request is discussed in detail 
below.
    I would like at this point to thank you, Mr. Chairman, and the 
members and staff of this Committee for providing your support and 
input during this process. The dialogue that we began last year has 
continued unabated and I believe that together we have created a 
foundation of communication and commitment to efficient quality service 
that has already begun to show positive results. I look forward to 
working with you and this Committee in the coming year.
           role of the office of the architect of the capitol
    Mr. Chairman, I would like to take a brief moment to describe 
broadly the role of the agency before I describe our fiscal year 1999 
budget request and the changes that I see on the horizon. By law, the 
Office of the Architect of the Capitol (AOC) is the agency responsible 
for the structural and mechanical care, maintenance, cleaning, and 
operation of the buildings and facilities supporting the Congress, 
including the Capitol Power Plant. This responsibility extends to the 
Botanic Garden, the structural and mechanical care and maintenance of 
the Library of Congress Buildings and Grounds, as well as the Supreme 
Court Building and grounds. The office also undertakes the design and 
construction of new facilities and the alteration of existing 
facilities.
    Over the past year, this agency has focused significant energy on 
its first strategic planning process. The first steps of this process 
involved seeking and considering guidance from this Committee as well 
as our other oversight bodies, and have led to the development of a 
vision of how we should proceed to structure our organization to 
deliver quality services to the Congress. The next steps in this 
process include developing specific action plans to achieve our stated 
goals. A guiding philosophy in this strategic planning process includes 
the need to be responsive to our oversight bodies.
    In performing our mission, the AOC utilizes staff and consultant 
architectural, engineering and professional expertise to provide the 
Congress with appropriate, timely and cost effective recommendations. 
The AOC also manages trade and service personnel who are charged with 
ensuring that the building systems operate efficiently and reliably in 
support of Congressional activities. The AOC also administers a wide 
variety of contracts for facility maintenance, professional design, 
technical and other services.
    Critical to achieving this mission is the institutional knowledge 
that has accrued in the agency. The value of the long term role of the 
Architect as an advocate for the physical environment was recognized by 
the Congress when it established a ten year renewable term for the 
Architect. Such an advocacy role is no less appropriate for the core 
professional and trades staff. The merit of maintaining a long-term 
view for preserving and protecting the historical environment is self-
evident. To the credit of the agency, Congressional activities have 
never been interrupted by failure of any major building system. I might 
add parenthetically at this time that I have learned in the past year 
that institutional knowledge does in fact run deeply in this agency. In 
a sensitive operation such as ours, those who provide the services are 
our greatest asset in carrying out our mission to the Congress. Any re-
engineering efforts we undertake should recognize the devotion and 
service of our employees to the agency over many years and treat them 
in a considered, caring and humane manner.
    It goes without saying that many of the Congressional buildings are 
national treasures and require intimate knowledge and significant 
planning for their preservation. The U.S. Capitol, which is ``the 
people's building,'' for example, is a unique combination of National 
capitol, museum, office building, meeting center, ceremonial site, and 
tourist attraction. The building's systems are required to support all 
of these activities, and its architectural design, decorative arts and 
historical significance must all be carefully considered before 
undertaking any work or implementing any changes to the building.
    Another benefit of the neutral, bicameral role of the AOC is the 
ability to provide technical and professional coordination of ``joint'' 
activities. Over the years, the role of the office has broadened as a 
result. There are now functions and activities, such as the shuttle 
service and telecommunications, as well as Inaugural and Rotunda 
ceremonies, conducted or supported by the AOC, that are often not 
recognized as being within the scope of the office's professional, 
architectural and engineering roles, yet the Congress has acknowledged 
the merit of the AOC's neutral, bicameral coordination capacity.
    For over 200 years, an officer discharging the role of the 
Architect of the Capitol has provided to the Congress credible 
expertise on these matters. During this time, the ongoing and ever-
changing institution of the Congress has been served by an agency that 
has responded to changing Congressional needs, and will continue to do 
so.
                   fiscal year 1999 operating budget
    Last year's appropriations request was based on a comprehensive 
agency-wide planning and coordination process including all cyclical 
maintenance projects and building system enhancements. The thorough, 
systematic and programmed analysis led to a proposed five-year capital 
budget based on that planning. At the House Subcommittee on Legislative 
Branch Appropriations direction, I evaluated the five-year capital 
budget and especially the projects requested for fiscal year 1998 to 
determine if the previous effort was valid and the resulting request 
realistic. I did so, personally evaluating each of the 205 projects in 
the five year plan. I also re-prioritized the request, re-defining them 
into categories such as Life Safety, Security, Cyclical Maintenance, 
Technology and Management Systems, etc. This is the same approach I 
have taken this year and I will now discuss our fiscal year 1999 budget 
request in detail. There are two major components to this budget 
request: an Operating Budget and a Capital Budget, as described below. 
The total budget that I bring to this Committee today amounts to 
$241,272,000, comprised of $153,812,000 for operating costs and 
$87,460,000 for capital costs.
    Increases in the costs that comprise the operating budget totaling 
$153,812,000--that is, those costs that support operations and 
maintenance, including salaries, are relatively small, 5.8 percent 
overall. If the one time election year costs totaling $1,000,000 for 
all activities are reduced from the operating request for fiscal year 
1999, the increase amounts to approximately five percent. The operating 
budget also reflects several years of gradual declines in real dollars 
appropriated for operating the Capitol complex. Although there are 
several small increases requested for various operating allotments, the 
majority have been continued at the current funding level without 
adjusting them for inflation. Of our 170 annual allotment lines in this 
request, which include personnel compensation and benefits, 95 lines or 
56 percent were either reduced or are unchanged from the current fiscal 
year.
    There are opportunities for savings within our operations budget, 
some of which will require modest investments to achieve, and others 
which we are proceeding with at this time. Under the overall category 
of ``utilities,'' we are confident that investing in modern automated 
control systems at the Power Plant will lead to more efficient use of 
fuels, and eliminate the need for staff that presently manually monitor 
the heating and cooling equipment. Additionally, we are nearly complete 
with the installation of energy efficient lighting fixtures across the 
campus. These lighting fixtures are already saving electrical energy. 
But the true savings will not be realized until after the contractor is 
reimbursed for the installation cost. Clearly the largest portion of 
our operating budget is invested in our budget for salaries and 
benefits, and that is where the greatest opportunity for savings lies. 
I will have more to say about the operating budget and describe how we 
are exploring specific options that may lead us to achieve greater 
efficiency and cost effectiveness later in my testimony.
    The requested increase for fiscal year 1999 falls into several 
categories. Nearly two-thirds of the requested operating increase is 
due to mandated pay costs and the government's share of benefits costs. 
Nearly twelve percent of the requested operating budget increase 
relates to the one time election move cycle costs: these occur every 
other year to meet the need to house Senators and other staff based on 
room assignments arising out of the elections. An agency-wide uniform 
program is being proposed based on the pilot program now underway in 
the Senate, and this accounts for six percent of the requested 
increase.
    The following table indicates these increases by appropriation.

----------------------------------------------------------------------------------------------------------------
                                                Fiscal year 1998      Fiscal year 1999            Change
                                                     budget                request       -----------------------
                 Base costs                  --------------------------------------------
                                                FTE      Amount       FTE      Amount       FTE       Amount
----------------------------------------------------------------------------------------------------------------
Capitol Buildings: Operating Budget.........     388   $29,977,000     388   $33,165,000  ......     +$3,188,000
Capitol Grounds: Operating Budget...........      75     4,966,000      75     5,313,000  ......        +347,000
Senate Office Buildings: Operating Budget...     609    37,063,000     609    38,831,000  ......      +1,768,000
House Office Buildings: Operating Budget....     649    28,906,000     649    31,042,000  ......      +2,136,000
Capitol Power Plant: Operating Budget.......      97    32,382,000      97    32,627,000  ......        +245,000
Library Buildings and Grounds: Operating         144     9,063,000     144     9,665,000  ......        +602,000
 Budget.....................................
Botanic Garden: Operating Budget............      50     3,016,000      50     3,169,000  ......        +153,000
                                             -------------------------------------------------------------------
      Total.................................   2,012   145,373,000   2,012   153,812,000  ......      +8,439,000
----------------------------------------------------------------------------------------------------------------

               fiscal year 1999 five year capital budget
    The fiscal year 1999 capital budget request I present to you today 
flows from the first five-year capital budget presented last year by 
this agency. It is grounded in a comprehensive and systematic agency-
wide planning effort with in-depth involvement by all of the agency's 
clients. On the Senate side we included the Sergeant at Arms and the 
Secretary of the Senate. On the House side, we included the Sergeant at 
Arms, the Chief Administrative Officer and the Clerk of the House. The 
U.S. Capitol Police provided a detailed outline of their needs, and the 
Librarian of Congress was also extensively involved. A total of 228 
capital projects have been identified for the five year period.
    As discussed last year, there is a need to provide the Congress 
with such a five-year capital improvement budget to assist the Congress 
in making the wisest and best informed financial judgments based on a 
formal evaluation of future cost implications and with the assurance 
that we have undertaken a rigorous examination of related needs.
    The projects included in this budget, therefore, reflect all the 
needs that have been identified to date. We reviewed all of the 
projects that were requested and not funded last fiscal year to 
determine if they should be included in this year's request. We also 
closely examined all those projects that, based on last year's plan, 
had been projected for this fiscal year's request to make sure that 
their inclusion was also still valid. As stated above, also included 
are several significant new projects that were not even envisioned last 
year. We have adjusted the out years accordingly and I will continue to 
evaluate these needs and to update them to ensure that the capital 
budget is responsive to budgetary issues, programmatic changes, the 
condition of the buildings and their systems, and any other needs that 
may arise.
    At last year's hearing, we discussed the potential of a future 
``balloon payment'' that might result from the accumulated costs of 
deferred maintenance. I indicated that based on several infrastructure 
reinvestment models we were targeting approximately 1.7 percent of the 
replacement value as an order of magnitude funding level for the 
Capitol complex. Last year that figure amounted to roughly $52 million, 
which was in line with the $52,151,000 that we had requested for 
reinvestment. The actual funding that was approved totaled $33,872,000, 
thus leaving a reinvestment funding gap of $20,279,000. Once that 
figure is adjusted for the Botanic Garden Conservatory request of 
$8,300,000, which was provided for in the fiscal year 1997 emergency 
supplemental, the reinvestment gap reduced to $11,979,000. We have 
reinitiated our request for $8,235,000 of these projects in the fiscal 
year 1999 request.
    The capital budget that is being presented today is part of a 
multi-year funding plan that provides the Congress a clear view of what 
it will cost to maintain the Legislative Branch infrastructure in 
proper operating condition. The capital budget also identifies 
improvements that respond to new legally imposed standards and 
guidelines, such as improvements to meet the requirements of the 
Americans with Disabilities Act and the Occupational Safety and Health 
Act. There are also several projects that will enhance the operations 
of the Congress, as well as new projects requested by our clients to 
serve their programmatic needs. Balancing the needs of maintaining the 
existing infrastructure while keeping pace with technological 
enhancements and program needs is clearly costly and it is sometimes 
difficult to spread these costs out over time in order to avoid 
significant peaks in the budgeting process. But I firmly believe that 
deferring these infrastructure reinvestment costs in the short to mid 
term can ultimately lead to far greater costs in the future. We are all 
also aware of the effect that technological pressures can have on aging 
building systems, especially from the perspective of being capable of 
delivering new telecommunications technologies.
    As discussed above, these projects have been categorized into 
similar types of projects that reflect various initiatives that we are 
now faced with. These include categories such as Life Safety, ADA, 
Security, Cyclical Maintenance, Improvement, and Technology--Management 
Systems. When a particular project category has been requested to meet 
specific client needs, the category will note ``client.'' When a 
particular project category has been initiated by this office, it is 
noted ``AOC.'' A more detailed explanation of these categories follows.
    Life Safety.--These are programs essential for complying with the 
Occupational Safety and Health Act, environmental and hazardous 
material protection, fire code compliance, and other regulatory matters 
affecting the general health and welfare of building occupants. The 
Congressional Accountability Act has placed significant emphasis on 
ensuring that the Capitol complex is free of hazards to the Senators, 
Members, staff and visitors.
    ADA.--These are programs essential for complying with the Americans 
with Disabilities Act of 1990. Passage of the Congressional 
Accountability Act has reinforced the resolve to ensure that the 
Capitol complex is free of barriers to the Members, Senators, staff and 
visitors.
    Security.--These are programs to meet the needs created by 
increased terrorist activity throughout the world. As a result there is 
a heightened sensitivity toward threats to security at the Capitol 
complex. In addition there are security needs to protect property such 
as the collections at the Library of Congress.
    Cyclical Maintenance.--Several of the buildings in the Capitol 
complex are reaching an age and condition that necessitate major 
renovation or replacement of building systems. Various improvements are 
recommended to assure that these building systems continue to provide 
service to occupants.
    Improvement.--Technology is changing far more rapidly than our 
existing building infrastructures can support and adapt to. This is 
especially true in the rapidly expanding area of telecommunications, 
but there is a corollary effect that is felt in any building system 
that uses any sort of electronic technology for operation or support. 
These are programs that reflect either the replacement of existing 
building systems to generate a significant operational improvement or 
benefit, or the installation of a new type of technology or system to 
create such an improvement or benefit.
    Technology--Management Systems.--These are programs that reflect 
the internal (AOC) use of computer applications and telecommunications 
systems to improve the efficiency and effectiveness of operations.
    It is important to note that over $34 million of the nearly $87 
million requested in fiscal year 1999 is for capital projects related 
directly to client requests, i.e., $4,022,000 for the Library of 
Congress and $23,745,000 for the U.S. Capitol Police. In fact two major 
costs account for 30 percent of the budget: the Perimeter Security 
Project ($20 million)--and the first year major increment for the 
Capitol Dome Project ($7.5 million), which is based on the part of the 
ongoing project studies that has been completed to date.
    The fiscal year 1999 budget request for the Architect of the 
Capitol also has been prioritized as directed by the House and Senate 
Committees on Appropriations. I have sub-divided the former three-
tiered system further to give greater detail to the Committees for 
their decision-making. The requested items now are identified by the 
following priority levels: 1-A, 1-B, 1-C, and 2-A, 2-B, and so on 
through 3-C at the lowest end of the priority scale.
    Both the categories and priorities will assist the Committee in its 
decision-making process. Clearly this request is large, and I am aware 
of the overall budgetary constraints and the realities of additional 
funding beyond modest increases. I want to assure the Committee that we 
will work with you and provide our best recommendations as the budget 
review process proceeds.
    It is also important to recognize that these requirements do not 
simply disappear if deferred. If projects requested for fiscal year 
1999 are deferred, the costs to accomplish them will rise due to added 
deterioration, increased maintenance costs to sustain the systems in 
the interim, inflation, and fluctuations in market conditions. The 
deferred projects also will then add to the fiscal year 2000 funding 
need much as the 1998 deferred projects are adding to this budget.
    In last year's testimony, I detailed many of the reasons that there 
was such a large increase in the funding level required for the 
maintenance of our campus infrastructure. Rather than repeat those 
reasons verbatim, I will highlight them here:
    Replacement of Aging Building Systems.--Several of the buildings in 
the Capitol complex are reaching an age and condition that require 
major renovation or replacement of building systems.
    Technological Advances.--Technology, especially in 
telecommunications, is changing far more rapidly than our existing 
building infrastructures can support and adapt to.
    Regulatory Compliance Requirements.--Programs essential for 
complying with the Americans with Disabilities Act, the Occupational 
Safety and Health Act, security, and environmental and hazardous 
material protection have received very high priority in terms of 
advancing the timetables for completion due largely to passage of the 
Congressional Accountability Act.
    Security.--Terrorist activity throughout the world has increased, 
and as a result there is a heightened sensitivity toward threats to 
security at the Capitol complex.
    Infrastructure Reinvestment.--Replacement Value--We have developed 
an annual investment rate of 1.7 percent of the replacement value of 
the Capitol complex as an order of magnitude guide for capital funding 
levels. In comparison, the fiscal year 1999 request related to existing 
facilities of $60.5 million is right on target.
    The following table summarizes the funding levels presented in the 
five-year capital budget by category. Again, these categories include 
Life Safety, ADA, Security, Cyclical Maintenance requirements, 
Technology and Management Systems, and infrastructure Improvements. 
These five year projections will be reviewed, modified and updated each 
year as new information becomes available through detailed studies and 
evolving needs and priorities.

                                          FIVE YEAR CAPITAL PROJECTIONS
----------------------------------------------------------------------------------------------------------------
                                                             Fiscal year--
             Category              -----------------------------------------------------------------  Five year
                                        1999         2000         2001         2002         2003        total
----------------------------------------------------------------------------------------------------------------
Life Safety.......................  $11,025,000   $9,734,000  $10,848,000   $2,247,000     $400,000  $34,254,000
ADA...............................    2,125,000    1,545,000    1,225,000    1,225,000    1,225,000    7,345,000
Security..........................   25,382,000    3,095,000    6,905,000      500,000  ...........   35,882,000
Cyclical Maintenance-Improve-        13,320,000   12,220,000   12,220,000    2,450,000    2,225,000   42,435,000
 ment.............................
Cyclical Maintenance..............   22,258,000   31,655,000   23,065,000   14,372,000   13,012,000  104,362,000
Technology/Management Sys-  tems..    2,035,000    2,210,000      840,000      840,000      391,000    6,316,000
Improvement--AOC..................    3,655,000    7,536,000   10,560,000    6,470,000    2,180,000   30,401,000
Improvement--Client...............    7,660,000   43,941,000   27,850,000   34,800,000    5,000,000  119,251,000
                                   -----------------------------------------------------------------------------
      Total.......................   87,460,000  111,936,000   93,513,000   62,904,000   24,433,000  380,246,000
----------------------------------------------------------------------------------------------------------------

    Mr. Chairman, I also wish to point out that this budget was 
prepared with the intent of requesting planning and design funding well 
in advance of large renovation and construction project such as 
upgrading the cable television system, roof fall protection, 
optimization of the chilled water distribution system, and window 
replacement in the Capitol Building. Only design funding is requested 
for these large capital projects in fiscal year 1999 in order to 
prepare detailed designs and firm cost estimates for justifying 
appropriations requests for construction in later years.
    The following table indicates the capital budget increases for 
fiscal year 1999.

----------------------------------------------------------------------------------------------------------------
                                        Fiscal year      Fiscal year
          Capital projects              1998 budget      1999 request        Change           Major projects
----------------------------------------------------------------------------------------------------------------
Capitol Buildings: Capital Budget--        $7,000,000      $22,177,000     +$15,177,000  Capitol Dome, Ph. 1--
 49 projects.                                                                             $7,500,000; Design,
                                                                                          Senate Chamber--
                                                                                          $1,500,000; Upgrade
                                                                                          Cable TV System--
                                                                                          $1,000,000;
                                                                                          Infrastructure for
                                                                                          Security Installation--
                                                                                          $1,000,000.
Capitol Grounds: Capital Budget--10           150,000       21,310,000      +21,160,000  Perimeter Security--
 projects.                                                                                $20,000,000.
Senate Office Buildings: Capital           14,958,000       16,925,000       +1,967,000  NA.
 Budget--28 projects.
House Office Buildings: Capital             7,704,000       12,756,000       +5,052,000  Replace LHOB Roof 6th
 Budget--31 projects.                                                                     and 7th Fl.--
                                                                                          $3,200,000; Sprinklers
                                                                                          and
                                                                                          Telecommunications,
                                                                                          RHOB--$2,564,000;
                                                                                          Electrical and
                                                                                          Telecommunications,
                                                                                          CHOB--$1,200,000; and
                                                                                          Garage Floor Repairs,
                                                                                          CHOB-- $1,000,000.
Capitol Power Plant: Capital Budget--       1,550,000        7,752,000       +6,202,000  East Plant Chiller
 10 projects.                                                                             Replacement--$5,000,00
                                                                                          0; and Optimization of
                                                                                          CPP Operations--
                                                                                          $2,000,000.
Library Buildings and Grounds:              2,510,000        6,474,000       +3,964,000  Additional Security
 Capital Budget--30 projects.                                                             Readers--$652,000;
                                                                                          Exterior Security--
                                                                                          $600,000; HVAC
                                                                                          Improvements--$600,000
                                                                                          ; Design Screening
                                                                                          Facility--$500,000;
                                                                                          and Design Copyright
                                                                                          Facility--$500,000.
Botanic Garden: Capital Budget--2     ...............           66,000          +66,000  NA.
 projects.
                                     ----------------------------------------------------
      Subtotal......................       33,872,000       87,460,000      +53,588,000
Less Perimeter Security.............  ...............      -20,000,000       -20,000000
                                     ---------------------------------------------------------------------------
      Total.........................       33,872,000       67,460,000      +33,588,000
----------------------------------------------------------------------------------------------------------------
NA: Not available.

    Mr. Chairman, I should point out that there is one project that is 
specifically not included in this capital budget request, and that is 
the Capitol Visitors Center. At this point, as you are aware, 
legislation has not yet been approved that would permit us to proceed 
with this project.
    I assure you that I will continue to work closely with you and the 
Committee to review these requests to achieve a rational and adequate 
funding level to support the needs of Congress.
 strategic business planning effort: goals and processes for sensible 
                          agency reengineering
    Clearly one of the greatest challenges facing this agency has been 
to respond to the question of how to determine the appropriate resource 
levels necessary to meet our customers' needs. How many FTE should we 
have and what funding level is needed to maintain and operate the 
Capitol complex? In terms of FTE levels, it should be noted that over 
the past six years we have cut FTE by over 16 percent. It is necessary 
to determine if this means we are as ``lean and mean'' as we can get, 
or are there areas where we should see further re-engineering? 
Conversely, are there areas where we have cut too far? What funding 
levels are necessary to meet customer demands in a timely manner, and 
how well are we doing at providing quality service? In order to find 
answers to these questions we began a thorough re-examination of our 
agency through a management-wide strategic planning process. A second 
major aspect of this process has been to strengthen lines of clear and 
open communications between this agency and other support agencies as 
well as key Committees and staff. A third aspect of this process has 
been to begin implementation of necessary modern and efficient business 
procedures and systems to bring this agency into the 21st century.
    Over the past year, we have addressed these concerns at every 
level, and I would like to describe in some detail the results of our 
efforts thus far. In order to make reasoned and balanced 
recommendations to Congress I initiated a review and evaluation of 
three basic sources of information, each of which is required in order 
to develop a balanced profile of how the agency should be constituted 
and what policies and recommendations should be formulated. The first 
source of information was to speak with every individual within the 
agency. I met personally with every key manager, and scheduled ``town 
hall'' type of meetings with all other members of the agency. I sought 
to hear what every AOC person thought about the present status of the 
agency and what the future direction of the agency should be. I 
encouraged communication, in private if necessary, on areas where staff 
were aware or suspicious or fraudulent, wasteful or abusive actions, 
and I also encouraged open expression of their views of how the 
agency's policies, procedures and management level respected employee 
rights and promoted a productive and positive workplace.
    The second source of information was through meeting with Members 
and their staffs to see how well we were performing in terms of 
customer satisfaction. I also opened dialogues with my fellow Senate 
and House officers, including the Senate Sergeant at Arms and the 
Secretary of the Senate, seeking areas where we might together improve 
service delivery, or align our missions and structures more logically 
to eliminate duplicative efforts. Finally, the third source of 
information was to continue reviewing and analyzing outside impartial 
resource information. I have broadened the scope of our preliminary 
peer group benchmarking analyses to include virtually all maintenance 
and technical functions. To carry out this peer group benchmarking, we 
have embarked on a series of interviews with major corporations, 
building management and trade research organizations, and government 
agencies to see how we compare in terms of organizational philosophy, 
the relative mix of in-house and outsourced functions, the use of 
computerized facility management systems, and the types of maintenance 
and operations standards and performance metrics they use. I will 
provide for the Record a compilation of all the government, and private 
sector organizations we have consulted with to date. Benchmarking and 
information gathering efforts will continue and be constantly updated.
    Over the past year, I have been reviewing and evaluating our 
operations, especially as they relate to quality service delivery, 
efficiency and who delivers each service. The process has involved a 
task force composed of the Superintendents of the Senate and House 
Office Buildings, and the Capitol Building, as well as the other 
jurisdictional areas within the agency. What I found was that 
significant re-engineering has already occurred throughout many areas 
of our jurisdiction. Some general examples include:
  --Changing tours of duties to accommodate reduced FTE's and still 
        respond to Congressional needs
  --A consolidation of shops within both the Senate and House office 
        buildings allowed for a reduced number of supervisors
  --A cross-trained workforce in areas such as the Senate upholstery 
        shop which has been trained to handle window treatment and 
        carpeting requests, and the House air conditioning shop, which 
        has been trained to handle electrical, plumbing, and elevator 
        service calls during the second and third shifts
  --Increased internal controls over inventory, tools and equipment
  --By using a consolidated shop approach, we are able to respond to 
        service calls after hours with the consolidated shop staff 
        rather than having to have each separate shop keep staff late 
        unnecessarily
  --Also, we are now using Job Order Contracts to perform small 
        renovation projects where it is more advantageous to have 
        private sector involvement rather than using our in house 
        forces
  --We have outsourced many areas of technical expertise, using private 
        sector contractors for design, estimating, legal and dispute 
        resolution services
  --We have increased our use of the private sector vendors for 
        custodial services, having contracted out Webster Hall and 
        Postal Square on the Senate side, the Ford Building on the 
        House side and at the U.S. Botanic Garden as well
  --We also use temporary staff for seasonal, short term, and 
        renovation work rather than staffing with long term FTE.
    These new processes have been tested and implemented, best business 
practices confirmed with other facility managers, economic savings 
verified, and will be used as models as we continue our evaluations.
    I believe that the final configuration of this agency will maintain 
continuity of services by using a balanced mix of core staff with their 
institutional knowledge, quality assurance and dedication of service, 
as well as a flexible mix of outside vendors, private sector 
contractors, and temporary staff to provide cost effective, quality 
service to the Congress.
    Steps taken toward this goal also include acting to improve 
customer service within the Capitol itself. In our other areas of 
jurisdiction, further changes in operations are being investigated and 
their associated recommendations for several pilot initiatives are 
being prepared by the task force. I will be happy to provide this 
Committee with the detailed proposals once the pilot programs have been 
crafted. Any proposals that might impact the role of the agency or how 
it relates to other Congressional entities will be brought to the 
appropriate oversight bodies for consideration.
                              human factor
    Last year the Senate authorized a limited two year buy out and 
early retirement program for the Senate Restaurants. The goal was to 
quickly reduce the number and cost of FTE supporting that function 
since reductions through attrition were minimal and the operation was 
losing money. That process was sensitively handled in conjunction with 
OPM, and many employees opted to take early outs and buy outs. The 
process successfully reduced our losses and yielded an expected savings 
of $250,000 in 1998--projected savings in 1999 total over $600,000. We 
learned through this experience that with proper planning and 
implementation these are effective tools for re-engineering, and I 
propose using this program as a model should it be necessary for future 
efficiency initiatives. The existing buy out authority covers only the 
Senate Restaurants. I will be providing requested modifications to that 
buy out authority to remove the cap of 50 positions, make that coverage 
available for all AOC employees, and to extend the availability of the 
program two additional years, through 2001.
    I have already stated that as a result of our strategic business 
planning efforts we have some specific pilot actions underway to 
validate results in areas that we have identified as having the 
potential for more efficient or cost effective service delivery. We 
intend to test those pilots during the balance of this fiscal year, and 
it is projected that the portion of the budget presented here today 
related to staffing and operating costs thus will be a worst case 
scenario for fiscal year 1999. Clearly if we identify areas that could 
be re-engineered, we need funding for existing staff until the re-
engineered functions are in place. At that point, we also would require 
funding, although at a hoped-for reduced level, for the re-engineered 
functions. Further, if the results of our pilot initiatives determine 
that a re-engineered and smaller workforce may be more cost effective 
while delivering quality service levels, then we would need to 
implement a buy out and early out program to reduce the workforce. As 
with the Restaurant program, funding for early out and buy out packages 
would be derived from the existing staff's budgeted costs for that 
fiscal year. The following fiscal year would be the point where any 
significant cost savings would begin to accrue as a result of such re-
engineering. Once the results of our pilot strategic business planning 
initiatives are known and evaluated, I will present them for your 
consideration.
    This type of program has been successfully used by the Library of 
Congress, the Government Printing Office, and especially by the General 
Accounting Office, which has given us much valuable information for 
their recent re-engineering efforts. The success already experienced in 
these several areas demonstrates that such programs are a valid way to 
achieve re-engineering and staffing mix and grade level adjustments. 
Significant re-engineering must take into account succession planning 
to retain skills and knowledge lost when senior and long term staff 
leave. Some of that succession planning requires retraining existing 
staff to become multi-skilled workers to take on a multitude of tasks. 
Some retraining is also needed to respond to new technologies that are 
advancing, especially in the areas of computer aided facilities 
management.
    There are two reasons why buy out and early out programs might need 
to be made available to our employees, one legal, one philosophical. 
First, our employees, unlike those in the Senate and House, are covered 
under title 5 of the U.S. Code, the AOC Human Resources Act of 1995, 
and other statutes governing our employees' rights. The philosophical 
difference between our employees and those of the Senate and House is 
that our employees are employed as civil service career employees: they 
are hired, earn their pay, contribute to the government retirement 
fund, and after a long career, retire with federal pensions. On the 
other hand, many Senate and House employees come and go as their 
Senators and Members are re-elected.
                               conclusion
    The task of completing the assessment of the agency's strengths and 
weaknesses, viewing them from a fresh perspective and striving to 
implement sensible and realistic conclusions is complex, but much 
progress has been made. I will continue with this rigorous examination 
of our services, how they compare with the private sector, and how the 
delivery of those services is viewed by our clients. This is an ongoing 
process.
    In conclusion, with respect to the capital budget, I readily 
acknowledge that the amount requested is large, and understand the 
pressures to achieve a balanced Federal budget in fiscal year 1999. The 
nature of our aging facilities, security and technology improvement 
needs, life safety and other mandated issues, all legislate for the 
recommended projects. I know that this Committee and the Congress 
realize, that many of these projects are clearly necessary to properly 
conserve the ``peoples building'' and supporting structures for future 
generations.
    With respect to the operations budget as it relates to our mission 
and services, I am committed to continuing the process of re-
engineering the agency to develop an organization that will deliver 
efficient and cost effective services in an equitable and bicameral 
manner. If the requested modifications to the authority for buy outs in 
the Senate Restaurant are granted, we will be able to use it agency-
wide to promote quality service in a cost effective manner. There may 
be additional legislative adjustments identified as this process 
unfolds. However, I will not propose them if I am not convinced of 
their need.
    I will continue to report periodically on our progress as we 
examine these issues. I believe that we can become more effective and 
more cost-efficient and still continue to fulfill the core mission of 
the agency. With respect to our dedicated employees, I believe that we 
can be sensitive and humane as we proceed. The Office of the Architect 
of the Capitol will continue to be professional and effective in 
meeting the challenges ahead.
    Mr. Chairman, that concludes my statement and I shall be pleased to 
respond to any questions that you and the Committee may have.

                            Future shortfall

    Senator Bennett. Thank you very much. Let's go back one 
chart. Looking at this chart by itself, you can say we got away 
with staying under the $1.7 million, and only began to approach 
it in fiscal year 1997 and again in fiscal year 1999.
    I would like, if not here, then at some future point, for 
you to go out a few years, I realize this will require some 
guesswork, and we will not hold you to the exact specifics, but 
I have the feeling, from what you are saying, that the years of 
shortfall are going to produce spikes above the blue line in 
future years.
    If that is not true, we cannot justify going to the blue 
line, just because it is a nice statistical measure, but if it 
is true that we are going to have red spikes that go up above 
that, then the blue line becomes a prudent management kind of 
tool. I think this committee needs that sort of predictive 
analysis in order to justify a $1.7 million automatic kind of 
number.
    Just because that is what it costs to keep up the 
University of Illinois, or whoever, it does not necessarily 
mean that is what it should cost us.
    Intuitively, I think you are right. I think the $1.7 
million makes sense. But I would like some guesses as to where 
the spikes are going to come from in the future to make us pay 
for the shortfall. If they are not there, then we ought to 
rethink the $1.7 million number.
    Mr. Hantman. Mr. Chairman, your instincts are right on 
line. We, in fact, have information going forward for a 5-year 
master plan, which do indicate significant spikes, and we would 
be more than happy to sit down and explain what the nature of 
those projects are, and what fits with that 1.7 percent line.
    Senator Bennett. We need to be forewarned about them, 
because we are going to have to come up with the money for the 
spikes.
    I remember some criticism when we came up with the money 
for the Botanic Garden, because people have their eye on the 
lower red line there on the chart and said, What is the matter? 
We give you chairmanship of this committee, and you run right 
out and spend an extra $30 million.
    The forewarning will be very helpful to us, as we deal with 
the challenge that you have.
    Mr. Hantman. We will come back to you with that 
information, Mr. Chairman.
    [The information follows:]

    The table below indicates the current projections for the 
total funding related to the five year capital budget. A 
similar table is presented in our Opening Statement. The total 
capital budget includes not only reinvestment costs but new 
facility and security projects as well. The new facility and 
security costs in the table below have been subtracted out of 
the totals at the bottom of the table, leaving just the 
reinvestment costs required to maintain existing facilities. As 
noted by the Chairman, there is clearly a ``spike'' in the out-
years. The fiscal year 1999 request of $60,478,000 is right in 
line with the benchmark reinvestment level of $59.3 million. In 
fiscal year 2000, the projected benchmark level is $61 million, 
and the currently projected reinvestment request would exceed 
$92 million. This large spike is largely due to the number of 
reinvestment projects that are currently under design with 
funding appropriated in fiscal year 1998; once design is 
completed accurate cost estimates can be made and the present 
``marker'' estimates will be replaced with accurate cost 
projections based on complete design. The projected benchmark 
level for fiscal year 2001 is $62.9 million and the currently 
projected reinvestment funding request ``marker'' estimate 
would total $64,258,000, which again exceeds the benchmark.
    Clearly, as decisions are made with respect to the fiscal 
year 1999 request, a re-evaluation of the out-year portion of 
the budget will be made. Some projects that may be deferred 
during action on the fiscal year 1999 request will have to be 
re-requested in fiscal year 2000, adding to the spike. 
Likewise, some projects now programmed for fiscal year 2000 may 
be moved out one more year depending on actual circumstances. 
But the general point of there being a budgetary spike in the 
current planning is real and must be dealt with in order to 
prevent deterioration to the Capitol complex infrastructure.

                                                              FIVE YEAR CAPITAL PROJECTIONS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                           Fiscal year--
                        Category                         --------------------------------------------------------------------------------    Five year
                                                               1999            2000            2001            2002            2003            total
--------------------------------------------------------------------------------------------------------------------------------------------------------
Life Safety.............................................     $11,025,000      $9,734,000     $10,848,000      $2,247,000        $400,000     $34,254,000
ADA.....................................................       2,125,000       1,545,000       1,225,000       1,225,000       1,225,000       7,345,000
Security................................................      25,382,000       3,095,000       6,905,000         500,000  ..............      35,882,000
Cyclical Maintenance-Improvement........................      13,320,000      12,220,000      12,220,000       2,450,000       2,225,000      42,435,000
Cyclical Maintenance....................................      22,258,000      31,655,000      23,065,000      14,372,000      13,012,000     104,362,000
Technology/Management Systems...........................       2,035,000       2,210,000         840,000         840,000         391,000       6,316,000
Improvement--AOC........................................       3,655,000       7,536,000      10,560,000       6,470,000       2,180,000      30,401,000
Improvement--Client.....................................       7,660,000      43,941,000      27,850,000      34,800,000       5,000,000     119,251,000
                                                         -----------------------------------------------------------------------------------------------
      Subtotal..........................................      87,460,000     111,936,000      93,513,000      62,904,000      24,433,000     380,246,000
Less: New Facility and Security Costs...................     -26,982,000     -19,635,000     -29,255,000     -15,800,000        -500,000     -92,172,000
                                                         -----------------------------------------------------------------------------------------------
      Total Reinvestment Funding Required...............      60,478,000      92,301,000      64,258,000      47,104,000      23,933,000     288,074,000
--------------------------------------------------------------------------------------------------------------------------------------------------------

    A graphic presentation of the projected benchmark 
reinvestment level and the funding currently included in the 
five year capital budget follows.
[GRAPHIC] [TIFF OMITTED] T08MA19.003

                         Botanic Garden project

    Senator Bennett. Senator Dorgan, do you have any questions?
    Senator Dorgan. Can you tell us the status of the Botanic 
Garden project? My understanding is that the time situation has 
slipped. Were we not talking about completion of the structure 
before 1999? What is the reason that the time line has slipped 
on that?
    Mr. Hantman. Lynne Theiss, who is our Executive Officer, 
and responsible for that specific project.
    Ms. Theiss. Senator, the original time line for 
construction was a 2-year construction project itself. What was 
not calculated in the original presentation given to the 
committee was the time it takes for the bid and to put all four 
phases of the original drawings into a good-sized package.
    If you recall, the original presentation said that we had 
four different projects going on at one time. When that 
material was put together we realized that the time for our 
consultants--DMJM is the acronym that we have for them--to get 
their team assembled and our team assembled, extended that time 
line, so we are on track right now for completion including 
replanting, for September of the year 2000.
    Senator Dorgan. Thank you.
    Senator Bennett. Will the slippage in the completion date 
for the Botanic Garden project result in any cost increases?
    Ms. Theiss. No; the Botanic Garden project will be complete 
on time and within budget.

                     Emergency supplemental funding

    Senator Dorgan. Are there recommendations in the 
supplemental that deal with security and also repairs to the 
dome, or investment there that will be taken out of this budget 
if the supplemental passes and, if so, how much?
    Mr. Hantman. Absolutely. There are $20 million in for the 
perimeter security program, $4 million of which will be sent 
over to the Capitol Police themselves for their electronic 
components of that. There is also $7.5 million for this study 
of the interstitial space that is also in this budget right 
now, so $27.5 million comes right off--off of----
    Senator Dorgan. Assuming the supplemental is passed.
    Mr. Hantman. Assuming the supplemental is passed.
    Senator Dorgan. All right.
    Thank you, Mr. Chairman.

                       Capital project management

    Senator Bennett. Thank you. You have funding for a number 
of capital projects here, and you have made your case for the 
money, now, without questioning about your capability to manage 
that many projects simultaneously, do you want to make a 
comment on that point?
    Mr. Hantman. There are really three ways that we are 
planning to deal with whatever level of funding you give us for 
these new capital projects.
    The mission of our architects, our engineers, our 
construction management people needs to change, it needs to 
change to be more project management oriented, rather than 
being on the boards and doing the drawings themselves. So we 
are training some of our people in both architecture and 
engineering to do just that.
    We also are requesting in this budget additional funds to 
retain architectural and engineering firms in indefinite 
quantity-type contracts, so they can do some of the drawing for 
us, and have us oversee them on that work.
    We have also included in some of these projects the issues 
of having actual design funds as part of the projects 
themselves, so, again, the design work will be taken away from 
our people, and we will be able to monitor them more 
effectively through that staff.
    We have the capability of increasing our core staff of 
about 30 project contract managers in our construction division 
right now. These are temporary employees, and we can hire 
people and charge them to the projects themselves to oversee 
these, and have those people come on as long as we need them.
    We are going to be expanding our staff with temporary 
people, as opposed to adding permanent people to our staff, to 
accomplish this.

                     Auditable financial statements

    Senator Bennett. OK. When do you anticipate having 
auditable financial statements?
    Mr. Pregnall. Mr. Chairman, we are currently working with 
the financial management division of the General Accounting 
Office. We presented them with a plan that will have an 
implementation of a standard general ledger sometime in fiscal 
year 1999.
    We propose, if that were feasible, to have an audited 
financial statement made available for fiscal year 2000. That 
is our current timetable.
    Senator Bennett. What is your estimated cost to address the 
year 2000 problem? What downward dip can we look for at some 
future point, when that problem is taken care of? Do you have a 
single number for it?
    Mr. Pregnall. We do not have a single number for all of the 
aspects that were covered in the GAO report for collecting that 
data; we can provide that for the record.
    I have spoken with our director of IRM, who has headed up 
this very important project. Most of the funds that they have 
expended have come out of our maintenance budget.
    On our local network, we have a cyclical life cycle 
replacement process where older PC's are changed out regularly 
to keep up with technology. We have used the FAR language to 
make sure that all our new PC's acquired are year 2000 
compatible. Rick Kashurba and his staff have made sure that all 
of the operating systems are year 2000 compatible. We are still 
catching up on some of the engineering functions.
    We do have maintenance funds for most of those systems and 
the vendors do have fixes in place where they are developing 
them. And as you know, we are monitoring that, we are creating 
contingency plans just in case the vendors do not come through.
    Senator Bennett. OK. Thank you. I salute you for your 
diligence on that.

                     Additional committee questions

    Mr. Hantman, again, we thank you for a year's worth of good 
stewardship and a fast learning curve. It is not a criticism of 
your predecessors to say that you inherited a serious 
challenge, because this job always carries with it a serious 
challenge, but you did come into a situation that did not allow 
any coasting, and we are grateful to you for the professional 
manner in which you discharge your duties.
    Mr. Hantman. Thank you very much.
    Senator Bennett. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Architect for response subsequent to the 
hearing:]
                     Additional Committee Questions
                            uniform program
    Question. The AOC has requested approximately $575,000 for an 
agency-wide uniform program. This was based on a pilot project 
providing uniforms for Senate Office Building employees. Please 
summarize for the record the results of that pilot project, and if a 
final report was issued, include the final report for the record.
    Answer. Approximately 60 percent of the employees in the Senate 
Office Buildings are currently in uniform. In general the employees are 
pleased with the uniforms. Twenty-six boxes of uniforms are missing 
from the vendor with no time estimate of when this will be resolved. 
Several factors contributed to a rugged start, such as: the absence of 
a secure area to issue and control the distribution of uniforms, some 
fitting problems, white identification embroidery on all the uniforms 
including those with white shirts, and the Contractor's (Cintas) 
organization and support was not up to what was expected by the 
Architect's office.
                             privatization
    Question. Last year the Architect indicated that the Office was 
still collecting data about possible areas of privatization. Please 
update the Committee on the results of this effort.
    Answer. The Office has continued to collect data over the past year 
about possible areas of privatization. At this time, the Office has 
compiled enough data to develop firm scopes of service in order to 
implement controlled pilot programs in the areas listed below. It is 
anticipated that implementation will begin as early as April 1998 in 
some areas.
    Capitol Grounds--Out Parcel Maintenance; Parking Lot Maintenance; 
Fire Extinguisher Inspection and Charging; Chandelier Cleaning; 
Restaurant Support; and Plant growing for the Capitol grounds.
    Additional data is still being collected in order to develop firm 
scopes of services in the following areas.
    Custodial; Shuttle Service; Vehicle Maintenance; Elevator 
Inspection and Maintenance; and Re-Lamping.
                           fort meade project
    Question. When will the Fort Meade project be completed and 
available for occupancy by the Library?
    Answer. The drawings are nearing completion and bidding is expected 
to start in April. Occupancy is slated for the end of summer 1999.
                           strategic planning
    Question. When do you anticipate presenting your strategic business 
planning initiatives?
    Answer. Last Fall the agency embarked on its first ever Strategic 
Planning effort. After a series of preparatory meetings, nearly 30 
senior managers met for three days and developed a Vision Statement, 
Mission Statement and Core Values. The group also identified several 
Critical Success Factors necessary to meet the Goals and Objectives. 
Since that time, the group has been extended to lower level management. 
It is fair to say that the agency's program is gaining momentum. As of 
April 3, 1998 the newest suggestions and concerns will have been 
incorporated into the Plan for evaluation by the entire group of 60. We 
will be happy to share both the information on our process, our 
programs and our proposed implementation as they develop.
                  computer-aided facilities management
    Question. Please update the Committee on the status of the computer 
aided facilities management system (CAFM) project. The AOC's Office 
indicated recently that it is estimated to save 10-15 percent in 
maintenance costs. Please identify how those savings will be 
accomplished.
    Answer. Two phases of CAFM are currently in the implementation 
phase.
    Phase 1 will implement Space Management for the Senate Office 
Buildings and Senate side of the Capitol. It is now 85 percent 
complete. Currently the AOC is working with the Senate Committee on 
Rules and Administration to finalize ad hoc and customized reports.
    Phase 2 which will implement Work Management and development is 30 
percent complete in the Senate Office Buildings. Recently a 
reprogramming was requested to implement Work Management in the Capitol 
and House Office Buildings as well. Currently work processes are being 
standardized. The automated work management module will be implemented 
during June 1998. The first part of this module which is work requests 
(year 2000 problem with existing system) will be operational by August 
1998.
    With respect to the reported possibility of a 10-15 percent 
savings, a projection of actual savings cannot be currently determined 
until workload data is collected and analyzed to determine areas where 
preventive maintenance and service work requests can be made more 
efficient.
                   renovation of the canine facility
    Question. Last year the Police Board requested and the AOC included 
in its budget request $350,000 for fiscal year 1998 and $350,000 for 
fiscal year 1999 to fund the renovation of the K-9 facility. The 
Appropriations Committees provided $200,000 in fiscal year 1998. Since 
last year, the police officers have done a substantial amount of the 
work at the K-9 facility themselves. Has the AOC's Office done any work 
with the $200,000 provided? Has the cost of that project been 
reevaluated in light of the work that has been done?
    Answer. Although the U.S. Capitol Police have performed a 
creditable job in cleaning out the existing facility, none of the 
mechanical, electrical, plumbing or other repairs have been undertaken. 
These are presently under design. The plan for fiscal year 1998 is to 
renovate the portion of the building that accommodates the canines by 
replacing the heating, ventilating and air conditioning system, 
upgrading the electrical system, installing adequate kennel drainage 
and plumbing, resurfacing the floor, and replacing doors, door frames, 
windows, etc. as required to permit housing of canines in the building. 
During fiscal year 1999, the administrative portion of the building 
will be renovated with the $200,000 funding increment programmed for 
that year. The fiscal year 2000 increment will focus on exterior site 
problems, especially drainage around the building and the training 
field. The final programmed increment of $100,000 in fiscal year 2001 
will complete the site work by addressing the parking, relocation of 
the trailers, and any final work required.
                        off-site delivery center
    Question. In fiscal year 1998, Congress provided $100,000 of a 
$150,000 request for OSHA repairs to the off-site delivery facility. 
The budget requests the additional $50,000 this year. Of the original 
$100,000 provided, what work has been completed by the AOC's Office to 
date? Is the total $50,000 still required to complete the project?
    Answer. A preliminary survey of the off-site delivery facility (P 
St. Warehouse) has been completed and a scope of services has been 
developed. An architect/engineer will be retained to complete a phased 
plan for implementation of the OSHA repairs and related improvements. 
Phased implementations of the repairs will begin in late spring or 
early summer. The additional $50,000 requested in fiscal year 1999 will 
be required to complete the project.
                       capital project management
    Question. The Architect indicated in the hearing that it is the 
Office's intention to manage, if provided, the increase in projects and 
funds, with outside contractors. Are the funds required for these 
contractors provided in the budget as a separate management cost, or 
are they built into the cost estimate provided for each project?
    Answer. Funding for the hiring of consultants for planning, design 
and estimating of some projects is requested as a separate budget item 
and as a specific phase of the project. For example, design for the 
Senate Chamber improvements project has been requested as a separate 
budget item in order to fully develop drawings, specifications and cost 
estimates for that project. This process is followed when a project is 
of such a magnitude in cost or scope that a specific consultant is 
needed to bring particular expertise to carry out the design. For other 
more routine type projects, in the past in-house staff were tasked with 
performing actual design work. However, in order to more efficiently 
utilize existing staff resources, we are refocussing our staff into 
more of a project manager role. In this role, our staff will oversee 
several different design efforts undertaken via indefinite quantity 
(IDQ) service contracts for architectural, engineering and estimating 
services. There are similar contracts in place with the General 
Services Administration (GSA), and the National Oceanic and Atmospheric 
Administration (NOAA). The AOC is looking into the possibility of using 
existing IDQ contracts with these agencies rather than going through a 
similar procurement process. Funds totaling $350,000 have been 
requested as a new operating allotment in the Capitol Buildings 
appropriation to support contractual services for architectural and 
engineering services, and funds totaling $80,000 have been requested in 
the same appropriation for contractual estimating services.
    Once design is completed and funding is made available for actual 
work, the cost of managing the construction process is charged against 
the project funds and is accounted for within the project estimate and 
budget. The AOC's Construction Management Division (CMD) is composed 
largely of temporary project managers, inspectors and other 
construction project administrative staff whose costs are borne by 
actual projects. In this manner, the staffing level can be added to 
when more projects are being performed, and reduced when fewer projects 
are funded.
                     auditable financial statements
    Question. What has been accomplished by your office in the area of 
financial management for fiscal year 1997 and fiscal year 1998 to date.
    Answer. In fiscal year 1997, the agency developed the first AOC 
Financial Management Improvement Program (FMIP) Strategic Plan. The 
FMIP Plan will be revised annually to reflect current and future 
strategy.
    Also the AOC is the first Legislative Branch agency to complete a 
Y2K upgrade of existing support software for its financial operations 
(accounts payable, inventory, procurement, funds control). Existing 
staff accomplished the design, development, testing, data conversion, 
and installation of software in only six months (4/1/97-9/30/97). Staff 
accomplished the effort while maintaining critical day-to-day financial 
operations at the same time they supported the necessary Y2K upgrade 
effort. The Y2K upgrade was accomplished with minimal vendor support 
costs. This upgrade improved financial operations by migrating from a 
``home grown, stovepipe'' financial system environment to an off-the-
shelf integrated processing environment. The new system will help to 
create a framework for more timely and useful budget and other 
financial information, and enable the AOC to reduce duplicate data 
entry and data redundancy within its systems and financial processing, 
especially in the areas of funds control and accounts payable.
    In fiscal year 1998, the agency will strengthen the AOC financial 
organization, both in terms of personnel and operations. We are 
currently working with the General Accounting Office to prepare an 
implementation plan for installing a JFMIP-compliant Standard General 
Ledger (SGL) that seamlessly integrates with other AOC financial 
applications. Financial software currently available on Financial 
Management Services' (FMS) Financial Management Systems Software (FMSS) 
Schedule will be reviewed to ensure that a JFMIP-compliant SGL (and 
related contract support) is purchased by the AOC. In addition, the AOC 
will explore cross servicing possibilities. This plan will identify the 
need for necessary staff, contractor and vendor resources.
    Also, the agency will work with the current environment to employ 
more refined cost finding techniques for improved AOC project cost 
reporting and for improved AOC facilities management operational cost 
reporting.
    Question. In fiscal year 1998, $650,000 was provided for financial 
management. Please identify where those funds have been spent or are 
expected to be spent.
    Answer. Approximately half of the funds have been obligated for 
continued technical support by the vendor and creating a redundant 
environment for the Y2K compliant system. Technical support of the 
system will be shared by the existing AOC IRM staff once full 
transition of all applications off the Unisys mainframe is 
accomplished. The balance will be used to continue refining reports 
generated from the system as well as pursuing the installation of a 
Standard General Ledger.
    Question. The AOC budget request for fiscal year 1998 included a 
total cost of $1.650 million for an integrated management system 
(financial management system). The budget request for fiscal year 1999 
includes a total cost of $2.850 million for the same project. Please 
identify what has changed to increase the cost of this project.
    Answer. There are several reasons for the increase in the cost of 
the project. The interim Year 2000 fix for the core financial systems 
used in the agency temporarily delayed the development of IMS 
requirements. The agency has now presented to the GAO a draft 
accelerated implementation plan for adopting a JFMIP-compliant Standard 
General Ledger system that will lead to the ability to develop and 
audit financial statements. At the recommendation of several 
Legislative Branch agencies who had already gone through similar 
conversion processes, an additional year of implementation funding was 
reflected to provide sufficient resources to this effort. At the same 
time, the agency has accelerated its implementation of a computer-aided 
facility management system (CAFM). The complexity of capturing data 
from both financial and facility management systems and incorporating 
it into an overall Integrated Management System (IMS) led to an 
increased out-year support cost.
    Based on the pending recommendations from the GAO related to the 
implementation of an SGL, it is anticipated that the AOC will revise 
its initial implementation costs and out-year projections. These 
revised costs will be presented to the Committee as soon as possible.
                           year 2000 problem
    Question. What is your estimated total cost to address the year 
2000 problem? What has been spent to date, and what is requested in 
fiscal year 1999? What is your cost estimate beyond fiscal year 1999?
    Answer. The following table summarizes the estimated costs to date 
and beyond.

------------------------------------------------------------------------
                                 1997       1998       1999      Total
------------------------------------------------------------------------
IRM.........................  .........   $193,000   $100,000   $293,000
ENGR........................  .........     35,000  .........     35,000
ACCTG.......................   $112,500  .........  .........    112,500
SEN REST....................  .........     50,000  .........     50,000
TECH. SUPP..................  .........     30,000  .........     30,000
                             -------------------------------------------
      Totals................    112,500    308,000    100,000    520,500
------------------------------------------------------------------------

    The funding identified for fiscal years 1997, 1998 and 1999 are 
provided for in the base maintenance accounts.
                       GENERAL ACCOUNTING OFFICE

STATEMENT OF JAMES F. HINCHMAN, ACTING COMPTROLLER 
            GENERAL OF THE UNITED STATES
ACCOMPANIED BY:
        BRIAN P. CROWLEY, ASSISTANT COMPTROLLER GENERAL FOR PLANNING 
            AND REPORTING
        JOAN M. DODARO, ASSISTANT COMPTROLLER GENERAL FOR OPERATIONS
        RICHARD L. BROWN, CONTROLLER

                            opening remarks

    Senator Bennett. Our second witness is Mr. James Hinchman, 
the Acting Comptroller General. It is no criticism of Mr. 
Hinchman that he remains with that adjective.
    Mr. Hinchman. You are very kind, Mr. Chairman.
    Senator Bennett. Yes; I will say that over the last year 
this committee has had to look to GAO for expertise in a wide 
variety of areas just after this committee went through the 
process of cutting you back by 25 percent.
    For me, you have risen to the challenge extremely well, and 
I am very grateful to you personally and professionally for the 
way you have taken on this assignment, particularly with 
respect to the year 2000 problem.
    We continue to get in my other subcommittee chairmanship 
first-class work out of GAO with respect to the year 2000 
problem, and that is attributed, Mr. Hinchman, to you, and to 
the dedicated people who assist you, and I will be grateful if 
you would pass on to them my personal thanks for all they have 
done.
    Mr. Hinchman. Thank you, Mr. Chairman, I will be happy to 
do that. It is the greatest satisfaction of our work to know 
that. I appreciate that very much.
    Senator Bennett. Now, having said that, I will recognize 
Senator Dorgan to give a speech with which I will associate 
myself in advance.

                  need to appoint Comptroller General

    Senator Dorgan. Well, you may or may not. Mr. Chairman, let 
me just vent for a moment on this issue, and I will be very 
brief.
    Mr. Hinchman, I think, has done a remarkable job, and I 
have great respect for his work for the organization, the GAO. 
I think they serve Congress admirably, they do very 
professional work, and we could not do without them.
    The former Comptroller General, Charles Bowsher, left 19 
months ago. We knew 1 year before that exactly when he was 
going to leave, because his term was up and he was going to be 
gone. So for 2\1/2\ to 3 years we have known that we need a 
Comptroller General. Nineteen months after it became vacant, we 
do not have a Comptroller General.
    Mr. Hinchman is an awfully good leader, in my judgment, but 
he is not a Comptroller General, because he has not been 
appointed. It is outrageous, in my judgment, that we have not 
found a mechanism or some method to appoint a new Comptroller 
General.
    Let me just read the people who are supposed to be doing 
this, just so that we all understand: Speaker Gingrich, Senator 
Thurmond, Senator Lott, Senator Daschle, Congressman Armey, 
Congressman Gephardt, Senator Thompson, Senator Glenn, 
Congressman Burton, and Congressman Waxman. They comprise the 
commission that is responsible to develop the names to send to 
the President for this appointment.
    This commission, for whatever reason, has been unable to 
reach agreement. It is true that the vice chair and chair of 
the commission have now sent three names to the White House; it 
is not true that the commission has sent names to the White 
House, because they have been unable to agree.
    I am thinking of a couple of suggestions, which I will not 
offer today, but which I will intend to offer on the floor of 
the Senate either when this subcommittee sends the bill to the 
floor, or before.
    One is, perhaps if this commission is unworkable, and maybe 
19 months, or 29 months, demonstrates that, then we should 
abolish this commission, and say, If you cannot do your job, we 
will construct something that can do the job, so essentially 
firing the commission, or second, simply say that those who 
have not performed are not able to access information from the 
GAO until they do.
    Well, I say that, understanding that the chairman just said 
he has agreed with everything I will say, knowing that he 
likely would not want to join me in that recommendation, but--
[Laughter.]
    Senator Bennett. I will take it under serious 
consideration. [Laughter.]
    Senator Dorgan. I say to the leadership on both sides, who 
construct this commission, that they have a job to do. They 
have not done the job. It is embarrassing and it is outrageous. 
And in my judgment, it shortchanges a very important agency. 
This country deserves a Comptroller General. We ought to make 
this selection.
    There are men and women of great quality and high 
character, and men and women that are of great distinction who 
can become candidates for this, and among which we can select a 
Comptroller General. And maybe your names are among that list; 
I do not know.
    But look, my point is, I want this group to do its job, and 
if they will not do their job, I will recommend that we 
reconstitute a different commission with people who can do the 
job, and the sooner, the better.
    Having said that, Mr. Hinchman, again, you have done an 
excellent job, but we need whoever runs that organization to 
have the title Comptroller General, and the full force and 
authority of what that title implies.
    Senator Bennett. I agree with everything you say. We will 
take under consideration your proposal, and maybe the proposals 
that you and I get to pick it after 60 days, or some such 
number. [Laughter.]
    Mr. Hinchman, we are looking forward to hearing what you 
have to say.
    Mr. Hinchman. Thank you, Mr. Chairman. I have a prepared 
statement, with your permission I would like to summarize 
that----
    Senator Bennett. Absolutely.
    Mr. Hinchman [continuing]. And if that is acceptable, I 
would ask that the statement be put in the record.
    Senator Bennett. Without objection.

                          Statement highlights

    Mr. Hinchman. With me is Joan Dodaro, our Assistant 
Comptroller General for Operations, Brian Crowley, our 
Assistant Comptroller General for Planning and Reporting, and 
Dick Brown, our Controller.
    I have only one brief point to make. GAO's mission is 
service to the Congress. A year ago we told you that our 
overriding internal management goal was to stabilize the 
operations of our agency following our downsizing, so that we 
could create the environment in which we could recruit and 
retain the talented staff we need to fulfill that mission, and 
provide the organizational and support structures that they 
need to do that job successfully.
    I want to thank this committee for the $8.5 million 
increase which we received last year under your leadership. 
With those funds we have been able to pursue that mission of 
stabilization. In particular, we have instituted a limited 
hiring program to address our most acute staffing shortages and 
have also been able to begin modernization of our information 
technology infrastructure.
    Our budget request for this year continues that goal of 
stabilization. To pursue that goal, we are again seeking an 
increase in our budget. That increase would go for only three 
purposes. One-half of it would go to meet mandatory and price 
level increases we cannot control.
    The second part would go to pay for a portion of the cost 
of our information technology infrastructure modernization. 
That modernization, by the way, is critical to our plans for 
becoming year 2000 compliant. We are absorbing most of the cost 
of that modernization within our current funding level, but we 
do need some help.
    The third component would go for a staffing increase to 
help move us toward our goal of a 3,450 staff level. We 
established that goal when we began our downsizing. It 
represents a one-third reduction from our 5,300 level, which is 
where we were at the beginning of that downsizing. We are 
currently below that level, and it is becoming increasingly 
difficult for us to meet growing demands for work in some 
critical areas.
    You have already referred to the most critical of those. We 
have limited staff who can do the work we are trying to 
accomplish in the area of the year 2000 compliance, both within 
Government and our country as a whole. The demands for work in 
this area are growing daily.
    But there are other demand areas. We are being inundated 
with requests for work in the area of telecommunications 
policy, an area in which we have had little or no expertise 
since we began our downsizing. The demands for us to do work in 
the area of oversight of international and multinational 
organizations has also been growing over the last couple of 
years. We are facing exploding demands for work in the area of 
Medicare financing, particularly since the creation of the 
commission on the future of Medicare.
    We know that resources are limited, and we are doing 
everything that we can to control costs. For example, at your 
suggestion, we entered into a lease with the Army Corps of 
Engineers for one floor of our headquarters building so that we 
can reduce the cost of maintaining that facility. We are also 
working hard to improve productivity and, through process 
reengineering, have made significant gains in that area.
    But notwithstanding these efforts, if we are going to 
continue to be a strong and viable organization that can 
fulfill our mission of serving the Congress, we are going to 
again need an increase in our funding for the coming year. We 
are hopeful that it is going to be possible for us to get those 
funds.

                           prepared statement

    Thank you very much, Mr. Chairman. I would be happy to 
answer any questions you have.
    [The statement follows:]
                Prepared Statement of James F. Hinchman
    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to be here today to testify on the General Accounting 
Office's (GAO's) fiscal year 1999 budget request. GAO's request 
reflects a continuation of our effort to stabilize agency operations 
following our downsizing. This year, with the resources provided by 
this committee, we have begun taking the steps necessary to achieve 
this end. In particular, we have embarked on a major modernization of 
our information technology systems and normalization of our hiring, 
promotion, and employee recognition programs. Our 1999 request will 
enable GAO to sustain this effort and maintain its capacity to serve 
the Congress effectively.
            fiscal year 1997 accomplishments and highlights
    GAO is proud of its long tradition of service to the Congress and 
the contributions it has made toward improving federal government 
operations. The issues we examined during fiscal year 1997 spanned the 
breadth of national and international concerns, including aviation 
safety and security, financial management and accountability, health 
care financing, income security, information technology, national 
security, tax administration, and many others. Eighty-three percent of 
our work was done at the request of the Congress or in response to a 
statutory mandate.
    As a result of our audits and evaluations, the legislative and 
executive branches took actions last year resulting in financial 
benefits of nearly $21 billion--over $50 for every dollar that you 
appropriated to GAO. These actions included budget reductions, costs 
avoided, appropriation deferrals, and revenue enhancements that are 
directly attributable to or were significantly influenced by GAO's 
work. For example, the Congress and the Department of the Treasury 
reduced the Internal Revenue Service's proposed fiscal year 1997 tax 
systems modernization appropriation by a total of $514 million as a 
result of GAO reporting on problems associated with the modernization 
effort. As another example, the Congress terminated the Housing and 
Urban Development's mortgage assignment program after GAO found the 
program was not successful and was costly to run. The estimated 
benefits over 2 years are about $1.3 billion.
    We also had other findings and recommendations that resulted in or 
contributed to improvements in the effectiveness and efficiency of 
government operations and services that cannot be quantified in 
monetary terms. Their impact is nonetheless significant because they 
lead to a better-run, more streamlined government. For example, as a 
result of GAO's work, the Federal Aviation Administration has increased 
its inspections of foreign air carriers to ensure that they comply with 
international safety standards. In addition, to help ensure compliance 
with the Government Performance and Results Act, we issued a guide for 
the Congress and agencies to use in reviewing agency strategic plans 
and reported on agencies' progress in implementing the act. Past 
experience shows that about 75 percent of GAO's key recommendations 
usually are implemented within 4 years, through the passage of 
implementing legislation and agencies' corrective actions.
    Overall, we produced 1,337 audit and evaluation products during 
fiscal year 1997. These products included 975 reports to the Congress 
and agency officials, 149 formal congressional briefings, and 182 
congressional testimonies delivered by 65 GAO executives before 81 
congressional committees or subcommittees. We also provided 14 
statements for the record to congressional committees and 
subcommittees. In addition, we produced 2,386 legal decisions on 
matters involving government revenues and expenditures, such as 
protests against the award of federal government contracts.
    During fiscal year 1997, we undertook a wide range of initiatives 
aimed at making GAO more responsive to the Congress and enhancing the 
quality and timeliness of our products and the efficiency of our 
services, while also expanding staff capability and improving human 
resource management. In addition, we have further refined our quality 
control program to ensure that high-quality products are consistently 
produced and meet professional standards. We also fully implemented a 
reengineered job process management system that has increased the 
efficiency in which we conduct our reviews and the quality and 
timeliness of the products created. Compared to fiscal year 1996, the 
cost of our assignments in fiscal year 1997 was reduced by nearly 25 
percent and their duration by about 20 percent.
                    fiscal year 1999 budget request
    GAO's fiscal year 1999 request is necessary to maintain our 
capacity to serve the Congress effectively and to support our efforts 
to stabilize agency operations following our downsizing. We are asking 
that the committee consider a fiscal year 1999 budget of $369.7 
million. The increase included in this request is for three principal 
purposes: mandatory pay and benefits and uncontrollable costs 
increases; technology modernization and upgrades to replace outdated 
technology and ensure year 2000 compliance; and funding to move closer 
to our employment goal of 3,450.
    Mandatory pay and benefit increases are the most important and 
account for the largest part of our request. These increases are 
necessary to cover uncontrollable costs, such as cost-of-living, 
locality pay, and personnel benefits increases. GAO's staff, its most 
valuable resource, accounts for about 80 percent of its budget dollars. 
It is also important to offset other uncontrollable inflationary 
increases, such as the higher cost of contract services, travel, 
printing, supplies, and other mission essential support services. 
Without additional funding to cover these costs, our capacity to 
function effectively will be impaired.
    We need to continue efforts to modernize our technology to maintain 
the productivity and timeliness gains that such technology has thus far 
made possible. Investments required in fiscal year 1999 will replace 
outdated software and hardware and will ensure that GAO is year 2000 
compliant.
    This year, GAO has begun efforts to correct the skill imbalances 
resulting from our downsizing. Our recruiting plan calls for us to 
replace attrition and gradually move closer to the agreed upon 3,450 
employment level by the end of fiscal year 1999. We are requesting 
funds to provide for personnel compensation, benefits, and related 
costs to make this possible.
    GAO's fiscal year 1999 budget request does not include funding for 
the GAO headquarters building renovation program. Last year, at your 
request, we analyzed our facilities requirements to determine whether 
we could lease any excess space in our headquarters building and use 
the revenue generated from that lease to renovate the two remaining 
unrenovated floors and supporting infrastructure of the building. On 
the basis of that analysis, negotiations are now underway for the Army 
Corps of Engineers to lease the entire third floor of the building. 
This lease should provide the funds necessary to permit completion of 
our renovation program.
                           concluding remarks
    GAO's fiscal year 1999 budget request will position the agency to 
move into the 21st century with the staff, technology, facilities, and 
other resources needed to effectively and efficiently serve the 
Congress and to contribute to the improvement of government operations 
and services. The increase in our budget is essential to cover 
mandatory increases in people-related costs and inflationary increases 
in the prices of the goods and services we buy, continue GAO's efforts 
to upgrade its technology and information systems, ensure year 2000 
compliance, and stabilize GAO's workforce.
    This concludes my statement. I would be pleased to answer any 
questions the Members of the Subcommittee may have.

                          Year 2000 compliance

    Senator Bennett. Thank you. It will come as no surprise 
that with my dedication to the year 2000 issue I will do what I 
can to see to it that you do not get shortchanged there, 
because we repeat the obvious, we have no flexibility at the 
back end of that.
    Do you have a sense of the total cost it is going to take 
for your 2000 problems?
    Mr. Hinchman. I think the incremental cost above work that 
we would do anyway is about $500,000, it is not a large cost. 
This is principally because the biggest part of our compliance 
plan is the replacement of our personal computers, the hardware 
for the local area network, which links those computers, and 
replacement of the software that operates on those computers.
    We need to do this anyway to provide the level of 
information technology support which our staff needs; that has 
been the plan on which we have been working. Our current system 
is not year 2000 compliant, but the new one will be, and that 
is part of our information technology budget.
    But there are other things that we have to do as well. As 
you know, we need to repair other systems throughout our 
agency. We need to do some work with other agencies and provide 
for interfaces and data exchanges. In total, these efforts are 
going to cost us about $500,000.

                             Desktop video

    Senator Bennett. Last year you told us you were doing a 
pilot program on desktop video in the Seattle field office and 
in three sublocations. How did the pilot work out? Is it going 
to save you any money?
    Mr. Hinchman. The use of our video conferencing system 
continues to grow. I think there are going to be questions, but 
the use of those video systems is a success and has produced 
significant savings in our travel budget, in addition, of 
course, to staff time, which does not have to be spent on 
airplanes.
    Senator Bennett. Do you want to say anything specific about 
the desktop?
    Ms. Dodaro. The use of desktop video conferencing is 
inconclusive at this point. Video conferencing in and of 
itself, as Mr. Hinchman has said, has been very successful and 
has been saving money. We have not yet reached a conclusion on 
the desktop portion.
    Senator Bennett. So you have not decided----
    Ms. Dodaro. No.
    Senator Bennett [continuing]. That it does not work, and 
you----
    Ms. Dodaro. No; we have neither decided it is nor have we 
decided that it is not in any way appreciably better than our 
agency facilities, the broad facilities that we have rather 
than people having them locally at their desks.

                            Computer leasing

    Senator Bennett. OK. You have been very creative about 
leasing computers. Perhaps you could give us a comment about 
that as an example for other agencies who are facing similar 
kinds of problems.
    Mr. Hinchman. When we decided we had to embark on a 
replacement for our current computers, we, in consultation with 
experts in the field, concluded we needed to study whether it 
would be more cost efficient to buy new computers or lease 
them. I think that it is fair to say that virtually all of our 
consultants told us that the fiscally prudent thing to do is to 
lease those computers so that you can avoid the substantial 
investment in equipment that becomes obsolete so quickly.
    When we lease equipment, it continues to belong, obviously, 
to the lessor. When it becomes obsolete, it is the lessor's 
problem and not ours; and we are free to move on to new 
systems.
    As you know, Mr. Chairman, part of the reality of the 
information technology business today is that systems and the 
software that operates on them are changing so rapidly. It is 
very difficult to choose not to move with that change, because 
you quickly find yourself in a situation in which you cannot 
maintain your systems. After that study, we concluded that we 
needed to lease our new equipment, and that is what we are 
doing.
    Senator Bennett. I concluded with my family, I just do not 
need to buy it, it will be obsolete by the time we pay for it, 
so then I do not need to buy the next one, because it will be 
obsolete. My children disagree with that.

                     Additional committee questions

    Thank you very much. Again, Senator Dorgan's comments, as 
well as my own, demonstrate the confidence this subcommittee 
has in your stewardship, and our gratitude for all the work you 
are doing, and we will try to get a permanent title, either for 
you or somebody else, between now and the next time we meet.
    Mr. Hinchman. Thank you, Mr. Chairman.
    Senator Bennett. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]
                     Additional Committee Questions
    Question. Please update the Committee on the status of your Year 
2000 conversion plans.
    Answer. GAO has identified the Year 2000 problem as one of its most 
serious operational challenges and ranks its Year 2000 Compliance 
Project as the highest information technology priority. To date, GAO 
has developed a detailed Year 2000 plan that includes schedules for 
converting or replacing all mission critical systems that are Year 2000 
non-compliant. We have completed an agencywide inventory of 66 systems 
and identified 28 of those systems as mission critical. All mission 
critical systems have been assessed for Year 2000 compliance: 9 are 
compliant, 5 are being repaired, and 14 are to be replaced.
    The main component of GAO's effort to repair or replace non-
compliant systems is its long-planned technology modernization project. 
GAO plans to repair or replace all of the non-compliant systems well 
before the Year 2000.
    Other Year 2000 actions that GAO has taken include the 
identification of all data exchanges and development of data exchange 
agreements and plans for making external systems compliant. We have 
also documented a Year 2000 test strategy, which includes approaches 
for testing network-based applications and corporate information 
systems, such as payroll and personnel systems run at the National 
Finance Center. In addition, we have begun developing contingency plans 
to ensure continuing core business operations in the event of Year 
2000-induced failures.
    Question. What did GAO spend in fiscal year 1997 for information 
technology, and what do you plan to spend in fiscal years 1998 and 
1999?
    Answer. Our information technology budget funds a variety of 
services underlying agency operations including mainframe computing 
services, data and voice communications, video conferencing services, 
network customer support, and maintenance and support for hardware and 
software. In fiscal year 1997, GAO spent $21.9 million on information 
technology (IT). The current estimate for IT spending is $26.4 million 
for fiscal year 1998 and $27.8 million for fiscal year 1999.
    GAO requested a $1.4 million increase in its technology budget for 
fiscal year 1999, as part of continuing its technology modernization 
project to replace outdated hardware and software and to ensure GAO is 
Year 2000 compliant. The hardware and software replacements are for 
GAO's existing information and communications infrastructure and are 
needed to support the new workstation and network platforms to which 
the agency is migrating. A very small amount will be used to fund 
development efforts for GAO's mission tracking (audit work) systems.
    Question. GAO cut 25 percent from its budget and reduced staff by 
33 percent between fiscal years 1996 and 1997. The stabilization level 
established at the beginning of the downsizing was 3,450 FTE's. GAO 
effectively downsized and has operated with increased productivity 
levels since fiscal year 1997. Given this experience, is 3,450 FTE's 
the optimal level for GAO to serve Congress' needs?
    Answer. At this point in time, GAO believes that 3,450 FTE's will 
enable it to meet Congress' current needs. In fiscal year 1997, GAO 
completed its downsizing efforts that began in fiscal year 1992 with a 
GAO-wide hiring freeze. By the beginning of fiscal year 1997, GAO's 
staffing had declined almost 35 percent from a 1992 level of 5,325 to 
its planned stabilization level of 3,500 staff (3,450 FTE's). Since 
then, higher than normal attrition has further reduced GAO staffing and 
caused staff shortages in critical program areas, such as financial 
auditing, information management, telecommunications' infrastructure, 
and Medicare and Commerce-related issues.
    In fiscal year 1998, GAO began implementing a recruiting plan to 
replace attrition, correct the skills imbalance resulting from our 
downsizing, and gradually rebuild to the 3,450 employment goal. GAO is 
concerned about its ability to quickly respond to Congressional needs 
in critical areas if unable to implement this recruiting plan.
    Question. What is your estimated total cost to address the Year 
2000 problem? What has been spent to date, and what is requested in 
your fiscal year 1999 budget? What is your cost estimate beyond fiscal 
year 1999?
    Answer. Many of GAO's Year 2000 issues are being corrected through 
its long-planned technology modernization project. This project is 
replacing obsolete hardware and software and providing additional 
capacity that would have been done regardless of Year 2000 issues. 
Without the resources needed to implement the modernization project, 
GAO will not be Year 2000 compliant.
    In addition to the modernization project that indirectly addresses 
most Year 2000 issues, GAO estimates that about $500,000 will be spent 
directly for Year 2000 efforts related to upgrades/fixes for its 
Financial Management System and a number of small database system, and 
the replacement of voice mail processing systems. Of the $500,000, 
$33,000 was spent in fiscal year 1997, while the remainder will be 
spent in fiscal year 1998. There are no funds included in the fiscal 
year 1999 budget, nor are there costs estimated beyond fiscal year 1999 
that are directly attributable to correcting Year 2000 issues.
    Question. What are the highest risk areas confronting GAO in 
completing its Year 2000 program on time?
    Answer. GAO believes the highest risk to timely completion of its 
Year 2000 Project is with major systems that are outside of GAO's 
direct control and that GAO relies on to carry out its functions. These 
major systems include the pay computation and EFT systems; 
telecommunications carriers that provide nationwide communications for 
GAO's data, voice and video systems; and infrastructure utilities that 
support our facilities--electrical, power, and water.
                                 ______
                                 
              Questions Submitted by Senator Byron Dorgan
    Question. As you are aware, a provision was included in the Fiscal 
Year 1998 Treasury and General Government Appropriations Act, which 
allows a six-month ``open-season'' for Federal employees who wish to 
switch their retirement system from CSRS to FERS. I believe the 
chairman of the committee was the sponsor of that amendment, and I 
believe its purpose was to allow those who might somehow be 
disadvantaged under CSRS to switch to FERS during this six-month window 
this year. As I understand it, this could amount to a substantial cost 
for large agencies and departments of the Federal government.
    Do you have any ideas as to the number of GAO personnel who, at the 
present time, are under CSRS and who might take this opportunity to 
change to the FERS system?
    What would be the cost, if any, to your budget for any employee who 
did so, and what would be the total anticipated cost?
    Answer. GAO projects that at July 1, 1998, the beginning of the 6-
month ``open-season'' period, it will have 1,880 employees covered 
under the CSRS retirement system who could switch to the FERS system. 
It is difficult to predict how many employees will switch when provided 
the opportunity.
    Currently, GAO's contribution towards Medicare and retirement 
benefits for an employee who participates in the CSRS retirement system 
is about 10 percent of the employee's annual salary. GAO's contribution 
towards social security and retirement benefits for an employee in FERS 
is about 23 percent of the employee's annual salary. Therefore, the 
additional cost to GAO for any employee who switches from CSRS to FERS 
could be about 13 percent of their salary. The actual cost per employee 
will depend upon the employee's actual earnings and level of 
participation in the Thrift Savings Plan.
    To estimate the potential cost impact to GAO of the ``open-
season'', GAO has developed estimates assuming that 5, 10, or 20 
percent of the eligible employees would transfer from CSRS to FERS. 
GAO's estimate of the number of employees and the related cost impact 
under these assumptions are shown in the following table. At the time 
GAO's fiscal year 1999 budget request was submitted, the President's 
veto of the open season provision had not been set aside. GAO's fiscal 
year 1999 budget request, therefore, does not include any funds to 
cover this potential cost increase.

ESTIMATED COST INCREASE IF GAO EMPLOYEES SWITCH FROM CSRS TO FERS DURING
                   JULY-DECEMBER 1998 ``OPEN SEASON''
------------------------------------------------------------------------
                                       If 5        If 10        If 20
                                    percent of   percent of   percent of
                                     eligible     eligible     eligible
                                      staff        staff        staff
                                      switch       switch       switch
------------------------------------------------------------------------
Estimated number of staff                   94          189          375
 transferring from CSRS to FERS..
Annual cost increase beginning in     $790,024   $1,595,186   $3,163,950
 fiscal year 1999 \1\............
------------------------------------------------------------------------
\1\ Cost estimate assumes that eligible employees have transferred from
  CSRS to FERS by the beginning of the fiscal year.

                       GOVERNMENT PRINTING OFFICE

STATEMENT OF MICHAEL F. DIMARIO, PUBLIC PRINTER
ACCOMPANIED BY:
        ROBERT MANSKER, DEPUTY PUBLIC PRINTER
        FRAN BUCKLEY, SUPERINTENDENT OF DOCUMENTS
        WILLIAM M. GUY, BUDGET OFFICER

                           Opening statement

    Senator Bennett. Our third witness is the Honorable Michael 
DiMario, the Public Printer, representing the Government 
Printing Office [GPO].
    Mr. DiMario. Good morning, Mr. Chairman.
    Senator Bennett. Good morning. In the last year there have 
been some large projects involving the Government Printing 
Office that I trust you will hear about. GAO has been 
coordinating a management review, which is not before us, but I 
understand will be completed shortly.
    The Joint Committee on Printing has been working on title 
44 legislation, expected to be introduced in a few weeks, which 
will also affect your lives in a variety of ways. So we look 
forward to hearing your testimony.
    Mr. DiMario. Thank you, Mr. Chairman. Mr. Chairman and 
members of the subcommittee, thank you for inviting me to be 
with you this morning to present the funding requirements of 
the Government Printing Office for fiscal year 1999. With me 
are my Deputy Public Printer, Bob Mansker, to my right; the 
Superintendent of Documents, Fran Buckley, to my left; and my 
Budget Officer, Bill Guy, also to my right.
    Both Bob Mansker and Fran Buckley are newcomers to GPO, Bob 
spent many years as a staff member of the House, and later on 
the Joint Committee on Printing. Fran comes from the library 
community, where he was associate director of the Detroit 
Public Library, and later director of the Shaker Heights Public 
Library.
    I am extremely happy to have them onboard at GPO, and I 
believe that they will be a real asset in our day-to-day 
dealings with both Congress and the public.
    In the interest of time, I will summarize my prepared 
statement, which I have submitted for the record.
    Senator Bennett. Without objection, it will be printed.

                       Public Printer's statement

    Mr. DiMario. For fiscal year 1999 we are requesting a total 
of $114.2 million for those programs that require 
appropriations directly through GPO. The request includes $84 
million for the congressional printing and binding 
appropriation, and $30.2 million for the salaries and expenses 
appropriation for the Superintendent of Documents. This is an 
increase of $3.5 million, or about 3.1 percent, over the level 
of funding approved for fiscal year 1998, including the one-
time transfer of approximately $11 million from our revolving 
fund to the congressional printing and binding appropriation.
    The congressional printing and binding appropriation is 
critical to the maintenance and operation of our in-plant 
capacity, which is structured to serve the information product 
needs of the legislative process in Congress. The majority of 
the Superintendent of Documents salaries and expenses 
appropriation is for the depository library program.
    While some of the funding for this program is for salaries 
and benefits, most is for producing and disseminating 
publications to depository libraries, including publications in 
CD-ROM's and online formats.
    This appropriation also provides the majority of the 
funding for the operation of GPO Access, which is the basis for 
our ability to transition the depository program to an 
electronic future.
    We are cooperating with the General Accounting Office in 
its efforts to assess the status of year 2000 readiness in all 
legislative branch agencies following your direction, Mr. 
Chairman. Our proposal to bring our mainframe operating system 
into year 2000 compliance has been approved. We have formed an 
internal year 2000 program management office to work with GAO, 
and have appointed year 2000 coordinators throughout GPO.
    We are undertaking efforts to convert, replace, or retire 
existing systems to ensure that they are year 2000 compliant, 
and we are assuring that all ongoing and planned improvements 
to our computer systems are year 2000 compliant. We are 
confident that the steps we are taking now will ensure the 
continuity of product and service provision to Congress, 
Federal agencies, and the public.

                           prepared statement

    Mr. Chairman, this concludes my opening statement, and I 
will be happy to answer any questions you may have.
    [The statement follows:]
                Prepared Statement of Michael F. DiMario
    Mr. Chairman and Members of the Subcommittee, I am pleased to be 
here today to present the funding requirements of the Government 
Printing Office (GPO) for fiscal year 1999.
                       gpo keeps america informed
    An abiding commitment to public access to Government information is 
deeply rooted in our system of Government. GPO is one of the most 
visible demonstrations of that commitment. For more than a century, our 
mission under the public printing and documents statutes of Title 44, 
U.S. Code, has been to fulfill the needs of the Federal Government for 
information products and to distribute those products to the public.
    Formerly, GPO's mission was accomplished through the production and 
procurement of traditional printing technologies. However, a generation 
ago we began migrating our processes to electronic technologies, and in 
1993 Congress amended Title 44 with the GPO Electronic Information 
Access Enhancement Act (Public Law 103-40), which requires us to 
disseminate Government information products online. This Act is the 
basis of GPO Access, our Internet information service.
    Today, GPO is dedicated to producing, procuring, and disseminating 
Government information products in a wide range of formats--print, CD-
ROM, and online. In GPO the Government has a unique asset that combines 
a comprehensive range of conventional production and electronic 
processing, procurement facilitation, and multi-format dissemination 
capabilities to support the information life cycle needs of Congress, 
Federal agencies, and the public:
  --We provide print and electronic information products and services 
        to Congress and Federal agencies through inplant processes and 
        the purchase of information products from the private sector. 
        For Congress, we maintain a capability to fully support the 
        information product needs of the legislative process, working 
        in close cooperation with leadership offices, committees, 
        Members, and staffs in each Chamber.
  --We disseminate Government information to the public in print and 
        electronic formats through a low-priced sales program and a 
        reimbursable program, and to Federal depository libraries 
        nationwide where the information may be used by the public free 
        of charge. We catalog and index Government information products 
        so they can be identified and retrieved by users.
  --We also disseminate a massive volume of information online via the 
        Internet with GPO Access. Recent data show that more than 10.5 
        million documents are retrieved by the public every month using 
        this system. We strongly support the increased dissemination of 
        Government information in electronic formats, and GPO Access 
        today is one of the leading Federal sites on the Internet. Our 
        home page, at www.access.gpo.gov, provides free public access 
        to more than 70 Federal databases from all three branches of 
        the Government, a growing number of agency Government 
        Information Locator Service (GILS) sites, and associated 
        locator and Pathway aids.
    We provide all of our services in a non-partisan, service-oriented 
environment that emphasizes the primacy of the customer's requirements 
for timeliness, quality, security, and economy. We are committed to 
achieving the greatest access and equity in information dissemination 
through printed publications, CD-ROM, and online information 
technologies. Our electronic and traditional technologies 
simultaneously enable us to facilitate the re-engineering of 
information products to satisfy the Government's changing information 
requirements, and to preserve and protect public access to Government 
information for all of our citizens.
    At the bottom line, our programs reduce the need for duplicative 
production facilities throughout the Government, achieve significant 
taxpayer savings through a centralized production and procurement 
system, and enhance public access to Government information, which is 
increasingly valuable to all Americans in the Information Age.
    More than a century ago, Congress in its wisdom designed a system 
in GPO for keeping America informed. That system continues to serve a 
vital purpose today.
                fiscal year 1999 appropriations request
    For fiscal year 1999, we are requesting $114.2 million for those 
programs that require annual appropriations directly to GPO. The 
request includes $84 million for the Congressional Printing and Binding 
Appropriation and $30.2 million for the Salaries and Expenses 
Appropriation of the Superintendent of Documents.
    Our total request is an increase of $3.5 million, or 3.1 percent, 
over the level of funding approved for fiscal year 1998. Our fiscal 
year 1998 funding includes a one-time transfer of approximately $11 
million from our revolving fund to the Congressional Printing and 
Binding Appropriation. As our budget submission shows on pages I-2 and 
I-3, GPO's appropriations have remained relatively stable for several 
years (in fact, declining by 7 percent from fiscal year 1993 through 
fiscal year 1998), and have declined substantially in real purchasing 
power.
    The Congressional Printing and Binding Appropriation is critical to 
the maintenance and operation of our inplant capacity, which is 
structured to serve Congress' information product needs. The 
appropriation covers the costs of congressional printing such as the 
Congressional Record, bills, reports, hearings, documents, and other 
products. Each year, a substantial volume of this work is 
requisitioned. In fiscal year 1997, more than 1.3 billion copy pages of 
congressional products were produced at an average cost of less than 4 
cents per page, inclusive of all prepress work, printing, binding, and 
delivery. This appropriation also covers database preparation work on 
congressional publications disseminated online via GPO Access.
    The majority of the Superintendent of Documents Salaries and 
Expenses Appropriation is for the Federal Depository Library Program 
(FDLP). While some of the funding for this program is for salaries and 
benefits, most is for printing and distributing publications (including 
publications in CD-ROM and online formats) to depository libraries. 
This appropriation also provides the majority of funding for the 
operation of GPO Access.
            congressional printing and binding appropriation
    Our request of $84 million for the Congressional Printing and 
Binding Appropriation is an increase of $2.3 million, or 2.9 percent, 
over the total amount approved for fiscal year 1998, which includes the 
transfer from the revolving fund. The items covered by the request are 
as follows:

                        [In millions of dollars]

                                                               Estimated
        Category                                             Requirement

Committee hearings................................................  19.7
Congressional Record (including the online Record, the Index, and 
    the bound Record).............................................  18.8
Miscellaneous Printing and Binding (including letterheads, 
    envelopes, blank paper, and other products)...................  15.4
Bills, resolutions, amendments....................................  12.8
Miscellaneous Publications (including the Congressional Directory, 
    the U.S. Code, and serial sets)...............................   5.2
Committee Reports.................................................   3.2
Business and Committee Calendars..................................   2.0
Documents.........................................................   2.0
Details to Congress...............................................   1.8
Committee Prints..................................................   1.6
Document Envelopes and Franks.....................................   1.5
                        -----------------------------------------------------------------
                        ________________________________________________
      Total.......................................................  84.0

    Product prices are anticipated to increase by approximately 4.7 
percent overall due to the increased costs of employee compensation and 
benefits, utilities, maintenance, materials, and supplies. We are 
continuing to work to reduce these costs with savings from 
technological improvements and adjustments to staffing requirements.
    The impact of price increases will be offset by a 1.8 percent 
reduction overall resulting from decreased workload volume in several 
product categories. Based on historical data, in the first session of 
the 106th Congress we expect to see decreases in workload for the 
Congressional Record, business and committee calendars, details to 
Congress, document envelopes and franks, committee prints, hearings, 
and documents. Historical data suggest there will be increases in 
miscellaneous publications (because of the production of the 
Congressional Directory and other publications for the new Congress), 
miscellaneous printing and binding, bills, resolutions, and amendments, 
and committee reports. While these estimates are based only on 
historical factors and represent our best estimates as to the projected 
workload for the first session of the 106th Congress, actual workload 
may vary.
    We have been participating with both the House and the Senate in 
the development of new legislative information systems that will expand 
the capability to create and utilize electronic information products in 
Congress and potentially reduce GPO's printing costs. One objective of 
these systems is the adoption of Standard Generalized Markup Language 
(SGML) to permit the submission of machine-readable keystrokes 
requiring less processing by GPO prior to final production. We support 
initiatives in both Chambers to facilitate the sharing of information. 
In addition, we are now placing all Senate Appropriations Committee 
hearings online.
                  salaries and expenses appropriation
    Our request of $30.2 million for the Salaries and Expenses 
Appropriation of the Superintendent of Documents is an increase of $1.1 
million, or 3.9 percent, over the amount approved for fiscal year 1998. 
The increase is due to increases in mandatory pay and related costs, 
price level changes, and workload changes. The component programs 
covered by the request are as follows:

                        [In millions of dollars]

                                                               Estimated
        Program                                             Requirements

Federal Depository Library Program................................  25.8
Cataloging and Indexing Program...................................   3.5
International Exchange Program....................................    .5
By-Law Distribution Program.......................................    .4
                        -----------------------------------------------------------------
                        ________________________________________________
      Total.......................................................  30.2

    Price level changes and cost increases due to pay raises and 
related expenses represent $818,000, or about 73 percent of the 
requested increase of $1.1 million. The majority of this amount, 
$570,000, is for price level changes calculated at the assumed rate of 
inflation for the year, or 2.6 percent. Approximately $225,000 is for 
enhancements to GPO Access to facilitate the continuing transition of 
the FDLP to a predominantly electronic basis. The balance is for 
capital expenditures for GPO's Library Programs Service.
    We are requesting the Appropriations Committees to increase the 
statutory limitation on travel expenses under the Salaries and Expenses 
Appropriation from $150,000 to $180,000, in order to fund increased 
travel for depository library outreach, including instruction and 
training on the use of GPO Access.
                       bound congressional record
    House Report 104-657, accompanying H.R. 3754, the Legislative 
Branch Appropriations Act for 1997, directed GPO to reduce the 
distribution of paper copies of the bound Congressional Record 
beginning with the 105th Congress, and to produce a new CD-ROM format 
for this publication. A total of $100,000 was earmarked for the fiscal 
year 1997 Congressional Printing and Binding Appropriation for a more 
limited number of printed copies of the bound Record to be distributed 
at the direction of the Joint Committee on Printing (JCP).
    The JCP has directed the distribution of about 205 sets of the 
bound Record to be funded from GPO appropriations, estimated to cost 
about $313,000. This includes $179,000 from the Congressional Printing 
and Binding Appropriation and $134,000 from the Salaries and Expenses 
Appropriation. In addition, we estimate that about 190 sets will be 
ordered and paid for by other Federal agencies and the public. 
Consistent with the direction of House Report 104-657, we plan to 
produce the sets on demand from an electronic database utilizing high-
speed reproduction technology. This strategy will produce the 
relatively small number of copies required at a much greater savings. 
We have received the approval of the House Subcommittee on Legislative 
Appropriations to spend an additional $79,000 from our fiscal year 1997 
Congressional Printing and Binding Appropriation and $134,000 from the 
Salaries and Expenses Appropriation for this purpose. Sufficient funds 
are available for this purpose.
                       congressional serial sets
    House Report 104-657 also directed us to reduce the production and 
distribution of bound Congressional Serial Sets beginning with the 
105th Congress. The direction was to convert most sets to CD-ROM format 
and to limit the distribution of bound sets to regional depository 
libraries, plus one depository in each state without a designated 
regional depository (including the District of Columbia), and to 
international exchange libraries.
    We formulated a plan for the implementation of this directive that 
subsequently was approved by the JCP. The bound Serial Set will be 
distributed to all designated regional depository libraries and one 
library in each of seven states that do not have a designated regional 
depository. In addition, the international exchange libraries, the 
Library of Congress, the National Archives Library, the Senate Library, 
the House Library, and the Public Documents Library Collection (now 
housed within the National Archives and Records Administration) will 
continue to receive bound versions of the Serial Set. An estimated 105 
copies of each volume of the set will be produced and distributed to 
these recipients. This quantity is 344 copies less per volume than was 
distributed prior to the 105th Congress (a total of 128 volumes are 
estimated for a Serial Set for an entire Congress).
    The Superintendent of Documents has surveyed depository libraries 
to allow them the opportunity to add the initial slip distribution of 
the documents and reports of the 105th Congress in paper format, since 
the bound Serial Set will not be an option for most of them. In 
addition, we have accepted the suggestion of the Government Documents 
Roundtable of the American Library Association to make available copies 
of the Serial Set title pages (including the contents listing for each 
volume) to depository libraries that request them. We are also offering 
the bound Serial Set for the 105th Congress for sale through the 
Superintendent of Documents sales program.
    At this time, it is not possible to create a complete electronic 
Serial Set with all the requisite capabilities, since many documents 
and reports are not currently available electronically and are too 
graphically intense to convert to an electronic format. We will work 
with the Clerk of the House of Representatives and the Secretary of the 
Senate, as well as ongoing efforts associated with information systems 
planning in both Chambers, toward the eventual production of a complete 
electronic Serial Set.
              transitioning the depository library program
    We are continuing to transition the FDLP to a predominately 
electronic basis, as directed by the Legislative Branch Appropriations 
Act for 1996, and as set forth in the plans contained in the Study to 
Identify Measures Necessary for a Successful Transition to a More 
Electronic Federal Depository Library Program (June 1996). The 
transition process was estimated to require from five to seven years 
beginning in fiscal year 1996. The transition includes the 
dissemination of both tangible electronic Government information 
products, such as CD-ROM's, as well as online databases and locator 
services provided via GPO Access, our online Internet service. GPO 
Access is the principal delivery vehicle for online Government 
information to depository libraries and the public. Current trends 
indicate that online formats will eventually be the dominant means of 
electronic dissemination.
    A key highlight of the transition process this past year was the 
development of the ``collection management'' concept for GPO Access, 
which establishes that we will manage the various electronic Government 
information products made permanently accessible via GPO Access as a 
library-like collection. This concept will consist of four elements: 
(1) core legislative and regulatory GPO Access products that will 
reside permanently on GPO servers; (2) other remotely accessible 
products either maintained by GPO or other institutions with which GPO 
has established formal agreements; (3) the tangible electronic 
Government information products distributed to Federal depository 
libraries; and (4) remotely accessible electronic Government 
information products which GPO identifies, describes and links to but 
which remain under the control of the originating agencies. Portions of 
the collection, other than the core legislative and regulatory GPO 
Access products, may be maintained at partner institutions, including 
other Federal agencies, depository libraries, consortia, or other 
institutions.
    In 1997, we established the first partnerships under the collection 
concept with the University of Illinois-Chicago, the University of 
North Texas, and the Online Computer Library Center (OCLC) Inc., to 
handle permanent public access to databases originating with the State 
Department, the now-defunct Office of Technology Assessment, and the 
Education Department, respectively. We have also developed a 
partnership with the Department of Energy for the electronic 
dissemination of its reports in image format. In a related effort, we 
are piloting a project with the National Technical Information Service 
(NTIS) of the Commerce Department to make available certain NTIS image 
files to depository libraries.
                             revolving fund
    Operation of the Revolving Fund.--Instead of receiving direct 
appropriations to cover the cost of the products and services GPO 
provides, our revolving fund accepts reimbursements from other 
appropriations and the public that place orders for GPO products and 
services. The fund pays for work performed prior to receiving 
reimbursement from the customer. The fund must have sufficient cash to 
pay private sector printers and GPO operating expenses prior to 
receiving reimbursement from the ordering agencies or the public. In 
the case of the sales program, the fund purchases copies of 
publications for the sales inventory and receives payment when the 
publications are sold. The fund also makes expenditures for equipment 
and other capital improvements. The cost of capital improvements is 
reimbursed gradually to the fund over their useful lives from the 
benefiting customers. The four programs financed through the revolving 
fund are plant printing, printing procurement, sales of publications, 
and agency distribution services. The Congressional Printing and 
Binding Appropriation is used to reimburse the fund for the cost of 
services provided to Congress. The Salaries and Expenses Appropriation 
of the Superintendent of Documents is used to reimburse the fund for 
the cost of services provided in the distribution of publications as 
required by law.
    Fiscal Year 1997 Financial Performance.--We are pleased to report 
that GPO's revolving fund generated consolidated net income from 
continuing operations of $11.6 million for fiscal year 1997, compared 
with a loss of $16.9 million for fiscal year 1996. However, the 
Department of Labor (DOL) has revised its estimate of GPO's long-term 
liability for workers' compensation, which could cause an increase of 
$23.9 million in accrued expenses for fiscal year 1997. We have 
requested a clarification of this estimate from DOL. In addition, the 
General Accounting Office has stated, in decision B-259508 (April 4, 
1996), that GPO, pursuant to section 8147c of Title 5, U.S.C., is not 
required to pay an additional fee to the DOL's Office of Workers' 
Compensation Programs (OWCP) to cover its administrative costs. We have 
been seeking to obtain a refund of the amounts erroneously collected by 
the OWCP.
    DOD Payment Issues.--We have been experiencing payment problems 
with one of our largest customer agencies, the Defense Department. In 
our view, these problems stem largely from the creation of the Defense 
Printing Service, now known as the Defense Automated Printing Service 
(DAPS). At the end of fiscal year 1992, GPO's accounts receivable from 
DOD were about $32 million. Unpaid DOD invoices over 60 days old 
amounted to about $9 million, or 28 percent of the total. Since 1993, 
total receivables and delinquencies from DOD have been increasing. As 
of December 31, 1997, total DOD receivables reached $52.7 million with 
unpaid invoices over 60 days amounting to $24.3 million, or 46 percent. 
Since then we have received several payments from DOD, reducing their 
receivables to approximately $37 million. Although we have made several 
changes to our accounting system to assist DOD in improving their 
payment record, none of these initiatives has been fully implemented by 
DOD. DOD's payment record is directly impacting our cash flow and 
creating the prospect of a cash shortage in our revolving fund. In an 
effort to streamline the accounting practices at DOD and end the late 
payment problems, GPO has developed an automated deposit account system 
that virtually eliminates GPO invoices. If DOD would use deposit 
accounts, it would save the taxpayers millions of dollars annually.
    GAO Management Audit.--We are currently cooperating within the GPO 
management audit ordered by Congress in House Report 105-254, 
accompanying H.R. 2209, the Legislative Branch Appropriations Act for 
1998. The audit is being conducted by Booz-Allen & Hamilton, Inc., 
under contract with the General Accounting Office. We have also 
implemented reforms to our sales program to assure that all disposals 
of excess stock comply with established guidelines.
    Year 2000 Compliance.--We are cooperating with the General 
Accounting Office in its efforts to assess the status of year 2000 
readiness in all legislative branch agencies, following the direction 
of the Chairman of this Subcommittee in a letter dated October 30, 
1997. Our proposal to the JCP to bring our mainframe operating system 
into year 2000 compliance has been approved. We have formed an internal 
year 2000 program management office to work with the GAO, and have 
appointed year 2000 coordinators throughout GPO. We are continuing to 
conduct a review of all GPO computer systems to determine which systems 
will be converted, replaced, or retired. We estimate that the total 
cost of assuring year 2000 compliance at GPO, including the cost of all 
associated computer improvements that are either ongoing or planned--
and which also must be year 2000 compliant--will be $8 million this 
fiscal year and $4 million in fiscal year 1999. These costs will be 
financed through our revolving fund. We are confident that the steps we 
are taking now will ensure the continuity of product and service 
provision to Congress, Federal agencies, and the public.
    Future Capital Expenditure Requirements.--Capital expenditures for 
major building repairs and maintenance, information systems, and 
production equipment will be a considerable drain on the revolving 
fund. GPO's buildings are old and require substantial maintenance. 
These services are not provided by the Architect of the Capitol but are 
financed by GPO. Over the next two years, necessary capital investments 
include about $6 million for replacement of air conditioning equipment. 
Elevator, roof, and electrical systems need repair, which will cost 
additional millions of dollars over the next few years. Information 
systems also account for major capital investment requirements. This 
year we will be implementing an information processing system for the 
Superintendent of Documents, at a cost of about $10 million. We will 
replace our mainframe computer with an enterprise server that will be 
year 2000 compliant, at a cost of about $1.8 million. As noted above, 
other significant expenditures will be required to bring all GPO 
computers and software into compliance with year 2000 requirements. 
Production equipment requirements include $1.6 million for computer-to-
plate systems and $3.6 million for a passport printing and binding 
line. These expenditures will have to be funded either through GPO's 
revolving fund or through an alternative mechanism such as a line item 
appropriation, which was how GPO's air conditioning improvements during 
the 1970's were funded.
    Statutory FTE Limitation.--For fiscal year 1999, we are requesting 
the deletion of the statutory limitation on our full-time equivalent 
employment (FTE's). GPO has reduced employment by more than 25 percent 
since early 1993. This reduction was accomplished through attrition and 
successfully lowered our costs while preventing interruptions in 
service to Congress, Federal agencies, and the public. However, some 
critical GPO areas, including those that serve Congress, are now fully 
reduced and cannot withstand further reductions without impairing 
performance and service provision. GPO is now at its lowest employment 
level in this century. Allowing us to manage our FTE resources within 
the constraints of our available funding, rather than under a statutory 
limit, will give us the flexibility necessary to continue providing 
essential services.
    Mr. Chairman and Members of the Subcommittee, this concludes my 
prepared statement. I would be pleased to answer any questions you may 
have.

                             Revolving fund

    Senator Bennett. Thank you. Did GPO report losses in fiscal 
year 1997, and do you estimate any for fiscal year 1998?
    Mr. DiMario. We did report losses in fiscal year 1997, as a 
result of a recalculation that was done of obligations to the 
Department of Labor, and I think Mr. Guy may be able to speak 
more specifically to those.
    Mr. Guy. In fiscal year 1997, the Department of Labor 
indicated that we should increase our liability under workers 
compensation by about $25 million. If we have to do that, and 
we are looking at that very carefully, then that may cause us 
to have to report a loss in 1997. If we do not have to increase 
our liability by that magnitude, then we would not be reporting 
a loss for 1997. As far as this year, we have lost some money 
in the revolving fund, to date. We are hoping that we can turn 
that situation around.
    Senator Bennett. Let me go back to the $25 million. Is that 
a one-time hit, or is that an indication you have to adjust 
your allocation for the liability for all future years?
    Mr. Guy. It is an adjustment of our estimated liability in 
the future. The annual amount that we pay is about $6 million a 
year, and we have already established a future liability of 
about $25 million. The Department of Labor has given us figures 
saying that we need to double that estimate of our future 
liability.
    Senator Bennett. But I am still not understanding. Can you 
get to the future liability of, say, $50 million, total, 
assuming they are correct, and I understand you are challenging 
their number----
    Mr. Guy. Yes, sir.
    Senator Bennett. Let us assume for a moment they are 
correct with the $50 million number, can you get there with a 
one-time hit of $25 million, or are you saying you are going to 
spread the $25 million out over a number of fiscal years, so 
there will be, say, a $4 million hit for 1997, and so on, until 
you get----
    Mr. Guy. That is correct. We would actually pay it on a 
cash outlay basis over a number of years into the future, but 
they are telling us to recognize that liability now. It is a 
change in estimate at this time, but we would be able to pay it 
out over----
    Senator Bennett. On your books, do you have it reserved for 
the liability?
    Mr. Guy. We do not have a cash reserve for it, no, sir. It 
would have to be paid out of available revolving fund cash. We 
have reported so far a $25 million liability, and we have taken 
that out of fund equity, as we report it.
    Senator Bennett. Do you have an existing $25 million----
    Mr. DiMario. Yes, sir; our revolving fund has a substantial 
amount of assets. Against the total value of the revolving fund 
we have certain obligations that are booked against it. The $25 
million is among those obligations. The total revolving fund 
assets includes a cash balance in Treasury, like a bank 
account. There are limits to the amount of available cash that 
we have. The fund is used to pay our contractors and others 
before we get reimbursed for the work from the agencies.
    Senator Bennett. I understand that.
    Mr. DiMario. I think the answer is, in my mind at least, 
there is not a specific cash reserve for the Department of 
Labor issue, but we do have sufficient resources in the 
revolving fund for that obligation.
    Senator Bennett. Well, let me understand it. I do not mean 
to get into arcane issues of accounting.
    Mr. DiMario. Well, our accountant----
    Senator Bennett. But how big is the amount of cash in your 
revolving fund?
    Mr. Guy. We have a cash balance of about $75 million.
    Senator Bennett. OK. Now, what portion of that is 
encumbered with requirements like this?
    Mr. Guy. I would say that about one-half of that is 
encumbered, and we feel that it is other people's money, in 
that sense, and, in fact, GAO told us that some of that cash is 
not available.
    Senator Bennett. Now, can you use any of that in an 
emergency, even though it is encumbered, in effect, borrow it?
    Mr. DiMario. Some we can, and some we cannot. There are 
moneys that we, as an example, have received from customers 
against deposit accounts, and have not yet received 
requisitions for work. That money is not available for us to 
borrow. It is still the customer's money; it is just on deposit 
with us.
    At a point at which we receive an order the money becomes 
available to us even though we have not yet paid a contract or 
expended that money. We would be able to use that money.
    Where we have sold subscriptions and have not yet fulfilled 
the subscriptions, we have those moneys, and some of those may 
be limited in terms of what we can do, and GAO has spoken to 
that specific limitation.
    Senator Bennett. Are you earning interest on those 
balances, even though you cannot touch them?
    Mr. DiMario. No, sir; they are just accounts against the 
Treasury of the United States.

                       Year 2000 computer problem

    Senator Bennett. I see. I see. How much in your current 
budget do you think is going for the year 2000 problem?
    Mr. DiMario. For fiscal 1996 it was estimated to cost 
$328,000; in fiscal 1997, it was $5.9 million; and in fiscal 
1998, the current budget, it is $8.2 million. We have scheduled 
work over a period of time, reflecting what we believe is going 
into the year 2000 problem. Most of that money is previously 
allocated money for ongoing programs.
    Senator Bennett. What incremental costs do you have? I 
understand you are going to solve the year 2000 problem in part 
with money that you would have spent anyway----
    Mr. DiMario. Yes, sir.
    Senator Bennett [continuing]. Only you are dedicating it to 
the year 2000 problem, but there has to be some incremental 
money on top of that. Do you have any, and do you know how much 
it is?
    Mr. DiMario. In a ball park sense, based on what we have at 
this point, we believe that we are approaching $19 million in 
total costs. Of those costs most are for upgrading existing 
systems. Most projects have been approved, like the integrated 
processing system for the Superintendent of Documents sales 
program. That has already been delivered by the contractor, and 
is, at this point, being tested. We are training on that. We 
have approval, as I mentioned in the statement, for a new 
mainframe. That is about $1.8 million.
    So when you get to the incremental costs out of the $19 
million in total costs for new hardware and software, not 
associated with either existing labor costs or ongoing 
projects, we are talking about $3.5 million. That is our best 
estimate.
    Senator Bennett. OK.
    Mr. Mansker. Senator, if I could backup just a moment.
    Senator Bennett. Sure.

                           Cash requirements

    Mr. Mansker. When you were talking about the revolving 
fund, I do not want us to leave with the impression that of the 
$75 million in the revolving fund, we only have categories of 
restricted funds.
    The cash balance in the revolving fund is not readily 
available where we can just feel free to spend it, because we 
have also a committed unrestricted amount of funding for other 
things that we would have to borrow against, as you say, to get 
readily available cash to operate.
    Our last report said, from our comptroller's office, that 
the uncommitted, unrestricted funds that we have to use for 
future investment and capital expenditures, and so forth, is 
actually a negative figure in January. We are borrowing against 
unrestricted committed funds at this time, and one of the 
reasons for that, if I might get a little historical, is the 
$11 million that was----
    Senator Bennett. That was going to be my next question.
    Mr. Mansker. That has put a very severe cramp on our 
availability of funds for future capital expenditures. Right 
now we are actually in a negative posture. We think that will 
come around, to show a better situation, when Congress gets in 
full gear, which they have not been for the first 5 months of 
our fiscal year; but, we will start getting income to generate 
that figure up into a positive mode. But----
    Senator Bennett. Do you mean Congress will require more 
services?
    Mr. Mansker. Correct.
    Senator Bennett. OK.
    Mr. Mansker. Correct. And we could charge against the CP&B 
fund. But right now, I would not want to leave you with the 
impression that we have $40 million to spend for capital 
expenditures; we do not have that. The cash availability for 
future expenditures is very severely cramped.
    Mr. DiMario. The revolving fund itself was established 
primarily to take care of the peaks and valleys in printing, 
and also to provide for capital funding. Over a period of time, 
we have depleted that fund substantially, so we have reached a 
point where we are very reluctant to put obligations against it 
that we believe otherwise should be funded through a specific 
appropriation.
    Senator Bennett. I can understand that.

                     Additional committee questions

    I have no further questions. Thank you very much. We 
appreciate the hard work you have put in, and the service you 
have provided Congress.
    Mr. DiMario. Thank you very much.
    Senator Bennett. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]
                     Additional Committee Questions
    Question. Does GPO estimate losses for fiscal year 1998?
    Answer. Through January of the current fiscal year, the revolving 
fund lost $7.8 million on revenue of $258.3 million. GPO's long-term 
financial goal is to generate a small net income of about 1-2 percent 
in order to allow for capital replacement. This goal may be very 
difficult to attain this year, in view of the results to date. GPO's 
plans to improve financial results include major information systems 
upgrades, investments in more productive equipment and technology, a 
strengthened marketing program, and continued cost reductions. Many 
important external factors are largely beyond GPO's control, such as 
congressional workload, compliance with printing statutes, and paper 
prices. Rate adjustments may also be required.
    Question. How much has GPO included in its budget request for the 
year 2000 conversion?
    Answer. For fiscal year 1999, we estimate that the year 2000 
conversion cost for all GPO activities will be $4,390,500 in the 
revolving fund.
    Question. What is the status of the ESOP language that GPO 
requested last year and was going to work with the Commerce Committee 
to pass?
    Answer. GPO anticipated that legislation would be passed in the 
last session of Congress to include GPO in the National Energy 
Conservation Policy Act provisions authorizing energy savings 
performance contracts. Staff from the House Committee on Commerce were 
in contact with GPO regarding this effort. However, this legislation 
was not enacted and GPO is not aware of any current efforts in this 
area.
    Question. In response to Mr. DiMario's letter of November 25, 1997, 
transmitting the Inspector General's Semi-annual report to Congress, 
his letter states that GPO has initiated some corrective actions on all 
four reportable conditions from GPO's fiscal year 1995 financial 
statements. Please note for the record what corrective actions GPO has 
not taken identifying where staffing constraints or operating 
priorities have limited GPO's ability to completely resolve the 
reportable condition. Please note where applicable what resources would 
be necessary to resolve the condition.
    Answer. Management's position is that two corrective actions 
recommended by Arthur Andersen have not been fully implemented. They 
would require that a centralized computer security function be 
established to strengthen authorization and access controls over 
applications and to strengthen contingency plans and backup procedures 
for critical EDP systems. Full implementation of these recommendations 
would require additional staffing and overhead cost. Moreover, a 
complete back-up is not feasible at present. Additional time will be 
required to replace old legacy systems for which a practical off-site 
back-up is not available because the technology is obsolete.
    Both Booz-Allen & Hamilton and KPMG Peat Marwick are assessing the 
status of GPO's implementation of corrective actions related to these 
reportable conditions. The Booz-Allen report draft is due to GPO for 
comment in April 1998, and the KPMG review will be delivered in final 
by then.
    Question. Has the Inspector General completed his year 2000 
assessment? If so, please provide the assessment for the record.
    Answer. The Inspector General has not yet conducted a formal 
assessment of the program. At the time of the last semi-annual report, 
the Acting Inspector General indicated that the Office of the Inspector 
General (OIG) was preparing an advisory report to assess the current 
posture of GPO's efforts to address the year 2000 problem. 
Subsequently, the OIG became aware that GAO initiated a review. The 
Inspector General Act requires that the OIG avoid duplicating the 
effort of GAO.
    Question. Does the year 2000 problem present any risks to GPO's 
ability to print and distribute the Congressional Record?
    Answer. No, the software used in the processing of the 
Congressional Record was repaired, tested, and verified as year 2000 
compliant in February, 1998. The hardware utilized for Record 
processing was tested and found to be year 2000 compliant.
    Question. What is your estimated total cost to address the year 
2000 problem? What are the cost estimates for each of GPO's mission 
critical systems? What has been spent to date on your year 2000 effort? 
What is requested in your fiscal year 1999 budget? What is your cost 
estimate to complete year 2000 work beyond fiscal year 1999?
    Answer. At this time, we estimate that our total cost to address 
the year 2000 problem will be about $19.3 million. The cost estimates 
for each of GPO's mission critical systems are indicated in the 
attached schedule, which shows the breakout of cost by fiscal year for 
the various replacements, upgrades, and repairments.
    Through fiscal year 1997, a total of $6.2 million has been incurred 
for our year 2000 efforts. During fiscal year 1998, we estimate another 
$8.2 million will be spent. Our fiscal year 1999 budget estimates for 
the revolving fund include a total of about $4.4 million for Year 2000 
efforts. At the present time, our cost estimates for year 2000 work 
beyond fiscal year 1999 are about $431,000.
    Question. Has GPO completed a documented plan for making its 
mission critical systems year 2000 compliant, including schedules for 
renovating, validating and implementing each mission critical system. 
If so, please provide this plan for the record.
    Answer. GPO has issued an agency directive that states its year 
2000 plan for making all mission critical systems year 2000 compliant. 
A copy is attached. We are also submitting two schedules which show for 
each mission critical system the target date for completion and 
implementation for all repairments and replacements.
    Question. Has GPO developed a contingency plan in the event of 
systems failures on January 1, 2000? If so, please provide a copy of 
the plan for the record.
    Answer. GPO's recently issued directive for the year 2000 
establishes the requirement for the development of contingency plans 
for all mission critical systems with a target date for completion 
beyond March 31, 1999. The responsible managers are currently preparing 
those plans for submission to the year 2000 Program Management Office 
for consolidation in an overall GPO Contingency Plan. We will be glad 
to submit this overall plan to the committee when it is finished.
    Question. Please explain how GPO's printing procurement program 
runs a deficit? Isn't there a surcharge placed on each printing job to 
recover the cost of the program? Does GPO have a plan for turning this 
situation around?
    Answer. GPO's costs to administer the printing procurement program 
are recovered from a surcharge on the cost of the procured printing. 
The surcharge will recover GPO's costs if the dollar volume of printing 
is about $500 million per year. While the program operated in the black 
during fiscal year 1995 and fiscal year 1996, it has had losses since 
then because workload and paper prices declined. Some agencies are 
sending less of their printing to GPO, which they either produce in-
house or purchase themselves, at higher cost and, in certain cases, in 
conflict with law. GPO's plan for turning this situation around 
includes the following elements:
  --Increased marketing to our customers.
  --Increased interaction with contractors and agencies to develop new 
        product lines, especially in the digital arena.
  --Creation of simplified purchasing agreements.
  --Continued cost reduction at GPO and information systems 
        development, including expanded use of the Internet for 
        electronic commerce.
    Question. How much of the current GPO facility on North Capital St. 
is actually in use for the printing, binding, and storage of materials 
and products used in government printing? What are GPO's costs of 
upkeep for any unused portion as well as used portion of the building?
    Answer. Space within the current facility at North Capitol Street 
is assigned to a program or is considered common area. Common areas 
include Harding Hall, the Cafeteria, the Credit Union, the Blind Man 
Stand, all aisles, halls, support columns, shafts, restrooms, and 
elevators.
    The total square footage of the 4 building Central Complex is 
1,466,000 square feet. Total space assigned to GPO Programs, including 
administrative functions is 966,000 square feet. The space is assigned 
as follows:

                                                             Square Feet

Plant Production (including Materials Management Service and 
    Engineering)..............................................   715,000
Printing Procurement..........................................    26,000
Sales Program.................................................    66,000
S&E Programs..................................................    43,000
Administrative Areas (includes Customer Service)..............   116,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................   966,000

    The cost for cleaning used assigned space is approximately $2.1 
million per year. In addition, there are about 500,000 square feet 
classified as common area. The estimated cost of cleaning the common 
portions of the building is approximately $1.1 million annually. The 
unassigned space is necessary for common areas that indirectly support 
operations.
    We estimate that approximately 27,500 square feet of the assigned 
space is currently unused because of attrition in the workforce. We are 
considering the lease of space to other government agencies that may 
need it for small groups. The cost to upkeep unused assigned areas is 
minimal.
                                 ______
                                 
         Attachment 1.--GPO Instruction 705.26, March 16, 1998
                      GPO Year 2000 Program Guide
    Purpose.--To communicate general policies and procedures to define 
a process for implementing a Year 2000 Program throughout the 
Government Printing Office (GPO). It is intended to provide insight, 
recommendations, and a uniform structured approach for planning, 
implementing, managing, and evaluating GPO's Year 2000 Program to 
ensure that all mission critical systems will be fully operational in 
the year 2000.
    Background.--Since their inception, computer systems have typically 
used two digits to represent the year in an effort to conserve valuable 
resources and reduce operating costs. However, when the year 2000 
arrives, these systems may not be able to distinguish 2000 from 1900, 
2001 from 1901 and so on. With less than two years left to accomplish 
this enormous project, GPO must embark upon this substantial effort and 
apply all the needed resources to successfully accomplish this project 
well within the fast approaching deadline.
    The year 2000 compliance is defined as the ability of information 
systems to accurately process a date from, into, and between the 
twentieth and twenty-first centuries, including leap year calculations. 
The year 2000 date conversion problem is not unique to GPO and presents 
a global challenge to the entire information technology industry. Every 
organization, whether federal or private, must ensure that its 
information systems are fully year 2000 compliant well before December 
31, 1999. While the year 2000 problem is not technically challenging, 
it is massive and complex. The date problem may not be solely confined 
to application software, but may also exist in hardware (mainframes, 
minis, desktops, file servers, etc.), firmware, operating systems, 
compilers, languages, libraries of program software, database 
management systems, telecommunication monitors, any equipment 
containing microchip, etc.
    Scope.--This guidance document addresses the conversion or 
replacement of all Federal Information Processing (FIP) resources that 
are affected by the year 2000 problem. The term FIP resources includes 
hardware (mainframes, minis, desktops, file servers, etc.), software 
(operating systems, compilers, languages, libraries of program 
software, data base management systems, application systems, running on 
different platforms), firmware, microchip components, operating 
components, etc.
    Policy.--It is the policy of GPO that information is a valuable 
resource in support of its mission, and as such, must be managed 
efficiently, economically, and effectively. As a valuable resource, 
information must be planned, budgeted, controlled and managed; and to 
that end, it is the intent of GPO to establish, implement, and actively 
maintain an agency-wide Year 2000 Program to ensure GPO meets the 
challenge of the new millennium and is year 2000 compliant by October 
1, 1999.
    The GPO Year 2000 Program will encompass five critical phases: (1) 
awareness; (2) assessment; (3) renovation; (4) validation; and (5) 
implementation.
    In that context the GPO shall ensure that:
    All GPO and/or external major systems/components supporting core 
business activities or processes are certified as in compliance with 
year 2000 requirements or are converted or replaced to become year 2000 
compliant by October 1, 1999.
    All information systems and components in each business area are 
inventoried, and priorities are assigned to individual applications so 
that a year 2000 compliance program plan can be developed.
    All future acquisitions of FIP resources for GPO or its customers 
are year 2000 compliant.
    All conversion or replacement activity is performed to the extent 
possible in accordance with the General Accounting Office (GAO) 
conversion model outlined in the GAO's guidance document titled ``Year 
2000 Computing Crisis: An Assessment Guide'' dated September 1997. The 
conversion or replacement activity should follow all appropriate phases 
in the GAO guide.
    Year 2000 Program activities are given top priority. All new system 
development activity should be assigned lesser priority unless it 
replaces a non-compliant application or is needed to fulfill legal, 
statutory, or mission-critical office requirements. Similarly, existing 
system modification/enhancement activity should be limited to 
production problems, or to fulfill legal, statutory, or mission-
critical office requirements.
    Organizations are provided adequate resources to meet deadlines, 
including inter-departmental reassignment of resources or contracting 
out if necessary.
    New information technology productivity tools are acquired to 
facilitate and expedite the conversion, replacement, and testing 
activities, if applicable.
    Each organization establishes a validation phase testing group(s) 
which is different than the one(s) that performed the renovation, 
including any work that was contracted out; and that the validation 
groups certify applications for year 2000 compliance.
    All GPO organizations providing information processing services to 
various customer entities shall develop software bridges to accommodate 
non-compliant data exchanges with their external customer entities.
    Responsibilities.--The GPO Year 2000 Program will be administered 
through a closely coordinated network of management and supervisory 
officials, with the Director of the Policy Coordination Staff serving 
as the Year 2000 Program Manager. The principal management official 
responsible for overall GPO Year 2000 Program is the Deputy Public 
Printer. Policy guidance provided by the Deputy Public Printer through 
the Year 2000 Program Management Office, GPO's executive management, 
managers in core business areas, and personnel involved in the year 
2000 conversion/replacement effort will work together in harmony and 
bring GPO's Year 2000 Program to a successful conclusion by October 1, 
1999.
    The following is a detailed description of the various duties and 
responsibilities for the GPO Year 2000 Program.
  --Deputy Public Printer.--The Deputy Public Printer is responsible 
        for ensuring the development, implementation, and maintenance 
        of a GPO-wide Year 2000 Program and ensuring compliance with 
        applicable Federal laws and regulations and internal GPO 
        policies and procedures.
  --Policy Coordination Staff (PCS).--The Director of PCS will serve as 
        the Program Manager for the GPO Year 2000 Program and provide 
        oversight and administration to the GPO Year 2000 Program 
        Management Office. The Director is responsible for 
        communicating GPO Year 2000 policy guidelines, coordinating the 
        year 2000 activity at the agency-wide level, and preparing 
        status reports for GPO executive management and other agencies, 
        as required. The Year 2000 Program Management Office, under the 
        direction of the PCS Director, is responsible for:
    --Coordinating the planning and development of the GPO Year 2000 
            Program;
    --Serving as the liaison to the various designated year 2000 
            coordinators for all of GPO's Year 2000 Program activities 
            to ensure requirements and needs are addressed by GPO 
            organizations to certify that GPO is year 2000 compliant by 
            October 1, 1999;
    --Serving as the principal advisor to the Public Printer and the 
            Deputy Public Printer concerning year 2000 policy and 
            direction; and
    --Developing and recommending GPO's Year 2000 policy, standards, 
            and procedures for the Public Printer's and the Deputy 
            Public Printer's approval.
  --Office of the Inspector General (OIG).--In carrying out its 
        statutory requirements, the OIG may conduct periodic reviews as 
        desired to ensure that the project activity is following the 
        best program management practices, conforms to the policy 
        guidelines, and is on target to meet the project deadline.
  --Department/Service/Staff/Office Heads.--Department/Service/Staff/
        Office heads will carry out the intent of this Instruction 
        within their areas of responsibility. For the Year 2000 Program 
        to be successful and accomplished in a time and resource 
        constrained environment, it will require the total support and 
        commitment of management and transcend organizational 
        boundaries. In that regard, Department/Service/Staff/Office 
        heads are responsible for certifying that all GPO and/or 
        external major systems/components supporting core business 
        activities or processes within their areas of authority are in 
        compliance with year 2000 requirements or are converted or 
        replaced to become year 2000 compliant by October 1, 1999. This 
        responsibility can best be accomplished by:
    --Appointing an employee(s) as designated contact point(s) for all 
            year 2000-related matters to assist in the overall 
            assessment, renovation, validation, and implementation of 
            the program in their specific areas of responsibility;
    --Actively participating to resolve any year 2000 problems;
    --Elevating the visibility of the program within their 
            organizations;
    --Adhering to status and compliance reporting;
    --Providing full cooperation with the Year 2000 Program Office;
    --Ensuring that year 2000 requirements and needs are properly 
            defined, including reviewing and maintaining an inventory 
            of existing hardware, software, and support agreements for 
            their specific areas to make certain that year 2000 
            compliance is accomplished by October 1, 1999;
    --Monitoring the effectiveness of the Year 2000 Program efforts in 
            their area of responsibility;
    --Developing realistic contingency plans, including the development 
            and activation of manual or contract procedures, for all 
            mission-critical systems/applications which are not year 
            2000 compliant by March 1999, to ensure the continuity of 
            GPO's critical products and services; and
    --Identifying and reporting the cost of all efforts and resources 
            used to achieve year 2000 compliance for their systems and 
            applications.
    Effective Date.--This Instruction is effective upon issuance.
    Inquiries.--Inquiries concerning this Instruction should be 
directed to the GPO Year 2000 Program Manager on 202-512-0263.

                                        Michael F. DiMario,
                                                    Public Printer.
                                 ______
                                 
Total number of agency systems....................................   107
Total number of mission-critical systems..........................    56
    Number already compliant......................................    11
    Number being replaced.........................................     9
    Number being repaired.........................................    22
    Number being retired..........................................    14

----------------------------------------------------------------------------------------------------------------
                                                                  Milestones for
                                                                     mission-                         Percent
                                                                     critical      No. completed     completed
                                                                      systems
----------------------------------------------------------------------------------------------------------------
Assessment......................................................           10/98              38              68
Renovation......................................................            1/99              12              21
Validation......................................................            2/99              11              20
Implementation..................................................            3/99              11              20
----------------------------------------------------------------------------------------------------------------

Cost

Fiscal year:
    1996................................................    \1\ $342,545
    1997................................................   \2\ 5,886,340
    1998................................................   \2\ 8,237,800
    1999................................................       4,390,500
    2000................................................         431,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................      19,288,185

\1\ Cost figures for fiscal year 1996 include funds for internal costs 
for the Integrated Processing System (IPS) and the Work In Process (WIP) 
system.
\2\ Cost figures for fiscal year 1997 and fiscal year 1998 include funds 
for Integrated Processing for Documents ($7 million) and the conversion 
of the Regional Printing Procurement Offices from system 36's to a PC 
based network ($1.5 million). These projects were planned before Y2K 
efforts but are included in the Y2K Program as replacements.

                           UNITED STATES GOVERNMENT PRINTING OFFICE Y2K COST BREAKDOWN
                                             [As of March 19, 1998]
----------------------------------------------------------------------------------------------------------------
                                                          Fiscal year--
         Description         ----------------------------------------------------------------------     Total
                                  1996          1997          1998          1999          2000
----------------------------------------------------------------------------------------------------------------
 
            OIRM
 
OIRM (Repair Programs)......       $47,805      $126,400      $385,000      $227,200  ............      $786,405
Integrated Processing System  ............     5,000,000     2,000,000  ............  ............     7,000,000
 (IPS)......................
IPS--Internal Cost..........        41,400       259,500       174,000  ............  ............       474,900
Engineering--JOTS             ............        54,000       149,800        70,000       $70,000       343,800
 Replacement................
Mainframe/OS Replacement....  ............  ............  ............       391,400       356,000       747,400
General Ledger (G/L)........  ............  ............       203,000       120,000         5,000       328,000
Probe Replacement (Data       ............  ............       424,000  ............  ............       424,000
 Collection)................
Work In Process (WIP).......       239,000       286,900       100,000  ............  ............       625,900
Upgrade Banyan Servers......  ............  ............        50,000  ............  ............        50,000
                             -----------------------------------------------------------------------------------
      Total OIRM............       328,205     5,726,800     3,485,800       808,600       431,000    10,780,405
                             ===================================================================================
         Production
 
PEPS (Repair Programs)......  ............       117,450       308,700        38,900  ............       465,050
Production (Repair Programs)  ............  ............       629,000       791,000  ............     1,420,000
                             -----------------------------------------------------------------------------------
      Total Production......  ............       117,450       937,700       829,900  ............     1,885,050
                             ===================================================================================
          GPO-Wide
 
NT Network Conversion.......  ............  ............       900,000       672,000  ............     1,572,000
Replace Workstations          ............  ............       640,000     1,280,000  ............     1,920,000
 (Approx. 960)..............
PPD System 36 Replacement...  ............  ............     1,500,000  ............  ............     1,500,000
IG Network Replacement......        14,340        42,090        49,300        50,000  ............       155,730
Y2K Program Office and        ............  ............       725,000       750,000  ............     1,475,000
 Coordinators...............
                             -----------------------------------------------------------------------------------
      Total GPO-Wide........        14,340        42,090     3,814,300     2,752,000  ............     6,622,730
                             ===================================================================================
Agency Totals...............       342,545     5,886,340     8,237,800     4,390,500       431,000    19,288,185
----------------------------------------------------------------------------------------------------------------

                                                                                                    [GRAPHIC] [TIFF OMITTED] T08MA19.004
                                                                                                    
                                                                                                    [GRAPHIC] [TIFF OMITTED] T08MA19.005
                                                                                                    
                                                                                                    [GRAPHIC] [TIFF OMITTED] T08MA19.006
                                                                                                    
    Questions Submitted by the Committee on Rules and Administration
                              gpo finances
    Question. At the end of fiscal year 1997 there was approximately 
$31 million in unobligated funding for Congressional Printing and 
Binding. Based on GPO's experience over the past several years, 
wouldn't it be more reasonable to propose a Congressional Printing and 
Binding appropriation of around $60 million, as opposed to the $84 
million contained in GPO's fiscal year 1999 budget submission?
    Answer. The $31 million was unexpended but was obligated to pay for 
congressional work that remained uncompleted or unbilled at year end. 
The requested level is necessary to avoid losses in fiscal year 1999 
due to congressional work. The requested level is 6 percent below the 
actual expenditures against the fiscal year 1993 appropriation. GPO 
prepares estimates of fiscal year requirements for printing and binding 
based on historical data. The data is adjusted for cyclical trends such 
as first and second sessions of Congress and first year of a 
presidential administration term. The volume of Congressional Printing 
and Binding requirements for fiscal year 1997 was at an exceedingly low 
point.
    Question. How much of that $31 million in unobligated funding for 
Congressional Printing and Binding remains unobligated? If the amount 
is less than $31 million, please provide a detailed accounting of its 
use.
    Answer. At the end of fiscal year 1997 the Congressional Printing 
and Binding (CP&B) Appropriation account had an unexpended but 
obligated balance of $31 million. We estimated that the $31 million 
would be required to complete the remaining 2,100 orders for which 
obligation were established in fiscal year 1997.
    The fiscal year 1997 CP&B account has made payments totaling $19 
million since September 1997. Details of those expenditures are as 
follows:

Fiscal year 1997 congressional printing and binding

           [Expenditures, Oct. 1, 1997 through Feb. 28, 1998]

                                                                 Amounts

Congressional Record Publications:
    Daily Record..............................................$7,810,674
    Microfiche Record.........................................     5,815
    Electronic On-Line Record.................................    95,626
    Record Index..............................................    45,689
    Record Indexers...........................................    53,040
                    --------------------------------------------------------------
                    ____________________________________________________

      Subtotal................................................ 8,010,844
                    ==============================================================
                    ____________________________________________________
Miscellaneous publications....................................   460,437
Miscellaneous printing and binding............................ 2,290,629
Details to Congress...........................................   408,414
Document envelopes and franks.................................   111,263
Business and committee calendars..............................   242,614
Bills, resolutions, and amendments............................ 2,894,602
Committee reports.............................................   556,031
Documents.....................................................   518,207
Hearings...................................................... 3,521,784
Committee prints..............................................   147,096
                    --------------------------------------------------------------
                    ____________________________________________________

      Total expenditures......................................19,161,921

    This $19 million expenditure leaves a balance of $12 million in the 
CP&B Appropriation account to allow for the completion of Congressional 
work which originated in fiscal year 1997.
    Question. You note that the Government Printing Office (GPO) 
generated a consolidated net income from continuing operations of $11.6 
million for fiscal year 1997. You further note that this net income 
occurred primarily as a result of GPO fully recovering its costs as 
required by law. Please tell the committee if GPO fully recovered its 
costs in all areas of operation. If it did not, then please specify 
which areas over-recovered, which under-recovered, and which broke 
even.
    Answer. GPO did not recover all of its cost in each area of 
operation. The GPO plant showed a gain of $12.3 million. During fiscal 
year 1997, GPO made an accounting adjustment to recover the portion of 
prior years' unrecovered cost associated with printing for Congress and 
the printing of publications for depository libraries, which resulted 
from the congressionally-mandated freeze on GPO plant rates. Congress 
had appropriated sufficient funds to cover all the cost but GPO was 
prevented from billing the total cost during the prior years due to the 
rate freeze. The amount of the adjustment was $12.8 million. Since the 
books were closed for the prior years, the proper accounting treatment 
was to record this money as current year income. This adjustment 
accounts for the entire gain in fiscal year 1997.
    The Regional Printing operation under-recovered its cost by 
$544,000. The Printing Procurement program under-recovered its cost by 
$2.3 million, which is four-tenths of one percent of total program 
revenues. The Sales of Publications program over-recovered its cost by 
$1.3 million and the Agency Distribution program over-recovered its 
cost by $41,000.
    Question. If GPO fully recovered its costs in fiscal year 1997, 
then why does the agency's year-end financial overview show net income 
of $12.28 million for the printing plant? Did GPO over recover from the 
Congress, or from in-house printing done for other agencies of the 
Federal government? Why and how was net income generated in this 
particular area of GPO's operation?
    Answer. The accounting adjustment of $12.8 million made to recover 
prior years' cost was credited to the plant since the plant performed 
the work. GPO did not over-recover from the Congress or from executive 
branch agencies. In fact, the rate freeze caused the revolving fund to 
incur losses for 5 years because GPO was prevented from raising prices 
and therefore was unable to use the traditional mechanisms to fully 
recover its costs during those years. Net income was generated in plant 
operations due to the accounting adjustment for prior years amounting 
to $12.8 million.
    Question. For the last several years GPO has reported ``under-
recovery'' of costs for Congressional Printing and Binding. How can 
this be, particularly in light of the requirements of Title 44 that the 
Public Printer fully recover the costs for this service?
    Answer. The under-recovery of cost for Congressional Printing and 
Binding was due to the rate freeze which prevented GPO from billing its 
total cost through the established rate structure. In addition, 
congressional workload decreased which caused GPO's revenue to drop, 
thereby further exacerbating the under-recovery of cost condition.
    Question. Please explain how it is that GPO's printing procurement 
program runs a deficit? Isn't there a surcharge placed on each printing 
job to recover the cost of the program? Does GPO have a plan for 
turning this situation around?
    Answer. GPO's Printing Procurement Program has recently run a 
deficit due to a decline in workload. GPO's pricing policy is to add $5 
plus six percent to the commercial cost of the job to fully recover 
program costs. In recent years, executive agencies either have reduced 
their printing requirements or have chosen to bypass GPO and print on 
their own. The impact on GPO is less revenue, which causes the Printing 
Procurement Program to run a deficit. GPO is actively marketing its 
services in an attempt to bring executive agency printing back to the 
Printing Procurement Program, where customers can receive the best 
product at the lowest possible price. If executive agencies continue to 
bypass GPO, an increase to the surcharge may be warranted.
    Question. In the area of the SuDocs, is the excess funds from the 
sale of publication program used to help offset the cost of the 
depository library program?
    Answer. Excess receipts from the sale of publications are not used 
to offset the cost of the depository library program. Excess receipts 
are held by the revolving fund as retained earnings for capital 
improvements and to absorb possible future under-recoveries. In the 
past, excess receipts from the Sales of Publications Program were used 
to supplement the Salaries and Expenses Appropriation. Special 
appropriation language required GPO to do this. The last year this 
occurred was fiscal year 1990.
    Question. Please tell the Committee what GPO's average daily cost 
for personnel is--assume a five day work week, and 52 weeks a year.
    Answer. The average daily cost for personnel is $768,000, assuming 
five days a week, 52 weeks a year.
                        regional printing plant
    Question. Last year GPO closed all but one of its regional printing 
plants, the Denver plant. Why wasn't the Denver plant closed, too, and 
the printing from this plant outsourced to the private sector?
    Answer. The Denver plant remains open to produce classified 
documents for agencies who have lost that capability through closure of 
their in-house facilities.
    Question. How much longer is GPO going to sustain losses before the 
Denver facility breaks even, and what plans does GPO have for causing 
that facility to break even?
    Answer. The Denver plant generates sufficient revenues to cover its 
direct expenses as well as make a contribution toward GPO's overhead 
expenses. If the Denver plant is closed, that contribution to overhead 
will have to come from somewhere else. The objective of the plant is to 
recover all costs, to reduce costs, and to provide service to core 
customers. Over the past 5 years, staffing at this plant has been 
reduced by 50 percent to the current level of 25 employees. This was 
accomplished through attrition and by cross-training remaining staff to 
perform multiple tasks. Plant prices are adjusted periodically to 
recover costs. Plant space has been reduced 25 percent. Approximately 
1,000 square feet of warehouse space was released to GSA in January 
1998 and approximately 5,000 square feet of light industrial space will 
be taken over by GSA in fiscal year 1999. There are 5 employees 
currently eligible to retire who will not be replaced, representing a 
potential savings of $175,000.
    Question. What kind of work is done in the Denver plant?
    Answer. The Denver plant is a secure facility. Over 50 percent of 
the jobs and 70 percent of the revenue are derived from producing 
classified/sensitive jobs. The plant's major customer is the Department 
of Justice, Drug Enforcement Agency, and El Paso Intelligence Center. 
The other major customers sending in classified/sensitive jobs are the 
Immigration and Naturalization Service, the Department of Defense, and 
the Office of Personnel Management. The plant is currently working with 
the Department of Energy to be a DOE-cleared facility. The DOE has 
determined that they would like to use the Denver plant for work that 
can no longer be produced in their in-house facilities because of 
planned plant closures.
    Question. Is GPO aggressively marketing the Denver plant's 
capability, or just waiting for the work to come in the door?
    Answer. Marketing is being done through the regional system by 
managers referring customers to the Denver plant when they have 
requirements for security work. This method had been very successful 
over the past 5 years. It is difficult to market classified security 
services publicly.
                           fugitive documents
    Question. In recent years, a number of Federal agencies have 
entered into so-called ``partnering programs'' with private sector, or 
other non-federal organizations for the production of various 
publications. These partnering arrangements have become an explanation 
for declining sales and fugitive documents in the Superintendent's 
various public access programs. If the Superintendent of Documents is 
aware that various government publications are being produced in this 
manner, why can't he make arrangements to get these publications into 
the depository and sales programs?
    Answer. Agency partnerships with private sector firms tend to 
account for a low volume of fugitive products, but these tend to be key 
publications of broad public interest.
    With regard to the sales program, a 1977 opinion by GPO's General 
Counsel cites Joint Committee on Printing Government Printing and 
Binding Regulation 41-1 as follows: ``The Superintendent of Documents 
will sell only those publications printed by the Government Printing 
Office or ordered printed through the Government Printing Office or the 
Government Printing Office Regional Printing Procurement Offices * * 
*.'' This language remains in the current Regulations, so publications 
printed by private sector partners of Government agencies are 
prohibited for sale through GPO. This is an issue that could be 
considered as a part of Title 44 reform.
    When the depository program becomes aware of publications produced 
through such arrangements, every effort is made to obtain copies for 
the depository program. These efforts are often costly and time-
consuming compared with obtaining copies of publications printed or 
procured through GPO. Examples of such efforts include:
  --Big Emerging Markets.--Developed by the International Trade 
        Administration and printed by a private firm in a joint venture 
        with the National Technical Information Service (NTIS), this 
        product was originally offered to the FDLP in microfiche 
        format. This was unsuitable due to the presence of color charts 
        in the product. Only after several months of discussion and 
        congressional pressure did NTIS provide print copies.
  --Journal of the National Cancer Institute.--This periodical is now 
        published by Oxford University Press under the terms of a 
        Cooperative Research and Development Agreement (CRDA) with the 
        National Cancer Institute (NCI). Initially the FDLP was told by 
        NCI that this arrangement rendered the Journal a non-Government 
        product, even though editorial work is still being performed by 
        NCI employees. After NCI officials discussed the matter with 
        the Joint Committee on Printing, Oxford University Press agreed 
        to furnish depository copies.
  --Hispanics-Latinos: Diverse People in a Multicultural Society.--This 
        title was first published by a private sector trade association 
        based in Washington, DC. Although the data was gathered and 
        prepared at public expense, it was provided to this private 
        group, which then copyrighted the publication and sold it for 
        $10 per copy. Because Hispanics-Latinos was not printed through 
        GPO, it was not initially available to the Depository Program. 
        When this situation was brought to the attention of the Census 
        Bureau through Senate Rules and Administration Committee 
        hearings, the Bureau reprinted the book through GPO so 
        depository copies would be available.
  --A Nation of Opportunity/KickStart Initiative.--The United States 
        Advisory Council on the National Information Infrastructure 
        issued two reports that were initially published by West 
        Publishing, a major private sector seller of legal publications 
        and databases, although they were prepared by the Commission at 
        public expense. Initially these publications were not made 
        available to either the Superintendent of Documents Sales or 
        Depository Programs. Once the Joint Committee on Printing was 
        apprised of this situation it contacted the Commission. As a 
        result, the National Telecommunications and Information 
        Administration of the Department of Commerce reprinted the 
        publications through GPO in a much less elaborate black-and-
        white format and both the Sales and Depository Programs 
        acquired copies.
  --Population of States and Counties of the United States: 1790-
        1990.--This Census publication was printed by NTIS rather than 
        through GPO. Through what was described by Census as a 
        ``handshake agreement,'' NTIS asked that Census not make this 
        publication available to either the Depository or Sales 
        Programs for its first six months so as not to hurt its 
        exclusive sale by NTIS. As a result of Senate Rules and 
        Administration Committee hearings, GPO obtained a copy from 
        Census shortly after its publication by NTIS. The Depository 
        Program printed copies for its use and Sales acquired copies 
        for sale to the public.
    Question. Which agencies are doing printing on their own, and of 
these, which ones are not notifying the Superintendent of Documents of 
their publishing activities? Has the Superintendent attempted to work 
out an arrangement with known ``fugitive'' agencies? If so, what has 
been the result? If not, why not?
    Answer. The National Institutes of Health (NIH), the Federal 
Aviation Administration (FAA) and the Department of Defense are some of 
the agencies that are procuring significant amounts of printing 
directly rather than through GPO. NTIS solicits other agencies to 
obtain printing through them rather than through GPO.
    Whenever agencies procure printing other than through GPO, problems 
tend to arise regarding their depository library responsibilities. Many 
agencies, although using GPO for printing some publications, are remiss 
in notifying the Superintendent of Documents of other documents. 
Agencies that we must approach most often regarding notification to the 
Superintendent of Documents include the Library of Congress, the 
Environmental Protection Agency (particularly the regional offices), 
the Central Intelligence Agency, some parts of the Department of 
Defense, and the National Oceanic and Atmospheric Administration 
(particularly the National Geophysical Data Center.)
    When individual fugitive documents are identified, we make every 
effort to include them in the FDLP and inform the issuing agency of its 
obligation to provide copies for the FDLP. The majority of fugitive 
documents, however, have been those of a scientific and technical 
nature that have not been printed or procured through GPO.
    Significant progress has been made with other Government 
information disseminators to expand the range of content available at 
no cost to depository libraries and the public. GPO has entered into 
agreements with the Department of Energy (DOE) and NTIS which will 
enable libraries to search and obtain U.S. Government scientific and 
technical information in electronic image format via the Internet on 
demand. The DOE project, a major step in the transition to a more 
electronic FDLP, will provide electronic versions of approximately 
15,000 reports each year which were previously available to depository 
libraries in microfiche only. GPO and NTIS have worked out a pilot 
project that eventually should make approximately 55,000 scientific and 
technical documents each year available to depository libraries on 
demand over the Internet.
    Another problem, however, is the number of information products now 
being published only on the Internet without notification to the FDLP. 
We have addressed this issue in our legislative proposal for Title 44 
revision, which was submitted to the Senate Rules and Administration 
Committee on May 29, 1997. Meanwhile, we will continue working on the 
establishment of arrangements for access to such information with 
individual agencies.
    Question. In fiscal year 1997, GPO's salary and expense costs for 
the Superintendent of Documents shows a decrease of 14 percent from the 
previous year. The rationale for this decrease includes agencies 
discontinuing the printing of publications; agencies partnering with 
private companies to privatize government information; agencies 
circumventing Title 44 to create ``fugitive'' documents; and, 
increasing electronic depository distribution through GPO Access. 
Please explain to the committee how these factors reduced the salaries 
and expenses of the Superintendent's program.
    Answer. The largest single factor in the 15 percent decline in 
fiscal year 1997 Superintendent of Documents salary and expenses costs 
as reported by GPO's Comptroller is a 26 percent decline in printing 
and reproduction costs. Our experience indicates that the greatest 
impact on printing and binding expenditures has resulted from agencies 
either discontinuing printed products or obtaining them elsewhere than 
GPO. As noted above, agency partnerships with private sector firms 
account for a low volume of fugitive products, but these tend to be key 
publications of broad public interest.
    The migration of printing to electronic publishing already in 
evidence will continue. While this scenario increases the possibility 
that information will not be provided to the FDLP in a tangible medium, 
it also offers a unique opportunity to bring additional information 
into the FDLP for no-fee public use. When the source information is in 
electronic format, the agency can either make it available at no cost 
on its own Internet Web site, or can ask GPO to make it available via 
the GPO Access service. Either of these approaches would enable the 
FDLP to provide more information to the public. In this scenario, the 
projected decline in the amount of printed material would gradually 
reduce printing costs to the Program. New costs will be incurred, 
however, as the FDLP assumes the costs of providing current and 
permanent public access to electronic products; costs that, with 
respect to tangible products, were hitherto borne by regional 
depository libraries.
           cost and use of maintaining current gpo facilities
    Question. How much of the current GPO facility on North Capital is 
actually in use for the printing, binding, and storage of materials and 
products used in Government printing?
    Space within the current facility at North Capitol Street is 
assigned to a program or is considered common area. Common areas 
include Harding Hall, the Cafeteria, the Credit Union, the Blind Man 
Stand, and all aisles, halls, support columns, shafts, restrooms, and 
elevators. The total square footage of the 4-building Central Office 
Complex is 1,466,000 square feet. Total space assigned to GPO Programs, 
including administrative functions, is 966,000 square feet. The space 
is assigned as follows:

                                                             Square Feet

Plant Production (including Materials Management Service and 
    Engineering)..............................................   715,000
Printing Procurement..........................................    26,000
Sales Program.................................................    66,000
S&E Programs..................................................    43,000
Administrative Areas (includes Customer Service)..............   116,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................   966,000

    Question. What are GPO's cost of upkeep for the unused portion of 
the building? What are GPO's cost of upkeep for the used portion of the 
building?
    Answer. The cost for cleaning used assigned space is approximately 
$2.1 million per year. In addition, there are about 500,000 square feet 
classified as common area. The estimated cost of cleaning the common 
portions of the building is approximately $1.1 million annually. The 
unassigned space is necessary for common areas that indirectly support 
operations.
    We estimate that approximately 27,500 square feet of the assigned 
space is currently unused because of attrition in the workforce. We are 
considering the lease of space to other government agencies that may 
need it for small groups. The cost to upkeep unused assigned areas is 
minimal.
    Question. In addition to the costs for new electrical switching 
equipment requested last year, and new air conditioning equipment now 
under review by the JCP, what other costs does GPO anticipate over the 
next three years for the upgrading, and/or replacement of major 
mechanical equipment and maintenance of the plant? In light of these 
costs, and the amount of space actually used by GPO for printing, 
binding and related activities, would it not be to GPO's financial 
advantage to acquire a new, more economical facility?
    Answer. Building projects foreseen at this time are: (1) additional 
pollution control equipment for printing presses; (2) upgrade to energy 
efficient lighting throughout the agency; (3) renovation of elevators 
has been an ongoing project that will require a few more years to 
complete; and (4) maintenance of the buildings' brickwork and roof.
    Regarding the option for a new facility, a comprehensive study of 
this option has not been done recently. The costs of construction and 
re-installation of equipment would likely be high and it is unknown 
whether the benefits would offset this additional cost. I would point 
out that GPO has saved millions in recent years by consolidating 
outlying operations from leased space (at Union Center Plaza and the 
Washington Navy Yard in Washington, DC, and at warehouses formerly 
located in the Alexandria, VA, area) into the Central Office facility.
    Question. Several years ago, GAO reported that GPO had a 33 percent 
spoilage rate on paper used for in-house printing as compared with 
under a 10 percent spoilage rate in the private sector. What is your 
present spoilage rate, and what does that cost the agency? What can be 
done to reduce both the amount and cost of spoilage?
    Answer. GPO's paper waste and spoilage tends to run higher than in 
private industry because of its unique workload. In its September 1990 
report on GPO (GAO/GGD-90-107; this study was based on fiscal year 1989 
data), the GAO reported that ``GPO's waste and spoilage averaged about 
12 percent above the highest private industry standard'' (p. 37). The 
GAO stated that ``GPO's unique wide range of in-house plant operations 
may not be strictly comparable to private industry activities'' (p. 
37).
    In the private sector, production quantities produced on high-speed 
web presses are typically much higher than the quick turn-around, 
smaller production quantities requested by the Congress and produced in 
GPO. Newspapers, magazines, and most other commercial products have 
much longer production runs on press than the average GPO job, 
resulting in lower waste and spoilage percentages. Also, certain 
characteristics of GPO production that are adopted to meet critical 
congressional demand, such as lifting one job from a press to replace 
it with another more critical job, can lead to comparatively higher 
waste and spoilage data. The GAO report itself noted that part of GPO's 
waste and spoilage rate is caused by ``the need for press changes to 
respond to changing workload demands placed on GPO'' (p. 37).
    GPO's present waste and spoilage rate is about 37 percent. The 
estimated cost to GPO of paper waste and spoilage for fiscal year 1997 
was $5.6 million (the cost of waste and spoilage in fiscal year 1989 
was $7 million). The fiscal year 1997 cost was offset in part by 
revenues of $334,500 from the sale of waste paper.
    A certain amount of GPO's paper waste and spoilage rate is planned. 
For example, some waste will result from paper trimmed to meet job 
requirements. Press makereadies also result in planned waste. A 
makeready will consume a standard amount of paper before a job is run. 
If the job requires a long press run, the percentage of paper waste and 
spoilage will be comparatively small. With shorter press runs, the 
percentage will increase. As press runs for GPO work have been reduced 
by ordering customers in recent years, the percentage of planned waste 
and spoilage to actual paper consumed on printing jobs has increased. 
There are other contributory factors to the waste and spoilage rate, 
including paper handling procedures and back-to-press requirements.
    Nevertheless, our objective is to minimize the waste and spoilage 
rate by ensuring that it meets an acceptable level as determined by 
current equipment capabilities and workload mix. An effort has been 
recently undertaken by the Production Manager and our Quality Control 
and Technical Department to reduce the paper waste and spoilage rate to 
its lowest possible level.
    Question. In light of the amount of unused space in the present GPO 
buildings, has any thought been given to co-locating the Laurel 
warehouse space at the plant?
    Answer. Co-locating warehouse space to the GPO Central Office would 
face several obstacles. Currently, unoccupied Central Office space 
exists at various locations on several floors. The need to move 
materials over relatively long distances using elevators which must 
also be used to handle printing plant materials would be highly 
inefficient. In addition, Laurel's ceilings are high enough to permit 
``four-high'' storage, unlike the GPO Central Office, which would mean 
that at least 400,000 square feet of space would need to be available. 
The additional shipping and receiving required by such a consolidation 
would also strain current Central Office facilities. The expense of 
providing consolidated and renovated space, in addition to the purchase 
of enough new storage racks and picking bins to permit the move without 
an extended disruption of operations, would make the cost prohibitive.
                             marketing gpo
    Question. Today, agencies have a variety of means available to 
produce and disseminate their publications. They do not have to rely on 
ink on paper. They produce and disseminate electronically via the World 
Wide Web. They use print on demand technology, and some have found 
other creative ways to make their information available to the American 
public. Given this state of affairs, it strikes me that an agency like 
the Government Printing Office (GPO) cannot rest on its laurels, and 
expect everyone to beat a path to their door. GPO must give agencies a 
reason and incentive to use them. Describe to the Committee GPO's 
customer marketing program, as well as GPO's customer satisfaction 
program. How does GPO win and keep agencies as customers?
    Answer. I think that congressional entities, Federal agencies, 
private sector printers who do business with GPO, depository libraries, 
Government information users, and others who utilize GPO's programs and 
services are very familiar and satisfied with GPO's products and 
services. We have performed customer satisfaction surveys periodically 
which substantiate this. We regularly reach out to agencies, the 
printing industry, the library community, and Government information 
users to inform them of our programs and services, and we also work 
closely with congressional committees, Members, and the leadership to 
make our latest programs and services known to them.
    The recently concluded management audit of GPO conducted by Booz-
Allen & Hamilton found strong support in Congress for GPO's in-house 
production operations for congressional printing, stating that GPO's 
production area ``consistently meets a demanding congressional 
production schedule.'' According to briefing materials distributed by 
Booz-Allen on March 18, 1998, GPO's ``production functions are geared 
to rapidly and consistently produce congressional products'' and are 
``flexible and responsive to changing congressional needs.'' In 
addition, the auditors said that GPO has ``developed strong and cordial 
relationships with their contacts within congressional organizations 
and offices,'' and GPO's ``communication with the congressional 
customer is frequent and regular.''
    The auditors also found strong support among executive branch 
agencies for GPO's printing procurement program, characterizing it as 
``an example of the best services that the government has to offer.'' 
They said, ``For some time now, GPO has been employing contracting 
techniques that have recently become recognized as best practices 
throughout the government,'' citing as examples GPO's use of past 
performance data in making contract award decisions, its database of 
approximately 10,000 potential vendors, the expertise of its staff, and 
its use of term contracts for multiple agency use and direct deal 
arrangements.
    In addition, the auditors reported that GPO's depository library 
program ``serves a necessary service of government'' in providing 
government information for the use of the public free of charge, and 
that GPO is using technology effectively to transition this program to 
a more electronic basis. They noted specifically that GPO Access, GPO's 
Internet information service, ``is one of the Federal Government's 
largest and most active web sites and has been highly successful in 
making Government information easily available to the public.''
    GPO's capabilities for quick turnaround, quality, low cost 
publications are well known throughout Federal agencies. We service our 
customers' graphic arts needs. We meet regularly with the Interagency 
Council on Printing and Publication Services to discuss concerns and 
new developments. We also meet regularly with the representatives of 
the Federal Publishers' Committee to discuss their concerns. We have an 
entire organizational unit dedicated to providing customer service to 
Congress and Federal agencies, staffed by congressional information 
specialists and departmental account representatives who are intimately 
familiar with customer requirements, Title 44 provisions, and GPO and 
industry printing capabilities. Our Procurement Department is staffed 
by experts in the printing industry and the printing procurement 
process. Our Typography and Design area is staffed with award-winning 
designers and graphic arts specialists who are constantly sought-out by 
agencies to produce quality products.
    In our Superintendent of Documents area, we provide both pre- and 
post-publication marketing services for Government information 
products, including electronic products. GPO Access is quickly becoming 
the premier Federal online sight for access to Government information, 
with more than 10 million documents downloaded monthly. It has become 
the Government's leading GILS site. It has won several awards and was 
recently the subject of praise one of the Government's most widely-read 
computer publications. GPO has been singled out as one of the 
Government's leading CD-ROM producers, a service also widely used by 
Federal agencies. Not long ago GPO won a coveted Hammer Award from the 
National Performance Review for its work in the creation of the new 
electronic Commerce Business Daily. All of these factors are taken into 
consideration by Federal agencies which call on us to support their 
graphic arts and public information dissemination needs.
    To attract new business, GPO is undertaking additional marketing 
efforts with departments and agencies. The focus of these efforts is to 
visit customer agencies with a team representing Customer Service, 
Procurement, and Superintendent of Documents functions to market the 
full range of GPO services available. Follow-up meetings will be 
focused to address specific agency needs and services. Initial 
reactions to such efforts have been very positive, with the 
establishment of new contracts and the increased usage of GPO Access.
    Question. Pricing is an important element in customer satisfaction. 
The committee understands that agencies are charged a surcharge of up 
to six percent on the first $200,000 of a job procured through GPO. 
What services does GPO provide for that surcharge, and are agencies 
satisfied that they are getting a good value for the money?
    Answer. GPO charges customers $5 plus 6 percent on the commercial 
cost of a procured job. For this, customers receive many services: the 
benefit of Printing Procurement's database of commercial printers 
nationwide which increases competition and lowers prices; contract 
administration by contracting officers with a background in printing; 
contract compliance and quality control testing; design and layout 
assistance by visual communication specialists; on-site press sheet 
inspections; payment administration of contractors and accounting 
services; investigation of potential contractor irregularities by GPO's 
Inspector General; and legal remedies for contractor defaults and 
failures to meet specifications.
    Question. An additional element in pricing is an assurance that the 
actual bill will reflect closely the estimates provided. What is the 
status of efforts by GPO to institute ``fixed pricing'' for its 
customers? What has GPO found to be the advantages and disadvantages of 
``fixed pricing,'' and have the advantages outweighed the 
disadvantages? If the advantages have outweighed the disadvantages, how 
long will it be before ``fixed pricing'' becomes the standard practice 
for GPO?
    Answer. GPO is willing to firm price many types of work, if the 
ordering agency wishes to do so, and we are offering this as an option. 
GPO has also undertaken a firm pricing pilot on certain repetitive 
contract work. However, agency acceptance of firm pricing has been 
unexpectedly mixed. Although agency accounting staff frequently welcome 
it, agency printing and administrative management representatives are 
less excited about it. GPO plans to continue offering this option and 
hopes to gain some experience with this practice over the next year. 
Also, a Windows-based improvement to GPO's procured job tracking system 
will provide agencies with cost and status information more quickly in 
an easy-to-use format. Another payment alternative that GPO has 
recently developed to assist agencies with their billing concerns is 
the GPO Deposit Account. This approach eliminates a number of agency 
required labor-intensive process without losing accountability. GPO 
feels that all of these improvements combined will go a long way toward 
addressing customer concerns about costs and billing.
                                training
    Question. One strategy for staffing the Government Printing Office 
is to train personnel to perform more than one or two functions. Does 
GPO have an aggressive training program which cross trains employees to 
perform the various functions required to produce the Congressional 
Record, or other publications produced in the plant? If so, how many 
employees went through the program in the past fiscal year? How much 
money was invested in the program, and what was the outcome?
    Answer. GPO has several Production cross-training programs in 
place. The cross-training programs train employees in a different trade 
if we have found there may be a surplus in their particular position.
    Cross-training of employees is essential if it expects to provide 
services as it continues to downsize. Prior to beginning its last 
apprentice program, in February of 1996, modifications were made to the 
existing curriculum that provided 300 hours of cross-training time for 
proofreading and keyboarding apprentices, respectively. This, coupled 
with technological changes and an influx of outside hires with varied 
skill, has helped eliminate traditional multicraft barriers in the 
Electronic Photocomposition Division. As a result, on any given day or 
night, many proofreaders will prepare copy, revise, read, and perform a 
variety of computer operations while data entry personnel perform 
proofreading and computer tasks. This has been accomplished as on-the-
job training without additional monetary investment. We are convinced 
that these cross-training activities have allowed this division to 
significantly reduce its manpower requirements. Plans for 1998 include 
implementation of direct-to-plate printing. This new technology will 
impact on a large number of prepress employees who will also be cross-
trained in other printing disciplines.
    In the Press Division, the Negative Section and Copy Prep Section 
have cross-trained their employees to perform various functions in each 
section. The Press Section has a continuing program of cross-training 
sheet-fed presspersons to perform as web presspersons. In the past 
fiscal year we had seven employees in the program. The letterpress 
cylinder presspersons are being trained in the offset process. The past 
fiscal year we have trained five cylinder presspersons and promoted one 
to second web pressperson. Fifty-three web presspersons have been 
trained by the Graphic Arts Technical Foundation in proper web 
practices and procedures at a cost of approximately $40,000. This 
training was geared to the new presses that print the Congressional 
Record and Federal Register. This training was completed in the past 
fiscal year.
    The Binding Division cross-trains bookbinders to ensure that all of 
our processes can be accomplished as required. We cross trained 
approximately 15 bookbinders last year.
    Question. Congressional offices and committees which use GPO 
detailees are increasingly expressing concern over how ill-trained 
these detailees are to perform the tasks required of them. Does GPO 
have a training program for detailees? What other steps is GPO taking 
to respond to these concerns? Do committees have a choice or a voice in 
the selection of detailees to do their work?
    Answer. Traditionally, GPO was required to send only proofreaders 
to Capitol Hill on detail assignments. This eventually evolved into 
situations that required both data entry and proofreading skills. Now 
that work processing and composition for printing are performed in 
their entirety by many congressional committees, a more rounded 
education is paramount. Recently, the Electronic Photocomposition 
Division, having been informed of skill level deficiencies, initiated 
an accelerated training class for Capitol Hill details. Volunteer 
employees were given 4 days of intensive classroom training that 
consisted of the following:
    Basic computer familiarization (Windows 95 and XyWrite).
    Copy Preparation: Knowledge of formats and copy standardization; 
and coding with the necessary tagging scheme.
    Use of MicroComp composition software.
    Use of scanning equipment: Scanning images; and OCR and related 
hardware and software as required.
    Immediately prior to starting a detail, the employee will also be 
trained in the needs of the specific committee or office. Detail 
assignments will now be made from this group for any committee that 
requires other than basic proofreading or keyboarding.
    GPO explains to staffers that an initial familiarization period for 
new detailees is needed, and notifies detailees that others already on 
the Hill are resources on unfamiliar office procedures. They are also 
advised that training or assistance from organizations like Graphic 
Systems Development Division (GSDD) are available. Occasionally, GPO 
receives a request for a specific detailee by name. These are usually 
honored if the Committee can demonstrate that the specific employee 
possesses previous experience in performing tasks particular to that 
Committee. These assignments are normally for a previously defined and 
usually short period of time. In the absence of a need for a specific 
detailee, selection is made from the pool of volunteers mentioned above 
in accordance with labor/management agreements. When a Committee 
expresses dissatisfaction with the performance of a detailee, the 
detailee is given additional training and assistance to improve his/her 
skills. Committees are aware that should the detailee performance still 
not meet their needs, they can release that detailee and request 
another.

                         conclusion of hearings

    Senator Bennett. If there is nothing further, the 
subcommittee is recessed.
    [Whereupon, at 10:12 a.m., Thursday, March 19, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Abrecht, Gary L., Chief, U.S. Capitol Police.....................     1
American Bar Association, prepared statement of the..............   183
Archer, Bill, Joint Committee on Taxation, prepared statement....    93

Balderson, Stuart F., Financial Clerk of the Senate, Office of 
  the Secretary of the Senate, U.S. Senate.......................    27
    Prepared statement...........................................    62
Bennett, Robert F., U.S. Senator from Utah...................1, 79, 217
Billington, James H., Librarian of Congress, Library of Congress.   131
    Prepared statement...........................................   134
Blum, James, Deputy Director, Congressional Budget Office........    67
Boren, Michael, Administrative Assistant, Joint Committee on 
  Taxation.......................................................    91
Brown, Richard L., Controller, General Accounting Office.........   247
Buckley, Fran, Superintendent of Documents, Government Printing 
  Office.........................................................   257

Casey, Gregory S., Sergeant at Arms and Doorkeeper, Office of the 
  Sergeant at Arms and Doorkeeper, U.S. Senate and member, 
  Capitol Police Board.........................................1, 6, 89
    Prepared statement...........................................   115
Committee on Rules and Administration, questions submitted by the   276
Crowley, Brian P., Assistant Comptroller General for Planning and 
  Reporting, General Accounting Office...........................   247

DiMario, Michael F., Public Printer, Government Printing Office..   257
    Prepared statement...........................................   258
Dodaro, Joan M., Assistant Comptroller General for Operations, 
  General Accounting Office......................................   247
Dorgan, Hon. Byron L., U.S. Senator from North Dakota............     3
    Questions submitted by.............................20, 76, 187, 254

Franklin, Herbert M., Administrative Assistant, Architect of the 
  Capitol........................................................   217
Frenze, Chris, Executive Director, Joint Economic Committee......    79

Guy, William M., Budget Officer, Government Printing Office......   257

Hantman, Alan M., AIA, Architect of the Capitol...............1, 7, 217
    Prepared statement...........................................   226
Harris, Larry, Administrative Assistant, Office of the Sergeant 
  at Arms and Doorkeeper, U.S. Senate............................    89
Hinchman, James F., Acting Comptroller General of the United 
  States, General Accounting Office..............................   247
    Prepared statement...........................................   250

Livingood, Wilson, House Sergeant at Arms and Chairman, U.S. 
  Capitol Police Board...........................................  1, 4

Mansker, Robert, Deputy Public Printer, Government Printing 
  Office.........................................................   257
Mulhollan, Daniel P., Director, Congressional Research Service, 
  Library of Congress..........................................131, 152
    Prepared statement...........................................   153

O'Neill, June E., Ph.D., Director, Congressional Budget Office...    67
    Prepared statement...........................................    69

Paull, Lindy, Chief of Staff, Joint Committee on Taxation........    91
Peters, Marybeth, Register of Copyrights, Copyright Office, 
  Library of Congress, prepared statement........................   148
Peterson, Eric, Staff Director, Joint Committee on Printing......    85
Poole, Amita, Supervising Engineer, Capitol Building, Architect 
  of the Capitol.................................................   217
Pregnall, Stuart, Budget Officer, Architect of the Capitol.......   217

Roth, Hon. William V., Jr., Chairman, Joint Committee on Taxation    91
    Prepared statement...........................................    93

Saxton, Hon. Jim, Chairman, Joint Economic Committee.............79, 80
    Prepared statement...........................................    80
Schmitt, Bernie, Deputy Chief of Staff, Revenue Analysis, Joint 
  Committee on Taxation..........................................    91
Schmitt, Mary, Deputy Chief of Staff, Law, Joint Committee on 
  Taxation.......................................................    91
Scott, Donald L., Deputy Librarian of Congress, Library of 
  Congress.....................................................131, 150
Silberman, Ricky, Executive Director, Office of Compliance.......   193
    Prepared statement...........................................   195
Sisco, Gary, Secretary of the Senate, Office of the Secretary of 
  the Senate, U.S. Senate........................................    27
    Prepared statement...........................................    33
Stevens, Hon. Ted, U.S. Senator from Alaska......................     3
Stoffel, Larry, Superintendent, Senate office buildings, 
  Architect of the Capitol.......................................   217

Warner, Hon. John, Chairman, Joint Committee on Printing.........    85
    Prepared statement...........................................    85

Zelaska, Sharon, Assistant Secretary of the Senate, Office of the 
  Secretary of the Senate, U.S. Senate...........................    27


                             SUBJECT INDEX

                              ----------                              

                        ARCHITECT OF THE CAPITOL

                                                                   Page
Additional committee questions...................................   242
Agency overview..................................................   218
Auditable financial statements.................................241, 244
Botanic Garden project...........................................   240
Canine facility, renovation of the...............................   243
Capital project management.....................................241, 244
Capital projects.................................................   223
Computer-aided facilities management.............................   243
Cyclical maintenance reinvestment................................   225
Emergency supplemental funding...................................   240
Five year capital budget, fiscal year 1999.......................   231
Fort Meade project...............................................   243
FTE employment...................................................   221
Future shortfall.................................................   237
General introduction and executive summary.......................   226
Human factor.....................................................   236
Off-site delivery center.........................................   244
Office of the Architect of the Capitol, role of the..............   229
Operating and capital budget.....................................   222
    Fiscal year 1999.............................................   220
Operating budget, fiscal year 1999...............................   230
Privatization....................................................   242
Reinvestment benchmark...........................................   224
Strategic business planning effort: Goals and processes for 
  sensible agency reengineering..................................   235
Strategic planning.............................................219, 243
Uniform program..................................................   242
Year 2000 problem................................................   245

                      CONGRESSIONAL BUDGET OFFICE

Additional committee questions...................................    73
Budget deficit outlook and recent CBO estimates..................    69
Congressional Budget Office:
    Areas of concern surrounding the budget request..............    68
    Fiscal year 1999 request.....................................    67
    On the World Wide Web........................................    70
Fiscal year 1999 request.........................................    71

                       GENERAL ACCOUNTING OFFICE

Accomplishments and highlights, fiscal year 1997.................   250
Additional committee questions...................................   253
Budget request, fiscal year 1999.................................   251
Comptroller General, need to appoint.............................   247
Computer leasing.................................................   253
Desktop video....................................................   252
Statement highlights.............................................   249
Year 2000 compliance.............................................   252

                       GOVERNMENT PRINTING OFFICE

Additional committee questions...................................   267
Appropriations request, fiscal year 1999.........................   259
Cash requirements................................................   266
Congressional printing and binding appropriation.................   260
Congressional Record, bound......................................   261
Congressional serial sets........................................   261
Depository library program, transitioning the....................   262
Facilities, cost and use of maintaining current..................   280
Fugitive documents...............................................   278
GPO:
    Finances.....................................................   276
    Keeps America informed.......................................   258
    Year 2000 Program Guide......................................   269
Marketing GPO....................................................   282
Public Printer's statement.......................................   257
Regional printing plant..........................................   277
Revolving fund.................................................262, 264
Salaries and expenses appropriation..............................   260
Training.........................................................   283
Year 2000 computer problem.......................................   265

                      JOINT COMMITTEE ON PRINTING

Title 44.........................................................    86

                      JOINT COMMITTEE ON TAXATION

Appropriation request, details of fiscal year 1999...............    94
Budget request, summary of fiscal year 1999......................    94
Fiscal year 1999 request.........................................    93
Revenue estimates................................................    92
Review of operations during calendar year 1997...................    95
Workload, summary of anticipated for calendar year 1998..........    97

                        JOINT ECONOMIC COMMITTEE

Staffing level...................................................    82
Year 2000 issue..................................................    81

                          LIBRARY OF CONGRESS

Additional committee questions...................................   185
Audio/visual equipment...........................................   137
Collections security.............................................   188
Congressional Research Service............................138, 187, 189
    Distribution of written products to the public...............   157
    Issue briefs and reports online..............................   153
    Mission......................................................   152
    Products to the public legal issues presented by proposals 
      for the general release of--February 24, 1998..............   165
    Reports, concerns of putting online..........................   178
    Sustaining the quality and scope of services.................   154
    Written products to the public congressional policy 
      concerning the distribution of--January 2, 1998............   159
Copyright Office...............................................137, 188
Fiscal 1997, major accomplishments during........................   135
Global legal information network.................................   186
Integrated library system........................................   185
Law Library......................................................   137
Legislation, proposed............................................   139
Legislative information system...................................   186
Library:
    Accomplishments..............................................   150
    Bicentennial.................................................   133
        And the information age..................................   135
    Buildings and grounds........................................   138
    Challenges...................................................   132
    Mission......................................................   132
    Security.....................................................   187
        Of staff, collections, and facilities....................   136
National digital library.........................................   188
National Library Service for the Blind and Physically Handicapped   138
Off-site storage and preservation................................   137
Priority budget items............................................   151
Summary of Culpeper Audio-Visual Conservation Center transaction.   183
Year 2000......................................................187, 189

                          OFFICE OF COMPLIANCE

Additional committee questions...................................   211
Adjudication.....................................................   196
Administrative and financial improvements........................   201
Americans with Disabilities Act, public services and 
  accommodations under the.......................................   198
Awards and settlements appropriation.............................   202
Counseling and mediation processes...............................   193
Dispute resolution process.......................................   196
Education and information........................................   199
Information, counseling, and mediation, requests for.............   196
Inspections, technical assistance, and investigations............   197
Occupational safety and health...................................   197
Office of Compliance:
    Authority and responsibilities...............................   195
    Budget request for fiscal year 1999..........................   202
Regulation writing...............................................   200
Settlements and awards...........................................   215
Studies and reports..............................................   201
Unfair labor practices...........................................   199

                       U.S. CAPITOL POLICE BOARD

Additional committee questions...................................    16
Architect of the Capitol:
    And U.S. Capitol Police, memorandum of understanding between.     8
    Police-related projects......................................    10
    Security projects in the budget..............................    10
Capitol Complex Integrated Security Facilities Program...........    25
Civilian Merit Increase Program..................................    22
Crimes against persons and property..............................    24
General expense budget...........................................    22
National Finance Center update...................................    22
Pay..............................................................    21
Perimeter security plan..........................................     9
Personnel increase...............................................    20
Unionization status..............................................    20

                              U.S. SENATE

                 Office of the Secretary of the Senate

Additional committee questions...................................    63
Administrative Offices...........................................    43
    Disbursing Office............................................    43
    Historical Office............................................    56
    Information Systems Department...............................    60
    Interparliamentary Services..................................    54
    Office of Conservation and Preservation......................    52
    Office of Human Resources....................................    49
    Office of Public Records.....................................    55
    Office of Senate Curator.....................................    57
    Office of Senate Security....................................    53
    Office of the Senate Chief Counsel for Employment............    50
    Senate Gift Shop.............................................    54
    Senate Library...............................................    49
    Senate Page School...........................................    58
    Senate Stationery Room.......................................    53
Amendment tracking system........................................    29
Budget request, fiscal year 1999.................................    27
Capitol visitor center...........................................    32
Committee scheduling.............................................    29
Financial management information system..........................    31
Interparliamentary services:
    Official foreign visitors in 1997............................    61
    Trips in 1997................................................    61
Legislative departments..........................................    34
    Bill clerk...................................................    34
    Daily Digest.................................................    35
    Enrolling clerk..............................................    35
    Executive clerk..............................................    35
    Journal clerk................................................    36
    Legislative clerk............................................    36
    Office of Captioning Services................................    43
    Office of Official Reporters of Debates......................    37
    Parliamentarian..............................................    38
    Printing and Document Services...............................    38
Legislative information system...................................    28
Rollcall votes, automated........................................    29
Strategic planning...............................................    28
Succession planning..............................................    32
Summary statement................................................    27
User response....................................................    30

             Office of the Sergeant at Arms and Doorkeeper

Additional committee questions...................................   123
Beauty and barber shops..........................................   120
Cellular phones..................................................   121
Equipment, disposal of surplus...................................   122
Procurement operation............................................   122
Summary statement................................................    89

                                   - 

</pre></body></html>
